                        SIGTARP: Quarterly Report to Congress | July 25, 2012
                                                                                                        C
                                                                                                   INSPE TOR GEN
                                                                                              AL                E
                                                                                           CI




                                                                                                                           RA
                                                                                       E
                                                                                     SP




                                                                                                                               L
                                                                                                                               M
                                                                                    TRO




                                                                                                                           RA
                                                                                          LE




                                                                                     UB




                                                                                                                      OG
                                                                                               DA                          R
                                                                                                    S S E T R E LI E F P




SIGTARP
SIG-QR-12-03
                         Q3
                        2012
                                                                                SIGTARP                                            Office of the Special Inspector General
                                                                                                                                   for the Troubled Asset Relief Program
                                                                                Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                               Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                               July 25, 2012
www.SIGTARP.gov
MISSION
SIGTARP’s Mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
Contents

Executive Summary	3
  Oversight Activities of SIGTARP	                                       10
  SIGTARP Recommendations on the Operation of TARP	                      11
  Report Organization	                                                   11

Section 1
The Office of the Special Inspector General for the
Troubled Asset Relief Program	                                          13
  SIGTARP Creation and Statutory Authority	                             15
  SIGTARP Oversight Activities Since the April 2012 Quarterly Report	   15
  The SIGTARP Organization	                                             33

Section 2
TARP Overview	                                                           35
  TARP Funds Update	                                                     37
  Financial Overview of TARP	                                            42
  Housing Support Programs	                                              63
  Financial Institution Support Programs	                                87
  Asset Support Programs	                                               128
  Automotive Industry Support Programs	                                 144

Section 3
AIG Remains in TARP as the Largest TARP Investment	 151
  Introduction	153
  Rise and Fall of AIG Prior to TARP	               154
  Changes at AIG After the Government Bailout	      156
  AIG’s Current Businesses	                         160
  AIG’s Changing Regulatory Environment	            164

Section 4
TARP Operations and Administration	                                     169
  TARP Administrative and Program Expenditures	                         171
  Current Contractors and Financial Agents	                             172

Section 5
SIGTARP Recommendations	                                                181
  Recommendations from SIGTARP’s Audit of the Hardest Hit Fund	         183
  Recommendations from SIGTARP’s Audit of the Net Present Value
    Test’s Impact on the Home Affordable Modification Program	          186
  Update on Recommendation Regarding Hardest Hit Fund
    Information Security	                                               187

  Endnotes	206
Appendices
A.	Glossary	                                                          228
B.	 Acronyms and Abbreviations	                                       232
C.	 Reporting Requirements	                                           235
D.	 Transaction Detail	                                               239
E.	 Cross-Reference of Report to the Inspector General Act of 1978	   320
F.	 Public Announcements of Audits	                                   321
G.	 Key Oversight Reports and Testimony	                              322
H.	Correspondence	                                                    324
I.	 Organizational Chart 	                                            333
Executive Summary
4   special inspector general I troubled asset relief program
                                                                                                                                    quarterly report to congress I July 25, 2012   5




Last quarter, SIGTARP reported that TARP’s legacies include white-collar crime
that SIGTARP is uncovering and stopping. This quarter, SIGTARP agents,
along with our law enforcement partners, arrested the CEO of TARP applicant
the Bank of the Commonwealth (“BOC”) of Norfolk, Virginia, and four other
bank executives for their alleged role in a massive fraud that contributed to the
bank’s 2011 collapse and the financial crisis.i The Federal Reserve Board Office
of Inspector General (“FRB OIG”) found that the bank’s regulator identified
fundamental weaknesses with the bank as early as 2000. However, the regulator
did not take advantage of multiple opportunities to “take stronger supervisory
action by implementing more aggressive enforcement actions.” Bank failures
have profound effects, including taxpayer losses for failed TARP banks;ii losses
to the FDIC’s fund that insures customer deposits; and losses to communities
that suffer from decreased access to lending for homes, small businesses, and
education. Bank failures fueled by fraud erode public confidence in the financial
system — confidence already down because of public perception of risky banking
practices, soaring executive compensation, and recent scandals. BOC’s failure and
the criminal charges provide lessons to be learned for the future. Banks should not
wait for the Government to catch fraud. Banks must better regulate risky practices,
strengthen internal controls, and eliminate opportunities to conceal losses. Banking
regulators must be vigilant in their examinations and enforcement to discover
risky practices and potential fraud that could threaten the safety and soundness of
banks. This is particularly true at the more than 300 banks left in TARP in which
taxpayers are investors. Only then will confidence in our nation’s banking system
and a sense of accountability be restored.

Bank Failures
Bank failures skyrocketed following the onset of the financial crisis, from zero to
five failures a year between 1995 and 2007, to an average of 107 per year from
2008 through 2011. According to FDIC, 2010 was the high-water mark for bank
failures post-crisis, with 157 bank failures. The pace of bank failures has slowed
since the 2010 peak, but continues at an elevated rate, with 38 bank failures so far
this year.
     While the crisis in real estate markets undoubtedly factored into the spike in
bank failures, internal problems such as poor corporate governance, weak risk man-
agement, and weak internal controls were contributing factors as well. The Federal
Reserve Bank of Philadelphia stated in a 2009 article, “People often presume that
the challenging economy and sluggish housing market were the key drivers behind
these failures, particularly since many tended to be geographically clustered in
distressed regions. While the external economic environment certainly was influen-
tial, it was rarely a standalone factor in a bank’s demise. The root causes of problems
are often traced to inherent risk exposures or management weaknesses that become


i
    	In November 2008, Bank of the Commonwealth applied for $28 million in TARP funds, but was asked by its banking regulator to
      withdraw its application.
ii
    	As of June 30, 2012, 17 TARP banks have failed.
6   special inspector general I troubled asset relief program




                                           more pronounced under stressful conditions and ultimately impair an institution’s
                                           ability to weather adverse conditions.” This is borne out in SIGTARP’s criminal
                                           investigations of failed TARP applicant and recipient banks.

                                           SIGTARP’s Criminal Investigations
                                           SIGTARP has found in some of its criminal investigations that the financial
                                           crisis was a crossroads for many bank executives, particularly those at regional or
                                           community banks, whose business models focused predominantly on real estate
                                           loans. Thousands of bank executives faced bank losses during the financial crisis
                                           without turning to fraud. Those bank executives told the truth about losses and
                                           non-performing loans and adequately reserved for future losses or wrote off losses.
                                           Others turned to crime. For some bankers committing fraud, the sudden availability
                                           of TARP funds was seen as a way to play the float in concealing past due loans as
                                           bankers waited for a market upturn. These bankers viewed the financial crisis as an
                                           opportunity to extend their fraud by exploiting our nation’s vulnerability.
                                               The financial crisis also unveiled fraud that had been ongoing for years, as
                                           shrinking capital and increasing delinquent loans left bankers with nowhere to
                                           hide. For example, the criminal charges against five BOC executives and seven co-
                                           conspirators highlight a massive bank fraud at the highest levels of management,
                                           fueled by greed that included an unsuccessful attempt to use TARP funds.iii BOC
                                           was the eighth largest bank failure in 2011, with an FDIC-estimated loss of $268
                                           million. The indictment alleges that for years the bankers fraudulently masked
                                           the bank’s condition out of fear that the bank’s declining health would negatively
                                           impact investor and customer confidence. According to the charges, many of the
                                           bank’s loans were funded and administered without regard to industry standards or
                                           the bank’s own internal controls.
                                               FRB OIG reported on the causes of the bank’s failure, including corporate
                                           governance weaknesses, insufficient risk management practices, and pervasive
                                           internal control weaknesses that when combined with deteriorating real estate
                                           markets led to rapid asset quality deterioration. The bank failed to acknowledge
                                           the extent of its problem loans and adequately reserve for losses. FRB OIG
                                           reported that the bank’s supervisor, FRB Richmond, identified the bank’s
                                           fundamental weaknesses in 2000, but did not take early and decisive action to
                                           resolve those weaknesses. The regulator identified broad authority in the hands
                                           of CEO Edward Woodard, an ineffective board that had not monitored risks, and
                                           a weak internal audit function. FRB OIG reported that the failure to implement
                                           appropriate risk management and internal controls created the opportunity for
                                           the bank to engage in unsafe and unsound practices designed to mask the bank’s
                                           true financial condition. In FRB OIG’s opinion, more forceful supervisory action
                                           through enforcement actions or downgrades could have mitigated losses.




                                             	Federal indictments are only charges and not evidence of guilt. A defendant is presumed to be innocent until and unless proven guilty.
                                           iii
                                                                                                                                  quarterly report to congress I July 25, 2012   7




    These findings, along with allegations in the criminal charges resulting from
SIGTARP’s investigation, provide an opportunity for banks and their regulators
to take advantage of lessons learned. This is particularly true for banks in which
taxpayers still hold a TARP investment. Banks should not wait for the Government
to catch these schemes. Banks should engage in strong corporate governance and
internal controls to expose risky practices that could threaten the bank’s health.
    Banking regulators have an opportunity to strengthen their examination
processes, including educating their examiners on identifying indicators of fraud
schemes in the BOC case and other SIGTARP cases that could impact the safety
and soundness of a bank. These schemes, as described below, are not isolated to
the few examples cited in this summary.

Common Fraud Schemes to Mask a Bank’s Financial
Conditioniv

Extend and Pretend Schemes
SIGTARP has uncovered “extend and pretend” schemes, by which bank insiders
create the illusion that a past-due loan is current. Methods include extending the
due date of a payment, changing loan terms, and creating new loans that bankers
know will be used not for the stated purpose, but instead to generate proceeds to
bring delinquent loans current. The bankers do not expect any payments to be
made on the new loans and eventually write off losses on the new loans. In these
schemes, bankers falsify the books and records to avoid reporting past-due loans
and to increase the amount of new loans.
    BOC allegedly engaged in an “extend and pretend” scheme. CEO Edward
Woodard, his son bank officer Troy Brandon Woodard, and executive vice presi-
dents Simon Hounslow and Stephen Fields were charged with overdrawing deposit
accounts to make loan payments, extending new loans or additional principal on
existing loans to cover payment shortfalls, changing the terms of loan agreements
to make loans appear current, and using funds from related entities to make loan
payments. According to the criminal charges, the bank funded new loans without
current borrower financial statements, without adequate collateral, and without
current appraisals for collateral. BOC loan officer Jeremy Churchill pled guilty to
submitting false information for new loans to developer Dwight Etheridge (also
charged), who allegedly used the proceeds to pay down his existing delinquent loan.
    Another SIGTARP investigation demonstrating an “extend and pretend”
scheme involved failed, TARP-approved, First Community Bank in Hammond,
Louisiana. There, former CEO Reginald Harper and developer Troy Fouquet pled
guilty to fraud in which they knowingly hid Fouquet’s delinquent loans through a
number of methods to extend and pretend. This fraud impacted the bank’s $3.3
million TARP application, which the bank withdrew after Treasury approval.



 	The discussion of charges that follows is based on Federal indictments. Federal indictments are only charges and not evidence of guilt.
iv

  A defendant is presumed to be innocent until and unless proven guilty. SIGTARP has noted where the defendant pled guilty.
8   special inspector general I troubled asset relief program




                                           Fraudulent Construction Draws
                                           Banks may fund fraudulent draws on construction loans for work not completed
                                           and use the proceeds to make it appear that delinquent loans are current. BOC
                                           CEO Woodard is charged with funding eight fraudulent construction draws to
                                           developer Dwight Etheridge, who was also charged, and who allegedly used the
                                           proceeds to pay down his past-due BOC loans. BOC loan officer Churchill and
                                           Etheridge’s vice president Recardo Lewis pled guilty to this scheme. BOC vice
                                           president Stephen Fields is charged with funding fraudulent construction draws to
                                           customers Menden and George Hranowskyj (who both pled guilty), without Fields
                                           verifying that work was completed.v

                                           Bank-Financed Sales of Bank-Owned Property or Troubled Loans
                                           BOC CEO Woodard and three other bank executives are charged with funneling
                                           bank-owned property (such as property the bank took over in foreclosure) to certain
                                           borrowers who were delinquent on loans, to the detriment of the bank. It is alleged
                                           that in exchange for preferential treatment on delinquent loans and no-questions-
                                           asked new loans, Menden (who pled guilty) used “straw purchasers” who were
                                           Menden’s employees to buy bank-owned property. It is alleged that these “sales”
                                           allowed the bank to take the properties off the bank’s books. The bank allegedly
                                           concealed that it funded these purchases.
                                               As a result of another SIGTARP investigation, Jerry Williams, CEO and chair-
                                           man of TARP applicant Orion Bank of Naples, Florida, Thomas Hebble, executive
                                           vice president, and Angel Guerzon, senior vice president, were sentenced to prison
                                           for concealing that the bank financed the sale of notes secured by non-performing
                                           mortgages. This fraudulently took the loans off the bank’s books.

                                           Roundtrip Transactions Creating the Illusion of Capital Infusions
                                           In these schemes a bank’s books fraudulently reflect that an investor infused capital
                                           into the bank by buying stock. The capital infusion is not genuine because the
                                           buyer actually used the bank’s own money to purchase the stock. The three Orion
                                           Bank executives and bank borrower Francesco Mileto were sentenced to prison for
                                           concealing the bank’s financing of the sale of Orion stock to Mileto’s associates.
                                           Their fraud created the illusion of a $15 million capital infusion into the bank.

                                           Delay and Pray Schemes
                                           In a typical “delay and pray” scheme, bankers with knowledge of facts relating to
                                           the likelihood of loans not being repaid delay recognizing those facts in their bank’s
                                           books. This scheme, as with all the schemes above, typically involves falsification
                                           of the bank’s books and records, and fraudulently concealing the status of loans
                                           from regulators to make it appear that loans are current or that they are likely to
                                           be repaid.


                                           	In some instances bank insiders personally benefit from the fraud. BOC CEO Edward Woodard and his bank officer son Troy Brandon
                                           v

                                             Woodard were charged with having the bank fund fraudulent draws for construction on a bank branch when the true costs were for
                                             renovating the son’s residence.
                                                                                quarterly report to congress I July 25, 2012   9




    As a result of an ongoing SIGTARP investigation, Ebrahim Shabudin, execu-
tive vice president, and Thomas Yu, senior vice president, of TARP recipient United
Commercial Bank (“UCB”) of San Francisco, California, were charged with hiding
the bank’s true financial condition from investors, depositors, regulators, Treasury,
and the bank’s auditor. According to the indictment, the objective of the fraud
scheme was to conceal, delay, and avoid publicly reporting the bank’s number of
impaired loans and the bank’s true loan loss. The indictment charged that the
defendants used a variety of fraudulent accounting maneuvers and techniques
to conceal that they falsified the bank’s books and records. It is alleged that they
delayed downgrading the risk ratings of certain loans and falsified the bank’s books
and records, falsely describing or omitting information necessary to describe the
likelihood that certain loans would be repaid and the value of the collateral and
repossessed assets. UCB was the first TARP bank to fail. Taxpayers will suffer a
complete loss on the $298 million TARP investment. The FDIC estimates that
deposit insurance fund losses will be $2.5 billion.

Preventing Fraud and Bringing Accountability
Banks and their regulators have an opportunity to implement lessons learned
from the schemes SIGTARP uncovered in the Bank of the Commonwealth and
other cases. They can proactively detect and prevent fraudulent practices before
a bank fails and bring accountability where fraud is found. As was evident in the
BOC case, these schemes can impact the safety and soundness of the bank and
may ultimately contribute to the bank’s failure. Bank examiners should therefore
be on the alert to detect these and other schemes SIGTARP has uncovered and
be vigilant in enforcement. Banks should not wait for Government action. Banks
themselves must embrace the importance of self-regulation through effective
corporate governance, risk management, and a “checks and balances” system
of controls. Bank executives should expound these principles by virtue of their
leadership and fiduciary duties. Banks and bank regulators should report fraud
to law enforcement. Banks and their regulators must demonstrate strong will,
capability, and commitment to detecting and preventing bank failures and fraud.
In doing so, they can reassure American taxpayers of accountability and increase
market confidence in our banking system. SIGTARP is committed to uncovering
fraud related to TARP and bringing justice and accountability to the American
taxpayers. Confidence and public trust in banks and banking regulators are
fundamental to ensuring stability in our financial system.
10   special inspector general I troubled asset relief program




                                            Oversight Activities of SIGTARP
                                            SIGTARP actively strives to fulfill its audit and investigative functions. Since its
                                            inception, SIGTARP has issued 19 published reports on audits and evaluations
                                            as of June 30, 2012. Two audit reports have been published since the end of last
                                            quarter: “Factors Affecting Implementation of the Hardest Hit Fund Program”
                                            and “The Net Present Value Test’s Impact on the Home Affordable Modification
                                            Program.” Section 1 of this report, “The Office of the Special Inspector General for
                                            the Troubled Asset Relief Program,” discusses these two recently released reports.
                                                SIGTARP is a white-collar law enforcement agency. As of July 12, 2012,
                                            SIGTARP had more than 150 ongoing criminal and civil investigations, many in
                                            partnership with other law enforcement agencies in order to leverage resources
                                            throughout the Government. SIGTARP takes its law enforcement mandate seriously,
                                            working hard to deliver the accountability the American people demand and deserve.
                                            SIGTARP’s investigations have delivered substantial results, including:

                                            •	 criminal charges against 91 individuals, including 64 senior officers (CEOs,
                                               owners, founders, or senior executives) of their organizations
                                            •	 criminal convictions of 67 defendants, of whom 28 have been sentenced to
                                               prison (others are awaiting sentencing)
                                            •	 civil cases against 51 individuals (including 37 senior officers) and 26 entities
                                               (in some instances an individual will face both criminal and civil charges)
                                            •	 orders of restitution and forfeiture and civil judgments entered for more than $4
                                               billion. This includes restitution orders entered for $3.7 billion, forfeiture orders
                                               entered for $126.9 million, and civil judgments and other orders entered for
                                               $281.9 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $160.8 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                Although much of SIGTARP’s investigative activity remains confidential, over
                                            the past quarter there have been significant public developments in several of
                                            SIGTARP’s investigations. See Section 1 of this report, “The Office of the Special
                                            Inspector General for the Troubled Asset Relief Program,” for a description of
                                            recent developments, including those involving Bank of the Commonwealth,
                                            Colonial BancGroup, Inc./Taylor, Bean & Whitaker; FirstCity Bank, Orion Bank,
                                            First Community Bank, and others.
                                                                               quarterly report to congress I July 25, 2012   11




SIGTARP Recommendations on the
Operation of TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations
to Treasury and the banking regulators related to TARP to facilitate effective
oversight and transparency and to prevent fraud, waste, and abuse. SIGTARP
has made 105 recommendations. Section 5 of this report, “SIGTARP
Recommendations,” provides updates on existing recommendations and
summarizes the implementation of previous recommendations.
    This quarter, Section 5 includes discussions of SIGTARP’s recommendations
to Treasury included in its audit report “Factors Affecting Implementation of the
Hardest Hit Fund Program,” released April 12, 2012, and in its audit report “The
Net Present Value Test’s Impact on the Home Affordable Modification Program,”
released June 18, 2012. Section 5 also provides an update on an earlier SIGTARP
recommendation regarding information security in the Hardest Hit Fund program.




Report Organization
The report is organized as follows:

•	 Section 1 discusses the activities of SIGTARP.
•	 Section 2 details how Treasury has spent TARP funds so far and contains an
   explanation or update of each program.
•	 Section 3 discusses American International Group, Inc. (“AIG”), which remains
   in TARP as the largest TARP investment.
•	 Section 4 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 5 discusses SIGTARP’s recommendations with respect to TARP.

    The report also includes numerous appendices containing, among other things,
figures and tables detailing all TARP investments through June 30, 2012, except
where otherwise noted.
12   special inspector general I troubled asset relief program
              The Office of the Special
Sect io n 1   Inspector General for the
              Troubled Asset Relief Program
14   special inspector general I troubled asset relief program
                                                                                  quarterly report to congress I July 25, 2012   15




SIGTARP Creation and Statutory Authority
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabiliza-
tion Act of 2008 (“EESA”) and amended by the Special Inspector General for the
Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA and the
SIGTARP Act, SIGTARP has the responsibility, among other things, to conduct,
supervise, and coordinate audits and investigations of the purchase, management,
and sale of assets under the Troubled Asset Relief Program (“TARP”) or as deemed
appropriate by the Special Inspector General. SIGTARP is required to report quar-
terly to Congress to describe SIGTARP’s activities and to provide certain informa-
tion about TARP over that preceding quarter. EESA gives SIGTARP the authorities
listed in Section 6 of the Inspector General Act of 1978, including the power to
obtain documents and other information from Federal agencies and to subpoena
reports, documents, and other information from persons or entities outside the
Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP Oversight Activities Since the
April 2012 Quarterly Report
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 19 published audits and evaluations, and 105 recommendations as of June
30, 2012; and promoting transparency in TARP and the Government’s response to
the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of July 12, 2012, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other law enforcement agencies in order to leverage resources throughout the
Government. SIGTARP takes its law enforcement mandate seriously, working hard
to deliver the accountability the American people demand and deserve. SIGTARP’s
investigations have delivered substantial results, including:

•	 criminal charges against 91 individuals, including 64 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 67 defendants, of whom 28 have been sentenced to
   prison (others are awaiting sentencing)
16   special inspector general I troubled asset relief program




                                            •	 civil cases against 51 individuals (including 37 senior officers) and 26 entities
                                               (in some instances an individual will face both criminal and civil charges)
                                            •	 orders of restitution and forfeiture and civil judgments entered for more than $4
                                               billion. This includes restitution orders entered for $3.7 billion, forfeiture orders
                                               entered for $126.9 million, and civil judgments and other orders entered for
                                               $281.9 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $160.8 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investiga-
                                            tions include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            The Bank of the Commonwealth
                                            SIGTARP agents, along with its law enforcement partners, arrested four former
                                            executives of Bank of the Commonwealth (“BOC”), including CEO and chairman
                                            of the board Edward Woodard, his son Troy Brandon Woodard, executive vice
                                            presidents Simon Hounslow and Steven Fields, along with two bank customers,
                                            Thomas Arney and Dwight Etheridge. On July 11, 2012, a Federal grand jury
                                            sitting in the Eastern District of Virginia returned a 25-count indictment against
                                            the six individuals for their alleged roles in a massive fraud scheme that contributed
                                            to the failure of the bank. Each charge contained in the indictment carries a
                                            maximum penalty of 30 years in prison, if convicted.
                                                 BOC was a community bank headquartered in Norfolk, Virginia, that failed in
                                            September 2011. It was the eighth largest bank failure in the country that year,
                                            and the largest bank failure in Virginia since 2008. Six other defendants have been
                                            charged (five of whom pled guilty) in this case for a total of 12 defendants. The
                                            FDIC estimates that BOC’s failure will cost the deposit insurance fund more than
                                            $268 million.
                                                 SIGTARP has been investigating this case because in November 2008, BOC
                                            sought $28 million in TARP funds. BOC’s Federal banking regulator asked the
                                            bank to withdraw the TARP application.
                                                 The four senior bank officers were charged on July 11, 2012, with fraud
                                            schemes to conceal past-due loans and remove foreclosed property from the bank’s
                                            books. The indictment details how friends of the bank received sweetheart deals
                                            in return for helping mask the bank’s true financial condition. The indictment also
                                            details how bank insiders benefitted personally from various schemes.
                                                 According to the indictment, BOC more than doubled its assets from 2005 to
                                            2009. This was largely through brokered deposits, a financial tool that allows inves-
                                            tors to pool their money and receive higher rates of returns. Because of the high
                                                                               quarterly report to congress I July 25, 2012   17




volatility of these deposits, an institution must remain well-capitalized to accept
and renew brokered deposits.
    The indictment alleges that BOC funded and administered many loans dur-
ing this period without following industry standards or the bank’s own internal
controls, and by 2008, the volume of the bank’s troubled loans and foreclosed real
estate soared. From 2008 to 2011, BOC executives (Edward Woodard, Hounslow
and Fields) allegedly utilized various methods to fraudulently mask the bank’s true
financial condition out of fear that the bank’s declining health would negatively
impact investor and customer confidence and affect the bank’s ability to accept and
renew brokered deposits.
    To fraudulently hide BOC’s troubled assets, bank insiders allegedly overdrew
demand deposit accounts to make loan payments, extended new loans or additional
principal on existing loans to cover payment shortfalls, changed the terms of loan
agreements to make loans appear current, and used funds from related entities
(sometimes without authorization from the borrower) to make loan payments. In
addition, the BOC executives allegedly hid millions of dollars of non-performing
loans from the bank’s board of directors.
    The BOC executives also allegedly provided preferential treatment to troubled
borrowers, including Arney, Etheridge, and others, to purchase bank-owned proper-
ty. The borrowers were already having difficulty making payments on their existing
loans and the financing allowed the borrowers to convert these non-earning assets
into earning assets. In some instances, according to the indictment, these new
loans exceeded the purchase price of the property, which resulted in the borrowers
obtaining cash at closing that they used to make payments on their other loans at
the bank and for their own personal purposes. In addition, BOC executives caused
the bank to fund loans to troubled borrowers to purchase or attempt to purchase
properties owned by Edward Woodard and Troy Brandon Woodard.
    Additionally, the indictment alleges that Edward Woodard and Hounslow
caused the bank to fund three loans totaling $11 million without approval of the
board of directors and falsely represented in bank records that the board had
approved the loans. BOC subsequently charged off $9 million of these loans
as a loss. In addition, Edward Woodard and Troy Brandon Woodard allegedly
caused BOC to pay fraudulent invoices purportedly for construction costs for a
bank branch when the true costs were incurred for renovations to Troy Brandon
Woodard’s personal residence.
    Six other individuals have been charged (five of whom pled guilty) in this ongo-
ing investigation:

•	 On April 12 and July 12, 2012, respectively, business partners Eric H. Menden
   and George P. Hranowskyj pled guilty to engaging in a fraud scheme that
   contributed to the failure of BOC. Menden and Hranowskyj admitted to
   performing favors for BOC insiders by using the proceeds of loans provided
   by BOC insiders to purchase BOC-owned properties and properties owned
   by BOC insiders. Menden and Hranowskyj further admitted to submitting
   construction draw requests to the bank for amounts owed to subcontractors
18   special inspector general I troubled asset relief program




                                               that were inflated or for work that was not completed. Menden and Hranowskyj
                                               admitted knowing the loan proceeds obtained from these draw requests
                                               were to be used solely for renovating the property but instead they used the
                                               proceeds for their own personal purposes. At the time the bank failed, Menden
                                               and Hranowskyj owed the bank approximately $41 million and the total loss
                                               attributed to the loans outlined in court was over $13 million. Menden and
                                               Hranowskyj also pled guilty to a separate six year tax fraud scheme that cost
                                               state and Federal Government over $12 million and investors more than $8
                                               million. At sentencing on September 26, 2012, Menden faces a maximum
                                               of 15 years in Federal prison and possible restitution of up to $49 million.
                                               Hranowskyj, scheduled to be sentenced on October 15, 2012, faces a maximum
                                               of 25 years in Federal prison.
                                            •	 On May 9, 2012, Jeremy C. Churchill, a BOC vice president and commercial
                                               loan officer, pled guilty to conspiracy to commit bank fraud. According to
                                               court documents, Churchill admitted that, under the direction of a BOC co-
                                               conspirator, Churchill submitted loan requests to the bank to provide more than
                                               $1 million to Tivest Development and Construction LLC (“Tivest”) and Genesis
                                               Staffing, Inc. (“Genesis”), companies owned by Etheridge, who was having
                                               difficulty keeping current on $8 million in loans he guaranteed at the bank.
                                               BOC approved these loan requests based on false representations by Churchill
                                               and a BOC co-conspirator that the funds would be used to pay pre-development
                                               costs for an office tower project and operational costs at Genesis. To the
                                               contrary, Etheridge allegedly used the proceeds to make payments on other
                                               loans at the bank. BOC subsequently fully charged off these $1 million in loans
                                               as a loss. Churchill also admitted to requesting that BOC provide a $4.1 million
                                               loan to Tivest to be used to purchase an incomplete condominium project from
                                               the owners who were delinquent on their loan at the bank. BOC would have
                                               suffered a substantial loss had it foreclosed on this property. Churchill admitted
                                               that he and a bank co-conspirator used approximately half the loan proceeds
                                               to pay down the underlying loan on the property. Churchill faces a maximum
                                               penalty of five years in prison when he is sentenced on August 24, 2012.
                                            •	 On May 15, 2012, Recardo Lewis, a former vice president at Tivest, pled guilty
                                               to conspiracy to commit bank fraud. Lewis, allegedly at the direction of
                                               Etheridge, submitted eight draw requests to the bank on construction
                                               loans that fraudulently inflated the amounts owed to contractors and included
                                               costs for work that was not completed. Etheridge allegedly used the funds
                                               from these draws to make interest payments on other loans at the bank, to
                                               operate other businesses, and for other personal purposes. BOC subsequently
                                               charged off approximately $1.3 million of this $4.1 million loan as a loss.
                                               Lewis faces a maximum penalty of five years in prison when he is sentenced
                                               on September 19, 2012.
                                            •	 On September 15, 2011, Natallia Green, a former employee of Menden
                                               and Hranowskyj, pled guilty to making a false statement to BOC in a loan
                                               application. According to court documents, on August 12, 2010, Green
                                               submitted an application to the bank requesting a home loan in the amount of
                                                                                quarterly report to congress I July 25, 2012   19




   $108,000 to purchase a piece of property owned by the bank. Green admitted
   that she knowingly lied in her application by falsely stating that she had $29,000
   in cash in banks and admitted that she provided an altered bank statement to
   support her false assertion. On January 25, 2012, Green was sentenced to five
   years’ probation, and was ordered to pay $106,519 in restitution.
•	 On August 10, 2011, Maria Pukhova, a former employee of Menden and
   Hranowskyj, was charged with making a false statement on a loan application to
   BOC. The information alleges that, on April 30, 2010, Pukhova defrauded the
   bank by making false representations on a loan application.

   This ongoing investigation is being conducted by SIGTARP, the United States
Attorney’s Office for the Eastern District of Virginia, the Federal Bureau of
Investigation (“FBI”), the Internal Revenue Service Criminal Investigation (“IRS-
CI”), and the Federal Deposit Insurance Corporation Office of Inspector General
(“FDIC OIG”).

The Colonial BancGroup, Inc./Taylor, Bean & Whitaker
On June 15, 2012, Delton de Armas, the former chief financial officer of Taylor,
Bean & Whitaker (“TBW”), was sentenced by the U.S. District Court for the
Eastern District of Virginia to five years in prison. De Armas previously pled guilty
to conspiracy to commit bank and wire fraud and making false statements for his
role in a $2.9 billion fraud scheme that led to the failures of TBW and Colonial
Bank (“Colonial”). As previously reported, Lee Bentley Farkas, the former chairman
of TBW, was convicted at trial in 2011 of 14 counts of conspiracy, and bank,
securities, and wire fraud, and sentenced to 30 years imprisonment. On June 20,
2012, the U.S. Court of Appeals for the Fourth Circuit upheld Farkas’ conviction.
Colonial Bank was initially approved to receive $553 million in TARP funding that
SIGTARP prevented from going to the bank.
    De Armas admitted that he and others engaged in a scheme to defraud finan-
cial institutions that had invested in TBW’s wholly-owned lending facility, Ocala
Funding (“Ocala”). Shortly after Ocala was established, de Armas learned that inad-
equate assets were backing its loans. This collateral deficit increased to more than
$700 million by June 2008. De Armas knew that a subordinate sent false collateral
reports to Ocala investors that misrepresented the collateral deficit. De Armas
acknowledged that he and former TBW chief executive officer Paul Allen also
provided false explanations to investors and regulators about the deficit in Ocala’s
collateral. De Armas further admitted that he directed a subordinate to inflate an
accounts receivable balance on the books of TBW, which inflated TBW’s financial
statements. De Armas admitted knowing that these false financial statements were
provided to the Government National Mortgage Association (“Ginnie Mae”) and
the Federal Home Loan Mortgage Corporation (“Freddie Mac”) for their determi-
nation to renew TBW’s authority to sell and service securities guaranteed by Ginnie
Mae and Freddie Mac. De Armas also admitted to reviewing and editing a letter
sent by Allen to Ginnie Mae that contained false statements regarding the reason
for TBW’s delay in providing audited financial statements to Ginnie Mae.
20   special inspector general I troubled asset relief program




                                                Six additional defendants pled guilty and were sentenced to prison in 2011
                                            for their roles in the fraud scheme. Allen was sentenced to 40 months in prison;
                                            Catherine Kissick, the former senior vice president of Colonial Bank, was sen-
                                            tenced to eight years in prison; Desiree Brown, the former treasurer of TBW, was
                                            sentenced to six years in prison; Raymond Bowman, the former president of TBW,
                                            was sentenced to 30 months in prison; Sean Ragland, a former senior financial
                                            analyst at TBW, was sentenced to three months in prison; and Teresa Kelly, the
                                            former operations supervisor in Colonial Bank’s Mortgage Warehouse Lending
                                            Division, was sentenced to three months in prison.
                                                This case was investigated by SIGTARP, the FBI, FDIC OIG, the Department
                                            of Housing and Urban Development Office of Inspector General (“HUD OIG”),
                                            the Federal Housing Finance Agency Office of Inspector General (“FHFA OIG”),
                                            the Securities and Exchange Commission (“SEC”), and IRS-CI, and was prosecut-
                                            ed by the U.S. Department of Justice Criminal Division’s Fraud Section and the
                                            U.S. Attorney’s Office for the Eastern District of Virginia.

                                            FirstCity Bank
                                            On June 26, 2012, Clayton A. Coe, the former vice president and senior
                                            commercial loan officer at FirstCity Bank (“FirstCity”), pled guilty in U.S.
                                            District Court for the Northern District of Georgia to bank fraud and to making
                                            a false statement on his tax return. Coe faces a maximum sentence of 33 years
                                            in prison and a fine of up to $1.1 million at his sentencing on September 18,
                                            2012. In February 2009, FirstCity unsuccessfully sought $6.1 million in Federal
                                            Government assistance through TARP. FirstCity failed and was seized by Federal
                                            and state authorities on March 20, 2009.
                                                According to court documents, as senior commercial loan officer, Coe was
                                            primarily responsible for recommending to FirstCity’s loan committee whether to
                                            approve commercial loans to real estate developers. Coe admitted to defrauding
                                            FirstCity by causing FirstCity’s loan committee to approve an $800,000 loan to a
                                            borrower in connection with a real estate development transaction that provided a
                                            personal financial benefit to Coe. Coe concealed from FirstCity’s loan committee
                                            that the borrower used the loan proceeds to purchase land lots from a company
                                            owned by Coe and his wife and that the Coes had purchased these lots from the
                                            true owner at a lower sales price on the same day the loan to the borrower closed.
                                            Coe also admitted to failing to report to the Internal Revenue Service $476,000
                                            in commissions he earned for loans he originated as FirstCity’s senior commercial
                                            loan officer.
                                                As previously reported, on October 21, 2011, Mark A. Conner, the former
                                            president, chief executive officer, and chairman of FirstCity, pled guilty to con-
                                            spiracy to commit bank fraud and perjury. Conner is scheduled to be sentenced on
                                            August 9, 2012, and faces a maximum of 12 years in Federal prison, a lifetime ban
                                            from the banking industry, a requirement to forfeit $7 million, and an order to pay
                                            significant restitution to the FDIC and victim banks. Robert E. Maloney, FirstCity’s
                                            former in-house counsel, has also been charged with conspiracy to commit bank
                                            fraud, making false entries in the records of an FDIC-insured financial institution,
                                                                                 quarterly report to congress I July 25, 2012   21




and conspiracy to commit money laundering. A trial date has not been set for
Maloney.
    The case is being investigated by SIGTARP, the United States Attorney’s Office
for the Northern District of Georgia, the FBI, IRS-CI, and FDIC OIG.

Orion Bank
On June 12, 2012, Jerry J. Williams, former president, chief executive officer, and
board chairman of Orion Bank (“Orion Bank”) and its holding company, Orion
Bancorp, Inc., was sentenced by the U.S. District Court for the Middle District
of Florida to 72 months in Federal prison. As previously reported, in February
2012, Williams pled guilty to conspiracy to commit bank fraud and making false
statements to Federal regulators arising from his participation in a bank fraud
scheme involving Orion Bank. In October 2008, Orion Bancorp unsuccessfully
sought $64 million in TARP funds. As part of the sentence, the court ordered
Williams to pay $5.76 million in restitution to victims and ordered an additional
hearing to determine restitution to be paid by Williams to FDIC.
    Williams admitted that, after Orion Bank failed to raise capital as instructed by
Federal banking regulators, he conspired with two other Orion Bank executives,
Thomas Hebble (former executive vice president), Angel Guerzon (former senior
vice president), and a former Orion Bank borrower, Francesco Mileto, to mislead
state and Federal regulators into believing that Orion Bank was financially healthier
than it truly was. The conspirators committed their scheme in part by restructuring
distressed assets of Orion Bank to fraudulently create the illusion that certain of
the bank’s non-performing loans were performing loans. The conspirators furthered
their scheme by secretly financing the sale of Orion Bancorp stock to Mileto,
which created the false impression to regulators of a legitimate capital infusion that
considerably improved the bank’s capital position. Williams admitted to providing
regulators with false documents and statements about Orion Bank’s capital position
and amount of capital raised.
    As previously reported, Hebble, Guerzon, and Mileto pled guilty to their partici-
pation in the fraud and received prison sentences of 30 months, 24 months, and
65 months, respectively. Hebble and Guerzon were also each ordered to pay $33.5
million in restitution to FDIC and Mileto was ordered to pay $65.2 million in
restitution to FDIC ($33.5 million of which is to be paid jointly and severally with
Guerzon and Hebble). The court also ordered forfeiture of $2 million as to Mileto.
    Florida’s Office of Financial Regulation closed Orion Bank on November 13,
2009, and appointed FDIC as receiver. FDIC estimates that Orion Bank’s failure
will cost the deposit insurance fund more than $600 million.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Middle District of Florida, the FBI, IRS-CI, the Federal Reserve Board Office of
Inspector General (“FRB OIG”), and FDIC OIG.
22   special inspector general I troubled asset relief program




                                            First Community Bank
                                            On April 26, 2012, Reginald R. Harper pled guilty in the U.S. District Court for
                                            the Eastern District of Louisiana to conspiracy to commit bank fraud. Harper’s
                                            co-conspirator, Troy A. Fouquet, previously pled guilty on March 15, 2012. The
                                            charges against Harper and Fouquet arose from their orchestration of a fraudulent
                                            scheme to conceal delinquent, non-performing loans at First Community Bank of
                                            Hammond, Louisiana (“First Community Bank”) by creating new “sham” loans.
                                            Harper was the former president, chief executive officer, and loan officer of First
                                            Community Bank. Fouquet was a Louisiana real estate developer.
                                                Harper arranged for First Community Bank to provide more than $2 million
                                            in loans to Fouquet in 2004 to purchase land and build houses on the land.
                                            However, they were unable to identify a sufficient number of qualified buyers for
                                            the houses. In response, Harper and Fouquet devised various cover-up schemes
                                            to avoid reporting the delinquent loans made by Harper to Fouquet. For example,
                                            they used “nominee” loans and “straw” borrowers to apply for new loans from First
                                            Community Bank, which Harper authorized, and then used the proceeds to pay off
                                            the original loans made to Fouquet. Harper and Fouquet’s misconduct caused First
                                            Community Bank to suffer severe financial losses.
                                                As a result of Harper’s and Fouquet’s fraudulent activities, First Community
                                            Bank submitted a false “call report” (a report meant to disclose the bank’s true
                                            financial condition) to its regulator, which later affected the bank’s application for
                                            TARP funds. First Community Bank ultimately withdrew its TARP application,
                                            despite being approved to receive $3.3 million in TARP funds.
                                                At sentencing, Fouquet and Harper each face a maximum of five years in
                                            Federal prison and a fine. Harper and Fouquet are scheduled to be sentenced on
                                            October 25, 2012.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Louisiana, and the FBI.

                                            John Farahi and David Tamman (New Point Financial Services, Inc.)
                                            On June 4, 2012, John Farahi pled guilty in the U.S. District Court for the Central
                                            District of California to charges of mail fraud, loan fraud, selling unregistered
                                            securities, and conspiracy to obstruct justice, all relating to his ownership and
                                            operation of an investment firm known as New Point Financial Services, Inc.
                                            (“New Point”). Farahi is scheduled to be sentenced on January 14, 2013. He faces
                                            a maximum penalty of 75 years in Federal prison, a fine of up to $1.75 million, and
                                            possible restitution of approximately $7 million.
                                               Farahi was the former co-owner and president of New Point. Farahi admitted
                                            that, from 2005 until 2009, he operated a Ponzi scheme through New Point in
                                            which he convinced potential investors to invest their money with him by falsely
                                            assuring them their money would be invested in safe investments. Farahi also told
                                            investors that New Point would invest in the corporate bonds of companies backed
                                            by TARP and other Government programs and that the investors risked losing their
                                            money only if the U.S. government failed. Many of the investors who approached
                                            New Point about investing were members of the Iranian-Jewish community who
                                                                               quarterly report to congress I July 25, 2012   23




had listened to Farahi’s daily Farsi-language investment radio show. Farahi admit-
ted that New Point generally did not place the investors’ money in safe investments.
Instead, Farahi used investor money to support his lavish lifestyle, to make pay-
ments to previous New Point investors in order to perpetuate the Ponzi scheme,
and to finance and cover trading losses on speculative options trades. Farahi
acknowledged that the scheme caused investor losses of more than $7 million,
while prosecutors reserved the right to argue to the court that losses to victims
exceeded $20 million.
    Facing massive trading losses at the end of 2008, Farahi borrowed millions of
dollars through lines of credit at banks, including TARP recipient banks Bank of
America and U.S. Bank. Farahi admitted to making false statements to these banks
about his financial situation in connection with these borrowings. Farahi also
admitted to illegally selling unregistered securities and then conspiring with David
Tamman, New Point’s former attorney, to obstruct an investigation by the SEC into
Farahi’s illegal sale of the unregistered securities. As previously reported, Tamman
was indicted in December 2011 for his role in allegedly obstructing the SEC inves-
tigation. Tamman is scheduled to go on trial on October 23, 2012.
    This case is being investigated by SIGTARP, the United States Attorney’s Office
for the Central District of California, and the FBI.

Frederic Alan Gladle and Glen Alan Ward (aka Brandon Michaels)
On May 3, 2012, Frederic Alan Gladle was sentenced by the U.S. District Court
for the Western District of Texas to 61 months in Federal prison, following his
previous guilty plea to bankruptcy fraud and aggravated identity theft. The charges
stem from Gladle’s operation of a foreclosure-rescue scam involving more than
1,100 distressed homeowners and several banks, including TARP banks. As part of
the sentence, the court also ordered Gladle to pay $214,259 in restitution and to
forfeit $87,901.
    Gladle admitted that, from 2007 to 2011, he promised homeowners whose
properties were being foreclosed upon that, in exchange for a monthly fee, he
would postpone the foreclosure for at least six months. After collecting fees from
a homeowner, Gladle would have the homeowner execute a deed granting a small
interest in their property to a random debtor in bankruptcy whose name Gladle
found in bankruptcy records. Neither the homeowner nor the bankruptcy debtor
was aware of Gladle’s misuse of the debtor’s bankruptcy petition. Gladle further
defrauded the bank that had issued the loan to the homeowner by providing the
bank a copy of the debtor’s bankruptcy petition showing that the debtor owned an
interest in the homeowner’s property that the lender was attempting to foreclose
upon. Upon receipt of these documents, the lender was legally obligated to and did
terminate the foreclosure proceeding against the homeowner. As a result, multiple
lenders, including TARP recipient banks Bank of America, Wells Fargo Bank and
U.S. Bank, incurred costs and delays while attempting to collect money that was
owed to them. Gladle admitted that he collected more than $1.6 million in fees
from homeowners through this scam.
24   special inspector general I troubled asset relief program




                                                A defendant charged in the Northern and Central Districts of California
                                            for a separate, similar foreclosure-rescue scheme, Glen Alan Ward, was arrested
                                            in Canada in May 2012. Ward has been a fugitive sought by U.S. federal
                                            authorities since 2000. According to court documents, Ward (aka Brandon
                                            Michaels) is alleged to have worked with and taught Gladle how to perpetrate the
                                            foreclosure-rescue scheme. Ward is currently being detained in Canada pending
                                            his extradition to the United States.
                                                The case was investigated by SIGTARP, the United States Attorney’s Office for
                                            the Central District of California, the FBI, and the U.S. Trustee’s Office.

                                            American Home Recovery
                                            On May 17, 2012, after a 10-day jury trial in U.S. District Court for the Southern
                                            District of New York, Isaak Khafisov was found guilty of conspiracy, mail fraud
                                            and wire fraud for perpetrating a scheme to defraud distressed homeowners and
                                            lenders. At sentencing on September 6, 2012, Khafisov faces a maximum sentence
                                            of 80 years in Federal prison.
                                                According to court documents and statements made during court proceedings,
                                            around spring 2008, Khafisov founded a mortgage modification business named
                                            American Home Recovery (“AHR”). Khafisov and AHR salespeople made false
                                            assertions to fraudulently induce distressed homeowners to pay AHR thousands of
                                            dollars in up-front fees for mortgage modifications. Specifically, Khafisov and AHR
                                            informed homeowners that they had been “pre-approved” for a mortgage modifica-
                                            tion by their lenders; that AHR would ensure participation in the TARP-funded
                                            Making Home Affordable program; and that AHR could obtain better interest rates
                                            and lower monthly fees on their mortgage. Khafisov and AHR also falsely promised
                                            to return the up-front fees if AHR did not secure a mortgage modification desired
                                            by the homeowner. They also falsely claimed that AHR was affiliated with govern-
                                            ment agencies and programs established by the Economic Stimulus Act of 2008
                                            and that AHR possessed unique expertise in mortgage modifications and had
                                            special relationships with lenders. Khafisov also directed distressed homeowners to
                                            stop paying their mortgages and to pay fees to AHR instead. After receiving up-front
                                            fees from the distressed homeowners, Khafisov and AHR did little or no work to
                                            try to renegotiate the homeowners’ mortgages. As a result, many AHR clients were
                                            foreclosed upon by lenders and lost hundreds of thousands of dollars in fees.
                                                Jaime Cassuto and David Cassuto founded AHR with Khafisov. As previously
                                            reported, they each entered a guilty plea on April 2, 2012, relating to this mortgage
                                            modification scheme. In March 2011, Raymond Pampillonio, a former AHR em-
                                            ployee, also pled guilty in connection with this scheme.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the FBI.

                                            The Shmuckler Group, LLC
                                            On April 10, 2012, Howard R. Shmuckler pled guilty in the U.S. District Court
                                            for the Eastern District of Virginia to wire fraud relating to his ownership and
                                            operation of a fraudulent mortgage modification business known as The Shmuckler
                                                                               quarterly report to congress I July 25, 2012   25




Group, LLC (“TSG”). Shmuckler admitted to falsely portraying himself to TSG
clients as an attorney licensed to practice in Virginia and to misrepresenting to
clients that TSG’s loan modification success rate was 97%. Shmuckler also assured
clients that their loans would be successfully modified. False representations by
Shmuckler and TSG employees induced homeowners to pay TSG fees ranging
from $2,500 to $25,000. Court records indicate that Shmuckler instructed clients
to terminate contact with their mortgage companies and to stop making payments
to their lenders. TSG never facilitated a modification of the mortgages referenced
in the statement of facts admitted to by Shmuckler. On June 25, 2012, Shmuckler
was sentenced to 90 months in Federal prison, a sentence that will run consecutive
to his current term of imprisonment that resulted from a conviction in the U.S.
District Court for the District of Columbia. Restitution to FDIC will be set by the
court at a later date.
    As previously reported, on November 18, 2010, the Prince George’s County
State’s Attorney’s Office in Maryland obtained a 30-count indictment against
Shmuckler for conspiracy, theft, and operating a business without a license, in con-
nection with a mortgage modification scam. On February 3, 2012, Shmuckler ap-
peared before a judge in the Circuit Court for Prince George’s County, Maryland,
where he waived his right to a jury trial and consented to certain facts in connec-
tion with the mortgage modification scam. At the next hearing, which had been
postponed pending Shmuckler’s sentencing by the Eastern District of Virginia, the
Maryland judge will rule on the charge. Shmuckler faces a maximum sentence of
15 years on the theft charge.
    The case brought in Federal court in Virginia resulted from a joint investiga-
tion conducted by SIGTARP, the FBI, FDIC OIG, and the U.S. Attorney’s Office
for the Eastern District of Virginia. The case brought in state court in Maryland
resulted from a joint investigation by SIGTARP, the Office of the State’s Attorney
for Prince George’s County, and the Maryland Department of Labor Licensing and
Regulation’s Financial Regulation Division.

CFSA Home Solutions
On May 16, 2012, Andrew M. Phalen pled guilty to felony charges for his role in
connection with a mortgage modification scheme. On June 6, 2012, Phalen was
sentenced by the Superior Court of California to one year in jail and five years
of supervised probation and prohibited by the Court from associating with the
other four defendants in the case and from engaging in services relating to loan
modification, refinancing, and foreclosure. As previously reported, Phalen, Jacob
J. Cunningham, Justine D. Koelle, Dominic A. Nolan, and John D. Silva were
arrested in California on March 2, 2012, and charged with allegedly operating
a mortgage modification scheme that defrauded hundreds of victims. According
to court documents, between January 2009 and March 2012, the defendants
allegedly enticed homeowners to participate in a fraudulent loan modification
program by making numerous false misrepresentations to homeowners through
advertisements, websites, promotional letters, and direct conversations. The
misrepresentations allegedly included statements that: (1) HAMP would apply
26   special inspector general I troubled asset relief program




                                            to homeowners’ circumstances; (2) the defendants had a 100% success rate in
                                            obtaining mortgage modifications for homeowners; and (3) homeowners would be
                                            refunded their paid fees if the defendants could not modify a homeowner’s loan.
                                            To evade detection by law enforcement, the defendants are accused of changing
                                            the names, phone numbers, and addresses of sham companies they operated. One
                                            company name the defendants used was CSFA Home Solutions.
                                                Cunningham, Koelle, Nolan, and Silva have been charged with multiple felony
                                            counts of violating California state law, including conspiracy to charge illegal up-
                                            front fees for mortgage modifications, conspiracy to commit forgery, grand theft by
                                            false pretenses, theft from an elder, and money laundering. The charges are cur-
                                            rently pending.
                                                The case is being investigated by SIGTARP, Orange County, California,
                                            District Attorney’s Office, U.S. Secret Service (“Secret Service”), Huntington
                                            Beach Police Department, California Department of Real Estate, Orange County
                                            Probation Department, Orange County Sheriff’s Department, Costa Mesa Police
                                            Department, Irvine Police Department, and Santa Ana Police Department.

                                            Flahive Law Corporation
                                            On May 16, 2012, Michael Kent Johnson entered a plea of no contest to
                                            misdemeanor conspiracy for his participation in a fraudulent loan modification
                                            scheme perpetrated through the Flahive Law Corporation (“FLC”). FLC was a
                                            law firm operated by Gregory and Cynthia Flahive. Johnson acted as the firm’s
                                            managing attorney. Johnson is required to serve three years of probation and 200
                                            hours of community service, to pay restitution of $10,560, and to not participate in
                                            loan modification services.
                                                As previously reported, Johnson, Gregory Flahive, and Cynthia Flahive were
                                            arrested by SIGTARP agents and its law enforcement partners on March 8, 2012,
                                            pursuant to an indictment returned by a California grand jury. According to the
                                            indictment and court documents, from January 2009 to December 2010, FLC
                                            promoted its loan modification services to homeowners through advertisements,
                                            including a television infomercial. FLC falsely represented that experienced
                                            lawyers would negotiate with banks on behalf of homeowners seeking modifica-
                                            tions, including under HAMP, misrepresented that FLC’s law firm status would
                                            give them extra leverage when negotiating with such banks, and overstated FLC’s
                                            rate of success in obtaining loan modifications on behalf of homeowners. FLC al-
                                            legedly collected up-front fees of up to $2,500 from homeowners for loan modifica-
                                            tion services that were never performed. Johnson admitted to creating and using
                                            manipulative fee agreements in order to collect up-front fees from homeowners for
                                            loan modification service. Gregory Flahive and Cynthia Flahive are scheduled to go
                                            on trial on September 10, 2012.
                                                The case is being investigated by SIGTARP, the California Attorney General,
                                            Folsom Police Department, Rancho Cordova Police Department, and the El
                                            Dorado Sheriff’s Department.
                                                                                 quarterly report to congress I July 25, 2012   27




Legacy Home Loans and Real Estate
As previously reported, on December 1, 2011, Magdalena Salas, Angelina Mireles,
and Julissa Garcia, the owner, manager, and CEO, respectively, of Legacy Home
Loans and Real Estate (“Legacy Home Loans”) in Stockton, California, were
arrested on charges of conspiracy, grand theft, and false advertising for a mortgage
modification scam. On July 10, 2012, all three defendants pled guilty in the San
Joaquin County, California, Superior Court to conspiracy to collect upfront fees for
mortgage modifications. Salas also pled guilty to felony foreclosure fraud.
    According to the charges and other information presented in court, the defen-
dants collected thousands of dollars in up-front fees from distressed homeowners
in Central California after making false promises to obtain loan modifications for
the homeowners. The defendants falsely promised homeowners that they would
receive loan modifications regardless of their financial situation through Federal
Government programs allegedly referred to as the “Obama Plan.” The defendants
also allegedly falsely overstated their success rate, made false money-back guaran-
tees, and falsely represented that attorneys would work on the modifications. The
defendants advertised similar false promises in flyers, billboards, television and ra-
dio, in English and Spanish. The modification services promised by the defendants
allegedly were never carried out and many clients ended up losing their homes.
    On July 11, 2012, the three defendants were sentenced to probation and
ordered to obey all laws, pay restitution, and complete 240 hours of community
service. Salas was also ordered not to engage in any professional services requiring
a license that she does not possess. The court will determine the restitution to be
paid by the defendants at a hearing scheduled for August 30, 2012.
    The case is being investigated by SIGTARP, the California Attorney General’s
office, the San Joaquin District Attorney’s office, the California Department of Real
Estate, and the Stockton Police Department.

Oxford Collection Agency
On May 11, 2012, Richard Pinto and his son, Peter Pinto, each pled guilty in the
U.S. District Court for the District of Connecticut to using their debt collection
company, Oxford Collection Agency, Inc. (“Oxford”), to defraud business clients
and a TARP-recipient bank. The Pintos both pled guilty to wire fraud and
conspiracy to commit wire fraud, bank fraud, and money laundering, and face a
maximum of 35 years in Federal prison and a fine of up to $20 million at sentenc-
ing, which is scheduled for September 13, 2012.
    According to court documents and statements made in court, Richard Pinto
was chairman of the board of directors at Oxford and Peter Pinto was Oxford’s
president and chief executive officer. From January 2007 through March 2011,
Oxford had agreements with business clients to collect debts from debtors, to
report such collections to the clients and to remit the collected payments back
to the clients. The clients would pay Oxford a portion of the monies collected by
Oxford as a fee. The Pintos admitted to collecting funds from debtors on behalf of
clients and failing to remit those funds to the clients. The Pintos also admitted to
28   special inspector general I troubled asset relief program




                                            creating false documents and employing other deceptive means to cover up their
                                            failure to remit collected funds to clients and their improper use of the funds.
                                                The Pintos further admitted to causing Oxford to secure a line of credit from
                                            TARP-recipient Webster Bank without disclosing to the bank that Oxford was
                                            defrauding its clients and had significant outstanding payroll taxes. In the ensu-
                                            ing years, according to court documents and statements made in court, the Pintos
                                            continued to defraud Webster Bank by inducing the bank to increase the line of
                                            credit to $6 million by withholding Oxford’s true financial condition and submitting
                                            falsified financial records to the bank. The Pintos laundered funds from the line of
                                            credit by remitting those funds to clients in order to maintain the clients’ business
                                            and thereby continue the scheme against the clients. The fraudulent scheme has
                                            led victims to lose more than $10 million.
                                                The case is being investigated by SIGTARP, IRS-CI, the FBI, the U.S.
                                            Attorney’s Office for the District of Connecticut, and the Connecticut Securities,
                                            Commodities and Investor Fraud Task Force.

                                            Lynn Nunes
                                            On April 24, 2012, Lynn Nunes, a New York mortgage broker, pled guilty in the
                                            U.S. District Court for the Eastern District of New York to conspiracy to commit
                                            fraud against mortgage lenders, including subsidiaries of TARP recipient banks
                                            Wells Fargo & Company, SunTrust Banks, Inc., and JPMorgan Chase & Co.
                                                From January 2005 through October 2010, Nunes and others recruited persons
                                            interested in purchasing property but who had insufficient assets and income
                                            to secure a mortgage. Nunes prepared fraudulent mortgage applications for the
                                            potential purchasers by falsely inflating their bank account balances and income
                                            to make the applicants appear more creditworthy. Nunes submitted these falsified
                                            loan applications to the mortgage lenders, which issued mortgage loans in reliance
                                            on the false applications. The lenders suffered losses on the properties when many
                                            of the purchasers subsequently defaulted on the mortgage loans.
                                                The case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Eastern District of New York, and the FBI.

                                            Robin Brass
                                            On April 25, 2012, Robin B. Brass pled guilty in the U.S. District Court for the
                                            District of Connecticut to mail fraud for defrauding investors of more than $1
                                            million. Brass is scheduled to be sentenced on July 27, 2012, and faces a maximum
                                            sentence of 20 years in Federal prison and a fine of up to $250,000.
                                                Brass admitted to devising a scheme to defraud investors by taking their money
                                            and failing to invest it as promised. From March 2009 through November 2011,
                                            Brass successfully solicited funds from investors by falsely representing herself
                                            as a highly successful investment advisor, guaranteeing investors against losses,
                                            and promising them a good rate of return on their investment. Brass used some
                                            of the investor funds to pay off other investors (to keep the scheme going) and to
                                            pay personal expenses for herself and her family, including her mortgage at Bank
                                                                                 quarterly report to congress I July 25, 2012   29




of America, a TARP-recipient bank. To perpetuate the fraud scheme, Brass sent
fraudulent account statements to investors that made it appear that their invest-
ments were performing well.
    The case was investigated by SIGTARP, the United States Attorney’s Office for
the District of Connecticut, U.S. Postal Inspection Service (“USPIS”), the FBI, and
with assistance from the State of Connecticut Department of Banking as part of
the Connecticut Securities, Commodities and Investor Fraud Task Force.

Joint Task Force to Combat Mortgage Modification Scams
As previously reported, SIGTARP formed a joint task force (“Task Force”) with
the Consumer Financial Protection Bureau (“CFPB”) and Treasury to leverage
resources in investigating, combating, and shutting down mortgage modification
scams related to the Home Affordable Modification Program (“HAMP”), and to
provide awareness to vulnerable homeowners. The Task Force issued its initial
consumer fraud alert in December 2011 to educate homeowners on how to
recognize and avoid these scams. Since that time, SIGTARP has learned that
mortgage modification fraudsters are targeting the Armed Services community.
     On May 24, 2012, the Task Force issued an additional fraud alert to combat the
rise in mortgage modification scams specifically targeting members of the Armed
Services community who are seeking to apply for mortgage assistance through
HAMP. The fraud alert warns servicemembers about the existence of these scams
and advises them how to report fraud. The alert also provides servicemembers with
a list of resources available to obtain more information and to obtain assistance
with mortgage-related questions. The alert is reproduced in the back of this report.

SIGTARP Audit Activity
SIGTARP has initiated 28 audits and three evaluations since its inception. As of
June 30, 2012, SIGTARP has issued 19 reports on audits and evaluations. Among
the ongoing audits and evaluations in process are reviews of: (i) Treasury’s and the
Federal banking regulators’ evaluation of applications submitted by recipients of
TARP funds to exit TARP by refinancing into the Small Business Lending Fund;
(ii) the Special Master’s 2012 decisions on executive compensation at American
International Group, Inc., General Motors Corporation, and Ally Financial, Inc.;
and (iii) Treasury’s role in General Motors’ decision to top up the pension plan for
hourly workers of Delphi Corporation.

Recent Audits Released

Factors Affecting Implementation of the Hardest Hit Fund Program
On April 12, 2012, SIGTARP released the audit report, “Factors Affecting
Implementation of the Hardest Hit Fund Program.” Conducted in response to a
request by Congressman Darrell Issa, this audit assessed the TARP program the
Hardest Hit Fund (“HHF”).
30   special inspector general I troubled asset relief program




                                                SIGTARP found that after two years, the Hardest Hit Fund has experienced
                                            significant delay in providing help to homeowners due to several factors including a
                                            lack of comprehensive planning by Treasury and a delay and limitation in participa-
                                            tion in the program by large servicers and the Government-sponsored enterprises
                                            (“GSEs”) (Fannie Mae and Freddie Mac). As of December 31, 2011, the latest data
                                            available when the report was issued, the Hardest Hit Fund had spent only $217.4
                                            million to provide assistance to 30,640 homeowners — approximately 3% of the
                                            TARP funds allocated to HHF and approximately 7% of the minimum number of
                                            homeowners that the state HFAs estimate helping over the life of the program,
                                            which ends in 2017.
                                                Nearly all (98%) of the help provided to homeowners under the Hardest Hit
                                            Fund has been related to unemployment assistance or reinstatement of past due
                                            amounts, the only types of assistance for which the GSEs had directed servicers
                                            to participate. The great bulk (78%) of the HHF help to homeowners has been for
                                            unemployment assistance. Unless there is a drastic change in the assistance the
                                            GSEs and their conservator, the Federal Housing Finance Agency, will support, the
                                            Hardest Hit Fund may be much narrower in scope and scale than what was origi-
                                            nally expected due to the lack of servicer and GSE support for certain programs.
                                            Without significant change, while the Hardest Hit Fund may be able to reach
                                            unemployed homeowners as was originally intended, it is likely to be limited in
                                            addressing negative equity for homeowners who are underwater.
                                                SIGTARP found that Treasury consistently applied its criteria to choose states
                                            to participate in the first three rounds of funding for HHF. However, in the second
                                            round, it was unclear why Treasury determined that states with high percentages
                                            of their population in counties with an unemployment rate greater than 12% were
                                            economically distressed, but that states with 11% unemployment were not. The
                                            cutoff for Treasury’s selection of states in Round Two was not transparent. For the
                                            fourth round, no new states were selected. Rather, Treasury nearly doubled the
                                            funds four days before the expiration of Treasury’s TARP investment authority.
                                                Treasury determined that the five categories of assistance it approved were
                                            compliant with TARP’s requirements but did not define “innovative” or perform an
                                            analysis of whether the proposed programs were innovative or duplicative of other
                                            programs.
                                                Treasury has not set measurable goals and metrics that would allow Treasury,
                                            the public, and Congress to measure the progress and success of HHF. Treasury
                                            does require states to estimate the number of households to be assisted by their
                                            HHF programs, but this number has limited usefulness because states can, and
                                            have, changed estimates, creating a shifting baseline that makes it difficult to
                                            measure performance against expectations. The states’ estimated number of home-
                                            owners to be assisted by the Hardest Hit Fund has steadily decreased over the last
                                            year. Treasury has not adopted this estimate or even reported it. It is not too late
                                            for Treasury to set measurable goals, including at a minimum, adopting the HFAs’
                                            collective estimate or developing its own goal of how many homeowners Treasury
                                            expects HHF to help. Treasury can also do more to improve transparency by pub-
                                            lishing aggregate information on the program.
                                                                                 quarterly report to congress I July 25, 2012   31




    SIGTARP found that several factors contributed to the Hardest Hit Fund’s
significant delay in getting assistance to homeowners. HHF lacked comprehensive
planning by Treasury, which rushed out the program without appropriate collabora-
tion of key stakeholders. Several HFAs told SIGTARP that their primary challenge
was the lack of large servicer participation. Without large servicers, the HFAs could
not reach a large portion of struggling homeowners.
    One great shortcoming in HHF’s implementation was Treasury’s lack of timely
action to enlist large servicer support for and participation in state HHF programs
while leaving it to the HFAs to negotiate with servicers. Treasury failed to recognize
the lack of bargaining power that states had for recruiting servicers. Large servicers
did not participate for nine months, citing the administrative burden of 50 different
programs, lack of program uniformity, and lack of GSE guidance. Servicers cited
the need for GSE guidance before they could begin participating in the program.
Treasury did not gain GSE support for HHF programs for eight months. Treasury,
responsible for HHF oversight and accountable for HHF results, should have been,
and still should be, the driving force to ensure that the GSEs and large servicers
support the HFAs’ programs.
    In order to reach the number of homeowners that the HFAs collectively esti-
mate helping through HHF, there needs to be a dramatic increase in the number of
homeowners helped. As was clear in the beginning of HHF, states need Treasury’s
help and support to increase the number of homeowners helped, and Treasury
should do everything it can to ensure the program’s success. Treasury should set
measurable goals, measure progress against those goals, and develop an action plan
to ensure that the next five years result in the Hardest Hit Fund fulfilling TARP’s
goal to preserve homeownership.

The Net Present Value Test’s Impact on the Home Affordable
Modification Program
On June 18, 2012, SIGTARP released the audit report “The Net Present Value
Test’s Impact on the Home Affordable Modification Program.” Conducted in
response to a request by Senator Jeff Merkley and eight other Senators, the audit
examined whether servicers are correctly applying the Net Present Value (“NPV”)
test to determine which homeowners qualify for HAMP. The NPV test estimates
whether a mortgage modification is in the best interest of the investor. As reported
in the audit, more than 160,000 HAMP-eligible homeowners have been turned
down for a HAMP mortgage modification by their mortgage servicer based on the
results of the NPV test.
    SIGTARP’s audit report identified concerns, based upon its most recent analysis
from its sample, with the NPV test that may stand as barriers to homeowners get-
ting much-needed help from HAMP.

•	 Treasury’s practice of protecting investors by allowing them to add a “risk
   premium” to the NPV test calculation: SIGTARP found in its analysis of a
   judgmental sample of HAMP applications that the discretion Treasury gave
   to servicers to override the baseline discount rate in the NPV test by adding
32   special inspector general I troubled asset relief program




                                               a risk premium (of up to 2.5%) reduces the number of otherwise qualified
                                               homeowners Treasury helps through HAMP. Only four servicers add a risk
                                               premium, including Bank of America, N.A., and Wells Fargo Bank, N.A. More
                                               than 100 servicers do not add a risk premium. In a SIGTARP analysis of 51
                                               denied HAMP applications, SIGTARP found that if the servicer had not used
                                               a risk premium, more than half (27) of the homeowners in SIGTARP’s sample
                                               would have tested positive in the NPV test (which would require the servicer to
                                               offer a HAMP modification).
                                            •	 Errors inputting homeowner information and failure to maintain
                                               documentation in SIGTARP’s sample: SIGTARP found in its sample
                                               that servicers made errors using NPV inputs and did not properly maintain
                                               records of all NPV inputs during the period of our review. Within SIGTARP’s
                                               judgmental sample of 149 HAMP applications, SIGTARP found that the
                                               servicers could provide both accurate inputs and documentation for only two
                                               HAMP applications. SIGTARP found that servicers failed to comply with
                                               HAMP guidelines on maintaining records on NPV inputs. Because of the
                                               servicers’ failure to maintain documentation of the NPV inputs, SIGTARP was
                                               unable to determine how many homeowners from its sample may have been
                                               wrongly denied a HAMP modification.
                                            •	 Errors in calculating homeowner gross income and in other areas in
                                               SIGTARP’s sample: In 2010 and 2011, SIGTARP also found servicer errors or
                                               lack of documentation in calculating the homeowner’s gross income and other
                                               key inputs in the NPV test.
                                            •	 Poor communication with homeowners on denial of HAMP modifications
                                               in SIGTARP’s sample: In a sample of 26 denial letters sent by three servicers,
                                               SIGTARP also found that servicers had poor communication with homeowners
                                               on the denial of a HAMP modification due to the NPV test. SIGTARP found
                                               that all but two of the letters in its sample failed to comply with at least one
                                               requirement of HAMP guidelines. Treasury told SIGTARP that it has recently
                                               made improvements in that area.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and
                                            civil laws in connection with TARP. The SIGTARP Hotline has received and
                                            analyzed more than 30,825 Hotline contacts. These contacts run the gamut
                                            from expressions of concern over the economy to serious allegations of fraud
                                            involving TARP, and a number of SIGTARP’s investigations were generated in
                                            connection with Hotline tips. The SIGTARP Hotline can receive information
                                            anonymously. SIGTARP honors all applicable whistleblower protections and will
                                            provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
                                            of waste, fraud, or abuse involving TARP programs or funds, whether it involves
                                            the Federal Government, state and local entities, private firms, or individuals, to
                                            contact its representatives at 877-SIG-2009 or www.sigtarp.gov.
                                                                                 quarterly report to congress I July 25, 2012   33




Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives and
of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and her staff meet regularly with and brief members and Congressional staff.

•	 On July 10, 2012, the Special Inspector General, Christy Romero, testified
   before the U.S. House Committee on Oversight and Reform Subcommittee on
   TARP, Financial Services and Bailouts of Public and Private Programs regarding
   TARP investments in the automotive industry and SIGTARP’s audit of the
   decision making relating to General Motors’ topping-up the pensions of certain
   hourly employees of Delphi Corporation.
•	 On April 26, 2012, the Special Inspector General, Christy Romero, submitted
   written testimony to the U.S. Senate Committee on Homeland Security and
   Governmental Affairs Subcommittee on Oversight of Government Management,
   the Federal Workforce and the District of Columbia at a hearing entitled:
   “Financial Literacy: Empowering Americans to Prevent the Next Financial
   Crisis.” Ms. Romero provided testimony on SIGTARP’s efforts to raise public
   awareness of mortgage modification scams and to shut down these scams.
•	 On April 24, 2012, SIGTARP’s Chief of Staff, Mia Levine, presented briefings
   open to all Senate and House staff, respectively, on SIGTARP’s April 2012
   Quarterly Report.

    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




The SIGTARP Organization
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Hiring
As June 30, 2012, SIGTARP had 165 employees, plus two detailees from FHFA
OIG and one from the FBI. SIGTARP’s employees hail from private sector
businesses and many Federal agencies, including the Air Force Office of Special
Investigations, the Army Criminal Investigation Command, the Army Office
of Chief Legislative Liaison, the Congressional Oversight Panel for TARP, the
Department of Defense, the Department of Energy-Office of Inspector General,
the FBI, FDIC OIG, the Financial Crisis Inquiry Commission, the Government
Accountability Office, the Government Printing Office, the Department of
Homeland Security-Office of the Inspector General, IRS-CI, the Department
of Justice, the Naval Criminal Investigative Service, the Nuclear Regulatory
Commission, the Office of the Director of National Intelligence, the Secret
Service, the SEC, the Small Business Administration-Office of Inspector General,
the Department of State, the Department of Transportation, the Department of
34              special inspector general I troubled asset relief program




                                                       Transportation-Office of Inspector General, the Department of Treasury-Office of
                                                       Inspector General, Treasury Inspector General for Tax Administration, and USPIS.
                                                       The SIGTARP organization chart as of July 2, 2012 can be found in Appendix I:
                                                       “Organizational Chart.”

     Figure 1.1                                        Budget
     SIGTARP ESTIMATED FY 2012                         On February 14, 2011, the Administration submitted to Congress Treasury’s
     OPERATING PLAN                                    fiscal year 2012 budget request, which included SIGTARP’s funding request for
     ($ MILLIONS, PERCENTAGE OF $41.8 MILLION)         $47.4 million. The fiscal year 2012 House mark and Senate mark both provided
                                                       approximately $41.8 million. H.R. 2055/Public Law 112-74 Consolidated
                    Other Services                     Appropriations Act, 2012, provides $41.8 million in annual appropriations.
                          $2.4, 6%
                                                           Figure 1.1 provides a detailed breakdown of SIGTARP’s FY 2012 budget that
       Advisory Services                               reflects a total operating plan of $41.8 million, which includes spending from
                   $3.1
                                                       SIGTARP’s initial funding.
                           7%
                                                           On February 13, 2012, the Administration submitted to Congress Treasury’s
     Interagency
     Agreements                             Salaries
                                                       fiscal year 2013 budget request, which included SIGTARP’s funding request for
                      19%
            $8.1                     64%    and        $40.2 million.
                                            $26.7          Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year 2013
                                                       budget, which reflects a total operating plan of $46.8 million. This would include
              Travel
           $1.5, 4%
                                                       $40.2 million in requested annual appropriation and portions of SIGTARP’s initial
                                                       funding.

     Figure 1.2
                                                       Physical and Technical SIGTARP Infrastructure
     SIGTARP FY 2013                                   SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
     PROPOSED BUDGET                                   City, Los Angeles, San Francisco, and Atlanta. SIGTARP posts all of its reports,
     ($ MILLIONS, PERCENTAGE OF $46.8 MILLION)
                                                       testimony, audits, and contracts on its website, www.sigtarp.gov. Since its inception
                    Other Services                     through June 30, 2012, SIGTARP’s website has had more than 58.4 million
                          $2.2, 5%                     web “hits,” and there have been more than 5.3 million downloads of SIGTARP’s
       Advisory Services                               quarterly reports.i In addition to these web “hits,” SIGTARP’s website has recorded
                   $3.2                                32,968 page views since April 1, 2012, according to Treasury’s new tracking system.
                            7%

      Interagency                           Salaries
                      21%
      Agreements                      64%   and
            $9.9
                                            $30.2

                Travel
             $1.3, 3%




                                                       i
                                                           In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
                                                           system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

                                                           • Numbers reported to SIGTARP as of September 30, 2009
                                                           • Archived numbers provided by Treasury for the period of October through December 2009
                                                           • Numbers generated from Treasury’s new system for the period of January 2010 through June 2012

                                                           Starting April 1, 2012, a new tracking system has been introduced that tracks a different metric, “page views,” which are not to be
                                                           confused with “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.
Sect io n 2   TARP Overview
36   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I July 25, 2012           37




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP Funds Update
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                 Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.         that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                 Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds previously designated for some programs. As of June 30,                Deobligations: An agency’s cancellation
2012, $467.2 billion is obligated to TARP programs.6 Of that amount, $416.1                  or downward adjustment of previously
billion had been spent and $45.8 billion remained obligated and available to                 incurred obligations.
be spent.7 Taxpayers are owed $109.1 billion as of June 30, 2012. According to
Treasury, as of June 30, 2012, it had written off or realized losses of $15.6 billion
that taxpayers will never get back, leaving $93.5 billion in TARP funds outstand-
ing.8 These amounts do not include $4.5 billion in TARP funds spent on housing
programs, which are designed as a Government subsidy, with no repayments to
taxpayers expected.
     Table 2.1 details those write-offs and realized losses, but does not include
$20.3 million in realized losses at a June 25 to June 27, 2012, auction of the TARP
investment at seven banks because the sales closed after June 30, 2012.
38   special inspector general I troubled asset relief program




                  Table 2.1
                   TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 6/30/2012
                   ($ MILLIONS)

                   TARP                                                TARP   Realized Loss
                   Program    Institution                        Investment     or Write-Off          Date   Description
                   Realized Losses
                                                                                                             Sold 98,461 shares and equity
                                                                                                             stake in the UAW Retiree
                   Autos      Chrysler                              $1,888           $1,328     4/30/2010    trust for $560,000,000 and
                                                                                                             collected $48,055,721 for the
                                                                                                             sale of collateral
                   Autos      GMa                                   49,500           4,337d    11/17/2010 Sale of common stock at a loss
                                                                                      1,918     5/24/2011
                   SSFI       AIGa,b                                67,835            1,984     3/13/2012    Sale of common stock at a loss
                                                                                      1,621     5/10/2012
                                                                                                             Sale of subordinated
                   CPP        FBHC Holding Company                       3                2      3/9/2010
                                                                                                             debentures at a loss
                              First Federal Bancshares of
                   CPP                                                  17               11      5/3/2010    Sale of preferred stock at a loss
                              Arkansas, Inc.
                   CPP        The Bank of Currituck                      4                2     12/3/2010    Sale of preferred stock at a loss
                   CPP        Treaty Oak Bancorp, Inc.                   3                3     2/15/2011 Sale of preferred stock at a loss
                                                                                                             Exchange of preferred stock at
                   CPP        Central Pacific Financial Corp.          135              32d     6/22/2011
                                                                                                             a loss
                   CPP        Cadence Financial Corporation             44                6      3/4/2011    Sale of preferred stock at a loss
                              First Community Bank
                   CPP                                                  11                3     5/31/2011    Sale of preferred stock at a loss
                              Corporation of America
                   CPP        Cascade Financial Corporation             39               23     6/30/2011    Sale of preferred stock at a loss
                   CPP        Green Bankshares, Inc.                    72                4      9/7/2011    Sale of preferred stock at a loss
                   CPP        Santa Lucia Bancorp                        4                1    10/21/2011 Sale of preferred stock at a loss
                              MainSource Financial
                   CPP                                                  57                4d     4/3/2012 Sale of preferred stock at a loss
                              Group, Inc.
                              Seacoast Banking Corporation
                   CPP                                                  50                9d     4/3/2012 Sale of preferred stock at a loss
                              of Florida
                   CPP        Wilshire Bancorp, Inc.                    62                4d     4/3/2012 Sale of preferred stock at a loss
                              Banner Corporation/Banner
                   CPP                                                 124              14d      4/3/2012 Sale of preferred stock at a loss
                              Bank
                   CPP        First Financial Holdings Inc.             65                8d     4/3/2012 Sale of preferred stock at a loss
                   CPP        WSFS Financial Corporation                53                4d     4/3/2012 Sale of preferred stock at a loss
                   CPP        Central Pacific Financial Corp.          135              30 d
                                                                                                 4/4/2012 Sale of common stock at a loss
                   CPP        Ameris Bancorp                            52                4d
                                                                                                6/19/2012 Sale of preferred stock at a loss
                   CPP        United Bancorp, Inc.                      21                4d    6/19/2012 Sale of preferred stock at a loss
                   CPP        First Capital Bancorp, Inc.               11                1d
                                                                                                6/19/2012 Sale of preferred stock at a loss
                   CPP        First Defiance Financial Corp.            37                1d    6/19/2012 Sale of preferred stock at a loss
                   CPP        LNB Bancorp, Inc.                         25                3d
                                                                                                6/19/2012 Sale of preferred stock at a loss
                   CPP        Farmers Capital Corporation               30                8d    6/19/2012 Sale of preferred stock at a loss
                   CPP        Taylor Capital Group, Inc.               105              11 d
                                                                                                6/19/2012 Sale of preferred stock at a loss
                   Total Realized Losses                                           $11,379
                                                                                                                     Continued on next page
                                                                                                                                   quarterly report to congress I July 25, 2012    39




TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 6/30/2012
($ MILLIONS) (CONTINUED)

TARP                                                                  TARP           Realized Loss
Program         Institution                                     Investment             or Write-Off                       Date      Description
Write-Offs
                                                                                                                                    Accepted $1.9 billion as full
Autos           Chrysler                                               $3,500                  $1,600            5/14/2010          repayment for the debt of
                                                                                                                                    $3.5 billion
CPP             CIT Group Inc.                                           2,330                   2,330         12/10/2009 Bankruptcy
CPP             Pacific Coast National Bancorp                                 4                        4        2/11/2010 Bankruptcy
CPP             South Financial Group, Inc.          c
                                                                           347                      217          9/30/2010          Sale of preferred stock at a loss
CPP             TIB Financial Corpc                                          37                       25         9/30/2010          Sale of preferred stock at a loss
Total Write-Offs                                                                               $4,176

Total of Realized Losses and Write-Offs                                                     $15,555
Notes: Numbers may not total due to rounding. Total realized losses and write-offs does not include $20.3 million in realized losses for Treasury’s interests in seven CPP
banks that were sold at auction June 25-27, 2012, because the sales closed after June 30, 2012.
a
  	Since this company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully
   divested.
b
  	Treasury has sold a total of 459 million AIG common shares at an average price of $29.47 per share, consisting of 392,922,121 TARP shares and 202,499,020 non-
   TARP shares based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank
   of New York for the benefit of the Treasury. Receipts for non-TARP common stock totaled $5,968,645,637 and are not included in TARP collections. The realized loss
   reflects the price at which TARP sold common shares in AIG and TARP’s cost basis of $43.53 per common share.
c
  	According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at
   a loss as realized losses.
d
  	Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized
   losses.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Section 105(a) Report, 7/10/2012; Treasury Press Release, “Treasury Announces Agreement to Exit
Remaining Stake in Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 6/28/2012; Treasury, response to
SIGTARP data call, 7/5/2012.



    With the expiration of TARP funding authorization, no new expenditures may
be made through 10 TARP programs because all obligated dollars have been spent.
For three programs — the housing programs, the Term Asset-Backed Securities
Loan Facility (“TALF”), and the Public-Private Investment Program (“PPIP”) —
$45.8 billion in TARP dollars that were obligated but unspent as of June 30, 2012,
are available to be spent. Table 2.2 provides a breakdown of program obligations,
changes in obligations, expenditures, principal repaid, amounts still owed to taxpay-
ers, and obligations available to be spent as of June 30, 2012. Table 2.2 lists 10
TARP sub-programs, instead of all 13, because it excludes the Capital Assistance
Program (“CAP”), which was never funded, and summarizes three programs under
“Automotive Industry Support Programs.”
40                special inspector general I troubled asset relief program




     Table 2.2
      Obligations, Expenditures, PRINCIPAL REPAID, AMOUNTS STILL OWED TO TAXPAYERS, and Obligations Available
      to be Spent ($ Billions)
                                               Obligation After                        Current                                                                         Still Owed to                    Available
                                                   Dodd-Frank                        Obligation                Expenditure           Principal Repaid                    Taxpayers                   to Be Spent
     Program                                      (As of 10/3/2010)            (As of 6/30/2012)           (As of 6/30/2012)            (As of 6/30/2012)           (As of 6/30/2012)a            (As of 6/30/2012)

     Housing Support
                                                              $45.6                       $45.6                          $4.5                            $—                           $—                     $41.1
     Programsb
     Capital Purchase Program                                 204.9                       204.9                        204.9                       191.1c                         13.8                           0.0
     Community Development
                                                                  0.6                         0.6                          0.2                         0.0*                         0.6                          0.0
     Capital Initiatived
     Systemically Significant
                                                                69.8                        67.8e                        67.8                        31.9                         36.0                           0.0
     Failing Institutions
     Targeted Investment
                                                                40.0                        40.0                         40.0                        40.0                           0.0                          0.0
     Program
     Asset Guarantee Program                                      5.0                         5.0                          0.0                         0.0                          0.0                          0.0
     Term Asset-Backed
                                                                  4.3                         1.4f                         0.1                         0.0                          0.1                          1.3
     Securities Loan Facility
     Public-Private Investment
                                                                22.4                        21.9                         18.5                          4.4g                       14.1                           3.4h
     Program
     Unlocking Credit for Small
                                                                  0.4                         0.4                          0.4                         0.4                          0.0                          0.0
     Businesses
     Automotive Industry
                                                                81.8i                       79.7j                        79.7                        35.2                         44.5                           0.0
     Support Programs
     Total                                                 $474.8                       $467.2                      $416.1k                      $302.9                      $109.1                          $45.8
      Notes: Numbers may not total due to rounding.
      a
         	Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $15.6 billion. It does not include $4.5 billion in TARP dollars spent on housing
          programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected. Realized losses do not reflect $20.3 million in losses incurred at a June 25-27, 2012,
          auction of Treasury’s interests in seven banks, which settled after June 30, 2012.
      b
         	Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
      c
         	Does not include $204.4 million in proceeds from CPP auction held June 25-27, 2012, but not settled until after June 30, 2012. Includes $363.3 million in non-cash conversions from CPP to CDCI.
          Includes $2.2 billion for CPP banks that exited TARP through SBLF.
      d
         	CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
          was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
          Of the total obligation, only $106 million went to non-CPP institutions.
      e
         	Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
      f
        	Treasury deobligated $2.9 billion in TALF funding, bringing the total obligation to $1.4 billion.
      g
         	On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
          $958 million is included in this repayment total.
      h
         	Total obligation of $22.4 billion and expenditure of $18.5 billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the
          funds that were invested in its PPIF; however, these dollars are not included in the amount available to be spent. Current obligation of $21.9 billion results because Invesco terminated its investment
          period on September 26, 2011, without fully drawing down all committed equity and debt. The undrawn debt of $550 million was deobligated, but the undrawn equity was not.
      i
        	Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
      j
        	Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
      k
         	The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

      * Amount less than $50 million.

      Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Daily TARP Update, 7/2/2012; Treasury, response to SIGTARP data call, 7/5/2012.
                                                                                  quarterly report to congress I July 25, 2012   41




Cost Estimates
Several Government agencies are responsible under EESA for generating cost
estimates for TARP, including the Office of Management and Budget (“OMB”),
the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
are audited each year by the Government Accountability Office (“GAO”). Cost
estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
loss and OMB’s August 2009 cost estimate of a $341 billion loss.9
     On February 13, 2012, OMB issued the Administration’s fiscal year 2013
budget, which included a TARP lifetime cost estimate of $67.8 billion, based upon
figures from November 30, 2011.10 That was an increase from its estimate of $53.2
billion based on June 30, 2011 data.11 Much of the difference is due to a lower val-
ue for Treasury’s common stock holdings in AIG, GM, and Ally Financial compared
with November 2010. This estimate assumes that all $45.6 billion of obligated
funds for housing will be spent. It also assumes that PPIP will make a profit of $2
billion and CPP will make a profit of $6.7 billion, including principal repayments
and revenue from dividends, warrants, interest, and fees.
     On March 28, 2012, CBO issued an updated TARP cost estimate based on
its evaluation of data as of February 22, 2012. CBO estimated the ultimate cost
of TARP would be $32 billion, down $2 billion from its estimate of $34 billion in
December 2011.12 This decrease came primarily from an increase in the market
value of Treasury’s investments in AIG and GM, partially offset by added costs from
new initiatives in TARP housing programs. CBO estimated that only $16 billion of
obligated funds for housing will be spent.
     On November 10, 2011, Treasury issued its September 30, 2011, fiscal year
audited agency financial statements for TARP, which contained a cost estimate of
$70 billion.13 This estimate is an increase from Treasury’s March 31, 2011, esti-
mate of $49 billion. According to Treasury, “These costs fluctuate in large part due
to changes in the market prices of common stock for AIG and GM and the esti-
mated value of the Ally [Financial] stock.”14 According to Treasury, the largest losses
from TARP are expected to come from housing programs and from assistance to
AIG and the automotive industry.15
     The most recent TARP program cost estimates from each agency are listed in
Table 2.3.
42   special inspector general I troubled asset relief program




                                            TABLE 2.3
                                            Cost (gain) of TARP Programs                               ($ Billions)

                                                                                                                                                        Treasury Estimate,
                                                                                                                                                             TARP Audited
                                                                                                                                                          Agency Financial
                                            Program Name                                      OMB Estimate                     CBO Estimate                     Statement
                                                Report issued:                                   2/13/2012                         3/28/2012                     11/10/2011
                                                Data as of:                                     11/30/2011                         2/22/2012                      9/30/2011
                                            Housing Support Programs                                          $46                              $16                                $46
                                            CPP                                                                 (7)                            (17)                               (13)
                                            SSFI                                                                24                              22                                 24
                                            TIP and AGP                                                         (7)                              (8)                               (8)
                                            TALF                                                                  0                               0                                 0
                                            PPIP                                                                (2)                               0                           (2.4)
                                            Automotive Industry Support
                                                                                                                25                              19                                 24
                                            Programsa
                                            Otherb                                                                *                               *                                 *
                                            Total                                                             $78                            $32   c
                                                                                                                                                                              $70d
                                            Interest on Reestimatese                                          (10)

                                            Adjusted Total                                                  $68d
                                            Notes: Numbers may not total due to rounding.
                                            a
                                              	Includes AIFP, ASSP, and AWCP.
                                            b
                                              	Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
                                            c
                                              	The estimate is before administrative costs and interest effects.
                                            d
                                              	The estimate includes interest on reestimates but excludes administrative costs.
                                            e
                                              	Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
                                               estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

                                            Sources: OMB Estimate—OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.
                                            whitehouse.gov/sites/default/files/omb/reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 6/28/2012; CBO
                                            Estimate—CBO, “Report on the Troubled Asset Relief Program—March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/
                                            attachments/03-28-2012TARP.pdf, accessed 6/28/2012; Treasury Estimate—Treasury, “Office of Financial Stability–Troubled Asset
                                            Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
                                            reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 6/28/2012.




                                            Financial Overview of TARP
                                            Treasury had obligated $474.8 billion of the $475 billion ceiling under the Dodd-
                                            Frank Act, but in 2011 and 2012 deobligated funds for several programs, reducing
                                            obligations to $467.2 billion as of June 30, 2012. Of the total obligations, $416.2
                                            billion was expended as of June 30, 2012.16 There remains approximately $45.8
                                            billion still available to be spent.17
                                                 According to Treasury, as of June 30, 2012, 306 TARP recipients (including
                                            302 banks and credit unions, two auto companies, and two former PPIP manag-
                                            ers) had paid back all of their principal or repurchased shares, sometimes at a loss
                                            to Treasury, and 24 TARP recipients had partially repaid their principal or repur-
                                            chased their shares, for a total of $302.5 billion.18 Some of these institutions repaid
                                            TARP by refinancing into other TARP programs or other Government programs
                                            such as the Small Business Lending Fund (“SBLF”). According to Treasury, one
                                                                                      quarterly report to congress I July 25, 2012                                43




PPIP manager, Invesco, has fully repaid its debt and equity, but retains some capi-               FIGURE 2.1
tal to wind down operations. These repayments also include five PPIP managers                     CURRENT TARP EXPENDITURES,
who have made partial payments over the lifetime of the program. Taxpayers are                    REPAYMENTS, AND AMOUNT
still owed $109.1 billion as of June 30, 2012. According to Treasury, it has incurred             OWED ($ BILLIONS)
write-offs of $4.2 billion and realized losses of $11.4 billion as of June 30, 2012,
which taxpayers will never get back, leaving $93.5 billion in TARP funds outstand-               $500

ing (not including $4.5 billion in TARP funds spent as a subsidy for TARP housing
                                                                                                  400
programs).19 Figure 2.1 provides a snapshot of the cumulative expenditures, repay-                          $416.1

ments, and amount owed as of June 30, 2012. According to Treasury, as of June                     300
                                                                                                                              $302.9
30, 2012, the Government had also collected $41.1 billion in interest, dividends,
                                                                                                  200
and other income, including $9.2 billion in proceeds from the sale of warrants and
stock received as a result of exercised warrants.20                                               100
                                                                                                                                                $109.1
     Most of the outstanding TARP money is in the form of equity ownership in 410
                                                                                                      0
institutions as of June 30, 2012 (325 banks in CPP, 82 banks and credit unions in
                                                                                                          TARP              TARP              Amount
CDCI, plus AIG, GM, and Ally Financial). Treasury (and therefore the taxpayer)                            Expenditures      Repaymentsa       Owedb

remains a shareholder in companies that have not repaid the Government.
Treasury’s equity ownership is largely in two forms — common and preferred stock                   Notes: As of 6/30/2012. Numbers may not total due
— although it also has received debt in the form of senior subordinated debentures.                to rounding.
                                                                                                  a
                                                                                                    Repayments include $191.1 billion for CPP, $40 billion
     As of June 30, 2012, obligated funds totaling $45.8 billion were still available to             for TIP, $35.2 billion for Auto Programs, $4.4 billion for
                                                                                                     PPIP, and $31.9 billion for SSFI. The $191.1 billion for
be drawn down by TARP recipients under three of TARP’s 13 announced pro-                             CPP repayments does not include $204.4 million in
                                                                                                     proceeds from CPP auction held June 25-27, 2012, but
grams.21 TARP’s component programs fall into four categories, depending on the                       includes $363.3 million in non-cash conversion from
type of assistance offered:                                                                          CPP to CDCI and $2.2 billion for banks that refinanced
                                                                                                     from TARP into SBLF. The $31.9 billion payment for
                                                                                                     SSFI includes amounts applied to (i) pay accrued
                                                                                                     preferred returns and (ii) redeem the outstanding
•	 Housing Support Programs — These programs are intended to help                                    liquidation amount.
                                                                                                  b
                                                                                                    Amount owed includes $15.6 billion that Treasury has
   homeowners who are having trouble making their mortgage payments by                               written off or realized losses, but does not include
                                                                                                     $20.3 million in losses realized after June 30, 2012,
   providing incentives for foreclosure alternatives.                                                in an auction of the investment in seven CPP banks. It
                                                                                                     does not include $4.5 billion spent for housing
•	 Financial Institution Support Programs — These programs share a common                            programs, which were designed as a Government
   stated goal of stabilizing financial markets and improving the economy.                           subsidy, with no repayment to taxpayers expected.

•	 Asset Support Programs — These programs attempt to support asset values                        Sources: Treasury, Transactions Report, 6/27/2012;
                                                                                                  Treasury, Daily TARP Update, 7/2/2012; Treasury,
   and market liquidity by providing funding to certain holders or purchasers of                  response to SIGTARP data call, 7/5/2012.
   assets.
•	 Automotive Industry Support Programs — These programs are intended to
   stabilize the U.S. automotive industry and promote market stability.



 Common Stock: Equity ownership entitling      Preferred Stock: Equity ownership that          Senior Subordinated Debentures: Debt
 an individual to share in corporate           usually pays a fixed dividend before            instrument ranking below senior debt but
 earnings and voting rights.                   distributions for common stock owners           above equity with regard to investors’
                                               but only after payments due to debt             claims on company assets or earnings.
                                               holders. It typically confers no voting
                                               rights. Preferred stock also has priority
                                               over common stock in the distribution
                                               of assets when a bankrupt company is
                                               liquidated.
44   special inspector general I troubled asset relief program




                                               Some TARP programs are scheduled to last as late as 2019. Table 2.4 provides
                                            details of those exit dates.

                                            Table 2.4
                                             TARP Program SCHEDULE
                                             TARP Program                                    Scheduled Program Dates
                                             Term Asset-Backed Securities Loan Facility      2015 maturity of last loan
                                             Public-Private Investment Program               2017 for fund manager to sell securities (with
                                                                                             possibility to extend to 2019)
                                             Home Affordable Modification Program            2019 for incentives on modifications
                                             Hardest Hit Fund                                2017 for states to use TARP funds


                                                 Other TARP programs have no scheduled ending date; TARP money will
                                            remain invested until recipients pay Treasury back or until Treasury is able to sell
                                            its investments in the companies. Table 2.5 provides details on the status of the
                                            remaining Treasury investments under those programs.

                                            Table 2.5
                                             TARP INVESTMENTS IN FINANCIAL INSTITUTIONS
                                             TARP Program                                    Remaining Treasury Investment
                                             Capital Purchase Program                        Preferred stock in 325 banks
                                             Community Development Capital Initiative        Preferred stock in 82 banks/credit unions
                                             Systemically Significant Failing Institutions   61% stake in AIG
                                             Automotive Industry Financing Program           32% stake in GM
                                                                                             74% stake in Ally Financial


                                            Housing Support Programs
                                            The stated purpose of TARP’s housing support programs is to help homeowners
                                            and financial institutions that hold troubled housing-related assets. Although
                                            Treasury originally committed to use $50 billion in TARP funds for these programs,
                                            it obligated only $45.6 billion.22 As of June 30, 2012, $4.5 billion, or 10% of this
                                            amount, has been expended. However, some of these expended funds remain as
                                            cash on hand or administrative expenses with the state Housing Finance Agencies
                                            participating in the Hardest Hit Fund program.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering
                                               the negative spillover effects of foreclosure, such as lower housing prices,
                                               increased crime, and higher taxes.”23 MHA, for which Treasury has obligated
                                               $29.9 billion of TARP funds, consists of the Home Affordable Modification
                                               Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
                                               both modify first-lien mortgages to reduce payments, the Federal Housing
                                               Administration (“FHA”) HAMP loan modification option for FHA-insured
                                                                                  quarterly report to congress I July 25, 2012   45




   mortgages (“Treasury/FHA-HAMP”), the U.S. Department of Agriculture Office
   of Rural Development (“RD”) HAMP (“RD-HAMP”), the Home Affordable
   Foreclosure Alternatives (“HAFA”) program, and the Second Lien Modification
   Program (“2MP”).24 HAMP in turn encompasses various initiatives in addition
   to the modification of first-lien mortgages, including Home Price Decline
   Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
   Home Affordable Unemployment Program (“UP”).25 Additionally, the overall
   MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
   FHA Second-Lien Program (“FHA2LP”), which complements the FHA
   Short Refinance program (discussed later) and is intended to support the
   extinguishment of second-lien loans.26
        Treasury made several changes to MHA in the first half of 2012. Notably,
    the application period for HAMP was extended by a year to December 31,
    2013, and investor incentives for principal reduction were doubled for 2MP
    and tripled for PRA. Additionally, on June 1, 2012, HAMP was expanded under
    “HAMP Tier 2” to open HAMP to non-owner-occupied rental properties and
    to borrowers with a wider range of debt-to-income ratios.27 For more detailed
    information, see the “Housing Support Programs” discussion in this section.
        As of June 30, 2012, MHA had expended $3.4 billion of TARP money.28 As
    of that date, there were 393,887 active permanent first-lien modifications under
    the completed TARP-funded portion of HAMP, an increase of 12,994 active
    permanent modifications over the past quarter.29 Total expenditures in incen-
    tives and payments for HAFA were $237.2 million in connection with 52,998
    deed-in-lieu and short sale transactions. Expenditures in incentives and pay-
    ments for 2MP were $192.1 million in connection with 18,974 full extinguish-
    ments, 4,547 partial extinguishments, and 63,769 permanent modifications of
    second liens.30 For more detailed information, including participation numbers
    for each of the MHA programs and subprograms, see the “Housing Support
    Programs” discussion in this section.
•	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
   TARP funding to this program to purchase a letter of credit to provide loss
   protection on refinanced first liens. Additionally, to facilitate the refinancing of
   non-FHA mortgages into new FHA-insured loans under this program, Treasury
   has allocated approximately $2.7 billion in TARP funds for incentive payments
   to servicers and holders of existing second liens for full or partial principal
   extinguishments under the related FHA2LP; these funds are part of the
   overall MHA funding of $29.9 billion, as noted above.31 As of June 30, 2012,
   there have been 1,437 refinancings under the program.32 For more detailed
   information, see the “Housing Support Programs” discussion in this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program was to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath
   of the housing bubble.”33 Treasury obligated $7.6 billion for this program.34 As
   of June 30, 2012, $1.1 billion had been drawn down by the states from HHF.
   However, as of March 31, 2012, only $351 million has been spent assisting
46             special inspector general I troubled asset relief program




                                                         43,580 homeowners, with the remaining funds used for administrative expenses
                                                         and cash-on-hand.35 For more detailed information, see the “Housing Support
                                                         Programs” discussion in this section.

                                                      Financial Institution Support Programs
                                                      Treasury primarily invested capital directly into financial institutions including
                                                      banks, bank holding companies, and, if deemed by Treasury critical to the financial
     Systemically Significant Institutions:
                                                      system, some systemically significant institutions.36
     Term referring to any financial
     institution whose failure would impose
                                                      •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly
     significant losses on creditors and
                                                         purchased preferred stock or subordinated debentures in qualifying financial
     counterparties, call into question the
                                                         institutions (“QFIs”).37 CPP was intended to provide funds to “stabilize and
     financial strength of similar institutions,
                                                         strengthen the U.S. financial system by increasing the capital base of an
     disrupt financial markets, raise
                                                         array of healthy, viable institutions, enabling them [to] lend to consumers and
     borrowing costs for households and
                                                         business[es].”38 Treasury invested $204.9 billion in 707 institutions through
     businesses, and reduce household
                                                         CPP, which closed to new funding on December 29, 2009.39 As of June 30,
     wealth.
                                                         2012, 325 of those institutions remained in CPP.40 Of the 382 that have exited
                                                         CPP, 165, or 43.2%, did so through other Government programs — 28 of
     Qualifying Financial Institutions (“QFIs”):
                                                         them through TARP’s CDCI and 137 through SBLF, a non-TARP program.41
     Private and public U.S.-controlled
                                                         Only 164 of the banks that exited, or 42.9%, fully repaid CPP otherwise.42 In
     banks, savings associations, bank
                                                         addition, three CPP banks merged with other CPP banks, Treasury sold its
     holding companies, certain savings
                                                         investments in 33 institutions at a loss, and 17 institutions or their subsidiary
     and loan holding companies, and
                                                         banks failed, meaning Treasury lost its entire investment in those banks.43
     mutual organizations.
                                                         As of June 30, 2012, taxpayers were still owed $13.8 billion related to CPP.
                                                         According to Treasury, it had write-offs and realized losses of $2.8 billion in
     Community Development Financial
                                                         the program, leaving $11.1 billion in TARP funds outstanding.44 According to
     Institutions (“CDFIs”): Financial
                                                         Treasury, $191.1 billion of the CPP principal (or 93.3%) had been repaid as of
     institutions eligible for Treasury funding
                                                         June 30, 2012. That repayment tally includes $245 million in proceeds from an
     to serve urban and rural low-income
                                                         auction held June 11 through June 13, 2012, of Treasury’s preferred stock in
     communities through the CDFI Fund.
                                                         seven banks, but does not include $204.4 million in proceeds from an auction
     CDFIs were created in 1994 by the
                                                         held from June 25 through June 27, 2012, of preferred stock in seven other
     Riegle Community Development and
                                                         banks because the sales closed after June 30, 2012. The repayment amount
     Regulatory Improvement Act. These
                                                         also includes $363.3 million in preferred stock that was converted from CPP
     entities must be certified by Treasury;
                                                         investments into CDCI and therefore still represents outstanding obligations
     certification confirms that they target
                                                         to TARP, and $2.2 billion that was refinanced in 2011 into SBLF, a non-
     at least 60% of their lending and other
                                                         TARP Government program.45 Treasury continues to manage its portfolio of
     economic development activities
                                                         CPP investments, including, for certain struggling institutions, converting its
     to areas underserved by traditional
                                                         preferred equity ownership into a more junior form of equity ownership, often
     financial institutions.
                                                         at a discount to par value (which may result in a loss) in an attempt to preserve
                                                         some value that might be lost if these institutions were to fail. For more detailed
                                                         information, see the “Capital Purchase Program” discussion in this section.
                                                      •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                         Treasury used TARP money to buy preferred stock in or subordinated debt from
                                                         Community Development Financial Institutions (“CDFIs”). Treasury intended
                                                         for CDCI to “improve access to credit for small businesses in the country’s
                                                                                 quarterly report to congress I July 25, 2012           47




   hardest-hit communities.”46 Under CDCI, TARP made capital investments
   in the preferred stock or subordinated debt of eligible banks, bank holding
   companies, thrifts, and credit unions.47 Eighty-four institutions received $570.1
   million in funding under CDCI.48 However, 28 of these institutions converted
   their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
   and 10 of those that converted received combined additional funding of $100.7
   million under CDCI.49 Only $106 million of CDCI money went to institutions
   that were not already TARP recipients. As of June 30, 2012, 82 institutions
   remain in CDCI.
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent them
   from failing.50 Only one firm received SSFI assistance: American International
   Group, Inc. (“AIG”), which remained in SSFI as of June 30, 2012. The
   Government’s rescue of AIG involved several different funding facilities provided
   by the Federal Reserve Bank of New York (“FRBNY”) and Treasury, with various
   changes to the transactions over time. The rescue of AIG was led by FRBNY and
   the Board of Governors of the Federal Reserve System (“Federal Reserve”). With
   the passage of EESA in October 2008, Treasury took on a greater role in the AIG
   rescue as the Government expanded and restructured its aid.
        There were two TARP investments in AIG. On November 25, 2008,
    Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
    were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
    Treasury obligated approximately $29.8 billion to an equity capital facility that
    AIG was allowed to draw on as needed.51
        On January 14, 2011, AIG executed its previously announced
    Recapitalization Plan with the Government. According to Treasury, the intent
    of the restructuring was to facilitate the repayment of AIG’s government loans
    and investments and to promote AIG’s transition from a majority government
    owned and supported entity to a financially sound and independent entity.52
    Under the Recapitalization Plan, AIG fully repaid FRBNY’s revolving credit
    facility, purchased the remainder of FRBNY’s preferred equity interests in two
    AIG subsidiaries (which it then transferred to Treasury), and Treasury converted
    its preferred stock holdings (along with the preferred stock holdings held by
    the AIG Trust) into an approximately 92.1% common equity ownership stake
    in AIG. The three main steps of the Recapitalization Plan are briefly described
    below.
   çç AIG repaid and terminated its revolving credit facility with FRBNY with
        cash proceeds that it had received from sales of equity interests in two              Special Purpose Vehicle (“SPV”):
        companies: American International Assurance Co., Ltd. (“AIA”) and                     A legal entity, often off-balance-
        American Life Insurance Company (“ALICO”).53                                          sheet, that holds transferred assets
   çç AIG applied cash proceeds from the AIA IPO and ALICO sale to retire                     presumptively beyond the reach of the
        a portion of FRBNY’s preferred interests in the special purpose vehicle               entities providing the assets, and that
        (“SPV”) that held ALICO.54 AIG next drew down an additional $20.3 billion             is legally isolated from its sponsor or
        in available TARP funds from the equity capital facility to repurchase the            parent company.
48            special inspector general I troubled asset relief program




                                                             remainder of FRBNY’s preferred interests in the ALICO SPV and all of
                                                             FRBNY’s preferred interests in the AIA SPV. AIG then transferred the
                                                             preferred interests to Treasury. AIG designated its remaining $2 billion
                                                             TARP equity capital facility to a new Series G standby equity commitment
                                                             available for general corporate purposes, which has been subsequently
                                                             terminated without drawdown.
                                                        çç AIG issued common stock in exchange for the preferred shares held by
                                                             Treasury and the AIG Trust. The conversion resulted in Treasury holding a
                                                             common equity ownership in AIG of approximately 92.1%.55
                                                             On May 27, 2011, Treasury sold 200 million shares of AIG’s common stock
                                                         for $5.8 billion in proceeds, which decreased Treasury’s equity ownership to
                                                         77%. On March 8, 2012, Treasury sold approximately 206.9 million shares
                                                         of AIG’s common stock for $6 billion in proceeds, which further decreased
                                                         Treasury’s equity ownership to 70%. On May 6, 2012, Treasury sold approxi-
                                                         mately 188.5 million shares of AIG’s common stock for $5.8 billion in proceeds.
                                                         This sale decreased Treasury’s equity ownership to 61%.56
                                                             Through two payments in February 2011 and March 2011, AIG fully repaid
                                                         the Government’s preferred interests in the ALICO SPV. Through a series of
                                                         repayments between February 2011 and March 2012, AIG fully repaid the
                                                         Government’s preferred interests in the AIA SPV.
                                                             As of June 30, 2012, taxpayers were still owed $36 billion related to AIG’s
                                                         bailout. According to Treasury’s TARP books and records, taxpayers have
                                                         realized losses on the TARP investment from an accounting standpoint of
                                                         $5.5 billion on Treasury’s sale of AIG stock. However, given the January 2011
                                                         restructuring of the FRBNY and Treasury investment, according to Treasury,
                                                         the Government overall has made a gain thus far on the stock sales. According
                                                         to Treasury, this leaves $30.4 billion in TARP funds outstanding. In return,
                                                         for that investment, Treasury holds 61% of AIG’s common stock (1.06 billion
                                                         shares).
                                                             For more detailed information on the Recapitalization Plan, the sale of AIG
                                                         common stock, and other AIG transactions, see the “Systemically Significant
                                                         Failing Institutions Program” discussion in this section. For discussion of how
                                                         AIG has changed while in TARP, see Section 3, “AIG Remains in TARP as the
                                                         Largest TARP Investment.”
                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                        financial institutions it deemed critical to the financial system.57 There were two
                                                        expenditures under this program, totaling $40 billion — the purchases of $20
     Senior Preferred Stock: Shares that                billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
     give the stockholder priority dividend             of America Corp. (“Bank of America”).58 Treasury also accepted common stock
     and liquidation claims over junior                 warrants from each, as required by EESA. Both banks fully repaid Treasury
     preferred and common stockholders.                 for its TIP investments.59 Treasury auctioned its Bank of America warrants on
                                                        March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.60
                                                        For more information on these two transactions, see the “Targeted Investment
                                                        Program and Asset Guarantee Program” discussion in this section.
                                                                                quarterly report to congress I July 25, 2012               49




•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
   insurance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened
   market confidence.61 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.62 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.63 On December 23, 2009, in connection with Citigroup’s TIP
                                                                                             Illiquid Assets: Assets that cannot be
   repayment, Citigroup and the Government terminated the AGP agreement
                                                                                             quickly converted to cash.
   and the Government suffered no loss. For more information on this program,
   including more detailed information on the agreements between Treasury,
                                                                                             Trust Preferred Securities (“TRUPS”):
   Citigroup, and FDIC, regarding these TRUPS, see the “Targeted Investment
                                                                                             Securities that have both equity and
   Program and Asset Guarantee Program” discussion in this section.
                                                                                             debt characteristics, created by
                                                                                             establishing a trust and issuing debt
Asset Support Programs
                                                                                             to it.
The stated purpose of these programs was to support the liquidity and market value
                                                                                             Asset-Backed Securities (“ABS”): Bonds
of assets owned by financial institutions. These assets included various classes of
                                                                                             backed by a portfolio of consumer
asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
                                                                                             or corporate loans, e.g., credit card,
programs sought to bolster the balance sheets of financial firms and help free
                                                                                             auto, or small-business loans. Financial
capital so that these firms could extend more credit to support the economy.
                                                                                             companies typically issue ABS backed
                                                                                             by existing loans in order to fund new
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
                                                                                             loans for their customers.
   originally designed to increase credit availability for consumers and small
   businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                                                             Commercial Mortgage-Backed
   investors with non-recourse loans secured by certain types of ABS, including
                                                                                             Securities (“CMBS”): Bonds backed by
   credit card receivables, auto loans, equipment loans, student loans, floor
                                                                                             one or more mortgages on commercial
   plan loans, insurance-premium finance loans, loans guaranteed by the Small
                                                                                             real estate (e.g., office buildings, rental
   Business Administration (“SBA”), residential mortgage servicing advances, and
                                                                                             apartments, hotels).
   commercial mortgage-backed securities (“CMBS”).64 TALF closed to new loans
   in June 2010.65 TALF ultimately provided $71.1 billion in Federal Reserve
   financing. Of that amount, $4.5 billion remained outstanding as of June 30,
   2012.66 FRBNY made 13 rounds of TALF loans with non-mortgage-related
   ABS as collateral, totaling approximately $59 billion, with $3.4 billion of TALF
   borrowings outstanding as of June 30, 2012.67 FRBNY also made 13 rounds of
   TALF loans with CMBS as collateral, totaling $12.1 billion, with $1.1 billion in
   loans outstanding as of June 30, 2012.68 Treasury originally obligated $20 billion
   of TARP funds to support this program by providing loss protection to the loans
   extended by FRBNY in the event that a borrower surrendered the ABS collateral
   and walked away from the loan.69 Treasury has since reduced its obligation for
   TALF to $1.4 billion.70 As of June 30, 2012, there had been no surrender of
   collateral.71 As of June 30, 2012, $2.3 million in TARP funds had been allocated
   under TALF for administrative expenses.72 For more information on these
   activities, see the “TALF” discussion in this section.
50             special inspector general I troubled asset relief program




                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     Legacy Securities: Real estate-related              credit markets by using a combination of private equity, matching Government
     securities originally issued before                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
     2009 that remained on the balance                   non-agency residential mortgage-backed securities (“non-agency RMBS”).73
     sheets of financial institutions because            Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
     of pricing difficulties that resulted from          by private asset managers invested in non-agency RMBS and CMBS. Treasury
     market disruption.                                  obligated $22.4 billion in TARP funds to the program, which was decreased
                                                         to $21.9 billion after Invesco Legacy Securities Master Fund, L.P. (“Invesco”)
     Non-Agency Residential Mortgage-                    terminated its investment period.74 As of June 30, 2012, seven PPIFs remained
     Backed Securities (“non-agency                      active after one PPIP manager withdrew from the program and Invesco sold all
     RMBS”): Financial instrument backed                 investments and is winding down the PPIF. As of June 30, 2012, the PPIFs had
     by a group of residential real estate               drawn down $18.5 billion in debt and equity financing from Treasury funding
     mortgages (i.e., home mortgages for                 out of the total obligation, which includes $4.4 billion that has been repaid.75
     residences with up to four dwelling                 As the PPIFs continue to make purchases, they will continue to have access to
     units) not guaranteed or owned by                   draw down the remaining funding through the end of their investment periods,
     a Government-sponsored enterprise                   the last of which will expire in December 2012.76 Following the expiration of the
     (“GSE”) (Fannie Mae or Freddie Mac) or              investment period, the fund managers will have five years to manage and sell
     a Government agency.                                the investment portfolio in the PPIF and return proceeds to private investors
                                                         and taxpayers. This period may be extended up to a maximum of two years. For
                                                         details about the program structure and fund-manager terms, see the “Public-
                                                         Private Investment Program” discussion in this section.
                                                      •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
                                                         Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
                                                         officials announced that Treasury would buy up to $15 billion in securities
                                                         backed by SBA loans under UCSB.77 Treasury obligated a total of $400 million
                                                         for UCSB and made purchases of $368.1 million in 31 securities under the
                                                         program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                                         ending the program with a net investment gain of about $9 million.78 For more
                                                         information on the program, see the discussion of “Unlocking Credit for Small
                                                         Businesses/Small Business Administration Loan Support” in this section.

                                                      Automotive Industry Financing Program (“AIFP”)
                                                      TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                                      disruption of the American automotive industry, which would pose a systemic
                                                      risk to financial market stability and have a negative effect on the economy of
                                                      the United States.”79 As of June 30, 2012, General Motors Company (“GM”)
                                                      and Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP.
                                                      Taxpayers are still owed $44.5 billion. This includes about $27 billion for the TARP
                                                      investment in GM and $14.7 billion for the TARP investment in Ally Financial, for
                                                      which Treasury holds common stock in GM and Ally Financial. This amount also
                                                      includes a $2.9 billion loss taxpayers suffered on the TARP investment in Chrysler.
                                                      Chrysler Financial fully repaid the TARP investment.80
                                                          Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                                      (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
                                                      GM. Additionally, Treasury bought senior preferred stock from Ally Financial and
                                                                                  quarterly report to congress I July 25, 2012   51




assisted Chrysler and GM during their bankruptcy restructurings. Treasury obligat-
ed $84.8 billion to AIFP, then reduced the total obligation to $81.8 billion (includ-
ing approximately $2.1 billion in loan commitments to New Chrysler that were nev-
er drawn down).81 As of June 30, 2012, $79.7 billion had been disbursed through
AIFP and Treasury had received $35.2 billion in principal repayments, preferred
stock redemption proceeds, and stock sale proceeds. As of June 30, 2012, Treasury
had received approximately $22.5 billion related to its GM investment, $7.6 billion
related to its Chrysler investment, $2.5 billion related to its Ally Financial/GMAC
investment, and $1.5 billion related to its Chrysler Financial investment.82 As of
June 30, 2012, Treasury had also received approximately $4.8 billion in dividends
and interest under AIFP and its two subprograms, ASSP and AWCP.83
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
in preferred stock and a 60.8% common equity stake.84 As of June 30, 2012,
Treasury has an $849.2 million claim against Old GM’s bankruptcy, a bankruptcy
that recently terminated.85 Treasury does not expect any significant additional pro-
ceeds from this claim.86 On December 2, 2010, GM closed an initial public offer-
ing (“IPO”) in which Treasury sold a portion of its ownership stake for $18.1 billion
in gross proceeds, reducing its ownership percentage to 33.3%.87 On December
15, 2010, GM repurchased the $2.1 billion in preferred stock from Treasury. On
January 31, 2011, Treasury’s ownership in GM was diluted from 33.3% to 32% as
a result of GM contributing 61 million of its common shares to fund GM’s hourly
and salaried pension plans.88 As of June 30, 2012, Treasury had received $22.5
billion in principal repayments, proceeds from preferred stock redemptions, and
proceeds from the sale of common stock from GM, including approximately $136.6
million in repayments related to its right to recover proceeds from Old GM.89
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
Inc. (“Old Chrysler”), and Chrysler Group LLC (“New Chrysler”), of which $2.1
billion was never drawn down.90 Treasury also received a 9.9% equity stake, which
was diluted to 8.6% in April 2011 after Fiat increased its ownership interest by
meeting certain performance metrics. Upon full repayment of New Chrysler’s
TARP debt obligations on May 24, 2011, Fiat simultaneously exercised an equity
call option, which increased its stake in New Chrysler to 46% from 30%. As a
result, Treasury’s equity stake in New Chrysler was diluted and further decreased to
6.6%.91 On July 21, 2011, Treasury sold to Fiat for $500 million Treasury’s remain-
ing equity ownership interest in New Chrysler.92 Treasury also sold to Fiat for $60
million Treasury’s rights to receive proceeds under an agreement with the United
Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler
on a fully diluted basis.93 Treasury retains the right to recover certain proceeds from
Old Chrysler’s bankruptcy but according to Treasury, it is unlikely to recover its full
investment.
     Treasury invested a total of $17.2 billion in Ally Financial. On December
30, 2010, Treasury’s investment was restructured to provide for a 73.8% com-
mon equity stake, $2.7 billion in TRUPS (including amounts received in war-
rants that were immediately converted into additional securities), and $5.9 billion
52   special inspector general I troubled asset relief program




                                            in mandatorily convertible preferred shares.94 Treasury sold the $2.7 billion in
                                            TRUPS on March 2, 2011.95 On March 31, 2011, Ally Financial announced that
                                            it had filed a registration statement with the Securities and Exchange Commission
                                            (“SEC”) for a proposed IPO of common stock owned by Treasury. On a number of
                                            subsequent occasions, Ally Financial disclosed additional details about its proposed
                                            IPO in amended registration statements filed with the SEC. Concurrent with the
                                            proposed IPO, Treasury plans to convert $2.9 billion of its existing $5.9 billion of
                                            mandatorily convertible preferred shares (“MCP”) into common stock.96 Treasury
                                            will exchange the remaining $3 billion of its MCP into so-called tangible equity
                                            units, a type of preferred stock, and will offer a portion of these tangible equity
                                            units alongside the proposed common equity offering.97 On May 14, 2012, Ally
                                            Financial announced that its mortgage subsidiary, Residential Capital, LLC, and
                                            certain of its subsidiaries filed for bankruptcy court relief under Chapter 11 of
                                            the U.S. Bankruptcy Code, and that it was exploring strategic alternatives for its
                                            international operations, which include auto finance, insurance, and banking and
                                            deposit operations in Canada, Mexico, Europe, the U.K. and South America.
                                                Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
                                            repaid with interest in July 2009.98
                                                For details on assistance to these companies, see the “Automotive Industry
                                            Support Programs” discussion in this section.
                                                AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”99 Under the program,
                                               which ended in April 2010, Treasury made loans for GM ($290 million) and
                                               Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
                                               fees and other income.100 For more information, see the “Auto Supplier Support
                                               Program” discussion in this section.
                                            •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                               designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.101 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.
                                                                              quarterly report to congress I July 25, 2012   53




    The following tables and figures summarize the status of TARP and TARP-
related initiatives:

•	 Table 2.6 — total funds subject to SIGTARP oversight as of June 30, 2012
•	 Table 2.7 — obligations/expenditures by program as of June 30, 2012
•	 Table 2.8 and Table 2.9 — summary of TARP terms and agreements
•	 Table 2.10 — summary of largest warrant positions held by Treasury, by
   program, as of June 30, 2012
•	 Table 2.11 — summary of dividends, interest payments, and fees received, by
   program, as of June 30, 2012

   For a report of all TARP purchases, obligations, expenditures, and revenues, see
Appendix C: “Reporting Requirements.”
54               special inspector general I troubled asset relief program



     TABLE 2.6
      TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 6/30/2012                                                             ($ Billions)
      Numbers in parentheses represent repayments and reductions in exposure

                                                                                                                                                                               TARP Funding                 TARP
                                                                                                                                                              Total              after Dodd-         Funding as of
      Program                                                  Brief Description or Participant                                                            Funding                     Frank           6/30/2012
      Housing Support Programs                                 Modification of mortgage loans                                                                 $70.6a                   $45.6b                  $45.6

      Capital Purchase Program (“CPP”)                         Investments in 707 banks; received $191.1 billion in                                           204.9                    204.9                   204.9
                                                               principal repayments, including $363.3 million in non-
      CLOSED                                                   cash conversion from CPP to CDCI                                                              (191.1)       c
                                                                                                                                                                                      (191.1)    c
                                                                                                                                                                                                               (191.1)c

      Community Development Capital                            Investments in Community Development Financial
      Initiative (“CDCI”)                                      Institutions (“CDFIs”), received $350,000 in principal                                             0.6                     0.6                      0.6
      CLOSED                                                   repayment

      Systemically Significant Failing
                                                               AIG Investment; received $34.7 billion in repayments and                                         69.8                     69.8                    67.8
      Institutions (“SSFI”)
                                                               reductions in exposure                                                                          (34.7)      d
                                                                                                                                                                                        (34.7)   d
                                                                                                                                                                                                                (34.7)d
      CLOSED
      Targeted Investment Program (“TIP”)                                                                                                                       40.0                     40.0                    40.0
                                                               Citigroup, Bank of America Investments
      CLOSED                                                                                                                                                   (40.0)                   (40.0)                  (40.0)
      Asset Guarantee Program (“AGP”)                                                                                                                         301.0                       5.0                      5.0
                                                               Citigroup, ring-fence asset guarantee
      CLOSED                                                                                                                                                 (301.0)                      (5.0)                   (5.0)

      Term Asset-Backed Securities                             FRBNY non-recourse loans for purchase of asset-backed                                            71.1                      4.3e                     1.4e
      Loan Facility (“TALF”)                                   securities                                                                                        (0.0)                    (0.0)                   (0.0)
                                                               Investments in legacy mortgage-backed securities using                                           29.8   f
                                                                                                                                                                                         22.4  g
                                                                                                                                                                                                                 21.9
      Public-Private Investment Program
                                                               private and Government equity, along with Government
      (“PPIP”)                                                                                                                                                   (4.4)                    (4.4)                   (4.4)
                                                               debt
      Unlocking Credit for Small Businesses
                                                                                                                                                                  0.4h                    0.4h                     0.4h
      (“UCSB”)                                                 Purchase of securities backed by SBA loans
                                                                                                                                                                 (0.4)                    (0.4)                   (0.4)
      CLOSED
                                                               GM, Chrysler, Ally Financial Inc. (formerly GMAC),
      Automotive Industry Financing Program                    Chrysler Financial; received $34.2 billion in loan                                               80.7                     80.7                    79.7
      (“AIFP”)                                                 repayments, preferred stock redemptions and proceeds
                                                               from the sale of common stock; terminated Chrysler’s                                            (36.2)                   (36.2)                  (36.2)
      CLOSED
                                                               $2.1 billion in undrawn loan commitments
      Auto Suppliers Support Program
                                                               Government-backed protection for auto parts suppliers;                                             0.4i                    0.4i                     0.4
      (“ASSP”)
                                                               received $0.4 billion in loan repayments                                                          (0.4)                    (0.4)                   (0.4)
      CLOSED
      Auto Warranty Commitment Program                         Government-backed protection for warranties of cars                                                0.6                     0.6                      0.6
      (“AWCP”)                                                 sold during the GM and Chrysler bankruptcy restructuring
                                                               periods                                                                                           (0.6)                    (0.6)                   (0.6)
      CLOSED
      Total Obligations                                                                                                                                    $869.9                   $474.8                   $467.2
      Notes: Numbers may not total due to rounding.
      a
         	Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including
          the $25 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
      b
         	Treasury reduced its commitment from $50 billion to an obligation of $45.6 billion.
      c
         	Does not include $204.4 million in proceeds from CPP auction held June 25-27, 2012, but not settled until after June 30, 2012.
      d
         	The $34.7 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) the cancellation of the
          series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury received from the AIG credit facility trust in the January 2011 recapitalization.
      e
         	Treasury reduced obligation from $20 billion to $4.3 billion in 2010, then further reduced obligation from $4.3 billion to $1.4 billion in 2012.
      f
        	PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
      g
         	Treasury reduced its commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds. Invesco terminated its investment period on
          September 26, 2011, without fully drawing down all committed equity and debt.
      h
         	Treasury reduced commitment from $15 billion to an obligation of $400 million.
      i
        	Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

      Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Daily TARP Update, 7/2/2012; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,”
      1/16/2009, www.treasury.gov/press-center/press-releases/Pages/hp1358.aspx, accessed 6/28/2012; FRBNY, response to SIGTARP data call, 7/5/2012; Treasury, “Making Home Affordable Updated
      Detailed Program Description,” 3/4/2009, www.treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 6/28/2012; Treasury, Legacy Securities Public-Private
      Investment Program, Program Update – Quarter Ended March 31, 2012, 4/19/2012, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20
      Report%20-%20Q1-12.pdf, accessed 7/10/2012.
                                                                                                  quarterly report to congress I July 25, 2012              55



TABLE 2.7
OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, as of 6/30/2012                                 ($ Billions)

                                                                Amount          Percent (%)
Authorized Under EESA	                            $700.0
Released Immediately                                                250.0               52.6%
Released Under Presidential Certificate of Need                     100.0               21.1%
Released Under Presidential Certificate of Need &
Resolution to Disapprove Failed                                     350.0               73.7%
Helping Families Save Their Home Act of 2009                         (1.2)              -0.3%
The Dodd-Frank Act                                              (223.8)               -47.1%
Total Released                                                 $475.0              100.0%


                                Obligations             Current               Current            Repaid/
Less: Obligations by            after Dodd-       Obligations as      Obligation as %           Reduced       Obligation
Treasury under TARPa              Frank Act       of 6/30/2012            of Released           Exposure    Outstandingb       Section Reference
 Making Home Affordable
                                      $29.9                 $29.9              6.4%
 (“MHA”)
 Housing Finance Agency:
                                        $7.6                 $7.6              1.6%                                        “Housing Support Programs”
 Hardest Hit Fund (“HHF”)
 FHA Short Refinance
                                        $8.1                 $8.1              1.7%
 Program
 Housing Support
                                      $45.6                 $45.6              9.8%                  —            $45.6
 Programs Total
 Capital Purchase                                                                                                          “Financial Institution Support
                                     $204.9                $204.9             43.9%             ($191.1)c
 Program (“CPP”)                                                                                                                    Programs”
 CPP Total                          $204.9                 $204.9             43.9%             ($191.1)c         $13.8
 Community Development                                                                                                     “Financial Institution Support
                                        $0.6                 $0.6              0.1%                  *
 Capital Initiative (“CDCI”)                                                                                                        Programs”
 CDCI Total                            $0.6                  $0.6              0.1%                $0.0             $0.6                  
 Systemically Significant
 Failing Institutions
 (“SSFI”) Program:                                                                                                         “Financial Institution Support
                                                                                                                                    Programs”
    American International
                                      $69.8                 $67.8             14.5%              ($34.7)               
    Group, Inc. (“AIG”)d
 SSFI Total                           $69.8                 $67.8             14.5%              ($34.7)          $33.1
 Targeted Investment
 Program (“TIP”):
                                                                                                                           “Financial Institution Support
    Bank of America
                                      $20.0                 $20.0              4.3%              ($20.0)                            Programs”
    Corporation
    Citigroup, Inc.                   $20.0                 $20.0              4.3%              ($20.0)
 TIP Total                            $40.0                 $40.0              8.6%              ($40.0)              —                   
 Asset Guarantee
 Program (“AGP”):                                                                                                          “Financial Institution Support
                                                                                                                                    Programs”
    Citigroup, Inc. e
                                        $5.0                 $5.0              1.1%               ($5.0)
 AGP Total                             $5.0                  $5.0              1.1%               ($5.0)              —
 Term Asset-Backed
 Securities Loan Facility
 (“TALF”):                                                                                                                  “Asset Support Programs”

    TALF LLC                            $4.3                 $1.4              0.3%               ($0.0)
 TALF Total                            $4.3                  $1.4              0.3%               ($0.0)            $1.4
                                                                                                                                Continued on next page
56            special inspector general I troubled asset relief program




     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                  ($ Billions) (CONTINUED)
                                   Obligations          Current            Current         Repaid/
     Less: Obligations by          after Dodd-    Obligations as   Obligation as %        Reduced      Obligation
     Treasury under TARPa            Frank Act    of 6/30/2012         of Released        Exposure   Outstandingb       Section Reference
     Legacy Securities
     Public-Private Investment
     Program (“PPIP”):
        AG GECC PPIF Master
                                          $3.7             $3.7               0.8%          ($0.8)
        Fund, L.P.
        AllianceBernstein
        Legacy Securities                 $3.5             $3.5               0.7%          ($1.1)
        Master Fund, L.P.
        BlackRock PPIF, L.P.              $2.1             $2.1               0.4%             —
        Invesco Legacy
        Securities Master                 $2.6             $2.0               0.4%          ($1.7)
        Fund, L.P.f
        Marathon Legacy
                                                                                                                     “Asset Support Programs”
        Securities Public-
                                          $1.4             $1.4               0.3%             —
        Private Investment                                                                                                        
        Partnership, L.P.
        Oaktree PPIP Fund,
                                          $3.5             $3.5               0.7%          ($0.2)
        L.P.
        RLJ Western Asset
        Public/Private Master             $1.9             $1.9               0.4%             *
        Fund, L.P.
        UST/TCW Senior
        Mortgage Securities               $0.4             $0.4               0.1%          ($0.4)
        Fund, L.P.g
        Wellington
        Management Legacy
                                          $3.4             $3.4               0.7%          ($0.1)
        Securities PPIF
        Master Fund, LP
     PPIP Totalh                        $22.4             $21.9               4.7%          ($4.4)         $17.5
     Unlocking Credit for
     Small Businesses                     $0.4             $0.4               0.1%          ($0.4)                   “Asset Support Programs”
     (“UCSB”)
     UCSB Total                           $0.4             $0.4               0.1%          ($0.4)            *
     Automotive Industry
     Financing Program
     (“AIFP”):
        General Motors
                                        $49.5             $49.5              10.6%         ($22.5)
        Corporation (“GM”)
                                                                                                                    “Automotive Industry Support
        Ally Financial
                                        $17.2             $17.2               3.7%          ($2.5)                          Programs”
        (formerly GMAC)
        Chrysler Holding LLCi           $12.5             $10.5               2.2%          ($9.7)
        Chrysler Financial
        Services Americas                 $1.5             $1.5               0.3%          ($1.5)
        LLC
     AIFP Total                         $80.7             $78.7             16.8%         ($36.2)          $42.5                  
                                                                                                                         Continued on next page
                                                                                                                                   quarterly report to congress I July 25, 2012                                      57




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                                              ($ Billions) (CONTINUED)
                                            Obligations                 Current                      Current                    Repaid/
Less: Obligations by                        after Dodd-           Obligations as             Obligation as %                   Reduced              Obligation
Treasury under TARPa                          Frank Act           of 6/30/2012                   of Released                   Exposure           Outstandingb                 Section Reference
Automotive Supplier
Support Program
(“ASSP”):
                                                                                                                                                                         “Automotive Industry Support
    GM Suppliers                                                                                                                                                                 Programs”
                                                      $0.3                       $0.3                       0.1%                   ($0.3)
    Receivables LLCj
    Chrysler Holding LLC                              $0.1                       $0.1                       0.0%                   ($0.1)
ASSP Total      j
                                                      $0.4                      $0.4                        0.1%                  ($0.4)                          —                          
Automotive Warranty
Commitment Program
(“AWCP”):
                                                                                                                                                                         “Automotive Industry Support
    General Motors                                                                                                                                                               Programs”
                                                      $0.4                       $0.4                       0.1%                   ($0.4)
    Corporation (“GM”)
    Chrysler Holding LLC                              $0.3                       $0.3                       0.0%                   ($0.3)
AWCP Total                                            $0.6                      $0.6                        0.1%                  ($0.6)                          —                          
TARP Obligations
Subtotal                                          $474.8                    $467.2                      100%                                                                                 
TARP Repayments/
Reductions in
Exposure Subtotal                                                                                                             ($312.8)                                                       
TARP Obligations
Outstanding Subtotal                                                                                                                                      $154.4                             
Notes: Numbers may not total due to rounding.
a
   	From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
   	Figure does not subtract losses incurred from failed banks.
c
   	Does not include $204.4 million in proceeds from CPP auction held June 25-27, 2012, but not settled until after June 30, 2012. Does include $363.3 million non-cash conversion from CPP to CDCI.
d
   	The $34.7 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) the cancellation of the
    series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury received from the AIG credit facility trust in the January 2011 recapitalization.
e
   	Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
    an actual outlay of cash.
f
  	Invesco paid the remainder of its debt, $284.5 million, to Treasury on March 14, 2012.
g
   	The TCW Group, Inc. repaid the funds invested in its PPIF, which is now liquidated.
h
   	Treasury selected nine fund management firms to establish PPIFs. One PPIP manager, TCW, subsequently withdrew. According to Treasury, the current PPIP obligation is $21.9 billion, and includes
    $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds.
i
  	The $9.7 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to
    Chrysler Holding, (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009, and (v) proceeds related to the sale to Fiat of Treasury’s
    remaining equity ownership stake in New Chrysler and the sale to Fiat of Treasury’s rights to receive proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
    trust’s shares in New Chrysler.
j
  	Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
    subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

*Amount less than $50 million.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
Act of 2008,” 1/15/2009, http://thomas.loc.gov/cgi-bin/bdquery/D?d111:5:./list/bss/d111SJ.lst::, accessed 6/28/2012; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009;
Treasury, Transactions Report, 6/27/2012; Treasury, Transactions Report-Housing Programs, 7/2/2012; Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Section 105(a) Report,
7/10/2012.
58              special inspector general I troubled asset relief program




     TABLE 2.8
      Debt Agreements, as of 6/30/2012
      TARP                              Date of               Cost                Description of                                                          Interest/                     Term of
      Program        Company            Agreement             Assigned            Investment                Investment Information                        Dividends                     Agreement
                                                                                                            Each QFI may issue senior
                                                                                  Senior                    securities with an aggregate                  7.7% for first 5
                                                                                  Subordinated              principal amount of 1% – 3% of                years; 13.8%                  30 years
                                                                                  Securities                its risk-weighted assets, but not             thereafter
      CPP –          Originally                                                                             to exceed $25 billion.
                                        1/14/2009a            $0.5 billion
      S-Corps        52 QFIs                                                      Senior                    Treasury will receive warrants
                                                                                  Subordinated              to purchase an amount equal
                                                                                  Security Warrants         to 5% of the senior securities                13.8%                         30 years
                                                                                  that are exercised        purchased on the date of
                                                                                  immediately               investment.
                                                                                                            Each QCU may issue CDCI
                                                                                                            Senior Securities with an
      CDCI –                                                                      Subordinated              aggregate principal amount equal
                                                                                                                                               2% for first 8 years,                    CDCI – Credit
      Credit         All                                                          Debt for Credit           to not more than 3.5% of its total
                                                                                                                                               9% thereafter                            Unions
      Unions                                                                      Unions                    assets and not more than 50%
                                                                                                            of the capital and surplus of the
                                                                                                            QCU.
                                                                                                            Each QFI may issue CDCI Senior
                                                                                                            Securities with an aggregate
                                                                                                            principal amount equal to not
                                                                                                            more than 5% of (i), if the QFI is a
                                                                                                            Certified Entity the risk-weighted
                                                                                                            assets of the QFI, or (ii), if the            3.1% for first 8
      CDCI –                                                                      Subordinated                                                                                          CDCI –
                                                                                                            QFI is not a Certified Entity, the            years, 13.8%
      S-Corps                                                                     Debt for S-corps                                                                                      S-Corps
                                                                                                            sum of the RWAs of each of the                thereafter
                                                                                                            Certified Entities, in each case
                                                                                                            less the aggregate capital or,
                                                                                                            as the case may be, principal
                                                                                                            amount of any outstanding TARP
                                                                                                            assistance of the QFI.
                                                                                                                                                                                        The debt
                                                                                                                                                                                        obligation for
                                                                                                                                                                                        each fund
                                                                                  Debt Obligation
                                                                                                            Each of the loans will be funded                                            matures at
                                        9/30/2009                                 with Contingent
      PPIP           All                                      $20 billion                                   incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                        and later                                 Interest
                                                                                                            the fund manager.                                                           of the
                                                                                  Promissory Note
                                                                                                                                                                                        dissolution of
                                                                                                                                                                                        the fund or
                                                                                                                                                                                        10 years.
      Notes: Numbers may be affected by rounding.
      a
        	Announcement date of CPP S-Corporation Term Sheet.

      Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
      12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
      Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
      Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
      Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009.
                                                                                      quarterly report to congress I July 25, 2012                  59




TABLE 2.9
 Equity Agreements, as of 6/30/2012
 TARP                        Date of       Cost         Description                                                            Term of
 Program    Company          Agreement     Assigned     of Investment    Investment Information            Dividends           Agreement
                                                        Senior           1-3% of risk-weighted assets,     5% for first
                                                        Preferred        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                        Equity           each QFI                          thereafter
 CPP –      Originally 286   10/14/2008a   $200.1
 Public     QFIs             and later     billion      Common
                                                        Stock            15% of senior preferred
                                                                                                           —                   Up to 10 years
                                                        Purchase         amount
                                                        Warrants
                                                                         1-3% of risk-weighted assets,     5% for first
                                                        Preferred
                                                                         not to exceed $25 billion for     5 years, 9%         Perpetual
                                                        Equity
                                                                         each QFI                          thereafter

 CPP –      Originally 369   11/17/2008b                Preferred
                                           $4 billion   Stock
 Private    QFIs             and later
                                                        Purchase
                                                                         5% of preferred amount            9%                  Perpetual
                                                        Warrants that
                                                        are exercised
                                                        immediately
                                                        Preferred
                                                                         5% of risk-weighted assets        2% for first
                                           $780.2       Equity for
 CDCI       All                                                          for banks and bank holding        8 years, 9%         Perpetual
                                           million      banks & thrift
                                                                         companies                         thereafter
                                                        institutions
                                                        Non-
                                                        Cumulative       $41.6 billion aggregate
                                                                                                           10%                 Perpetual
                                                        Preferred        liquidation preference
                                                        Equity
                                                                         2% of issued and outstanding
            American                                                     common stock on investment
                                           $41.6
 SSFI       International    4/17/2009                                   date of 11/25/2008; the
                                           billionc     Common
            Group, Inc.                                                  warrant was originally for
                                                        Stock
                                                                         53,798,766 shares and had a       —                   Up to 10 years
                                                        Purchase
                                                                         $2.50 exercise price, but after
                                                        Warrants
                                                                         the 6/30/2009 split, it is for
                                                                         2,689,938.30 shares and has
                                                                         an exercise price of $50.
                                                                         Up to $29.8 billion aggregate
                                                        Non-
                                                                         liquidation preference. As of                         Perpetual (life of
                                                        Cumulative
                                                                         9/30/2009, the aggregate          10%                 the facility is 5
                                                        Preferred
            American                                                     liquidation preference was $3.2                       years)
                                           $29.8        Equity
 SSFI       International    4/17/2009                                   billion.
                                           billiond
            Group, Inc.                                 Common
                                                                         150 common stock warrants
                                                        Stock
                                                                         outstanding; $0.0002 exercise     —                   Up to 10 years
                                                        Purchase
                                                                         price
                                                        Warrants
                                                                                                                          Continued on next page
60          special inspector general I troubled asset relief program




     Equity Agreements, as of 6/30/2012               (continued)

     TARP                        Date of         Cost               Description                                                             Term of
     Program    Company          Agreement       Assigned           of Investment      Investment Information              Dividends        Agreement
                                                                                       Exchanged preferred Series F
                                                                                       shares for $16.9 billion of AIA
                                                                                       Preferred Units, $3.4 billion
                                                                                       in ALICO Junior Preferred
                                                                                       Interests, and 167.6 million
                                                                    AIA Preferred      shares of Common stock at
                                                                    units, ALICO       an exercise price of $43.53.
                                                                    Junior             Following the repayments to
                                                 $29.8
                                                                    Preferred          Treasury on March 8, 2012,          —                Up to 10 years
                                                 billione
                American                                            Interests,         for $6 billion, March 15,
     SSFI       International    1/14/2011                          Common             2012, for $1.5 billion, March
                Group, Inc.                                         Stock              22, 2012, for $1.5 billion,
                                                                                       and May 6, 2012, for $5.8
                                                                                       billion, AIG successfully retired
                                                                                       the remainder if Treasury’s
                                                                                       preferred equity interests in the
                                                                                       AIA SPV.
                                                                                       Exchanged preferred Series
                                                                    Common             D shares for 924.5 million
                                                 $41.6 billion  f
                                                                                                                           —                Perpetual
                                                                    Stock              shares of common stock at an
                                                                                       exercise price of $45
                                                                                                                                            8 years with the
                                                                    Membership         Each membership interest will
                                 9/30/2009 and                                                                                              possibility of
     PPIP       All                              $10 billion        interest in a      be funded upon demand from          —
                                 later                                                                                                      extension for 2
                                                                    partnership        the fund manager.
                                                                                                                                            additional years
                                                                    Mandatorily                                                             Converts to
                                                                    Convertible                                                             common equity
                                                                                       $5 billion                          9%
                                                                    Preferred                                                               interest after 7
                                                                    Stock                                                                   years
                Ally Financial
     AIFP       Inc. (formerly   12/29/2008      $5 billion         Preferred
                GMAC)                                               Stock                                                                   Converts to
                                                                    Purchase                                                                common equity
                                                                                       5% of original preferred amount     9%
                                                                    Warrants that                                                           interest after 7
                                                                    are exercised                                                           years
                                                                    immediately
                                                                    Mandatorily                                                             Converts to
                                                                    Convertible                                                             common equity
                                                                                       $4.5 billion                        9%
                                                                    Preferred                                                               interest after 7
                                                                    Stockg                                                                  years
                                                                    Preferred
                Ally Financial
                                                                    Stock                                                                   Converts to
     AIFP       Inc. (formerly   5/21/2009       $7.5 billion
                                                                    Purchase                                                                common equity
                GMAC)                                                                  5% of original preferred amount     9%
                                                                    Warrants that                                                           interest after 7
                                                                    are exercised                                                           years
                                                                    immediately
                                                                    Common
                                                                                       $3 billion                          —                Perpetual
                                                                    Equity Interesth
                                                                                                                                       Continued on next page
                                                                                                                                quarterly report to congress I July 25, 2012                                   61




Equity Agreements, as of 6/30/2012                                    (continued)

TARP                                    Date of                  Cost                 Description                                                                                    Term of
Program           Company               Agreement                Assigned             of Investment          Investment Information                        Dividends                 Agreement
                                                                                                             This equity interest was
                                                                                                             obtained by exchanging a
                  Ally Financial
                                                                                      Common                 prior debt obligation with
AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                              —                         Perpetual
                                                                                      Equity Interest        General Motors. See “Debt
                  GMAC)
                                                                                                             Agreements” table for more
                                                                                                             information.
                                                                                      Trust Preferred
                                                                                                             $2.5 billion                                  8%
                                                                                      Securities
                  Ally Financial                                                      Trust Preferred                                                                                Redeemable upon
AIFP              Inc. (formerly        12/30/2009               $2.5 billion         purchase                                                                                       the repayment of
                  GMAC)                                                               warrants that          5% of trust preferred amount                  —                         the debenture
                                                                                      are exercised
                                                                                      immediately
                                                                                      Mandatorily
                                                                                      Convertible
                                                                                                             $1.3 billion                                  9%
                                                                                      Preferred
                                                                                      Stock                                                                                          Converts to
                  Ally Financial
                                                                                      Preferred                                                                                      common equity
AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                      Stock                                                                                          interest after 7
                  GMAC)
                                                                                      Purchase                                                                                       years
                                                                                                             5% of preferred amount                        —
                                                                                      Warrants that
                                                                                      are exercised
                                                                                      immediately
                  Ally Financial
                                                                                      Common
AIFP              Inc. (formerly        12/30/2009               $5.5 billion                                $5.5 billion                                  —                         Perpetual
                                                                                      Equity Interesth
                  GMAC)
Notes: Numbers may be affected by rounding.
a
  	Announcement date of CPP Public Term Sheet.
b
  	Announcement date of CPP Private Term Sheet.
c
  	AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  	The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  	On 1/14/2011, (A) Treasury exchanged $27.84 billion of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including
   amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2
   billion of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up
   to $2 billion. The Series G equity capital facility was subsequently terminated without drawdown.
f
 	On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
   Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
g
  	On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
h
  	On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
   from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program,
Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP
Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development
Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S
Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally
Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 7/2/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC,
Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and
Conditions,” 7/8/2009.
62                   special inspector general I troubled asset relief program




     TABLE 2.10
     LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 6/30/2012
                                                                                                                       Current Number
                                                                                                                           of Warrants                                                   Stock Price as of
     Participant                                                                     Investment Date                       Outstanding                         Strike Price                   6/29/2012
     Capital Purchase Program (“CPP”)
           Synovus Financial Corp.                                                          12/19/2008                        15,510,737                                $9.36                             $1.98
           Flagstar Bancorp, Inc.                                                             1/16/2009                         6,451,379                               $6.20                             $0.84
           Zions Bancorporation                                                             11/14/2008                          5,789,909                             $36.27                            $19.42
           Popular, Inc.                                                                      12/5/2008                         2,093,284                             $67.00                            $16.61
           Cathay General Bancorp                                                             12/5/2008                         1,846,378                             $20.96                            $16.51
           Citizens Republic Bancorp, Inc.                                                  12/12/2008                          1,757,813                             $25.60                            $17.13
           International Bancshares Corporation                                             12/23/2008                          1,326,238                             $24.43                            $19.51
           M&T Bank Corporationc                                                              12/5/2008                         1,218,522                             $73.86                            $82.00
           PrivateBancorp, Inc.                                                               2/27/2009                            645,013                            $28.35                            $14.76
           United Community Banks, Inc.                                                       12/5/2008                            219,908                            $61.39                              $8.57
     Systemically Significant Failing Institutions
     (“SSFI”) Program
           AIGa                                                                             11/25/2008                          2,689,938                             $50.00                            $32.09
           AIG   a
                                                                                              4/17/2009                                  150                           $0.00    b
                                                                                                                                                                                                        $32.09
     Notes: Numbers may be affected by rounding.
     a
       	All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 20 for 1.
     b
       	Strike price is $0.00002.
     c
       	M&T Bank Corporation assumed additional warrant positions in conjunction with two acquired CPP investments. These additional positions are 407,542 shares at a strike price of $55.76 and 95,383
        shares at a strike price of $518.96.

     Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Treasury, response to SIGTARP data call, 7/10/2012; Market Data, Bloomberg L.P., accessed
     7/9/2012.


     TABLE 2.11
     DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 6/30/2012
                                                      Dividends                              Interest                   Distributionsa                   Other Incomeb                                     Total
     CPP   c
                                            $11,561,231,819                         $106,750,371                                      $—              $14,527,500,194                    $26,195,482,384
     CDCI                                           13,031,228                           6,196,474                                      —                                  —                     19,227,702
     SSFI  d
                                                                 —                                   —                                  —                   457,105,652                         457,105,652
     TIP                                       3,004,444,444                                         —                                  —                1,427,190,941                       4,431,635,385
     AGP                                          442,964,764                                        —                                  —                2,589,197,045                       3,032,161,809
     PPIP                                                        —                    275,850,318                        694,785,028                          24,078,780                        994,714,126
     UCSB                                                        —                     13,347,352                                       —                     29,201,848                         42,549,200
     AIFPe                                     3,140,957,051                       1,665,336,675                                        —                   530,000,000                      5,336,293,726
     ASSP                                                        —                     31,949,931                                       —                     84,000,000                        115,949,931
     Total                                $18,162,629,306                      $2,099,431,121                        $694,785,028                   $19,668,274,460                    $40,625,119,915
     Notes: Numbers may not total due to rounding.
     a
       	Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
     b
       	Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
        Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with the termination of the TCW fund for PPIP.
     c
       	Includes $13 million fee received as part of the Popular exchange.
     d
       	Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
        Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
     e
       	Includes AWCP.

     Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Section 105(a) Report, 7/10/2012; Treasury, Dividends and Interest Report, 7/11/2012; Treasury, response to SIGTARP data call,
     7/10/2012.
                                                                               quarterly report to congress I July 25, 2012             63




Housing Support Programs
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                    Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention            (“GSEs”): Private corporations created
efforts.102 MHA initially consisted of the Home Affordable Modification Program             and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 reduce borrowing costs and provide
mortgage servicers to modify eligible first mortgages, and two initiatives at the           liquidity in the market, the liabilities
Government-sponsored enterprises (“GSEs”) that use non-TARP funds.103 HAMP                  of which are not officially considered
was originally intended “to help as many as three to four million financially               direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is               September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”104 On June 1,             GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.105                             Corporation (“Freddie Mac”), were
    Treasury over time expanded MHA to include sub-programs designed to                     placed into Federal conservatorship.
overcome obstacles to sustainable HAMP modifications. Treasury also allocated               They are currently being financially
TARP funds to support two additional housing support efforts: a Federal Housing             supported by the Government.
Administration (“FHA”) refinancing program and TARP funding for 19 state
housing finance agencies, called the Housing Finance Agency Hardest Hit Fund                Loan Servicers: Companies that
(“Hardest Hit Fund” or “HHF”).                                                              perform administrative tasks on
    Not all housing support programs are funded, or completely funded, by TARP.             monthly mortgage payments until the
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               loan is repaid. These tasks include
funded by TARP, with the remainder funded by the GSEs.106 Treasury has obligated            billing, tracking, and collecting monthly
TARP funds of $45.6 billion, which includes $29.9 billion for MHA incentive pay-            payments; maintaining records of
ments, $8.1 billion for FHA Short Refinance, and $7.6 billion for the Hardest Hit           payments and balances; allocating
Fund.107 Housing support programs include the following initiatives:                        and distributing payment collections
                                                                                            to investors in accordance with
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended                         each mortgage loan’s governing
   to use incentive payments to encourage loan servicers (“servicers”) and                  documentation; following up
   investors to modify eligible first-lien mortgages so that the monthly payments           on delinquencies; and initiating
   of homeowners who are currently in default or generally at imminent risk of              foreclosures.
   default will be reduced to affordable and sustainable levels. Incentive payments
   for modifications to loans owned or guaranteed by the GSEs are paid by the               Investors: Owners of mortgage loans
   GSEs, not TARP.108 As of June 30, 2012, there were 818,803 active permanent              or bonds backed by mortgage loans
   HAMP modifications, 393,887 of which were under TARP, with the remainder                 who receive interest and principal
   under the GSE portion of the program.109 While HAMP generally refers to                  payments from monthly mortgage
   the first-lien mortgage modification program, it also includes the following             payments. Servicers manage the
   subprograms:                                                                             cash flow from borrowers’ monthly
   çç Home Price Decline Protection (“HPDP”) — HPDP is intended to                          payments and distribute them to
       encourage additional investor participation and HAMP modifications in                investors according to Pooling and
       areas with recent price declines by providing TARP-funded incentives to              Servicing Agreements (“PSAs”).
       offset potential losses in home values.110 As of June 30, 2012, there were
       133,182 loan modifications under HPDP.111
64            special inspector general I troubled asset relief program




                                                          çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                               the use of principal reduction in modifications for eligible borrowers whose
                                                               homes are worth significantly less than the remaining outstanding balances
                                                               of their first-lien mortgage loans. It provides TARP-funded incentives to
                                                               offset a portion of the principal reduction provided by the investor.112 As
                                                               of June 30, 2012, 60,778 homeowners received permanent modifications
                                                               through PRA.113
                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of all or a portion of their payments.114 As of May 31, 2012, 7,235 borrowers
                                                               are participating in UP.115
                                                     •	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                          Tier 2 is an expansion of HAMP to permit HAMP modifications on non-
                                                          owner-occupied “rental” properties, and to allow borrowers with a wider range
                                                          of debt-to-income ratios to receive modifications.116 The expanded program
     Short Sale: Sale of a home for less                  became effective on June 1, 2012. There are no borrowers with HAMP Tier 2
     than the unpaid mortgage balance. A                  active permanent modifications as of June 30, 2012. The first Tier 2 trial will be
     borrower sells the home and the lender               eligible for permanent modification beginning in September 2012.
     accepts the proceeds as full or partial         •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     satisfaction of the unpaid mortgage                  to provide incentives to servicers, investors, and borrowers to pursue short sales
     balance, thus avoiding the foreclosure               and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
     process.                                             is unable or unwilling to enter or sustain a modification. Under this program,
                                                          the servicer releases the lien against the property and the investor waives all
     Deed-in-Lieu of Foreclosure: Instead                 rights to seek a deficiency judgment against a borrower who uses a short sale or
     of going through foreclosure, the                    deed-in-lieu when the property is worth less than the outstanding amount of the
     borrower voluntarily surrenders the                  mortgage.117 As of June 30, 2012, there were 52,998 short sales and deeds-in-
     deed to the home to the home lender,                 lieu under HAFA.118
     as satisfaction of the unpaid mortgage          •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     balance.                                             second-lien mortgages when a corresponding first lien is modified under HAMP
                                                          by a participating servicer.119 As of June 30, 2012, 17 servicers are participating
                                                          in 2MP.120 These servicers represent approximately 55% to 60% of the second-
                                                          lien servicing market.121 As of June 30, 2012, there were 63,769 active
                                                          permanently modified second liens in 2MP.122
                                                     •	   Agency-Insured Programs — These programs are similar in structure to
                                                          HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
                                                          the Department of Veterans Affairs (“VA”).123 Treasury provides TARP-funded
                                                          incentives to encourage modifications under the FHA and RD modification
                                                          programs. As of June 30, 2012, there were seven RD-HAMP permanent
                                                          modifications and 6,013 FHA-HAMP permanent modifications.124
                                                     •	   Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
                                                          uses TARP funds to provide incentives to servicers and investors who agree to
                                                          principal reduction or extinguishment of second liens associated with an FHA
                                                          refinance.125 As of June 30, 2012, no second liens had been extinguished under
                                                          the program.126
                                                                              quarterly report to congress I July 25, 2012          65




•	 FHA Short Refinance Program — This program, which is partially supported
   by TARP funds, is intended to provide borrowers who are current on their                Underwater Mortgage: Mortgage loan
   mortgage an opportunity to refinance existing underwater mortgage loans that            on which a homeowner owes more
   are not currently insured by FHA into FHA-insured mortgages with lower                  than the home is worth, typically as
   principal balances. Treasury has provided a TARP-funded letter of credit for up         a result of a decline in the home’s
   to $8 billion in loss coverage on these newly originated FHA loans. As of June          value. Underwater mortgages are also
   30, 2012, 1,437 loans had been refinanced under FHA Short Refinance.127                 referred to as having negative equity.
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.128 As of March 31, 2012,
   the latest data available, 43,580 borrowers had received assistance under
   HHF.129

Status of TARP Funds Obligated to Housing Support
Programs
Treasury obligated $45.6 billion to housing support programs, of which $4.5
billion, or 10%, has been expended as of June 30, 2012.130 However, some of the
expended funds remain as cash on hand or paid for administrative expenses at state
housing finance agencies (“HFAs”) participating in the Hardest Hit Fund program.
Treasury has capped the aggregate amount available to pay servicer, borrower, and
investor incentives under MHA programs at $29.9 billion, of which $3.4 billion, or
11%, has been spent.131 Treasury allocated $8.1 billion for FHA Short Refinance, of
which $6.6 million has been spent on administrative expenses. Treasury allocated
$7.6 billion to the Hardest Hit Fund. As of March 31, 2012, only 5% of those
funds have gone to help 43,580 homeowners. HFAs have drawn down $1.1 billion,
as of June 30, 2012, but not all of that has gone to assist homeowners.132
     Table 2.12 shows the breakdown in expenditures and estimated funding alloca-
tions for these housing support programs.
66   special inspector general I troubled asset relief program




                                            TABLE 2.12
                                             TARP Allocations and Expenditures by housing Support programs,
                                             AS OF 6/30/2012 ($ BILLIONS)
                                                                                                                         ALLOCATIONS                             EXPENDITURES
                                                                                            MHA
                                                HAMP
                                                      First Lien Modification                                           $19.1                                       $2.7
                                                      PRA Modification                                                      2.0                                       0.1
                                                      HPDP                                                                  1.6                                       0.3
                                                      UP                                                                      —a                                        —
                                                                                 HAMP Total                             $22.7                                       $3.0
                                                HAFA                                                                          4.2                                         0.2
                                                2MP                                                                           0.1                                         0.2
                                                Treasury FHA-HAMP                                                             0.2                                           —b
                                                RD-HAMP                                                                         —   c
                                                                                                                                                                            —
                                                FHA2LP                                                                        2.7                                           —
                                                                                   MHA Total                                         $29.9                                        $3.4
                                                                   FHA Short Refinance                                                   8.1  d
                                                                                                                                                                                    0.1
                                                         HHF (Drawdown by States)e                                                       7.6                                        1.1
                                                                                            Total                                    $45.6                                        $4.5
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                               	Treasury does not allocate TARP funds to UP.
                                             b
                                               	Treasury has expended $0.01 billion for the Treasury FHA-HAMP program.
                                             c
                                               	Treasury has allocated $0.02 billion to the RD-HAMP program. As of June 30, 2012, $1,834 has been expended for RD-HAMP.
                                             d
                                               	This amount includes up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.
                                             e
                                               	Not all of the funds drawn down by HFAs have been used to assist homeowners. As of March 31, 2012, the latest data available,
                                                only $350.8 million was spent to assist homeowners.

                                             Source: Treasury, response to SIGTARP data call, 7/9/2012.
                                                                                 quarterly report to congress I July 25, 2012   67




    As of June 30, 2012, Treasury had active agreements with 105 servicers. That
compares with 145 servicers that had agreed to participate in MHA as of October
3, 2010.133 According to Treasury, of the $29.9 billion obligated to participating
servicers under their Servicer Participation Agreements (“SPAs”), as of June 30,
2012, only $3.4 billion (11%) has been spent, broken down as follows: $3 billion
had been spent on completing permanent modifications of first liens (393,887
of which remain active); $192.1 million under 2MP on completing 18,974 full
extinguishments, 4,547 partial extinguishments (principal reductions), and 63,769
permanent modifications of second liens under 2MP; and $237.2 million on incen-
tives for 52,998 short sales or deeds-in-lieu of foreclosure under HAFA.134 Of the
combined amount of incentive payments, according to Treasury, approximately
$1.2 billion went to pay servicer incentives, $1.6 billion went to pay investor incen-
tives, and $644 million went to pay borrower incentives.135 As of June 30, 2012,
Treasury had disbursed approximately $1.1 billion of the $7.6 billion allocated to
HFAs participating in HHF, more than half of which sits as cash on hand with
HFAs or is used for administrative expenses.136 The remaining $8.1 billion has been
obligated under FHA Short Refinance to purchase a letter of credit to provide up
to $8 billion in first loss coverage and to pay $117 million in fees for the letter of
credit. According to Treasury, it has not paid any claims for defaults on the 1,437
loans refinanced under the program. However, Treasury has pre-funded a reserve
account with $50 million to pay future claims and spent $6.6 million on adminis-
trative expenses.137 The breakdown of TARP-funded expenditures related to hous-
ing support programs (not including the GSE-funded portion of HAMP) are shown
in Table 2.13.
68   special inspector general I troubled asset relief program




                                            TABLE 2.13
                                             Breakdown of TARP Expenditures, As of 6/30/2012                                                  ($ MILLIONs)

                                             MHA                                                                                         TARP Expenditures
                                                 HAMP
                                                      HAMP First Lien Modification Incentives
                                                         Servicer Incentive Payment                                                       $503.0
                                                         Servicer Current Borrower Incentive Payment                                         16.4
                                                         Annual Servicer Incentive Payment                                                  534.9
                                                         Investor Current Borrower Incentive Payment                                         51.2
                                                         Investor Monthly Reduction Cost Share                                           1,057.8
                                                         Annual Borrower Incentive Payment                                                  492.2
                                                      HAMP First Lien Modification Incentives Total                                             $2,655.5
                                                      PRA                                                                                           $63.2
                                                      HPDP                                                                                        $251.9
                                                      UP                                                                                                 —a
                                                      HAMP Program Incentives Total                                                                    $2,970.6
                                                 HAFA Incentives
                                                    Servicer Incentive Payment                                                                       $70.5
                                                    Investor Reimbursement                                                                             25.8
                                                    Borrower Relocation                                                                              140.9
                                                HAFA Incentives Total                                                                                     $237.2
                                                Second-Lien Modification Program Incentives
                                                    2MP Servicer Incentive Payment                                                                   $41.0
                                                    2MP Annual Servicer Incentive Payment                                                                7.1
                                                    2MP Annual Borrower Incentive Payment                                                                6.5
                                                    2MP Investor Cost Share                                                                            50.0
                                                    2MP Investor Incentive                                                                             87.5
                                                Second-Lien Modification Program Incentives Total                                                         $192.1
                                                Treasury/FHA-HAMP Incentives
                                                    Annual Servicer Incentive Payment                                                                  $5.1
                                                    Annual Borrower Incentive Payment                                                                    4.7
                                                Treasury/FHA-HAMP Incentives Total                                                                           $9.8
                                                RD-HAMP                                                                                                          —b
                                                FHA2LP                                                                                                           —
                                             MHA Incentives Total                                                                                                $3,410.0
                                             FHA Short Refinance (Loss-Coverage)                                                                                      $56.6
                                             HHF Disbursements (Drawdowns by State HFAs)                                                                         $1,071.6
                                             Total Expenditures                                                                                                  $4,537.9
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               	TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s
                                                mortgage payment.
                                             b
                                                 RD-HAMP expenditures equal $1,834 as of June 30, 2012.

                                             Source: Treasury, response to SIGTARP data call, 7/10/2012.
                                                                                                   quarterly report to congress I July 25, 2012         69




HAMP
According to Treasury, HAMP was intended “to help as many as three to four
million financially struggling homeowners avoid foreclosure by modifying loans to
a level that is affordable for borrowers now and sustainable over the long term.”138
Although HAMP contains several subprograms, the term “HAMP” is most often
used to refer to the HAMP First-Lien Modification Program, described below.

HAMP First-Lien Modification Program
The HAMP First-Lien Modification Program, which went into effect on April
6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
lower monthly payments. A HAMP modification consists of two phases: a trial                                     Trial Modification: Under HAMP, a
modification that was originally designed to last three months, followed by a                                   period of at least three months in
permanent modification. Treasury continues to pay incentives for five years.139 In                              which a borrower is given a chance
designing HAMP, the Administration envisioned a “shared partnership” between                                    to establish that he or she can make
the Government and investors to bring distressed borrowers’ first lien monthly                                  lower monthly mortgage payments and
payments down to an “affordable” and sustainable level — defined by Treasury in                                 qualify for a permanent modification.
the case of HAMP Tier 1 as 31% of the borrower’s monthly gross income.140 The
program description immediately below refers only to the original HAMP program,
which after the launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

HAMP Modification Statistics
As of June 30, 2012, a total of 818,803 mortgages were in active permanent
modifications under both TARP (non-GSE) and GSE HAMP. Some 71,110 were
in active trial modifications. For borrowers receiving permanent modifications,
97.4% received an interest rate reduction, 60% received a term extension, 31.3%
received principal forbearance, and 9.7% received principal forgiveness.141 HAMP
modification activity, broken out by TARP and GSE loans, is shown in Table 2.14.

TABLE 2.14
 Cumulative HAMP modification activity by TARP/GSE, as of 6/30/2012
                                                                      Trials
                     Trials          Trials           Trials   Converted to    Permanents    Permanents
                   Started       Cancelled           Active     Permanent        Cancelled       Active
 TARP             899,407          347,352          40,059         511,996        118,109       393,887
 GSE              984,333          421,807          31,051         531,475        106,559       424,916
 Total        1,883,740           769,159           71,110       1,043,471        224,668      818,803
 Source: Treasury, response to SIGTARP data call, 7/20/2012.



Starting a HAMP Modification
Borrowers may request participation in HAMP.142 Borrowers who have missed two
or more payments must be solicited for participation by their servicers.143 Before
offering the borrower a trial modification, also known as a trial period plan (“TPP”),
the servicer must verify the accuracy of the borrower’s income and other eligibility
criteria. In order to verify the borrower’s eligibility for a modification under the
program, borrowers must submit the following documents as part of an “initial
package.”144
70           special inspector general I troubled asset relief program




     For more information on the RMA                •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
     form and what constitutes hardship,               servicer with the borrower’s financial information, including the cause of the
     see SIGTARP’s April 2011 Quarterly
                                                       borrower’s hardship;
     Report, page 62.
                                                    •	 signed and completed requests for Federal tax return transcripts or the most
     For more information on the                       recent Federal income tax return, including all schedules and forms;
     Verification Policy, see SIGTARP’s             •	 income verification documentation, such as recent pay stubs or evidence of
     April 2011 Quarterly Report, page 63.             other sources of income; and
                                                    •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
                                                       document) that the borrower has not been convicted in the past 10 years of any
                                                       of the following in connection with a mortgage or real estate transaction: felony
                                                       larceny, theft, fraud, or forgery; money laundering, or tax evasion.

                                                         In order for a loan to be eligible for a HAMP modification, the borrower’s initial
                                                    package, consisting of the four documents described above, must be submitted by
                                                    the borrower on or before December 31, 2013. Additionally, in order to be eligible
                                                    for incentive payments, the permanent modification must be effective on or before
                                                    September 30, 2014.145
                                                         Participating servicers verify monthly gross income for the borrower and the
                                                    borrower’s household, as well as other eligibility criteria.146 Then, in the case of
                                                    HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                    by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
                                                    payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
                                                    equal to 31% of his or her monthly gross income.147
                                                         In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
                                                    them to the outstanding principal balance). Second, the servicer reduces the inter-
                                                    est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold has
                                                    still not been reached, in the third step the servicer extends the term of the mort-
                                                    gage to a maximum of 40 years from the modification date. If these steps are still
                                                    insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
                                                    due date), subject to certain limits.148 The forbearance amount is not interest bear-
                                                    ing and results in a lump-sum payment due upon the earliest of the sale date of the
                                                    property, the payoff date of the interest-bearing mortgage balance, or the maturity
                                                    date of the mortgage.149
                                                         Servicers are not required to forgive principal under HAMP. However, servicers
                                                    may forgive principal in order to lower the borrower’s monthly payment to achieve
                                                    the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
                                                    HAMP waterfall described above, or as part of PRA.150
     For more about the HAMP NPV test,                   After completing these modification calculations, all loans that meet HAMP
     see the June 18, 2012, SIGTARP                 eligibility criteria and are either deemed generally to be in imminent default or
     audit report “The NPV Test’s Impact            delinquent by two or more payments must be evaluated using a standardized net
     on HAMP.”
                                                    present value (“NPV”) test that compares the NPV result for a modification to
                                                    the NPV result for no modification.151 The NPV test compares the expected cash
                                                    flow from a modified loan with the expected cash flow from the same loan with
                                                    no modifications to determine which option will be more valuable to the mortgage
                                                    investor. A positive NPV test result indicates that a modified loan is more valuable
                                                                                     quarterly report to congress I July 25, 2012           71




to the investor than the existing loan. In that case, under HAMP rules, the servicer
must offer the borrower a mortgage modification. If the test generates a negative
result, modification is optional.152 Servicers cannot refuse to evaluate a borrower
for a modification simply because the outstanding loan currently has a low loan-to-               Loan-to-Value (“LTV”) Ratio: Lending
value (“LTV”) ratio, meaning the borrower owes less than the value of the home.                   risk assessment ratio that mortgage
The lower the LTV ratio is, the higher the probability that a foreclosure will be                 lenders examine before approving a
more profitable to an investor than a modification.                                               mortgage; calculated by dividing the
    Since September 1, 2011, 19 of the 20 largest mortgage servicers participating                outstanding amount of the loan by
in MHA (i.e., those servicers that had Program Participation Caps of $75 million                  the value of the collateral backing the
or more as of May 18, 2011) have been required to assign a single point of contact                loan. Loans with high LTV ratios are
to borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.153 The                  generally seen as higher risk because
single point of contact has the primary responsibility for communicating with the                 the borrower has less of an equity
borrower about options to avoid foreclosure, his/her status in the process, coordi-               stake in the property.
nation of receipt of documents, and coordination with other servicer personnel to
promote compliance with MHA timelines and requirements throughout the entire
delinquency, imminent default resolution process, or foreclosure.154

How HAMP First-Lien Modifications Work
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of June 30, 2012, of a combined total of 71,110 active trials under
both GSE and TARP (non-GSE) HAMP, 11,440, or 16.1%, had lasted more
than six months.155 This is a decrease from the 19% that SIGTARP reported last
quarter.156
     Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.157 The
terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
years.158 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.159 Otherwise, the modified interest rate remains
permanent.
     If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees for
failing to make the original pre-modification scheduled payments during the trial
period, even though under the trial modification the borrower is not required to
make these payments. Late fees are waived only for borrowers who receive a per-
manent modification.160
     Since May 1, 2011, if a borrower is denied a HAMP Tier 1 permanent modi-
fication because of missed trial payments, the servicer must re-calculate the
72         special inspector general I troubled asset relief program




                                                  borrower’s income using the original income documentation to ensure that the
                                                  trial payment was correctly calculated. The servicer is not required to re-run the
                                                  calculation if the borrower missed a trial payment because of a significant change
                                                  in circumstances resulting in a reduction in income. If the re-calculation shows
                                                  that the borrower’s trial payment exceeded the proper payment by 10% or more, the
                                                  servicer must offer the borrower a new trial period with the correct payment.161

                                                  What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                  Borrower Rights
                                                  Treasury has issued a series of guidance governing both the obligations of servicers
                                                  and the rights of borrowers in connection with the denial of loan modification
                                                  requests. Borrowers must receive a Non-Approval Notice if they are rejected
                                                  for a HAMP modification. A borrower who is not approved for HAMP Tier 1 is
                                                  automatically considered for HAMP Tier 2. If the servicer offers the borrower a
                                                  Tier 2 trial, no Non-Approval notice would be issued on the HAMP Tier 1. The
                                                  Non-Approval Notice is sent only if the Tier 2 is not offered. Borrowers can request
                                                  reconsideration or re-evaluation if they believe one or more NPV analysis inputs is
                                                  incorrect or if they experience a change in circumstance. Servicers are obligated to
                                                  have written procedures and personnel in place to respond to borrower inquiries
                                                  and disputes that constitute “escalated cases” in a timely manner.162
                                                      Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
                                                  used by borrowers prior to applying for a HAMP modification or after a denial
For more information on HAMP
servicer obligations and borrower
                                                  of a HAMP modification. Borrowers can enter the NPV input values listed in
rights, see SIGTARP’s April 2011                  the HAMP Non-Approval Notice received from their servicer, or substitute with
Quarterly Report, pages 67-76.                    estimated NPV input values, to compare the estimated outcome provided by
                                                  CheckMyNPV.com against that on the Non-Approval Notice.

                                                  Modification Incentives
                                                  Originally, servicers received a one-time incentive fee payment of $1,000 for each
                                                  permanent modification completed under HAMP, and additional compensation of
                                                  $500 if the borrower was current but at imminent risk of default before enrolling in
                                                  the trial plan. Effective for new HAMP trials on or after October 1, 2011, Treasury
                                                  changed the flat $1,000 incentive to a sliding scale based on the length of time
                                                  the loan was delinquent as of the effective date of the TPP. For loans less than or
                                                  equal to 120 days delinquent, servicers receive $1,600.163 For loans 121-210 days
                                                  delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
                                                  servicers receive only $400. Additionally, under this system, the $500 borrower
                                                  incentive for being current on the loan is no longer paid.
                                                      For borrowers whose monthly mortgage payment was reduced through HAMP
                                                  by 6% or more, servicers also receive incentive payments of up to $1,000 annually
                                                  for three years if the borrower remains in good standing (defined as less than three
                                                  full monthly payments delinquent).164
                                                      For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                  through HAMP by 6% or more and who make monthly payments on time earn
                                                                                                                               quarterly report to congress I July 25, 2012    73




an annual principal reduction of up to $1,000.165 The principal reduction accrues
monthly and is payable for each of the first five years as long as the borrower
remains in good standing.166
    An investor is entitled to compensation under HAMP Tier 1, for up to five
years, equal to one-half of the dollar difference between the borrower’s monthly
payment (principal and interest) under the modification, based on 31% of monthly
gross income, and the lesser of (1) the borrower’s monthly principal and inter-
est at 38% or (2) the borrower’s pre-modification monthly principal and interest
payment.167 Under HAMP Tier 2 modifications of owner-occupied properties, if
applicable, investors also earn an extra one-time, up-front payment of $1,500 for
modifying a loan that was current before the trial period (i.e., at risk of imminent
default) and whose monthly payment was reduced by at least 6%.168
    As of June 30, 2012, of the $29.9 billion in TARP funds allocated to the 105
servicers participating in MHA, approximately 89.6% was allocated to the 10 larg-
est servicers.169 Table 2.15 outlines these servicers’ relative progress in implement-
ing the HAMP modification programs.

TABLE 2.15

 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 6/30/2012

                                                                                     Incentive                     Incentive                 Incentive
                                                                                    Payments                      Payments                  Payments         Total Incentive
                                                  SPA Cap Limit                  to Borrowers                   to Investors              to Servicers            Payments

 Bank of America, N.A.a                         $8,108,092,562                  $120,691,028                 $299,568,357                $212,318,268        $632,577,652

 Wells Fargo Bank, N.A.       b
                                                  5,121,436,025                    93,044,464                  227,894,233                166,925,508          487,864,205

 JPMorgan Chase Bank, NAc                         3,770,020,191                   145,696,464                  269,205,338                232,731,483          647,633,285

 Ocwen Loan Servicing, LLCd                       2,670,711,437                    52,434,101                  144,352,452                109,027,924          305,814,477

 OneWest Bank                                     1,836,213,784                    25,975,117                   87,841,858                 47,391,810          161,208,785

 GMAC Mortgage, LLC                               1,500,173,461                    28,423,250                   80,202,635                 55,138,210          163,764,096
 Homeward Residential                             1,306,356,674                    31,654,995                   99,560,346                 69,454,750          200,670,091

 CitiMortgage Inc                                 1,050,340,843                    35,034,563                  116,114,690                 70,121,075          221,270,328

 Select Portfolio Servicing                          851,284,429                   34,417,040                   74,497,723                 59,049,968          167,964,731

 National City Bank                                  558,602,227                     1,171,443                    4,218,459                  2,706,837           8,096,738

 Total                                      $26,773,231,663                   $568,542,465               $1,403,456,090               $1,024,865,832      $2,996,864,388
 Notes: Numbers may not total due to rounding.
 a
   Bank of America, N.A. includes the former Countrywide Home Loans Servicing, Wilshire Credit Corp. and Home Loan Services.
 b
   Wells Fargo Bank, N.A. includes Wachovia Mortgage, FSB.
 c
   JPMorgan Chase Bank, NA includes EMC Mortgage.
 d
   Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LP.

 Source: Treasury, Transactions Report-Housing, 7/2/2012.
74           special inspector general I troubled asset relief program




                                                    HAMP Tier 2
                                                    On June 1, 2012, Treasury launched an expansion of HAMP, “HAMP Tier 2,”
                                                    which permits HAMP modifications on non-owner-occupied “rental” properties,
                                                    and allows borrowers with a wider range of debt-to-income situations to receive
                                                    modifications.170 Before this, only owner-occupied homes were eligible for
                                                    HAMP — rental properties had been expressly excluded.171 Treasury’s stated
                                                    policy objectives for HAMP Tier 2 are that it “will provide critical relief to both
                                                    renters and those who rent their homes, while further stabilizing communities
                                                    from the blight of vacant and foreclosed properties.”172 A borrower may have up
                                                    to three loans with HAMP Tier 2 modifications, as well as a single HAMP Tier 1
                                                    modification on the mortgage for his or her primary residence.173
                                                        Even though Treasury announced the HAMP Tier 2 expansion in January, on
                                                    June 1, 2012, the program’s launch date, only three of the 10 largest servicers had
     For SIGTARP’s recommendations for
                                                    fully implemented HAMP Tier 2.174 According to Treasury, as of June 30, 2012, a
     the improvement of HAMP Tier 2,
     see SIGTARP’s April 2012 Quarterly             total of 51 of the 105 servicers with active MHA servicer agreements had fully im-
     Report, pages 185-189.                         plemented HAMP Tier 2. Some of the largest servicers, including Bank of America,
                                                    N.A., and JPMorgan Chase Bank, NA, have reported that they will not have fully
                                                    implemented HAMP Tier 2 until August 2012 or September 2012, respectively.175

                                                    HAMP Tier 2 Eligibility
                                                    HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
                                                    ratio and also allows modifications on loans secured by “rental” properties. Owner-
                                                    occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
                                                    forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
                                                    are permitted in the program, as are those occupied by legal dependents, parents,
                                                    or grandparents, even if no rent is charged. The program is not, however, according
                                                    to Treasury, intended for vacation homes, second homes, or properties that are
                                                    rented only seasonally. Additionally, loans on rental properties must be at least two
                                                    payments delinquent – those in imminent default are not eligible.176
                                                        However, Treasury does not require that the property be rented. Treasury
                                                    requires only that a borrower certify intent to rent the property to a tenant on a year-
                                                    round basis for at least five years, or make “reasonable efforts” to do so; and does not
                                                    intend to use the property as a second residence for at least five years.177 According
                                                    to Treasury, servicers are not typically required to obtain third party verifications of
                                                    the borrower’s rental property certification when evaluating a borrower for HAMP.178
                                                        To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
                                                    requirements: the loan origination date must be on or before January 1, 2009;
                                                    the borrower must have a documented hardship; the property must conform to
                                                    the MHA definition of a “single-family residence” (1-4 dwelling units, including
                                                    condominiums, co-ops, and manufactured housing); the property must not be
                                                    condemned; and the loan must fall within HAMP’s unpaid principal balance limita-
                                                    tions.179 If a borrower satisfies these requirements, and in addition, the loan has
                                                    never been previously modified under HAMP, the servicer is required to solicit the
                                                    borrower for HAMP Tier 2. In certain other cases, the borrower may still be eligible
                                                    for HAMP Tier 2, but the servicer is not required to solicit the borrower.180
                                                                                   quarterly report to congress I July 25, 2012   75




How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
considers the value of the loan to the investor before and after a modification.
Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.181
     As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) a reduction of the monthly principal and in-
terest payment by 10%. If the borrower was previously in a HAMP Tier 1 modifica-
tion (either trial or permanent), then the new payment must be at least 10% below
the previously modified payment. Because HAMP Tier 2 does not target a specific
DTI ratio, the HAMP Tier 2 waterfall is not a series of incremental steps, but a
consistent set of actions that are applied to the loan. After these actions are applied,
if the result of the NPV test is positive and the modification also achieves the DTI
and payment reduction goals, the servicer must offer the borrower a HAMP Tier 2
modification. If the result of the HAMP Tier 2 NPV test is negative, modification is
optional.182
     As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
the term of the loan by up to 40 years from the modification effective date. Finally,
if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
servicer forbears principal in an amount equal to the lesser of (1) an amount that
would create a post-modification LTV ratio of 115%, or (2) an amount equal to
30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also in-
clude several exceptions to this waterfall to allow for investor restrictions on certain
types of modification.183
     The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
modification waterfall” in addition to the one described here. This waterfall uses
principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
cations using PRA.184
     HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.185

Home Price Decline Protection (“HPDP”)
HPDP provides investors with incentives for modifications of loans on properties
located in areas where home prices have recently declined and where investors are
concerned that price declines may persist. HPDP incentive payments are linked
76   special inspector general I troubled asset relief program




                                            to the rate of recent home price decline in a local housing market, as well as the
                                            unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.186
                                                 HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure.
                                                 Under HPDP, Treasury has published a standard formula, based on the princi-
                                            pal balance of the mortgage, the recent decline in area home prices during the six
                                            months before the start of the HAMP modification, and the LTV ratio, that will
                                            determine the size of the incentive payment.187 The HPDP incentive payments
                                            accrue monthly over a 24-month period and are paid annually on the first and
                                            second anniversaries of the initial HAMP trial period. Accruals are discontinued
                                            if the borrower loses good standing under HAMP because they are delinquent by
                                            three mortgage payments. As of June 30, 2012, according to Treasury, approxi-
                                            mately $252 million in TARP funds had been paid for incentives on 133,182 loan
                                            modifications under HPDP.188

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to encourage principal reduction in HAMP loan modifications for
                                            underwater borrowers by providing mortgage investors with incentive payments
                                            in exchange for lowering the borrower’s principal balance. PRA is an alternative
                                            method to the standard HAMP modification waterfall for structuring a HAMP
                                            modification. Although servicers are required to evaluate every non-GSE HAMP-
                                            eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
                                            principal reduction or not is up to the servicer.189
                                                Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
                                            in PRA, the program applies only to loans modified under TARP-funded HAMP.190
                                            On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
                                            TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
                                            pal reductions.191
                                                According to Treasury, as of June 30, 2012, there were 60,778 active permanent
                                            modifications in PRA.192 According to Treasury, 87% of borrowers who received
                                            PRA modifications were seriously delinquent on their mortgages at the start of the
                                            trial modification.193
                                                Borrowers receiving PRA modifications were also significantly further under-
                                            water before modification than was the overall HAMP population. According to
                                            Treasury, PRA borrowers had a pre-modification median LTV ratio of 157%. After
                                            modification, however, PRA borrowers lowered their LTVs to a median ratio of
                                            115%.194 According to Treasury, PRA modifications reduced principal balances by
                                            a median amount of $69,586 or 31.4%, thereby lowering the LTV ratio. On the
                                            other hand, according to the data, HAMP modifications without the PRA feature
                                            on average increased the principal balance. Treasury attributes this increase to the
                                            capitalization of unpaid interest and fees.195
                                                Borrowers in PRA appear to fare better after modification than the overall
                                            population of HAMP borrowers, who overwhelmingly have received the HAMP
                                                                                quarterly report to congress I July 25, 2012   77




modification without the PRA feature. According to Treasury, as of June 30, 2012,
servicers had started 89,444 PRA trial modifications, of which 15,501 were active
as of that date, 67,083 had converted to permanent modifications, and 6,860 (or
7.7%) were subsequently disqualified from the program or the loan was paid off.196
According to Treasury, of the PRA trials that converted to permanent modifications,
60,778 were still active as of June 30, 2012, and 6,305 (9.4%) had either redefault-
ed or were paid off. Although not directly comparable, the redefault rate for HAMP
permanent modifications is 23.1%.197

Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s market value (LTV >115%) are eligible for PRA.198 The
principal balance used in this LTV calculation includes any amounts that would
be capitalized under a HAMP modification.199 Eligible borrowers are evaluated by
running NPV tests. There are standard and alternative NPV tests for HAMP Tier
1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
servicer must offer a HAMP modification (with or without principal reduction).
If the PRA waterfall using principal reduction produces a positive NPV result,
the servicer may, but is not required to, offer a modification using principal
reduction.200

How PRA Works
For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
becomes principal reduction) prior to interest rate reduction as the second step
in structuring the modification. Under PRA, the servicer determines the modified
mortgage payment by first capitalizing unpaid interest and fees as in a standard
HAMP modification. After capitalization, the servicer reduces the loan balance
through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
115% is achieved. No interest will be collected on the forborne amount. If an LTV
ratio of 105% to 115% is achieved first, the servicer then applies the remaining
HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
the 31% DTI ratio is reached. If the principal balance has been reduced by more
than 5%, the servicer is allowed additional flexibility in implementing the remaining
waterfall steps. Principal reduction is not immediate; it is earned over three years.
On each of the first three anniversaries of the modification, one-third of the
PRA forborne principal is forgiven. Therefore, after three years the borrower’s
principal balance is permanently reduced by the amount that was placed in PRA
forbearance.201

Who Gets Paid
For PRA trials effective on or after March 1, 2012, Treasury will triple the amount
of these incentives paid to investors. Under PRA, the mortgage investors now
earn an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on
delinquency status of the loan and the level to which the outstanding LTV ratio was
78                  special inspector general I troubled asset relief program




                                                                       reduced.202 For loans that are more than six months delinquent, investors receive
TABLE 2.16                                                             only $0.18 per dollar of principal reduction, regardless of LTV.203 The incentive
 PRA incentives to investors per                                       schedule in Table 2.16 applies only to loans that have been six months delinquent
 dollar of First Lien principal                                        or less within the previous year.
 reduced                                                                   Under certain conditions an investor may enter into an agreement with the bor-
 Mark-to-Market               105%          115%                       rower to share any future increase in the value of the property.204
 Loan-to-Value
                              to            to           > 140%            According to Treasury, as of June 30, 2012, Treasury had paid a total of $63.2
 Ratio (“LTV”)
 Rangea                       115%          140%                       million in PRA incentives.205
 Incentive
 Amounts                       $0.63        $0.45         $0.30        Home Affordable Unemployment Program (“UP”)
 Notes: This incentive structure applies to loans less than or         UP, which was announced on March 26, 2010, provides temporary assistance to
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors             unemployed borrowers.206 Under the program, unemployed borrowers who meet
 receive $0.18 per dollar of principal reduced in compensation,
 regardless of the LTV ratio. These incentives are effective for       certain qualifications can receive forbearance for a portion of their mortgage
 trials beginning on or after 3/1/2012.
 a
   The mark-to-market LTV is based on the pre-modified principal
                                                                       payments. Originally, the forbearance period was a minimum of three months,
    balance of the first-lien mortgage plus capitalized interest and   unless the borrower found work during this time. However, on July 7, 2011, after a
    fees divided by the market value of the property.
                                                                       SIGTARP recommendation to extend the term, Treasury announced that it would
 Source: Treasury, “Supplemental Directive 12-01: Making
 Home Affordable Program – Principal Reduction Alternative and         increase the minimum UP forbearance period from three months to 12 months.
 Second Lien Modification Program Investor Incentives Update,”
 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/                    As of May 31, 2012, which according to Treasury is the latest data available, 7,235
 hampupdate021612.pdf, accessed 6/28/2012.
                                                                       borrowers were actively participating in UP.207

                                                                       Who Is Eligible
                                                                       Borrowers who are approved to receive unemployment benefits and who also
                                                                       request assistance under HAMP must be evaluated by servicers for an UP
                                                                       forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
                                                                       consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
                                                                       property and still must consider owner-occupied properties. The servicer must
                                                                       consider a borrower for UP regardless of the borrower’s monthly mortgage payment
                                                                       ratio and regardless of whether the borrower had a payment default on a HAMP
                                                                       trial plan or lost good standing under a permanent HAMP modification. Servicers
                                                                       are not required to offer an UP forbearance plan to borrowers who are more than
                                                                       12 months delinquent at the time of the UP request.208 Alternatively, the servicers
                                                                       may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
                                                                       instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
                                                                       the better loss mitigation option. If an unemployed borrower is offered a trial period
                                                                       plan but requests UP forbearance instead, the servicer may then offer UP, but is
                                                                       not required to do so.209
                                                                           Eligible borrowers may request a HAMP trial period plan after the UP forbear-
                                                                       ance plan is completed. If an unemployed borrower in bankruptcy proceedings
                                                                       requests consideration for HAMP, the servicer must first evaluate the borrower
                                                                       for UP, subject to any required bankruptcy court approvals.210 A borrower who has
                                                                       been determined to be ineligible for HAMP may request assessment for an UP
                                                                       forbearance plan if he or she meets all the eligibility criteria.211 If a borrower who
                                                                       is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
                                                                       required to offer the borrower a modification under HAMP or 2MP while the bor-
                                                                       rower remains eligible for an UP forbearance plan.212
                                                                                  quarterly report to congress I July 25, 2012           79




How UP Works
For qualifying homeowners, the mortgage payments during the forbearance
period are lowered to no more than 31% of monthly gross income, which includes
unemployment benefits.213 If the borrower regains employment, but because of
reduced income still has a hardship, the borrower must be considered for HAMP.                 For more information on additional
If the borrower is eligible, any payments missed prior to and during the period of             UP eligibility criteria, see SIGTARP’s
                                                                                               April 2011 Quarterly Report, pages
the UP forbearance plan are capitalized as part of the normal HAMP modification                80-81.
process.214 If the UP forbearance period expires and the borrower is ineligible for
HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
HAFA.215

Home Affordable Foreclosure Alternatives (“HAFA”)
HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
alternative to foreclosure.216 Under HAFA, the servicer forfeits the ability to pursue
                                                                                               Deficiency Judgment: Court order
a deficiency judgment against a borrower when the proceeds from the short sale
                                                                                               authorizing a lender to collect all or
or deed-in-lieu are less than the outstanding amount on the mortgage.217 HAFA
                                                                                               part of an unpaid and outstanding debt
incentives include a $3,000 relocation incentive payment to borrowers or tenants,
                                                                                               resulting from the borrower’s default
a $1,500 incentive payment to servicers, and incentive payments to subordinate
                                                                                               on the mortgage note securing a debt.
mortgage lien holders of up to $2,000 in exchange for a release of the lien and the
                                                                                               A deficiency judgment is rendered
borrower’s liability.218 The program was announced on November 30, 2009.219
                                                                                               after the foreclosed or repossessed
    Treasury allows each servicer participating in HAFA to determine its own poli-
                                                                                               property is sold when the proceeds are
cies for borrower eligibility and many other aspects of how it operates the program,
                                                                                               insufficient to repay the full mortgage
but requires the servicers to post criteria and program rules on their websites.
                                                                                               debt.
According to Treasury, as of June 30, 2012, two servicers had not yet complied
with this requirement. Servicers must notify eligible borrowers in writing about the
availability of the HAFA program and allow the borrower a minimum of 14 calen-
dar days to apply.220 Servicers are not required by Treasury to verify a borrower’s
financial information or determine whether the borrower’s total monthly payment
exceeds 31% of his or her monthly gross income.221
    Effective March 9, 2012, Treasury no longer required properties in HAFA to
be occupied, allowing vacant properties to enter the program. However, borrower
relocation incentives will be paid only on occupied properties.222
    As of June 30, 2012, approximately $237.2 million from TARP had been paid
to investors, borrowers, and servicers in connection with 52,998 short sales or
deeds-in-lieu of foreclosure transfers completed under HAFA.223 As of May 31,
                                                                                               For more information about relocation
2012, the latest data available, Treasury reported that the nine largest servicers             incentives and borrower requirements
alone had completed 241,837 short sales and deeds-in-lieu outside HAMP for bor-                related to primary residences in
rowers whose HAMP trial modifications had failed, borrowers who had chosen not                 HAFA, see SIGTARP’s January 2012
to participate, or were ineligible for the program.224 The greater volume of activity          Quarterly Report, pages 70-71.
outside HAFA may be explained, in part, by the fees and deficiency judgments that
servicers are able to collect from the borrower in non-HAFA transactions, which
are not available within HAFA.
80                 special inspector general I troubled asset relief program




                                                                   Second-Lien Modification Program (“2MP”)
                                                                   According to Treasury, 2MP, which was announced on August 13, 2009, is
                                                                   designed to provide modifications to the loans of borrowers with second mortgages
                                                                   of at least $5,000 with monthly payments of at least $100 that are serviced by
                                                                   a participating 2MP servicer, or full extinguishment of second mortgages below
                                                                   those thresholds. When a borrower’s first lien is modified under HAMP and the
                                                                   servicer of the second lien is a 2MP participant, that servicer must offer to modify
                                                                   or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
                                                                   sum for full extinguishment of the second-lien principal or in exchange for a partial
                                                                   extinguishment (principal reduction) and modification of the remainder of the
                                                                   second lien.225 Second-lien servicers are not required to verify any of the borrower’s
                                                                   financial information and do not perform a separate NPV analysis.226
     Servicing Advances: If borrowers’                                 There is no minimum principal balance for a full extinguishment of a second
     payments are not made promptly                                lien under 2MP. For a second-lien modification under 2MP, the servicer first capi-
     and in full, servicers are contractually                      talizes any accrued interest and servicing advances, then reduces the interest rate
     obligated to advance the required                             to 1% to 2% for the first five years. After the five-year period, the rate increases to
     monthly payment amount in full to the                         match the rate on the HAMP-modified first lien. When modifying the second lien,
     investor. Once a borrower becomes                             the servicer must, at a minimum, extend the term to match the term of the first
     current or the property is sold or                            lien, but can also extend the term up to a maximum of 40 years. To the extent that
     acquired through foreclosure, the                             there is forbearance or principal reduction for the modified first lien, the second-
     servicer is repaid all advanced funds.                        lien holder must forbear or forgive at least the same percentage on the second
                                                                   lien.227
                                                                       The servicer receives a $500 incentive payment upon modification of a second
                                                                   lien. If the loan is in good standing and a borrower’s monthly second-lien payment
                                                                   is reduced by 6% or more, the servicer is eligible for an annual incentive payment
TABLE 2.17                                                         of $250 per year for up to three years, and the borrower is eligible for an annual
 2mp compensation per dollar of
                                                                   principal reduction payment of up to $250 per year for up to five years.228 Investors
 Second-Lien principal Reduced                                     receive modification incentive payments equal to an annualized amount of 1.6% of
 (for 2MP modifications with                                       the unmodified principal balance, paid on a monthly basis for up to five years.229
 an effective date on or after                                     In addition, investors also receive incentives for fully or partially extinguishing the
 6/1/2012)                                                         second lien on 2MP modifications. On February 16, 2012, Treasury doubled the
                                          115%                     amount of these incentives on 2MP modifications effective on or after June 1,
 Combined Loan-
 to-Value (“CLTV”)          < 115%        to           > 140%      2012. The current incentive schedule for loans six months delinquent or less is
 Ratio Rangea                             140%                     shown in Table 2.17. For loans that have been more than six months delinquent
 Incentive                                                         within the previous 12 months, investors are paid $0.12 for each dollar of principal
 Amounts                      $0.42       $0.30         $0.20      reduced, regardless of the combined LTV ratio.230
 Notes: This incentive structure applies to loans less than or
 equal to six months past due. For loans that were more than
                                                                       According to Treasury, as of June 30, 2012, 119,938 HAMP modifications had
 six months delinquent within the previous year, investors
 receive $0.12 per dollar of principal reduced in compensation,
                                                                   second liens that were eligible for 2MP. As of that date, there were 63,769 active
 regardless of the CLTV ratio.                                     permanent modifications of second liens.231 New 2MP modifications sharply
 a
   Combined Loan-to-Value is the ratio of the sum of the
    outstanding principal balance of the HAMP-modified first       peaked in March 2011 and have been generally declining since then. Most of the
    lien and the outstanding principal balance of the unmodified
    second lien divided by the property value determined in        activity under the program has been modifications to the terms of the second liens.
    connection with the permanent HAMP modification.
                                                                   Median principal reduction was $8,674 for partial extinguishments of second liens
 Source: Treasury, “Supplemental Directive 12-03: Making Home      and $61,641 for full extinguishments of second liens.232 According to Treasury,
 Affordable Program – Handbook Mapping for MHA Extension
 and Expansion and Administrative Clarifications on Tier 2,”       as of June 30, 2012, approximately $192.1 million in TARP funds had been paid
 4/17/2012, www.hmpadmin.com//portal/programs/docs/
 hamp_servicer/sd1203.pdf, accessed 7/14/2012.
                                                                                 quarterly report to congress I July 25, 2012      81




to servicers and investors in connection with 110,173 second-lien full and partial
extinguishments and modifications under 2MP.233

Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
VA-HAMP)
Some mortgage loans insured or guaranteed by the Federal Housing Administration
(“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
Agriculture Rural Development (“RD”) are eligible for modification under programs
similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage payments to
31% of their monthly gross income. Borrowers are eligible to receive a maximum
$1,000 annual incentive for five years and servicers are eligible to receive a
maximum $1,000 annual incentive from Treasury for three years on mortgages in
which the monthly payment was reduced by at least 6%.234 As of June 30, 2012,
according to Treasury, approximately $9.8 million in TARP funds had been paid
to servicers and borrowers in connection with 6,013 permanent Treasury/FHA-
HAMP modifications. According to Treasury, only $1,834 of TARP funds has been
spent on the seven modifications under RD-HAMP.235 Treasury does not provide
incentive compensation related to VA-HAMP.236

Treasury/FHA Second-Lien Program (“FHA2LP”)
FHA2LP, which was launched on September 27, 2010, provides incentives for
partial or full extinguishment of non-GSE second liens of at least $2,500 originated
on or before January 1, 2009, associated with an FHA refinance.237 Borrowers must
also meet the eligibility requirements of FHA Short Refinance. TARP has allocated             For more information concerning
$2.7 billion for incentive payments to (1) investors ranging from $0.10 to $0.21              FHA2LP eligibility, see SIGTARP’s
based on the LTV of pre-existing second-lien balances that are partially or fully             April 2011 Quarterly Report, pages
                                                                                              85-87.
extinguished under FHA2LP, or they may negotiate with the first-lien holder for a
portion of the new loan, and (2) servicers, in the amount of $500 for each second-
lien mortgage in the program.238 According to Treasury, as of June 30, 2012, it had
not made any incentive payments under FHA2LP, and no second liens had been
extinguished.239

MHA Servicer Assessments
Since June 2011, Treasury has published quarterly Servicer Assessments of the
10 largest mortgage servicers participating in MHA. The most recent assessment
covering the first quarter of 2012 was published on June 6, 2012. During the
fourth quarter of 2011, Ocwen Loan Servicing, LLC acquired the servicing
portfolio of Litton Loan Servicing, LP (“Litton”), another top 10 servicer.240 At that
time, Treasury changed from assessing the 10 largest MHA servicers to assessing
only nine servicers.241
   Servicer Assessments focus on compliance with the requirements of the MHA
program and on program results. The compliance assessment portion is based on
the findings of servicer compliance reviews conducted by Treasury’s compliance
agent. These findings are divided into three performance categories: Identifying and
82            special inspector general I troubled asset relief program




                                                     Contacting Homeowners; Homeowner Evaluation and Assistance; and Program
                                                     Management, Reporting, and Governance. These categories in turn contain several
                                                     quantitative and qualitative metrics, which Treasury scores using benchmarks set
                                                     by Treasury.242 The servicers are also rated on the effectiveness of their internal
                                                     controls in each of the three categories. Because not all of the performance metrics
                                                     Treasury examines are reassessed each quarter, some assessment data is typically
                                                     carried over from the prior quarter.243
                                                         Program results are reported for Aged Trials as a Percentage of Active Trials;
                                                     Conversion Rate for Trials Started On or After June 1, 2010; Average Calendar
                                                     Days to Resolve Escalated Cases; and Percentage of Missing Modification Status
                                                     Reports. The servicer’s performance in each of the four metrics is not scored and
                                                     Treasury has not set benchmarks. Treasury compares servicer performance to the
                                                     best and worst performances among the other servicers.244
                                                         Treasury issues overall servicer ratings indicating whether the servicer requires
                                                     minor improvement, moderate improvement, or substantial improvement. In
                                                     the first quarter 2012 MHA servicer assessment, Treasury determined that three
                                                     servicers needed minor improvement (OneWest Bank, Select Portfolio Servicing,
                                                     and Wells Fargo Bank, N.A.) and that six servicers needed moderate improvement:
                                                     Homeward Residential (formerly known as American Home Mortgage Servicing,
                                                     Inc.); Bank of America, N.A.; CitiMortgage, Inc; GMAC Mortgage, LLC;
                                                     JPMorgan Chase Bank, NA; and Ocwen Loan Servicing, LLC.245
                                                         Prior to this quarter, Treasury had withheld MHA incentives from JPMorgan
                                                     Chase Bank, NA, (“JPMorgan”) and Bank of America, N.A. However, as part of
                                                     the “robo-signing” settlement between the Federal Government, state Attorneys
     For more information on MHA
                                                     General, and major servicers, Treasury released all MHA incentives that it was
     Servicer Assessments, see Section 5:
     “SIGTARP Recommendations” of                    withholding.246 The only additional incentives reported as newly withheld from
     this report.                                    any servicers for the first quarter of 2012, according to Treasury, total $6,000 and
                                                     $2,000 withheld from JPMorgan and Ocwen, respectively, and will be withheld
                                                     until certain data is verified.247

                                                     FHA Short Refinance Program
                                                     On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                     program, which gives borrowers the option of refinancing an underwater, non-
                                                     FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. Treasury has allocated TARP funds of (1) up to $8 billion to provide
                                                     loss protection to FHA through a letter of credit; and (2) up to $117 million in
                                                     fees for the letter of credit.248 FHA Short Refinance is voluntary for servicers.
                                                     Therefore, not all underwater borrowers who qualify may be able to participate in
                                                     the program.249 As of June 30, 2012, according to Treasury, 1,437 loans had been
                                                     refinanced under the program.250 As of June 30, 2012, Treasury has not paid any
                                                     claims for defaults under the program. According to Treasury, to its knowledge,
                                                     no FHA Short Refinance Loans have defaulted; however, it is possible that one or
                                                     more loans have defaulted but FHA has not yet evaluated the claims.251 Treasury
                                                     has deposited $50 million into a reserve account for future claims.252 It has also
                                                                                     quarterly report to congress I July 25, 2012           83




spent approximately $6.6 million on administrative expenses associated with the
letter of credit.253

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must be current on the
existing first-lien mortgage or have made three successful trial period payments; be                 For more information concerning
in a negative equity position; occupy the home as a primary residence; qualify for                   FHA Short Refinance eligibility, see
the new loan under standard FHA underwriting and credit score requirements and                       SIGTARP’s April 2011 Quarterly
                                                                                                     Report, pages 85-87.
have an existing loan that is not insured by FHA.254 According to the Department
of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
loans.255

How FHA Short Refinance Works
Servicers must first determine the current value of the home using a third-party
appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
risk and, if necessary, referred for a review to confirm that the borrower’s total
monthly mortgage payments on all liens after the refinance is not greater than
31% of the borrower’s monthly gross income and the borrower’s total household
debt is not greater than 50%.256 Next, the lien holders must forgive principal that is
more than 115% of the value of the home. In addition, the original first-lien lender
must forgive at least 10% of the unpaid principal balance of the first-lien loan,
in exchange for a cash payment for 97.75% of the current home value from the
proceeds of the refinance. The lender may maintain a subordinate second lien for
up to 17.25% of that value (for a total balance of 115% of the home’s value).257
     If a borrower defaults, the letter of credit purchased by TARP compensates the
investor for a first percentage of losses, up to specified amounts.258 FHA is poten-
tially responsible for the remaining approximately 86.6% of potential losses on each
mortgage, until the earlier of either (1) the time that the $8 billion letter of credit is
exhausted, or (2) 10 years from the issuance of the letter of credit (October 2020),
at which point FHA will bear all of the remaining losses.259

Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
measures” developed by 19 state housing finance agencies (“HFAs”) and approved
by Treasury to help families in the states that have been hit the hardest by the
aftermath of the housing bubble.260 The first round of HHF allocated $1.5 billion
of the amount initially allocated for MHA initiatives. According to Treasury, these
funds were designated for five states where the average home price had decreased
more than 20% from its peak. The five states were Arizona, California, Florida,
Michigan, and Nevada.261 Plans to use these funds were approved by Treasury on
June 23, 2010.262
    On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
84   special inspector general I troubled asset relief program




                                            Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                            these states were selected because of their high concentrations of people living in
                                            economically distressed areas, defined as counties in which the unemployment rate
                                            exceeded 12%, on average, in 2009.263 Plans to use these funds were approved by
                                            Treasury on August 3, 2010.264
                                                 On August 11, 2010, Treasury pledged a third round of HHF funding of $2
                                            billion to states with unemployment rates at or above the national average.265
                                            The states designated to receive funding were Alabama, California, Florida,
                                            Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
                                            North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
                                            Washington, DC.266 Treasury approved third round proposals on September 23,
                                            2010.267 On September 29, 2010, a fourth round of HHF funding of an additional
                                            $3.5 billion was made available to existing HHF participants.268
                                                 Treasury approved state programs and allocated the $7.6 billion in TARP funds
                                            in five categories of assistance:269

                                            •	   $4.4 billion for unemployment assistance
                                            •	   $1.4 billion allocated for principal reduction
                                            •	   $817 million for reinstatement of past-due amounts
                                            •	   $83 million for second-lien reduction
                                            •	   $45 million for transition assistance, including short sales and deed-in-lieu of
                                                 foreclosure

                                                Each state’s HFA reports program results (i.e., number of applications approved
                                            or denied and assistance provided) on a quarterly basis on its own state website.
                                            Treasury does not publish the data either by individual HFA or in the aggregate.
                                            Treasury indicated that states can reallocate funds between programs and modify
                                            existing programs as needed, with Treasury approval, until funds are expended
                                            or returned to Treasury after December 31, 2017. According to Treasury, since
                                            December 31, 2011, eight states have reallocated funds, modified or eliminated
                                            existing programs, or established new HHF programs with Treasury approval,
                                            bringing the total number of HHF programs in 18 states and Washington, DC, as
                                            of June 30, 2012, to 56.270
                                                Table 2.18 shows the obligation of funds and funds drawn for states participat-
                                            ing in the four rounds of HHF as of June 30, 2012. As of that date, according to
                                            Treasury, the states had drawn down $1.1 billion under the program. According
                                            to Treasury, the states had spent only a limited portion of the amount drawn on
                                            assisting borrowers; see Table 2.18. More than half of the amount drawn is held as
                                            unspent cash-on-hand with HFAs or is used for administrative expenses.271
                                                                                                                            quarterly report to congress I July 25, 2012     85




TABLE 2.18
 HHF Funding Obligated and drawdowns by State, as of 6/30/2012
 Recipient                                                       Amount Obligated                         Amount Drawn*
Alabama                                                                $162,521,345                             $28,000,000
Arizona                                                                  267,766,006                             21,255,000
California                                                            1,975,334,096                             217,490,000
Florida                                                               1,057,839,136                              89,800,000
Georgia                                                                  339,255,819                             38,200,000
Illinois                                                                 445,603,557                             96,500,000
Indiana                                                                  221,694,139                             22,000,000
Kentucky                                                                 148,901,875                             24,000,000
Michigan                                                                 498,605,738                             47,317,776
Mississippi                                                              101,888,323                               7,641,624
Nevada                                                                   194,026,240                             17,922,000
New Jersey                                                               300,548,144                             22,513,704
North Carolina                                                           482,781,786                            128,000,000
Ohio                                                                     570,395,099                             96,100,000
Oregon                                                                   220,042,786                            107,501,070
Rhode Island                                                              79,351,573                             26,000,000
South Carolina                                                           295,431,547                             40,000,000
Tennessee                                                                217,315,593                             31,315,593
Washington, DC                                                            20,697,198                             10,034,860
Total                                                             $7,600,000,000                         $1,071,591,627
 Source: Treasury, response to SIGTARP data call, 7/5/2012.

 *Amount drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.



    As of March 31, 2012, the latest data available, HHF had provided $350.8
million in assistance to 43,580 homeowners.272 Each state estimates the number of
                                                                                                                                         For more information on HHF,
borrowers to be helped in its programs. Treasury allows the HFAs to change this                                                          see SIGTARP’s April 12, 2012,
estimate. The aggregate of these estimated ranges has decreased in the last year.                                                        audit report, “Factors Affecting
As of March 31, 2012, the 19 state HFAs collectively estimate helping between                                                            Implementation of the Hardest Hit
452,034 and 476,672 homeowners over the life of the program.273 Table 2.19 pro-                                                          Fund Program.”
vides this estimate as well as the actual number of borrowers helped by state using
data as of March 31, 2012.
86   special inspector general I troubled asset relief program




                                            TABLE 2.19
                                             HHF Estimated and Actual Number of Borrowers Assisted and
                                             assistance provided, by state, as of 3/31/2012
                                                                             Estimated Number
                                                                                of Participating
                                                                                  Households to                 Actual Borrowers
                                                                                 be Assisted by             Receiving Assistance                 Assistance Provided
                                             Recipient                           12/31/2017*                 as of 3/31/2012**                   as of 3/31/2012**
                                             Alabama                                           8,500                               1,579                    $10,113,978
                                             Arizona                                           3,207                                 484                        9,262,887
                                             California                                       88,774                               6,681                      58,554,423
                                             Florida                                        106,000                                4,745                      20,849,632
                                             Georgia                                          18,300                                 872                        4,535,143
                                             Illinois                           17,000 to 29,000                                   1,569                      16,926,236
                                             Indiana                                          13,392                                 546                        3,635,792
                                             Kentucky                            5,342 to 13,000                                   1,519                      11,296,861
                                             Michigan                                         38,687                               4,165                      15,086,894
                                             Mississippi                                       3,800                                 398                        3,064,124
                                             Nevada                                           10,371                                 891                        5,188,469
                                             New Jersey                                        6,900                                 171                          970,886
                                             North Carolina                                   22,290                               5,258                      48,922,052
                                             Ohio                                             57,300                               5,020                      48,353,363
                                             Oregon                                           13,630                               4,579                      49,879,568
                                             Rhode Island                                      2,921                               1,340                      10,299,394
                                             South Carolina                     21,600 to 26,100                                   2,233                      19,726,540
                                             Tennessee                                        13,500                               1,267                      10,858,838
                                             Washington, DC                           520 to 1,000                                   263                        3,305,577
                                             Total                        452,034 to 476,672                                    43,580                   $350,820,656
                                             * Source: Estimates are from the latest HFA Participation Agreements as of 3/31/2012. Later amendments are not included for
                                               consistency with Quarterly Performance reporting.

                                              States report the Estimated Number of Participating Households individually for each HHF program they operate. This column
                                              shows the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not
                                              necessarily translate into the number of unique households that the states expect to assist because some households may
                                              participate in more than one HHF program.

                                             ** Sources: First quarter 2012 HFA Performance Data quarterly reports and First Quarter 2012 HFA Aggregate Quarterly Report.
                                                Both sources are as of 3/31/2012.



                                                As of March 31, 2012, 76% of the HHF assistance received by homeowners
                                            was for unemployment assistance. The remaining assistance can be broken down
                                            to 20% for reinstatement of past due amounts, 4% for principal reduction, 1% for
                                            second-lien reduction, and 0.1% for transition assistance.274
                                                                                quarterly report to congress I July 25, 2012         87




Financial Institution Support Programs
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
                                                                                             Mandatorily Convertible Preferred
Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                                                             Stock (“MCP”): A type of preferred
Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                                                             share (ownership in a company that
(“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                                                                             generally entitles the owner of the
three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                                                                             shares to collect dividend payments)
Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                                                                             that can be converted to common
were available on a case-by-case basis to institutions that needed assistance beyond
                                                                                             stock under certain parameters at the
that available through CPP. With the expiration of TARP funding authorization, no
                                                                                             discretion of the company — and must
new investments can be made through these six programs.
                                                                                             be converted to common stock by a
    To help improve the capital structure of some struggling TARP recipients,
                                                                                             certain time.
Treasury has agreed to modify its investment in certain cases by converting the pre-
ferred stock it originally received into other forms of equity, such as common stock
or mandatorily convertible preferred stock (“MCP”).275

Capital Purchase Program
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
way to promote financial stability, maintain confidence in the financial system, and
enable lenders to meet the nation’s credit needs.276 CPP was a voluntary program
open to all QFIs through an application process. QFIs included U.S.-controlled
banks, savings associations, and certain bank and savings and loan holding
companies.277
    Under CPP, Treasury used TARP funds predominantly to purchase preferred
equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
rants to purchase common stock with an aggregate market price equal to 15% of
the senior preferred share investment. Privately held QFIs issued Treasury warrants
to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
ferred stock investment.278 In total, Treasury invested $204.9 billion of TARP funds
in 707 QFIs through CPP.279
    As of June 30, 2012, 325 of those 707 institutions remained in CPP, accord-              For discussion of SIGTARP’s
ing to Treasury.280 Of the 382 that have exited CPP, 165, or 43.2%, did so through           recommendations on TARP exit paths
other government programs — 28 of them through TARP’s CDCI and 137 through                   for community banks, see SIGTARP’s
                                                                                             October 2011 Quarterly Report, pages
the Small Business Lending Fund (“SBLF”), a non-TARP program.281 Only 164 of                 167-169.
the banks that exited, or 42.9%, fully repaid CPP otherwise.282 In addition, three
CPP banks merged with other CPP banks; Treasury sold its investments in 33
institutions at a loss; and 17 institutions or their subsidiary banks failed, meaning
Treasury lost its entire investment in those banks.283
88            special inspector general I troubled asset relief program




                                                     Status of Funds
     Subordinated Debentures: Form of                According to Treasury, through CPP, Treasury purchased $204.9 billion in
     debt security that ranks below other            preferred stock and subordinated debentures from 707 QFIs in 48 states, the
     loans or securities with regard to              District of Columbia, and Puerto Rico. Although the 10 largest investments
     claims on assets or earnings.                   accounted for $142.6 billion of the program, CPP made many smaller investments:
                                                     331 of 707 recipients received $10 million or less.284 Table 2.20 shows the
                                                     distribution of investments by amount.

                                                     TABLE 2.20
                                                      CPP INVESTMENT SIZE BY INSTITUTION, AS OF 6/30/2012
                                                                                                                                                  Originala                Outstandingb
                                                     $10 billion or more                                                                                     6                              0
                                                     $1 billion to $10 billion                                                                             19                               0
                                                     $100 million to $1 billion                                                                            57                             17
                                                     Less than $100 million                                                                              625                             308
                                                     Total                                                                                               707                            325
                                                     Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
                                                     transactions through CPP.
                                                     a
                                                       	These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                     b
                                                       	Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
                                                        CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
                                                        protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
                                                        banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
                                                        investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
                                                        their CPP principal but still have warrants outstanding.

                                                     Source: Treasury, response to SIGTARP data call, 7/5/2012.



                                                         As of June 30, 2012, 325 banks remained in CPP and taxpayers were still owed
                                                     $13.8 billion related to CPP. According to Treasury, it had write-offs and realized
                                                     losses of $2.8 billion in the program, leaving $11.1 billion in TARP funds outstand-
                                                     ing. According to Treasury, $191.1 billion of the CPP principal (or 93.3%) had been
                                                     repaid as of June 30, 2012. That repayment tally includes $245 million in proceeds
                                                     from an auction held from June 11 through June 13, 2012, of preferred stock in
                                                     seven banks, but does not include $204.4 million in proceeds from an auction held
                                                     from June 25 through June 27, 2012, of preferred stock in another seven banks.
                                                     The repayment amount also includes $363.3 million in preferred stock that was
                                                     converted from CPP investments into CDCI and therefore still represents out-
                                                     standing obligations to TARP, and $2.2 billion that was refinanced in 2011 into
                                                     SBLF, a non-TARP Government program.285 As of June 30, 2012, Treasury had
                                                     received approximately $11.7 billion in interest and dividends from CPP recipients.
                                                     Treasury also had received $7.7 billion through the sale of CPP warrants that were
                                                     obtained from TARP recipients.286 Figure 2.2 provides a snapshot of CPP funds
                                                     outstanding and associated repayments. For a complete list of CPP share repur-
                                                     chases, see Appendix D: “Transaction Detail.”
                                                                                                                    quarterly report to congress I July 25, 2012   89




FIGURE 2.2

SNAPSHOT OF CPP FUNDS REPAID AND OWED TO TAXPAYERS,
BY QUARTER ($ BILLIONS)


                      198.8 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9
200                    0.4 70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6 184.9 185.5 186.9 191.1
                      198.4
              177.5
              177.5

150

                            133.1 133.9
      115.0
      115.0
100

                                            83.0
                                                    69.1
 50                                                         58.0
                                                                   52.1
                                                                           37.0
                                                                                   25.9    24.3   20.0   19.5 18.0
                                                                                                                   13.8
  0
      Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212

          CPP Funds Repaid at Quarter’s End
          CPP Funds Owed to Taxpayers at Quarter’s End

       Notes: Numbers may be affected by rounding. Data presented for calendar quarters.

       Source: Treasury, Transactions Report, 6/27/2012.



CPP Banks Exiting TARP by Refinancing into SBLF
On September 27, 2010, the President signed into law the Small Business Jobs
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
capital investments in institutions with less than $10 billion in total assets.287
    The Jobs Act specifically contemplated that some CPP institutions could apply
to exit TARP by refinancing into SBLF. According to Treasury, it received a total of
935 SBLF applications, of which 320 were TARP recipients under CPP (315) or
CDCI (5).288
    Treasury approved the exit of 137 CPP participants from TARP, which included
refinancing Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred
stock.289
    An institution was not eligible for the program if at the time of application it
was on the FDIC’s problem bank list or if it had been removed from that list in the
90 days preceding its application to SBLF.290 Treasury consulted with Federal and,
where applicable, state regulators about the bank’s financial condition and whether
it was eligible to receive funding from SBLF.291
90           special inspector general I troubled asset relief program




     For SIGTARP’s recommendations                     In order for these 137 banks to exit TARP, the following conditions had to be
     to Treasury about applying SBLF                met:292
     to TARP recipients, see SIGTARP’s
     January 2011 Quarterly Report, pages
     185-192.
                                                    •	 Banks that refinanced into SBLF were required to end participation in CPP or
                                                       CDCI.
     For further discussion of Treasury             •	 Banks that used SBLF to refinance their CPP or CDCI investments were
     policies regarding missed dividend                required to redeem all outstanding preferred stock issued under those programs
     payments and of how Treasury adjusts              on or before the date of Treasury’s SBLF investment. Banks could use the SBLF
     dividend rates of SBLF banks, see
     SIGTARP’s April 2011 Quarterly                    funding to meet this requirement.
     Report, pages 128-129.                         •	 Banks were required to be in material compliance with all the terms, conditions,
                                                       and covenants of CPP or CDCI in order to refinance through SBLF.
     For a discussion of the impact of TARP         •	 Banks were required to be current in their dividend payments and to pay any
     and SBLF on community banks, see                  accrued and unpaid dividends due to Treasury under CPP or CDCI. In addition,
     SIGTARP’s April 2012 Quarterly
     report, pages 145-167.                            banks could not have missed more than one previous dividend payment under
                                                       CPP or CDCI (defined as a payment submitted more than 60 days late).

                                                        Table 2.21 is a list of the 137 banks that exited TARP by refinancing into SBLF.
                                                                              quarterly report to congress I July 25, 2012           91




Table 2.21
 CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF
                                             CPP Principal           CPP Warrant                                   SBLF Principal
Institution                                    Investment    Disposition Proceeds         TARP Exit Date              Investment
1st Enterprise Banka                          $10,400,000               $220,000               9/1/2011              $16,400,000
Adbanc, Inc.                                   12,720,000                636,000              7/21/2011                21,905,000
AMB Financial Corp.                             3,674,000                184,000              9/22/2011                 3,858,000
AmeriBank Holding Company                       2,492,000                125,000              9/15/2011                 5,347,000
AmeriServ Financial, Inc.                      21,000,000                825,000              8/11/2011                21,000,000
Avenue Financial Holdings, Inc.                 7,400,000                370,000              9/15/2011                18,950,000
BancIndependent, Inc.                          21,100,000              1,055,000              7/14/2011                30,000,000
Bancorp Financial, Inc.                        13,669,000                410,000              8/18/2011                14,643,000
Bank of Commerce Holdings                      17,000,000                125,000              9/27/2011                20,000,000
BankFirst Capital Corporation                  15,500,000                775,000               9/8/2011                20,000,000
Banner County Ban Corporation                     795,000                 40,000              7/28/2011                 2,427,000
Bern Bancshares, Inc.                             985,000                 50,000               9/1/2011                 1,500,000
Birmingham Bloomfield Bancshares, Inc.   a
                                                3,379,000                 82,000              7/28/2011                 4,621,000
BNC Financial Group, Inc.                       4,797,000                240,000               8/4/2011                10,980,000
BOH Holdings, Inc.                             10,000,000                500,000              7/14/2011                23,938,350
Brotherhood Bancshares, Inc.                   11,000,000                550,000              9/15/2011                16,000,000
Cache Valley Banking Companya                   9,407,000                238,000              7/14/2011                11,670,000
California Bank of Commerce                     4,000,000                200,000              9/15/2011                11,000,000
Cardinal Bancorp II, Inc.                       6,251,000                313,000               9/8/2011                 6,251,000
Catskill Hudson Bancorp, Inc.   a
                                                6,500,000                263,000              7/21/2011                 9,681,000
Center Bancorp, Inc.                           10,000,000                245,000              9/15/2011                11,250,000
Central Bancorp, Inc.                          10,000,000              2,525,000              8/25/2011                10,000,000
Central Valley Community Bancorp                7,000,000                185,017              8/18/2011                 7,000,000
Centric Financial Corporation                   6,056,000                182,000              7/14/2011                 7,492,000
Centrix Bank & Trust                            7,500,000                375,000              7/28/2011                24,500,000
Citizens Community Bank                         3,000,000                150,000              7/28/2011                 4,000,000
Citizens South Banking Corporation             20,500,000                225,157              9/22/2011                20,500,000
CoBiz Financial Inc.                           64,450,000                143,677               9/8/2011                57,366,000
Codorus Valley Bancorp, Inc.                   16,500,000                526,604              8/18/2011                25,000,000
Columbine Capital Corp.                         2,260,000                113,000              9/22/2011                 6,050,000
Community Bank Shares of Indiana, Inc.         19,468,000              1,100,870              9/15/2011                28,000,000
Community First Bancshares Inc.                20,000,000              1,000,000              8/18/2011                30,852,000
Community Partners Bancorp                      9,000,000                460,000              8/11/2011                12,000,000
Community Trust Financial Corporation          24,000,000              1,200,000               7/6/2011                48,260,000
D. L. Evans Bancorp                            19,891,000                995,000              9/27/2011                29,891,000
Deerfield Financial Corporation                 2,639,000                132,000               9/8/2011                 3,650,000
                                                                                                            Continued on next page
92             special inspector general I troubled asset relief program




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                    (Continued)

                                                         CPP Principal             CPP Warrant                             SBLF Principal
     Institution                                           Investment      Disposition Proceeds     TARP Exit Date            Investment
     DNB Financial Corporation                             $11,750,000                $458,000           8/4/2011             $13,000,000
     Eagle Bancorp, Inc.                                    38,235,000               2,794,422          7/14/2011              56,600,000
     Emclaire Financial Corp.                                7,500,000                     51,113       8/18/2011              10,000,000
     Encore Bancshares, Inc.                                34,000,000                    637,071       9/27/2011              32,914,000
     Enterprise Financial Services Group, Inc.               4,000,000                    200,000       8/25/2011               5,000,000
     Equity Bancshares, Inc.                                 8,750,000                    438,000       8/11/2011              16,372,000
     Farmers State Bankshares, Inc.                            700,000                     40,000       7/21/2011                 700,000
     FCB Bancorp, Inc.                                       9,294,000                    465,000       9/22/2011               9,759,000
     Financial Security Corporation                          5,000,000                    250,000       7/21/2011               5,000,000
     Financial Services of Winger, Inc.                      3,742,000                    112,000        9/1/2011               4,069,000
     First Bancorp                                          65,000,000                    924,462        9/1/2011              63,500,000
     First Bank of Charleston, Inc.                          3,345,000                    167,000       7/21/2011               3,345,000
     First Bankers Trustshares, Inc.                        10,000,000                    500,000        9/8/2011              10,000,000
     First Busey Corporation                               100,000,000                     63,677       8/25/2011              72,664,000
     First California Financial Group, Inc                  25,000,000                    599,042       7/14/2011              25,000,000
     First Colebrook Bancorp, Inc.                           4,500,000                    225,000       9/22/2011               8,623,000
     First Financial Bancshares, Inc.                        3,756,000                    113,000       9/22/2011               3,905,000
     First Guaranty Bancshares, Inc.                        20,699,000               1,030,000          9/22/2011              39,435,000
     First Menasha Bancshares, Inc.                          4,797,000                    240,000       9/15/2011              10,000,000
     First Merchants Corporation                           116,000,000                    367,500       9/22/2011              90,782,940
     First NBC Bank Holding Company                         17,836,000                    892,000        8/4/2011              37,935,000
     First Northern Community Bancorp                       17,390,000                    375,000       9/15/2011              22,847,000
     First Resource Bank   a
                                                             5,017,000                    130,000       9/15/2011               5,083,000
     First Texas BHC, Inc.                                  13,533,000                    677,000       9/15/2011              29,822,000
     Florida Business BancGroup, Inc.                        9,495,000                    475,000       9/22/2011              15,360,000
     FNB Bancorp                                            12,000,000                    600,000       9/15/2011              12,600,000
     Fortune Financial Corporation                           3,100,000                    155,000       9/15/2011               3,255,000
     Grand Capital Corporation                               4,000,000                    200,000        9/8/2011               5,200,000
     GrandSouthBancorporationa                              15,319,000                    450,000        9/8/2011              15,422,000
     Great Southern Bancorp                                 58,000,000               6,436,364          8/18/2011              57,943,000
     Guaranty Bancorp, Inc.                                  6,920,000                    346,000       9/15/2011               7,000,000
     Gulfstream Bancshares, Inc.                             7,500,000                    375,000       8/18/2011               7,500,000
     Heartland Financial USA, Inc.                          81,698,000               1,800,000          9/15/2011              81,698,000
     Heritage Bankshares, Inc.                              10,103,000                    303,000       8/11/2011               7,800,000
     Highlands Bancorp, Inc.   a
                                                             5,450,000                    155,000       9/22/2011               6,853,000
     Horizon Bancorp                                        25,000,000               1,750,551          8/25/2011              12,500,000
     Howard Bancorp, Inc.                                    5,983,000                    299,000       9/22/2011              12,562,000
                                                                                                                     Continued on next page
                                                                             quarterly report to congress I July 25, 2012           93




CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF        (Continued)

                                          CPP Principal           CPP Warrant                                     SBLF Principal
Institution                                 Investment    Disposition Proceeds           TARP Exit Date              Investment
Illinois State Bancorp, Inc.a              $10,272,000               $406,000                9/22/2011              $13,368,000
Katahdin Bankshares Corp.                   10,449,000                   522,000             8/18/2011                11,000,000
Liberty Bancshares, Inc. (AR)               57,500,000              2,875,000                7/21/2011                52,500,000
Liberty Bancshares, Inc. (MO)               21,900,000              1,095,000                8/18/2011                22,995,000
Magna Bank                                  13,795,000                   690,000             8/18/2011                18,350,000
McLeod Bancshares, Inc.                      6,000,000                   300,000             8/18/2011                 6,000,000
Medallion Bank  a
                                            21,498,000                   645,000             7/21/2011                26,303,000
Mercantile Capital Corp.                     3,500,000                   175,000              8/4/2011                 7,000,000
Merchants and Manufacturers Bank
                                             3,510,000                   176,000              9/8/2011                 6,800,000
Corporation
Merchants and Planters Bancshares, Inc.      1,881,000                    94,000              9/8/2011                 2,000,000
MidSouth Bancorp, Inc.                      20,000,000                   206,557             8/25/2011                32,000,000
Moneytree Corporation                        9,516,000                   476,000             9/15/2011                 9,992,000
Monument Bank                                4,734,000                   237,000             8/11/2011                11,355,000
MutualFirst Financial, Inc.                 32,382,000                   900,194             8/25/2011                28,923,000
New Hampshire Thrift Bancshares, Inc.       10,000,000                   737,100             8/25/2011                20,000,000
Nicolet Bankshares, Inc.                    14,964,000                   748,000              9/1/2011                24,400,000
Northway Financial, Inc.                    10,000,000                   500,000             9/15/2011                23,593,000
Oak Valley Bancorp                          13,500,000                   560,000             8/11/2011                13,500,000
Pacific Coast Bankers’ Bancshares           11,600,000                   580,000             7/28/2011                11,960,000
Pathfinder Bancorp, Inc.                     6,771,000                   537,633              9/1/2011                13,000,000
Penn Liberty Financial Corp.                 9,960,000                   498,000              9/1/2011                20,000,000
Peoples Bancorp                             18,000,000                   900,000              8/4/2011                18,000,000
PFSB Bancorporation, Inc.                    1,500,000                    71,000             8/25/2011                 1,500,000
PlainsCapital Corporation                   87,631,000              4,382,000                9/27/2011              114,068,000
Providence Bank                              4,000,000                   175,000             9/15/2011                 4,250,000
Puget Sound Bank                             4,500,000                   225,000             8/11/2011                 9,886,000
QCR Holdings, Inc.                          38,237,000              1,100,000                9/15/2011                40,090,000
Redwood Capital Bancorp                      3,800,000                   190,000             7/21/2011                 7,310,000
Redwood Financial, Inc.                      2,995,000                   150,000             8/18/2011                 6,425,000
Regent Capital Corporation                   2,655,000                   133,000             7/21/2011                 3,350,000
Salisbury Bancorp, Inc.                      8,816,000                   205,000             8/25/2011                16,000,000
SBT Bancorp, Inc.                            4,000,000                   200,000             8/11/2011                 9,000,000
Seacoast Commerce Bank                       1,800,000                    90,000              9/1/2011                 4,000,000
Security Business Bancorp                    5,803,000                   290,000             7/14/2011                 8,944,500
Security California Bancorp                  6,815,000                   341,000             9/15/2011                 7,200,000
Security State Bancshares, Inc.             12,500,000                   625,000             9/22/2011                22,000,000
                                                                                                           Continued on next page
94               special inspector general I troubled asset relief program




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                                                  (Continued)

                                                                              CPP Principal                     CPP Warrant                                                      SBLF Principal
     Institution                                                                Investment              Disposition Proceeds                  TARP Exit Date                        Investment
     Southern Heritage Bancshares, Inc.                                           $4,862,000                             $243,000                     9/8/2011                        $5,105,000
     Southern Illinois Bancorp, Inc.                                                5,000,000                              250,000                  8/25/2011                          9,000,000
     Southern Missouri Bancorp, Inc.           b
                                                                                    9,550,000                                                       7/21/2011                         20,000,000
     Sovereign Bancshares, Inc.                                                   18,215,000                               911,000                  9/22/2011                         24,500,000
     Steele Street Bank Corporation                                               11,019,000                               331,000                    9/1/2011                        11,350,000
     Stewardship Financial Corporation                                            10,000,000                               107,398                    9/1/2011                        15,000,000
     Summit State Bank                                                              8,500,000                              315,000                    8/4/2011                        13,750,000
     Sword Financial Corporation                                                  13,644,000                               682,000                  9/15/2011                         17,000,000
     TCB Corporation                                                                9,720,000                              292,000                    9/8/2011                         8,640,000
     The ANB Corporation                                                          20,000,000                            1,000,000                   8/25/2011                         37,000,000
     The Elmira Savings Bank, FSBb                                                  9,090,000                                                       8/25/2011                         14,063,000
     The Landrum Company                                                          15,000,000                               750,000                  8/18/2011                         20,000,000
     The Private Bank of California                                                 5,450,000                              273,000                    9/1/2011                        10,000,000
     The State Bank of Bartley                                                      1,697,000                               51,000                  9/22/2011                          2,380,000
     The Victory Bancorp, Inc.a                                                     2,046,000                               61,000                  9/22/2011                          3,431,000
     TowneBankb                                                                   76,458,000                                                        9/22/2011                         76,458,000
     Triad Bancorp, Inc.                                                            3,700,000                              185,000                  9/22/2011                          5,000,000
     Tri-County Financial Corporation                                             15,540,000                               777,000                  9/22/2011                         20,000,000
     Two Rivers Financial Group, Inc.                                             12,000,000                               600,000                    9/1/2011                        23,240,000
     UBT Bancshares, Inc.                                                           8,950,000                              450,000                  8/11/2011                         16,500,000
     Union Bank & Trust Company            a
                                                                                    6,191,000                              160,000                  9/22/2011                          6,200,000
     United Financial Banking Companies, Inc.                                       5,658,000                              283,000                  9/15/2011                          3,000,000
     Valley Financial Group, Ltd.                                                   1,300,000                               65,000                  9/22/2011                          2,000,000
     Veritex Holdings, Inc.(Fidelity Resources
                                                                                    3,000,000                              150,000                  8/25/2011                          8,000,000
     Company)
     W.T.B. Financial Corporation                                               110,000,000                             5,500,000                   9/15/2011                         89,142,000
     WashingtonFirst Bankshares, Inc.              a
                                                                                  13,475,000                               332,000                    8/4/2011                        17,796,000
     Western Alliance Bancorporation                                            140,000,000                                415,000                  9/27/2011                       141,000,000
     York Traditions Bank                                                           4,871,000                              244,000                  7/14/2011                          5,115,000
     Total                                                                $2,240,465,000                           $77,321,409                                                $2,689,763,790
     Notes: Banks are not required to repurchase warrants from Treasury that were provided as a condition of receiving funds under CPP.
     a
       	Institution received multiple investments under CPP.
     b
       	As of the drafting of this report, Treasury still held warrants to purchase common stock in this institution.

     Sources: Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20
     Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012; Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/DocumentsSBLFTransactions/
     SBLF_Bi-Weekly_Transactions_Report_THRU_09272011.pdf, accessed 6/29/2012.
                                                                                   quarterly report to congress I July 25, 2012                                 95




Program Administration                                                                        Table 2.22
Although Treasury’s investment authority for CPP has ended, Treasury still has                 Missed dividend/interest
significant responsibilities for managing the existing CPP portfolio, including the            payments by QFIS,
following:                                                                                     9/30/2009 to 6/30/2012
                                                                                               ($ millions)

                                                                                                                                           Value of
•	 collecting dividends and interest payments on outstanding investments                      Quarter                   Number              Unpaid
•	 monitoring the performance of outstanding investments                                      End                        of QFIs         Amountsa,b,c
•	 disposing of warrants as investments are repaid                                            9/30/2009                          38                $75.7
•	 selling or restructuring Treasury’s investment in some troubled financial                  12/31/2009                         43                137.4
   institutions                                                                               3/31/2010                          67                182.0
•	 selecting observers for recipients that have missed five quarterly dividend                6/30/2010        d
                                                                                                                               109                 209.7
   payments                                                                                   9/30/2010                        137                 211.3
•	 potentially selecting directors for recipients that have missed six or more
                                                                                              12/31/2010                       155                 276.4
   quarterly dividend payments
                                                                                              3/31/2011                        173                 277.3
                                                                                              6/30/2011                        188                 320.8
Dividends and Interest
As of June 30, 2012, Treasury had received $11.7 billion in dividends on its CPP              9/30/2011                        193                 356.9

investments.293 However, as of that date, 203 QFIs had unpaid dividend or interest            12/31/2011                       197                 377.0
payments to Treasury totaling approximately $455 million, an increase from the                3/31/2012                        200                 416.0
200 QFIs that had unpaid dividend (or interest) payments totaling approximately               6/30/2012                        203                 455.0
$416 million as of March 31, 2012. Approximately $21.1 million of the unpaid                  Notes:
                                                                                              a
                                                                                               	Includes unpaid cumulative dividends, non-cumulative
amounts are non-cumulative, meaning that the institution has no legal obligation                 dividends, and Subchapter S interest payments
                                                                                                 but does not include interest accrued on unpaid
to pay Treasury unless the institution declares a dividend.294 Table 2.22 shows the              cumulative dividends.
number of QFIs and total unpaid amount of dividend and interest payments by                   b
                                                                                                	Excludes institutions that missed payments but (i) had
                                                                                                 fully caught up on missed payments at the end of the
quarter from September 30, 2009, to June 30, 2012.                                               quarter reported in column 1 or (ii) had repaid their
                                                                                                 investment amounts and exited CPP.
                                                                                              c
                                                                                                	Includes institutions that missed payments and
                                                                                                  (i) entered into a recapitalization or restructuring
Treasury’s Policy on Missed Dividend and Interest Payments                                        with Treasury, (ii) for which Treasury sold the CPP
                                                                                                  investment to a third party or otherwise disposed of
According to Treasury, it “evaluates its CPP investments on an ongoing basis with                 the investment to facilitate the sale of the institution to
                                                                                                  a third party without receiving full repayment of unpaid
the help of outside advisors, including external asset managers. The external asset               dividends, (iii) filed for bankruptcy relief, or (iv) had a
managers provide a valuation for each CPP investment” that results in Treasury                    subsidiary bank fail.
                                                                                              d
                                                                                                	Includes four QFIs and their missed payments not
assigning the institution a credit score.295 For those that have unfavorable credit              reported in Treasury’s Capital Purchase Program
                                                                                                 Missed Dividends & Interest Payments Report as of
scores, including any institution that has missed more than three dividend (or                   6/30/2010 but reported in Treasury’s Dividends and
                                                                                                 Interest Report as of the same date. The four QFIs are
interest) payments, Treasury has stated that the “asset manager dedicates more                   CIT, Pacific Coast National Bancorp, UCBH Holdings,
                                                                                                 Inc., and Midwest Banc Holdings, Inc.
resources to monitoring the institution and may talk to the institution on a more
frequent basis.”296                                                                           Sources: Treasury, Dividends and Interest Report,
                                                                                              7/11/2012; Treasury, responses to SIGTARP
    Under the terms of the preferred shares or subordinated debentures held by                data calls, 10/7/2009, 1/12/2010, 4/8/2010,
                                                                                              6/30/2010, 10/11/2011,1/5/2012, 4/5/2012,
Treasury as a result of its CPP investments, in certain circumstances, such as                7/5/2012, and 7/10/2012; SIGTARP Quarterly Report
                                                                                              to Congress, 1/30/2010, 4/20/2010, 7/21/2010,
when a participant misses six dividend (or interest) payments, Treasury has the               and 10/26/2010.
right to appoint up to two additional members to the institution’s board of direc-
tors.297 Treasury has stated that it will prioritize the institutions for which it ap-
points directors based on “the size of its investment, Treasury’s assessment of the
extent to which new directors may make a contribution and Treasury’s ability to
find appropriate directors for a given institution.”298 These directors will not repre-
sent Treasury, but rather will have the same fiduciary duties to shareholders as all
other directors. They will be compensated by the institution in a manner similar to
96   special inspector general I troubled asset relief program




                                            other directors.299 Treasury has engaged an executive search firm to identify suit-
                                            able candidates for board of directors’ positions and has begun interviewing such
                                            candidates.300
                                                According to Treasury, it continues to prioritize institutions for nominating
                                            directors in part based on whether its investment exceeds $25 million.301 When
                                            Treasury’s right to nominate a new board member becomes effective, it evaluates
                                            the institution’s condition and health and the functioning of its board to determine
                                            whether additional directors are necessary.302 As of June 30, 2012, Treasury had
                                            made director appointments to the boards of directors of 11 CPP banks.303
                                                According to Treasury, on April 19, 2012, it appointed James Kane to the board
                                            of Bridgeview Bancorp, Inc., Bridgeview, Illinois (“Bridgeview”).304 Bridgeview
                                            received $38 million under CPP and had missed nine quarterly dividend payments
                                            prior to the director appointment.305
                                                According to Treasury, on April 25, 2012, it appointed Dennis Battles to the
                                            board of Centrue Financial Corporation, St. Louis, Missouri (“Centrue”).306
                                            Centrue received $32.7 million under CPP and had missed 12 quarterly dividend
                                            payments prior to the director appointment.307
                                                According to Treasury, on June 12, 2012, it appointed Randall Howard to the
                                            board of First Trust Corporation, New Orleans, Louisiana (“First Trust”).308 First
                                            Trust received $18 million under CPP and had missed nine quarterly dividend pay-
                                            ments prior to the director appointment.309
                                                For institutions that miss five or more dividend (or interest) payments, Treasury
                                            has stated that it would seek consent from such institutions to send observers to
                                            the institutions’ board meetings.310 According to Treasury, the observers would be
                                            selected from the Office of Financial Stability (“OFS”) and assigned to “gain a bet-
                                            ter understanding of the institution’s condition and challenges and to observe how
                                            the board is addressing the situation.”311 Their participation would be “limited to
                                            inquiring about distributed materials, presentations, and actions proposed or taken
                                            during the meetings, as well as addressing any questions concerning” their role.312
                                            The findings of the observers are taken into account when Treasury evaluates
                                            whether to appoint individuals to an institution’s board of directors.313 As of June
                                            30, 2012, Treasury had assigned observers to 49 current CPP recipients.314
                                                SIGTARP and Treasury do not use the same methodology to report unpaid
                                            dividend and interest payments. For example, Treasury generally excludes institu-
                                            tions from its “non-current” reporting: (i) that have completed a recapitalization,
                                            restructuring, or exchange with Treasury (though Treasury does report such institu-
                                            tions as non-current during the pendency of negotiations); (ii) for which Treasury
                                            sold the CPP investment to a third party, or otherwise disposed of the investment
                                            to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
                                            relief; or (iv) that had a subsidiary bank fail.315 SIGTARP generally includes such
                                            activity in Table 2.23 under “Value of Unpaid Amounts” with the value set as of
                                            the date of the bankruptcy, restructuring, or other event that relieves the institu-
                                            tion of the legal obligation to continue to make dividend and interest payments. If
                                            a completed transaction resulted in payment to Treasury for all unpaid dividends
                                            and interest, SIGTARP does not include the institution’s obligations under unpaid
                                                                               quarterly report to congress I July 25, 2012   97




amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
have “caught up” by making previously missed dividend and interest payments.316
According to Treasury, as of June 30, 2012, 117 QFIs had missed at least six divi-
dend (or interest) payments (up from 101 last quarter) and 23 banks had missed
five dividend (or interest) payments totaling $413 million.317 Table 2.23 lists CPP
recipients that had unpaid dividend (or interest) payments as of June 30, 2012. For
a complete list of CPP recipients and institutions making dividend or interest pay-
ments, see Appendix D: “Transaction Detail.”
98            special inspector general I troubled asset relief program




     Table 2.23
      CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012
                                                                                      Observer
                                                                           Number     Assigned
                                               Dividend or                of Missed to Board of   Value of Missed        Value of Unpaid
      Company                                  Payment type               Payments   Directors1        Payments2             Amounts2,3,4
      Saigon National Bank                     Non-Cumulative                   14                      $286,423                $286,423
      Anchor BanCorp Wisconsin, Inc.           Cumulative                       13       n            18,104,167              18,104,167
      Blue Valley Ban Corp                     Cumulative                       13                     3,534,375               3,534,375
      Lone Star Bank                           Non-Cumulative                   13       ü               548,432                 548,432
      OneUnited Bank                           Non-Cumulative                   13       ü             1,960,238               1,960,238
      United American Bank                     Non-Cumulative                   13                     1,534,402               1,534,402
      Centrue Financial Corporation            Cumulative                       12       n             4,900,200               4,900,200
      Dickinson Financial Corporation II       Cumulative                       12       ü            23,879,760              23,879,760
      First Banks, Inc.                        Cumulative                       12       n            48,297,900              48,297,900
      Georgia Primary Bank                     Non-Cumulative                   12       ü               745,288                 745,288
      Grand Mountain Bancshares, Inc.          Cumulative                       12       ü               496,460                 496,460
      Idaho Bancorp                            Cumulative                       12       ü             1,128,150               1,128,150
      Pacific City Financial Corporation       Cumulative                       12                     2,648,700               2,648,700
      Premier Service Bank                     Non-Cumulative                   12       ü               650,972                 650,972
      Royal Bancshares of Pennsylvania, Inc.   Cumulative                       12       n             4,561,050               4,561,050
      Citizens Commerce Bancshares, Inc.       Cumulative                       11                       944,213                 944,213
      FC Holdings, Inc.                        Cumulative                       11       ü             3,153,645               3,153,645
      Northern States Financial Corporation    Cumulative                       11       ü             2,366,513               2,366,513
      Omega Capital Corp.                      Cumulative                       11                       422,098                 422,098
      Pathway Bancorp                          Cumulative                       11                       558,498                 558,498
      Premierwest Bancorp                      Cumulative                       11       n             5,692,500               5,692,500
      Ridgestone Financial Services, Inc.      Cumulative                       11       ü             1,633,638               1,633,638
      Rising Sun Bancorp                       Cumulative                       11                       896,665                 896,665
      Rogers Bancshares, Inc.                  Cumulative                       11       n             3,746,875               3,746,875
      Syringa Bancorp                          Cumulative                       11       ü             1,199,000               1,199,000
      Alliance Financial Services, Inc. *
                                               Interest                         10                     2,517,000               2,517,000
      BNCCORP, Inc.                            Cumulative                       10       ü             2,737,750               2,737,750
      Cecil Bancorp, Inc.                      Cumulative                       10       ü             1,445,000               1,445,000
      Central Virginia Bankshares, Inc.        Cumulative                       10                     1,423,125               1,423,125
      Citizens Bancshares Co. (MO)             Cumulative                       10       ü             3,405,000               3,405,000
      Citizens Republic Bancorp, Inc.          Cumulative                       10       n            37,500,000              37,500,000
      City National Bancshares Corporation     Cumulative                       10                     1,179,875               1,179,875
      Community 1st Bank                       Non-Cumulative                   10                       323,994                 323,994
      Fidelity Federal Bancorp                 Cumulative                       10                       879,074                 879,074
      First Security Group, Inc.               Cumulative                       10       n             4,125,000               4,125,000
      First Sound Bank                         Non-Cumulative                   10                       925,000                 925,000
      First Southwest Bancorporation, Inc.     Cumulative                       10                       749,375                 749,375
      Intermountain Community Bancorp          Cumulative                       10                     3,375,000               3,375,000
                                                                                                                    Continued on next page
                                                                            quarterly report to congress I July 25, 2012            99




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012              (Continued)

                                                                    Observer
                                                         Number     Assigned
                                       Dividend or      of Missed to Board of         Value of Missed           Value of Unpaid
Company                                Payment type     Payments   Directors1              Payments2                Amounts2,3,4
Intervest Bancshares Corporation       Cumulative             10       n                      $3,125,000             $3,125,000
Investors Financial Corporation of
                                       Interest               10                                839,000                 839,000
Pettis County, Inc.*
Monarch Community Bancorp, Inc.        Cumulative             10                                848,125                 848,125
Tennessee Valley Financial
                                       Cumulative             10                                408,750                 408,750
Holdings, Inc.
U.S. Century Bank                      Non-Cumulative         10       ü                       6,844,700              6,844,700
Bridgeview Bancorp, Inc.               Cumulative              9      n,ü                      4,659,750              4,659,750
Commonwealth Business Bank             Non-Cumulative          9                                944,325                 944,325
First Community Bancshares, Inc (KS)   Cumulative              9       ü                       1,814,850              1,814,850
First Trust Corporation*               Interest                9      n,ü                      3,391,958              3,391,958
Gold Canyon Bank                       Non-Cumulative          9                                190,508                 190,508
Goldwater Bank, N.A.  **
                                       Non-Cumulative          9                                384,780                 314,820
Gregg Bancshares, Inc.                 Cumulative              9                                101,115                 101,115
Madison Financial Corporation          Cumulative              9                                413,348                 413,348
Midtown Bank & Trust Company     **
                                       Non-Cumulative          9                                711,475                 640,328
Millennium Bancorp, Inc.**             Cumulative              9                                989,175                 890,258
Northwest Bancorporation, Inc.         Cumulative              9       ü                       1,287,563              1,287,563
Patapsco Bancorp, Inc.                 Cumulative              9                                735,750                 735,750
Plumas Bancorp                         Cumulative              9       ü                       1,344,263              1,344,263
Prairie Star Bancshares, Inc.          Cumulative              9                                343,350                 343,350
Premier Bank Holding Company           Cumulative              9                               1,164,938              1,164,938
Santa Clara Valley Bank, N.A.          Non-Cumulative          9                                355,613                 355,613
Stonebridge Financial Corp.            Cumulative              9       ü                       1,345,635              1,345,635
TCB Holding Company                    Cumulative              9       ü                       1,438,493              1,438,493
1st FS Corporation                     Cumulative              8       ü                       1,636,900              1,636,900
BNB Financial Services Corporation     Cumulative              8                                817,500                 817,500
Boscobel Bancorp, Inc*                 Interest                8                                937,248                 937,248
Capital Commerce Bancorp, Inc.         Cumulative              8                                555,900                 555,900
Harbor Bankshares Corporation**        Cumulative              8                                850,000                 680,000
Market Bancorporation, Inc.            Cumulative              8                                224,540                 224,540
Pacific International Bancorp Inc      Cumulative              8                                650,000                 650,000
Pinnacle Bank Holding Company          Cumulative              8                                478,320                 478,320
Premier Financial Corp *
                                       Interest                8                               1,065,238              1,065,238
Provident Community Bancshares, Inc.   Cumulative              8                                926,600                 926,600
The Queensborough Company              Cumulative              8       ü                       1,308,000              1,308,000
Western Community Bancshares, Inc.     Cumulative              8                                794,700                 794,700
                                                                                                           Continued on next page
100            special inspector general I troubled asset relief program




      CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012                           (Continued)

                                                                                       Observer
                                                                            Number     Assigned
                                             Dividend or                   of Missed to Board of         Value of Missed           Value of Unpaid
      Company                                Payment type                  Payments   Directors1              Payments2                Amounts2,3,4
      Bankers’ Bank of the West
                                             Cumulative                           7       ü                      $1,549,868             $1,205,453
      Bancorp, Inc.
      CalWest Bancorp                        Cumulative                           7                                444,098                 444,098
      Central Federal Corporation            Cumulative                           7                                632,188                 632,188
      CSRA Bank Corp.                        Cumulative                           7                                228,900                 228,900
      First Financial Service Corporation    Cumulative                           7       ü                       1,750,000              1,750,000
      First United Corporation               Cumulative                           7       ü                       2,625,000              2,625,000
      Florida Bank Group, Inc.               Cumulative                           7       ü                       1,952,493              1,952,493
      Great River Holding Company    *
                                             Interest                             7                               1,233,330              1,233,330
      Liberty Shares, Inc.                   Cumulative                           7       ü                       1,648,080              1,648,080
      Marine Bank & Trust Company            Non-Cumulative                       7                                286,125                 286,125
      Old Second Bancorp, Inc.               Cumulative                           7       ü                       6,387,500              6,387,500
      Pacific Commerce Bank**                Non-Cumulative                       7                                419,184                 363,866
      Private Bancorporation, Inc.           Cumulative                           7                                758,485                 758,485
      Regent Bancorp, Inc**                  Cumulative                           7                               1,088,020                952,018
      Spirit BankCorp, Inc.                  Cumulative                           7       ü                       2,861,250              2,861,250
      Tidelands Bancshares, Inc              Cumulative                           7       ü                       1,264,200              1,264,200
      Bank of the Carolinas Corporation      Cumulative                           6       ü                        988,425                 988,425
      Coastal Banking Company, Inc.          Cumulative                           6                                746,250                 746,250
      Community Financial Shares, Inc.       Cumulative                           6                                569,865                 474,888
      Eastern Virginia Bankshares, Inc.      Cumulative                           6       ü                       1,800,000              1,800,000
      Greer Bancshares Incorporated          Cumulative                           6                                816,975                 816,975
      HCSB Financial Corporation             Cumulative                           6       ü                        967,125                 967,125
      Highlands Independent
                                             Cumulative                           6                                547,725                 547,725
      Bancshares, Inc.
      HMN Financial, Inc.                    Cumulative                           6       ü                       1,950,000              1,950,000
      Monadnock Bancorp, Inc.                Cumulative                           6                                149,970                 149,970
      Naples Bancorp, Inc.                   Cumulative                           6                                327,000                 327,000
      National Bancshares, Inc.              Cumulative                           6       ü                       2,016,255              2,016,255
      Patriot Bancshares, Inc.               Cumulative                           6       ü                       2,128,620              2,128,620
      Princeton National Bancorp, Inc.       Cumulative                           6       ü                       1,881,225              1,881,225
      Reliance Bancshares, Inc.              Cumulative                           6       ü                       3,270,000              3,270,000
      Security State Bank Holding-Company*   Interest                             6       ü                       2,029,487              1,352,991
      SouthCrest Financial Group, Inc.       Cumulative                           6       ü                       1,054,575              1,054,575
      Southern Community Financial Corp.     Cumulative                           6       ü                       3,206,250              3,206,250
      White River Bancshares Company         Cumulative                           6                               1,373,400              1,373,400
      AB&T Financial Corporation             Cumulative                           5                                218,750                 218,750
      Atlantic Bancshares, Inc.              Cumulative                           5                                136,025                 136,025
                                                                                                                              Continued on next page
                                                                             quarterly report to congress I July 25, 2012              101




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012                 (Continued)

                                                                       Observer
                                                            Number     Assigned
                                          Dividend or      of Missed to Board of         Value of Missed           Value of Unpaid
Company                                   Payment type     Payments   Directors1              Payments2                Amounts2,3,4
Metropolitan Bank Group, Inc (Archer
                                          Cumulative              5                              $7,959,128             $5,035,523
Bank)***
Bank of George                            Non-Cumulative          5                                182,075                 182,075
BCB Holding Company, Inc.                 Cumulative              5                                116,188                 116,188
Carrollton Bancorp                        Cumulative              5                                575,063                 575,063
Central Bancorp, Inc.                     Cumulative              5                               1,532,813              1,532,813
Citizens Bank & Trust Company             Non-Cumulative          5                                163,500                 163,500
Clover Community Bankshares, Inc.         Cumulative              5                                204,375                 204,375
CoastalSouth Bancshares, Inc.             Cumulative              5                               1,054,938              1,054,938
Community Bankers Trust Corporation       Cumulative              5                               1,547,000              1,105,000
Community First, Inc.                     Cumulative              5                               1,213,000                970,400
Community Pride Bank Corporation      *
                                          Interest                5                                446,270                 446,270
First Place Financial Corp.               Cumulative              5                               4,557,938              4,557,938
Mid-Wisconsin Financial Services, Inc.    Cumulative              5                                681,250                 681,250
Suburban Illiniois Bancorp, Inc.*         Interest                5                               1,573,125              1,573,125
Timberland Bancorp, Inc.                  Cumulative              5                               1,664,100                691,910
Valley Community Bank                     Non-Cumulative          5                                374,688                 374,688
Village Bank and Trust Financial Corp.    Cumulative              5                                921,125                 921,125
Yadkin Valley Financial Corporation       Cumulative              5                               3,082,000              3,082,000
Allied First Bancorp, Inc.                Cumulative              4                                199,070                 199,070
Brogan Bankshares, Inc.      *
                                          Interest                4                                201,360                 201,360
Coloeast Bankshares, Inc.                 Cumulative              4                                545,000                 545,000
First Intercontinental Bank               Non-Cumulative          4                                348,700                 348,700
GulfSouth Private Bank                    Non-Cumulative          4                                395,250                 395,250
Maryland Financial Bank                   Non-Cumulative          4                                 92,650                  92,650
NCAL Bancorp                              Cumulative              4                                545,000                 545,000
RCB Financial Corporation                 Cumulative              4                                469,120                 469,120
Southwest Bancorp, Inc.                   Cumulative              4                               3,500,000              3,500,000
Standard Bancshares, Inc.                 Cumulative              4                               3,270,000              3,270,000
The Connecticut Bank and Trust
                                          Non-Cumulative          4                                246,673                      N/A
Company
Bank of Commerce                          Non-Cumulative          3                                122,625                 122,625
Carolina Trust Bank                       Non-Cumulative          3                                150,000                 150,000
Delmar Bancorp                            Cumulative              3                                367,875                 367,875
First Reliance Bancshares, Inc.           Cumulative              3                                627,360                 627,360
Indiana Bank Corp.                        Cumulative              3                                 53,655                  53,655
Northwest Commercial Bank                 Non-Cumulative          3                                 81,450                  81,450
Porter Bancorp, Inc.                      Cumulative              3                               1,312,500              1,312,500
Randolph Bank & Trust Company             Non-Cumulative          3                                254,580                 254,580
                                                                                                              Continued on next page
102            special inspector general I troubled asset relief program




      CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012                           (Continued)

                                                                                       Observer
                                                                            Number     Assigned
                                                     Dividend or           of Missed to Board of         Value of Missed           Value of Unpaid
      Company                                        Payment type          Payments   Directors1              Payments2                Amounts2,3,4
      Alarion Financial Services, Inc.               Cumulative                   2                               $177,520                $177,520
      Blue Ridge Bancshares, Inc.                    Cumulative                   2                                327,000                 327,000
      Carolina Bank Holdings, Inc.        **
                                                     Cumulative                   2                                800,000                 400,000
      Colony Bankcorp, Inc.                          Cumulative                   2                                700,000                 700,000
      Flagstar Bancorp, Inc.                         Cumulative                   2                               6,666,425              6,666,425
      Fresno First Bank                              Non-Cumulative               2                                 33,357                  33,357
      Ojai Community Bank                            Non-Cumulative               2                                 56,680                  56,680
      SouthFirst Bancshares, Inc.                    Cumulative                   2                                 75,210                  75,210
      US Metro Bank**                                Non-Cumulative               2                                159,818                  77,960
      Worthington Financial Holdings, Inc.           Cumulative                   2                                 74,120                  74,120
      BancTrust Financial Group, Inc.                Cumulative                   1                                625,000                 625,000
      Community West Bancshares                      Cumulative                   1                                195,000                 195,000
      Exchange Bank                                  Non-Cumulative               1                                585,875                 585,875
      OneFinancial Corporation      *
                                                     Interest                     1                                351,000                 351,000
      Plato Holdings Inc.*                           Interest                     1                                 51,817                  51,817
      Severn Bancorp, Inc.                           Cumulative                   1                                292,413                 292,413
      Exchanges, Sales,
      Recapitalizations, and Failed
      Banks with Missing Payments
      Independent Bank Corporation***,9              Cumulative                   9       ü                       9,542,371              7,742,371
      Citizens Bancorp****                           Cumulative                   9                               1,275,300              1,275,300
      Broadway Financial Corporation           ***
                                                     Cumulative                   8       ü                       1,500,000              1,500,000
      One Georgia Bank    ****
                                                     Non-Cumulative               8                                605,328                 605,328
      Integra Bank Corporation****                   Cumulative                   7                               7,313,775              7,313,775
      Cascade Financial Corporation*****             Cumulative                   7                               3,409,875              3,409,875
      Fort Lee Federal Savings Bank****              Non-Cumulative               6                                106,275                 106,275
      FPB Bancorp, Inc. (FL)     ****
                                                     Cumulative                   6                                435,000                 435,000
      Central Pacific Financial Corp.***,9           Cumulative                   6                              10,125,000             10,125,000
      FNB United Corp.***                            Cumulative                   6                               3,862,500                      —
      First Federal Bancshares of Arkansas,
                                                     Cumulative                   5                               1,031,250              1,031,250
      Inc.*****
      First BanCorp (PR)***                          Cumulative                   5       ü                      42,681,526                      —
      Pacific Capital Bancorp     ***,9
                                                     Cumulative                   5       ü                      13,547,550                      —
      CB Holding Corp.  ****
                                                     Cumulative                   4                                224,240                 224,240
      Pierce County Bancorp****                      Cumulative                   4                                370,600                 370,600
      First Community Bank Corporation of
                                                     Cumulative                   4                                534,250                 534,250
      America*****
      Green Bankshares, Inc.*****                    Cumulative                   4                               3,613,900              3,613,900
      Santa Lucia Bancorp*****                       Cumulative                   4                                200,000                 200,000
      Community Bank of the Bay           6
                                                     Non-Cumulative               4                                 72,549                  72,549
                                                                                                                              Continued on next page
                                                                                                                               quarterly report to congress I July 25, 2012                                103




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2012                                                                    (Continued)

                                                                                                             Observer
                                                                                                  Number     Assigned
                                                        Dividend or                              of Missed to Board of                         Value of Missed                     Value of Unpaid
Company                                                 Payment type                             Payments   Directors1                              Payments2                          Amounts2,3,4
The Bank of Currituck*****                              Non-Cumulative                                       4                                           $219,140                            $219,140
Hampton Roads Bankshares, Inc.***                       Cumulative                                           4                                          4,017,350                           4,017,350
Sterling Financial Corporation (WA)***,9                Cumulative                                           4                                        18,937,500                          18,937,500
Midwest Banc Holdings, Inc.5                            Cumulative                                           4                                          4,239,200                           4,239,200
TIB Financial Corp       *****,7
                                                        Cumulative                                           4                                          1,850,000                           1,850,000
Blue River Bancshares, Inc.****                         Cumulative                                           3           ü                                 204,375                            204,375
Legacy Bancorp, Inc.          ****
                                                        Cumulative                                           3                                             206,175                            206,175
Sonoma Valley Bancorp              ****
                                                        Cumulative                                           3                                             353,715                            353,715
Superior Bancorp Inc.****                               Cumulative                                           3                                          2,587,500                           2,587,500
Tennessee Commerce Bancorp,
                                                        Cumulative                                           3                                          1,125,000                           1,125,000
Inc.****
Commerce National Bank*****                             Non-Cumulative                                       3                                             150,000                            150,000
Treaty Oak Bancorp, Inc.*****                           Cumulative                                           3                                             135,340                            135,340
The South Financial Group, Inc.              *****,7
                                                        Cumulative                                           3                                        13,012,500                          13,012,500
CIT Group Inc.****,8                                    Cumulative                                           2                                        29,125,000                          29,125,000
Pacific Coast National Bancorp               ****
                                                        Cumulative                                           2                                             112,270                            112,270
Colonial American Bank*****                             Non-Cumulative                                       2                                              15,655                              15,655
FBHC Holding Company               *,*****
                                                        Interest                                             2                                             123,127                            123,127
Gateway Bancshares, Inc.*****                           Cumulative                                           2                                             163,500                            163,500
Cadence Financial Corporation                *****
                                                        Cumulative                                           2                                             550,000                            550,000
Metropolitan Bank Group, Inc. (NC
                                                        Cumulative                                           1                                          1,400,225                           1,119,005
Bancorp, Inc.)***
Tifton Banking Company****                              Non-Cumulative                                       1                                              51,775                              51,775
UCBH Holdings, Inc.****                                 Cumulative                                           1                                          3,734,213                           3,734,213
Total                                                                                                                                            $524,276,922                        $455,077,966
Notes: Numbers may not total due to rounding. Approximately $21.1 million of the $455 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n
    Treasury has appointed one or more directors to the Board of Directors.

1
 	For First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to
   assign an observer to the board of directors.
2
 	Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
 	Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
   Program.
4
 	Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
   investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
 	For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
   amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
 	Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
 	For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
 	For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
   amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
 	Completed exchanges:
    - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
       amounts reflect the figures Treasury reported prior to the exchange.
    - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
       amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 7/11/2012; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, and 7/10/2012;
SIGTARP Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, 1/25/2012, 4/25/2012, and 7/25/2012.
104            special inspector general I troubled asset relief program




                                                      Warrant Disposition
                                                      As required by EESA, Treasury received warrants when it invested in troubled
      For more information on warrant                 assets from financial institutions, with an exception for certain small institutions.
      disposition, see SIGTARP’s audit
                                                      With respect to financial institutions with publicly traded securities, these warrants
      report of May 10, 2010, “Assessing
      Treasury’s Process to Sell Warrants             gave Treasury the right, but not the obligation, to purchase a certain number of
      Received from TARP Recipients.”                 shares of common stock at a predetermined price.318 Because the warrants rise in
                                                      value as a company’s share price rises, they permit Treasury (and the taxpayer) to
                                                      benefit from a firm’s potential recovery.319
                                                          For publicly traded institutions, the warrants received by Treasury under CPP
      Exercise Price: Preset price at which
                                                      allowed Treasury to purchase additional shares of common stock in a number
      a warrant holder may purchase each
                                                      equal to 15% of the value of the original CPP investment at a specified exercise
      share. For warrants in publicly traded
                                                      price.320 Treasury’s warrants constitute assets with a fair market value that Treasury
      institutions issued through CPP, this
                                                      estimates using relevant market quotes, financial models, and/or third-party valua-
      was based on the average stock price
                                                      tions.321 As of June 30, 2012, Treasury had not exercised any of these warrants.322
      during the 20 days before the date
                                                      For privately held institutions, Treasury received warrants to purchase additional
      that Treasury granted preliminary CPP
                                                      preferred stock or debt in an amount equal to 5% of the CPP investment. Treasury
      participation approval.
                                                      exercised these warrants immediately.323 Unsold and unexercised warrants expire 10
                                                      years from the date of the CPP investment.324

                                                      Repurchase of Warrants by Financial Institutions
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
                                                      to buy back its warrants. As of June 30, 2012, 108 publicly traded institutions had
                                                      bought back $3.8 billion worth of warrants, of which $51.1 million was purchased
                                                      this quarter. As of that same date, 106 privately held institutions, the warrants
                                                      of which had been immediately exercised, bought back the resulting additional
                                                      preferred shares for a total of $45.1 million, of which $1.3 million was bought back
                                                      this quarter.325 Table 2.24 lists publicly traded institutions that repaid TARP and
                                                      repurchased warrants in the quarter ended June 30, 2012. Table 2.25 lists privately
                                                      held institutions that had done so in the same quarter.326
                                                                                                                                quarterly report to congress I July 25, 2012   105




Table 2.24
 CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER ENDING 6/30/2012
                                                                                                                  Number of                 Amount of
                                                                                                                   Warrants                Repurchase
 Repurchase Date             Company                                                                            Repurchased              ($Thousands)
 5/2/2012                    Regions Financial Corporation                                                         48,253,677                  $45,000.0
 5/2/2012                    Park National Corporation                                                                  227,376                   2,842.4
 5/2/2012                    MB Financial, Inc.                                                                         506,024                   1,518.1
 4/19/2012                   The Connecticut Bank and Trust Companya                                                    175,742                      792.8
 6/20/2012                   Wilshire Bancorp, Inc.                                                                     949,460                      760.0
 4/4/2012                    Peapack-Gladstone Financial Corporation                                                    150,296                      110.0
 5/30/2012                   Seacoast Banking Corporation of Florida                                                    589,623                        55.0
 Total                                                                                                            50,852,198                 $51,078.3
 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   	Warrant sales to third parties.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011,
10/11/2011, 1/11/2012, 4/5/2012, and 7/9/2012.


Table 2.25
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING 6/30/2012
                                                                                                                  Number of                 Amount of
                                                                                                                   Warrants                Repurchase
 Repurchase Date             Company                                                                            Repurchased              ($Thousands)
 4/24/2012                   Peoples Bancorporation, Inc.                                                               633,000                    $633.0
 6/27/2012                   Beach Business Bank                                                                        300,000                      300.0
 4/13/2012                   Gateway Bancshares, Inc.                                                                   300,000                      300.0
 4/4/2012                    Titonka Bancshares, Inc.                                                                   106,000                      106.0
 Total                                                                                                              1,339,000                  $1,339.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
 non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
 underlying shares rather than millions of warrants of an individual financial institution.

 Sources: Treasury, Transactions Report, 6/27/2012; Treasury, response to SIGTARP data call, 7/9/2012.
106             special inspector general I troubled asset relief program




                                                       Treasury Warrant Auctions
      Dutch Auction: A type of auction in              If Treasury and the repaying QFI cannot agree upon the price for the institution
      which multiple bidders bid for different         to repurchase its warrants, Treasury may conduct a public or private offering
      quantities of the asset; the price the           to auction the warrants.327 As of June 30, 2012, the combined proceeds from
      seller accepts is set at the lowest bid          Treasury’s public and private warrant auctions totaled $5.4 billion.328
      of the group of high bidders whose
      collective bids fulfill the amount of            Public Warrant Auctions
      shares offered. As an example, three             In November 2009, Treasury began using a modified Dutch auction to sell the
      investors place bids to own a portion            warrants publicly.329 On the announced auction date, potential investors (which
      of 100 shares offered by the issuer:             may include the CPP recipient) submit bids to the auction agent that manages
                                                       the sale (for CPP-related warrants, Deutsche Bank) at specified increments above
      • Bidder A wants 50 shares at $4/               a minimum price set by Treasury.330 Once the auction agent receives all bids, it
         share.                                        determines the final price and distributes the warrants to the winning bidders.331
      • Bidder B wants 50 shares at $3/               Treasury did not conduct any public warrant auctions this quarter.332 Through
         share.                                        June 30, 2012, Treasury had held 24 public auctions for warrants it received under
      • Bidder C wants 50 shares at $2/               CPP, TIP, and AGP, raising a total of approximately $5.4 billion.333 Final closing
         share.                                        information for all public auctions is shown in Table 2.26.

      The seller selects Bidders A and B
      as the two highest bidders, and their
      collective bids consume the 100
      shares offered. The winning price is
      $3, which is what both bidders pay
      per share. Bidder C’s bid is not filled.
      Treasury uses a modified version of
      a Dutch Auction in the dispensation
      of its warrants and in some sales of
      preferred stock.

      Auction Agent: Firm (such as an
      investment bank) that buys a series of
      securities from an institution for resale.
                                                                                                                            quarterly report to congress I July 25, 2012                           107



TABLE 2.26
 PUBLIC TREASURY WARRANT AUCTIONS, AS OF 6/30/2012
                                                                                                         Number of               Minimum              Selling      Proceeds to Treasury
Auction Date                   Company                                                              Warrants Offered             Bid Price             Price                ($ Millions)
                               Bank of America A Auction (TIP)a                                            150,375,940               $7.00             $8.35                         $1,255.6
3/3/2010
                               Bank of America B Auction (CPP)             a
                                                                                                           121,792,790                1.50               2.55                            310.6
12/10/2009                     JPMorgan Chase                                                                88,401,697               8.00             10.75                             950.3
5/20/2010                      Wells Fargo and Company                                                     110,261,688                6.50               7.70                            849.0
9/21/2010                      Hartford Financial Service Group, Inc.                                        52,093,973              10.50             13.70                             713.7
4/29/2010                      PNC Financial Services Group, Inc.                                            16,885,192              15.00             19.20                             324.2
                               Citigroup A Auction (TIP & AGP)         a
                                                                                                           255,033,142                0.60               1.01                            257.6
1/25/2011
                               Citigroup B Auction (CPP)a                                                  210,084,034                0.15               0.26                              54.6
9/16/2010                      Lincoln National Corporation                                                  13,049,451              13.50             16.60                             216.6
5/6/2010                       Comerica Inc.                                                                 11,479,592              15.00             16.00                             183.7
12/3/2009                      Capital One                                                                   12,657,960               7.50             11.75                             148.7
2/8/2011                       Wintrust Financial Corporation                                                  1,643,295             13.50             15.80                               26.0
6/2/2011                       Webster Financial Corporation                                                   3,282,276              5.50               6.30                              20.4
                               SunTrust A Auction       b
                                                                                                               6,008,902              2.00               2.70                              16.2
9/22/2011
                               SunTrust B Auctionb                                                           11,891,280               1.05               1.20                              14.2
3/9/2010                       Washington Federal, Inc.                                                        1,707,456              5.00               5.00                              15.6
3/10/2010                      Signature Bank                                                                     595,829            16.00             19.00                               11.3
12/15/2009                     TCF Financial                                                                   3,199,988              1.50               3.00                               9.6
3/11/2010                      Texas Capital Bancshares, Inc.                                                     758,086             6.50               6.50                               6.7
2/1/2011                       Boston Private Financial Holdings, Inc.                                         2,887,500              1.40               2.20                               6.4
5/18/2010                      Valley National Bancorp                                                         2,532,542              1.70               2.20                               5.6
11/30/2011                     Associated Banc-Corpc                                                           3,983,308              0.50               0.90                               3.6
6/2/2010                       First Financial Bancorp                                                            465,117             4.00               6.70                               3.1
6/9/2010                       Sterling Bancshares Inc.                                                        2,615,557              0.85               1.15                               3.0
Total                                                                                                  1,083,686,595                                                                $5,406.3
Notes: Numbers may not total due to rounding.
a
  	Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
b
  	Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
c
  	According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
6/28/2012; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 6/28/2012; Comerica
Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 6/28/2012; Wells Fargo and Company, “Definitive
Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 6/28/2012; First Financial Bancorp, “Prospectus Supplement,”
6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 6/28/2012; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 6/28/2012; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 6/28/2012; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 6/28/2012; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
data/70858/000119312510051260/d8k.htm, accessed 6/28/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
d424b2.htm, accessed 6/28/2012; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
6/28/2012; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 6/28/2012; JPMorgan
Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 6/28/2012; Capital One Financial, “Prospectus Supplement,”
12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 6/28/2012; Treasury, Transactions Report, 7/2/2012; Hartford Financial Services Group,
Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 6/28/2012; Hartford
Financial Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 6/28/2012; Treasury, “Treasury Announces Pricing of Public
Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 6/28/2012; Lincoln
National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 6/28/2012; Lincoln
National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 6/28/2012; Treasury, Section 105(a) Report, 1/31/2011; Treasury,
“Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 6/28/2012;
Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 6/28/2012; Citigroup, Prospectus, 1/24/2011, www.sec.
gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 6/28/2012; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/
data/821127/000119312511021392/d424b5.htm, accessed 6/28/2012; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/
tarpwarrant020711.htm, accessed 6/28/2012; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm,
accessed 6/28/2012; Wintrust Financial Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 6/28/2012; Treasury, Section
105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/
tg1033.aspx, accessed 6/28/2012; Treasury, Citigroup Preliminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.
htm, accessed 6/28/2012; Citigroup, Preliminary Prospectus – TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
6/28/2012; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011, 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of
Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 6/28/2012; “Treasury Department Announces
Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 6/28/2012.
108            special inspector general I troubled asset relief program




                                                      Private Warrant Auctions
      Qualified Institutional Buyers (“QIB”):         In late 2011, Treasury devised a new method for selling warrants. On November
      Institutions that under U.S. securities         17, 2011, Treasury conducted its first private auction to sell warrants of CPP
      law are permitted to buy securities             participants. In the auction, Treasury sold its warrant positions in a group of 17
      that are exempt from registration               financial institutions listed in Table 2.27 for $12.7 million.334 Treasury stated that
      under investor protection laws and              a private auction was necessary because the warrants did not meet the listing
      to resell those securities to other             requirements for the major exchanges, it would be more cost-effective for these
      QIBs. Generally these institutions own          smaller institutions, and that grouping the warrants of the 17 institutions in a
      and invest at least $100 million in             single auction would raise investor interest in the warrants.335 The private auction
      securities, or are registered broker-           was a discrete, or winner-takes-all, auction. The warrants were not registered under
      dealers that own or invest at least $10         the Securities Act of 1933 (the “Act”). As a result, Treasury stated that the warrants
      million in securities.                          were offered only in private transactions to “(1) ‘qualified institutional buyers’ as
                                                      defined in Rule 144A under the Act, (2) the issuer, and (3) a limited number of
      Accredited Investors: Individuals or            ‘accredited investors’ affiliated with the issuer.”336 Treasury did not conduct any
      institutions that by law are considered         private warrant auctions this quarter.
      financially sophisticated enough so
                                                      Table 2.27
      that they can invest in ventures that
      are exempt from investor protection              PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011
      laws. Under U.S. securities laws, these                                                                          Number of                                    Proceeds to
                                                       Company                                                    Warrants Offered                                     Treasury
      include many financial companies,
                                                       Eagle Bancorp, Inc.                                                     385,434                               $2,794,422
      pension plans, wealthy individuals,
      and top executives or directors of the           Horizon Bancorp                                                         212,188                                1,750,551

      issuing companies.                               Bank of Marin Bancorp                                                   154,908                                1,703,984
                                                       First Bancorp (of North Carolina)                                       616,308                                   924,462
                                                       Westamerica Bancorporation                                              246,698                                   878,256
                                                       Lakeland Financial Corp                                                 198,269                                   877,557
                                                       F.N.B. Corporation                                                      651,042                                   690,100
                                                       Encore Bancshares                                                       364,026                                   637,071
                                                       LCNB Corporation                                                        217,063                                   602,557
                                                       Western Alliance Bancorporation                                         787,107                                   415,000
                                                       First Merchants Corporation                                             991,453                                   367,500
                                                       1st Constitution Bancorp                                                231,782                                   326,576
                                                       Middleburg Financial Corporation                                        104,101                                   301,001
                                                       MidSouth Bancorp, Inc.                                                  104,384                                   206,557
                                                       CoBiz Financial Inc.                                                    895,968                                   143,677
                                                       First Busey Corporation                                                 573,833                                     63,677
                                                       First Community Bancshares, Inc.                                          88,273                                    30,600
                                                       Total                                                               6,822,837                              $12,713,548
                                                       Source: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
                                                       center/press-releases/Pages/tg1365.aspx, accessed 6/28/2012.
                                                                                quarterly report to congress I July 25, 2012              109




Restructurings, Recapitalizations, Exchanges, and Sales of CPP
Investments
Certain CPP institutions continue to experience high losses and financial
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
improve the quality of their capital, these institutions may ask Treasury to convert
its CPP preferred shares into a more junior form of equity or accept a lower
valuation, resulting in Treasury taking a discount or loss. If a CPP institution
is undercapitalized and/or in danger of becoming insolvent, it may propose to                Undercapitalized: Condition in which a
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract          financial institution does not meet its
private capital) and to “attempt to preserve value” for Treasury’s investment.337            regulator’s requirements for sufficient
Treasury may also sell its investment in a troubled institution to a third party at          capital to operate under a defined level
a discount in order to facilitate that party’s acquisition of a troubled institution.        of adverse conditions.
Treasury has explained to SIGTARP that although it may incur partial losses on its
investment in the course of these transactions, such an outcome may be deemed                Due Diligence: Appropriate level of
necessary to avoid the total loss of Treasury’s investment that would occur if the           attention or care a reasonable person
institution failed.338                                                                       should take before entering into an
    Under these circumstances, the CPP participant asks Treasury for a formal                agreement or a transaction with
review of its proposal. The proposal details the institution’s recapitalization plan         another party. In finance, it often refers
and may estimate how much capital the institution plans to raise from private                to the process of conducting an audit
investors and whether Treasury and other preferred shareholders will convert                 or review of the institution before
their preferred stock to common stock. The proposal may also involve a proposed              initiating a transaction.
discount on the conversion to common stock, although Treasury would not realize
any loss until it disposes of the stock.339 In other words, Treasury would not know
whether a loss will occur, or the extent of such a loss, until it sells the common
stock it receives as part of such an exchange. According to Treasury, when it
receives such a request, it asks one of the external asset managers that it has
hired to analyze the proposal and perform due diligence on the institution.340 The
external asset manager interviews the institution’s managers, gathers non-public
information, and conducts loan-loss estimates and capital structure analysis. The
manager submits its evaluation to Treasury, which then decides whether to restruc-
ture its CPP investment.341
    Table 2.28 shows all realized losses and write-offs recorded by Treasury on CPP
investments through June 30, 2012. Table 2.29 shows all restructurings, recapital-
izations, exchanges, and sales of CPP investments through June 30, 2012.
110   special inspector general I troubled asset relief program




                          TABLE 2.28
                           Realized Losses and Write-Offs in CPP, as of 6/30/2012 ($ MILLIONS)
                                                                                      TARP           Realized Loss
                           Institution                                          Investment             or Write-Off                       Date      Description
                           Realized Losses
                                                                                                                                                    Sale of subordinated
                           FBHC Holding Company                                              $3                       $2          3/9/2010
                                                                                                                                                    debentures at a loss
                           First Federal Bancshares of
                                                                                             17                       11          5/3/2010          Sale of preferred stock at a loss
                           Arkansas, Inc.
                           The Bank of Currituck                                               4                        2        12/3/2010          Sale of preferred stock at a loss
                           Treaty Oak Bancorp, Inc.                                            3                        3        2/15/2011          Sale of preferred stock at a loss
                                                                                                                                                    Exchange of preferred stock at
                           Central Pacific Financial Corp.                                 135                        32         2/18/2011
                                                                                                                                                    a loss
                           Cadence Financial Corporation                                     44                         6         3/4/2011 Sale of preferred stock at a loss
                           First Community Bank Corporation
                                                                                             11                         3        5/31/2011          Sale of preferred stock at a loss
                           of America
                           Cascade Financial Corporation                                     39                       23         6/30/2011          Sale of preferred stock at a loss
                           Green Bankshares, Inc.                                            72                         4         9/7/2011 Sale of preferred stock at a loss
                           Santa Lucia Bancorp                                                 4                        1      10/21/2011 Sale of preferred stock at a loss
                           MainSource Financial Group, Inc.                                  57                         4         4/3/2012 Sale of preferred stock at a loss 
                           Seacoast Banking Corporation of
                                                                                             50                         9         4/3/2012 Sale of preferred stock at a loss 
                           Florida
                           Wilshire Bancorp, Inc.                                            62                         4         4/3/2012 Sale of preferred stock at a loss
                           Banner Corporation/Banner Bank                                  124                        14          4/3/2012          Sale of preferred stock at a loss
                           First Financial Holdings Inc.                                     65                         8         4/3/2012 Sale of preferred stock at a loss
                           WSFS Financial Corporation                                        53                         4         4/3/2012 Sale of preferred stock at a loss
                           Central Pacific Financial Corp.                                 135                        30          4/4/2012          Sale of common stock at a loss
                           Ameris Bancorp                                                    52                         4        6/19/2012          Sale of preferred stock at a loss
                           United Bancorp, Inc.                                              21                         4        6/19/2012          Sale of preferred stock at a loss
                           First Capital Bancorp, Inc.                                       11                         1        6/19/2012          Sale of preferred stock at a loss
                           First Defiance Financial Corp.                                    37                         1        6/19/2012          Sale of preferred stock at a loss
                           LNB Bancorp, Inc.                                                 25                         3        6/19/2012          Sale of preferred stock at a loss
                           Farmers Capital Corporation                                       30                         8        6/19/2012          Sale of preferred stock at a loss
                           Taylor Capital Group, Inc.                                      105                        11         6/19/2012          Sale of preferred stock at a loss
                           Total CPP Realized Losses                                                             $192                                                                            
                           Write-Offs
                           CIT Group Inc.                                              $2,330                  $2,330          12/10/2009 Bankruptcy
                           Pacific Coast National Bancorp                                      4                        4        2/11/2010          Bankruptcy
                           South Financial Group, Inc.         1
                                                                                           347                      217          9/30/2010          Sale of preferred stock at a loss
                           TIB Financial Corp1                                               37                       25         9/30/2010          Sale of preferred stock at a loss

                           Total CPP Write-Offs                                                               $2,576                                                                             
                           Total of CPP Realized Losses
                           and Write-offs                                                                     $2,768                                                                             
                           Notes: Numbers may not total due to rounding. Losses from the second lien auction have not been realized.
                           1
                            	In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
                             realized losses.

                           Sources: Treasury, Transactions Report, 6/27/2012; Treasury, response to SIGTARP data call, 7/5/2012.
                                                                                quarterly report to congress I July 25, 2012   111




Recent Exchanges and Sales
Millennium Bancorp, Inc.
On April 3, 2009, Treasury invested $7.3 million in Millennium Bancorp, Inc.,
Edwards, Colorado (“Millennium”) through CPP in return for preferred stock
and warrants.342 On April 20, 2012, Treasury entered into an agreement with CIC
Bancshares, Inc. (“CIC”) to sell to CIC all of Treasury’s preferred stock investment
in Millennium for $2.9 million.343 The closing of the sale is subject to certain
conditions, including completion of the acquisition and merger of Millennium by
CIC. If the sale is finalized, it will result in a loss of $4.4 million.344

Treasury Sold Its TARP Investments in 14 Banks at a Loss at Auction
In two auctions this quarter, Treasury sold its TARP preferred stock investment
in 14 banks. The first auction was held from June 11 through June 13, 2012,
for seven banks.345 Treasury initially invested $280.6 million in the seven banks,
but netted only $245 million in the auction, resulting in a $35.6 million loss. On
November 21, 2008, Treasury invested $104.8 million in Taylor Capital Group,
Rosemont, Illinois (“Taylor Capital”); its shares netted $92 million at auction. On
November 21, 2008, Treasury invested $52 million in Ameris Bancorp, Moultrie,
Georgia (“Ameris”); its shares netted $48 million at auction. On December 5,
2008, Treasury invested $37 million in First Defiance Financial Corp., Defiance,
Ohio (“First Defiance”); its shares netted $35 million at auction. First Defiance
repurchased 44.8% of its shares that were offered at auction at a discounted
price.346 On January 9, 2009, Treasury invested $30 million in Farmers Capital
Bank Corporation, Frankfort, Kentucky (“Farmers Capital”); its shares netted $22
million at auction. On December 12, 2008, Treasury invested $25.2 million in
LNB Bancorp Inc., Lorain, Ohio (“LNB”); its shares netted $22 million at auction.
On April 3, 2009, Treasury invested $11 million in First Capital Bancorp, Inc.,
Glen Ellen, Virginia (“First Capital Bancorp”); its shares netted $10 million at
auction. First Capital repurchased 50% of its shares that were offered at auction
at a discounted price.347 On January 16, 2009, Treasury invested $20.6 million in
United Bancorp, Inc., Tecumseh, Michigan (“United Bancorp”); its shares netted
$17 million at auction.348
    The second auction was held from June 25 through June 27, 2012, for seven
banks. Treasury initially invested $224.3 million in the seven banks, but only netted
$204 million in the auction, resulting in a $20.3 million loss.349 On December 19,
2008, Treasury invested $48.2 million in Fidelity Southern Corporation, Atlanta,
Georgia (“Fidelity Southern”); its shares netted $43 million at auction. On January
30, 2009, Treasury invested $33 million in Firstbank Corporation, Alma, Michigan
(“Firstbank”); its shares netted $31 million at auction. Firstbank repurchased
48.5% of its shares that were offered at auction at a discounted price.350 On January
23, 2009, Treasury invested $23.2 million in First Citizens Banc Corp, Sandusky,
Ohio (“First Citizens Banc”); its shares netted $21 million at auction. On January
16, 2009, Treasury invested $45 million in MetroCorp Bancshares, Inc., Houston,
Texas (“MetroCorp”); its shares netted $43 million at auction. MetroCorp repur-
chased 97.2% of its shares that were offered at auction at a discounted price.351 On
112   special inspector general I troubled asset relief program




                                             December 23, 2008, Treasury invested $25.1 million in Peoples Bancorp of North
                                             Carolina, Inc., Newton, North Carolina (“Peoples Bancorp of NC”); its shares
                                             netted $23 million at auction. Peoples Bancorp of NC repurchased 53.5% of its
                                             shares that were offered at auction at a discounted price.352 On January 16, 2009,
                                             Treasury invested $32.5 million in Pulaski Financial Corp, Creve Coeur, Missouri
                                             (“Pulaski”); its shares netted $28 million at auction. On February 27, 2009,
                                             Treasury invested $17.3 million in Southern First Bancshares, Inc., Greenville,
                                             South Carolina (“Southern First”); its shares netted $15 million at auction.353
                                             Southern First repurchased 5.8% of its shares that were offered at auction at a
                                             discounted price.354
                                                                                     quarterly report to congress I July 25, 2012              113




TABLE 2.29
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2012                             ($ MILLIONS)
                                    Investment       Original     Combined
 Company                                  Date   Investments    Investments                                            Investment Status
 Citigroup Inc.                     10/28/2008      $2,500.0                              Exchanged for common stock/warrants and sold
 Provident Bankshares               11/14/2008         151.5
                                                                                   Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation               12/23/2008         600.0       1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                       redeemed by M&T Bank Corporation
 Wilmington Trust Corporation       12/12/2008         330.0
 Popular, Inc.                       12/5/2008         935.0                                       Exchanged for trust preferred securities
 First BanCorp                        1/6/2009         400.0                         Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.         12/5/2008         347.0                                                                           Sold
 Sterling Financial Corporation      12/5/2008         303.0                                                 Exchanged for common stock
 Whitney Holding Corporation          6/3/2011         300.0                                                                           Sold
 Pacific Capital Bancorp            11/21/2008         180.6                                                 Exchanged for common stock
 Wilmington Trust Corporation        5/13/2011         151.5                                                                           Sold
 Central Pacific Financial Corp.      1/9/2009         135.0                                                 Exchanged for common stock
 Banner Corporation                 11/21/2008         124.0                                                         Sold at loss in auction
 BBCN Bancorp, Inc.                 11/21/2008          67.0                                   Exchanged for a like amount of securities of
                                                                     122.0d
 Center Financial Corporation       12/12/2008          55.0                                                          BBCN Bancorp, Inc.

 First Merchants                     2/20/2009         116.0                   Exchanged for trust preferred securities and preferred stock
 Taylor Capital Group               11/21/2008         104.8                                                         Sold at loss in auction
 Metropolitan Bank Group Inc.        6/26/2009          71.5                                         Exchanged for new preferred stock in
                                                                      81.9b
NC Bank Group, Inc.                  6/26/2009           6.9                                                Metropolitan Bank Group, Inc.

Hampton Roads Bankshares            12/31/2008          80.3                                                 Exchanged for common stock
Green Bankshares                    12/23/2008          72.3                                                                           Sold
Independent Bank Corporation        12/12/2008          72.0                         Exchanged for mandatorily convertible preferred stock
Superior Bancorp, Inc.c              12/5/2008          69.0                                       Exchanged for trust preferred securities
 First Financial Holdings Inc.       12/5/2008          65.0                                                         Sold at loss in auction
 Wilshire Bancorp, Inc.             12/12/2008          62.2                                                         Sold at loss in auction
 MainSource Financial Group, Inc.    1/16/2009          57.0                                                         Sold at loss in auction
 WSFS Financial Corporation          1/23/2009          52.6                                                         Sold at loss in auction
 Ameris Bancorp                     11/21/2008          52.0                                                         Sold at loss in auction
 Seacoast Banking Corporation of
                                    12/19/2008          50.0                                                         Sold at loss in auction
 Florida
 Fidelity Southern Corporation      12/19/2008          48.2                                                         Sold at loss in auction
 MetroCorp Bancshares, Inc.          1/16/2009          45.0                                                         Sold at loss in auction
 Cadence Financial Corporation        1/9/2009          44.0                                                         Sold at loss in auction
 Capital Bank Corporation           12/12/2008          41.3                                                                           Sold
 Cascade Financial Corporation       6/30/2011          39.0                                                         Sold at loss in auction
 TIB Financial Corp.                 12/5/2008          37.0                                                                           Sold
                                                                                                                   Continued on next page
114           special inspector general I troubled asset relief program




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2012                                                                                  ($ MILLIONS) (Continued)
                                                            Investment              Original            Combined
      Company                                                     Date          Investments           Investments                                                                    Investment Status
      First Defiance Financial Corp.                         12/5/2008                   $37.0                                                                                    Sold at loss in auction
      Firstbank Corporation                                  1/30/2009                     33.0                                                                                   Sold at loss in auction
      Pulaski Financial Corp                                 1/16/2009                     32.5                                                                                   Sold at loss in auction
      Farmers Capital Bank Corporation                         1/9/2009                    30.0                                                                                   Sold at loss in auction
      LNB Bancorp Inc.                                     12/12/2008                      25.2                                                                                   Sold at loss in auction
      Peoples Bancorp of North Carolina,
                                                           12/23/2008                      25.1                                                                                   Sold at loss in auction
      Inc.
      First Citizens Banc Corp                               1/23/2009                     23.2                                                                                   Sold at loss in auction
      United Bancorp, Inc.                                   1/16/2009                     20.6                                                                                   Sold at loss in auction
      Southern First Bancshares, Inc.                        2/27/2009                     17.3                                                                                   Sold at loss in auction
      First Federal Bankshares of
                                                               5/3/2011                    16.5                                                                                                          Sold
      Arkansas, Inc.
      Broadway Financial Corporation                       11/14/2008                      15.0                                                                        Exchanged for common stock
      First Capital Bancorp, Inc.                              4/3/2009                    11.0                                                                                   Sold at loss in auction
      First Community Bank Corporation
                                                           12/23/2008                      10.7                                                                                                          Sold
      of America
      Bank of Currituck                                        2/6/2009                      4.0                                                                                                         Sold
      Santa Lucia Bancorp                                  12/19/2008                        4.0                                                                                                         Sold
      Treaty Oak Bancorp, Inc.                               1/16/2009                       3.3                                                                                                         Sold
      FBHC Holding Company                                 12/29/2009                        3.0                                                                                                         Sold
      Fidelity Resources Company                             6/26/2009                       3.0                                              Exchanged for preferred stock in Veritex Holding
      Berkshire Bancorp                                      6/12/2009                       2.9                                       Exchanged for preferred stock in Customers Bancorp
      Notes: Numbers may be affected by rounding.
      a
        	M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
         Treasury’s original $600 million investment. As of June 30, 2012, Treasury’s remaining principal investment in M&T is $381.5 million.
      b
        	The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
         $6.9 million plus unpaid dividends of $3.5 million.
      c
        	The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      d
        	The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
         Corporation of $55 million.

      Sources: Treasury, Transactions Report, 6/27/2012; Treasury responses to SIGTARP data call, 10/11/2011, 4/5/2012, 7/5/2012; SIGTARP, October Quarterly Report, 10/26/2010; Treasury,
      Section 105(a) Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,” 12/10/2010;
      Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 7/10/2012; Treasury Press Release, “Treasury Announces
      Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/
      d8k.htm, accessed 6/28/2012; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforcement/2010-02-34.pdf,
      accessed 6/28/2012; Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/Shareholders-approve-sale-of-
      Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 6/28/2012; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.
      htm, accessed 6/28/2012; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 6/28/2012;
      Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 7/5/2012; Scottrade, Central Pacific
      Financial Corp., 2/18/2011, research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 6/28/2012; Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/
      edgar/data/742054/000089882211000148/kbody.htm, accessed 6/28/2012; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/data/36270/000095012310014582/
      l38289e10vk.htm, accessed 6/28/2012; Green Bankshares Inc., 9/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-nafhmerger8k.htm, accessed 6/28/2012;
      Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 6/28/2012; Santa Lucia Bancorp, 8-K, 10/6/2011,
      www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 6/28/2012; BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.gov/Archives/edgar/
      data/1128361/000119312511330628/d265748d8k.htm, accessed 6/28/2012.
                                                                                       quarterly report to congress I July 25, 2012                   115




CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
fail, as indicated in Table 2.30.355

TABLE 2.30
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2012                             ($ MILLIONS) 
                                        Initial
                                     Invested     Investment                                             Bankruptcy/
 Company                              Amount            Date                                Status       Failure Datea         Subsidiary Bank
                                                                Bankruptcy proceedings completed
                                                                     with no recovery of Treasury’s                                      CIT Bank
 CIT Group Inc., New York, NY        $2,330.0     12/31/2008                                               11/1/2009
                                                               investment; subsidiary bank remains                              Salt Lake City, UT
                                                                                             active
 UCBH Holdings Inc.,                                                                                                          United Commercial
                                        298.7     11/14/2008   In bankruptcy; subsidiary bank failed       11/6/2009
 San Francisco, CA                                                                                                       Bank, San Francisco, CA
                                                               Bankruptcy proceedings completed                                      Pacific Coast
 Pacific Coast National Bancorp,
                                           4.1     1/16/2009        with no recovery of Treasury’s        11/13/2009                National Bank
 San Clemente, CA
                                                                investment; subsidiary bank failed                             San Clemente, CA
                                                                                                                               Midwest Bank and
 Midwest Banc Holdings, Inc.,
                                        89.4b      12/5/2008   In bankruptcy; subsidiary bank failed       5/14/2010              Trust Company,
 Melrose Park, IL
                                                                                                                                Elmwood Park, IL
 Sonoma Valley Bancorp,                                                                                                      Sonoma Valley Bank
                                           8.7     2/20/2009                 Subsidiary bank failed        8/20/2010
 Sonoma, CA                                                                                                                          Sonoma, CA
 Pierce County Bancorp,                                                                                                  Pierce Commercial Bank
                                           6.8     1/23/2009                 Subsidiary bank failed        11/5/2010
 Tacoma, WA                                                                                                                           Tacoma, WA
 Tifton Banking Company,
                                           3.8     4/17/2009                                  Failed      11/12/2010                          N/A
 Tifton, GA
 Legacy Bancorp, Inc.,                                                                                                               Legacy Bank
                                           5.5     1/30/2009                 Subsidiary bank failed        3/11/2011
 Milwaukee, WI                                                                                                                     Milwaukee, WI
 Superior Bancorp, Inc.,                                                                                                           Superior Bank
                                         69.0      12/5/2008                 Subsidiary bank failed        4/15/2011
 Birmingham, AL                                                                                                                  Birmingham, AL
 Integra Bank Corporation,                                                                                                           Integra Bank
                                         83.6      2/27/2009                 Subsidiary bank failed        7/29/2011
 Evansville, IN                                                                                                                      Evansville, IN
 One Georgia Bank, Atlanta, GA             5.5      5/8/2009                                  Failed       7/15/2011                           N/A
 FPB Bancorp,                                                                                                                 First Peoples Bank
                                           5.8     12/5/2008                 Subsidiary bank failed        7/15/2011
 Port Saint Lucie, FL                                                                                                       Port Saint Lucie, FL
                                                                                                                                 Citizens Bank of
 Citizens Bancorp,
                                         10.4     12/23/2008                 Subsidiary bank failed        9/23/2011         Northern California
 Nevada City, CA
                                                                                                                                 Nevada City, CA
 CB Holding Corp.,                                                                                                                 Country Bank,
                                           4.1     5/29/2009                 Subsidiary bank failed       10/14/2011
 Aledo, IL                                                                                                                               Aledo, IL
 Tennessee Commerce Bancorp, Inc.,                                                                                        Tennessee Commerce
                                         30.0     12/19/2008                 Subsidiary bank failed        1/27/2012
 Franklin, TN                                                                                                                 Bank, Franklin, TN
                                                                                                                         Continued on next page
116              special inspector general I troubled asset relief program




      CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2012                                                                     ($ MILLIONS) (Continued)
                                                             Initial
                                                          Invested          Investment                                                                 Bankruptcy/
      Company                                              Amount                 Date                                                    Status       Failure Datea                  Subsidiary Bank
      Blue River Bancshares, Inc.,                                                                                                                                                          SCB Bank,
                                                                $5.0          3/6/2009                                Subsidiary bank failed               2/10/2012
      Shelbyville, IN                                                                                                                                                                    Shelbyville, IN
      Fort Lee Federal Savings Bank                               1.3       5/22/2009                                                     Failed           4/20/2012                                N/A
      Total                                              $2,961.7
      Notes: Numbers may not total due to rounding.
      a
        	Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
      b
        	The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for
         $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

      Sources: Treasury, Transactions Report, 6/27/2012; Treasury, response to SIGTARP data call, 7/5/2012; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
      6/28/2012; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 6/28/2012; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with
      Overwhelming Support of Debt holders,” 11/1/2009, news.cit.com/portal/site/cit/index.jsp?ndmViewId=news_view&newsId=20091101005053&newsLang=en, accessed 6/28/2012; Pacific Coast
      National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 6/28/2012; Sonoma Valley Bancorp, 8-K, 8/20/2010,
      www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 6/28/2012; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/
      data/1051379/000095012310081020/c60029e8vk.htm, accessed 6/28/2012; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/
      f54084e8vk.htm, accessed 6/28/2012; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www.
      fdic.gov/news/news/press/2010/pr10244.html, accessed 6/28/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010,
      www.fdic.gov/news/news/press/2010/pr10249.html, accessed 6/28/2012; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100510b.
      htm, accessed 6/28/2012; Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of
      Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 6/28/2012; FDIC Press Release, “Seaway
      Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed 6/28/2012;
      FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.
      html, accessed 6/28/2012; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/
      news/news/press/2011/pr11128.html, accessed 6/28/2012; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville,
      Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 6/28/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia
      Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 6/28/2012; FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of
      the Deposits of First Peoples Bank, Port Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11121.html, accessed 6/28/2012; FDIC Press Release, “Tri Counties Bank, Chico,
      California, Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 6/28/2012; FDIC
      Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/
      pr11154.html, accessed 6/28/2012; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.
      fdic.gov/news/news/press/2011/pr11128.html, accessed 6/28/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.
      fdic.gov/news/news/press/2011/pr11120.html, accessed 6/28/2012; FDIC, In the Matter of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/
      enforcement/2010-03-09.pdf, accessed 6/28/2012; FDIC, In the Matter of Citizens Bank of Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action
      Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf, accessed 6/28/2012 ; “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo,
      Illinois” 10/14/2011, www.fdic.gov/news/news/press/2011/pr11167.html, accessed 6/28/2012 ; FDIC Press Release, “Republic Bank & Trust Company, Assumes all of the Deposits of Tennessee
      Commerce Bank, Franklin, Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/pr12011.html, accessed 7/10/2012; FDIC Press Release ,“First Merchants Bank, National Association,
      Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,” 2/10/2012, www.fdic.gov/news/news/press/2012/pr12018.html, accessed 6/28/2012; FDIC Press Release, “Alma
      Bank, Astoria, New York, Assumes All of the Deposits of Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey,” www.fdic.gov/news/news/press/2012/pr12043.html, accessed 7/5/2012.
                                                                               quarterly report to congress I July 25, 2012   117




Closure of Fort Lee Federal Savings Bank
On May 22, 2009, Treasury invested $1.3 million in Fort Lee Federal Savings
Bank, Fort Lee, New Jersey (“Fort Lee”) through CPP in return for preferred stock
and warrants.356 On April 20, 2012, the Office of the Comptroller of the Currency
(“OCC”) closed Fort Lee and named the Federal Deposit Insurance Corporation
(“FDIC”) as receiver.357 FDIC entered into a purchase and assumption agreement
with Alma Bank, Astoria, New York, to assume all of Fort Lee’s deposits. FDIC
estimates that the cost of Fort Lee’s failure to the deposit insurance fund will be
$14 million. All of Treasury’s investment in Fort Lee is expected to be lost.358
118            special inspector general I troubled asset relief program




                                                      Community Development Capital Initiative
                                                      The Administration announced the Community Development Capital Initiative
                                                      (“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
                                                      small businesses obtain credit.359 Under CDCI, TARP made $570.1 million in
                                                      investments in the preferred stock or subordinated debt of 84 eligible banks, bank
      Community Development Financial
                                                      holding companies, thrifts, and credit unions certified as Community Development
      Institutions (“CDFIs”): Financial
                                                      Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-
      institutions eligible for Treasury funding
                                                      cost capital investments were intended to strengthen the capital base of CDFIs
      to serve urban and rural low-income
                                                      and enable them to make more loans in low and moderate-income communities.360
      communities through the CDFI Fund.
                                                      CDCI was open to certified, qualifying CDFIs or financial institutions that applied
      CDFIs were created in 1994 by the
                                                      for CDFI status by April 30, 2010.361
      Riegle Community Development and
                                                           According to Treasury, CPP-participating CDFIs that were in good standing
      Regulatory Improvement Act. These
                                                      could exchange their CPP investments for CDCI investments.362 CDCI closed to
      entities must be certified by Treasury;
                                                      new investments on September 30, 2010.363
      certification confirms they target at
                                                           As of June 30, 2012, 82 institutions remain in CDCI. One institution repaid
      least 60% of their lending and other
                                                      the Government this quarter and one institution previously had its subsidiary bank
      economic development activities
                                                      fail.364
      to areas underserved by traditional
      financial institutions.
                                                      Terms for Senior Securities and Dividends
                                                      An eligible bank, bank holding company, or thrift could apply to receive capital in
      Risk-Weighted Assets: Risk-based
                                                      an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      measure of total assets held by
                                                      owned, nonprofit financial institution with a capital and governance structure
      a financial institution. Assets are
                                                      different from that of for-profit banks) could apply for Government funding of
      assigned broad risk categories. The
                                                      up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
      amount in each risk category is then
                                                      assets for banks.365 Participating credit unions and subchapter S corporations
      multiplied by a risk factor associated
                                                      (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
      with that category. The sum of the
                                                      stock issued by other CDFI participants.366 Many CDFI investments have an
      resulting weighted values from each of
                                                      initial dividend rate of 2%, which increases to 9% after eight years. Participating
      the risk categories is the bank’s total
                                                      S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
      risk-weighted assets.
                                                      years.367 A CDFI participating in CPP had the opportunity to request to convert
                                                      those shares into CDCI shares, thereby reducing the annual dividend rate it pays
      Subchapter S Corporations (“S
                                                      the Government from 5% to as low as 2%.368 According to Treasury, CDFIs were
      corporations”): Corporate form that
                                                      not required to issue warrants because of the de minimis exception in EESA, which
      passes corporate income, losses,
                                                      grants Treasury the authority to waive the warrant requirement for qualifying
      deductions, and credit through to
                                                      institutions in which Treasury invested $100 million or less.
      shareholders for Federal tax purposes.
                                                          If during the application process a CDFI’s primary regulator deemed it to be un-
      Shareholders of S corporations report
                                                      dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
      the flow-through of income and losses
                                                      to raise private capital to achieve adequate capital levels. Treasury would match the
      on their personal tax returns and are
                                                      private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
      taxed at their individual income tax
                                                      institution’s risk-weighted assets. In such cases, private investors had to agree to
      rates.
                                                      assume any losses before Treasury.369

                                                      CDCI Investment Update
                                                      Treasury invested $570.1 million in 84 institutions under the program — 36 banks
                                                      or bank holding companies and 48 credit unions.370 Of the 36 investments in banks
                                                                               quarterly report to congress I July 25, 2012   119




and bank holding companies, 28 were conversions from CPP (representing $363.3
million of the total $570.1 million); the remaining eight were not CPP participants.
Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
converting CPP investments. Only $106 million of the total CDCI funds went
to institutions that were not in CPP. As of June 30, 2012, Treasury had received
approximately $19.2 million in dividends and interest from CDCI recipients.371
Only one CDCI participant had repaid TARP as of June 30, 2012. Greater Kinston
Credit Union, Kinston, North Carolina (“Greater Kinston”) repurchased its shares
at par on April 10, 2012, for $350,000.372 As of June 30, 2012, four institutions
(Community Bank of the Bay, First American International Corporation, First
Vernon Bancshares, Inc., and PGB Holdings, Inc.) had unpaid dividend or interest
payments to Treasury totaling $707,650.373 A list of all CDCI investments is
included in Appendix D: “Transaction Detail.”
120            special inspector general I troubled asset relief program




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of a systemically significant institution.”374 Through
                                                      SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
                                                      in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.375 As of June 30, 2012, taxpayers were still owed more than half of the
                                                      original TARP investment. Taxpayers are owed $36 billion of the $67.8 billion.376
                                                      According to Treasury’s TARP books and records, taxpayers have realized losses on
                                                      the TARP investment from an accounting standpoint of $5.5 billion on Treasury’s
                                                      sale of AIG stock.377 However, given the January 2011 restructuring of the Federal
      For more information on AIG and how             Reserve Bank of New York (“FRBNY”) and Treasury investment, according to
      the company has changed under TARP,             Treasury, the Government overall has made a gain thus far on the stock sales.378
      see Section 3, “AIG Remains in TARP             According to Treasury, this leaves $30.4 billion in TARP funds outstanding.379 In
      as the Largest TARP Investment.”                return for that investment, Treasury holds 61% of AIG’s common stock (1.06 billion
                                                      shares).380
                                                          The Government’s rescue of AIG involved several different funding facilities
                                                      provided by FRBNY and Treasury, with various changes to the transactions over
                                                      time. The rescue of AIG was initially led by FRBNY and the Board of Governors of
                                                      the Federal Reserve System (“Federal Reserve”). Prior to Treasury’s investment in
      Revolving Credit Facility: Line of              AIG, FRBNY extended an $85 billion revolving credit facility to AIG in September
      credit for which borrowers pay a                2008. With the passage of EESA on October 3, 2008, Treasury, through SSFI, took
      commitment fee, allowing them to                on a greater role in AIG’s bailout as the Government expanded and later restruc-
      repeatedly draw down funds up to a              tured its aid.
      guaranteed maximum amount. The                      The amount and types of Treasury’s outstanding AIG investments have changed
      amount of available credit decreases            over time as a result of the execution of AIG’s January 2011 Recapitalization Plan
      and increases as funds are borrowed             (discussed in greater detail in this section, which resulted in the termination of
      and then repaid.                                FRBNY’s revolving credit facility, the transfer of FRBNY’s preferred SPV interests
                                                      to Treasury, and the conversion of preferred shares into common stock), preferred
      Credit Default Swap (“CDS”): A contract         equity interest repayments, and Treasury’s sale of common stock. These various
      where the seller receives payments              investments, as well as their stages and restructurings, are described below.
      from the buyer in return for agreeing to        Treasury’s preferred equity interests have been fully retired.381
      pay the buyer when a particular credit
      event occurs, such as when the credit           FRBNY Revolving Credit Facility
      rating on a bond is downgraded or a             In September 2008, FRBNY extended an $85 billion revolving credit facility to
      loan goes into default. The buyer does          AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In
      not need to own the asset covered by            return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of
      the contract, meaning the swap can              the United States Treasury (the “AIG Trust”).382 While the $85 billion revolving
      serve essentially as a bet against the          credit facility was necessary to address the company’s severe liquidity shortage
      underlying bond or loan.                        resulting from collateral calls related to the company’s credit default swap (“CDS”)
                                                      business and securities lending activities, because the entire facility was drawn
                                                      upon, AIG’s leverage ratios increased significantly. The rapid deterioration in
                                                      AIG’s CDS and securities lending businesses, combined with this increased
                                                      leverage, put downward pressure on its credit rating.383 Federal officials feared
                                                      that future downgrades in AIG’s credit rating could have “catastrophic” effects on
                                                                                quarterly report to congress I July 25, 2012            121




the company, forcing it into bankruptcy.384 FRBNY and Treasury determined that
this possibility posed a threat to the nation’s financial system and decided that
additional transactions were necessary to modify the revolving credit facility.385

Restructurings of AIG Assistance
In November 2008 and March 2009, FRBNY and Treasury took several actions to                  Cumulative Preferred Stock: Stock
stabilize AIG’s operations.386                                                               requiring a defined dividend payment. If
                                                                                             the company does not pay the dividend
Initial TARP Investment                                                                      on schedule, it still owes the missed
First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred                 dividend to the stock’s owner.
shares under TARP, the proceeds of which went directly to FRBNY to pay down
a portion of the outstanding balance of the existing revolving credit facility. In           Special Purpose Vehicle (“SPV”):
return, Treasury received AIG Series D cumulative preferred stock and warrants               A legal entity, often off-balance-
to purchase AIG common stock.387 After that payment, the total amount available              sheet, that holds transferred assets
to AIG under FRBNY’s revolving credit facility was reduced from $85 billion to               presumptively beyond the reach of the
$60 billion.                                                                                 entities providing the assets, and that
                                                                                             is legally isolated from its sponsor or
Creation of Maiden Lane II & III                                                             parent company.
Second, also in November 2008, FRBNY created Maiden Lane II, a special
purpose vehicle (“SPV”), to take significant mortgage-backed securities off AIG’s            Collateralized Debt Obligation (“CDO”):
books. FRBNY lent $19.5 billion to Maiden Lane II to fund the purchase of                    A security that entitles the purchaser
residential mortgage-backed securities (“RMBS”) associated with AIG’s securities             to some part of the cash flows from a
lending program. This RMBS was in the securities-lending portfolios of several of            portfolio of assets such as mortgage-
AIG’s U.S.-regulated insurance subsidiaries.                                                 backed securities, bonds, loans, or
    Finally, also in November 2008, FRBNY created Maiden Lane III, another                   other CDOs.
SPV, to which FRBNY lent $24.3 billion to buy from AIG’s counterparties some of
the collateralized debt obligations (“CDOs”) underlying the CDS contracts written            Non-Cumulative Preferred Stock:
by AIG.                                                                                      Preferred stock with a defined
                                                                                             dividend, without the obligation to pay
Second TARP Investment                                                                       missed dividends.
On March 2, 2009, Treasury and FRBNY announced a restructuring of Govern-
ment assistance to AIG that, according to Treasury, was designed to strengthen the           Equity Capital Facility: Commitment
company’s capital position.388 These measures included the conversion of Treasury’s          to invest equity capital in a firm
first TARP investment and Treasury’s commitment to fund a second TARP invest-                under certain future conditions. An
ment in AIG.                                                                                 equity facility when drawn down is
    On April 17, 2009, AIG and Treasury signed a securities exchange agreement               an investment that increases the
under which Treasury exchanged the Series D cumulative preferred stock, which                provider’s ownership stake in the
required AIG to make quarterly dividend and interest payments, for $41.6 bil-                company. The investor may be able to
lion (including $1.6 billion in missed dividend payments) of less valuable Series E          recover the amount invested by selling
non-cumulative preferred stock, which required AIG to make dividend and inter-               its ownership stake to other investors
est payments only if AIG’s board of directors declared a dividend. Additionally, on          at a later date.
April 17, 2009, Treasury committed to fund an equity capital facility under which
AIG could draw down up to $29.8 billion in exchange for Series F non-cumulative
preferred stock (that had similar terms to the Series E) and additional warrants, of
which AIG drew down $27.8 billion.389
122            special inspector general I troubled asset relief program




                                                      Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs
                                                      The March 2009 restructuring measures also included an authorization for FRBNY
                                                      to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora
                                                      LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the
                                                      SPVs also facilitated the independence of these two subsidiaries in anticipation of a
                                                      sale or initial public offering (“IPO”).390 Treasury received payments for its interest
                                                      in the SPVs and no longer holds an investment in the two SPVs.
                                                          Under the transaction’s original terms, with limited exceptions, all proceeds
                                                      from the voluntary sale, public offering, or other liquidation of the assets or busi-
                                                      nesses held by the SPVs had to be used first to fully redeem FRBNY’s interests in
                                                      the SPVs and then to reduce the outstanding principal balance of AIG’s revolving
                                                      credit facility. On December 1, 2009, FRBNY received $16 billion in preferred
                                                      equity interests in the AIA SPV and $9 billion in the ALICO SPV.391 AIG later com-
                                                      pleted an IPO of 8.1 billion shares of AIA Group Limited and a sale of 1.72 billion
                                                      shares of AIA and applied the $26.5 billion in total proceeds to amounts owed to
                                                      FRBNY and Treasury.392
                                                          On November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2 billion,
      For a more detailed description of the
                                                      $7.2 billion of which was paid in cash and $9 billion in equity interests in MetLife.
      disposition of Treasury’s interest in
      the SPVs, see SIGTARP’s April 2012              These equity interests were initially held in the ALICO SPV and were sold on
      Quarterly Report, pages 112-113.                March 8, 2011, for $9.6 billion.393

                                                      TARP Dividend Payments
                                                      When AIG failed to pay dividends for four consecutive quarters on the Series E
                                                      preferred stock, this gave Treasury the right to appoint to AIG’s board the greater
                                                      of either two directors or a number (rounded upward) of directors equal to 20% of
                                                      all AIG directors.394 On April 1, 2010, Treasury appointed Donald H. Layton and
                                                      Ronald A. Rittenmeyer as directors of AIG.395 On May 10, 2012, AIG announced
                                                      that, due to his appointment as chief executive officer of the Federal Home Loan
                                                      Mortgage Corporation (“Freddie Mac”), Layton had submitted his resignation as
                                                      an AIG director.396 On July 11, 2012, a retired AIG director, Morris W. Offit, was
                                                      reelected to the board.397

                                                      AIG Recapitalization Plan
                                                      On January 14, 2011, AIG executed its Recapitalization Plan with the Govern-
                                                      ment, which resulted in extinguishing FRBNY’s revolving credit facility, retiring
      For a more detailed description of              FRBNY’s remaining interests in the SPVs and transferring those interests to
      the AIG Recapitalization Plan, see              Treasury, and increasing Treasury’s TARP investment in AIG. AIG repaid $20.7
      SIGTARP’s January 2011 Quarterly                billion owed to FRBNY’s revolving credit facility with proceeds from the AIA IPO
      Report, pages 135-139.
                                                      and ALICO sale. AIG drew down $20.3 billion in TARP funds under a Series F
                                                      equity capital facility to purchase certain of FRBNY’s interests in the ALICO SPV
                                                      and AIA SPV and transferred those interests to Treasury. AIG exchanged all prior
                                                      outstanding preferred shares held by the Government and issued new common
                                                      stock to Treasury representing a 92.1% interest in AIG. Treasury also created a
                                                      new $2 billion Series G equity capital facility, which was never drawn down.398
                                                                                quarterly report to congress I July 25, 2012       123




    For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
a total of $7.9 billion in dividend payments.399 After the Recapitalization Plan was
executed, AIG no longer had an obligation to pay dividends.

Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.400 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.401
    On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
$29.00 per share.402 The total proceeds to Treasury from the sale were $5.8 billion.
In addition, the undrawn Series G equity capital facility was terminated and AIG
cancelled all Series G preferred stock.403 On March 8, 2012, Treasury sold approxi-
mately 206.9 million shares of AIG common stock for $29.00 per share.404 The
total proceeds to Treasury from the sale were $6 billion. On May 6, 2012, Treasury
sold approximately 188.5 million shares of AIG’s common stock for $30.50 per
share, for $5.8 billion in proceeds (including 24.6 million shares sold pursuant to
the exercise in full of the underwriters’ over-allotment option).405 As of June 30,
2012, Treasury owned 1.06 billion shares of AIG’s common stock, representing an
ownership stake of 61%.406 According to Treasury’s TARP books and records, tax-
payers have realized losses on the TARP investment from an accounting standpoint
of $5.5 billion on Treasury’s sale of AIG stock.407 However, given the January 2011
restructuring of the FRBNY and Treasury investment, according to Treasury, the
Government overall has made a gain thus far on the stock sales.408
    Under an agreement with Treasury, until Treasury’s ownership of AIG’s voting
securities falls below 33%, AIG will have to obtain Treasury’s consent to the terms,
conditions, and pricing of any equity offering. AIG is required to pay Treasury’s ex-
penses for the registration of shares and underwriting fees, up to 1% of the amount
offered by Treasury.409

FRBNY’s Sales of Maiden Lane II Securities
On February 28, 2012, FRBNY completed the final sale of securities in the Maiden
Lane II portfolio.410 FRBNY completed 12 sales of a total of 773 CUSIP numbers               CUSIP number (“CUSIP”): Unique
(“CUSIPs”) from the Maiden Lane II portfolio, with a face amount totaling $29                identifying number assigned to all
billion.411                                                                                  registered securities in the United
     According to FRBNY, its management of the Maiden Lane II portfolio resulted             States and Canada; the name
in full repayment of the $19.5 billion loan extended by FRBNY to Maiden Lane II              originated with the Committee on
and generated a net gain for the benefit of the public of approximately $2.8 billion,        Uniform Securities Identification
including $580 million in accrued interest on the loan.412                                   Procedures.
124   special inspector general I troubled asset relief program




                                                  Table 2.31 details the sales of securities in the Maiden Lane II portfolio.

                                             Table 2.31
                                              FRBNY Maiden LANE II Securities Sales
                                                                                                                           Number of                  Current Face Amount
                                              Trade Date                                                                   Bonds Sold                       of Bonds Solda
                                              4/6/2011                                                                                  42                     $1,326,856,873
                                              4/13/2011                                                                                 37                          626,080,072
                                              4/14/2011                                                                                   8                         534,127,946
                                              4/28/2011                                                                                   8                      1,122,794,209
                                              5/4/2011                                                                                  38                       1,773,371,055
                                              5/10/2011                                                                                 74                          427,486,898
                                              5/12/2011                                                                                 34                       1,373,506,029
                                              5/19/2011                                                                                 29                          878,641,682
                                              6/9/2011                                                                                  36                       1,898,594,878
                                              1/19/2012                                                                               161                       7,005,379,336b
                                              2/8/2012                                                                                154                        6,223,369,695
                                              2/28/2012                                                                               152                        6,023,606,497
                                              Total                                                                                   773                  $29,213,815,170
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                The current face amount represents the most recent balance of principal outstanding on the securities at the time of the offering. It
                                                 does not reflect the market value of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.
                                              b
                                                 According to FRBNY, the total face amount sold on the January 19, 2012, trade date differs slightly from the figure published in the
                                                  FRBNY press release due to factor adjustments that reduced the face amount sold prior to the actual settlement date.

                                              Sources: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1,
                                              accessed 6/28/2012; FRBNY, response to SIGTARP data call, 4/12/2012; FRBNY, response to SIGTARP vetting draft, 7/11/2012.




                                             FRBNY’s Sales of Maiden Lane III Securities
                                             In April 2012, FRBNY announced that in light of improving market conditions,
                                             it had revised its investment objective for Maiden Lane III “to allow for the
                                             exploration of sales of the assets held in the portfolio” through its investment
                                             manager BlackRock Solutions.413 According to FRBNY, there is no fixed time
                                             frame for the sales. After each sale, FRBNY will provide the circulation date
                                             of the offering, bid submission deadline, CUSIP number(s) and current face
                                             amount offered, and, if a sale is executed, the name of the buyer and trade date
                                             of the sale.414 FRBNY also announced that, along with providing monthly reports
                                             that include a list of the assets sold during the month by current face amount, it
                                             will provide quarterly updates on total proceeds from sales and the total amount
                                             purchased by each counterparty.415 Finally, after Maiden Lane III sells its last
                                             security, FRBNY will provide a security-by-security listing that shows which entity
                                             purchased each security and the price it paid.416
                                                  In the quarter ended June 30, 2012, FRBNY completed eight sales of a total of
                                             46 CUSIPs from the Maiden Lane III portfolio, with a face amount totaling $26.8
                                             billion.417 Maiden Lane III continues to hold other securities.
                                                                                                                                      quarterly report to congress I July 25, 2012   125




    According to FRBNY, on June 14, 2012, Maiden Lane III LLC fully repaid its
liabilities to FRBNY, with interest.418
    Table 2.32 details the sales of securities in the Maiden Lane III portfolio.

Table 2.32
 FRBNY Maiden LANE III Securities Sales FOR THE QUARTER ENDING
 6/30/2012
                                                                                Number of                  Current Face Amount
 Trade Date                                                                     Bonds Sold                       of Bonds Solda
 4/26/2012                                                                                     2                    $7,500,000,000
 5/10/2012                                                                                     4                      2,427,840,275
 5/22/2012                                                                                     6                         690,567,610
 5/24/2012                                                                                     2                      1,672,896,114
 6/13/2012                                                                                     3                      1,925,643,949
 6/15/2012                                                                                   10                       5,165,583,984
 6/25/2012                                                                                   11                       4,240,009,909
 6/28/2012                                                                                     8                      3,139,442,673
 Total                                                                                       46                 $26,761,984,514
 a
      he current face amount represents the most recent balance of principal outstanding on the securities at the time of the offering. It
     T
     does not reflect the market value of the bonds nor the price originally paid by Maiden Lane III LLC for the bonds.

 Sources: FRBNY, “Maiden Lane III LLC: Security Offerings,” no date, www.newyorkfed.org/markets/ml3_sec_offerings.html, accessed
 6/28/2012; FRBNY, response to SIGTARP data call, 7/9/2012.
126            special inspector general I troubled asset relief program




                                                      Targeted Investment Program
                                                      Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                                      Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                                      Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                                      on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                                      in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                                      and warrants from each institution.419 According to Treasury, TIP’s goal was to
                                                      “strengthen the economy and protect American jobs, savings, and retirement
                                                      security [where] the loss of confidence in a financial institution could result in
                                                      significant market disruptions that threaten the financial strength of similarly
                                                      situated financial institutions.”420 Both banks repaid TIP in December 2009.421 On
                                                      March 3, 2010, Treasury auctioned the Bank of America warrants it received under
                                                      TIP for $1.24 billion.422 On January 25, 2011, Treasury auctioned the Citigroup
                                                      warrants it had received under TIP for $190.4 million.423

                                                      Asset Guarantee Program
                                                      Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
                                                      Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                      provide loss protection on a pool of Citigroup assets valued at approximately $301
                                                      billion. In return, as a premium, the Government received warrants to purchase
      Trust Preferred Securities (“TRUPS”):
                                                      Citigroup common stock and $7 billion in preferred stock. The preferred stock was
      Securities that have both equity
                                                      subsequently exchanged for trust preferred securities (“TRUPS”).424
      and debt characteristics created by
                                                           Treasury received $4 billion of the TRUPS and FDIC received $3 billion.425
      establishing a trust and issuing debt
                                                      Although Treasury’s asset guarantee was not a direct cash investment, it exposed
      to it.
                                                      taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-
                                                      nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the
                                                      AGP agreement. Although at the time of termination the asset pool suffered a
                                                      $10.2 billion loss, this number was below the agreed-upon deductible and the
      For a discussion of the basis of the
      decision to provide Federal assistance          Government suffered no loss.426
      to Citigroup, see SIGTARP’s audit                    Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,
      report, “Extraordinary Financial                reducing the premium it received from $4 billion to $2.2 billion, in exchange for
      Assistance Provided to Citigroup,               the early termination of the loss protection. FDIC retained all of its $3 billion in
      Inc.,” dated January 13, 2011.                  securities.427 Under the termination agreement, however, FDIC will transfer up to
                                                      $800 million of those securities to Treasury if Citigroup’s participation in FDIC’s
                                                      Temporary Liquidity Guarantee Program closes without a loss.428
                                                           On September 29, 2010, Treasury entered into an agreement with Citigroup
                                                      to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
                                                      new TRUPS. Because the interest rate necessary to receive par value was below
                                                      the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
                                                      amount of the securities sold by Treasury by an additional $12 million, thereby
                                                      enabling Treasury to receive an additional $12 million in proceeds from the $2.2
                                                      billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.429
                                                      On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
                                                      under AGP for $67.2 million.430 According to Treasury, it has realized a gain of
                                                                             quarterly report to congress I July 25, 2012   127




approximately $12.3 billion over the course of Citigroup’s participation in AGP,
TIP, and CPP, including dividends, other income, and warrant sales.431
    Bank of America announced a similar asset guarantee agreement with respect
to approximately $118 billion in Bank of America assets, but the final agreement
was never executed. Bank of America paid $425 million to the Government as a
termination fee.432 Of this $425 million, $276 million was paid to Treasury, $92
million was paid to FDIC, and $57 million was paid to the Federal Reserve.433
128             special inspector general I troubled asset relief program




                                                       Asset Support Programs
                                                       Three TARP programs have focused on supporting markets for specific asset
                                                       classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                       Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                       Businesses (“UCSB”) program.
                                                           TALF was designed to support asset-backed securities (“ABS”) transactions
      Non-Recourse Loan: Secured loan                  by providing eligible borrowers $71.1 billion in non-recourse loans through the
      in which the borrower is relieved of             Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed
      the obligation to repay the loan upon            ABS and commercial mortgage-backed securities (“CMBS”). On June 28, 2012,
      surrendering the collateral.                     Treasury reduced its obligation in TALF from $4.3 billion to $1.4 billion, the
                                                       amount of TARP funds available to manage collateral for the TALF loans in the
      Collateral: Asset pledged by a                   event that borrowers surrender collateral and walk away from the loans or if the
      borrower to a lender until a loan is             collateral is seized in the event of default.434 Of the $71.1 billion in TALF loans,
      repaid. Generally, if the borrower               $4.5 billion remains outstanding as of June 30, 2012.435
      defaults on the loan, the lender gains               PPIP uses a combination of private equity and Government equity and debt
      ownership of the pledged asset and               through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)
      may sell it to satisfy the debt. In TALF,        held by financial institutions. In July 2009, Treasury announced the selection of
      the ABS or CMBS purchased with                   nine Public-Private Investment Fund (“PPIF”) managers. Treasury has obligated
      the TALF loan is the collateral that is          $21.9 billion in TARP funds to the program. In January 2010, PPIP manager The
      posted with FRBNY.                               TCW Group Inc. (“TCW”) withdrew from the program. On April 3, 2012, PPIP
                                                       manager Invesco announced it had sold all remaining securities in its portfolio and
                                                       was in the process of winding up the fund.436 As of June 30, 2012, the remaining
                                                       seven PPIP managers are purchasing investments and managing their portfolios.
                                                           Through the UCSB loan support initiative, Treasury purchased $368.1 million
                                                       in 31 SBA 7(a) securities, which are securitized small-business loans.437 According
                                                       to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
                                                       the program with a total investment gain of about $9 million for all the securities,
                                                       including sale proceeds and payments of principal, interest, and debt.438

                                                       TALF
                                                       TALF, which was announced in November 2008, issued loans collateralized by
                                                       eligible ABS.439 According to FRBNY, TALF was “designed to increase credit
                                                       availability and support economic activity by facilitating renewed issuance of
                                                       consumer and business ABS.”440
                                                           TALF is divided into two parts:441

                                                       •	 a lending program, TALF, in which FRBNY originated and managed non-
                                                          recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
                                                          TALF’s lending program closed in 2010
                                                       •	 an asset disposition facility, TALF LLC, that purchases the collateral from
                                                          FRBNY if borrowers choose to surrender it and walk away from their loans or if
                                                          the collateral is seized in the event of default
                                                                                quarterly report to congress I July 25, 2012            129




    The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
operation.442 TALF loans are non-recourse (unless the borrower has made any mis-
representations or breaches warranties or covenants), which means that FRBNY
cannot hold the borrower liable for any losses beyond the surrender of collateral for
the TALF loan.443
    TALF LLC’s funding first comes from a fee charged to FRBNY for the commit-
ment to purchase any collateral surrendered by the borrowers. This fee is derived
from the principal balance of each outstanding TALF program loan.444 TARP is
obligated to lend to TALF LLC up to $1.4 billion to cover losses on TALF loans.445
TALF LLC may use TARP funds to purchase surrendered assets from FRBNY
and to offset losses associated with disposing of the surrendered assets. As of June         Nationally Recognized Statistical Rating
30, 2012, $4.5 billion in TALF loans was outstanding.446 “To date, the program               Organization (“NRSRO”): Credit rating
has experienced no losses and the Board continues to see it as highly unlikely that          agency registered with the SEC. Credit
recourse to TARP funds will be necessary,” the Federal Reserve Board of Governors            rating agencies provide their opinion
(“FRB”) said on June 28, 2012, after the amount of TARP money available as                   of the creditworthiness of companies
credit protection was reduced to $1.4 billion.447 According to FRBNY, no TALF                and the financial obligations issued
borrowers have surrendered collateral in lieu of repayment and consequently no               by companies. The ratings distinguish
collateral has been purchased by TALF LLC since its inception.448                            between investment grade and non–
                                                                                             investment grade equity and debt
Lending Program                                                                              obligations.
TALF’s lending program made secured loans to eligible borrowers.449 The loans
were issued with terms of three or five years and were available for non-mortgage-
backed ABS, newly issued CMBS, and legacy CMBS.450 The final maturity date of                For a discussion of the credit rating
loans in the TALF portfolio is March 30, 2015.451                                            agency industry and an analysis of
                                                                                             the impact of NRSROs on TARP
     To qualify as TALF collateral, the non-mortgage-backed ABS had to have un-
                                                                                             and the overall financial market, see
derlying loans for automobile, student, credit card, or equipment debt; insurance            SIGTARP’s October 2009 Quarterly
premium finance; SBA-guaranteed small business loans; or receivables for residen-            Report, pages 113–148.
tial mortgage servicing advances (“servicing advance receivables”). Collateral was
also required to hold the highest investment grade credit ratings from at least two
nationally recognized statistical rating organizations (“NRSROs”).452                        TALF Agent: Financial institution that
     To qualify as TALF collateral, newly issued CMBS and legacy CMBS had                    is party to the TALF Master Loan
to have been issued by an institution other than a non-Government-sponsored                  and Security Agreement and that
enterprise (“GSE”) or an agency or instrumentality of the U.S. Government, offer             occasionally acts as an agent for the
principal and interest payments, not be junior to other securities with claims on the        borrower. TALF agents include primary
same pool of loans, and possess the highest long-term investment grade credit                and nonprimary broker-dealers.
rating from at least two rating agencies.453 Newly issued CMBS had to be issued on
or after January 1, 2009, while legacy CMBS were issued before that date.454                 Haircut: Difference between the value
                                                                                             of the collateral and the value of the
Loan Terms                                                                                   loan (the loan value is less than the
TALF participants were required to use a TALF agent to apply for a TALF loan.455             collateral value).
After the collateral (the particular asset-backed security financed by the TALF loan)
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,              “Skin in the Game”: Equity stake in an
which represents the amount of money put up by the borrower (the borrower’s                  investment; down payment; the amount
“skin in the game”), was required for each TALF loan.456 Haircuts for non-                   an investor can lose.
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
130           special inspector general I troubled asset relief program




                                                     and generally ranged between 5% and 16% for non-mortgage-backed ABS with
                                                     average lives of five years or less.457 The haircut for legacy and newly issued CMBS
                                                     was generally 15% but increased above that amount if the average life of the CMBS
                                                     was greater than five years.458
                                                         FRBNY lent each borrower the amount of the market price of the pledged col-
      Custodian Bank: Bank holding the               lateral minus the haircut, subject to certain limitations.459 The borrower delivered
      collateral and managing accounts for           the collateral to the custodian bank, which collects payments generated by the
      FRBNY; for TALF the custodian is Bank          collateral and distributes them to FRBNY (representing the borrower’s payment of
      of New York Mellon.                            interest on the TALF loan).460 Any excess payments from the collateral above the
                                                     interest due and payable to FRBNY on the loan go to the TALF borrower.461

                                                     TALF Loan
                                                     TALF provided $59 billion of loans to purchase non-mortgage-backed ABS during
                                                     the lending phase of the program, which ended on March 11, 2010. As of June 30,
                                                     2012, $3.4 billion was outstanding.462 Table 2.33 lists all TALF loans collateralized
                                                     by non-mortgage-backed ABS, by ABS sector.

                                                     Table 2.33
                                                      TALF Loans BACKED BY ABS (Non-mortgage-backed Collateral)
                                                      ($ Billions)

                                                      ABS Sector
                                                      Auto Loans                                                                                                  $12.8
                                                      Credit Card Receivables                                                                                      26.3
                                                      Equipment Loans                                                                                                1.6
                                                      Floor Plan Loans                                                                                               3.9
                                                      Premium Finance                                                                                                2.0
                                                      Servicing Advance Receivables                                                                                  1.3
                                                      Small-Business Loans                                                                                           2.2
                                                      Student Loans                                                                                                  8.9
                                                      Total                                                                                                      $59.0
                                                      Notes: Numbers may be affected by rounding. Data as of 6/30/2012.

                                                      Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_
                                                      operations.html, accessed 7/21/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.
                                                      newyorkfed.org/markets/TALF_recent_operations.html, accessed 7/21/2012.



                                                        TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                                     phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                                     loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.463
                                                     As of June 30, 2012, $1.1 billion was outstanding.464 Table 2.34 includes all TALF
                                                     CMBS loans.
                                                                                                                        quarterly report to congress I July 25, 2012   131




Table 2.34
 TALF LOANS BACKED BY CMBS                         ($ Billions)

 Type of Collateral
 Assets
 Newly Issued CMBS                                                                                                $ 0.1
 Legacy CMBS                                                                                                       12.0
 Total                                                                                                           $12.1
 Notes: Numbers may be affected by rounding. Data as of 6/30/2012.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
 html, accessed 7/21/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/
 markets/CMBS_recent_operations.html, accessed 7/21/2012.



  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including:465

•	 the names of all the borrowers from TALF (some of which share a parent
   company)
•	 each borrower’s city, state, and country
•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan
•	 outstanding loan amount as of September 30, 2010
•	 the loan date
•	 the loan maturity date
•	 the date of full repayment (if applicable)
•	 the date of loan assignment (if applicable)
•	 the loan rate (fixed or floating)
•	 the market value of the collateral associated with the loan at the time the loan
   was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset and subclass

   As of June 30, 2012, $66.5 billion in TALF loans had been repaid. According to
FRBNY, the outstanding collateral on the remaining $4.5 billion in TALF loans was
performing as expected.466

Asset Disposition Facility
When FRBNY created TALF LLC, TARP loaned the facility $100 million. Of this
initial funding, $15.8 million was allocated to cover administrative costs.467 TARP
will continue to fund TALF LLC, as needed to cover losses, until TARP’s entire
$1.4 billion obligation has been disbursed, all TALF loans are retired, or the loan
commitment term expires. The last loan matures in 2015. Any additional funds, if
needed, will be provided by a loan from FRBNY that will be collateralized by the
assets of TALF LLC and will be senior to the TARP loan.468 Payments by TALF
LLC from the proceeds of its holdings will be made in the following order:469
132            special inspector general I troubled asset relief program




                                                      •	   operating expenses of TALF LLC
                                                      •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                      •	   principal due to Treasury
                                                      •	   interest due to FRBNY
                                                      •	   interest due to Treasury
                                                      •	   other secured obligations

                                                           Any remaining money will be shared by Treasury (90%) and FRBNY (10%).470

                                                      Current Status
                                                      As of June 30, 2012, TALF LLC had assets of $845 million, which included the
                                                      $100 million in initial TARP funding.471 The remainder consisted of interest and
                                                      other income and fees earned from permitted investments. From its February 4,
                                                      2009, formation through June 30, 2012, TALF LLC had spent approximately $2.3
                                                      million on administration.472
                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                      the program shifted primarily to portfolio management, which includes the follow-
                                                      ing duties:473

      Excess Spread: Funds left over                  •	 maintaining documentation
      after required payments and other               •	 overseeing the custodian that is responsible for holding ABS collateral
      contractual obligations have been met.          •	 calculating and collecting principal and interest on TALF loans
      In TALF it is the difference between            •	 disbursing excess spread to TALF borrowers in accordance with the governing
      the periodic amount of interest paid               documents
      out by the collateral and the amount            •	 monitoring the TALF portfolio
      of interest charged by FRBNY on the             •	 collecting and managing collateral assets if a borrower defaults or surrenders the
      nonrecourse loan provided to the                   collateral in lieu of repayment
      borrower to purchase the collateral.            •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                         of FRBNY’s cost of funding
                                                                                   quarterly report to congress I July 25, 2012              133




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                     Legacy Securities: Real estate-related
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual               securities originally issued before
funds, pension funds, and other eligible financial institutions as defined in EESA,             2009 that remained on the balance
through Public-Private Investment Funds (“PPIFs”).474 PPIFs are partnerships,                   sheets of financial institutions because
formed specifically for this program, that invest in mortgage-backed securities using           of pricing difficulties that resulted from
equity capital from private-sector investors combined with TARP equity and debt.                market disruption.
A private-sector fund management firm oversees each PPIF on behalf of these
investors. According to Treasury, the aim of PPIP was to “restart the market for                Equity: Investment that represents an
legacy securities, allowing banks and other financial institutions to free up capital           ownership interest in a business.
and stimulate the extension of new credit.”475 PPIP originally included a Legacy
Loans subprogram that would have involved purchases of troubled legacy loans
with private and Treasury equity capital, as well as an FDIC guarantee for debt
financing. TARP funds were never disbursed for this subprogram.
    Treasury selected nine fund management firms to establish PPIFs. One PPIP
manager, The TCW Group, Inc., (“TCW”) subsequently withdrew, and another
PPIP manager, Invesco, has sold all remaining securities in its PPIP fund. Private              For more information on the selection
                                                                                                of PPIP managers, see SIGTARP’s
investors and Treasury co-invested in the PPIFs to purchase legacy securities from
                                                                                                October 7, 2010, audit report entitled
financial institutions. The fund managers raised private-sector capital. Treasury               “Selecting Fund Managers for the
matched the private-sector equity dollar-for-dollar and provided debt financing                 Legacy Securities Public-Private
in the amount of the total combined equity. Each PPIP manager was also re-                      Investment Program.”
quired to invest at least $20 million of its own money in the PPIF.476 Each PPIF
                                                                                                For more information on the
is approximately 75% TARP funded. PPIP was designed as an eight-year program
                                                                                                withdrawal of TCW as a PPIP
giving PPIP managers until 2017 to sell the assets in their portfolio. Under certain            manager, see SIGTARP’s January
circumstances, Treasury can terminate the program early or extend it for up to two              2010 Quarterly Report, page 88.
additional years.477
    Treasury, the PPIP managers, and the private investors share PPIF profits and
losses on a pro rata basis based on their limited partnership interests. Treasury also
received warrants in each PPIF that give Treasury the right to receive a portion of
the fund’s profits that would otherwise be distributed to the private investors along
with its pro rata share of program proceeds.478
    The PPIP portfolio was valued at $19.8 billion as of June 30, 2012, according
to a process administered by Bank of New York Mellon, acting as valuation agent.479
That was $1.4 billion lower than the portfolio value at the end of the previous quar-
ter. The PPIP portfolio consists of eligible securities and cash assets to be used to



 Debt: Investment in a business that is       Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
 required to be paid back to the investor,    among a group of participants according       there is at least one partner whose
 usually with interest.                       to the proportionate share that each          liability is limited to the amount invested
                                              participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                            whose liability extends beyond monetary
                                                                                            investment (general partner).
134            special inspector general I troubled asset relief program




                                                      purchase securities. The securities eligible for purchase by PPIFs (“eligible
      Non-Agency Residential Mortgage-                assets”) are non-agency residential mortgage-backed securities (“non-agency
      Backed Securities (“non-agency                  RMBS”) and commercial mortgage-backed securities (“CMBS”) that meet the
      RMBS”): Financial instrument backed             following criteria:480
      by a group of residential real estate
      mortgages (i.e., home mortgages for             •	 issued before January 1, 2009 (legacy)
      residences with up to four dwelling             •	 rated when issued AAA or equivalent by two or more credit rating agencies
      units) not guaranteed or owned by                  designated as nationally recognized statistical rating organizations (“NRSROs”)
      a Government-sponsored enterprise               •	 secured directly by actual mortgages, leases, or other assets, not other securities
      (“GSE”) (Fannie Mae or Freddie Mac),               (other than certain swap positions, as determined by Treasury)
      or a Government agency.                         •	 located primarily in the United States (the loans and other assets that secure the
                                                         non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions that are eligible for TARP participation

                                                      PPIP Process
                                                      The following steps describe the process by which funds participate in PPIP:481

                                                      1.	 Fund managers applied to Treasury to participate in the program.
                                                      2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                                      3.	 Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
                                                          Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                          a profit.
                                                      4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
                                                          total equity investment (including the amount invested by Treasury).
                                                      5.	 Each fund manager purchases and manages the legacy securities and provides
                                                          monthly reports to its investors, including Treasury.

                                                         Obligated funds are not given immediately to PPIP managers. Instead, PPIP
                                                      managers send a notice to Treasury and the private investors requesting a “draw
                                                      down” of portions of obligated contributions in order to purchase specific invest-
                                                      ments or to pay certain expenses and debts of the partnerships.482

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                                      $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                                      power. The fund-raising stage for PPIFs was completed in December 2009.
                                                           After the capital-raising stage, Treasury obligated $22.4 billion in a combination
                                                      of matching equity funds and debt financing for PPIP; that was reduced to $21.9
                                                      billion after PPIP manager Invesco terminated its investment period in September
                                                      2011.483 As of June 30, 2012, there is $28.9 billion in PPIF purchasing power from
                                                      private and TARP capital. Table 2.35 shows equity and debt committed by Treasury
                                                      for current PPIFs under the program.
                                                                                                                                      quarterly report to congress I July 25, 2012   135




TABLE 2.35
 Public-private investment program PURCHASING POWER, AS OF
 6/30/2012 ($ Billions)
                                                          Private-                                                             Total
                                                     Sector Equity               Treasury              Treasury           Purchasing
 Manager                                                   Capital                 Equity                  Debt               Power
 Active Funds
 AG GECC PPIF Master Fund, L.P.                                    $1.2                 $1.2                  $2.5                  $5.0
 AllianceBernstein Legacy
                                                                     1.2                 1.2                    2.3                   4.6
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                                0.7                 0.7                    1.4                   2.8
 Marathon Legacy Securities Public-
 Private Investment Partnership,                                     0.5                 0.5                    0.9                   1.9
 L.P.
 Oaktree PPIP Fund, L.P.                                             1.2                 1.2                    2.3                   4.6
 RLJ Western Asset Public/Private
                                                                     0.6                 0.6                    1.2                   2.5
 Master Fund, L.P.
 Wellington Management Legacy
                                                                     1.1                 1.1                    2.3                   4.6
 Securities PPIF Master Fund, LP
 Totals for Active Funds                                           $6.5                $6.5                 $13.0                 $26.0
 Inactive Funds        a


 Invesco Legacy Securities Master
                                                                   $0.9                 $0.9                  $1.2                  $2.9
 Fund, L.P.b
 Totals for All Funds                                              $7.4                $7.4                 $14.2                 $28.9C
 Notes: Numbers may not total due to rounding.
 a
   	Purchasing power figures show what was available to funds when they were actively investing.
 b
   	Invesco did not draw down all committed equity and debt available before terminating its investment period. Treasury has reduced
    its debt obligation to the fund, but will not reduce its equity obligation until the fund is formally liquidated.
 c
   	Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not
    included in the total purchasing power.

 Source: Treasury, response to SIGTARP data call, 7/5/2012.



    Each current PPIP manager has up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.484 During this period, the program will strive to main-
tain “predominantly a long-term buy and hold strategy.”485 The last of the three-year
investment periods expires in December 2012.
    At the end of the PPIF investment period, fund managers have five years ending
in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
to taxpayers and investors. This period may be extended up to two years.486
136   special inspector general I troubled asset relief program




                                                              Amounts Drawn Down
                                                              The eight PPIP managers (including Invesco) had drawn down approximately
                                                              $24.2 billion to buy legacy securities and cash assets through June 30, 2012,
                                                              spending $6.1 billion in private-sector equity capital and $18.1 billion in TARP
                                                              equity and debt funding.487 That included a combined $873 million drawn down
                                                              by two fund managers, Oaktree PPIP Fund, L.P. (“Oaktree”) and Wellington
                                                              Management Legacy Securities PPIF Master Fund, LP (“Wellington”), in the
                                                              quarter ended June 30, 2012.488 Treasury also disbursed $356.3 million to TCW,
                                                              which TCW fully repaid in early 2010 when it withdrew from the program.489
                                                                  Five PPIP managers have drawn down at least 90% of their available PPIP
                                                              capital to purchase legacy securities as of June 30, 2012.490 Among the active
                                                              funds, Oaktree, the only fund limited solely to purchasing CMBS, had drawn down
                                                              the smallest amount, 48%, of its available capital. Table 2.36 shows how much
                                                              each PPIF has drawn down from the private and Government money available to it
                                                              to buy real-estate backed securities.

           Table 2.36
            PPIP CAPITAL DRAWN DOWN, AS OF 6/30/2012 ($ BILLIONS)
                                                                Purchasing                Private-                Treasury                Treasury
                                                                    Power            Sector Equity            Equity Drawn              Debt Drawn               Total Drawn              Purchasing
            Manager                                               Available           Drawn Down                      Down                    Down                      Down              Power Used
            Active Funds
            AG GECC PPIF Master Fund, L.P.                                 $5.0                     $1.1                    $1.1                    $2.2                     $4.5                     90%
            AllianceBernstein Legacy
                                                                             4.6                     1.1                      1.1                     2.1                      4.3                    92%
            Securities Master Fund, L.P.
            BlackRock PPIF, L.P.                                             2.8                     0.5                      0.5                     1.1                      2.1                    76%
            Marathon Legacy Securities
            Public-Private Investment                                        1.9                     0.5                      0.5                     0.9                      1.9                  100%
            Partnership, L.P.
            Oaktree PPIP Fund, L.P.                                          4.6                     0.6                      0.6                     1.1                      2.2                    48%
            RLJ Western Asset Public/
                                                                             2.5                     0.6                      0.6                     1.2                      2.5                  100%
            Private Master Fund, L.P.
            Wellington Management Legacy
                                                                             4.6                     1.1                      1.1                     2.2                      4.5                    97%
            Securities PPIF Master Fund, LP
            Totals for Active Funds                                      $26.0                     $5.5                     $5.5                  $10.9                   $21.9                      84%
            Inactive Funds
            Invesco Legacy Securities
                                                                           $2.9                     $0.6                    $0.6                    $1.2                     $2.3                     81%
            Master Fund, L.P.a
            Totals for All Fundsb                                        $28.9                     $6.1                     $6.1                  $12.0                    $24.2                     84%
            Notes: Numbers may not total due to rounding.
            a
              	Invesco did not fully draw down all committed equity and debt available to it. Treasury has reduced its debt obligation to the fund, but will not reduce its equity obligation until the fund
                is formally liquidated.
            b
              	Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not included in the total purchasing power.

            Source: Treasury, response to SIGTARP data call, 7/5/2012.
                                                                                                                                    quarterly report to congress I July 25, 2012   137




Amounts Paid to Treasury
PPIP managers make monthly debt interest payments to Treasury. In addition,
through June 30, 2012, five of the seven active PPIP managers have repaid $1.6
billion in TARP debt. Invesco finished repaying its $1.2 billion in debt earlier this
year and another $200 million in debt was repaid by TCW when it liquidated its
fund in 2010, for a total of $3 billion in debt repayments to Treasury to date.491
     Most of the active PPIFs have also begun repaying Treasury’s equity invest-
ments. They repaid $687 million through June 30, 2012, in addition to repayments
by Invesco and TCW. All seven active PPIFs also paid a total of $1.3 billion to
the Government through June 30, 2012, in equity distributions, which Treasury
defined as profits from sales of PPIF securities.492 Table 2.37 shows each fund’s
payments to Treasury through June 30, 2012.

Table 2.37
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 6/30/2012                                                         ($ MILLIONS)

                                                                  Debt                 Debt               Equity                   Equity             Equity
                                                              Principal             Interest             Capital             Distribution            Warrant
 Manager                                                     Payments             Payments            Paymentsa               Payments             Paymentsb
 Active Funds
 AG GECC PPIF Master Fund, L.P.                                      $523                  $57                $262                     $420                  $—
AllianceBernstein Legacy Securities
                                                                       805                   56                 342                      517                   —
Master Fund, L.P.
BlackRock PPIF, L.P.                                                     —                   30                    —                         3                 —
Marathon Legacy Securities Public-
                                                                         —                   22                    —                       44                  —
Private Investment Partnership, L.P.
Oaktree PPIP Fund, L.P.                                                158                     9                  79                       92                  —
RLJ Western Asset Public/Private
                                                                         14                  35                     5                    114                   —
Master Fund, L.P.
Wellington Management Legacy
                                                                       125                   48                    —                     110                   —
Securities PPIF Master Fund, LP
Totals for Active Funds                                          $1,624                  $257                 $687                 $1,301                    $—
Inactive Funds
UST/TCW Senior Mortgage Securities
                                                                     $200                 $0.3                $156                     $176                 $0.5
Fund, L.P.
Invesco Legacy Securities Master
                                                                    1,162                    18                 581                      718                     3
Fund, L.P.
Totals for All Funds                                             $2,986                  $276              $1,424                  $2,195                      $4
 Notes: Numbers may not total due to rounding. Excludes management fees and expenses.
 a
   	In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
   	Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
     the private partners in excess of their contributed capital.

 Source: Treasury, response to SIGTARP data call, 7/5/2012.
138   special inspector general I troubled asset relief program




                                             PPIP Manager Invesco Sells Portfolio
                                             Invesco was the first of the eight remaining PPIP funds to sell its portfolio. It
                                             announced on April 3, 2012, that it had sold all of its PPIP-eligible securities
                                             at a profit and returned “substantially all of its proceeds” to investors, including
                                             Treasury.493 Invesco said the fund, which began in October 2009, earned an
                                             internal rate of return of about 18%.494 Over the life of the fund, which invested
                                             solely in RMBS, according to Treasury, it received approximately $18 million in
                                             interest, $3 million in equity warrant proceeds, and $135 million in cumulative
                                             realized gains, net of fees and expenses, on Treasury’s equity investment of $581
                                             million.495 Treasury also loaned $1.2 billion to the Invesco fund, which was repaid
                                             with interest.496 While Invesco’s PPIF no longer holds any RMBS, Treasury said
                                             Invesco had kept about $2.3 million in temporary investments to pay final audit
                                             and other expenses of the fund until it is formally liquidated in the next few
                                             months.497 The Invesco fund invested $2.3 billion of the $3.4 billion in total private
                                             and Government purchasing power available to it.

                                             Fund Performance
                                             The program’s three-year investment period draws to a close in the final months of
                                             2012 for the remaining PPIP funds. Four funds — AG GECC, AllianceBernstein,
                                             BlackRock, and Wellington — face October deadlines to make any additional
                                             investments in eligible securities. The investment period terminates in November
                                             for RLJ Western and Marathon, and in December for Oaktree.
                                                 Each fund has reported rates of return for its portfolio of investments during
                                             the past two and one-half years, based on a methodology requested by Treasury.
                                             The lifetime net internal rates of return range from 7.4% for Wellington to 21.2%
                                             for Oaktree. Each PPIF’s performance — its gross and net returns since inception
                                             — as reported by PPIP managers, is listed in Table 2.38.
                                                 The data in Table 2.38 constitutes a snapshot of the funds’ performance during
                                             the quarter ended June 30, 2012, and may not predict the funds’ performance over
                                             the long term. According to some PPIP managers, it would be premature to draw
                                             any long-term conclusions because, among other reasons, some managers have not
                                             fully executed their investment strategies or fully drawn down Treasury’s capital or
                                             debt obligations.
                                                                                                                                  quarterly report to congress I July 25, 2012   139




TABLE 2.38

 PPIF investment status, AS OF 6/30/2012
                                                                                                                          Internal
                                                                                                                           Rate of
                                                   1-Month             3-Month             Cumulative               Return Since
                                                    Return              Return         Since Inception                  Inception
 Manager                                          (percent)          (percent)a              (percent)                 (percent)b
 Investment Period Open

 AG GECC PPIF Master                  Gross                4.60                2.57                    78.91                     19.64
 Fund, L.P.                           Net                  4.59                2.48                    75.64                     19.16
 AllianceBernstein Legacy             Gross                3.51                2.45                    51.29                     17.00
 Securities Master Fund,
 L.P.                                 Net                  3.54                2.21                    45.57                     15.52
                                      Gross                2.01                1.88                    58.91                     17.22
 BlackRock PPIF, L.P.
                                      Net                  1.97                1.64                    53.96                     15.88
 Marathon Legacy                      Gross                2.12                2.23                    52.89                     15.15
 Securities Public-Private
 Investment Partnership,
 L.P.                                 Net                  2.06                1.95                    46.37                     13.72

                                      Gross                6.12                3.99                    55.32                     22.65
 Oaktree PPIP Fund, Inc.
                                      Net                  6.09                3.71                    46.33                     21.17
 RLJ Western Asset                    Gross                2.15                1.06                    58.03                     18.78
 Public/Private Master
 Fund, L.P.                           Net                  2.11                0.78                    53.25                     17.45
 Wellington Management                Gross                2.07                1.75                    30.98                       8.75
 Legacy Securities PPIF
 Master Fund, LP                      Net                  2.01                1.75                    26.37                       7.35
 Investment Period Closed
 UST/TCW Senior
 Mortgage Securities                  Net                   N/A                 N/A                       N/A                       N/A
 Fund, L.P.c
 Invesco Legacy
 Securities Master Fund,              Net                   N/A                 N/A                    33.50                     18.24
 L.P.
 Notes: The performance indicators are listed as reported by the PPIP managers without further analysis by SIGTARP. The net returns
 include the deduction of management fees and partnership expenses attributable to Treasury.
 a
   	Time-weighted, geometrically linked returns.
 b
   	Dollar-weighted rate of return.
 c
   	According to Treasury, rates of return are not available for TCW because it operated for only three months before withdrawing from
    the program.

 Sources: PPIF Monthly Performance Reports submitted by each PPIP manager, June 2012, received 7/16/2012 and 7/17/2012;
 Treasury response to SIGTARP data call, 7/18/2012.
140                special inspector general I troubled asset relief program




      Figure 2.3                                               Securities Purchased by PPIFs
      AGGREGATE COMPOSITION OF PPIF                            According to their agreements with Treasury, PPIP managers may trade in both
      PURCHASES, AS OF 6/30/2012                               RMBS and CMBS, except for Oaktree, which may purchase only CMBS.498 Figure
      Percentage of $19.8 Billion
                                                               2.3 shows the collective value of securities purchased by all PPIFs as of June 30,
                                                               2012, broken down by RMBS and CMBS.
             CMBS
                                                                   PPIF investments can be classified by underlying asset type. All non-agency
                                                               RMBS investments are considered residential. The underlying assets are mortgages
                         28%
                                                               for residences with up to four dwelling units. For CMBS, the assets are com-
                                          72%         RMBS     mercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                                               as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                                               or residential uses), and self-storage. Figure 2.4 breaks down CMBS investment
                                                               distribution by sector. As of June 30, 2012, the aggregate CMBS portfolio had large
      Notes: Numbers may be affected by rounding. Calculated   concentrations in office (31%) and retail (28%) loans.
      based on monthly data supplied by the PPIF managers.
                                                                   Non-agency RMBS and CMBS can be classified by the degree of estimated
      Source: PPIF Monthly Performance Reports, June 2012.     default risk (sometimes referred to as “quality”). Investors are most concerned
                                                               about whether borrowers will default and the underlying collateral will be sold at a
      Figure 2.4                                               loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
      AGGREGATE CMBS PURCHASES BY                              There are no universal standards for ranking mortgage quality, and the designations
      SECTOR, AS OF 6/30/2012                                  vary depending on context. In general, the highest-quality rankings are granted to
      Percentage of $5.5 Billion                               mortgages that have the strictest requirements regarding borrower credit, complete-
                        Others                                 ness of documentation, and underwriting standards. Treasury characterizes these
                            8%
                                                               investment-quality levels of risk for the types of mortgage loans that support non-
      Lodging/                           31%                   agency RMBS as follows:499
         Hotel       12%
                                                               •	 Prime — mortgage loan made to a borrower with good credit that generally
       Industrial 6%
                                                                  meets the lender’s strictest underwriting criteria. Non-agency prime loans
                        15%           28%                         generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
         Multi-family

                                             Retail               but may include lower-balance loans as well.
                                                               •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
      Notes: Numbers may be affected by rounding. Calculated      documentation or other characteristics that do not meet the standards for prime
      based on monthly data supplied by the PPIF managers.
                                                                  loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
      Source: PPIF Monthly Performance Reports, June 2012.
                                                                  loan-to-value ratio, or limited or no documentation, compared with a prime
                                                                  loan.
                                                               •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                                               •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                                  gives the borrower a set of choices about how much interest and principal to
                                                                  pay each month. This may result in negative amortization (an increasing loan
                                                                  principal balance over time).
                                                               •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                                  subprime, or option ARM but meet the definition of “eligible assets” above.
                                                                                                                  quarterly report to congress I July 25, 2012   141




   Treasury characterizes CMBS according to the degree of “credit enhancement”
supporting them:500

•	 Super Senior — most senior originally rated AAA bonds in a CMBS
   securitization with the highest level of credit enhancement. Credit enhancement
   refers to the percentage of the underlying mortgage pool by balance that
   must be written down before the bond suffers any losses. Super senior bonds
   often compose approximately 70% of a securitization and, therefore, have
   approximately 30% credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.501 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
   AAA rating at issuance.
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets” above.

  Figure 2.5 and Figure 2.6 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels, as reported by PPIP
managers.

Figure 2.5	                                              Figure 2.6
AGGREGATE RMBS PURCHASES BY                              AGGREGATE CMBS PURCHASES BY
QUALITY, AS OF 6/30/2012                                 QUALITY, AS OF 6/30/2012
Percentage of $14.3 Billion                              Percentage of $5.5 Billion


        Other - RMBS a 0%
                                                                   Other - CMBS 1% Super Senior
         Option ARM
                      10%                                                       7%
                                            Prime
  Subprime      12%                 29%

                                                         AJ (Junior) 33%                       59% AM (Mezzanine)



            Alt-A     50%



Notes: Numbers may be affected by rounding. Calculated   Notes: Numbers may be affected by rounding. Calculated
based on monthly data supplied by the PPIF managers.     based on monthly data supplied by the PPIF managers.
a
  The actual percentage for “Other RMBS” is 0.32%.

Source: PPIF Monthly Performance Reports, June 2012.     Source: PPIF Monthly Performance Reports, June 2012.
142   special inspector general I troubled asset relief program




                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figure 2.7 and Figure 2.8 show
                                             the states with the greatest representation in the underlying non-agency RMBS and
                                             CMBS investments in PPIFs, as reported by PPIP managers.

                                             Figure 2.7	                                                   Figure 2.8
                                             AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
                                             DISTRIBUTION — PERCENT OF                                     DISTRIBUTION — PERCENT OF
                                             TOTAL RMBS, AS OF 6/30/2012                                   TOTAL CMBS, AS OF 6/30/2012

                                                  40%      42%                                                  15%
                                                                                                                          15%

                                                   30
                                                                                                                 10                   12%


                                                   20                                                                                              8%
                                                                                                                                                                7%
                                                                                                                  5
                                                   10
                                                                        9%
                                                                                                3%
                                                                                    6%
                                                    0                                                             0
                                                            CA          FL           NY         VA                        CA          NY            TX          FL

                                             Notes: Only states with the largest representation shown.     Notes: Only states with largest representation shown. Calculated
                                             Calculated based on monthly data supplied by PPIF managers.   based on monthly data supplied by the PPIF managers.

                                             Source: PPIF Monthly Performance Reports, June 2012.          Source: PPIF Monthly Performance Reports, June 2012.



                                                Non-agency RMBS and CMBS can also be classified by the delinquency of
                                             the underlying mortgages. Figure 2.9 and Figure 2.10 show the distribution of
                                             non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
                                             reported by PPIP managers.

                                             Figure 2.9	                                                   Figure 2.10
                                             AGGREGATE AVERAGE RMBS                                        AGGREGATE AVERAGE CMBS
                                             DELINQUENCIES BY MARKET VALUE,                                DELINQUENCIES BY MARKET VALUE,
                                             AS OF 6/30/2012                                               AS OF 6/30/2012
                                             Percentage of $14.3 Billion                                   Percentage of $5.5 Billion


                                                                                                           1% 30−59 Days          60+ Days

                                                                                                                                  11%
                                               60+ Days      27%



                                                30−59 3%                           70% Current
                                                Days

                                                                                                                                              88%
                                                                                                                                                      Current


                                             Notes: Numbers may be affected by rounding. Calculated        Notes: Numbers may be affected by rounding. Calculated
                                             based on monthly data supplied by the PPIF managers.          based on monthly data supplied by the PPIF managers.

                                             Source: PPIF Monthly Performance Reports, June 2012.          Source: PPIF Monthly Performance Reports, June 2012.
                                                                              quarterly report to congress I July 25, 2012           143




Unlocking Credit for Small Businesses (“UCSB”)/Small
                                                                                           7(a) Loan Program: SBA loan program
Business Administration (“SBA”) Loan Support Initiative
                                                                                           guaranteeing a percentage of loans for
On March 16, 2009, Treasury announced the Unlocking Credit for Small
                                                                                           small businesses that cannot otherwise
Businesses (“UCSB”) program, which according to Treasury was designed to
                                                                                           obtain conventional loans at reasonable
encourage banks to increase lending to small businesses. Through UCSB, Treasury
                                                                                           terms.
purchased $368.1 million in securities backed by pools of loans from the Small
Business Administration’s (“SBA”) 7(a) Loan Program.502
                                                                                           Pool Assemblers: Firms authorized
    Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
                                                                                           to create and market pools of SBA-
(“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
                                                                                           guaranteed loans.
March 2, 2010, and August 27, 2010, respectively.503 Under the governing agree-
ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
                                                                                           SBA Pool Certificates: Ownership
from Coastal Securities and Shay Financial without confirming to the counterpar-
                                                                                           interest in a bond backed by SBA-
ties that Treasury was the buyer.504 From March 19, 2010, to September 28, 2010,
                                                                                           guaranteed loans.
Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
Shay Financial for a total of approximately $368.1 million.505
    In a series of sales from June 2011 through January 2012, Treasury sold all its
SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.506          For more information on SBA 7(a)
                                                                                           Loan Program mechanics and TARP
According to Treasury, over the life of the program Treasury also had received             support for the program, see SIGTARP’s
$29 million and $13.3 million in amortizing principal and interest payments,               April 2010 Quarterly Report, pages
respectively.507                                                                           105-106.

                                                                                           For a full listing of the SBA 7(a)
                                                                                           securities Treasury purchased through
                                                                                           UCSB, including investment amounts,
                                                                                           sales proceeds, and other proceeds
                                                                                           received by Treasury, see SIGTARP’s
                                                                                           April 2012 Quarterly Report, page 134.
144   special inspector general I troubled asset relief program




                                             Automotive Industry Support Programs
                                             During the financial crisis, Treasury, through TARP, launched three automotive
                                             industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                             the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                             Program (“AWCP”). According to Treasury, these programs were established “to
                                             prevent a significant disruption of the American automotive industry that poses
                                             a systemic risk to financial market stability and will have a negative effect on the
                                             economy of the United States.”508 As of June 30, 2012, General Motors Company
                                             (“New GM” or “GM”) and GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
                                             Financial”), remain in TARP.
                                                  AIFP has not expended any TARP funds for the automotive industry since
                                             December 30, 2009.509 ASSP, designed to “ensure that automotive suppliers receive
                                             compensation for their services and products,” was terminated in April 2010 after
                                             all $413.1 million in loans made through it were fully repaid.510 AWCP, a $640.7
                                             million program, was designed to assure car buyers that the warranties on any
                                             vehicles purchased during the bankruptcies of General Motors Corp. (“Old GM”)
                                             and Chrysler LLC (“Old Chrysler”) would be guaranteed by the Government. It
                                             was terminated in July 2009 after all loans under the program were fully repaid
                                             upon the companies’ emergence from bankruptcy.511
                                                  Treasury obligated approximately $84.8 billion through these three programs
                                             to Old GM and GM, Ally Financial, the Chrysler entities (Chrysler Holding LLC
                                             [now called CGI Holding LLC], Chrysler LLC [collectively, with CGI Holding
                                             LLC, “Old Chrysler”], Chrysler Group LLC [“New Chrysler”]), and Chrysler
                                             Financial Services Americas LLC (“Chrysler Financial”).512 Treasury originally obli-
                                             gated $5 billion under ASSP but adjusted this amount to $413.1 million to reflect
                                             actual borrowings, thereby reducing at that time the total obligation for all automo-
                                             tive industry support programs to approximately $81.8 billion. Treasury spent $79.7
                                             billion in TARP funds on the auto bailout because $2.1 billion in loan commit-
                                             ments to New Chrysler were never drawn down.513 As of June 30, 2012, Treasury
                                             had received approximately $35.2 billion in principal repayments, proceeds from
                                             preferred stock redemptions, and stock sale proceeds in addition to $4.8 billion in
                                             dividends and interest.514 Taxpayers are owed $44.5 billion in TARP auto funds.
                                             This includes the $2.9 billion loss on Chrysler. The amount and types of Treasury’s
                                             outstanding AIFP investments have changed over time as a result of principal
                                             repayments, preferred stock redemptions by the issuer, Treasury’s sale of common
                                             stock, old loan conversions (into equity), and post-bankruptcy restructurings.
                                                  Treasury now holds 32% of the common equity in New GM.515 Treasury
                                             also holds an administrative claim in Old GM’s bankruptcy with an outstanding
                                             principal amount of approximately $849.2 million based on loans made to Old
                                             GM. However, according to Treasury, it does not expect to recover any significant
                                             additional proceeds from this claim.516 Additionally, Treasury holds $5.9 billion in
                                             mandatorily convertible preferred shares (“MCP”) and approximately 74% of the
                                             common equity in Ally Financial.517 On July 21, 2011, Treasury sold to Fiat North
                                             America LLC (“Fiat”) Treasury’s remaining equity ownership interest in New
                                                                                                                                  quarterly report to congress I July 25, 2012   145




Chrysler and Treasury’s rights to receive proceeds under an agreement with the
United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New
Chrysler. Treasury retains the right to recover certain proceeds from Old Chrysler’s
bankruptcy but, according to Treasury, it is unlikely to fully recover this claim.
    Treasury’s investments in these three programs and the companies’ payments
of principal are summarized in Table 2.39 and, for Chrysler and GM, categorized
by the timing of the investment in relation to the companies’ progressions through
bankruptcy.

Table 2.39
 TARP Automotive programs expenditures and payments,
 AS OF 6/30/2012 ($ BILLIONS)
                                                                           Chrysler            Ally Financial Inc.
                                     Chryslera                GMb          Financial           (formerly GMAC)d                  Total
 Pre-Bankruptcy
    AIFP                                   $4.0           $19.4                  $1.5                          $17.2            $42.1
    ASSP   c
                                             0.1              0.3                                                                   0.4
    AWCP                                     0.3              0.4                                                                   0.6
    Subtotal                               $4.4           $20.1                  $1.5                         $17.2             $43.1
 In-Bankruptcy
 (DIP Financing)
    AIFP                                   $1.9           $30.1                                                                 $32.0
    Subtotal                               $1.9           $30.1                                                                 $32.0
 Post-Bankruptcy
 (Working Capital)
    AIFP                                   $4.6                                                                                   $4.6
    Subtotal                               $4.6                                                                                   $4.6
 Subtotals by Program:
    AIFP                                                                                                                        $78.7
    ASSP                                                                                                                            0.4
    AWCP                                                                                                                            0.6
 Total Expenditures                      $10.9            $50.2                  $1.5                         $17.2             $79.7
 Principal Repaid to
                                          ($8.0)          ($23.2)               ($1.5)                          ($2.5)e        ($35.2)
 Treasury
 Net Expenditures                          $2.9           $27.0                  $0.0                         $14.7             $44.5
 Total Loss on
                                           $2.9                                                                                   $2.9
 Investment
 Notes: Numbers may not total due to rounding.
 a
   Total repayments including Treasury’s sale to Fiat of its equity ownership interest in New Chrysler and Treasury’s rights to receive
    proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler for
    $560 million on July 21, 2011.
 b
      Including GM’s debt payments of $50 million on March 31, 2011, $45 million on April 5, 2011, approximately $15.9 million on
      May 3, 2011, approximately $0.1 million on December 16, 2011, approximately $18.9 million on December 23, 2011, and
      approximately $6.7 million on January 11, 2012.
 c
    The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
     billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
 d
      Total expenditures include $884 million loan to Old GM, which Old GM invested in GMAC in January 2009.
 e
     On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.5
      billion in principal repayment to Treasury.

 Source: Treasury, Transactions Report, 6/27/2012.
146   special inspector general I troubled asset relief program




                                             Automotive Industry Financing Program
                                             Treasury provided $79.7 billion through AIFP to support automakers and
                                             their financing arms in order to “avoid a disorderly bankruptcy of one or more
                                             auto[motive] companies.”518 As of June 30, 2012, Treasury had received approxi-
                                             mately $4.8 billion in dividends and interest from participating companies.519 Of
                                             AIFP-related loan principal repayments and share sale proceeds, Treasury has
                                             received approximately $22.5 billion related to its GM investment, $7.6 billion
                                             related to its Chrysler investment, $2.5 billion related to its Ally Financial/GMAC
                                             investment, and $1.5 billion related to its Chrysler Financial investment.520 As
                                             discussed below, additional payments of $640.7 million and $413.1 million, respec-
                                             tively, were received under AWCP and ASSP.521
                                                  Taxpayers are still owed $27 billion for the TARP investment in GM and $14.7
                                             billion for the TARP investment in Ally Financial.522 Taxpayers suffered a $2.9
                                             billion loss on the TARP investment in Chrysler. Chrysler Financial fully repaid the
                                             TARP investment.

                                             GM
                                             GM is still in TARP and taxpayers are owed $27 billion for the investment in GM.
                                             In return for its investment, as of June 30, 2012, Treasury holds 32% of GM’s
                                             common stock. Through June 30, 2012, Treasury had provided approximately
                                             $49.5 billion to GM through AIFP. Of that amount, $19.4 billion was provided
                                             before bankruptcy and $30.1 billion was provided as financing during bankruptcy.
                                             During bankruptcy proceedings, Treasury’s loans were converted into common or
                                             preferred stock in New GM or debt assumed by New GM. As a result of Old GM’s
                                             bankruptcy, Treasury’s investment in Old GM was converted to a 60.8% common
                                             equity stake in New GM, $2.1 billion in preferred stock in New GM, and a $7.1
                                             billion loan to New GM ($6.7 billion through AIFP and $360.6 million through
                                             AWCP). As part of a credit agreement with Treasury, $16.4 billion in TARP funds
                                             were placed in an escrow account that GM could access only with Treasury’s
                                             permission.523 In addition, Treasury has a claim in Old GM’s bankruptcy but does
                                             not expect to recover any significant additional proceeds from this claim.524

                                             Debt Repayments
                                             As of June 30, 2012, the GM entities had made approximately $756.7 million in
                                             dividend and interest payments to Treasury under AIFP.525 New GM repaid the
                                             $6.7 billion loan provided through AIFP with interest, using a portion of the escrow
                                             account that had been funded with TARP funds. What remained in escrow was
                                             released to New GM with the final debt payment by New GM.526

                                             Sale of GM Common Stock and GM’s Repurchase of Preferred Shares
                                             From Treasury
                                             In November and December 2010, New GM successfully completed an initial
                                             public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
                                             of common stock and 100 million shares of Series B mandatorily convertible
                                             preferred shares (“MCP”) for total gross proceeds of $23.1 billion.527 As part of the
                                                                                    quarterly report to congress I July 25, 2012    147




IPO, Treasury sold 412.3 million common shares for $13.5 billion in net proceeds
(after taking into account underwriting fees associated with the IPO), reducing its
number of common shares to 500.1 million and its ownership in New GM from
60.8% to 33.3%.528 On December 15, 2010, GM repurchased Treasury’s Series A
preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
gain to Treasury of approximately $41.9 million.529 On January 13, 2011, Treasury’s
ownership in GM was diluted from 33.3% to 32% as a result of GM contributing
61 million of its common shares to fund GM’s hourly and salaried pension plans.530
     In order to recoup its total investment in GM, Treasury will need to recover an
additional $27 billion in proceeds. This translates to an average of $53.98 per share
on its remaining common shares in New GM, not taking into account dividend
and interest payments received from the GM entities.531 The break-even price                     For more on the results of GM’s
— $53.98 per share — is calculated by dividing the $27 billion (the amount that                  November 2010 IPO, see SIGTARP’s
remains outstanding to Treasury) by the 500.1 million remaining common shares                    January 2011 Quarterly Report,
owned by Treasury. If the $756.7 million in dividends and interest received by                   page 163.
Treasury is included in this computation, then Treasury will need to recover $26.2
billion in proceeds, which translates into a break-even price of $52.39 per share,
not taking into account other fees or costs associated with selling the shares.

Chrysler
Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on the
TARP investment in Chrysler. Through October 3, 2010, Treasury made
approximately $12.5 billion available to Chrysler directly through AIFP in three
stages to three corporate entities: $4 billion before bankruptcy to CGI Holding
LLC — the parent company of Old Chrysler (the bankrupt entity) — and Chrysler
Financial; $1.9 billion in financing to Old Chrysler during bankruptcy; and $6.6
billion to New Chrysler.532 In consideration for its assistance to Chrysler, Treasury
received 9.9% of the common equity in New Chrysler.
     On April 30, 2010, following the bankruptcy court’s approval of the plan of
liquidation for Old Chrysler, the $1.9 billion loan was extinguished without repay-
ment. In return, Treasury retained the right to recover proceeds from the sale of
assets that were collateral for the loan from the liquidation of Old Chrysler
assets.533 According to Treasury, it is unlikely to fully recover its initial investment
of approximately $1.9 billion related to the loan.534 As of June 30, 2012, Treasury
had recovered approximately $57.4 million from asset sales by Old Chrysler.535 Of
the $4 billion lent to Old Chrysler’s parent company, CGI Holding LLC, before
bankruptcy, $500 million of the debt was assumed by New Chrysler while the
remaining $3.5 billion was held by CGI Holding LLC.536 Under the terms of this
loan agreement, as amended on July 23, 2009, Treasury was entitled to the greater
of approximately $1.4 billion or 40% of any proceeds that Chrysler Financial paid
to its parent company, CGI Holding LLC, after certain other distributions were
made.537 On May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its
$3.5 billion loan to CGI Holding LLC.538
     On May 24, 2011, New Chrysler used the proceeds from a series of refinanc-
ing transactions and an equity call option exercised by Fiat to repay the loans from
148   special inspector general I troubled asset relief program




                                             Treasury and the Canadian government.539 The repaid loans were made up of $6.6
                                             billion in post-bankruptcy financing (of which $2.1 billion was never drawn down),
                                             and the $500 million in debt assumed by New Chrysler.540 Treasury terminated
                                             New Chrysler’s ability to draw the remaining $2.1 billion TARP loan.541
                                                  Over time, Fiat increased its ownership of New Chrysler. On July 21, 2011,
                                             Treasury sold to Fiat for $500 million Treasury’s remaining equity ownership inter-
                                             est in New Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to
                                             receive proceeds under an agreement with the United Auto Workers retiree trust
                                             pertaining to the trust’s shares in New Chrysler.542 Treasury also retains the right to
                                             recover proceeds from Old Chrysler’s bankruptcy, but, according to Treasury, it is
                                             unlikely to fully recover its $1.9 billion loan.
                                                  As of July 21, 2011, the Chrysler entities made approximately $1.2 billion in
                                             interest payments to Treasury under AIFP.543

                                             Automotive Financing Companies
                                             Ally Financial, formerly known as GMAC
                                             Ally Financial is still in TARP and taxpayers are owed $14.7 billion for the TARP
                                             investment in Ally Financial. In return for its investment, as of June 30, 2012,
                                             Treasury holds approximately 74% of Ally Financial’s common stock and $5.9
                                             billion worth of mandatorily convertible preferred shares (“MCP”). On December
                                             29, 2008, Treasury purchased $5 billion in senior preferred equity from GMAC
                                             and received an additional $250 million in preferred shares through warrants that
                                             Treasury exercised immediately at a cost of $2,500.544 In January 2009, Treasury
                                             loaned Old GM $884 million, which it invested in GMAC.545 In May 2009,
                                             Treasury exchanged this $884 million debt for a 35.4% common equity ownership
                                             in GMAC.546
                                                  On May 21, 2009, Treasury made an additional investment in GMAC when it
                                             purchased $7.5 billion of MCP and received warrants that Treasury immediately
                                             exercised for an additional $375 million in MCP at an additional cost of approxi-
                                             mately $75,000.547 On December 30, 2009, Treasury invested another $3.8
                                             billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
                                             (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
                                             immediately exercised, to purchase an additional $127 million in TRUPS and
                                             $62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
                                             respectively.548 Additionally, Treasury converted $3 billion of its MCP into GMAC
                                             common stock, increasing its common equity ownership from 35.4% to 56.3%.549
                                             On May 10, 2010, GMAC changed its name to Ally Financial Inc.550
                                                  On December 30, 2010, Treasury announced the conversion of $5.5 billion of
                                             its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
                                             in Ally Financial’s common equity from 56.3% to 73.8%.551 As a result, Treasury will
                                             no longer receive the quarterly dividend payments that Ally Financial was required
                                             to pay on the $5.5 billion of MCP. On March 7, 2011, Treasury sold its $2.7 billion
                                             in TRUPS in Ally Financial in a public offering, resulting in $2.7 billion in total
                                             proceeds to Treasury.552
                                                                                quarterly report to congress I July 25, 2012                               149




    As a result of its conversion of MCP to common stock in Ally Financial, and             Figure 2.11
for as long as Treasury maintains common equity ownership at or above 70.8%,
                                                                                            OWNERSHIP IN ALLY FINANCIAL/GMAC
Treasury has the right to appoint two additional directors, in addition to the four
Treasury has already appointed to Ally Financial’s board, increasing the size of the
                                                                                                           GM Trust
board to 11 members.553 As of June 30, 2012, Treasury had not exercised its right
                                                                                             Third-Party
to fill its remaining two director positions.554 The conversion of $5.5 billion of           Investors                10%
                                                                                                               8%
Treasury’s MCP diluted the shares of other existing shareholders in Ally Financial.
Following the conversion, the private equity firm Cerberus Capital Management,               Cerberus 9%                                         United States
                                                                                                                                       74%       Department
L.P. (“Cerberus”) held 8.7%, third-party investors collectively held 7.6%, an inde-                                                              of the
pendently managed trust owned by New GM held 5.9%, and New GM directly held                                                                      Treasury

a 4% stake in Ally Financial’s common equity.555 New GM’s interests have been
consolidated in the trust. Figure 2.11 shows the breakdown of common equity
ownership in Ally Financial as of June 30, 2012.                                            Notes: Numbers may be affected by rounding.
                                                                                            Note: Numbers may not total due to rounding.
                                                                                            Source: Ally Financial, Inc.: “Ownership Structure,” http://media.
                                                                                            ally.com/index.php?s=51,
                                                                                                    : Ally Financial, Inc.:accessed 7/9/2012.
Proposed Ally Financial IPO                                                                 Source:                         “Ownership Structure,” media.ally.com/index.ph

On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).556 The document
includes a prospectus relating to the issuance of Ally Financial common stock.557
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.558
    Ally Financial stated that the proposed IPO would consist of “common stock
to be sold by the U.S. Department of the Treasury.”559 Ally Financial has disclosed
additional details about its proposed IPO in several amended Form S-1 Registration
statements filed over time with the SEC, the most recent on April 12, 2012.560
Concurrent with the proposed IPO, Treasury plans to convert $2.9 billion of its
existing $5.9 billion of MCP into common stock.561 Treasury will exchange the
remaining $3 billion of its MCP into so-called tangible equity units, a type of
preferred stock, and will offer a portion of these tangible equity units alongside
the proposed common equity offering.562 Treasury agreed to be named as a seller
but retained the right to decide whether to sell any of its 73.8% ownership of Ally
Financial’s common stock and in what amounts.563
    As of June 30, 2012, taxpayers are owed $14.7 billion for the TARP investment
in Ally Financial. In return for the TARP investment Treasury holds 73.8% of Ally
Financial’s common stock and $5.9 billion in MCP.564 Treasury also exercised war-
rants at a cost of $90,015 to purchase securities with a par value of approximately
$688 million: $250 million in preferred shares (which were later converted to
MCP) and $438 million in additional MCP.565
    As of June 30, 2012, Ally Financial had made approximately $2.9 billion in
dividend and interest payments to Treasury.566

Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that it
was exploring strategic alternatives for its international operations, which include
150   special inspector general I troubled asset relief program




                                             auto finance, insurance, and banking and deposit operations in Canada, Mexico,
                                             Europe, the U.K., and South America.567 Ally Financial also announced that as a
                                             result of the Chapter 11 filing, ResCap will be deconsolidated from Ally Financial’s
                                             financial statements and Ally Financial’s equity interest in ResCap will be written
                                             down to zero.568

                                             Chrysler Financial
                                             Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                             fully repaid the loan in addition to approximately $7.4 million in interest
                                             payments.569 In connection with the $3.5 billion pre-bankruptcy loan remaining
                                             with CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
                                             CGI Holding LLC, after certain other distributions were made.570 On May 14,
                                             2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.571 Seven months later, on December 21, 2010, TD Bank Group
                                             announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                             of CGI Holding LLC, for approximately $6.3 billion.572 TD Bank Group completed
                                             its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
                                             Financial under the TD Auto Finance brand.573

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to ASSP
                                             to “help stabilize the automotive supply base and restore credit flows in a
                                             critical sector of the American economy.”574 Because of concerns about the auto
                                             manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
                                             from banks by using their receivables as collateral. ASSP enabled automotive parts
                                             suppliers to access Government-backed protection for money owed to them for
                                             the products they shipped to manufacturers. Under the program, Treasury made
                                             loans for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid
                                             in April 2010.575

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.576
                                             Treasury obligated $640.7 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.577 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.578
              AIG Remains in TARP
Sect io n 3   as the Largest TARP
              Investment
152   special inspector general I troubled asset relief program
                                                                                                                                        quarterly report to congress I July 25, 2012   153




Introduction
                                              i


Treasury’s largest TARP investment is American International Group, Inc., (“AIG”)
with Treasury holding 61% of AIG’s common stock as of June 30, 2012. Once the
world’s largest insurance company, AIG became a central figure in the fixed-income
securities market beginning in the 1990s by underwriting the risk on a number
of structured products, including volatile residential mortgage-backed securities
(“RMBS”). In 2008, AIG suffered a severe liquidity crisis and credit downgrades
due to exposures on risky derivatives related to mortgage-backed securities in its
subsidiary, AIG Financial Products Corporation (“AIGFP”). The Government,
first through the Federal Reserve Bank of New York (“FRBNY”), and later through
TARP’s Systemically Significant Failing Institutions (“SSFI”) program, bailed
out AIG at a price tag of $161 billion.ii Taxpayers are still owed more than half
of the original TARP investment — a significant $36 billion of the $67.8 billion
TARP investment. According to Treasury’s TARP books and records, taxpayers
have realized losses on the TARP investment from an accounting standpoint of
$5.5 billion on Treasury’s sale of AIG stock. However, given the January 2011
restructuring of the FRBNY and Treasury investment, according to Treasury, the
Government overall has made a gain thus far on the stock sales. According to
Treasury, this leaves $30.4 billion in TARP funds outstanding.579 In return for that
investment, Treasury holds 1.06 billion shares of AIG common stock (61% of AIG’s
common stock).
    Post-bailout, there have been several changes to AIG’s corporate governance,
sales of AIG’s subsidiaries and assets, and a reduction in AIG’s exposure to risky
derivatives. As controlling shareholder, Treasury has consented to or been consulted
on many of these changes. Largely as a result of assets sales, by the end of 2011,
assets had fallen from $1 trillion in 2007 to $552.4 billion.580 Revenue decreased
from $81.5 billion in 2007 to $64.3 billion in 2011.581 These are large numbers by
any measure. AIG remains one of the world’s largest insurance companies, and is
the third largest in the United States by assets.582 Although AIG has sold several
foreign life insurance subsidiaries, it still has 219 subsidiaries (compared with 245
in 2007) and continues to operate in more than 130 countries.583 AIGFP continues
to exist, but with far less exposure, due to efforts by FRBNY to remove exposure
and efforts by AIG to further reduce exposure.
    AIG has operated in a changing regulatory environment. How it will be regulat-
ed in the future will not be known until Federal regulators designate which non-
bank financial companies are systemically important financial institutions (“SIFI”)
as called for in the Dodd-Frank Wall Street Reform and Consumer Protection
Act (“Dodd-Frank Act”).584 There is no stated time when this designation will be
made. For more than two years, AIG has had no consolidated banking regulator of
its non-insurance financial business. AIG continues to operate its non-insurance
financial business today, albeit with far less exposure than in 2008, in part due
to Government action. Before it was abolished, the Office of Thrift Supervision
i
    	This discussion is based on publicly available information. It is not an audit or evaluation under the Inspector General Act of 1978 as
      amended.
ii
    	SSFI had only one participant, AIG.
154   special inspector general I troubled asset relief program




                                             (“OTS”) was AIG’s consolidated regulator based on AIG’s ownership of a small
                                             thrift. OTS officials admitted failures in their regulation of AIG. If AIG is designat-
                                             ed a SIFI or recognized as a savings and loan holding company, the Federal Reserve
                                             will become AIG’s primary regulator and heightened regulatory requirements will
                                             apply. Regulatory oversight of AIG will be an enormous undertaking, presenting
                                             challenges in examination, enforcement, and supervision, particularly as it relates
                                             to risk, given AIG’s history. Effective, comprehensive, and rigorous regulation of
                                             AIG is vital to ensure that history does not repeat itself.




                                             Rise and Fall of AIG Prior to TARP
                                             In the years before the Government bailout, AIG had a solid reputation, reliable
                                             earnings, and was generally perceived to be one of the stronger companies in the
                                             United States.585 Core insurance operations encompassed general insurance,
                                             including property and casualty, commercial, industrial, and life insurance,
                                             including annuities and retirement services. Insurance operations (including
                                             general insurance, life insurance, and retirement services) accounted for nearly
                                             90% of AIG’s revenue, which is still the case today. Approximately half of the
                                             company’s revenue during this period came from outside the United States,
                                             largely from Asia. For decades, the company’s AAA credit rating helped bolster its
                                             insurance operations and allowed AIG to use its low cost of funds as leverage to
                                             boost non-insurance lines, including aircraft leasing and consumer finance.
                                                 AIG’s credit rating also increased its attractiveness as a counterparty in capi-
                                             tal markets, helping the company expand its product base. Over the years, AIG
                                             expanded from insurance into other financial businesses. One of these was AIGFP,
                                             a subsidiary created in 1987 to conduct sophisticated financial market trades, many
                                             involving complex derivatives. Derivatives are financial instruments that can be
                                             used to hedge risks or to bet on market price trends, and are typically derived from
                                             underlying assets such as stocks, bonds, loans, currencies, or commodities. By the
                                             1990s, AIGFP was a vital part of the fixed-income securities market as it related to
                                             RMBS and commercial mortgage-backed securities (“CMBS”). RMBS are finan-
                                             cial instruments backed by a pool of residential mortgage loans; CMBS are backed
                                             by a pool of commercial mortgage loans. The loans are packaged into bundles of
                                             loans sharing similar characteristics, and then sold to investors. This process, called
                                             securitization, removes the loans from the balance sheets of banks and mortgage
                                             lenders and gives them cash to issue new loans. The RMBS and CMBS were often
                                             further pooled into bundles known as collateralized debt obligations (“CDOs”).
                                                 In 1998, AIGFP began to sell insurance-like contracts called credit default
                                             swaps (“CDS”) that provided protection to investors against losses from RMBS
                                             and CMBS that had been bundled into CDOs. The firm purchasing the CDS (the
                                             “counterparty” to AIG), would pay AIG regular insurance-like premiums and in
                                             return AIG would pay the counterparty if the CDO should default. Due to AIG’s
                                             AAA rating, AIG was able to enter into these insurance-like contracts without
                                                                                  quarterly report to congress I July 25, 2012   155




posting any collateral, a benefit not available to lower-rated firms. Included in these
CDS contracts was a provision that, should AIG’s credit rating be downgraded, AIG
would be required to post collateral to ensure payment on these contracts. In addi-
tion, if the value of the securities that AIG was insuring fell, AIG was contractually
obligated to produce quickly the collateral to its counterparty to make up for the
difference in the drop in value of the security. That collateral could be either cash
or AAA-rated securities. AIGFP sold CDS to firms that bought or sold mortgages or
CDOs and to unrelated investors.
     AIG had grown into a global giant with a top-tier AAA credit rating largely
under the direction of one man, Hank Greenberg, who was chief executive officer
from 1968 to 2005.586 Beginning in 2004, however, AIG became embroiled in a se-
ries of fraud investigations conducted by the Securities and Exchange Commission
(“SEC”), the Department of Justice, the New York State Insurance Department,
and the New York State Attorney General’s Office. Amid those investigations, AIG’s
board forced Greenberg to step down on March 14, 2005.
     In early May 2005, AIG restated five years of its financial results, cutting $3.9
billion off reported profit over that period and reducing its book value by $2.7
billion.587 Credit rating agencies began questioning AIG’s creditworthiness, and
in March and June of 2005, Standard & Poor’s and Moody’s Investors Service
downgraded AIG’s AAA rating.588 An S&P executive testified to Congress that the
downgrade was due to “the company’s involvement in a number of questionable
financial transactions.”589
     Starting in the third quarter of 2007 and continuing through 2008, AIG’s
financial condition deteriorated, causing a decline in market confidence that, in
turn, brought downgrades of AIG’s credit rating and nearly caused the company’s
collapse. The trigger and primary cause was AIGFP.
     While AIGFP’s operating income grew from $131 million in 1994 to $949
million in 2006, closely tracking the boom in the CDS market and the overall
derivatives market, the risk involved in this business turned out to be dramatically
disproportionate to the income produced.590 As of June 2008, AIG provided more
than $400 billion of credit protection, primarily to banks, through AIGFP CDS.591
AIG was exposed to the underlying securities, which were composed largely of
subprime mortgages in CDOs that were initially rated AAA.
     When the U.S. residential mortgage market deteriorated, the securities underly-
ing AIGFP’s CDS contracts turned toxic as home prices tumbled and defaults sky-
rocketed. The value of the underlying securities plummeted, and the credit ratings
of those securities were downgraded. In the fourth quarter of 2007, counterparties
began making significant collateral calls to AIG, which only continued. With its
credit no longer rated AAA, AIG posted collateral in cash. According to AIG’s 2008
Form 10-K, “From July 1, 2008, to August 31, 2008, the continuing decline in
value of the super senior CDO securities protected by AIGFP’s super senior CDS
portfolio, together with rating downgrades of such CDO securities, resulted in
AIGFP posting additional collateral in an aggregate net amount of $5.9 billion. By
the beginning of September 2008, these collateral postings and securities lending
requirements were placing increasing stress on AIG parent’s liquidity.”592
156   special inspector general I troubled asset relief program




                                                 AIG was also taking risks with the assets of its life insurance subsidiaries
                                             through its securities-lending program. AIG made short-term loans of securities it
                                             owned and used the fees it earned on those loans to invest in RMBS. The value of
                                             these and other AIG real estate-related investments also declined sharply, and con-
                                             tributed to further downgrades of AIG’s credit ratings in May 2008. The problems
                                             in AIGFP exacerbated the problems in securities lending, and vice versa, as collat-
                                             eral demands from both sets of counterparties left the company struggling to find
                                             cash. In September 2008, AIG’s credit ratings were downgraded again, triggering
                                             additional collateral calls and cash requirements in excess of $20 billion.593 AIG,
                                             facing an acute liquidity crisis, was on the brink of collapse, unable to access credit
                                             in the private markets and bleeding cash.
                                                 The Congressional Oversight Panel (“COP”) found that AIG was brought down
                                             by the company’s “insatiable appetite for risk and blindness to its own liabilities.”594
                                             According to the Financial Crisis Inquiry Commission (“FCIC”), “AIG failed and
                                             was rescued by the Government primarily because its enormous sales of credit
                                             default swaps were made without putting up initial collateral, setting aside capital
                                             reserves, or hedging its exposure — a profound failure in corporate governance,
                                             particularly its risk management practices.”595
                                                 AIG sought and received Government support through a revolving credit facility
                                             from FRBNY and later TARP funding from Treasury. Officials involved in the res-
                                             cue maintained that if AIG went under, it would have taken down other financial
                                             institutions and caused havoc around the world.596 Then-Treasury Secretary Henry
                                             M. Paulson wrote in his memoir, “An AIG collapse would be much more devas-
                                             tating than the Lehman failure because of its size and the damage it would do to
                                             millions of individuals whose retirement accounts it insured.”597




                                             Changes at AIG After the Government
                                             Bailout
                                             Since the Government bailout, AIG has undergone some key changes.iii Some were
                                             a direct result of the bailout, including a change in AIG’s capital structure such that
                                             the Government took an ownership interest in AIG that was eventually converted
                                             to common stock. AIG’s CEO, chairman of the board, and other management and
                                             directors have changed, leaving only a few from pre-bailout times. FRBNY created
                                             its Maiden Lane II and III investment vehicles to remove a large part of AIG’s
                                             liquidity strain caused by its securities-lending portfolio and AIGFP’s exposure to
                                             RMBS under its CDS contracts. AIG has sold a number of subsidiaries, primarily
                                             foreign life insurance subsidiaries, using proceeds to pay down what was owed to
                                             the Government.




                                               	This discussion does not attempt to chronicle all of the changes at AIG while it has been in TARP.
                                             iii
                                                                                   quarterly report to congress I July 25, 2012   157




Changes to Balance Sheet As a Result of the Bailout
The bailout and subsequent restructuring significantly altered AIG’s capital
structure. Prior to the bailout, AIG’s balance sheet consisted of $95.8 billion in
equity and $952.5 billion in total liabilities.598 For the year ended December 31,
2011, AIG’s balance sheet consisted of approximately $105 billion in equity and
$441.4 billion in total liabilities.599 In the bailout, the Government injected capital
into AIG and became AIG’s largest shareholder.

Changes to AIG’s Corporate Governance After the Government Bailout
There have been substantial changes to AIG’s corporate governance while the
Government has been AIG’s largest shareholder. Changes in management after
the Government bailout included a new CEO, Edward M. Liddy, a former Allstate
Corporation CEO, who was appointed in September 2008 after discussions
with Treasury. Less than a year after he became CEO, Liddy resigned. Liddy was
succeeded in August 2009 by Robert H. Benmosche, former CEO of MetLife,
Inc. As of June 30, 2012, out of AIG’s ten executives listed in its Form 10-K, only
four were executives with the company prior to TARP. They are William Dooley,
executive vice president of investments and financial services, who has been with
AIG since 1992; David Herzog, chief financial officer, who was hired in 2005;
Brian Schreiber, treasurer, who has been an AIG executive since 2002; and Jay
Wintrob, executive vice president of domestic life and retirement services, who has
been with AIG since 1999.600
    There have been significant changes to AIG’s board while the company has
been in TARP. Although Greenberg had long been gone from AIG by the time of
the bailout, several board members appointed during Greenberg’s tenure re-
mained.601 During the nearly four decades that Greenberg ran AIG, the company’s
board of directors played a minor role in governing the company, according to cor-
porate governance expert Jennifer S. Taub, an associate law professor at Vermont
Law School.602 In the boardroom, there were as many as nine AIG executives
seated on the company’s 20-member board of directors in 2002.603 In 2008, the
year of the bailout, five AIG directors resigned. Two more followed in May 2009,
while two others did not seek re-election.604 Chairman Harvey Golub resigned in
July 2010 and was replaced by AIG director Steve Miller, a former chairman of
auto parts manufacturer Delphi Corp.605
    AIG’s annual proxy mailing to shareholders ahead of its 2009 annual meeting
included a new set of corporate governance guidelines adopted by the board. The
guidelines trimmed the board size to between 8 and 12 directors and described that
a lead independent director would annually review the CEO’s performance.606
    As of June 30, 2012, AIG’s 12-member board includes only two people who
have been directors since before TARP.607 George L. Miles, Jr., chairman of Chester
Engineers, Inc., joined the AIG board in 2005 and Suzanne Nora Johnson, for-
mer vice chairman of Goldman Sachs Group, became a director in July 2008.
Other current board members include fund managers in charge of Oak Street
Management Co. and Marblegate Asset Management; the former head of KPMG
LLP’s banking and finance practice; and the ex-CEO of Sears, Roebuck and Co.
158   special inspector general I troubled asset relief program




                                             Two other board directors have significant aircraft industry experience: one is
                                             the CEO of aircraft maker Hawker Beechcraft, Inc., and the other once headed
                                             Northwest Airlines Corp.608
                                                In April 2010, after AIG had missed five TARP dividend payments, Treasury
                                             exercised its right to appoint two directors to the AIG board.609 Treasury named
                                             Ronald Rittenmeyer, head of a private equity firm, and Donald Layton, a veteran of
                                             JPMorgan Chase.610 Layton resigned from the AIG board in May 2012 to become
                                             CEO of Freddie Mac.611 On July 11, 2012, a retired AIG director, Morris W. Offit,
                                             was re-elected to the board.612

                                             No Changes to AIG’s Outside Independent Auditor While in TARP
                                             AIG has not changed its outside auditor while it has been in TARP.
                                             PricewaterhouseCoopers has been AIG’s auditor for decades and continues to serve
                                             in that role.

                                             FRBNY Took Significant Mortgage-Backed Securities Off AIG’s Books
                                             AIG held nearly $141 billion worth of RMBS, CMBS, derivatives, and asset-
                                             backed securities investments on its books at the end of 2007.613 The holdings
                                             were slashed to $34.6 billion at the end of 2010, in part due to the actions taken
                                             by FRBNY.614 The 2008 liquidity pressures on AIG were concentrated in two areas,
                                             securities lending and CDS, insurance-like protection on CDOs (generally bundles
                                             of RMBS). As part of the Federal bailout, most of the securities involved in those
                                             areas were unloaded into two newly created special purpose vehicles: Maiden
                                             Lane II (which held the RMBS associated with AIG’s securities-lending program)
                                             and Maiden Lane III (which held the underlying CDO securities associated with
                                             the CDS). Maiden Lane is the street behind the FRBNY building in the heart of
                                             Manhattan’s financial district.
                                                  FRBNY made a $19.5 billion loan to Maiden Lane II which was used to
                                             purchase subprime RMBS in AIG’s securities-lending portfolio that FRBNY put
                                             into Maiden Lane II. FRBNY had sole control over Maiden Lane II and sales of
                                             the RMBS in it.615 Last year, AIG offered to buy the entire portfolio for $15.7
                                             billion. The FRBNY declined and instead held a series of auctions for the assets.616
                                             Investment banks that won the auctions turned around and re-sold the securities
                                             to clients, including AIG.
                                                  The FRBNY also created Maiden Lane III as a vehicle to buy from AIG’s
                                             counterparties the CDOs that AIGFP had insured through CDS. The purchase
                                             of the underlying CDOs terminated AIGFP’s obligations under the CDS con-
                                             tracts. SIGTARP previously reported in its audit, “Factors Affecting Efforts to
                                             Limit Payments to AIG Counterparties,” issued in November 2009, that “FRBNY
                                             decided to pay the counterparties the full market value of the CDOs, which, when
                                             combined with the already posted collateral, meant that the counterparties were
                                             effectively paid full face (or par) value of the credit default swaps, an amount far
                                             above their market value at the time.”617 The face value amount of the securities
                                             was $62.1 billion. AIG’s counterparties retained $35 billion in collateral posted by
                                                                                 quarterly report to congress I July 25, 2012                            159




AIG and were paid an additional $26.8 billion.618 The FRBNY began auctioning                 Figure 3.1
securities from Maiden Lane III in April 2012.                                               AIG’S MAJOR RECENT FOREIGN
    Maiden Lane III did not remove all of AIGFP’s exposure on CDS contracts. For             ASSET SALES
example, FRBNY did not purchase synthetic CDOs, which are CDOs backed by                     Nan Shan: On August 18, 2011, AIG sold
CDS rather than real estate loans. AIGFP still had about $302 billion in exposure            its 97.6% interest in Nan Shan Life Insurance
                                                                                             Company, Ltd., its Taiwanese life insurance unit,
to CDS on its books on December 31, 2008, after Maiden Lane III was created.619              to Taiwan-based Ruen Chen Investment Holding
                                                                                             Co., Ltd. for $2.2 billion. Established in 1963, Nan
                                                                                             Shan is the largest life insurer in Taiwan by total
AIG Sales of Certain Foreign Life Insurance Subsidiaries and                                 book value and the third largest by total premiums.
Other Assets                                                                                 Star and Edison: On February 1, 2011, AIG sold
While in TARP, AIG has sold several of its foreign life insurance subsidiaries               its Japan-based life insurance subsidiaries, AIG
                                                                                             Star Life Insurance Co., Ltd., and AIG Edison Life
including Nan Shan, AIG Star Life Insurance Co., ALICO, and AIA. These                       Insurance Company, to Prudential Financial, Inc.,
transactions were with the consent of or in consultation with Treasury as AIG’s              for a total of $4.8 billion, made up of $4.2 billion
                                                                                             in cash and $0.6 billion in the assumption of third-
controlling shareholder. Some of the transactions resulted in proceeds that went             party debt. Star and Edison offer life, medical, and
to pay down amounts owed to the Government as part of a plan to recapitalize the             annuity products to individuals and groups.

Government’s interest in AIG. At the end of 2011, about 14% of AIG’s consolidated            ALICO: On November 1, 2010, AIG sold ALICO,
assets were located outside the United States and Canada, down from 37% in                   a foreign life insurance company with operations
                                                                                             on four continents, to MetLife for approximately
2008.620 Figure 3.1 shows recent major foreign divestitures of $1 billion or more.           $16.2 billion ($7.2 billion in cash and the remain-
                                                                                             der in securities of MetLife).
    On the one hand, these transactions may be key steps in AIG’s restructuring
that have allowed AIG to meet working capital needs and to pay down the                      AIA: On October 29, 2010, AIG sold, in an initial
                                                                                             public offering, 8.08 billion shares (or 67%) of
Government. As Benmosche stated in March 2010, “Clearly, we will be a smaller                Pan-Asian life insurer AIA for approximately $20.5
and more focused company than in the past. The only way we can repay taxpayers               billion. On March 8, 2012, AIG sold 1.72 billion
                                                                                             shares of AIA to institutional investors for approxi-
is to divest parts of the organization, and we are.”621                                      mately $6 billion.
    However, AIG’s sales of ALICO and AIA, key pieces of AIG’s foreign life
                                                                                             AIGFP Energy and Infrastructure Portfolio: On
insurance operations, meant losing what Benmosche described as some of “the                  August 11, 2009, AIG sold its remaining energy
company’s crown jewels.”622 In 2010, AIG sold ALICO, one of the world’s largest              and infrastructure investment assets, including
                                                                                             three Spanish solar power plants along with sev-
and most diversified international life insurance companies, to MetLife, Inc. The            eral U.S. assets, realizing aggregate net proceeds
sale included the company’s vast distribution network throughout four continents,            in excess of $1.9 billion. This disposition effort
                                                                                             began during the fall of 2008.
including agents, brokers and financial institutions; 12,500 employees across
                                                                                             AIG Otemachi Building in Tokyo: On May 28,
more than 50 countries; and 20 million customers worldwide. The significance of              2009, AIG sold its prime real estate holding in
ALICO’s loss to AIG is best shown by the numbers. In 2008, ALICO generated                   Tokyo, the AIG Otemachi Building and property, for
                                                                                             approximately $1.2 billion in cash to Nippon Life
revenue of $32.3 billion, or approximately one-third of AIG’s revenue that year.623          Insurance Company.
The sale of AIA Group, Limited (“AIA”) entailed AIG parting ways with a leading              Sources: AIG, Press Release, “AIG Reduces United States
Pan-Asian life insurance organization that traces its roots in the Asia-Pacific region       Treasury Investment in AIG Subsidiary by Approximately $2
                                                                                             Billion,” 8/18/2011, www.aigcorporate.com/newsroom/
back more than 90 years. The sale included all of the AIA companies operating                index.html, accessed 6/28/2012; AIG, Press Release, “AIG
                                                                                             Enters Into Agreement to Sell Nan Shan to Taiwan-Based
in 15 geographic markets across the Asia-Pacific region, including the company’s             Consortium Led by the Roentex Group,” 1/12/2011,
                                                                                             www.aigcorporate.com/newsroom/index.html, accessed
international network of more than 320,000 agents and approximately 23,500                   6/29/2012; AIG, Press Release, “AIG Completes Sale
employees.624 AIA accounted for $9.3 billion of insurance premiums in 2010, about            of Star and Edison Companies,” 2/1/2011, www.
                                                                                             aigcorporate.com/newsroom/index.html, accessed
12% of AIG’s revenue that year.625                                                           6/28/2012; AIG, Press Release, “AIG Raises Nearly
                                                                                             $37 Billion in Two Transactions to Repay Government,”
    In addition to these major transactions, AIG has sold its own Manhattan                  11/1/2010, www.aigcorporate.com/newsroom/index.
                                                                                             html, accessed 6/28/2012; AIG, Press Release, “AIG
headquarters building; a commodity index; a U.S. rail services leasing unit; its             Announces Pricing of Sale of Ordinary Shares of AIA Group
                                                                                             Limited,” 3/5/2012, www.aigcorporate.com/newsroom/
U.S. personal auto insurance business; a German marine insurer; consumer                     index.html, accessed 6/28/2012; AIG, Press Release, “AIG
finance businesses in Mexico, Argentina, and Thailand; life insurance operations             Financial Products Corp. Completes Disposition of Energy
                                                                                             and Infrastructure Investment Portfolio,” 8/11/2009,
in Canada, Japan, the Philippines, and Taiwan; and 80% of its consumer credit                www.aigcorporate.com/newsroom/index.html, accessed
                                                                                             6/28/2012; AIG, Press Release, “AIG Completes Sale of
provider, American General Finance.                                                          Prime Tokyo Real Estate Asset to Nippon Life Insurance
                                                                                             Company,” 5/28/2009, www.aigcorporate.com/
                                                                                             newsroom/index.html, accessed 6/28/2012.
160   special inspector general I troubled asset relief program




                                             AIG’s Current Businesses
                                             For the year ending December 31, 2011, AIG reported the results of its businesses
                                             through four segments: Chartis, which writes policies for foreign property/casualty,
                                             commercial/industrial, and consumer insurance; SunAmerica Financial Group,
                                             which focuses on U.S. life insurance, retirement services, and annuities; Aircraft
                                             Leasing; and “Other Operations,” which includes the remaining derivatives
                                             portfolio from AIGFP, other corporate investment operations, and AIG’s insurance
                                             for residential mortgage lenders.626 Insurance continues to account for almost 90%
                                             of the company’s revenue, as was generally the case historically. Aircraft leasing
                                             accounts for 7% and other operations for 6%.627
                                                 In TARP, AIG has sold certain subsidiaries and other assets and added several
                                             operations, although they are only a fraction of the size of those that it shed. Most
                                             notably, through transactions in 2010 and 2011, AIG increased its ownership stake
                                             in Japanese insurer Fuji Fire & Marine Insurance Company, Limited, from 41.7%
                                             to 100%.628 Fuji is now part of Chartis, and largely because of that acquisition,
                                             consumer insurance accounted for 38% of Chartis’s business in 2011, up from 30%
                                             in 2009.629 The company has also acquired financial assets, including mortgage
                                             securities.
                                                 Table 3.1. provides a snapshot of key AIG financial information from 2007 to
                                             2011.

                                             TABLE 3.1
                                                  AIG FINANCIAL HIGHLIGHTS                         ($ BILLIONS EXCEPT FOR EARNINGS PER SHARE AND RETURN
                                                  ON AVERAGE EQUITY)

                                                                                         2007                  2008                  2009                  2010                  2011
                                                  Assets                            $1,048.4                 $860.4                $847.6                $675.6                $552.4
                                                  Liabilities                            952.5                 807.7                 748.6                 568.4                441.4
                                                  Revenue                                  81.5                  (6.8)                 75.4                 77.5                  64.3
                                                  Net income                                 7.5             (100.4)                 (12.3)                 12.3                  21.3
                                                  Earnings per
                                                                                         47.73             (756.85)                (90.48)                 14.98                11.01
                                                  share
                                                  Return on
                                                                                          7.2%              -130.7%                 -18.2%                11.8%                    24%
                                                  average equity
                                                  Notes: Earnings per share is fully diluted, after extraordinary items. Return on average equity is net income as a percent of average
                                                  equity.

                                                  Source: SNL Financial; all data reflect company restatements of results as of April 20, 2012.



                                             Chartis and SunAmerica
                                             Chartis is AIG’s largest subsidiary. Chartis generated $40.7 billion in 2011 revenue
                                             primarily through the sale of property and casualty insurance policies to companies
                                             around the world for natural disasters and industrial accidents.iv Chartis has had
                                             four consecutive years of underwriting losses, which in part reflect the severity of


                                              	It also wrote policies to protect companies and wealthy individuals from specialized risks such as computer hackers, executive
                                             iv

                                                kidnappings, yachting mishaps, crisis management, and shareholder lawsuits.
                                                                                quarterly report to congress I July 25, 2012   161




recent disasters.630 The U.S. property/casualty industry saw underwriting net losses
more than triple to $36.5 billion in 2011 from the previous year after a string of
costly catastrophes.631 Chartis had $3.2 billion in underwriting losses in 2011 from
catastrophes including Japan’s worst-ever earthquake, damages in the U.S. from
Hurricane Irene and tornadoes, and deadly flooding in Thailand.632
    In its smaller consumer business, Chartis is using direct marketing to expand
sales of health, accident, and auto insurance in Brazil, Mexico, United Arab
Emirates, Turkey, Vietnam, Indonesia, India, and China. Revenue from con-
sumer premiums rose to $3.6 billion in the 2012 first quarter, accounting for 41%
of Chartis’s sales. Part of the increase was due to Chartis’s 2010 acquisition of
Japanese insurer Fuji, which sells mainly to Asian consumers. Meanwhile, com-
mercial premiums declined to $5.2 billion in the first quarter of 2012, down about
$500 million from a year ago.633
    AIG subsidiary SunAmerica sells bread-and-butter life and health insurance
policies and retirement annuities to U.S. clients. SunAmerica also offers prod-
ucts such as brokerage services, financial planning, and retail mutual funds.
SunAmerica’s revenue of $15.3 billion in 2011 accounted for 24% of AIG’s total
sales.634

Investments by Chartis and SunAmerica
Like other insurers, Chartis and SunAmerica invest insurance premium payments
from customers to generate income for paying claims and benefits. Life insurers
such as SunAmerica have a relatively predictable business and can invest in
fixed maturity securities that match up with estimated payouts to customers.
SunAmerica also invests in private equity funds, hedge funds, and affordable
housing partnerships. Property insurers contend with unpredictable natural
disasters such as earthquakes and hurricanes. While according to AIG, Chartis
invests in relatively safe fixed-income securities such as municipal bonds, it also
needs strong investment income to offset insurance policy underwriting losses.
In recent years, it has lost money on underwriting, but attempted to make it up
on profits from investments.635 Average investments at Chartis and SunAmerica
have steadily increased from 2009 to 2011. In 2011, Chartis and SunAmerica
together held average investments of $286.3 billion, up 12% from 2010 holdings.636
However, pre-tax returns on those investments have fluctuated. Their combined
portfolio produced $14.2 billion in net investment income in 2011, a decline of
6% from the previous year.637

Aircraft Leasing
AIG’s International Lease Finance Corporation (“ILFC”) leases commercial jet
aircraft to foreign and domestic airlines. Revenue in the business has been steadily
decreasing since 2009 — it fell 4% from 2009 to 2010, and then another 6% from
2010 to 2011.638 The business’s loss deepened from $729 million in 2010 to $1
billion in 2011, which included write-downs in the value of older aircraft.639
162   special inspector general I troubled asset relief program




                                             Mortgage-Backed Securities
                                             According to AIG, to earn the higher returns needed to pay claims and benefits to
                                             insurance customers, AIG has returned to investing in mortgage-backed securities,
                                             although at a much smaller level than prior to TARP.640 From December 31, 2010,
                                             to March 31, 2012, AIG had more than doubled its CMBS and non-agency RMBS
                                             holdings to $28.4 billion.641 That did not include AIG’s April 2012 purchase of
                                             $600 million worth of CDOs that had been in the Maiden Lane III portfolio.642

                                             AIGFP and Other Securities Lending and CDS
                                             AIG continues to maintain a portfolio of CDS and continues to engage in securities
                                             lending, albeit much smaller than prior to TARP. AIGFP continues to exist and
                                             was folded into the company’s Global Capital Markets business along with a
                                             separate unit, AIG Markets Inc., which writes derivatives on behalf of other AIG
                                             subsidiaries.643
                                                  AIGFP has sharply reduced its CDS portfolio to one-tenth its former size, from
                                             about $2 trillion in net notional value in 2008 to about $168 billion in net notional
                                             value at the end of its 2012 first quarter.644 Net notional value is the total risk expo-
                                             sure for a transaction, or the maximum amount of money that would be transferred
                                             from the seller of protection to the buyer in the event of a credit default.645 This
                                             reduction in exposure is due in part to FRBNY’s actions with Maiden Lane III. The
                                             size of AIGFP’s trading book is greatly diminished, but it may come as a surprise
                                             to some that any of AIGFP still exists at all. Former AIG CEO Edward M. Liddy
                                             told Congress in 2009 he was weighing a number of options to quickly shut down
                                             AIGFP and “break apart these trading books.”646 His successor and current CEO,
                                             Robert H. Benmosche, has been winding down some of AIGFP’s trading books
                                             over time.647 Benmosche hired Peter Hancock, the founder of JPMorgan’s global
                                             derivatives group and now the head of AIG’s Chartis unit, to manage what AIG has
                                             described as the “de-risking” of AIGFP.648
                                                  AIG’s 2008 Form 10-K stated that the orderly wind-down of AIGFP would
                                             take a substantial period of time. An AIG presentation about its first quarter 2012
                                             results noted that AIGFP may be around for at least seven more years until its
                                             final contracts expire.649 The company says it manages the AIGFP portfolio “for
                                             maximum profit contribution and limited risk.”650 According to AIG, active trading
                                             wound down in mid-2011, and AIGFP now enters into new derivative transactions
                                             only to hedge its portfolio, which according to AIG means to protect that portfolio
                                             by making an offsetting investment in a related security.651 Its non-AIGFP divisions
                                             also use derivatives to hedge against risk. According to AIG, “Although the remain-
                                             ing AIGFP derivatives portfolio may experience periodic fair value volatility, the
                                             portfolio consists predominantly of transactions AIG believes are of low complex-
                                             ity, low risk, supportive of AIG’s risk management objectives, or not economically
                                             appropriate to unwind based on a cost versus benefit analysis.”652 Table 3.2 shows
                                             how AIGFP’s portfolio of investments has changed since 2008.
                                                                                                                          quarterly report to congress I July 25, 2012   163




TABLE 3.2
 AIGFP’s Portfolio 2008-2012                              ($ BILLIONS)

                        12/31/2008               12/31/2009         12/31/2010        12/31/2011             3/31/2012
 Market
                                ~$1,450              Not reported    Not reported                $131                    $126
 derivatives
 Stable value
                                       ~40           Not reported    Not reported                   20                     19
 wraps
 Corporate
                                       ~52                    22               12                   12                     12
 debt CDS
 Regulatory
                                     ~245                    150               38                     7                     6
 capital CDS
 Multi-sector
                                       ~13                     8                 7                    6                     5
 CDS
 Total                         ~$1,800                     $940          $352.8                 $176                     $168
 Notes: Net notional value in billions of dollars.

 Sources: AIG, conference call presentations, May 4, 2012, February 24, 2012, and February 25, 2011, www.aigcorporate.
 com/investors/financial_reports.html, accessed 7/21/2012; AIG 10-K for 2010, 2/24/2011, www.sec.gov/Archives/edgar/
 data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed 6/28/2012.



     AIGFP’s remaining portfolio includes these components:

•	 The largest group of securities is $126 billion in what the company describes
   as “market derivatives” that are fully hedged. Managed by AIG’s Global Capital
   Markets Group, about three-fourths of these instruments are intended to
   protect AIG affiliate companies’ own assets, while the others are “legacy” third-
   party client trades left from before the bailout.653
•	 Next in size is $19 billion in AIGFP securities meant to smooth out interest
   rate volatility in stable value funds, which are similar to money market funds
   but offer higher returns. AIGFP’s instruments, known as stable value wraps,
   help fixed-income investments in stable value funds maintain book value even if
   market value drops.654 On May 4, 2012, AIG said it expected to move the stable
   value wraps to one of its insurance entities this year.655
•	 Another component of the AIGFP portfolio is $12 billion in CDS contracts
   written for bundles of corporate debt.656
•	 A dwindling number of CDS contracts that AIGFP tailored specifically for
   European banks also remain. Banks bought these regulatory capital swaps as
   protection from potential losses on mortgages and corporate loans so they could
   hold less capital and still comply with regulatory requirements.657
•	 AIGFP’s portfolio includes $5 billion in synthetic CDOs not placed into Maiden
   Lane III.658 AIG said this set of securities “managed to retain significant future
   upside” for additional profits.

   According to AIG’s 2011 Form 10-K, “The senior management of AIGFP
reports the results of its operations to and reviews future strategies with AIG’s
senior management.”659 The Form 10-K provided details about some components
164   special inspector general I troubled asset relief program




                                             of the AIGFP portfolio such as a breakdown of credit ratings, origination years of
                                             RMBS, and risk sensitivity of remaining swaps.
                                                 AIG began edging back into securities lending in 2011, when Chartis began
                                             lending municipal bonds and requiring counterparties to put up 102% collateral.660
                                             SunAmerica began securities lending in early 2012.661 As of March 31, 2012, AIG
                                             had securities valued at $8.9 billion pledged in securities-lending programs.662 That
                                             compares with about $76 billion at the end of 2007 prior to the TARP injection.663




                                             AIG’s Changing Regulatory Environment
                                             In the years leading up to its near collapse, AIG’s massive size, interconnectedness,
                                             geographic reach, and product breadth of operations were not matched by a
                                             coherent U.S. regulatory structure to oversee its business. A combination of state,
                                             international, and Federal authorities regulate AIG and its subsidiaries. There is
                                             currently no Federal banking regulator with responsibility for overseeing AIG’s non-
                                             insurance financial businesses.
                                                 AIG’s domestic, life, and property/casualty insurance subsidiaries are regulated
                                             by the state insurance regulators or foreign regulators where these companies are
                                             domiciled or operate.v The state insurance regulators examine the parent company
                                             only to the extent that it relates to the insurance subsidiaries.vi Foreign insurance
                                             regulators, operating under their own countries’ laws, have jurisdiction over AIG’s
                                             overseas insurance subsidiaries.
                                                 From 1999 to March 2010, OTS was the supervisor of AIG’s non-insurance
                                             financial business because AIG was permitted to be considered a savings and loan
                                             holding company due to its ownership of a small Wilmington, Delaware, thrift, AIG
                                             Federal Savings Bank, which accounted for a tiny piece of its operations. This was
                                             significant because the European Union required foreign companies doing busi-
                                             ness in Europe to have the equivalent of a “consolidated supervisor” in their home
                                             country. Starting in 2004, OTS had worked to successfully persuade the European
                                             Union that it was capable of performing this role.664 AIG was subject to OTS
                                             regulation, examination, supervision, and reporting requirements. OTS also had
                                             enforcement authority over AIG and its subsidiaries and could restrict or prohibit
                                             activities that were a serious risk to the financial safety, soundness, or stability of
                                             AIG Federal Savings Bank. The Office of the Comptroller of the Currency is now
                                             responsible for regulating AIG Federal Savings Bank, but not the rest of the com-
                                             pany. Since 2010, AIG has been in discussions with European regulators concern-
                                             ing consolidated regulation.665



                                             v
                                              	The primary state insurance regulators include New York, Pennsylvania, and Texas.
                                              	Though examinations of the AIG parent were limited to how it related to the subsidiaries, the regulators typically obtained additional
                                             vi

                                                information about the parent through informal channels, such as regular communications with parent company management and review
                                                of public filings. (Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s
                                                Exit Strategy,” 6/10/2010, p. 23, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/
                                                library/report-061010-cop.cfm, accessed 6/28/2012.)
                                                                                 quarterly report to congress I July 25, 2012   165




     The Federal Reserve has not regulated AIG either before or after the bailout. Its
involvement with the company was instead through the Federal Reserve’s responsi-
bility to maintain financial system stability and contain systemic risk that may arise
in financial markets.
     The significant interconnectedness and complexity of AIG’s businesses, and the
lack of effective regulatory oversight of AIG’s financial business, were factors in
AIG’s near collapse and subsequent bailout. Despite what turned out to be AIG’s
key role as a financial institution, its only U.S. Federal banking regulator was OTS.
AIGFP fell outside the scope of the state insurance regulators, even though its
CDS had a function similar to insurance, and AIGFP’s CDS trades fell outside
OTS’s regulatory authority. This regulatory structure meant there was no compre-
hensive examination and regulation of CDS activity within AIGFP. Certain other
financial operations inside AIG — including capital markets, consumer finance,
and aircraft leasing — were regulated on a piecemeal basis or escaped regulation
entirely.
     As the FCIC and COP concluded in separate reports to Congress, OTS failed
in its role as AIG’s consolidated supervisor; it neither understood its responsibility
nor had the tools to oversee the entire company’s complex financial services,
including AIGFP. As AIG’s holding company regulator, OTS was charged with over-
seeing the parent and had the power and the duty to spot and require the company
to curtail its risk, but according to COP, it “failed to do so.”666 At a March 2009
congressional hearing, then-Acting OTS Director Scott Polakoff acknowledged that
his agency failed to recognize the extent of the liquidity risk in AIGFP’s CDS port-
folio. In addition, John Reich, a former OTS director, told the FCIC that as late as
September 2008, he had “no clue — no idea — what [AIG’s] CDS liability was.”667
He further told the FCIC, “At the simplest level, . . . an organization like OTS can-
not supervise AIG, GE, Merrill Lynch, and entities that have worldwide offices. . . 
it’s like a gnat on an elephant — there’s no way.”668
     The Dodd-Frank Act may subject AIG to substantial additional Federal regu-
lation. The law abolished OTS and moved supervision of savings and loan insti-
tutions to the OCC and supervision of their holding companies to the Federal
Reserve. The Federal Reserve could take over regulating AIG if it recognizes
AIG as a savings and loan holding company under the Home Owners’ Loan Act.
However, AIG anticipates that it will not be a savings and loan holding company
until Treasury holds less than 50% ownership interest.669 The Dodd-Frank Act also
set up a new framework for supervising nonbank financial companies designated
as systemically important financial institutions because of the role they play in the
financial system. SIFIs face more stringent capital and liquidity requirements and
annual stress tests, among other things. They also will be required to follow height-
ened corporate governance requirements and to prepare “living wills” — plans on
how they could be unwound if they fail.
     Nonbank SIFI designations have not yet been made and there is no stated
time frame to do so. On April 3, 2012, the Financial Stability Oversight Council
(“FSOC”), a collection of regulators responsible for rule-making in this area,
issued a final rule effective May 11, 2012, with the criteria and process it will
166   special inspector general I troubled asset relief program




                                             use to decide which large U.S. nonbank financial firms are designated as SIFIs.
                                             A nonbank financial institution may be designated a SIFI if it is predominantly
                                             engaged in financial activities. FSOC currently is analyzing the potential systemic
                                             importance of individual companies. However, before any SIFI determination can
                                             be made, the Federal Reserve Board must define what it means for a company to
                                             be “predominantly engaged in financial activities.”
                                                 If FSOC designates AIG as a nonbank SIFI, AIG would be subject to Federal
                                             Reserve examination, enforcement, and supervision. AIG’s senior managers expect
                                             AIG to be named a SIFI, and they say that AIG has begun preparing for this desig-
                                             nation. “People say, ‘Are you worried about being a SIFI? Are you worried about the
                                             Federal Reserve?’ No. I welcome it,” Benmosche said at an insurance conference
                                             earlier this year.670 Peter Hancock, the head of AIG’s Chartis insurance unit, told a
                                             conference last December, “We’ve done more to de-lever our balance sheet and be-
                                             come Fed-ready, because we expect to be regulated by the Fed, than I think almost
                                             any other large insurance company.”671
                                                 While the Dodd-Frank Act’s nonbank SIFI designation process was intended to
                                             give regulators better oversight of nonbank financial players that have crucial roles
                                             in the nation’s financial system and subject those designated entities to prudential
                                             standards promulgated by the Federal Reserve, the designation of a company as a
                                             SIFI is only the first step in a host of challenges Federal regulators face in imple-
                                             menting financial reform. If AIG is designated as a SIFI or recognized as a savings
                                             and loan holding company, the Federal Reserve, as its primary supervisor, will face
                                             enormous examination, enforcement, supervision, and logistical challenges in its
                                             responsibility to provide comprehensive and effective oversight. This is particularly
                                             true as it relates to risk, given AIG’s history.
                                                  Although AIG has made changes while in TARP, it remains one of the world’s
                                             largest companies, with hundreds of subsidiaries in more than 130 countries.
                                             Comprehensive and effective oversight of AIG would require the Federal Reserve
                                             to have extensive expertise with and knowledge of a wide array of nonbanking
                                             businesses and their risks, including AIG’s insurance operations, aircraft leasing
                                             business, its mortgage guaranty, securities lending, and other derivatives trading
                                             business.
                                                 One vital concern for AIG (and any future regulator of AIG) is determining
                                             the proper level of risk to make a profit while minimizing the chance of failure.
                                             Although this is a continuing challenge for all companies, given its history, risk is
                                             of particular concern for AIG. In its 2011 annual report, AIG said, “Risk manage-
                                             ment is a key element of AIG’s approach to corporate governance.”672 This state-
                                             ment is not much different from statements made before the company crashed. In
                                             its 2007 annual report, the company said, “AIG believes that strong risk manage-
                                             ment practices and a sound internal control environment are fundamental to its
                                             continued success and profitable growth.”673 And until shortly before the company
                                             imploded, AIG executives denied there was much, if any, risk from its derivatives
                                             portfolio. Even during an August 2007 investor presentation in which AIG revealed
                                             that AIGFP had $79 billion in exposure to super-senior multi-sector CDOs (largely
                                             U.S. subprime mortgages), and that the AIG securities lending portfolio included
                                                                                 quarterly report to congress I July 25, 2012   167




$28.7 billion in sub-prime RMBS, accompanying slides emphasized that risk was
“extremely remote.”674 On a telephone call with analysts that day, Joseph Cassano,
then the head of AIGFP, said, “It is hard for us, without being flippant, to even see
a scenario within any kind of realm or reason that would see us losing $1 in any of
those transactions.”675 Within a year, the bottom dropped out.
     The decisions regulators make today about AIG will be crucial to protect-
ing taxpayers in the future. Proper and effective supervision of AIG is just one of
the many challenges regulators will likely face in the months and years to come.
Effective, comprehensive, and rigorous regulation of AIG is vital to ensure that his-
tory does not repeat itself and that taxpayers are protected.
168   special inspector general I troubled asset relief program
             TARP Operations and
Sect ion 4
             Administration
170   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I July 25, 2012   171




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.676 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.677 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP Administrative and Program
Expenditures
As of June 30, 2012, Treasury has obligated $314.2 million for TARP
administrative costs and $797.3 million in programmatic expenditures for a total
of $1.1 billion. According to Treasury, as of June 30, 2012, it had spent $265.5
million on TARP administrative costs and $697.0 million on programmatic
expenditures, for a total of $962.5 million.678 Treasury reported that it employs 74
career civil servants, 97 term appointees, and 22 reimbursable detailees, for a total
of 193 full-time employees.679 Table 4.1 provides a summary of the expenditures
and obligations for TARP administrative costs through June 30, 2012. These costs
are categorized as “personnel services” and “non-personnel services.”
172   special inspector general I troubled asset relief program




                                             TABLE 4.1
                                              TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS
                                                                                                               Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                           Ending 6/30/2012         Ending 6/30/2012
                                             Personnel Services
                                                 Personnel Compensation & Benefits                                           $94,533,456                           $94,364,796
                                             Total Personnel Services                                                       $94,533,456                           $94,364,796


                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                            $1,908,580                            $1,854,247
                                                 Transportation of Things                                                             11,960                                11,960
                                                 Rents, Communications, Utilities & Misc.
                                                 Charges                                                                            764,636                               689,873
                                                 Printing & Reproduction                                                                  402                                     402
                                                 Other Services                                                              215,389,359                           166,974,667
                                                 Supplies & Materials                                                            1,364,438                             1,356,533
                                                 Equipment                                                                          253,286                               243,907
                                                 Land & Structures                                                                           —                                     —
                                                 Dividends and Interest                                                                   634                                     634
                                             Total Non-Personnel Services                                                 $219,693,295                          $171,132,223

                                             Grand Total                                                                  $314,226,751                          $265,497,019
                                             Notes: Numbers affected by rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 7/9/2012.




                                             Current Contractors and Financial
                                             Agents
                                             As of June 30, 2012, Treasury had retained 139 private vendors: 18 financial agents
                                             and 121 contractors, to help administer TARP.680 Table 4.2 provides a summary of
                                             the programmatic expenditures, which include costs to hire financial agents and
                                             contractors, and obligations through June 30, 2012, excluding costs and obligations
                                             related to personnel services and travel and transportation. Although Treasury has
                                             informed SIGTARP that it “does not track” the number of individuals who provide
                                             services under its agreements, the number likely dwarfs the 193 that Treasury
                                             has identified as working for OFS.681 For example, on October 14, 2010, the
                                             Congressional Oversight Panel (“COP”) reported that “Fannie Mae alone currently
                                             has 600 employees working to fulfill its TARP commitments.”682
                                                                                             quarterly report to congress I July 25, 2012              173




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                               Type of                  Obligated       Expended
Date         Vendor                               Purpose                                      Transaction                  Value           Value

                                                  Legal services for the implementation of
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                                Contract                 $931,090            $931,090
                                                  TARP

10/11/2008   Ennis Knupp & Associates Inc.1       Investment and Advisory Services             Contract                 2,635,827       2,635,827

             The Bank of New York Mellon
10/14/2008                                        Custodian                                    Financial Agent        48,098,612       45,712,347
             Corporation
10/16/2008   PricewaterhouseCoopers               Internal control services                    Contract               34,921,161       32,352,065
                                                                                               Interagency
10/17/2008   Turner Consulting Group, Inc.2       For process mapping consultant services                                   9,000                 —
                                                                                               Agreement
10/18/2008   Ernst & Young LLP                    Accounting Services                          Contract               14,550,519       13,640,626
                                                  Legal services for the Capital
10/29/2008   Hughes Hubbard & Reed LLP                                                         Contract                 3,060,921       2,835,357
                                                  Purchase Program
                                                  Legal services for the Capital
10/29/2008   Squire, Sanders & Dempsey LLP                                                     Contract                 2,687,999       2,687,999
                                                  Purchase Program
10/31/2008   Lindholm & Associates, Inc.          Human resources services                     Contract                   614,963            614,963
                                                  Legal services related to auto industry
11/7/2008    Sonnenschein Nath & Rosenthal LLP4                                                Contract                 2,702,441       2,702,441
                                                  loans
                                                                                               Interagency
11/9/2008    Internal Revenue Service             Detailees                                                                97,239             97,239
                                                                                               Agreement
                                                                                               Interagency
11/17/2008   Internal Revenue Service             CSC Systems & Solutions LLC2                                              8,095              8,095
                                                                                               Agreement
             Department of the Treasury —                                                      Interagency
11/25/2008                                        Administrative Support                                              16,512,820       16,131,121
             Departmental Offices                                                              Agreement
             Alcohol and Tobacco Tax and          IAA — TTB Development, Mgmt &                Interagency
12/3/2008                                                                                                                  67,489             67,489
             Trade Bureau                         Operation of SharePoint                      Agreement
                                                                                               Interagency
12/5/2008    Washington Post3                     Subscription                                                                395                 —
                                                                                               Agreement
                                                  Legal services for the purchase of
12/10/2008   Sonnenschein Nath & Rosenthal LLP4                                                Contract                   102,769            102,769
                                                  assets-backed securities
12/10/2008   Thacher Proffitt & Wood4             Admin action to correct system issue         Contract                        —                  —
                                                                                               Interagency
12/15/2008   Office of Thrift Supervision         Detailees                                                               225,547            164,823
                                                                                               Agreement
             Department of Housing and                                                         Interagency
12/16/2008                                        Detailees                                                                    —                  —
             Urban Development                                                                 Agreement
                                                                                               Interagency
12/22/2008   Office of Thrift Supervision         Detailees                                                               103,871                 —
                                                                                               Agreement
12/24/2008   Cushman and Wakefield of VA Inc.     Painting Services for TARP Offices           Contract                     8,750              8,750
                                                                                               Interagency
1/6/2009     Securities and Exchange Commission Detailees                                                                  30,416             30,416
                                                                                               Agreement
1/7/2009     Colonial Parking Inc.                Lease of parking spaces                      Contract                   338,050            224,033
1/27/2009    Cadwalader Wickersham & Taft LLP     Bankruptcy Legal Services                    Contract                   409,955            409,955
                                                                                                                            Continued on next page
174          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS             (Continued)

                                                                                                      Type of             Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction             Value          Value
      1/27/2009    Whitaker Brothers Bus Machines Inc.   Paper Shredder                               Contract              $3,213          $3,213
                                                                                                      Interagency
      1/30/2009    Comptroller of the Currency           Detailees                                                         501,118         501,118
                                                                                                      Agreement
                                                         IAA — GAO required by P.L. 110-343 to
                                                                                                      Interagency
      2/2/2009     US Government Accountability Office   conduct certain activities related to                            7,459,049      7,459,049
                                                                                                      Agreement
                                                         TARP IAA
                                                                                                      Interagency
      2/3/2009     Internal Revenue Service              Detailees                                                         242,499         242,499
                                                                                                      Agreement
                                                         Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.         Production, FOIA assistance, and             Contract             692,108         692,108
                                                         Program Support
                                                         Initiate Interim Legal Services in support of
      2/12/2009    Locke Lord Bissell & Liddell LLP                                                    Contract            272,243         272,243
                                                         Treasury Investments under EESA
      2/18/2009    Fannie Mae                            Homeownership Preservation Program           Financial Agent   318,054,368    283,824,329
      2/18/2009    Freddie Mac                           Homeownership Preservation Program           Financial Agent   209,158,529    181,217,492
                                                                                                      Interagency
      2/20/2009    Financial Clerk U.S. Senate           Congressional Oversight Panel                                    3,394,348      3,394,348
                                                                                                      Agreement
                                                                                                      Interagency
      2/20/2009    Office of Thrift Supervision          Detailees                                                         203,390         189,533
                                                                                                      Agreement
      2/20/2009    Simpson Thacher & Bartlett MNP LLP Capital Assistance Program (I)                  Contract            1,530,023      1,530,023
                                                         Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                                        Contract            1,394,724      1,394,724
                                                         Legal Services
                                                                                                      Interagency
      2/26/2009    Securities and Exchange Commission Detailees                                                             18,531          18,531
                                                                                                      Agreement
                                                                                                      Interagency
      2/27/2009    Pension Benefit Guaranty Corporation Rothschild, Inc.                                                  7,750,000      7,750,000
                                                                                                      Agreement
                                                         Management Consulting relating to the
      3/6/2009     The Boston Consulting Group                                                        Contract             991,169         991,169
                                                         Auto industry
      3/16/2009    Earnest Partners                      Small Business Assistance Program            Financial Agent     2,947,780      2,947,780
                                                         SBA Initiative Legal Services — Contract
      3/30/2009    Bingham McCutchen LLP5                Novated from TOFS-09-D-0005 with             Contract             273,006         143,893
                                                         McKee Nelson
      3/30/2009    Cadwalader Wickersham & Taft LLP      Auto Investment Legal Services               Contract           17,392,786     17,392,786
      3/30/2009    Haynes and Boone, LLP                 Auto Investment Legal Services               Contract             345,746         345,746
                                                         SBA Initiative Legal Services — Contract
      3/30/2009    McKee Nelson5                         Novated to TOFS-10-D-0001 with Bingham Contract                   149,349         126,631
                                                         McCutchen LLP
      3/30/2009    Sonnenschein Nath & Rosenthal LLP4 Auto Investment Legal Services                  Contract            1,834,193      1,834,193
      3/31/2009    FI Consulting Inc.                    Credit Reform Modeling and Analysis          Contract            4,124,750      3,041,748
                                                                                                      Interagency
      4/3/2009     American Furniture Rentals Inc.3      Furniture Rental 1801                                              35,187          25,808
                                                                                                      Agreement
                                                         Management Consulting relating to the
      4/3/2009     The Boston Consulting Group                                                        Contract            4,100,195      4,099,923
                                                         Auto industry
                                                                                                      Interagency
      4/17/2009    Bureau of Engraving and Printing      Detailees                                                          45,822          45,822
                                                                                                      Agreement
      4/17/2009    Herman Miller, Inc.                   Aeron Chairs                                 Contract              53,799          53,799
      4/21/2009    AllianceBernstein LP                  Asset Management Services                    Financial Agent    43,372,479     39,575,340
      4/21/2009    FSI Group, LLC                        Asset Management Services                    Financial Agent    23,633,383     22,052,953
                                                                                                                              Continued on next page
                                                                                           quarterly report to congress I July 25, 2012             175




OFS SERVICE CONTRACTS          (Continued)

                                                                                             Type of                  Obligated       Expended
Date        Vendor                              Purpose                                      Transaction                  Value           Value
4/21/2009   Piedmont Investment Advisors, LLC   Asset Management Services                    Financial Agent       $11,561,031      $10,588,154
                                                                                             Interagency
4/30/2009   Department of State                 Detailees                                                                    —                 —
                                                                                             Agreement
                                                                                             Interagency
5/5/2009    Federal Reserve Board               Detailees                                                                48,422            48,422
                                                                                             Agreement
            Department of the Treasury —                                                     Interagency
5/13/2009                                       “Making Home Affordable” Logo search                                        325              325
            U.S. Mint                                                                        Agreement
                                                Executive Search and recruiting Services
5/14/2009   Knowledgebank Inc.2                                                              Contract                   124,340           124,340
                                                — Chief Homeownership Officer
                                                Freedom of Information Act (FOIA) Analysts
5/15/2009   Phacil, Inc.                        to support the Disclosure Services, Privacy Contract                     90,301            90,301
                                                and Treasury Records
                                                                                             Interagency
5/20/2009   Securities and Exchange Commission Detailees                                                                430,000           430,000
                                                                                             Agreement
                                                                                             Interagency
5/22/2009   Department of Justice — ATF         Detailees                                                               243,778           243,778
                                                                                             Agreement
                                                Legal services for work under Treasury’s
5/26/2009   Anderson, McCoy & Orta              Public Private Investment Funds (PPIF)       Contract                 2,286,996       2,286,996
                                                program
                                               Legal services for work under Treasury’s
5/26/2009   Simpson Thacher & Bartlett MNP LLP Public Private Investment Funds (PPIF)        Contract                 7,849,026       3,526,454
                                               program
                                                                                             Interagency
6/9/2009    Financial Management Services       Gartner, Inc.                                                            89,436            89,436
                                                                                             Agreement
                                                                                             Interagency
6/29/2009   Department of the Interior          Federal Consulting Group (Foresee)                                       49,000            49,000
                                                                                             Agreement
                                                Executive search services for the OFS
7/17/2009   Korn/Ferry International                                                         Contract                    74,023            74,023
                                                Chief Investment Officer position
7/30/2009   Cadwalader Wickersham & Taft LLP    Restructuring Legal Services                 Contract                 1,278,696       1,278,696
7/30/2009   Debevoise & Plimpton LLP            Restructuring Legal Services                 Contract                     1,650             1,650
            Fox, Hefter, Swibel, Levin &
7/30/2009                                       Restructuring Legal Services                 Contract                    26,493            26,493
            Carol, LLP
                                                                                             Interagency
8/10/2009   Department of Justice — ATF         Detailees                                                                63,109            63,109
                                                                                             Agreement
            National Aeronautics and Space                                                   Interagency
8/10/2009                                       Detailees                                                              140,889            140,889
            Administration (NASA)                                                            Agreement
8/18/2009   Mercer (US) Inc.                    Executive Compensation Data Subscription Contract                         3,000             3,000
                                                                                             Interagency
8/25/2009   Department of Justice — ATF         Detailees                                                                63,248            63,248
                                                                                             Agreement
9/2/2009    Knowledge Mosaic Inc.               SEC filings subscription service             Contract                     5,000             5,000
9/10/2009   Equilar, Inc.                       Executive Compensation Data Subscription Contract                        59,990            59,990
9/11/2009   PricewaterhouseCoopers              PPIP compliance                              Contract                 3,065,705       2,976,502
                                                                                             Interagency
9/18/2009   Treasury Franchise Fund             BPD                                                                    436,054            436,054
                                                                                             Agreement
                                                                                             Interagency
9/30/2009   Immixtechnology Inc.3               EnCase eDiscovery ProSuite                                              210,184                —
                                                                                             Agreement
                                                                                             Interagency
9/30/2009   Immixtechnology Inc.3               Guidance Inc.                                                           108,000                —
                                                                                             Agreement
                                                                                                                          Continued on next page
176          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (Continued)

                                                                                                      Type of            Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction            Value          Value
      9/30/2009    NNA INC.                              Newspaper delivery                           Contract             $8,479          $8,220
                                                         SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                                   Contract            460,000         460,000
                                                         financial analytics service
                   Department of the Treasury —                                                       Interagency
      11/9/2009                                          Administrative Support                                         23,682,061     18,056,064
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      12/16/2009   Internal Revenue Service              Detailees                                                              —               —
                                                                                                      Agreement
      12/22/2009   Avondale Investments LLC              Asset Management Services                    Financial Agent     772,657         772,657
      12/22/2009   Bell Rock Capital, LLC                Asset Management Services                    Financial Agent    2,175,615      1,868,409

      12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                    Financial Agent    3,284,195      2,947,231

                                                         Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract           1,456,803        855,396
                                                         Litigation Support
      12/22/2009   KBW Asset Management, Inc.            Asset Management Services                    Financial Agent    4,937,433      4,937,433
      12/22/2009   Lombardia Capital Partners, LLC       Asset Management Services                    Financial Agent    3,242,419      2,810,840
                   Paradigm Asset Management
      12/22/2009                                         Asset Management Services                    Financial Agent    3,298,978      2,968,731
                   Co., LLC
                                                         IAA — GAO required by P.L.110-343 to         Interagency
      1/14/2010    US Government Accountability Office                                                                   7,304,722      7,304,722
                                                         conduct certain activities related to TARP   Agreement
                   Association of Government
      1/15/2010                                          CEAR Program Application                     Contract               5,000           5,000
                   Accountants
                                                                                                      Interagency
      2/16/2010    Internal Revenue Service              Detailees                                                         52,742          52,742
                                                                                                      Agreement
                                                         FNMA IR2 assessment — OFS task order
      2/16/2010    The MITRE Corporation                                                              Contract            730,192         730,192
                                                         on Treasury MITRE Contract
                                                                                                      Interagency
      2/18/2010    Treasury Franchise Fund               BPD                                                             1,221,140      1,221,140
                                                                                                      Agreement
      3/8/2010     Qualx Corporation                     FOIA Support Services                        Contract            549,518         549,518
                   Department of the Treasury —                                                       Interagency
      3/12/2010                                          Administrative Support                                           671,731         671,731
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      3/22/2010    Gartner, Inc.                         Financial Management Services                                     73,750          73,750
                                                                                                      Agreement
                                                                                                      Interagency
      3/26/2010    Federal Maritime Commission           Detailees                                                        158,600         158,600
                                                                                                      Agreement
      3/29/2010    Morgan Stanley                        Disposition Agent Services                   Financial Agent   16,685,290     16,685,290
                                                                                                      Interagency
      4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                   4,797,556      4,797,556
                                                                                                      Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP         Housing Legal Services                       Contract           1,229,350        918,224
      4/12/2010    Hewitt EnnisKnupp, Inc.   1
                                                         Investment Consulting Services               Contract           4,499,750      2,661,486
                                                         Data and Document Management
      4/22/2010    Digital Management Inc.                                                            Contract                  —               —
                                                         Consulting Services
                                                         Data and Document Management
      4/22/2010    MicroLink, LLC                                                                     Contract          11,442,511      8,425,393
                                                         Consulting Services
                                                         Data and Document Management
      4/23/2010    RDA Corporation                                                                    Contract           6,626,280      4,309,463
                                                         Consulting Services
                                                                                                      Interagency
      5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                            1,320           1,320
                                                                                                      Agreement
                                                                                                                             Continued on next page
                                                                                          quarterly report to congress I July 25, 2012             177




OFS SERVICE CONTRACTS           (Continued)

                                                                                            Type of                  Obligated       Expended
Date        Vendor                               Purpose                                    Transaction                  Value           Value
5/17/2010   Lazard Fréres & Co. LLC              Transaction Structuring Services           Financial Agent       $15,032,527      $11,518,280
                                                 Accurint subscription service for
6/24/2010   Reed Elsevier Inc (dba LexisNexis)                                              Contract                     8,208             8,208
                                                 one year — 4 users
                                                 Financial Institution Management &
6/30/2010   The George Washington University                                                Contract                     5,000             5,000
                                                 Modeling — Training course (J.Talley)
7/21/2010   Navigant Consulting                  Program Compliance Support Services        Contract                 1,766,984           313,234
7/21/2010   Regis and Associates PC              Program Compliance Support Services        Contract                 1,161,816           296,521
7/22/2010   Ernst & Young LLP                    Program Compliance Support Services        Contract                 3,323,286       2,042,110
7/22/2010   PricewaterhouseCoopers               Program Compliance Support Services        Contract                        —                 —
7/22/2010   Schiff Hardin LLP                    Housing Legal Services                     Contract                    97,526            97,526
7/27/2010   West Publishing Corporation          Subscription Service for 4 users           Contract                     6,722             6,664
8/6/2010    Alston & Bird LLP                    Omnibus procurement for legal services     Contract                 1,339,366           213,527
8/6/2010    Cadwalader Wickersham & Taft LLP     Omnibus procurement for legal services     Contract                 5,949,077       2,789,647
            Fox, Hefter, Swibel, Levin &
8/6/2010                                         Omnibus procurement for legal services     Contract                  199,200            152,947
            Carol, LLP
8/6/2010    Haynes and Boone, LLP                Omnibus procurement for legal services     Contract                        —                 —
8/6/2010    Hughes Hubbard & Reed LLP            Omnibus procurement for legal services     Contract                 1,877,048           796,190
8/6/2010    Love & Long LLP                      Omnibus procurement for legal services     Contract                        —                 —
8/6/2010    Orrick Herrington Sutcliffe LLP      Omnibus procurement for legal services     Contract                        —                 —
            Paul, Weiss, Rifkind, Wharton &
8/6/2010                                         Omnibus procurement for legal services     Contract                 6,475,491       2,911,462
            Garrison LLP
8/6/2010    Perkins Coie LLP                     Omnibus procurement for legal services     Contract                        —                 —
8/6/2010    Seyfarth Shaw LLP                    Omnibus procurement for legal services     Contract                        —                 —
            Shulman, Rogers, Gandal, Pordy &
8/6/2010                                         Omnibus procurement for legal services     Contract                  313,725            202,303
            Ecker, PA
8/6/2010    Sullivan Cove Reign Enterprises JV   Omnibus procurement for legal services     Contract                        —                 —
8/6/2010    Venable LLP                          Omnibus procurement for legal services     Contract                  498,100               960
8/12/2010   Knowledge Mosaic Inc.                SEC filings subscription service           Contract                     5,000             5,000
            Department of Housing and                                                       Interagency
8/30/2010                                        Detailees                                                              29,915            29,915
            Urban Development                                                               Agreement
                                                 One-year subscription (3 users) to the CQ
                                                 Today Breaking News & Schedules, CQ
9/1/2010    CQ-Roll Call Inc.                                                              Contract                      7,500             7,500
                                                 Congressional & Financial Transcripts, CQ
                                                 Custom Email Alerts
9/17/2010   Bingham McCutchen LLP5               SBA 7(a) Security Purchase Program         Contract                    19,975            11,177
                                                 Program Operations Support Services to
                                                 include project management, scanning
9/27/2010   Davis Audrey Robinette                                                          Contract                 2,328,450       1,852,662
                                                 and document management and
                                                 correspondence
                                                 GSA Task Order for procurement
                                                 books — FAR, T&M, Government
9/30/2010   CCH Incorporated                                                                Contract                     2,430             2,430
                                                 Contracts Reference, World Class
                                                 Contracting
                                                                                            Interagency
10/1/2010   Financial Clerk U.S. Senate          Congressional Oversight Panel                                       5,200,000       2,777,752
                                                                                            Agreement
10/8/2010   Management Concepts Inc.             Training Course — CON 217                  Contract                     1,025             1,025
                                                                                                                         Continued on next page
178          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS              (Continued)

                                                                                                      Type of            Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction            Value          Value
      10/8/2010    Management Concepts Inc.              Training Course — CON 216                    Contract             $1,025          $1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                    Contract               2,214           2,214
      10/8/2010    Management Concepts Inc.              Training Course — 11107705                   Contract                995              995
      10/8/2010    Management Concepts Inc.              Training Course — Analytic Boot              Contract               1,500           1,500
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                    Contract               2,214           2,214
      10/8/2010    Management Concepts Inc.              Training Course — CON 217                    Contract               1,025           1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                    Contract               2,214           2,214
                   Hispanic Association of Colleges &
      10/14/2010                                         Detailees                                    Contract             12,975          12,975
                   Universities
                                                         IAA — GAO required by P.L. 110-343 to        Interagency
      10/26/2010   US Government Accountability Office                                                                   5,600,000      3,738,195
                                                         conduct certain activities related to TARP   Agreement
                                                         FNMA IR2 assessment — OFS task order
      11/8/2010    The MITRE Corporation                 on Treasury MITRE Contract for cost and Contract                2,288,166      1,501,419
                                                         data validation services related to HAMP FA
      11/18/2010   Greenhill & Co., Inc.                 Structuring and Disposition Services         Financial Agent    6,139,167      6,139,167
                                                         Acquisition Support Services — PSD TARP
      12/2/2010    Addx Corporation                                                              Contract                1,311,314      1,148,690
                                                         (action is an order against BPA)
      12/29/2010   Reed Elsevier Inc. (dba LexisNexis)   Accurint subscription services one user      Contract               1,026             684
                                                                                                      Interagency
      1/5/2011     Canon U.S.A. Inc.                     Administrative Support                                            12,937          12,013
                                                                                                      Agreement
      1/18/2011    Perella Weinberg Partners & Co.       Structuring and Disposition Services         Financial Agent    5,542,473      5,542,473
                                                                                                      Interagency
      1/24/2011    Treasury Franchise Fund               BPD                                                             1,092,962      1,090,860
                                                                                                      Agreement
                   Association of Government
      1/26/2011                                          CEAR Program Application                     Contract               5,000           5,000
                   Accountants
                                                         Mentor Program Training
      2/24/2011    ESI International Inc.                                                             Contract             20,758          20,758
                                                         (call against IRS BPA)
                   Department of the Treasury —                                                       Interagency
      2/28/2011                                          Administrative Support                                         17,805,529     13,299,171
                   Departmental Offices                                                               Agreement
      3/3/2011     Equilar, Inc.                         Executive Compensation Data Subscription Contract                 59,995          59,995
      3/10/2011    Mercer (US) Inc.                      Executive Compensation Data Subscription Contract                  7,425            3,600
      3/22/2011    Harrison Scott Publications, Inc.     Subscription Service                         Contract              5,894            5,894
                                                                                                      Interagency
      3/28/2011    Fox News Network LLC6                 Litigation Settlement                                            121,000         121,000
                                                                                                      Agreement
                   Federal Reserve Bank of New York                                                   Interagency
      4/20/2011                                          Oversight Services                                              1,300,000        875,415
                   (FRBNY) HR                                                                         Agreement
      4/26/2011    PricewaterhouseCoopers LLP            Financial Services Omnibus                   Contract           2,509,632      1,442,695
      4/27/2011    ASR Analytics, LLC                    Financial Services Omnibus                   Contract                  —               —
      4/27/2011    Ernst & Young, LLP                    Financial Services Omnibus                   Contract           1,414,262        283,378
      4/27/2011    FI Consulting, Inc.                   Financial Services Omnibus                   Contract           1,703,711      1,105,778
      4/27/2011    Lani Eko & Company CPAs LLC           Financial Services Omnibus                   Contract             50,000               —
      4/27/2011    MorganFranklin, Corporation           Financial Services Omnibus                   Contract             50,000               —
      4/27/2011    Oculus Group, Inc.                    Financial Services Omnibus                   Contract           2,284,646        608,490
      4/28/2011    Booz Allen Hamilton, Inc.             Financial Services Omnibus                   Contract             50,000               —
      4/28/2011    KPMG, LLP                             Financial Services Omnibus                   Contract             50,000               —
                                                                                                                             Continued on next page
                                                                                             quarterly report to congress I July 25, 2012             179




OFS SERVICE CONTRACTS            (Continued)

                                                                                               Type of                  Obligated       Expended
Date         Vendor                               Purpose                                      Transaction                  Value           Value
             Office of Personnel Management
                                                                                               Interagency
4/28/2011    (OPM) — Western Management           Leadership Training                                                     $21,300               $—
                                                                                               Agreement
             Development Center
                                                  Accurint subscriptions by LexisNexis for
5/31/2011    Reed Elsevier Inc (dba LexisNexis)                                                Contract                    10,260             6,840
                                                  5 users
                                                  Five (5) user subscriptions to CLEAR by
5/31/2011    West Publishing Corporation                                                       Contract                     7,515             7,515
                                                  West Government Solutions
                                                  One year subscription to the CQ Today
                                                  Breaking News & Schedules, CQ
6/9/2011     CQ-Roll Call Inc.                                                              Contract                        7,750             7,750
                                                  Congressional & Financial Transcripts, CQ
                                                  Custom Email Alerts
                                                  Anti-Fraud Protection and Monitoring
6/17/2011    Winvale Group LLC                                                                 Contract                   504,232           242,507
                                                  Subscription Services
                                                                                               Interagency
7/28/2011    Internal Revenue Service-Procurement Detailee                                                                 84,234            84,234
                                                                                               Agreement
                                                                                               Interagency
9/9/2011     Financial Management Service         FMS – NAFEO                                                              22,755                —
                                                                                               Agreement
                                                  MHA Felony Certification Background
9/12/2011    ADC LTD NM                                                                        Contract                   447,799           227,950
                                                  Checks (BPA)
9/15/2011    ABMI – All Business Machines, Inc    4 Level 4 Security Shredders and Supplies Contract                        4,392             4,392


                                                  National Business Center, Federal            Interagency
9/29/2011    Department of Interior                                                                                        25,000            25,000
                                                  Consulting Group                             Agreement


                                                  Renewing TD010-F-249 SEC filings
9/29/2011    Knowledge Mosaic Inc.                                                             Contract                     4,200             4,200
                                                  Subscription Service
                                                                                               Interagency
10/4/2011    Internal Revenue Service             IRS                                                                    168,578             63,216
                                                                                               Agreement
10/20/2011   ABMI – All Business Machines, Inc.   4 Level 4 Security Shredders and Supplies Contract                        4,827             4,827
11/18/2011   Qualx Corporation                    FOIA Support Services                        Contract                    68,006            68,006
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services             Financial Agent          4,500,000       2,661,290
                                                  Pre-Program and Discovery Process Team
12/20/2011   Allison Group LLC                                                           Contract                          19,980            19,065
                                                  Building
             Department of the Treasury —                                                      Interagency
12/30/2011                                        Department of Treasury — DO                                         15,098,746        4,698,183
             Departmental Offices                                                              Agreement
                                                                                               Interagency
12/30/2011   Treasury Franchise Fund              ARC                                                                    901,433            674,451
                                                                                               Agreement
                                                                                               Interagency
1/4/2012     Government Accountability Office     Government Accountability Office                                      3,510,818       1,853,391
                                                                                               Agreement
             Office of Personnel Management
                                                  Office of Personnel Management (OPM) — Interagency
1/5/2012     (OPM) — Western Management                                                                                    31,088                —
                                                  Western Management Development Center Agreement
             Development Center
2/2/2012     Moody’s Analytics Inc.               ABS/MBS Data Subscription Services           Contract                 1,804,000       1,043,333
2/7/2012     Greenhill & Co., LLC                 Structuring and Disposition Services         FAA Listing              1,050,000           706,034
2/14/2012    Association of Govt Accountants      CEAR Program Application                     Contract                     5,000             5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services                 Contract                    50,000           135,175
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)               Contract                    99,750            87,282
                                                                                                                            Continued on next page
180               special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                        (Continued)

                                                                                                                                        Type of                            Obligated               Expended
      Date                 Vendor                                             Purpose                                                   Transaction                            Value                   Value
                                                                              National Business Center, Federal                         Interagency
      3/14/2012            Department of Interior                                                                                                                             $26,000                $26,000
                                                                              Consulting Group                                          Agreement
      3/15/2012            Integrated Federal Solutions, Inc.                 TARP Acquisition Support (BPA)                            Contract                              668,548                  96,817
                           Department of the Treasury —                                                                                 Interagency
      3/30/2012                                                               Departmental Offices                                                                         1,136,980                            —
                           Departmental Offices WCF                                                                                     Agreement
      3/30/2012            E-Launch Multimedia, Inc.                          Subscription Service                                      Contract                                13,100                          —
                                                                              Maintenance Agreement for Canon
      5/2/2012             Cartridge Technology, Inc.                                                                                   Contract                                 7,846                      654
                                                                              ImageRunner
      5/10/2012            Equilar Inc.                                       Executive Compensation Data Subscription Contract                                                 44,995                 44,995
                                                                                                                                        Interagency
      6/12/2012            Department of Justice                              Department of Justice                                                                        1,737,884                            —
                                                                                                                                        Agreement
      6/15/2012            Qualx Corporation                                  FOIA Support Services                                     Contract                                50,000                          —
                                                                              Subscription for Anti Fraud Unit to Perform
      6/30/2012            West Publishing Corporation                                                                    Contract                                               8,660                          —
                                                                              Background Research
                           Department of the Treasury —                                                                                 Interagency
                                                                              Administrative Support                                                                          660,601                660,601
                           Departmental Offices                                                                                         Agreement
                           Judicial Watch7                                    Litigation related                                        Other Listing                            1,500                   1,500
                           Judicial Watch    7
                                                                              Litigation related                                        Other Listing                            2,146                   2,146
      Total                                                                                                                                                      $1,035,016,005 $886,035,122
      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several
      Interagency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 4.2 includes all vendor contracts
      administered under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not include
      salary, benefits, travel, and other non-contract related expenses.
      1
       	EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
       	Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
       	Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
       	Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
       	McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
       	Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.
      7
       	Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.

      Source: Treasury, response to SIGTARP data call, 7/11/2012.
S ect i o n 5   SIGTARP Recommendations
182   special inspector general I troubled asset relief program
                                                                                  quarterly report to congress I July 25, 2012   183




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
105 recommendations in its quarterly reports to Congress and in many of its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated April 25, 2012 (the “April 2012 Quarterly Report”), and,
in the table at the end of this section, summarizes SIGTARP’s recommendations
from past quarters and notes the extent of implementation.




Recommendations from SIGTARP’s Audit of
the Hardest Hit Fund
In its audit report “Factors Affecting Implementation of the Hardest Hit Fund
Program,” released April 12, 2012, SIGTARP reviewed Treasury’s administration
of the Housing Finance Agency Innovation Fund for the Hardest Hit Housing
Markets (“HHF”). Under HHF, TARP dollars are meant to fund “innovative
measures” developed by 19 state housing finance agencies (“HFAs”). SIGTARP
found that after two years, HHF has experienced significant delay in providing
help to homeowners due to several factors, including a lack of comprehensive
planning by Treasury and a delay and limitation in participation in the program
by large servicers, and the GSEs Fannie Mae and Freddie Mac. In its audit,
SIGTARP reported that as of December 31, 2011, the latest data then available,
HHF had spent only $217.4 million to provide assistance to 30,640 homeowners
— approximately 3% of the TARP funds allocated to HHF and approximately 7% of
the minimum number of homeowners the state HFAs estimate helping over the life
of the program. The report included five recommendations to Treasury.

Treasury should set meaningful and measurable performance goals for
the Hardest Hit Fund program including, at a minimum, the number of
homeowners Treasury estimates will be helped by the program, and measure
the program’s progress against those goals.
    Treasury has not set measurable goals and metrics that would allow Treasury,
the public, and Congress to measure the progress and success of HHF. Treasury set
a single goal for HHF: help prevent foreclosures and help preserve homeownership.
Treasury deferred to individual states to set goals but did not require those states to
set measurable goals. Most states’ goals are high-level expectations with no measur-
able target, such as Florida’s “preserving homeownership” and “protecting home
values.”
    Rather than acknowledge that after more than two years, HHF is not reaching
enough homeowners and make changes suggested by SIGTARP that are designed
184   special inspector general I troubled asset relief program




                                             to measure progress and ultimately reach those homeowners, Treasury is not
                                             adopting SIGTARP’s recommendation. Rather than set meaningful goals for HHF
                                             and measure progress against those goals, Treasury chooses instead to rely on its
                                             requirement that each state estimate the number of households to be assisted. This
                                             number has limited usefulness. First, states have been reporting this number for
                                             more than two years and Treasury has not used this number effectively to change
                                             the program to help a significant number of homeowners. Second, states can, and
                                             have, changed estimates, creating a shifting baseline that makes it difficult to mea-
                                             sure performance against expectations. The states’ estimated number of homeown-
                                             ers to be assisted by the Hardest Hit Fund has steadily decreased over the last year.
                                             Treasury has not adopted this estimate or even reported it.
                                                  It is not too late for Treasury to set measurable goals, including at a minimum,
                                             adopting the HFAs’ collective estimate or developing its own goal of how many
                                             homeowners Treasury expects HHF to help. Treasury must set meaningful goals
                                             and metrics to identify program successes and set-backs, and change the program
                                             as needed. Treasury has stated that establishing static numeric targets is not suited
                                             to the dynamic nature of HHF. Taxpayers that fund this program have an absolute
                                             right to know what the Government’s expectations and goals are for using $7.6
                                             billion in TARP funds. By refusing to set any goals for the programs, Treasury is
                                             subject to criticism that it is attempting to avoid accountability.

                                             Treasury should instruct state housing finance agencies in the Hardest Hit
                                             Fund to set meaningful and measurable overarching and interim performance
                                             goals with appropriate metrics to measure progress for their individual state
                                             programs.
                                                 Treasury is not adopting this recommendation. Most states’ goals are high-level
                                             expectations with no measurable targets. Although states estimate the number of
                                             households to be assisted, these estimates are of limited value for performance
                                             measurement because the states can, and have, changed that number. The states’
                                             collective estimate of the number of households to be assisted is a moving target,
                                             and has been steadily decreasing. If the estimate of the number of households to be
                                             assisted changes, consistent performance measurement over the life of the program
                                             is not possible, progress is no longer measured based on a goal established at the
                                             outset, and opportunities for accountability to the public are diminished.

                                             Treasury should set milestones at which the state housing finance agencies in
                                             the Hardest Hit Fund must review the progress of individual state programs
                                             and make program adjustments from this review.
                                                 Treasury has not agreed to implement this recommendation, although it would
                                             be easy to do so. For example, Treasury could at a minimum adopt the HFAs’ esti-
                                             mates of homeowners to be assisted through 2017, and then set interim goals, such
                                             as the number of homeowners that each state HFA should reach each year. States
                                             continue to need Treasury’s help and support to increase the number of home-
                                             owners helped, and Treasury should do everything it can to ensure the program’s
                                                                                  quarterly report to congress I July 25, 2012   185




success. Without regular periodic milestones and program adjustments, opportuni-
ties to reach struggling homeowners may be lost.

Treasury should publish on its website and in the Housing Scorecard on a
quarterly basis the total number of homeowners assisted, funds drawn down
by states, and dollars expended for assistance to homeowners, assistance
committed to homeowners, and cash on hand, aggregated by all state Hardest
Hit Fund programs.
    Treasury has rejected this basic recommendation for greater transparency.
While the 19 HFAs have provided a significant amount of transparency on their
HHF programs on each of their websites, Treasury itself can do more to improve
transparency. Tracking performance of all HHF programs would require a tax-
payer to gather information from 19 websites. Treasury aggregates the number of
homeowners assisted and dollars expended, but SIGTARP, not Treasury, publishes
this information. Treasury should publish this information, along with other useful
information on HHF’s performance, on its website and in the monthly Housing
Scorecard that reports on the Administration’s efforts in housing programs. A
Treasury official told SIGTARP during its audit that it is appropriate to leave report-
ing of the data to the states, stating, “This is not our program. These are their pro-
grams.” However, HHF is a TARP program, the source of the funds is TARP, and
Treasury is the steward over TARP. Congress and the public are rightfully entitled
to increased transparency and accountability of how TARP funds are used.

Treasury should develop an action plan for the Hardest Hit Fund that
includes steps to increase the numbers of homeowners assisted and to gain
industry support for Treasury-approved HHF programs. Treasury should set
interim metrics for how many homeowners it intends to assist in a Treasury-
defined time period in each particular program (such as principal reduction,
second lien reduction, or reinstatement). If Treasury cannot achieve the
desired level of homeowners assisted in any one program area in the defined
time period, Treasury should put the funds to better use toward programs that
are reaching homeowners.
    Treasury is rejecting this recommendation. Treasury must change the status
quo and fulfill its role as steward over TARP programs and make determinations
of which programs are successful and which programs are not working. In par-
ticular, Treasury needs to develop an action plan that includes steps that Treasury
intends to take to increase dramatically the numbers of homeowners assisted in all
the HHF programs, including the two known areas Treasury supports but that are
lacking broad industry support — principal reduction and second-lien reduction. If
Treasury is unable to help struggling homeowners with one type of assistance, for
example principal reduction, then it must take leadership to put the funds to better
use. This may include putting the funds toward programs that are more successful
at reaching homeowners. Treasury has an obligation to ensure that HHF funds are
reaching homeowners, and it is unacceptable to delegate all of this responsibility to
the states.
186   special inspector general I troubled asset relief program




                                             Recommendations from SIGTARP’s Audit of
                                             the Net Present Value Test’s Impact on the
                                             Home Affordable Modification Program
                                             In its audit report “The Net Present Value Test’s Impact on the Home Affordable
                                             Modification Program,” released June 18, 2012, SIGTARP assessed the issues
                                             surrounding the Net Present Value (“NPV”) test that have posed challenges to
                                             HAMP’s success. SIGTARP’s report identified concerns with the NPV test that
                                             may stand as barriers to homeowners getting much-needed help from HAMP. The
                                             report included four recommendations to Treasury.

                                             Treasury should stop allowing servicers to add a risk premium to Freddie
                                             Mac’s discount rate in HAMP’s net present value test.
                                                 SIGTARP found in its sample that the discretion that Treasury gave to servicers
                                             to override the baseline discount rate in the NPV test by adding a risk premium (of
                                             up to 2.5%) reduces the number of otherwise qualified homeowners Treasury helps
                                             through HAMP. Treasury responded that it would discuss this recommendation
                                             with SIGTARP, but that use of a risk premium is traditional in expected cash flow
                                             modeling. HAMP is not a traditional program and the risk premium is not tradi-
                                             tionally used by servicers in HAMP. Only four servicers add a risk premium, includ-
                                             ing Bank of America, N.A., and Wells Fargo Bank, N.A. More than 100 servicers do
                                             not add a risk premium. There is a simple fix for Treasury to remove this obstacle to
                                             homeowners getting into HAMP — tell servicers that risk premiums are no longer
                                             allowed.

                                             Treasury should ensure that servicers use accurate information when
                                             evaluating net present value test results for homeowners applying to HAMP
                                             and should ensure that servicers maintain documentation of all net present
                                             value test inputs. To the extent that a servicer does not follow Treasury’s
                                             guidelines on input accuracy and documentation maintenance, Treasury
                                             should permanently withhold incentives from that servicer.
                                                 Any model will be only as good as its inputs. SIGTARP found in its sample that
                                             servicers made errors using NPV inputs and did not properly maintain records of all
                                             NPV inputs during the period of our review. Within SIGTARP’s judgmental sample
                                             of 149 HAMP applications, SIGTARP found that the servicers could provide both
                                             accurate inputs and documentation for only two HAMP applications. SIGTARP
                                             found that servicers failed to comply with HAMP guidelines on maintaining
                                             records on NPV inputs, which is crucial for compliance and to protect homeown-
                                             ers’ rights to challenge servicer error. Treasury responded that it would discuss this
                                             recommendation with SIGTARP.

                                             Treasury should require servicers to improve their communication with
                                             homeowners regarding denial of a HAMP modification so that homeowners
                                             can move forward with other foreclosure alternatives in a timely and fully
                                                                                quarterly report to congress I July 25, 2012   187




informed manner. To the extent that a servicer does not follow Treasury’s
guidelines on these communications, Treasury should permanently withhold
incentives from that servicer.
    In its sample, SIGTARP found that servicers had poor communication with
homeowners on the denial of a HAMP modification due to the NPV test. HAMP
guidelines require that servicers communicate a denial to the homeowner within
10 days of the decision. Servicers’ failure to communicate denial in a timely man-
ner can have serious consequences because a delay may prevent homeowners from
finding other foreclosure alternatives sooner. In addition, HAMP guidelines require
that the servicer list certain NPV inputs and provide vital information on foreclo-
sure alternatives in the denial letter. Treasury said it would discuss this recommen-
dation with SIGTARP, and that it made improvements in this area according to a
sample that Treasury compliance agent Freddie Mac recently conducted on four
large servicers.

Treasury should ensure that more detail is captured by the Making Home
Affordable Compliance Committee meeting minutes regarding the substance
of discussions related to compliance efforts on servicers in HAMP. Treasury
should make sure that minutes clearly outline the specific problems
encountered by servicers, remedial options discussed, and any requisite
actions taken to remedy the situation.
    SIGTARP found a lack of detail in Treasury’s meeting minutes related to
Treasury’s oversight of servicers and servicer remediation efforts. Because Treasury
failed to document its oversight, SIGTARP was unable to verify Treasury’s role in
the oversight of servicers or its compliance agent Freddie Mac. Treasury said it
would discuss this recommendation with SIGTARP.




Update on Recommendation Regarding
Hardest Hit Fund Information Security
As part of its ongoing efforts to reduce TARP’s vulnerabilities to fraud, waste, and
abuse, SIGTARP notified Treasury, in a letter dated November 23, 2011, of an area
of potential vulnerability related to the handling of sensitive borrower information
by the state HFAs that participate in HHF, and made recommendations on how to
reduce that vulnerability.
    SIGTARP recommended:

Treasury should protect borrower personally identifiable information (“PII”)
and other sensitive borrower information compiled for the Hardest Hit
Fund (“HHF”) by: (1) requiring that within 90 days, all Housing Finance
Agencies (and their contractors) (“HFAs”) participating in HHF develop and
implement effective policies and procedures to ensure protection against
unauthorized access, use, and disposition of PII and other sensitive borrower
188   special inspector general I troubled asset relief program




                                             information; (2) Treasury reviewing each HFA’s policies and procedures
                                             to determine if they are effective, and taking such action as is required to
                                             ensure effectiveness; (3) requiring that all parties granted access to borrower
                                             information should be made aware of restrictions on copying and disclosing
                                             this information; (4) requiring annual certification by HFAs to Treasury that
                                             that they are in compliance with all applicable laws, policies and procedures
                                             pertaining to borrower information; and (5) requiring that HFAs promptly
                                             notify Treasury and SIGTARP within 24 hours, when a breach of security has
                                             occurred involving borrower information.
                                                 Treasury told SIGTARP that it obtained all 19 HFAs’ policies and procedures
                                             regarding the protection of PII, is in the process of discussing these policies with
                                             the HFAs, and sent a survey to each of the HFAs. Treasury told SIGTARP that the
                                             three current certifications per year, as required by the contract between Treasury
                                             and the HFAs, cover all federal and state laws regarding PII, and extend to a
                                             contractor’s handling of PII. Treasury told SIGTARP that it informed all partici-
                                             pating HFAs by email that it considers PII breaches to be included in contractual
                                             notification requirements. However, Treasury did not require notification within 24
                                             hours or notification to SIGTARP. It is important that the reporting of any breach
                                             of homeowner PII occur as expeditiously as possible to SIGTARP and Treasury
                                             to protect against or lessen the damage that could be done with this information.
                                             SIGTARP will continue to monitor Treasury’s efforts to implement SIGTARP’s
                                             recommendation.
SIGTARP Recommendations Table
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                X
          role and expressly giving SIGTARP access to relevant
          documents and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
          recommends that each program participant should (1)                                                                                this recommendation in many of its
          acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
          compliance of the conditions contained in the agreement                                                                            in MHA.
          in question, (2) establish internal controls with respect to                            X
          that condition, (3) report periodically to the Compliance
          department of the Office of Financial Stability (“OFS-
          Compliance”) regarding the implementation of those controls
          and its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official to
          OFS-Compliance that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website            X
          as soon as possible.
4    *    Treasury should require all TARP recipients to report on the
                                                                                X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends         X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
          consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
          program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                                X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
                                                                                                                                                                                          quarterly report to congress I July 25, 2012




          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          189
SIGTARP Recommendations Table                   (Continued)                                                                                                                              190
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
          SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
                                                                                                                                                                                         special inspector general I troubled asset relief program




          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
          protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
          participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
          underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
          measures.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP Recommendations Table                    (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest                                                                             recommendation, but has failed to
          PPIF funds in legacy assets that they hold or manage on                                 X                                          impose other significant safeguards.
          behalf of themselves or their clients or (2) conduct PPIF
          transactions with entities in which they have invested on
          behalf of themselves or others.
23   *    Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
          have stringent investor-screening procedures, including                                                                            managers include investor-screening
          comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
          as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
          operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
          of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
          to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
          owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
          can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
          funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                             information.
24   *    Treasury should require PPIP managers to provide most
          favored nation clauses to PPIF equity stakeholders, to
                                                                                 X
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation. 
                                                                                                             X
          subject property before funding a mortgage modification.                                                                           SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          quarterly report to congress I July 25, 2012
                                                                                                                                                                                          191
SIGTARP Recommendations Table                    (Continued)                                                                                                                              192
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
          be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
          sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
          of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
          participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
          of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
          the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
          hidden fees and payments so that applicants are made fully
          aware of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer from
          collecting payments from the Government and not passing
          the full amount of the subsidies to the homeowners); and (6)
          the fact that no fee should be charged for the modification.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury has said it will adopt this
          to verify the identity of the participants in the transaction                                                                      recommendation.  SIGTARP will monitor
          and to address the potential for servicers to steal from                                           X                               Treasury’s implementation of the
          individuals receiving Government subsidies without applying                                                                        recommendation.
          them for the benefit of the homeowner.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
          the income reported on a mortgage modification application                                                                         recommendation and does not require
                                                                                                                                                                                          special inspector general I troubled asset relief program




          with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
          incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
          verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
          mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about
                                                                                X
          modification rescue fraudsters, and publicize that no fee is
          necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                    (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
          the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
          database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                             participating borrowers’ personally
                                                                                                  X
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
          barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
          investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
          employees of the fund management company who manage                                                                                represents a material deficiency in the
          non-PPIF funds.                                                                                                                    program.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
          and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
          seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
          holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
          such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an                                                                                  After more than two years, Treasury
          evaluation system should be put in place to monitor the                                                                            now states that it has developed risk
          effectiveness of the PPIF managers, both to ensure they                                                                            and performance metrics. However, it
          are fulfilling the terms of their agreements and to measure                             X                                          is still not clear how Treasury will use
          performance.                                                                                                                       these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
          PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
          performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
          Treasury concludes that the manager has materially violated                                                      X                 period after 12 months. That timeframe
          compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to
          Treasury, as part of the Watch List process, not only
                                                                                 X
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          quarterly report to congress I July 25, 2012
                                                                                                                                                                                          193
SIGTARP Recommendations Table                   (Continued)                                                                                                                                194
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
          the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
          unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
          investors.                                                                                                                         not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
          to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
          and (2) develop mechanisms to ensure that acceptance of               X                                                            rating agencies, and have agreed to
          collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
          incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                             appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to              X
                                                                                                                                                                                           special inspector general I troubled asset relief program




          the investment of TARP funds.
41   *    Treasury should improve existing control systems to
          document the occurrence and nature of external phone calls
          and in-person meetings about actual and potential recipients          X
          of funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal
          assistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
          future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
          financial institutions that would require an advance review                                                                 X      ownership position in any other financial
          so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
45        Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
          statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
          its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                           X
          of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
          permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
          toward meeting that goal.
46        Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
          and publicly report against them to measure over time                                                                              reporting of servicer performance, it has
          the implementation and success of HAMP. For example,                                                                               not identified goals for each metric and
          Treasury could set goals and publicly report against those                                                                         measured performance against those
          goals for servicer processing times, modifications as a                                 X                                          goals.
          proportion of a servicer’s loans in default, modifications
          as a proportion of foreclosures generally, rates of how
          many borrowers fall out of the program prior to permanent
          modification, and re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional
          borrowers who could benefit from the program and to arm
                                                                                X
          the public with complete, accurate information — this will
          help to avoid confusion and delay, and prevent fraud and
          abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                     X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
          borrowers being underwater.                                                                                                        recommendation.
50        Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with
          insufficient capital to ensure that the TARP matching funds           X
          are not flowing into an institution that is on the verge of
          failure.
51        Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                    X
          programs, the terms should be revised to provide expressly
                                                                                                                                                                                         quarterly report to congress I July 25, 2012




          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         195
SIGTARP Recommendations Table                    (Continued)                                                                                                                                196
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                           X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
          the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
          the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                 X
          considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
          rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                             casts his or her vote.
55        Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
          all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                           X
          repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this
          will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
          information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
          concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                                                                            special inspector general I troubled asset relief program




                                                                                                                                             generally to limit discussion to valuation
                                                                                                  X                                          ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *    Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
          participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
          ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
          but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                  X                                          TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                  X                                          June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected                                                                                  but not expected participation.
          participation in each and that, after each program is                                   X
          launched, it report monthly as to the program’s performance
          against these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
          principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
          is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
          borrowers, and address potential conflict of interest issues.
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal                                                               X
          reduction programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                X                                                            the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63        Treasury should launch a broad-based information
          campaign, including public service announcements in target
          markets that focus on warnings about potential fraud, and             X
          include conspicuous fraud warnings whenever it makes
          broad public announcements about the HAMP program.
64        When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators               X
          should conduct a new analysis of whether the applying
          institution is sufficiently healthy and viable to warrant
          participation in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                                                                         quarterly report to congress I July 25, 2012




                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         197
SIGTARP Recommendations Table                   (Continued)                                                                                                                               198
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
66        Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
          refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
          dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *    Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks
          additional taxpayer funds, Treasury should provide to
                                                                                 X
          SIGTARP the identity of the institution and details of the
          proposed additional SBLF investment.
                                                                                                                                                                                          special inspector general I troubled asset relief program




69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
          establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                 X
          firms should prepare legal fee bills and describe specific                                                                         resources.
          work performed in the bills, and which costs and fees are
          allowable and unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
          submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
          instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                             X
          making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *    OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
          and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
          Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
          guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
          bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
          OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                 X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                     (Continued)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
72   *    OFS should review previously paid legal fee bills to                                                                               Treasury told SIGTARP that Treasury
          identify unreasonable or unallowable charges, and seek                                                                             procurement is trying to determine what
                                                                                                             X
          reimbursement for those charges, as appropriate.                                                                                   action, if any, is appropriate with other
                                                                                                                                             legal service contracts.
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
          Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
          area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                                                             metrics to assess the servicer’s internal
                                                                                                  X                                          controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary. SIGTARP
                                                                                                                                             will continue to monitor Treasury’s
                                                                                                                                             implementation of this recommendation.
74   *    Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
          the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
          minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
          rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
          and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
          ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
          rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
          that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-
          up including escalation to Treasury’s Office of General                                                                            up actions or escalation. SIGTARP
          Counsel or the Assistant Secretary and the outcomes of that                                                                        will continue to monitor Treasury’s
          escalation.                                                                                                                        implementation of the recommendation.
75   *    Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
          with homeowners relating to changes in the status or                                                                               recommendation, saying it already
          terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
          permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
          significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                           X
          the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
76   *    Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
          acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
          including the length of time it takes for trial modifications to                                                                   including that trial periods should last
          be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
          rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
          the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
          complaints, and the percentage of required modification                                                                            performance, many servicers have
          status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                                                                          quarterly report to congress I July 25, 2012




                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          199
SIGTARP Recommendations Table                   (Continued)                                                                                                                              200
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
77        Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury has rejected this important
          program performance against acceptable performance                                                                                 recommendation, stating that it “believes
          benchmarks in the areas of: the length of time it takes                                                                            that the remedies enacted have been
          for trial modifications to be converted into permanent                                                                             appropriate, and that appropriate
          modifications, the conversion rate for trial modifications                                                       X                 transparency exists.”
          into permanent modifications, the length of time it takes
          to resolve escalated homeowner complaints, and the
          percentage of required modification status reports that are
          missing.
78   *    Treasury must ensure that all servicers participating in MHA                                                                       Treasury has rejected this important
          comply with program requirements by vigorously enforcing                                                                           recommendation, stating that it “believes
          the terms of the servicer participation agreements, including                                                                      that the remedies enacted have been
          using all financial remedies such as withholding, permanently                                                                      appropriate and that appropriate
                                                                                                                           X
          reducing, and clawing back incentives for servicers who                                                                            transparency exists.”
          fail to perform at an acceptable level. Treasury should be
          transparent and make public all remedial actions taken
          against any servicer.
79        Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Simpson Thacher
                                                                                                                                                                                         special inspector general I troubled asset relief program




          & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X
          Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
          ($146,867); and Bingham McCutchen LLP (novated from
          McKee Nelson LLP, $57,939).
80        The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task
          order 1, and $22,546 in other direct costs not allowed
          under contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
          bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                           X
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
82        Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
84   *    Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded to this
          should develop a clear TARP exit path to ensure that                                                                               recommendation by saying that it
          as many community banks as possible repay the TARP                                                                                 continues its efforts to wind down CPP
          investment and prepare to deal with the banks that cannot.                                                                         through repayments, restructuring, and
          Treasury should develop criteria pertaining to restructurings,                                     X                               sales, all of which it was doing prior to
          exchanges, and sales of its TARP investments (including any                                                                        this recommendation.  Treasury intends
          discount of the TARP investment, the treatment of unpaid                                                                           to auction off a pool of TARP securities. 
          TARP dividend and interest payments, and warrants).                                                                                Treasury has not addressed the criteria
                                                                                                                                             for these divestment strategies.
85   *    Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
          terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
          community banks that will not be able to exit TARP prior                                                         X
          to the dividend rate increase in order to help preserve the
          value of taxpayers’ investments.
86        Treasury should protect borrower personally identifiable                                                                           See discussion in this section
          information (“PII”) and other sensitive borrower information
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring
          that within 90 days, all Housing Finance Agencies (and
          their contractors) (“HFAs”) participating in HHF develop
          and implement effective policies and procedures to ensure
          protection against unauthorized access, use, and disposition
          of PII and other sensitive borrower information; (2) Treasury
          reviewing each HFA’s policies and procedures to determine
          if they are effective, and taking such action as is required to                                    X
          ensure effectiveness; (3) requiring that all parties granted
          access to borrower information should be made aware
          of restrictions on copying and disclosing this information;
          (4) requiring annual certification by HFAs to Treasury that
          they are in compliance with all applicable laws, policies
          and procedures pertaining to borrower information; and (5)
          requiring that HFAs promptly notify Treasury and SIGTARP
          within 24 hours, when a breach of security has occurred
          involving borrower information.
87   *    To ensure that the Office of the Special Master consistently                                                                       OSM began memorializing in its records
          grants exceptions to the $500,000 cash salary cap, the                                                                             justifications for exceptions. SIGTARP
          Office of the Special Master should substantiate each                                                                              will continue to monitor whether those
          exception requested and whether the requests demonstrate                                           X                               records substantiate each exception
          or fail to demonstrate “good cause.”                                                                                               requested and whether the requests
                                                                                                                                             demonstrate or fail to demonstrate “good
                                                                                                                                             cause.”
88   *    The Office of the Special Master should better document
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
                                                                                 X
                                                                                                                                                                                          quarterly report to congress I July 25, 2012




          in its analysis of the 50th percentile of the market, and
          it should also maintain records and data so that the
          relationship between its determinations and benchmarks are
          clearly understood.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          201
SIGTARP Recommendations Table                   (Continued)                                                                                                                                 202
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
89        The Office of the Special Master should develop more                                                                               OSM defended the adequacy of its
          robust policies, procedures, or guidelines to help ensure                                                                          policies and procedures. OSM stated it
          that its pay determination process and its decisions are                                                                           will carefully focus on how it can further
          evenhanded. These measures will improve transparency                                                                               develop and articulate its policies,
                                                                                                                           X
          and help the Office of the Special Master consistently apply                                                                       procedures, and guidelines.
          the Interim Final Rule principles of “appropriate allocation,”
          “performance-based compensation,” and “comparable
          structures and payments.
90        In order to allow for effective compliance and enforcement                                                                         Treasury responded to this
          in HAMP Tier 2, Treasury should require that the borrower                                                                          recommendation by requiring that
          prove that the property has been rented and is occupied                                                                            borrowers certify that they intend to rent
          by a tenant at the time the borrower applies for a loan                                                                            the property for at least five years and
          modification, as opposed to requiring only a certification                                                                         that they will make reasonable efforts
          that the borrower intends to rent the property. As part of                                                                         to rent. This does not go far enough.
          the Request for Mortgage Assistance (“RMA”) application                                                                            Requiring only a self-certification, without
          for HAMP Tier 2, the borrower should provide the servicer                                                                          a strong compliance and enforcement
          with a signed lease and third-party verified evidence of                                                         X                 regime to ensure that the intent is
          occupancy in the form of documents showing that a renter                                                                           carried out and the property is actually
          lives at the property address, such as a utility bill, driver’s                                                                    rented, leaves the program vulnerable to
          license, or proof of renter’s insurance. In the case of                                                                            risks that TARP funds will pay investors
                                                                                                                                                                                            special inspector general I troubled asset relief program




          multiple-unit properties under one mortgage,Treasury should                                                                        for modifications for mortgages on
          require that the borrower provide the servicer with evidence                                                                       vacation homes that are not rented,
          that at least one unit is occupied by a tenant as part of the                                                                      and may delay, as opposed to prevent,
          RMA.                                                                                                                               foreclosures and increase HAMP redefault
                                                                                                                                             rates.
91        To continue to allow for effective compliance and                                                                                  Treasury responded to this
          enforcement in HAMP Tier 2 after the trial modification has                                                                        recommendation by requiring that
          started, Treasury should require that, prior to conversion                                                                         borrowers certify that they intend to rent
          of a trial modification to a permanent modification, the                                                                           the property for at least five years and
          borrower certify under penalty of perjury that none of the                                                                         that they will make reasonable efforts
          occupancy circumstances stated in the RMA have changed.                                                                            to rent. This does not go far enough.
                                                                                                                                             Requiring only a self-certification, without
                                                                                                                                             a strong compliance and enforcement
                                                                                                                           X                 regime to ensure that the intent is
                                                                                                                                             carried out and the property is actually
                                                                                                                                             rented, leaves the program vulnerable to
                                                                                                                                             risks that TARP funds will pay investors
                                                                                                                                             for modifications for mortgages on
                                                                                                                                             vacation homes that are not rented,
                                                                                                                                             and may delay, as opposed to prevent,
                                                                                                                                             foreclosures and increase HAMP redefault
                                                                                                                                             rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
92        To prevent a property that has received a HAMP Tier 2                                                                              Treasury responded to this
          modification from remaining vacant for an extended period                                                                          recommendation by requiring that
          of time after a lease expires or a tenant vacates,                                                                                 borrowers certify that they intend to rent
                                                                                                                                             the property for at least five years and
          (a) Treasury should require that borrowers immediately notify
                                                                                                                                             that they will make reasonable efforts to
          their servicer if the property has remained vacant for more
                                                                                                                                             rent the property on a year-round basis
          than three months.
                                                                                                                                             if it becomes vacant. Treasury’s actions
          (b) Treasury should require servicers to provide monthly                                                                           did not go far enough to protect the
          reports to Treasury of any properties that have remained                                                         X                 program. With no compliance regime to
          vacant for more than three months.                                                                                                 determine that a renter is in place, the
          (c) Treasury should bar payment of TARP-funded incentives                                                                          program remains vulnerable to TARP
          to any participant for a loan modification on a property that                                                                      funds being paid to modify mortgages
          has been reported vacant for more than three months, until                                                                         that do not fit within the intended
          such time as the property has been re-occupied by a tenant                                                                         expansion of the program.
          and the borrower has provided third-party verification of
          occupancy.
93        In order to protect against the possibility that the extension                                                                     Treasury has not implemented this
          and expansion of HAMP will lead to an increase in mortgage                                                                         recommendation. It is important that
          modification fraud,                                                                                                                Treasury educate as many homeowners
          (a) Treasury should require that servicers provide the                                                                             as possible with accurate information
          SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                              about HAMP in an effort to prevent
                                                                                                                                             mortgage modification fraud.
          Alert to all HAMP-eligible borrowers as part of their monthly
          mortgage statement until the expiration of the application
                                                                                                                           X
          period for HAMP Tier 1 and 2.
          (b) Treasury should undertake a sustained public service
          campaign as soon as possible both to reach additional
          borrowers who could potentially be helped by HAMP Tier 2
          and to arm the public with complete, accurate information
          about the program to avoid confusion and delay, and to
          prevent fraud and abuse.
94        Given the expected increase in the volume of HAMP                                                                                  Treasury has not implemented this
          applications due to the implementation of HAMP Tier 2,                                                                             recommendation. Treasury has not held
          Treasury should convene a summit of key stakeholders to                                                                            a summit of all key stakeholders to
          discuss program implementation and servicer ramp-up and                                                                            make the program roll-out efficient and
                                                                                                                           X
          performance requirements so that the program roll-out is                                                                           effective. On the program roll-out date of
          efficient and effective.                                                                                                           June 1, 2012, only three of the top 10
                                                                                                                                             largest servicers had fully implemented
                                                                                                                                             HAMP Tier 2.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          quarterly report to congress I July 25, 2012
                                                                                                                                                                                          203
SIGTARP Recommendations Table                    (Continued)                                                                                                                               204
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          Treasury said that it will include metrics
          and assess servicer performance,                                                                                                   in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
          (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
          compliance assessments that measure compliance with the
          program guidelines and requirements of HAMP Tier 2.
                                                                                                             X
          (b) Treasury should develop and publish separate metrics
          related to HAMP Tier 2 in the compliance results and
          program results sections of the quarterly Making Home
          Affordable (“MHA”) servicer assessments of the Top 10 MHA
          servicers.
96        To allow for assessment of the progress and success                                                                                Treasury has rejected this
          of HAMP Tier 2, Treasury should set meaningful and                                                                                 recommendation. Treasury’s refusal to
          measurable goals, including at a minimum the number of                                                                             provide meaningful and measurable goals
          borrowers Treasury estimates will be helped by HAMP Tier                                                         X                 leaves it vulnerable to accusations that it
          2. Treasury should unambiguously and prominently disclose                                                                          is trying to avoid accountability.
          its goals and report monthly on its progress in meeting
          these goals.
97        Treasury should set meaningful and measurable                                                                                      See discussion in this section
          performance goals for the Hardest Hit Fund program
                                                                                                                                                                                           special inspector general I troubled asset relief program




          including, at a minimum, the number of homeowners                                                                X
          Treasury estimates will be helped by the program, and
          measure the program’s progress against those goals.
98        Treasury should instruct state housing finance agencies                                                                            See discussion in this section
          in the Hardest Hit Fund to set meaningful and measurable
          overarching and interim performance goals with appropriate                                                       X
          metrics to measure progress for their individual state
          programs.
99        Treasury should set milestones at which the state housing                                                                          See discussion in this section
          finance agencies in the Hardest Hit Fund must review the
                                                                                                                           X
          progress of individual state programs and make program
          adjustments from this review.
100       Treasury should publish on its website and in the Housing                                                                          See discussion in this section
          Scorecard on a quarterly basis the total number of
          homeowners assisted, funds drawn down by states, and
                                                                                                                           X
          dollars expended for assistance to homeowners, assistance
          committed to homeowners, and cash on hand, aggregated
          by all state Hardest Hit Fund programs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                  (Continued)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
101       Treasury should develop an action plan for the Hardest                                                                             See discussion in this section
          Hit Fund that includes steps to increase the numbers of
          homeowners assisted and to gain industry support for
          Treasury-approved HHF programs. Treasury should set
          interim metrics for how many homeowners it intends to
          assist in a Treasury-defined time period in each particular                                                      X
          program (such as principal reduction, second lien reduction,
          or reinstatement). If Treasury cannot achieve the desired
          level of homeowners assisted in any one program area in
          the defined time period, Treasury should put the funds to
          better use toward programs that are reaching homeowners.
102       Treasury should stop allowing servicers to add a risk                                                                              See discussion in this section
          premium to Freddie Mac’s discount rate in HAMP’s net                                                             X
          present value test.
103       Treasury should ensure that servicers use accurate                                                                                 See discussion in this section
          information when evaluating net present value test results
          for homeowners applying to HAMP and should ensure that
          servicers maintain documentation of all net present value
                                                                                                                           X
          test inputs. To the extent that a servicer does not follow
          Treasury’s guidelines on input accuracy and documentation
          maintenance, Treasury should permanently withhold
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 See discussion in this section
          communication with homeowners regarding denial of a
          HAMP modification so that homeowners can move forward
          with other foreclosure alternatives in a timely and fully
                                                                                                                           X
          informed manner. To the extent that a servicer does not
          follow Treasury’s guidelines on these communications,
          Treasury should permanently withhold incentives from that
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         See discussion in this section
          Making Home Affordable Compliance Committee meeting
          minutes regarding the substance of discussions related to
          compliance efforts on servicers in HAMP. Treasury should                                           X
          make sure that minutes clearly outline the specific problems
          encountered by servicers, remedial options discussed, and
          any requisite actions taken to remedy the situation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	
                                                                                                                                                                              quarterly report to congress I July 25, 2012
                                                                                                                                                                              205
                     Endnotes
206             special inspector general I troubled asset relief program



      1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
      3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
             Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 6/28/2012.
      4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      6.	    Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/2/2012.
      7.	    Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
             2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012.
      8.	    Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-daily-summary-report/TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed
             7/2/2012.
      9.	    CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 6/28/2012; OMB, “Analytical
             Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed
             6/28/2012.
      10.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2013/assets/econ_analyses.pdf, accessed 6/28/2012.
      11.	   OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.whitehouse.gov/sites/default/files/omb/
             reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 6/28/2012.
      12.	   CBO, “Report on the Troubled Asset Relief Program—March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/attachments/03-28-
             2012TARP.pdf, accessed 6/28/2012.
      13.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 6/28/2012.
      14.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 6/28/2012.
      15.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 6/28/2012.
      16.	   Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/2/2012; Treasury, response to SIGTARP data call,
             7/5/2012.
      17.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/2/2012.
      18.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
             2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012; Treasury, response to SIGTARP data call, 7/11/2012.
      19.	   Treasury, response to SIGTARP data call, 7/9/2012.
      20.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
             2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012; Treasury, response to SIGTARP vetting draft, 10/3/2011.
      21.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/2/2012; Treasury, response to SIGTARP data call,
             7/5/2012.
      22.	   Treasury, response to SIGTARP data call, 7/5/2012.
      23.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 6/28/2012.
      24.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
      25.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 7/10/2012.
      26.	   Treasury, response to SIGTARP data call, 7/9/2012.
      27.	   Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
             Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 6/28/2012.
      28.	   Treasury, response to SIGTARP data call, 7/5/2012.
      29.	   Treasury, response to SIGTARP data call, 7/20/2012.
      30.	   Treasury, response to SIGTARP data call, 7/20/2012.
      31.	   Treasury, response to SIGTARP data call, 7/9/2012.
      32.	   Treasury, response to SIGTARP data call, 7/9/2012.
      33.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 6/28/2012.
      34.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
             2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012.
      35.	   Treasury, response to SIGTARP data call, 7/5/2012.
      36.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
                                                                                            quarterly report to congress I July 25, 2012                207


37.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
38.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
39.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
40.	   Treasury, response to SIGTARP data call, 7/5/2012.
41.	   Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
       INVESTMENT.pdf, accessed 7/6/2012.
42.	   Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
       INVESTMENT.pdf, accessed 7/9/2012.
43.	   Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
       INVESTMENT.pdf, accessed 7/6/2012.
44.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
       2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/
       initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20
       as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
45.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
       2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/
       initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20
       as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012; Treasury, response to SIGTARP data call, 7/5/2012.
46.	   Treasury, response to SIGTARP draft report, 10/8/2010.
47.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cdci/Pages/comdev.aspx, accessed 7/10/2012.
48.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
49.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
50.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
       6/28/2012.
51.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
52.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012; Treasury Press
       Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
       tg996.aspx, accessed 6/28/2012.
53.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012.
54.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 6/28/2012; FRBNY,
       response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
55.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012;
       Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/9/2012.
56.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
57.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 6/28/2012.
58.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
59.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
60.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
61.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 6/28/2012.
62.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
       center/press-releases/Pages/hp1358.aspx, accessed 6/28/2012.
63.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
       Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
       pdf, accessed 6/28/2012.
64.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 6/28/2012.
65.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
       6/28/2012.
66.	   FRBNY, response to SIGTARP data call, 7/2/2012.
208             special inspector general I troubled asset relief program



      67.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
             6/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
             TALF_recent_operations.html, accessed 6/28/2012; FRBNY, response to SIGTARP data call, 7/2/2012.
      68.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
             6/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_
             recent_operations.html, accessed 6/28/2012; FRBNY, response to SIGTARP data call, 7/2/2012.
      69.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 6/28/2012.
      70.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
             2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/11/2012.
      71.	   FRBNY, response to SIGTARP data call, 7/2/2012.
      72.	   FRBNY, response to SIGTARP data call, 7/2/2012.
      73.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
             gov/press-center/press-releases/Pages/tg65.aspx, accessed 6/28/2012.
      74.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended March 31, 2012, 4/19/2012, p. 4, www.
             treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%20-%20Q1-12.pdf,
             accessed 7/10/2012.
      75.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, response to SIGTARP data call, 7/5/2012.
      76.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      77.	   Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
             tg58.aspx, accessed 6/28/2012.
      78.	   Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”
             1/25/2012, www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 6/28/2012.
      79.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
             Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 6/28/2012.
      80.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/2/2012.
      81.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
      82.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/9/2012.
      83.	   Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012; Daily TARP Update, 7/2/2012, www.
             treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/TARP%20Cash%20Summary/Daily%20TARP%20
             Update%20-%2007.02.2012.pdf, accessed 7/2/2012.
      84.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/9/2012.
      85.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012.
      86.	   Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
             6/28/2012.
      87.	   Treasury, Transactions Report, 1/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 7/9/2012.
      88.	   General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 6/28/2012.
      89.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, response to SIGTARP data call, 7/5/2012.
      90.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
             Treasury, response to SIGTARP data call, 7/5/2012.
      91.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
             tg1253.aspx, accessed 6/28/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
             tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed
             7/9/2012.
      92.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
             tg1253.aspx, accessed 6/28/2012.
      93.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
             tg1253.aspx, accessed 6/28/2012.
      94.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
                                                                                                quarterly report to congress I July 25, 2012                  209


        Treasury, response to SIGTARP data call, 7/5/2012.
95.	    Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
        Treasury, response to SIGTARP data call, 7/5/2012.
96.	    SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
        data/40729/000119312511142459/ds1a.htm, accessed 6/28/2012.
97.	    SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
        data/40729/000119312511142459/ds1a.htm, accessed 6/28/2012.
98.	    Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
        Treasury, response to SIGTARP data call, 7/5/2012.
99.	    Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.financialreformwatch.com/uploads/
        file/Treasury%20-%20Auto%20Supplier%20Support%20Program.pdf, accessed 6/28/2012.
100.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
        Treasury, response to SIGTARP data call, 7/5/2012.
101.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/6/2012;
        Treasury, response to SIGTARP data call, 7/5/2012.
102.	   Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
        President-on-the-mortgage-crisis/, accessed 6/28/2012.
103.	   Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
        releases/Pages/tg33.aspx, accessed 6/28/2012.
104.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
105.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/19/2012.
106.	   Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/publication/24884, accessed 6/28/2012.
107.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
        2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012; Treasury, Transactions Report-Housing, 7/2/2012, www.treasury.gov/
        initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/Housing%20Transactions%20Report%20
        as%20of%2006.28.2012.pdf, accessed 7/6/2012.
108.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
109.	   Treasury, response to SIGTARP data call, 7/20/2012.
110.	   Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
        5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 6/28/2012.
111.	   Treasury, response to SIGTARP data call, 7/9/2012.
112.	   Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
113.	   Treasury, response to SIGTARP data call, 7/20/2012.
114.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
115.	   Treasury, response to SIGTARP data call, 7/20/2012.
116.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/19/2012.
117.	   Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
        alternatives.jsp, accessed 6/28/2012.
118.	   Treasury, response to SIGTARP data call, 7/20/2012.
119.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
120.	   Treasury, response to SIGTARP data call, 7/9/2012.
121.	   Treasury, response to SIGTARP data call, 7/20/2012.
122.	   Treasury, response to SIGTARP data call, 7/20/2012.
123.	   Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
        Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 6/28/2012; Treasury,
        “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
        9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/28/2012; Department of Veterans Affairs, “Revised VA
        Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 6/28/2012.
124.	   Treasury, response to SIGTARP data call, 7/20/2012.
125.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
126.	   Treasury, response to SIGTARP data call, 7/9/2012.
127.	   Treasury, response to SIGTARP data call, 7/9/2012.
128.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
210            special inspector general I troubled asset relief program



      129.	 Treasury, response to SIGTARP data call, 7/5/2012.
      130.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
      131.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
      132.	 Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report-Housing, 7/2/2012, www.treasury.gov/initiatives/financial-
            stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/Housing%20Transactions%20Report%20as%20of%2006.28.2012.
            pdf, accessed 7/6/2012.
      133.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2011, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
            pdf, accessed 7/6/2012; Treasury, response to SIGTARP data call, 7/9/2012.
      134.	 Treasury, response to SIGTARP data call, 7/20/2012.
      135.	 Treasury, response to SIGTARP data call, 7/9/2012.
      136.	 Treasury, response to SIGTARP data call, 7/16/2012.
      137.	 Treasury, response to SIGTARP data call, 7/9/2012.
      138.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      139.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      140.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      141.	 Treasury, response to SIGTARP data call, 7/20/2012.
      142.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      143.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      144.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      145.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
      146.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      147.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      148.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      149.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      150.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      151.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
      152.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/28/2012.
      153.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 6/28/2012.
      154.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 6/28/2012.
      155.	 Treasury, response to SIGTARP data call, 7/20/2012.
      156.	 SIGTARP, “Quarterly Report to Congress,” 4/25/2012, www.sigtarp.gov/Quarterly%20Reports/April_25_2012_Report_to_Congress.pdf, accessed
            7/21/2012.
      157.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      158.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/28/2012.
      159.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/28/2012.
      160.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      161.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 6/28/2012.
      162.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
      163.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 6/28/2012.
      164.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
                                                                                           quarterly report to congress I July 25, 2012               211


165.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
166.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
167.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
168.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
169.	 Treasury, Transactions Report-Housing, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/Housing%20Transactions%20Report%20as%20of%2006.28.2012.pdf, accessed 7/5/2012.
170.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 6/28/2012.
171.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
172.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 6/28/2012.
173.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
174.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012; Treasury, response to SIGTARP data call, 7/18/2012.
175.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012; Treasury, response to SIGTARP data call, 7/20/2012.
176.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
177.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
178.	 Treasury, response to SIGTARP vetting draft, 7/12/2012.
179.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
180.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
181.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
182.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
183.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
184.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/14/2012.
185.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
186.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
187.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
      www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 6/28/2012.
188.	 Treasury, response to SIGTARP data call, 7/9/2012.
189.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 6/28/2012.
190.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/praoverviewnongse.pdf, accessed 6/28/2012.
191.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 6/28/2012.
192.	 Treasury, response to SIGTARP data call, 7/20/2012.
193.	 Treasury, response to SIGTARP data call, 7/20/2012.
194.	 Treasury, response to SIGTARP data call, 7/20/2012.
195.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments for Third Quarter 2011,” 12/7/2011, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 6/28/2012;
      Treasury, response to SIGTARP data call, 7/20/2012.
196.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments for Third Quarter 2011,” 12/7/2011, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 6/28/2012;
      Treasury, response to SIGTARP data call, 7/20/2012.
197.	 Treasury, response to SIGTARP data call, 7/20/2012.
198.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 6/28/2012.
199.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
212            special inspector general I troubled asset relief program



      200.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/28/2012.
      201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      202.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 6/28/2012.
      203.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 6/28/2012.
      204.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      205.	 Treasury, response to SIGTARP data call, 7/9/2012.
      206.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 6/28/2012.
      207.	 Treasury, response to SIGTARP data call, 7/20/2012.
      208.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 6/28/2012.
      209.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      210.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/28/2012.
      211.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 6/28/2012.
      212.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 6/28/2012.
      213.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 6/28/2012.
      214.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      215.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 6/28/2012.
      216.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012; Treasury, response to SIGTARP data call, 7/9/2012.
      217.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 6/28/2012.
      218.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 6/28/2012.
      219.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 6/28/2012; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
            www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 6/28/2012.
      220.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 6/28/2012; Treasury, response to SIGTARP data call, 7/9/2012.
      221.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
            com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/28/2012.
      222.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
      223.	 Treasury, response to SIGTARP data call, 7/20/2012.
      224.	 Treasury, response to SIGTARP data call, 7/20/2012.
      225.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
      226.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 6/28/2012.
      227.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/28/2012.
      228.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 6/28/2012.
      229.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/28/2012.
      230.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 6/28/2012.
      231.	 Treasury, “November 2011 Making Home Affordable Report,” 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
            Documents/FINAL_Nov%202011%20MHA%20Report.pdf, accessed 6/28/2012; Treasury, response to SIGTARP data call, 7/20/2012.
      232.	 Treasury, response to SIGTARP data call, 7/20/2012.
      233.	 Treasury, response to SIGTARP data call, 7/20/2012.
      234.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
            Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/28/2012.
      235.	 Treasury, response to SIGTARP data call, 7/20/2012.
                                                                                            quarterly report to congress I July 25, 2012                213


236.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 6/28/2012.
237.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 3/29/2012;
      Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
      9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 6/28/2012.
238.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 6/28/2012.
239.	 Treasury, response to SIGTARP data call, 7/9/2012.
240.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012.
241.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012.
242.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 6/28/2012.
243.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 6/28/2012.
244.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 6/28/2012.
245.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012.
246.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012.
247.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 6/19/2012; Treasury, response to SIGTARP data call, 7/9/2012.
248.	 Treasury, response to SIGTARP data call, 7/9/2012.
249.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
      latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 6/28/2012.
250.	 Treasury, response to SIGTARP data call, 7/9/2012.
251.	 Treasury, response to SIGTARP data call, 7/9/2012.
252.	 Treasury, response to SIGTARP data call, 7/9/2012.
253.	 Treasury, response to SIGTARP data call, 7/9/2012.
254.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 6/28/2012;
      HUD, response to SIGTARP draft, 1/10/2011.
255.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
256.	 HUD, response to SIGTARP draft report, 1/10/2011.
257.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 6/28/2012.
258.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 6/28/2012; HUD, response to SIGTARP draft report, 3/31/2011.
259.	 HUD, response to SIGTARP draft report, 1/12/2011.
260.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
      HHF_Audit.pdf, accessed 6/28/2012.
261.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 6/28/2012.
262.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
      treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 6/28/2012.
263.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 6/28/2012.
264.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 6/28/2012.
265.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      6/28/2012.
266.	 Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
      2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/16/2012.
267.	 Treasury, Transactions Report-Housing, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/Housing%20Transactions%20Report%20as%20of%2006.28.2012.pdf, accessed 7/6/2012.
268.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
      reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 6/28/2012.
269.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
      Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 6/28/2012.
270.	 Treasury, response to SIGTARP data call, 7/2/2012.
214            special inspector general I troubled asset relief program



      271.	 Treasury, response to SIGTARP data call, 7/5/2012; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
            accessed 6/28/2012; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 6/28/2012; CALHFA
            Mortgage Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 6/28/2012; Florida
            Hardest-Hit, “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 6/28/2012; Georgia Department of Community Affairs,
            “Hardest Hit Fund,” no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 6/28/2012; Illinois Housing
            Development Authority, “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 6/28/2012; Indiana Foreclosure Prevention
            Network, “Indiana Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 6/28/2012; Kentucky Housing Corporation,
            “Kentucky Housing Corporation,” no date, www.kyhousing.org/, accessed 6/28/2012; Michigan State Housing Development Authority, “Helping
            Michigan’s Hardest Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 6/28/2012; Mississippi
            Home Corporation, “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 6/28/2012; Nevada’s Hardest
            Hit Funds, “Nevada’s Hardest Hit Funds,” no date, www.nahac.org/, accessed 6/28/2012; State of New Jersey Housing and Mortgage Finance
            Agency, “State of New Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 6/28/2012; NC Foreclosure
            Prevention Fund, “Help for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 6/28/2012; Ohio.gov, “Ohio’s
            Foreclosure Prevention Effort,” no date, www.savethedream.ohio.gov/, accessed 6/28/2012; Oregon Homeownership Stabilization Initiative,
            “OHSI,” no date, www.oregonhomeownerhelp.org/, accessed 6/28/2012; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/,
            accessed 6/28/2012; SC Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/,
            accessed 6/28/2012; Tennessee Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 6/28/2012; District of Columbia
            Housing Finance Agency, “District of Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 6/28/2012.
      272.	 Treasury, response to SIGTARP data call, 7/9/2012.
      273.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
            Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 7/18/2012.
      274.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 7/16/2012.
      275.	 Treasury conference call, 3/19/2009.
      276.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
      277.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
      278.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
      279.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      280.	 Treasury, response to SIGTARP data call, 7/5/2012.
      281.	 Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
            INVESTMENT.pdf, accessed 7/5/2012.
      282.	 Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
            INVESTMENT.pdf, accessed 7/5/2012.
      283.	 Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
            INVESTMENT.pdf, accessed 7/5/2012.
      284.	 Treasury, response to SIGTARP data call, 7/5/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
            INVESTMENT.pdf, accessed 7/5/2012.
      285.	 Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
            2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/10/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/
            initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20
            as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012; Treasury, response to SIGTARP data call, 7/5/2012.
      286.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      287.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      288.	 Treasury, response to SIGTARP data call, 10/5/2011.
      289.	 Treasury, response to SIGTARP data call, 10/5/2011.
      290.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 6/28/2012.
      291.	 Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
            accessed 6/28/2012; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
            gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 6/28/2012.
      292.	 Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date,
            www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 6/28/2012; Treasury, “SBLF—
            Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_
            Guide_Final.pdf, accessed 6/28/2012.
      293.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
                                                                                            quarterly report to congress I July 25, 2012               215


294.	 Treasury, response to SIGTARP data call 7/10/2012; Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed
      7/16/2012; Treasury and SIGTARP, Methodology for Missed Dividends & Interest, 12/31/2011.
295.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
296.	 Treasury, response to SIGTARP data call, 7/5/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 6/28/2012.
297.	 Treasury, response to SIGTARP data call, 7/5/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 6/28/2012.
298.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
      Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
      FAQs.pdf, accessed 6/28/2012.
299.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
300.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, 1/17/2012, 4/5/2012, and 7/5/2012.
301.	 Treasury, response to SIGTARP data call, 7/5/2012.
302.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
303.	 Treasury, response to SIGTARP data call, 7/5/2012.
304.	 Treasury, response to SIGTARP data call, 7/5/2012.
305.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
306.	 Treasury, response to SIGTARP data call, 7/5/2012.
307.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
308.	 Treasury, response to SIGTARP data call, 7/5/2012.
309.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
310.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
311.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
312.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
313.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 6/28/2012.
314.	 Treasury, response to SIGTARP data call, 7/10/2012.
315.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
316.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
317.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
318.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 6/28/2012.
319.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 6/28/2012.
320.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 6/28/2012.
321.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 6/28/2012.
322.	 Treasury, response to SIGTARP data call, 7/9/2012; Treasury, Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-
      12_INVESTMENT.pdf, accessed 7/5/2012.
323.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 6/28/2012.
324.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 6/28/2012; Treasury, response to SIGTARP data call, 7/9/2012.
325.	 Treasury, response to SIGTARP data call, 7/9/2012.
326.	 Treasury, response to SIGTARP data call, 7/9/2012.
327.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 6/28/2012.
328.	 Treasury, response to SIGTARP data call, 7/9/2012.
216            special inspector general I troubled asset relief program



      329.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 6/28/2012.
      330.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 6/28/2012.
      331.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 6/28/2012.
      332.	 Treasury Press Release, “Treasury Department Announces Pricing of Public Offering of Warrants to Purchase Common Stock of Associated
            Banc-Corp,” 12/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 6/28/2012.
      333.	 Treasury, response to SIGTARP data call, 7/9/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_
            INVESTMENT.pdf, accessed 7/5/2012.
      334.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 6/28/2012.
      335.	 Treasury conference call, 11/10/2011.
      336.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 6/28/2012.
      337.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 7/5/2012.
      338.	 Treasury conference call, 3/19/2010.
      339.	 Treasury, response to SIGTARP draft report, 1/14/2012.
      340.	 Treasury conference call, 3/19/2010.
      341.	 Treasury conference call, 3/19/2010.
      342.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/11/2012.
      343.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/11/2012.
      344.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/11/2012.
      345.	 Treasury, “Treasury Department Announces Public Offering of Preferred Stock of Seven CPP Institutions,” 6/11/2012, www.treasury.gov/press-
            center/press-releases/Pages/tg1611.aspx, accessed 6/18/2012.
      346.	 SNL, “Treasury takes $32M hit in TARP auction; dividends provide positive return,” 6/18/2012, www.snl.com/InteractiveX/article.
            aspx?ID=15110931&KPLT=2, accessed 7/17/2012.
      347.	 SNL, “Treasury takes $32M hit in TARP auction; dividends provide positive return,” 6/18/2012, www.snl.com/InteractiveX/article.
            aspx?ID=15110931&KPLT=2, accessed 7/17/2012.
      348.	 Treasury, “Treasury Department Announces $245 Million in Proceeds from Pricing of Public Offerings of Preferred Stock in Seven Financial
            Institutions,” 6/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1613.aspx, accessed 6/18/2012; Treasury, Transactions Report,
            6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20
            Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      349.	 Treasury, “Treasury Department Announces Public Offering of Preferred Stock of Seven CPP Institutions,” 6/25/2012, www.treasury.gov/press-
            center/press-releases/Pages/tg1622.aspx, accessed 7/11/2012.
      350.	 SNL, “Michigan-based Firstbank Corp. bids on own TARP stock,” 6/29/2012, www.snl.com/InteractiveX/article.aspx?ID=15217719&KPLT=2,
            accessed 7/17/2012.
      351.	 SNL, “Treasury generates return on 3rd TARP auction,” 6/29/2012, www.snl.com/InteractiveX/article.aspx?ID=15206136&KPLT=2, accessed
            7/17/2012.
      352.	 SNL, “Peoples Bancorp of North Carolina wins bid to buy back more than $12.5M in TARP shares,” 6/29/2012, www.snl.com/InteractiveX/
            article.aspx?ID=15216932&KPLT=2, accessed 7/17/2012.
      353.	 Treasury, “Treasury Department Announces $204 Million In Proceeds From Pricing of Public Offerings of Preferred Stock in Seven Financial
            Institutions,” 6/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1626.aspx, accessed 7/11/2012.
      354.	 SNL, “Southern First Bancshares buys $1M of TARP in Treasury auction,” 7/9/2012, www.snl.com/InteractiveX/article.
            aspx?ID=15258640&KPLT=2, accessed 7/17/2012.
      355.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” no date, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 6/28/2012.
      356.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/11/2012.
      357.	 FDIC, “Alma Bank, Astoria, New York, Assumes All of the Deposits of Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey,” 4/20/2012,
            www.fdic.gov/news/news/press/2012/pr12043.html, accessed 7/11/2012.
      358.	 Treasury, response to SIGTARP data call, 7/5/2012.
      359.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 6/28/2012.
      360.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
            comdev.aspx, accessed 6/28/2012; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 6/28/2012; Treasury, Section 105(a) Report, 3/10/2010, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 6/28/2012;
            Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community Development
            Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 6/28/2012.
      361.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 6/28/2012.
                                                                                            quarterly report to congress I July 25, 2012               217


362.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
      cdci/Pages/comdev.aspx, accessed 6/28/2012.
363.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 6/28/2012.
364.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
365.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 6/28/2012.
366.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cdci/Pages/comdev.aspx, accessed 6/28/2012; Treasury, “Application Guidelines for TARP Community Development
      Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 6/28/2012.
367.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      6/28/2012; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      6/28/2012.
368.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 6/28/2012.
369.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 6/28/2012.
370.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
371.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
372.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
373.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
374.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 6/28/2012.
375.	 Treasury, response to SIGTARP data call, 10/8/2010.
376.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
      TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
377.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
      TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
378.	 Treasury, comments to SIGTARP vetting draft, 7/12/2012.
379.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
      TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
380.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
381.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
382.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 6/28/2012; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      6/28/2012.
383.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
      Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/18/2012.
384.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/18/2012.
385.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/18/2012.
386.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/28/2012; FRBNY, “Maiden Lane
      Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 6/28/2012.
387.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
      105report.pdf, accessed 7/5/2012.
388.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/28/2012.
389.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
      Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
      Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 6/28/2012; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.
      treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed
      6/28/2012.
218            special inspector general I troubled asset relief program



      390.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/28/2012.
      391.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/28/2012.
      392.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, http://phx.corporate-ir.net/External.Fi
            le?item=UGFyZW50SUQ9MTI5ODQ3fENoaWxkSUQ9LTF8VHlwZT0z&t=1, accessed 6/28/2012.
      393.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 6/28/2012; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 6/28/2012.
      394.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
            4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 6/28/2012.
      395.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
            Pages/tg623.aspx, accessed 6/28/2012.
      396.	 AIG, 8-K, 5/11/2012, www.sec.gov/Archives/edgar/data/5272/000119312512225958/d350972d8k.htm, accessed 6/28/2012.
      397.	 AIG, Press Release, “Morris W. Offit Elected to AIG Board of Directors,” 7/11/2012, www.aigcorporate.com/newsroom/index.html, accessed
            7/13/2012.
      398.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012.
      399.	 Treasury, response to SIGTARP data call, 4/5/2012.
      400.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012; AIG, 8-K,
            12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 6/28/2012; AIG, 10-Q, 11/5/2010, www.
            sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 6/28/2012.
      401.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 6/28/2012; AIG, 8-K,
            12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 6/28/2012; Treasury, Section 105(a)
            Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20105(a)_final_1-11-10.
            pdf, accessed 6/28/2012.
      402.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/28/2012;
            Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      403.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/28/2012;
            Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      404.	 Treasury Press Release, “Treasury Announces Pricing of Public Offering of AIG Common Stock,” 3/8/2012, www.treasury.gov/press-center/
            press-releases/Pages/tg1446.aspx, accessed 6/28/2012; Treasury Press Release, “Treasury Announces Public Offering of AIG Common Stock,
            Agreement with AIG to Repay the Government’s Remaining $8.5 Billion Preferred Equity Investment,” 3/7/2012, www.treasury.gov/press-center/
            press-releases/Pages/tg1445.aspx, accessed 6/28/2012.
      405.	 Treasury Press Release, “Treasury Announces $750 in Additional Expected Proceeds from AIG Common Stock,” 5/7/2012, www.treasury.gov/
            press-center/press-releases/Pages/tg1572.aspx, accessed 6/28/2012; Treasury Press Release, “Treasury Announces Pricing of $5.0 Billion of AIG
            Common Stock,” 5/6/2012, www.treasury.gov/press-center/press-releases/Pages/tg1571.aspx, accessed 6/28/2012.
      406.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      407.	 Treasury, Daily TARP Update, 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.02.2012.pdf, accessed 7/3/2012.
      408.	 Treasury, comments to SIGTARP vetting draft, 7/12/2012.
      409.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 6/28/2012.
      410.	 FRBNY, “New York Fed Sells $7.014 Billion in Face Value of ML II LLC Assets,” 1/19/2012, www.newyorkfed.org/newsevents/news/
            markets/2012/an120119.html, accessed 6/28/2012; FRBNY, “New York Fed Sells $6.2 Billion in Face Amount of Maiden Lane II LLC Assets;
            New York Fed Loan to be repaid in full,” 2/8/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120208.html, accessed 6/28/2012;
            FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 6/28/2012.
      411.	 FRBNY, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm, accessed 6/28/2012;
            FRBNY, response to SIGTARP data call 4/12/2012.
      412.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 6/28/2012.
      413.	 FRBNY, “Maiden Lane Transactions,” www.newyorkfed.org/markets/maidenlane.html, accessed 6/28/2012.
      414.	 FRBNY, “New York Fed Sells MAX CDO Holdings in Competitive Process,” 4/26/2012, www.newyorkfed.org/newsevents/news/markets/2012/
            an120426.html, accessed 6/28/2012.
      415.	 FRBNY, “Maiden Lane Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 6/28/2012.
      416.	 FRBNY, “Maiden Lane Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 6/28/2012.
      417.	 FRBNY, “Maiden Lane III LLC Securities Offerings,” no date, www.newyorkfed.org/markets/sec_offerings_recent.html, accessed 6/28/2012;
            FRBNY, response to SIGTARP data call 7/9/2012.
      418.	 FRBNY, “Maiden Lane Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 6/28/2012.
      419.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 6/28/2012.
      420.	 Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            6/28/2012.
      421.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 6/28/2012.
                                                                                            quarterly report to congress I July 25, 2012              219


422.	 Treasury, Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
423.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 6/28/2012.
424.	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
      Citigroup%20Exchange%20Agreement.pdf, accessed 6/28/2012; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 6/28/2012.
425.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 6/28/2012; Citigroup,
      10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 6/28/2012.
426.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/10/2012.
427.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 6/28/2012.
428.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
      aspx, accessed 6/28/2012.
429.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/10/2012.
430.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 6/28/2012.
431.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 6/28/2012.
432.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 6/28/2012.
433.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 6/28/2012.
434.	 Federal Reserve, Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 6/29/2012.
435.	 FRBNY, response to SIGTARP data call, 7/2/2012.
436.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates; 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 6/28/2012.
437.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
438.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
439.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
      11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 6/28/2012.
440.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 6/28/2012.
441.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
      lendingfacilities_201003.htm, accessed 6/28/2012.
442.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
443.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 6/28/2012.
444.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 6/28/2012.
445.	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
      protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
      monetary/20100720a.htm, accessed 6/28/2012.
446.	 FRBNY, response to SIGTARP data call, 7/2/2012.
447.	 Federal Reserve, Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 6/29/2012.
448.	 FRBNY, response to SIGTARP data call, 7/2/2012.
449.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 6/28/2012.
450.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 6/28/2012.
451.	 FRBNY, response to SIGTARP data call, 7/2/2012.
452.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 6/28/2012.
453.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 6/28/2012.
454.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 6/28/2012.
455.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 6/28/2012.
456.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 6/28/2012; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
220            special inspector general I troubled asset relief program



            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 6/28/2012.
      457.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 6/28/2012.
      458.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 6/28/2012.
      459.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 6/28/2012.
      460.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 6/28/2012.
      461.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      462.	 FRBNY, response to SIGTARP data call, 7/2/2012.
      463.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            6/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
            html, accessed 6/28/2012.
      464.	 FRBNY, response to SIGTARP data call, 7/2/2012.
      465.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 6/28/2012.
      466.	 FRBNY, response to SIGTARP data call, 7/2/2012.
      467.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
      468.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
            Sec-Agt.pdf, accessed 6/28/2012; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      469.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
            6/28/2012.
      470.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
            Sec-Agt.pdf, accessed 6/28/2012.
      471.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/5/2012, www.federalreserve.gov/releases/h41/Current/, accessed 7/9/2012;
            Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      472.	 FRBNY, response to SIGTARP data call, 7/2/2012.
      473.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      474.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
            pdf, accessed 6/28/2012.
      475.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
            aspx, accessed 6/28/2012.
      476.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 6/28/2012.
      477.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 6/28/2012.
      478.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/
            Pages/publicprivatefund.aspx, accessed 6/28/2012.
      479.	 PPIP fund managers’ monthly reports for June 2012 submitted to Treasury and SIGTARP 7/16/2012 and 7/17/2012.
      480.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 6/28/2012.
      481.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Questions,” 7/8/2009, www.treasury.gov/
            press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 6/28/2012; Treasury, “Amended and Restated Limited Partnership
            Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/AG%20
            GECC%20Complete%20LPA%20(redacted).pdf, accessed 6/28/2012.
      482.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 6/28/2012.
      483.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2011,” 1/30/2012, p.4, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20
            vFinal.pdf, accessed 6/28/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
            tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed
            7/10/2012.
      484.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 6/28/2012.
      485.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
            gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 6/28/2012.
      486.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” no date, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
            6/28/2012.
      487.	 Treasury, response to SIGTARP data call, 7/5/2012.
      488.	 Treasury, response to SIGTARP data call, 7/5/2012.
                                                                                                quarterly report to congress I July 25, 2012                 221


489.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 7/10/2012.
490.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/10/2012.
491.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
492.	 Treasury, response to SIGTARP data call, 7/5/2012.
493.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 6/28/2012.
494.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 6/28/2012.
495.	 Treasury, response to SIGTARP data call, 7/5/2012.
496.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
497.	 Treasury, response to SIGTARP data call, 7/5/2012.
498.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
      accessed 6/28/2012.
499.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2012,” 4/19/2012, p. 9, www.
      treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%20-%20Q1-12.pdf,
      accessed 7/10/2012.
500.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2012,” 4/19/2012, p. 9, www.
      treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%20-%20Q1-12.pdf,
      accessed 7/10/2012.
501.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
      111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 7/9/2012.
502.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
      accessed 6/28/2012; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
      recovery_act_faqs.pdf, accessed 6/28/2012.
503.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
      (Execution%20Version).pdf, accessed 6/28/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
      Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-
      Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
      pdf, accessed 6/28/2012.
504.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1203.aspx, accessed 6/28/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
      Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
      Purchase%20Agreement%20(Execution%20Version).pdf, accessed 6/28/2012; Treasury, “Master Purchase Agreement for SBA Pooled
      Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/
      investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20
      Inc.%20MPA%20(73485877_2).pdf, accessed 6/28/2012.
505.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/10/2012.
506.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/10/2012.
507.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
508.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 6/28/2012.
509.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
510.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 6/28/2012.
511.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
512.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
513.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
      Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
514.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
      Treasury, Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-
      interest/DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
515.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/18/2012.
222            special inspector general I troubled asset relief program



      516.	 Department of Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,”
            11/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf,
            accessed 6/28/2012.
      517.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/18/2012.
      518.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
            Pages/autoprogram.aspx, accessed 6/28/2012; Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.
            pdf, accessed 7/5/2012.
      519.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
      520.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      521.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      522.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/18/2012.
      523.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 6/28/2012.
      524.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
            www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
            6/28/2012.
      525.	 Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
      526.	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 6/28/2012.
      527.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 6/28/2012.
      528.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 6/28/2012;
            Treasury Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings
            Total Taxpayer Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed
            6/28/2012.
      529.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 6/28/2012.
      530.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 6/28/2012.
      531.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
            General Motors Company, “Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, http://edgar.brand.edgar-online.com/EFX_dll/
            EDGARpro.dll?FetchFilingHTML1?ID=7564696&SessionID=X8WpHq0H3PqZXs7, accessed 6/28/2012.
      532.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      533.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 6/28/2012.
      534.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 6/28/2012; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 6/28/2012.
      535.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      536.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      537.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.
            gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 6/28/2012; Treasury, Transactions Report, 6/27/2012, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20
            Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      538.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      539.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            http://media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 6/28/2012;
            Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 6/28/2012.
      540.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            http://media.chrysler.com/newsrelease.do;jsessionid=EEB25720974096707DB3B28201CE9A36?&id=10922&mid=1, accessed 6/28/2012.
      541.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 6/28/2012.
      542.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
            7/21/2011, accessed 6/28/2012.
      543.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 7/9/2012.
                                                                                           quarterly report to congress I July 25, 2012               223


544.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 6/28/2012.
545.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 6/28/2012.
546.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 6/28/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
      gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 6/28/2012.
547.	 Ally Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 6/28/2012; Treasury, Section
      105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 6/28/2012.
548.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 6/28/2012.
549.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 6/28/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
      gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 6/28/2012.
550.	 Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 6/28/2012.
551.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 6/28/2012.
552.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1081.aspx, accessed 6/28/2012.
553.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 6/28/2012; Ally Financial,
      Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
      accessed 6/28/2012.
554.	 Treasury, response to SIGTARP data call, 7/5/2012.
555.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 6/28/2012.
556.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 6/28/2012.
557.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 6/28/2012.
558.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 6/28/2012.
559.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 6/28/2012.
560.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/
      EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 6/28/2012; SEC, “Ally Financial,
      Inc.: Amendment No. 2 to Form S-1 Registration Statement,” 6/3/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
      ?FetchFilingHTML1?ID=7978010&SessionID=yWV1FqvBONn9GA7, accessed 6/28/2012; SEC, “Ally Financial, Inc.: Amendment
      No. 3 to Form S-1 Registration Statement,” 6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm,
      accessed 6/28/2012; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 6/28/2012; SEC, “Ally Financial Inc.: Amendment No. 5 to Form
      S-1 Registration Statement,” 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/d167661ds1a.htm, accessed
      6/28/2012; SEC, “Ally Financial Inc.: Amendment No. 6 to Form S-1 Registration Statement,” 4/12/2012, www.sec.gov/Archives/edgar/
      data/40729/000119312512159940/d167661ds1a.htm, accessed 6/28/2012.
561.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchF
      ilingHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 6/28/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
      Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID
      =u1r1FjMCVRNlLm7, accessed 6/28/2012.
562.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchF
      ilingHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 6/28/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
      Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID
      =u1r1FjMCVRNlLm7, accessed 6/28/2012.
563.	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration
      Statement for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed 6/28/2012;
      Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
      SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/
      EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 6/28/2012; SEC, “Ally Financial, Inc.:
      Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm,
      accessed 6/28/2012.
564.	 Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
565.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 6/28/2012; Ally Financial,
      8-K, 5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 6/28/2012; Ally Financial, 10-K, 2/27/2009,
224              special inspector general I troubled asset relief program



              www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 6/28/2012; Treasury, “Office of Financial
              Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
              reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
      566.	   Treasury, Dividends and Interest Report, 7/11/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
              DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 7/16/2012.
      567.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 6/28/2012.
      568.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 6/28/2012.
      569.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
              Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
              DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 7/9/2012.
      570.	   Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
              Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
              Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 6/28/2012; Treasury, Transactions Report, 6/27/2012, www.
              treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/07-02-12%20Transactions%20
              Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      571.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      572.	   TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, http://td.mediaroom.com/index.php?s=43&item=1120,
              accessed 6/28/2012.
      573.	   TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, http://td.mediaroom.com/index.
              php?s=43&item=1210, accessed 6/28/2012; TD Auto Finance LLC, 8-K, 4/5/2011, http://google.brand.edgar-online.com/displayfilinginfo.
              aspx?FilingID=7845191-1054-9050&type=sect&TabIndex=2&companyid=684228&ppu=%252fdefault.aspx%253fcompanyid%253d684228,
              accessed 6/28/2012.
      574.	   Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
              tg64.aspx, accessed 6/28/2012.
      575.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012;
              Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
              2010%20105(a)%20report_final.pdf, accessed 6/28/2012.
      576.	   Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/28/2012.
      577.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      578.	   Treasury, Transactions Report, 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/07-02-12%20Transactions%20Report%20as%20of%2006-27-12_INVESTMENT.pdf, accessed 7/5/2012.
      579.	   Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
              2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/13/2012.
      580.	   AIG, 10-K, 2/28/2008, p. 130, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
              6/28/2012; AIG, 10-Q, 5/3/2012, p. 3, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
      581.	   AIG, 10-K, 2/23/2012, p. 47, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      582.	   SNL Financial; BestWeek, “Top Insurers Ranked by Assets, Net Premiums,” January 2012, www.ambest.com/bestweek/marketreports/BW_
              WorldsLargest.pdf, accessed 7/18/2012.
      583.	   AIG, 10-K, 2/23/2012, pp. 397-401, www.aigcorporate.com/investors/2012_February/2011_10K.pdf, accessed 6/28/2012; AIG, 10-K, 2/28/2008,
              pp. 215-220, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed 6/28/2012.
      584.	   Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law 111-203, 7/21/2010, www.gpo.gov/fdsys/pkg/PLAW-111publ203/pdf/
              PLAW-111publ203.pdf, accessed 6/28/2012.
      585.	   SIGTARP, October 2009 Quarterly Report to Congress, 10/21/2009, p. 138, www.sigtarp.gov/Quarterly%20Reports/October2009_Quarterly_
              Report_to_Congress.pdf, accessed 6/25/2012.
      586.	   AIG, Press Release, “M.R. Greenberg to Retire From AIG,” 3/28/2005, www.aigcorporate.com/newsroom/index.html, accessed 6/28/2012.
      587.	   AIG, Press Release, “AIG Nears Completion of Internal Review; Will Restate Results,” 5/1/2005, www.aigcorporate.com/newsroom/index.html,
              accessed 6/28/2012.
      588.	   SIGTARP, October 2009 Quarterly Report to Congress, 10/21/2009, p. 140, www.sigtarp.gov/Quarterly%20Reports/October2009_Quarterly_
              Report_to_Congress.pdf, accessed 6/25/2012.
      589.	   Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC, before the U.S. House of
              Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 3/18/2009, www.house.gov/apps/list/hearing/
              financialsvcs_dem/rodney031809.pdf, accessed 6/21/2012.
      590.	   AIG, 10-K, 3/31/1995, p. 21, www.sec.gov/Archives/edgar/data/5272/0000950123-95-000843.txt, accessed 6/28/2012; AIG, 10-K, 2/28/2008, p.
              34, www.sec.gov/Archives/edgar/data/5272/000095012308002280/y44393e10vk.htm, accessed 6/28/2012; AIG, 10-K, 5/31/2005, p. 24, www.
                                                                                            quarterly report to congress I July 25, 2012               225


        sec.gov/Archives/edgar/data/5272/000095012305006884/y03319e10vk.htm, accessed 6/28/2012; AIG, 10-K, 3/16/2006, p. 74, www.sec.gov/
        Archives/edgar/data/5272/000095012306003276/y16349e10vk.htm, accessed 6/28/2012; AIG, 10-K, 3/31/2003, p. 63, www.sec.gov/Archives/
        edgar/data/5272/000095012303003570/y65998e10vk.txt, accessed 6/28/2012; AIG, 10-K, 3/30/2000, p. 45, www.sec.gov/Archives/edgar/
        data/5272/0000950123-00-002999.txt, accessed 6/28/2012; AIG, 10-K, 3/28/1997, p. 38, www.sec.gov/Archives/edgar/data/5272/0000950123-
        97-002720.txt, accessed 6/28/2012.
591.	   Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Secured Credit Facility Authorized for
        American International Group, Inc. on September 16, 2008,” www.federalreserve.gov/monetarypolicy/files/129aigseccreditfacility.pdf, accessed
        6/21/2012; AIG, “About AIG: September 2008: Initial Investment from the U.S. Government,” www.aigcorporate.com/aboutaig/sept_2008.html,
        accessed 6/21/2012.
592.	   AIG, 10-K, 3/2/2009, p.3, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
593.	   AIG, 10-K, 3/2/2009, p.4, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
594.	   Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,”
        6/10/2010, p. 7, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/library/report-061010-cop.cfm,
        accessed 6/28/2012.
595.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 352, http://fcic.law.stanford.edu/report, accessed
        6/28/2012.
596.	   FRBNY, “Actions Related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/21/2012.
597.	   Paulson, Henry M. Jr., “On the Brink: Inside the Race to Stop the Collapse of the Global Financial System,” Business Plus/Hatchette Book
        Group, 2011, p. 236.
598.	   AIG, 10-Q, 8/6/2008, p. 2, www.sec.gov/Archives/edgar/data/5272/000095012308008949/y59464e10vq.htm, accessed 6/28/2012.
599.	   AIG, 10-K, 2/23/2012, pp. 197-198, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
600.	   AIG, “Management Leadership,” no date, www.aigcorporate.com/corpgovernance/exec_management.html, accessed 6/21/2012.
601.	   AIG, DEF 14A Proxy Statement, 4/4/2008, pp. 7-9, www.sec.gov/Archives/edgar/data/5272/000093041308002228/c52434_def14a.htm,
        accessed 6/28/2012.
602.	   Taub, Jennifer S., “Case Study: American International Group,” Corporate Governance, 5th edition, Robert A.G. Monks and Nell Minow, John
        Wiley & Sons, Inc., 2011.
603.	   AIG, DEF 14A Proxy Statement, 4/5/2002, pp. 1-5, www.sec.gov/Archives/edgar/data/5272/000095011702000783/a32186.txt, accessed
        6/28/2012.
604.	   AIG, DEF 14A Proxy Statement, 6/5/2009, p. 18, www.sec.gov/Archives/edgar/data/5272/000093041309003116/c57286_def14a.
        htm#corporate1, accessed 6/28/2012.
605.	   AIG, Press Release, “Steve Miller Succeeds Harvey Golub as AIG Board Chairman,” 7/14/2010, www.aigcorporate.com/newsroom/index.html,
        accessed 6/19/2012; Bloomberg, Executive Profile-Robert S. Miller, Jr., no date, http://investing.businessweek.com/research/stocks/private/
        person.asp?personId=505207&privcapId=5547878&previousCapId=250388&previousTitle=AMERICAN%20INTERNATIONAL%20GROUP,
        accessed 6/18/2012.
606.	   AIG, DEF 14A Proxy Statement, 6/5/2009, Appendix A, www.sec.gov/Archives/edgar/data/5272/000093041309003116/c57286_def14a.
        htm#corporate1, accessed 6/28/2012.
607.	   AIG, DEF 14A Proxy Statement, 4/5/2012, www.sec.gov/Archives/edgar/data/5272/000119312512150889/d323130ddef14a.htm#tx323130_21,
        accessed 6/28/2012.
608.	   AIG, DEF 14A Proxy Statement, 4/5/2012, pp. 12-18, www.sec.gov/Archives/edgar/data/5272/000119312512150889/d323130ddef14a.
        htm#tx323130_21, accessed 6/28/2012.
609.	   SIGTARP, April 2010 Quarterly Report to Congress, 4/20/2010, p. 91, www.sigtarp.gov/Quarterly%20Reports/April2010_Quarterly_Report_to_
        Congress.pdf, accessed 6/25/2012.
610.	   AIG, Press Release, “U.S. Treasury Appoints Two Directors to AIG Board of Directors,” 4/1/2010, www.aigcorporate.com/newsroom/index.html,
        accessed 6/6/2012.
611.	   AIG, Press Release, “AIG Announces the Resignation of Donald Layton from the AIG Board of Directors,” 5/10/2012, www.aigcorporate.com/
        newsroom/index.html, accessed 6/7/2012.
612.	   AIG, Press Release, “Morris W. Offit Elected to AIG Board of Directors,” July 11, 2012, www.aigcorporate.com/newsroom/index.html, accessed
        7/13/2012.
613.	   AIG, 10-K, 2/28/2008, p. 103, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
        6/28/2012.
614.	   AIG, 10-K, 2/24/2011, p. 130, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
        6/28/2012.
615.	   AIG, 10-K, 3/2/2009, p. 250, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
616.	   FRBNY, Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/3/2011, http://newyorkfed.org/
        newsevents/news/markets/2011/an110330.html, accessed 6/21/2012.
617.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 29, www.sigtarp.gov/Audit%20Reports/Factors_
        Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012.
618.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 5, www.sigtarp.gov/Audit%20Reports/Factors_
        Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012; FRBNY, Maiden Lane Transactions, no date, www.
        newyorkfed.org/markets/maidenlane.html, accessed 7/13/2012.
619.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 25, www.sigtarp.gov/Audit%20Reports/Factors_
        Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012, accessed 6/21/2012.
620.	   AIG, 10-K, 2/24/2011, p. 20, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
        6/28/2012; AIG, 10-K, 2/28/2008, p. 13, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm,
226            special inspector general I troubled asset relief program



            accessed 6/28/2012.
      621.	 AIG, Letter to Shareholders, March 2010, p. 1, www.aigcorporate.com/investors/AIG09AR-CEO.pdf, accessed 6/27/2012.
      622.	 AIG, Letter to Shareholders, March 2010, p. 2, www.aigcorporate.com/investors/AIG09AR-CEO.pdf, accessed 6/27/2012.
      623.	 AIG, Press Release, “AIG to Sell ALICO to MetLife for Approximately $15.5 Billion,” 3/8/2010, www.aigcorporate.com/newsroom/index.html,
            accessed 6/28/2012.
      624.	 AIG, Press Release, “AIG to Sell AIA to Prudential for Approximately $35.5 Billion,” 3/1/2010, www.aigcorporate.com/newsroom/index.html,
            accessed 6/21/2012.
      625.	 AIG, 10-K, 2/23/2012, p. 63, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      626.	 AIG, 10-K, 2/23/2012, pp. 4-5, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      627.	 AIG, 10-K, 2/23/2012, p. 233, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      628.	 AIG, 10-K, 2/23/2012, pp. 240-241, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      629.	 AIG, 10-K, 2/23/2012, p. 74, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012; AIG, 10-
            K, 2/23/2012, p. 54, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      630.	 AIG, 10-K, 2/23/2012, p. 73, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      631.	 Property Casualty Insurers Association of America, Press Release, “Property Casualty Insurers’ Full-Year Results Deteriorated in 2011 as
            Catastrophe Losses Spiked,” 4/17/2012, http://test.pciaa.net/web/sitehome.nsf/lcpublic/220?opendocument, accessed 5/22/2012.
      632.	 AIG, 10-K, 2/23/2012, p. 73, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      633.	 AIG, 10-Q, 5/3/2012, pp. 94 and 100, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
      634.	 AIG, 10-K, 2/23/2012, p. 233, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      635.	 AIG, 10-K reports from 2007-2011.
      636.	 AIG, 10-K, 2/23/2012, p. 19, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      637.	 For 2011, Chartis saw a 3.8% return, and SunAmerica saw a 5.7% return. AIG, 10-K, p. 19, 2/23/2012, www.sec.gov/Archives/edgar/
            data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      638.	 AIG, 10-K, 2/23/2012, p. 114, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      639.	 AIG, 10-K, 2/23/2012, p. 114, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      640.	 Bloomberg LLC, “AIG wagers on subprime, betting second time is different,” 5/16/2012, www.bloomberg.com/news/print/2012-05-16/aig-
            wagers-on-subprime-betting-second-time-different-mortgages.html, accessed 5/22/2012.
      641.	 Bloomberg LLC, “AIG wagers on subprime, betting second time is different,” 5/16/2012, www.bloomberg.com/news/print/2012-05-16/aig-
            wagers-on-subprime-betting-second-time-different-mortgages.html, accessed 5/22/2012; AIG, 10-Q, 5/3/2012, p. 31, www.sec.gov/Archives/
            edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012; AIG, 10-K, 2/24/2011, p. 131, www.sec.gov/Archives/edgar/
            data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed 6/28/2012.
      642.	 Morningstar, “American International Group Inc. Q1 2012 Earnings Call Transcript,” 5/4/2012, www.morningstar.com/earnings/38491641-
            american-international-group-incaig-q1-2012-earnings-call-transcript.aspx, accessed 6/26/2012; FRBNY, Press Release, “New York Fed Sells
            MAX CDO Holdings in Competitive Progress,” 4/26/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120426.html, accessed
            6/21/2012.
      643.	 AIG, 10-K, 2/23/2012, p. 129, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      644.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
      645.	 International Swaps and Derivatives Association, “Exposures and Activity,” www.isdacdsmarketplace.com/exposures_and_activity/top_10_cds_
            positions#net_notional, accessed 6/21/2012.
      646.	 U.S. House Committee on Oversight and Government Reform, testimony of Edward Liddy, 5/13/2009, p. 4, http://democrats.oversight.house.
            gov/images/stories/documents/20090512165421.pdf, accessed 6/21/2012.
      647.	 Financial Times, “AIG drops entire derivatives portfolio sale plan,” 2/18/2010, www.ft.com/intl/cms/s/0/d38e7f9c-1c07-11df-a5e1-
            00144feab49a.html#axzz1wZhBOaCp, accessed 6/1/2012.
      648.	 AIG, Peter Hancock biography, no date, www.aigcorporate.com/corpgovernance/management_Hancock.html, accessed 6/1/2012.
      649.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
      650.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, pp. 17-18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
      651.	 AIG, 10-K, 2/23/2012, p. 175, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      652.	 AIG, 10-K, 2/23/2012, p. 13, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
      653.	 AIG, “Summary of AIGFP derivative positions as of September 30, 2011,” 9/30/2011, www.aigcorporate.com/restructuring/AIGFP.pdf, accessed
            6/1/2012; AIG, First Quarter 2012 Results Conference Call Presentation, 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
      654.	 Stable Value Investment Association, “What Do You Need to Know about Stable Value Funds in Today’s Challenging Financial Environment?,”
            3/23/2009, http://stablevalue.org/help-desk/faq/, accessed 6/12/2012.
      655.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
      656.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012; Government Accountability Office, “The Government’s Exposure to AIG Following the
            Company’s Recapitalization,” 7/18/2011, pp. 56-58, www.gao.gov/new.items/d11716.pdf, accessed 6/1/2012.
      657.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012; Government Accountability Office, “The Government’s Exposure to AIG Following the
            Company’s Recapitalization,” 7/18/2011, pp. 53-54, www.gao.gov/new.items/d11716.pdf, accessed 6/1/2012.
      658.	 AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
                                                                                             quarterly report to congress I July 25, 2012                227


659.	   AIG, 10-K, 2/23/2012, p. 175, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
660.	   AIG, 10-Q, 5/3/2012, p. 46, www.sec.gov/Archives/edgar/data/5272/000104746911009000/a2206083z10-q.htm, accessed 6/22/2012.
661.	   AIG, 10-K, 2/23/2012, p. 128, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
662.	   AIG, 10-Q, 5/3/2012, p. 37, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
663.	   AIG, 10-K, 2/28/2008, p. 101, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
        6/28/2012.
664.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 350, http://fcic.law.stanford.edu/report, accessed
        6/28/2012.
665.	   AIG, 10-K, 2/24/2011, p. 20, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
        6/28/2012.
666.	   Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,”
        6/10/2010, pp. 21-22, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/library/report-061010-cop.cfm,
        accessed 6/28/2012.
667.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 350, http://fcic.law.stanford.edu/report, accessed
        6/28/2012.
668.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 351, http://fcic.law.stanford.edu/report, accessed
        6/28/2012.
669.	   AIG, 10-K, 2/23/2012, pp. 21-22, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
670.	   PropertyCasualty360, “Benmosche: Chartis Retaining Customers, Did Not Underprice Business,” 2/27/2012, www.propertycasualty360.
        com/2012/02/24/benmosche-chartis-retaining-customers-did-not-unde, accessed 6/12/2012.
671.	   Bloomberg, “AIG Is ‘Fed-Ready’ Ahead of Expected Oversight, Hancock Says,” 12/7/2011, www.bloomberg.com/news/print/2011-12-07/aig-is-
        fed-ready-ahead-of-expected-oversight-hancock-says-1-.html, accessed 6/12/2012.
672.	   AIG, 10-K, 2/23/2012, p. 158, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
673.	   AIG, 10-K, 2/28/2008, p. 112, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
        6/28/2012.
674.	   AIG, “Residential Mortgage Presentation,” 8/9/2007, http://media.corporate-ir.net/media_files/irol/76/76115/REVISED_AIG_and_the_
        Residential_Mortgage_Market_FINAL_08-09-07.pdf, accessed 7/18/2012.
675.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 268, http://fcic.law.stanford.edu/report, accessed
        6/28/2012.
676.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
677.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
678.	   Treasury, response to SIGTARP data call, 7/9/2012.
679.	   Treasury, response to SIGTARP data call, 7/5/2012.
680.	   Treasury, response to SIGTARP data call, 7/5/2012.
681.	   Treasury, response to SIGTARP data call, 7/5/2012.
682.	   Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cybercemetery.unt.edu/
        archive/cop/20110402010440/http://cop.senate.gov/documents/cop-101410-report.pdf, accessed 7/9/2012.
228           Appendix a I glossary I July 25, 2012




      Glossary
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans, e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
      auto, or small-business loans. Financial companies typically       assigned to all registered securities in the United States
      issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
      for their customers.                                               Uniform Securities Identification Procedures.
      Auction Agent: Firm (such as an investment bank) that buys         Custodian Bank: Bank holding the collateral and managing
      a series of securities from an institution for resale.             accounts for FRBNY; for TALF the custodian is Bank of New
                                                                         York Mellon.
      Collateral: Asset pledged by a borrower to a lender until a
      loan is repaid. Generally, if the borrower defaults on the loan,   Debt: Investment in a business that is required to be paid
      the lender gains ownership of the pledged asset and may sell       back to the investor, usually with interest.
      it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      with the TALF loan is the collateral that is posted with
                                                                         foreclosure, the borrower voluntarily surrenders the deed to
      FRBNY.
                                                                         the home to the home lender, as satisfaction of the unpaid
      Collateralized Debt Obligation (“CDO”): A security that            mortgage balance.
      entitles the purchaser to some part of the cash flows from a
                                                                         Deficiency Judgment: Court order authorizing a lender to
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         collect all or part of an unpaid and outstanding debt resulting
      loans, or other CDOs.
                                                                         from the borrower’s default on the mortgage note securing a
      Commercial Mortgage-Backed Securities (“CMBS”):                    debt. A deficiency judgment is rendered after the foreclosed
      Bonds backed by one or more mortgages on commercial real           or repossessed property is sold when the proceeds are
      estate (e.g., office buildings, rental apartments, hotels).        insufficient to repay the full mortgage debt.
      Common Stock: Equity ownership entitling an individual to          Deobligations: An agency’s cancellation or downward
      share in corporate earnings and voting rights.                     adjustment of previously incurred obligations.
      Community Development Financial Institutions                       Due Diligence: Appropriate level of attention or care a
      (“CDFIs”): Financial institutions eligible for Treasury            reasonable person should take before entering into an
      funding to serve urban and rural low-income communities            agreement or a transaction with another party. In finance, it
      through the CDFI Fund. CDFIs were created in 1994                  often refers to the process of conducting an audit or review of
      by the Riegle Community Development and Regulatory                 the institution before initiating a transaction.
      Improvement Act. These entities must be certified by
                                                                         Dutch Auction: A type of auction in which multiple bidders
      Treasury; certification confirms that they target at least 60%
                                                                         bid for different quantities of the asset; the price the seller
      of their lending and other economic development activities to
                                                                         accepts is set at the lowest bid of the group of high bidders
      areas underserved by traditional financial institutions.
                                                                         whose collective bids fulfill the amount of shares offered. As
                                                                                            glossary I Appendix A I July 25, 2012    229




an example, three investors place bids to own a portion of          Illiquid Assets: Assets that cannot be quickly converted to
100 shares offered by the issuer:                                   cash.
 • Bidder A wants 50 shares at $4/share.                            Investors: Owners of mortgage loans or bonds backed by
                                                                    mortgage loans who receive interest and principal payments
 • Bidder B wants 50 shares at $3/share.
                                                                    from monthly mortgage payments. Servicers manage the cash
 • Bidder C wants 50 shares at $2/share.                            flow from borrowers’ monthly payments and distribute them
                                                                    to investors according to Pooling and Servicing Agreements
The seller selects Bidders A and B as the two highest bidders,
                                                                    (“PSAs”).
and their collective bids consume the 100 shares offered. The
winning price is $3, which is what both bidders pay per share.      Legacy Securities: Real estate-related securities originally
Bidder C’s bid is not filled. Treasury uses a modified version      issued before 2009 that remained on the balance sheets
of a Dutch Auction in the dispensation of its warrants.             of financial institutions because of pricing difficulties that
                                                                    resulted from market disruption.
Equity: Investment that represents an ownership interest in a
business.                                                           Limited Partnership: Partnership in which there is at least
                                                                    one partner whose liability is limited to the amount invested
Equity Capital Facility: Commitment to invest equity
                                                                    (limited partner) and at least one partner whose liability
capital in a firm under certain future conditions. An equity
                                                                    extends beyond monetary investment (general partner).
facility when drawn down is an investment that increases
the provider’s ownership stake in the company. The investor         Loan Servicers: Companies that perform administrative
may be able to recover the amount invested by selling its           tasks on monthly mortgage payments until the loan is
ownership stake to other investors at a later date.                 repaid. These tasks include billing, tracking, and collecting
                                                                    monthly payments; maintaining records of payments and
Excess Spread: Funds left over after required payments and
                                                                    balances; allocating and distributing payment collections to
other contractual obligations have been met. In TALF it is
                                                                    investors in accordance with each mortgage loan’s governing
the difference between the periodic amount of interest paid
                                                                    documentation; following up on delinquencies; and initiating
out by the collateral and the amount of interest charged by
                                                                    foreclosures.
FRBNY on the nonrecourse loan provided to the borrower to
purchase the collateral.                                            Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
                                                                    that mortgage lenders examine before approving a mortgage;
Exercise Price: Preset price at which a warrant holder
                                                                    calculated by dividing the outstanding amount of the loan
may purchase each share. For warrants in publicly traded
                                                                    by the value of the collateral backing the loan. Loans with
institutions issued through CPP, this was based on the
                                                                    high LTV ratios are generally seen as higher risk because the
average stock price during the 20 days before the date that
                                                                    borrower has less of an equity stake in the property.
Treasury granted preliminary CPP participation approval.
                                                                    Mandatorily Convertible Preferred Stock (“MCP”): A type
Government-Sponsored Enterprises (GSEs): Private
                                                                    of preferred share (ownership in a company that generally
corporations created and chartered by the Government to
                                                                    entitles the owner of the shares to collect dividend payments)
reduce borrowing costs and provide liquidity in the market,
                                                                    that can be converted to common stock under certain
the liabilities of which are not officially considered direct
                                                                    parameters at the discretion of the company and must be
taxpayer obligations. On September 7, 2008, the two largest
                                                                    converted to common stock by a certain time.
GSEs, the Federal National Mortgage Association (“Fannie
Mae”) and the Federal Home Loan Mortgage Corporation                Nationally Recognized Statistical Rating Organization
(“Freddie Mac”), were placed into Federal conservatorship.          (“NRSRO”): Credit rating agency registered with the
They are currently being financially supported by the               SEC. Credit rating agencies provide their opinion of the
Government.                                                         creditworthiness of companies and the financial obligations
                                                                    issued by companies. The ratings distinguish between
Haircut: Difference between the value of the collateral and
                                                                    investment grade and non-investment grade equity and debt
the value of the loan (the loan value is less than the collateral
                                                                    obligations.
value).
230           Appendix a I glossary I July 25, 2012




      Net Present Value (“NPV”) Test: Compares the money                 down funds up to a guaranteed maximum amount. The
      generated by modifying the terms of the mortgage with the          amount of available credit decreases and increases as funds
      amount an investor can reasonably expect to recover in a           are borrowed and then repaid.
      foreclosure sale.
                                                                         Risk-Weighted Assets: Risk-based measure of total assets
      Non-Agency Residential Mortgage-Backed Securities                  held by a financial institution. Assets are assigned broad
      (“non-agency RMBS”): Financial instrument backed by                risk categories. The amount in each risk category is then
      a group of residential real estate mortgages (i.e., home           multiplied by a risk factor associated with that category. The
      mortgages for residences with up to four dwelling units) not       sum of the resulting weighted values from each of the risk
      guaranteed or owned by a Government-sponsored enterprise           categories is the bank’s total risk-weighted assets.
      (“GSE”) (Fannie Mae or Freddie Mac) or a Government
                                                                         SBA Pool Certificates: Ownership interest in a bond backed
      Agency.
                                                                         by SBA-guaranteed loans.
      Non-Cumulative Preferred Stock: Preferred stock with
                                                                         Senior Preferred Stock: Shares that give the stockholder
      a defined dividend, without the obligation to pay missed
                                                                         priority dividend and liquidation claims over junior preferred
      dividends.
                                                                         and common stockholders.
      Non-Recourse Loan: Secured loan in which the borrower is
                                                                         Senior Subordinated Debentures: Debt instrument ranking
      relieved of the obligation to repay the loan upon surrendering
                                                                         below senior debt but above equity with regard to investors’
      the collateral.
                                                                         claims on company assets or earnings.
      Obligations: Definite commitments that create a legal
                                                                         Servicing Advances: If borrowers’ payments are not made
      liability for the Government to pay funds.
                                                                         promptly and in full, servicers are contractually obligated to
      Pool Assemblers: Firms authorized to create and market             advance the required monthly payment amount in full to the
      pools of SBA-guaranteed loans.                                     investor. Once a borrower becomes current or the property is
                                                                         sold or acquired through foreclosure, the servicer is repaid all
      Preferred Stock: Equity ownership that usually pays a fixed
                                                                         advanced funds.
      dividend before distributions for common stock owners but
      only after payments due to debt holders. It typically confers      Short Sale: Sale of a home for less than the unpaid mortgage
      no voting rights. Preferred stock also has priority over           balance. A borrower sells the home and the lender accepts
      common stock in the distribution of assets when a bankrupt         the proceeds as full or partial satisfaction of the unpaid
      company is liquidated.                                             mortgage balance, thus avoiding the foreclosure process.
      Pro Rata: Refers to dividing something among a group of            Skin in the Game: Equity stake in an investment; down
      participants according to the proportionate share that each        payment; the amount an investor can lose.
      participant holds as a part of the whole.
                                                                         Special Purpose Vehicle (“SPV”): A legal entity, often off-
      Qualifying Financial Institutions (“QFIs”): Private and            balance-sheet, that holds transferred assets presumptively
      public U.S.-controlled banks, savings associations, bank           beyond the reach of the entities providing the assets, and that
      holding companies, certain savings and loan holding                is legally isolated from its sponsor or parent company.
      companies, and mutual organizations.
                                                                         Subchapter S Corporations (“S corporations”): Corporate
      Qualified Institutional Buyers (“QIB”): Institutions that          form that passes corporate income, losses, deductions, and
      under U.S. securities law are permitted to buy securities that     credit through to shareholders for Federal tax purposes.
      are exempt from registration under investor protection laws        Shareholders of S corporations report the flow-through of
      and to resell those securities to other QIBs. Generally, these     income and losses on their personal tax returns and are taxed
      institutions own and invest at least $100 million in securities,   at their individual income tax rates.
      or are registered broker-dealers that own or invest at least $10
                                                                         Subordinated Debentures: Form of debt security that ranks
      million in securities.
                                                                         below other loans or securities with regard to claims on assets
      Revolving Credit Facility: Line of credit for which borrowers      or earnings.
      pay a commitment fee, allowing them to repeatedly draw
                                                                                                       glossary I Appendix A I July 25, 2012                            231




Systemically Significant Institutions: Term referring to any      Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
financial institution whose failure would impose significant      fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
                                                                  7/5/2012.
losses on creditors and counterparties, call into question the
                                                                  Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
financial strength of similar institutions, disrupt financial     org/files/regulations/pdf/operating_circular_8.pdf, accessed 7/11/2012.
markets, raise borrowing costs for households and businesses,     FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 7/5/2012.

and reduce household wealth.                                      FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
                                                                  card_securitization/glossary.html, accessed 7/5/2012.

TALF Agent: Financial institution that is party to the TALF       FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                  rules/2000-4600.html, accessed 7/5/2012.
Master Loan and Security Agreement and that occasionally          FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 7/5/2012.
acts as an agent for the borrower. TALF agents include            SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
primary and nonprimary broker-dealers.                            3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                  Affordable_Modification_Program.pdf, accessed 7/11/2012.

Trial Modification: Under HAMP, a period of at least three        GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                  special.pubs/d06382sp.pdf, p. 7-3, accessed 7/5/2012.
months in which a borrower is given a chance to establish         GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
that he or she can make lower monthly mortgage payments           on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 7/5/2012.GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
and qualify for a permanent modification.                         Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                  Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 7/5/2012.
Trust Preferred Securities (“TRUPS”): Securities that have        IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/0,,id=106572,00.
both equity and debt characteristics created by establishing a    html, accessed 7/5/2012.
                                                                  Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010. www.
trust and issuing debt to it.                                     hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv4.pdf, pp. 23-24,
                                                                  accessed 7/5/2012.
Undercapitalized: Condition in which a financial institution      SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
does not meet its regulator’s requirements for sufficient         groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 7/5/2012.
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 7/5/2012.
capital to operate under a defined level of adverse conditions.   Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                  7/5/2012.
Underwater Mortgage: Mortgage loan on which a                     Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, http://www.treasury.gov/
homeowner owes more than the home is worth, typically as a        press-center/press-releases/Pages/tg58.aspx, accessed 7/5/2012.

result of a decline in the home’s value. Underwater mortgages     Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
are also referred to as having negative equity.                   aspx, accessed 7/5/2012.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 7/5/2012.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 7/5/2012.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 7/5/2012.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 7/5/2012.
232         Appendix B I Acronyms and abbreviations I July 25, 2012




      Acronyms and Abbreviations

                2MP Second Lien Modification Program                             Coastal
                                                                                             Coastal Securities, Inc.
                                                                               Securities
                 ABS    asset-backed securities
                                                                                 Colonial    Colonial Bank
                 AGP Asset Guarantee Program
                                                                                     COP     Congressional Oversight Panel
                 AHR American Home Recovery
                                                                                     CPP Capital Purchase Program
                        American International Assurance Co., Ltd.;
                  AIA
                        AIA Group Limited                                                    CUSIP numbers; from Committee on Uniform
                                                                                  CUSIPs
                                                                                             Securities Identification Procedures
            AIA SPV AIA Aurora LLC
                                                                                             Dodd-Frank Wall Street Reform and Consumer
                AIFP Automotive Industry Financing Program               Dodd-Frank Act
                                                                                             Protection Act
                 AIG American International Group, Inc.
                                                                                      DTI    debt-to-income ratio
               AIGFP AIG Financial Products Corporation
                                                                                  Edison AIG Edison Life Insurance Company
           AIG Trust AIG Credit Facility Trust
                                                                                    EESA     Emergency Economic Stabilization Act of 2008
              ALICO     American Life Insurance Company
                                                                          Eligible assets    securities eligible for purchase by PPIFs
         ALICO SPV      ALICO Holdings LLC
                                                                             Fannie Mae Federal National Mortgage Association
       Ally Financial Ally Financial Inc.
                                                                                             Farmers Capital Bank Corporation,
                                                                         Farmers Capital
             Ameris Ameris Bancorp, Moultrie, Georgia                                        Frankfort, Kentucky
               ASSP Auto Supplier Support Program                                     FBI    Federal Bureau of Investigation
              AWCP Auto Warranty Commitment Program                                 FCIC     Financial Crisis Inquiry Commission
             Bank of                                                                FDIC     Federal Deposit Insurance Corporation
                     Bank of America Corporation
            America
                                                                                             Federal Deposit Insurance Corporation Office of
                                                                                FDIC OIG
                BOC     Bank of the Commonwealth                                             Inspector General
         Bridgeview Bridgeview Bancorp, Inc., Bridgeview, Illinois               Federal
                                                                                         Federal Reserve System
                                                                                 Reserve
                 CAP Capital Assistance Program
                                                                                     FHA     Federal Housing Administration
                CBO     Congressional Budget Office
                                                                                 FHA2LP Treasury/FHA Second-Lien Program
                CDCI    Community Development Capital Initiative
                                                                                    FHFA     Federal Housing Finance Agency
                CDFI    Community Development Financial Institution
                                                                                             Federal Housing Finance Agency Office of the
               CDOs     collateralized debt obligations                        FHFA OIG
                                                                                             Inspector General
                CDS     Credit Default Swap
                                                                                     Fiat    Fiat North America LLC
            Centrue Centrue Financial Corporation, St. Louis, Missouri
                                                                                 Fidelity
                                                                                          Fidelity Southern Corporation, Atlanta, Georgia
                CEO     chief executive officer                                 Southern
           Cerberus Cerberus Capital Management, L.P.                       First Capital
                                                                                          First Capital Bancorp, Inc., Glen Allen, Virginia
                                                                                Bancorp
               CFPB Consumer Financial Protection Bureau
                                                                               Firstbank Firstbank Corporation, Alma, Michigan
            Chrysler    Chrysler Holding LLC
                                                                           First Citizens
           Chrysler                                                                       First Citizens Banc Corp, Sandusky, Ohio
                     Chrysler Financial Services Americas LLC                       Banc
           Financial
                                                                                 FirstCity   FirstCity Bank
                 CIC    CIC Bancshares, Inc.
                                                                                 First
           Citigroup Citigroup, Inc.
                                                                             Community First Community Bank of Hammond, Louisiana
                CLTV    Combined Loan-to-Value                                   Bank
               CMBS     commercial mortgage-backed securities              First Defiance First Defiance Financial Corp., Defiance, Ohio
                                                                                Acronyms and abbreviations I Appendix B I July 25, 2012            233




  First Security                                                             Millennium    Millennium Bancorp, Inc., Edwards, Colorado
                 First Security Group, Inc.
          Group
                                                                               Nan Shan    Nan Shan Life Insurance Company Ltd.
     First Trust First Trust Corporation, New Orleans, Louisiana
                                                                           New Chrysler Chrysler Group LLC
            FLC   Flahive Law Corporation
                                                                              New Point New Point Financial Services, Inc.
    FNB United FNB United Corp., Asheboro, North Carolina
                                                                            Non-Agency
                                                                                           Non-Agency Residential Mortgage-Backed Securities
       Fort Lee   Fort Lee Federal Savings Bank, Fort Lee, New Jersey            RMBS
            FRB   Federal Reserve Board of Governors                                NPV    net present value
        FRBNY Federal Reserve Bank of New York                                   NRSRO     nationally recognized statistical rating organization
               Federal Reserve Board Office of the                              Oaktree Oaktree PPIP Fund, L.P.
       FRB OIG
               Inspector General
                                                                                    OCC    Office of the Comptroller of the Currency
   Freddie Mac Federal Home Loan Mortgage Corporation
                                                                                   Ocala   Ocala Funding
          FSOC    Financial Stability Oversight Council
                                                                            Old Chrysler Chrysler Group LLC
           GAO    Government Accountability Office
                                                                                 Old GM    General Motors Corp.
        Genesis Genesis Staffing, Inc.
                                                                                    OFS    Office of Financial Stability
    Ginnie Mae Government National Mortgage Association
                                                                                    OMB    Office of Management and Budget
            GM General Motors Company
                                                                            Option ARM Option Adjustable Rate Mortgage
         GMAC GMAC Inc.
                                                                             Orion Bank Orion Bank
Greater Kinston   Greater Kinston Credit Union, Kinston, North Carolina
                                                                                    OTS    Office of Thrift Supervision
            GSE   Government-sponsored enterprise
                                                                                  Oxford Oxford Collection Agency, Inc.
          HAFA    Home Affordable Foreclosure Alternatives program
                                                                                Peoples Peoples Bancorp of North Carolina, Inc., Newton,
         HAMP     Home Affordable Modification Program                    Bancorp of NC North Carolina
            HFA Housing Finance Agency                                                PII personally identifiable information
            HHF   Hardest Hit Fund                                                  PPIF Public-Private Investment Fund
          HPDP    Home Price Decline Protection program                             PPIP Public-Private Investment Program
           HUD    Department of Housing and Urban Development                       PRA    Principal Reduction Alternative program
                  Department of Housing and Urban Development                   Premier
       HUD OIG                                                                          Premier Bancorp, Inc., Wilmette, Illinois
                  Office of the Inspector General                               Bancorp
           ILFC   International Lease Finance Corporation                  PremierWest PremierWest Bancorp, Medford, Oregon
       Intervest Intervest Bancshares Corporation                                   PSA    Pooling and Servicing Agreement
        Invesco   Invesco Legacy Securities Master Fund, L.P.                        QFI qualifying financial institution
            IPO   initial public offering                                        Pulaski   Pulaski Financial Corp, Creve Coeur, Missouri
                  Internal Revenue Service Criminal                                  QIB Qualified Institutional Buyers
         IRS-CI
                  Investigation Division
                                                                                           Department of Agriculture’s Office of
                                                                                      RD
       Jobs Act   Jobs Act of 2010                                                         Rural Development
     JPMorgan JPMorgan Chase & Co.                                                         Rural Development Home Affordable
                                                                               RD-HAMP
                                                                                           Modification Program
 Legacy Home
              Legacy Home Loans and Real Estate
        Loans                                                                    ResCap Residential Capital, LLC
          Litton Litton Loan Servicing, LP                                        RMBS     residential mortgage-backed securities
           LNB    LNB Bancorp, Inc., Lorain, Ohio                                Rogers
                                                                                        Rogers Bancshares, Inc.
                                                                             Bancshares
            LTV   loan-to-value ratio
                                                                          S corporations IRS subchapter S corporations
           M&T    M&T Bank Corporation
                                                                                    SBA    Small Business Administration
   MainSource MainSource Financial Group
                                                                                   SBLF    Small Business Lending Fund
           MBS    mortgage-backed securities
                                                                              SCB Bank     SCB Bank, Shelbyville, Indiana
           MCP mandatorily convertible preferred shares
                                                                                    SEC    Securities and Exchange Commission
    MetroCorp     MetroCorp Bancshares, Inc., Houston, Texas
                                                                          Secret Service Secret Service
           MHA    Making Home Affordable program
234         Appendix B I Acronyms and abbreviations I July 25, 2012




           Servicers    loan servicers                                                  TPP trial period plan
      Shay Financial Shay Financial Services, Inc.                                 Treasury Department of the Treasury
                 SIFI   Systemically Important Financial Institutions         Treasury/FMA     HAMP Loan Modification Option for
                                                                                      HAMP     FHA-insured Mortgages
                        Special Inspector General for the Troubled Asset
        SIGTARP Act
                        Relief Program Act of 2009                                 Treasury
                                                                                            Secretary of the Treasury
                                                                                  Secretary
                SNL     SNL Financial, LLC
                                                                                     TRUPS     trust preferred securities
                        Southern First Bancshares, Inc., Greenville, South
      Southern First
                        Carolina                                                        TSG    The Shmuckler Group, LLC
                 SPA    Servicer Participation Agreement                               UAW     United Auto Workers
                 SPV special purpose vehicle                                            UCB    United Commercial Bank
                SSFI Systemically Significant Failing Institutions program            UCBH     UCBH Holdings, Inc.
                Star    AIG Star Life Insurance Co., Ltd.                             UCSB     Unlocking Credit for Small Businesses
                TALF    Term Asset-Backed Securities Loan Facility           United Bancorp United Bancorp, Inc., Tecumseh, Michigan
               TARP     Troubled Asset Relief Program                                    UP    Home Affordable Unemployment Program
         Task Force joint task force                                                  USPIS    U.S. Postal Inspection Service
      Taylor Capital Taylor Capital Group, Rosemont, Illinois                            VA    Department of Veterans Affairs
                TBW     Taylor, Bean and Whitaker Mortgage Corporation       Valley National   Valley National Bancorp, Wayne, New Jersey
                TCW     The TCW Group, Inc.                                                    Wellington Management Legacy Securities PPIF
                                                                                  Wellington
                                                                                               Master Fund, LP
         Tennessee
                   Tennessee Commerce Bancorp, Inc.
         Commerce                                                               Wells Fargo    Wells Fargo & Company
                 TIP    Targeted Investment Program                                   WSFS     WSFS Financial Corporation
               Tivest Tivest Development and Construction LLC
                                                                                          Reporting Requirements I Appendix C I July 25, 2012             235




Reporting Requirements
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.


      EESA        EESA Reporting                                                                                                       SIGTARP
 #    Section     Requirement          Treasury Response to SIGTARP Data Call                                                          Report Section
 1    Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on                      Section 2:
      121(c)(A)   the categories of    October 3, 2010                                                                                 “TARP Overview”
                  troubled assets
                  purchased or         Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-          Appendix D:
                  otherwise procured   stability/Pages/default.aspx website, as of 6/30/2012:                                          “Transaction
                  by the Treasury                                                                                                      Detail”
                  Secretary.


                                       CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                       the financial system by providing capital to viable financial institutions of all sizes
                                       throughout the nation. With a strengthened capital base, financial institutions have an
                                       increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                       economy.

                                       AIG: In September of 2008, panic in the financial system was deep and widespread
                                       Amidst these events, on Friday, September 12, American International Group (AIG) of-
                                       ficials informed the Federal Reserve and Treasury that the company was facing potentially
                                       fatal liquidity problems. At the time, AIG was the largest provider of conventional insurance
                                       in the world, with approximately 75 million individual and corporate customers in over 130
                                       countries.a

                                       AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                       certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                       large losses on certain assets. The program was designed for financial institutions whose
                                       failure could harm the financial system and was used in conjunction with other forms of
                                       exceptional assistance.

                                       TIP: Under the Targeted Investment Program (TIP), Treasury provided exceptional
                                       assistance on a case-by-case basis in order to stabilize institutions that were considered
                                       systemically significant to prevent broader disruption of financial markets. Treasury
                                       provided this assistance by purchasing preferred stock, and also received warrants to
                                       purchase common stock, in the institutions.

                                       TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                       resources available to support the consumer and business credit markets by providing
                                       the financing to private investors to help unfreeze and lower interest rates for auto,
                                       student loan, small business, credit card and other consumer and business credit. The
                                       U.S. Treasury originally committed $20 billion to provide credit protection for $200 billion
                                       of lending from the Federal Reserve. This commitment was later reduced to $4.3 billion
                                       after the program closed to new lending on June 30, 2010, with $43 billion in loans
                                       outstanding.

                                       PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                       the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                       President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                       framework to bring capital into the financial system and address the problem of legacy
                                       real estate assets.

                                       CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                       for small businesses, Treasury announced on February 3 final terms for the Community
                                       Development Capital Initiative (CDCI). This TARP program invested lower-cost capital in
                                       Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                       country’s hardest-hit communities.

                                                                                                                                 Continued on next page
236         Appendix C I Reporting Requirements I July 25, 2012




          EESA        EESA Reporting                                                                                                          SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section
                                              SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                              Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                              businesses by providing capital to qualified community banks with assets of less than $10
                                              billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                              can work together to help create jobs and promote economic growth in local communities
                                              across the nation.

                                              UCSB: The Treasury Department will begin making direct purchases of securities backed
                                              by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                              new securities to ensure that community banks and credit unions feel confident in
                                              extending new loans to local businesses.

                                              AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                              significant disruption of the American automotive industry, which would pose a systemic
                                              risk to financial market stability and have a negative effect on the economy of the United
                                              States.

                                              ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                              confidence they need to continue shipping parts, pay their employees and continue their
                                              operations.b

                                              AWCP: The Treasury Department announced an innovative new program to give
                                              consumers who are considering new car purchases the confidence that even while
                                              Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                              program is part of the Administration’s broader program to stabilize the auto industry and
                                              stand behind a restructuring effort that will result in stronger, more competitive and viable
                                              American car companies.b

                                              HAMP (a program under MHA): The Home Affordable Modification Program has a
                                              simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                              stabilize communities. This program will bring together lenders, investors, servicers,
                                              borrowers and the Government, so that all stakeholders share in the cost of ensuring that
                                              responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                              up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                              foreclosures, and helping to avoid further downward pressures on overall home prices.

      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                      Appendix D:
          121(c)(B)   troubled assets         October 3, 2010.                                                                                “Transaction
                      purchased in each                                                                                                       Detail”
                      such category           Information on all transactions as well as additional information about these programs
                      described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                      Section 121(c)(A)       posted at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/
                                              Home.aspx. Information regarding all transactions through the end of June 2012 is
                                              available at the aforementioned link in a transaction report dated 6/27/2012.

      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on                      Section 2: “TARP
          121(c)(C)   of the reasons          October 3, 2010.                                                                                Overview”
                      the Treasury
                      Secretary deemed                                                                                                        Appendix C:
                      it necessary to                                                                                                         “Reporting
                      purchase each such                                                                                                      Requirements”
                      troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                              Quarterly Reports
                                                                                                                                              to Congress

      4   Section     A listing of each       See #2.                                                                                         See #2.
          121(c)(D)   financial institution
                      from which such
                      troubled assets
                      were purchased

                                                                                                                                        Continued on next page
                                                                                                                       Reporting Requirements I Appendix C I July 25, 2012                       237




        EESA               EESA Reporting                                                                                                                                 SIGTARP
#       Section            Requirement                    Treasury Response to SIGTARP Data Call                                                                          Report Section
5        Section           A listing of                    There have been no new PPIP fund managers hired between March 31, 2012, and                                    Section 2:
         121(c)(E)         and detailed                    June 30, 2012.                                                                                                 “Public-Private
                           biographical                                                                                                                                   Investment
                           information on each             On February 7, 2012, the Treasury executed a new Financial Agency Agreement with                               Program”
                           person or entity                Greenhill & Co. LLC (Greenhill) to provide certain services relating to the management
                           hired to manage                 and disposition of American International Group, Inc. (AIG) investments acquired                               Appendix C:
                           such troubled                   pursuant to the Emergency Economic Stability Act of 2008 (EESA). Greenhill is a global                         “Reporting
                           assets.                         financial services firm providing investment banking, advice on mergers, acquisitions,                         Requirements”
                                                           restructurings, financings and capital raisings to corporations, partnerships, institutions                    of prior SIGTARP
                                                           and governments.                                                                                               Quarterly Reports
                                                                                                                                                                          to Congress

6        Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                           Table C.1;
         121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                        Section 2: “TARP
                           of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/                       Overview”
                           purchased pursuant              financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding all
                           to any program                  transactions through the end of June 2012 is available at the aforementioned link in a                         Appendix D:
                           established under               transaction report dated 6/27/2012.                                                                            “Transaction
                           Section 101, the                                                                                                                               Detail”
                           amount of troubled              Treasury published its most recent valuation of TARP investments as of June 30, 2012,
                           assets on the                   on 7/10/2012, in its July 2012 105(a) report that is available at the following link: www.
                           books of Treasury,              treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.aspx
                           the amount of
                           troubled assets                 Information on the repayments of Treasury’s investments under the CPP and proceeds
                           sold, and the profit            from the sale of warrants are available within Treasury’s press releases, transactions
                           and loss incurred               reports and Section 105(a) Monthly Congressional Reports at the following links:
                           on each sale or                 www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                           disposition of each             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                           such troubled
                           assets.

7        Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                          Section 2:
         121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                              “TARP Overview”
                           issued under
                           Section 102.                                                                                                                                   Section 2:
                                                                                                                                                                          “Targeted
                                                                                                                                                                          Investment
                                                                                                                                                                          Program and
                                                                                                                                                                          Asset Guarantee
                                                                                                                                                                          Program”

8        Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on                                     Table C.1;
         121(f)            of all purchases,               October 3, 2010.                                                                                               Section 2:
                           obligations,                                                                                                                                   “TARP Overview”
                           expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in
                           revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/     Section 3:
                           with any program                initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding “TARP Operations
                           established by the              all transactions through the end of June 2012 is available at the aforementioned link in a   and Administration”
                           Secretary of the                transaction report dated 6/27/2012.
                           Treasury under                                                                                                               Appendix D:
                           Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update       “Transaction Detail”
                           102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                                           stability/briefing-room/reports/tarp-daily-summary-report/pages/default.aspx, accessed
                                                           7/5/2012.
Notes:
a
  Otherwise known as Systemically Significant Failing Institution (“SSFI”).
b
  Description is of 3/31/2011.

Sources: Treasury, response to SIGTARP data call, 7/5/2012; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/programs/Pages/default.aspx accessed
7/5/2012; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 7/5/2012; AWCP: “Obama
Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 7/5/2012; TALF: Federal Reserve, “Term
Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 7/5/2012; SBLF: Small
Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/programs/housing-
programs/mha/Pages/default.aspx, accessed 7/5/2012.
238               Appendix C I Reporting Requirements I July 25, 2012




      Table C.1

       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKs                                                                             ($ BILLIONS)

                                                                                   Obligations After
                                                                                         Dodd-Frank              Current Obligations                                                On Treasury’s
                                                                                 (As of 10/3/2010)               (As of 6/30/2012)                               Expended                 Booksa

       Housing Support Programs                                                                      $45.6                            $45.6                              $4.5                $—


       Capital Purchase Program (“CPP”)                                                              204.9                            204.9                            204.9                13.8


       Community Development Capital Initiative (“CDCI”)                                                0.6                              0.6                              0.2                 0.6


       Systemically Significant Failing Institutions (“SSFI”)                                         69.8                             67.8c                             67.8               36.0


       Targeted Investment Program (“TIP”)                                                            40.0                             40.0                              40.0                 0.0


       Asset Guarantee Program (“AGP”)                                                                  5.0                              5.0                              0.0                 0.0


       Term Asset-Backed Securities Loan Facility (“TALF”)                                              4.3                              1.4                              0.1                 0.1


       Public-Private Investment Program (“PPIP”)                                                     22.4                             21.9                              18.5               14.1


       Unlocking Credit for Small Businesses (“UCSB”)                                                   0.4                              0.4                              0.4                 0.0


       Automotive Industry Support Programs (“AIFP”)b                                                 81.8                             79.7d                             79.7               44.5


       Total                                                                                      $474.8                           $467.2                           $416.1               $109.1

       Notes: Numbers may not total due to rounding.
       a
         “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including realized losses and write-offs.
       b
         Includes amounts for AIFP, ASSP, and AWCP.
       c
         Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
       d
         Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

       Sources: Repayments data: Treasury, Transactions Report, 6/27/2012; Treasury, Daily TARP Update, 7/2/2012.
Transaction Detail
Table D.1
CPP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ               Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576           $9.41                        $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49             Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000
                                                                                                                                                                                                                               $13.00                         $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49         Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC               Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                   $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN               Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000         $22.60                        $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000           $6.21                          $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC             Preferred Stock w/ Warrants                    $3,500,000                                                                                                      $0.90                          $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                        Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                        $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2         Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                     $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK          Preferred Stock w/ Warrants                    $4,781,000                                                                                                      $8.20                          $784,605
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2               Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                     $469,599
12/19/2008   Alliance Financial Corporation, Syracuse, NY         Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000         $34.34                           $538,360
                                                                  Subordinated Debentures
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                  $12,000,000                                                                                                                                     $388,742
                                                                  w/ Exercised Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2              Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                      $0.27                          $409,753
3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2      Preferred Stock w/ Exercised Warrants         $70,000,000                                                                                                                                  $12,082,539
1/30/2009    AMB Financial Corp., Munster, IN2,50                 Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000           $6.85                          $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49      Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                          $343,021
1/9/2009     American Express Company, New York, NY               Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000          $58.21                        $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2               Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                          $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2     Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                          $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA85                       Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $—                                                    $12.60        698,554          $9,302,107
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50            Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000           $2.82                        $2,776,667
                                                                  Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE8                                                       $5,000,000                                                                                                                                   $1,146,635
                                                                  Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI           Preferred Stock w/ Warrants                 $110,000,000                                                                                                       $0.45     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD               Preferred Stock w/ Warrants                    $8,152,000   4/18/2012           $4,076,000      $4,076,000                                                     $6.80       299,706          $1,326,398
                                                                                                                              4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                  Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006         $13.19                        $68,104,167
                                                                                                                              9/14/2011        $262,500,000              $—
                                                       2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC              Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                      $0.70                          $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49   Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                        $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49             Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                        $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49        Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                        $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI           Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                          $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30              Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                        $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                          Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                   $1,460,782
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL          Preferred Stock w/ Warrants                   $50,000,000                                                                                                      $2.99       730,994          $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2     Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                                     $150,577
10/28/2008   Bank of America Corporation, Charlotte, NC1b         Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $183,547,824            $8.18                     $835,416,667
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b      Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $122,365,216                                      $458,333,333
1/16/2009    Bank of Commerce, Charlotte, NC2                     Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $421,921
11/14/2008   Bank of Commerce Holdings, Redding, CA49             Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000           $2.80                        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                       Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                     $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                    Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984         $37.01                           $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC    Preferred Stock w/ Warrants                   $13,179,000                                                                                                      $0.23       475,204          $1,039,677
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR            Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000         $30.08                         $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                         Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $1,061,947
             Denver, CO2
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             239
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                       (Continued)                                                                                                                                                                         240
                                                                                                                                   Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49              Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                        $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                           Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                                     $177,428
11/21/2008   Banner Corporation, Walla Walla, WA74                     Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                    $21.91        243,998         $20,873,747
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49         Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                          $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                     Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000         $36.00                         $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                             Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402         $30.85                        $92,703,517
             BBCN Bancorp, Inc.
12/12/2008                                                             Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $—                                                                                   $9,739,583
             (Center Financial Corporation), Los Angeles, CA66
                                                                                                                                                                                                                                    $10.89        337,480
             BBCN Bancorp, Inc.
11/21/2008                                                             Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $—                                                                                  $12,060,000
             (Nara Bancorp, Inc.), Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                  Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                     $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                         Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                    $13.50        183,465          $1,129,500
                                                                                                                                   7/6/2011            $1,500,000      $4,500,000
                                                                                                                                   10/19/2011          $1,500,000      $3,000,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2                 Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000           $9.18                          $963,317
                                                                                                                                   6/6/2012            $1,200,000        $300,000
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                   6/27/2012            $300,000              $—
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA             Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000         $22.00                           $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                       Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000           $8.80                          $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                              Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000
             Birmingham, MI2,49
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                             Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A          $3.30                          $342,023
             Birmingham, MI2,10a,49

                                                                8,10   Subordinated Debentures
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL                                                             $6,400,000                                                                                                                                   $1,516,271
                                                                       w/ Exercised Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                      Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $7.02                        $1,728,861
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                    Preferred Stock w/ Exercised Warrants          $5,000,000   6/27/2012           $2,250,000      $2,750,000                                                                                    $825,326
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $1,760,350
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2,71          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                      $0.02                          $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                   Preferred Stock w/ Warrants                   $21,750,000                                                                                                      $3.55       111,083            $211,458
             BNB Financial Services Corporation, New York,
4/17/2009                                                              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $440,542
             NY2
12/5/2008    BNC Bancorp, Thomasville, NC                              Preferred Stock w/ Warrants                   $31,260,000                                                                                                      $7.86       543,337          $5,383,667
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49             Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000         $13.00                           $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                              Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                      $2.11                          $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                       Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                        $1,283,777
                                                                       Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                     $5,586,000                                                                                                                                     $468,624
                                                                       Warrants

             Boston Private Financial Holdings, Inc.,                                                                              1/13/2010         $50,000,000     $104,000,000    2/1/2011        A           $6,202,523
11/21/2008                                                             Preferred Stock w/ Warrants                 $154,000,000                                                                                                       $8.93                       $11,022,222
             Boston, MA                                                                                                            6/16/2010        $104,000,000              $—
                                                                                                                                   2/23/2011         $15,000,000       $8,864,000    4/20/2011       R           $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                     Preferred Stock w/ Warrants                   $23,864,000                                                                                                    $16.15                         $2,613,582
                                                                                                                                   3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2                 Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                   $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                             Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                      $1.30                          $810,417
             Broadway Financial Corporation,
12/4/2009                                                              Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                       Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                   $2,400,000                                                                                                                                     $402,720
                                                                       Warrants
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2,49         Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                        $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                   Preferred Stock w/ Exercised Warrants         $15,000,000   5/23/2012           $6,000,000      $9,000,000                                                                                  $2,506,855
3/13/2009    Butler Point, Inc., Catlin, IL2                           Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                           $87,124
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                                                                                7/27/2011         $10,000,000      $10,000,000
1/9/2009     C&F Financial Corporation, West Point, VA              Preferred Stock w/ Warrants                   $20,000,000                                                                                                    $40.16        167,504          $2,902,778
                                                                                                                                4/11/2012         $10,000,000              $—
12/23/2008   Cache Valley Banking Company , Logan, UT2,49           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49        Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                       $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                          $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                          $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                     $187,178
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                      $0.28                          $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                          $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A          $2.28       749,619          $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                     $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $146,500,065          $54.66                      $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $739,989

                                                         8,50       Subordinated Debentures
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO                                                             $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                          $983,480
                                                                    w/ Exercised Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                      $5.82       357,675          $2,297,625
2/6/2009     Carolina Trust Bank, Lincolnton, NC                    Preferred Stock w/ Warrants                    $4,000,000                                                                                                      $3.00        86,957            $505,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                      $5.35       205,379            $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                  Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A          $2.65                        $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47           Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                       $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                     $16.51      1,846,374         $44,433,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                 $17.75                           $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
                                          2,63
5/29/2009    CB Holding Corp., Aledo, IL                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                     $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                  $674,671
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                     Preferred Stock                                $1,753,000
3/27/2009    CBS Banc-Corp., Russellville, AL2                      Preferred Stock w/ Exercised Warrants         $24,300,000                                                                                                                  523,076          $4,217,049
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                      $0.70       261,538            $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                     $636,071
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000         $11.25                         $1,341,667
5/1/2009     CenterBank, Milford, OH2                               Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                                     $372,781
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                        $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000           $7.15                          $172,938
12/5/2008    Central Bancorp, Inc., Garland, TX50                   Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000         $31.72                         $2,411,625
2/27/2009    Central Bancorp, Inc., Somerville, MA2                 Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                   $1,361,111
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                          $769,177
2/20/2009    Central Community Corporation, Temple, TX2             Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                   $3,880,097
12/5/2008    Central Federal Corporation, Fairlawn, OH              Preferred Stock w/ Warrants                    $7,225,000                                                                                                                   67,314            $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659           $1.56                        $1,084,486
                                                                                                                                6/17/2011         $35,883,281      $99,116,719
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46     Common Stock w/ Warrants                    $135,000,000                                                                                                     $14.12         79,288          $2,362,500
                                                                                                                                3/29/2012         $36,039,222              $—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017           $6.90                          $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                      $0.57       263,542            $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                          $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000         $19.30                         $1,012,791
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                  508,320            $571,690
             Century Financial Services Corporation,                Subordinated Debentures
6/19/2009                                                                                                         $10,000,000                                                                                                                                   $2,437,761
             Santa Fe, NM8                                          w/ Exercised Warrants
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               241
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                      (Continued)                                                                                                                                                                      242
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                   Subordinated Debentures
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                            $19,817,000                                                                                                                                   $4,923,341
                                                                   w/ Exercised Warrants
7/31/2009    Chicago Shore Corporation , Chicago, IL2              Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $1,065,021
12/31/2008   CIT Group Inc., New York, NY16                        Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A        $35.64                        $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                     Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849         $27.41                      $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA        Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000         $19.05                         $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                 Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                      $0.01                          $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2             Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                     $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30      Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A          $4.00                          $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2         Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $248,883
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                           Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                     $180,259
             Versailles, KY2
12/23/2008   Citizens Community Bank, South Hill, VA2,49           Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                          $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY         Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                     $8.45       254,218          $1,356,907
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI            Preferred Stock w/ Warrants                 $300,000,000                                                                                                     $17.13      1,757,813         $13,875,000
12/12/2008   Citizens South Banking Corporation, Gastonia, NC50    Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157           $6.78                        $2,847,222
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




             City National Bancshares Corporation,
4/10/2009                                                          Preferred Stock                                $9,439,000                                                                                                                                     $281,859
             Newark, NJ2,3
                                                                                                                               12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA          Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $48.58                        $23,916,667
                                                                                                                               3/3/2010         $200,000,000              $—
                                                              2
3/27/2009    Clover Community Bankshares, Inc., Clover, SC         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $307,925
             Coastal Banking Company, Inc.,
12/5/2008                                                          Preferred Stock w/ Warrants                    $9,950,000                                                                                                      $4.25       205,579            $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                          Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                   $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                    Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677           $6.26                        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49              Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604         $13.84                         $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                 Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                   $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                           $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                 Preferred Stock w/ Warrants                   $28,000,000                                                                                                      $4.73       500,000          $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA             Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647         $18.79                         $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49          Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                          $316,479
11/14/2008   Comerica Inc., Dallas, TX                             Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $181,102,043          $30.71                      $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA             Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                      $9.50        87,209             $36,111
                                                                   Subordinated Debentures
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                      $20,400,000                                                                                                                                   $5,101,405
                                                                   w/ Exercised Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2          Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                      $9.61                          $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                    Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                                                     $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2       Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                       $86,973
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                          Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                        $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10           Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                     $573,012
1/16/2009    Community Bank of the Bay, Oakland, CA3,30            Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                          $76,189
             Community Bank Shares of Indiana, Inc., New
5/29/2009                                                          Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870         $12.58                         $2,233,412
             Albany, IN49
             Community Bankers Trust Corporation, Glen
12/19/2008                                                         Preferred Stock w/ Warrants                   $17,680,000                                                                                                      $1.80       780,000          $1,982,529
             Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2         Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                      $6.10                          $697,084
12/19/2008   Community Financial Corporation, Staunton, VA         Preferred Stock w/ Warrants                   $12,643,000                                                                                                      $3.68       351,194          $2,152,822
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2     Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                      $2.20                          $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49   Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                        $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2       Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                   $2,161,377
2/27/2009    Community First Inc., Columbia, TN2                   Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                   $1,908,453
                                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                      (Continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             Community Holding Company of Florida, Inc.,
2/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                                     $186,676
             Miramar Beach, FL2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                                     $480,993
1/30/2009    Community Partners Bancorp, Middletown, NJ49             Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000           $5.70                        $1,138,750
             Community Pride Bank Corporation,                        Subordinated Debentures
11/13/2009                                                                                                           $4,400,000                                                                                                                                     $448,253
             Ham Lake, MN8,10                                         w/ Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                              Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                        $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                    Preferred Stock w/ Warrants                   $15,600,000                                                                                                      $2.50       521,158          $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                    Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                      $2.70                          $608,728
             Corning Savings and Loan Association,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                      $113,228
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2                  Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                                   $1,349,880
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                     $810,989
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                      $7.10                          $546,741
             Crescent Financial Bancshares, Inc.
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,900,000                                                                                                      $4.52                        $4,230,091
             (Crescent Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                   $1,922,001
3/27/2009    CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $180,940
             Customers Bancorp, Inc.
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                          $407,478
             (Berkshire Bancorp, Inc.), Phoenixville, PA2,60
                                                                                                                                  8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.65                         $4,739,583
                                                                                                                                  9/2/2009          $32,500,000              $—
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                       Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                        $2,800,592

                                                               8,49   Subordinated Debentures
5/15/2009    Deerfield Financial Corporation, Deerfield, WI                                                          $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                          $512,339
                                                                      w/ Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                              Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                     $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                       Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                    $387,509
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a                   Preferred Stock                                $1,508,000
                                                                      Subordinated Debentures
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                                 $20,445,000                                                                                                                                   $5,112,555
                                                                      w/ Exercised Warrants
1/16/2009    Dickinson Financial Corporation II, Kansas City, MO2     Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                    $2,631,197
3/13/2009    Discover Financial Services , Riverwoods, IL             Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000          $34.58                        $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000         $13.50                         $1,475,278
                                                                      Subordinated Debentures
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                           $12,000,000                                                                                                                                   $3,076,173
                                                                      w/ Exercised Warrants
                                                                                                                                  12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                      Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $15.75                         $3,817,732
                                                                                                                                  7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000         $23.46                        $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,000,000                                                                                                      $3.72       373,832          $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                         Preferred Stock w/ Warrants                   $17,949,000                                                                                                      $9.36       144,984          $2,989,008
12/23/2008   Emclaire Financial Corp., Emlenton, PA49                 Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113         $19.95                           $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                    Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071         $20.63                         $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                   $35,000,000                                                                                                    $10.96        324,074          $5,959,722
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                          $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000                                        $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                           Preferred Stock w/ Exercised Warrants         $43,000,000                                                                                                                                   $7,395,044
                                                                      Subordinated Debentures
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




5/22/2009    F & C Bancorp, Inc., Holden, MO8                                                                        $2,993,000                                                                                                                                     $748,600
                                                                      w/ Exercised Warrants
                                                     2
1/30/2009    F & M Bancshares, Inc., Trezevant, TN                    Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                                  $1,272,996
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a               Preferred Stock                                $3,535,000
                                                          2
2/6/2009     F & M Financial Corporation, Salisbury, NC               Preferred Stock w/ Exercised Warrants         $17,000,000                                                                                                                                   $3,034,288
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 243
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)                                                                                                                                                                         244
                                                                                                                                 Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
2/13/2009    F&M Financial Corporation, Clarksville, TN2             Preferred Stock w/ Exercised Warrants         $17,243,000                                                                                                                                   $3,059,343
1/9/2009     F.N.B. Corporation, Hermitage, PA                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100         $10.87        819,640          $4,808,414
             F.N.B. Corporation (Parkvale Financial
12/23/2008                                                           Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                   $3,333,333
             Corporation), Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                   $1,913,405
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                            Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                       $75,919
             Argonia, KS2
1/23/2009    Farmers Bank , Windsor, VA2                             Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                   $1,579,466
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY87       Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,594,229              $—                                                      $6.57       223,992          $5,166,600

                                                            8        Subordinated Debentures
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS                                                             $12,000,000                                                                                                                                   $2,925,316
                                                                     w/ Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2, 50         Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                           $90,174
                                                                     Subordinated Debentures
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                               $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                         $154,592
                                                                     w/ Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                         Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                     $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                   Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                        $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                            Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                                   $1,352,721
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                     Subordinated Debentures
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                $3,942,000                                                                                                                                     $979,300
                                                                     w/ Exercised Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                  Preferred Stock w/ Warrants                    $7,000,000                                                                                                    $10.41        121,387          $1,198,750
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10            Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                           $—
12/19/2008   Fidelity Financial Corporation, Wichita, KS2            Preferred Stock w/ Exercised Warrants         $36,282,000                                                                                                                                   $6,734,009
12/19/2008   Fidelity Southern Corporation, Atlanta, GA92            Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $—                                                      $8.64     2,462,439          $8,207,389
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                     Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936          $13.40                      $355,946,667
                                                                                                                                 2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $16.88                         $4,192,649
                                                                                                                                 3/30/2011         $25,010,000              $—
2/13/2009    Financial Security Corporation, Basin, WY2,50           Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                          $664,597
                                                                     Subordinated Debentures
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                  $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                          $633,322
                                                                     w/ Exercised Warrants
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN2       Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                                     $191,232
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2           Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                                     $538,231
             First American Bank Corporation,                        Subordinated Debentures
7/24/2009                                                                                                          $50,000,000   12/21/2011        $15,000,000      $35,000,000                                                                                 $11,318,975
             Elk Grove Village, IL8                                  w/ Exercised Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30    Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                       $1,204,167
1/9/2009     First BanCorp, San Juan, PR50                           Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462           $8.89       389,484         $32,999,386
1/16/2009    First Bancorp, Troy, NC28                               Common Stock w/ Warrants                    $424,174,000                                                                                                     $17.00        616,308          $8,594,444
2/20/2009    First BancTrust Corporation, Paris, IL2                 Preferred Stock w/ Exercised Warrants          $7,350,000   1/18/2012           $3,675,000      $3,675,000                                                   $10.77                         $1,236,732
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50      Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                          $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50         Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000         $23.50                         $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                         Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                    $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                   Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677           $4.82                       $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2               Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                   $620,001
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a           Preferred Stock                                $2,032,000
             First California Financial Group, Inc, Westlake
12/19/2008                                                           Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042           $6.88                        $3,211,806
             Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA90           Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $—                                                      $2.34       250,947          $1,759,344
2/13/2009    First Choice Bank, Cerritos, CA2, 30                    Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                   $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                 Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
1/23/2009    First Citizens Banc Corp, Sandusky, OH94                Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $—                                                      $8.45       469,312          $3,838,240
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49        Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                          $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA          Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600         $14.43                         $1,308,403
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (Continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             First Community Bancshares, Inc,
5/15/2009                                                             Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                     $604,950
             Overland Park, KS2
             First Community Bank Corporation of America,
12/23/2008                                                            Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                         $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                   $11,350,000                                                                                                      $8.00       195,915          $1,976,792
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2    Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                   $2,910,906
12/5/2008    First Defiance Financial Corp., Defiance, OH89           Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $—                                                    $17.12        550,595          $6,546,862
                                                                      Subordinated Debentures w/ Exercised
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                          $639,738
                                                                      Warrants
                                                            2
2/6/2009     First Express of Nebraska, Inc., Gering, NE              Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                          $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A          $8.10                          $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $2,966,288         $15.98                         $4,677,778
                                                                      Subordinated Debentures
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                   $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                          $694,280
                                                                      w/ Exercised Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC75          Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $—                                                    $10.72        241,696         $10,815,494
             First Financial Service Corporation,
1/9/2009                                                              Preferred Stock w/ Warrants                   $20,000,000                                                                                                      $2.25       215,983          $1,600,000
             Elizabethtown, KY
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                   $1,099,102
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                                   $1,327,473
             Gothenburg, NE2
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                        $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000           $8.65                       $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                $3,223,000                                                                                                                                     $437,343
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                     $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                          $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $—                                                      $5.18       513,113          $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000         $15.45                           $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                          $676,865
                                                                      Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $—                                                                                  $12,167,111
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50                                                                                                                        11/18/2011      P             $367,500         $12.46
                                                                      Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $—                                                                                   $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000         $10.98                        $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants         $13,900,000                                                                                                                                   $2,403,117
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                        $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000           $7.65                        $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000           $6.00                        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227         $11.86      3,670,822          $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                   $72,927,000                                                                                                      $0.62                        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2             Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                                  $1,361,039
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a         Preferred Stock                                $4,596,000
                                                                2
3/6/2009     First Reliance Bancshares, Inc., Florence, SC            Preferred Stock w/ Exercised Warrants         $15,349,000                                                                                                      $3.55                        $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                       Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                    $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                   Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                   $33,000,000                                                                                                      $3.00       823,627          $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                    $7,400,000                                                                                                      $0.03       114,080            $330,944
                                                                      Subordinated Debentures
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                              $50,000,000   9/28/2011         $13,125,000      $36,875,000                                                                                 $11,225,272
                                                                      w/ Exercised Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                          $818,468
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2       Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                     $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                           $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                        $1,862,389
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 245
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                 (Continued)                                                                                                                                                                         246
                                                                                                                             Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                 Subordinated Debentures
6/5/2009     First Trust Corporation, New Orleans, LA8                                                         $17,969,000                                                                                                                                   $1,046,896
                                                                 w/ Exercised Warrants
1/23/2009    First ULB Corp., Oakland, CA2                       Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                           $66,021
1/30/2009    First United Corporation, Oakland, MD               Preferred Stock w/ Warrants                   $30,000,000                                                                                                      $4.31       326,323          $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30    Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                          $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2          Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                             $2,969,910
12/11/2009   First Western Financial, Inc., Denver, CO2,10a      Preferred Stock                               $11,881,000
1/30/2009    Firstbank Corporation, Alma, MI97                   Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $—                                                      $9.80       578,947          $5,431,250
1/9/2009     FirstMerit Corporation, Akron, OH                   Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000         $16.51                         $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                    Preferred Stock w/ Warrants                 $266,657,000                                                                                                       $0.84     6,451,379         $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                   $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49     Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                        $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY    Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000         $13.63                         $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50            Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000         $16.15                         $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                    Common Stock w/ Warrants                      $51,500,000                                                                                                    $12.99         22,071          $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2      Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                    $12.80                         $2,452,500
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 25, 2012




5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2,82     Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                      $87,185
4/3/2009     Fortune Financial Corporation, Arnold, MO2,50       Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                          $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55             Preferred Stock w/ Warrants                    $5,800,000                                                                                                      $0.02       183,158            $273,889
                                                                                                                             12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                   Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                          $221,722
                                                                                                                             6/16/2010           $2,240,000             $—
5/22/2009    Franklin Bancorp, Inc., Washington, MO2             Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                                     $827,998
                                                                 Subordinated Debentures
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                           $3,000,000                                                                                                                                     $759,993
                                                                 w/ Exercised Warrants
                                                                 Subordinated Debentures
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                              $35,000,000                                                                                                                                   $8,475,080
                                                                 w/ Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                      Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                                     $321,660

                                                                 Subordinated Debentures                                     11/24/2009          $1,600,000      $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                             $3,000,000                                                     10/6/2010       R             $150,000                                          $258,192
                                                                 w/ Exercised Warrants                                       10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA         Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000           $9.99                       $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2,80          Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $—     4/13/2012       R             $300,000                                          $960,795
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2     Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                          $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                  Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                           $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                         Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                                     $864,059
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10               Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                      $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2               Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                     $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49            Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                          $517,145
                                                                 Subordinated Debentures
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                      $2,443,320                                                                                                                                     $540,896
                                                                 w/ Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2        Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                           $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                                $4.50                        $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49   Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                 Subordinated Debentures
7/17/2009    Great River Holding Company, Baxter, MN8                                                           $8,400,000                                                                                                                                     $759,575
                                                                 w/ Exercised Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50           Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364         $27.58                         $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59           Preferred Stock w/ Warrants                   $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                       $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $420,740
2/27/2009    Green City Bancshares, Inc., Green City, MO2        Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                           $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2           Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                      $4.50                          $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                  Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                       $45,190
                                                                                                                                                                                                                                                   Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                  (Continued)
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                          $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30      Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                         $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000   6/13/2012           $5,000,000     $12,000,000                                                     $7.91       459,459          $2,817,361
9/25/2009    GulfSouth Private Bank, Destin, FL10,21              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                          $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                          $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31        Common Stock w/ Warrants                      $80,347,000                                                                                                      $1.09        53,034          $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                     $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                         Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $706,264,560          $17.63                      $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2             Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                           $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO         Preferred Stock w/ Warrants                   $30,255,000   5/9/2012          $12,000,000      $18,255,000                                                     $9.23       276,090          $5,141,755
3/6/2009     HCSB Financial Corporation, Loris, SC                Preferred Stock w/ Warrants                   $12,895,000                                                                                                      $0.25        91,714          $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10         Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                    $13.25                         $1,009,349
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50         Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000         $24.00                        $11,188,087
                                                                                                                              3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50        Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000         $12.20                           $947,284
                                                                                                                              8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—                                                      $6.50       462,963          $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA          Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000         $14.65                         $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA               Preferred Stock w/ Warrants                   $21,000,000                                                                                                      $5.57       611,650          $3,435,502
11/21/2008   HF Financial Corp., Sioux Falls, SD                  Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000         $19.00                           $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                          Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000           $4.25                          $547,251
             Vernon, NJ2,13 ,49
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                        Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13,49
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                     $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2         Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000           $5.75                          $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                   Preferred Stock w/ Warrants                   $26,000,000                                                                                                      $3.00       833,333          $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                    Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000         $30.58                         $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2      Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                     $573,342
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2               Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                                     $337,113
             HomeTown Bankshares Corporation,
9/18/2009                                                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $4.95                        $1,456,279
             Roanoke, VA2,10
12/12/2008   HopFed Bancorp, Hopkinsville, KY                     Preferred Stock w/ Warrants                   $18,400,000                                                                                                      $7.20       253,666          $3,151,000
                                                                                                                              11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                 Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551         $26.30                         $3,106,771
                                                                                                                              8/25/2011         $18,750,000              $—
                                                       2,49
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD              Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000           $6.55                          $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a          Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                              $1,321,339
5/1/2009     HPK Financial Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                  Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000           $6.40                     $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                     Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                                     $277,131
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                     Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                                     $837,500
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                 Subordinated Debentures                        $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                         $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                Preferred Stock w/ Warrants                   $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000         $50.45                         $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                       Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                                     $391,980
3/13/2009    IBW Financial Corporation , Washington, DC2,3a,30    Preferred Stock                                $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A        $10.50                           $453,067
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




3/6/2009     ICB Financial, Ontario, CA2                          Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                      $3.76                        $1,043,675
1/16/2009    Idaho Bancorp, Boise, ID2                            Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                      $0.02                          $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49        Preferred Stock w/ Exercised Warrants          $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                              $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49    Preferred Stock w/ Exercised Warrants          $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             247
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)                                                                                                                                                                        248
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/9/2009     Independence Bank, East Greenwich, RI2               Preferred Stock w/ Exercised Warrants          $1,065,000                                                                                                                                     $194,367
1/9/2009     Independent Bank Corp., Rockland, MA                 Preferred Stock w/ Warrants                   $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000         $29.21                         $1,118,094
                                                                  Mandatorily Convertible Preferred
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                          $74,426,000                                                                                                      $2.47       346,154          $2,430,000
                                                                  Stock w/ Warrants
4/24/2009    Indiana Bank Corp., Dana, IN2                        Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                                                                     $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN              Preferred Stock w/ Warrants                   $21,500,000                                                                                                    $22.05        188,707          $3,681,875
2/27/2009    Integra Bank Corporation, Evansville, IN14,57        Preferred Stock w/ Warrants                   $83,586,000                                                                                                                7,418,876          $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID       Preferred Stock w/ Warrants                   $27,000,000                                                                                                      $1.05       653,226          $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX     Preferred Stock w/ Warrants                 $216,000,000                                                                                                     $19.52      1,326,238         $36,660,000
12/23/2008   Intervest Bancshares Corporation, New York, NY       Preferred Stock w/ Warrants                   $25,000,000                                                                                                      $3.83       691,882          $1,118,056
             Investors Financial Corporation of Pettis County,    Subordinated Debentures
5/8/2009                                                                                                         $4,000,000                                                                                                                                     $174,325
             Inc., Sedalia, MO8                                   w/ Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                   Preferred Stock w/ Warrants               $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $936,063,469          $35.73                      $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49           Preferred Stock w/ Exercised Warrants         $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000         $13.00                         $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                               Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000           $7.74                     $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2            Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                       $80,900
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I July 25, 2012




8/21/2009    KS Bancorp, Inc., Smithfield, NC2                    Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                      $4.00                          $595,867
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30              Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                                $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30          Preferred Stock                                $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                              8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                Preferred Stock w/ Warrants                   $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.52                         $6,460,833
                                                                                                                              2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN           Preferred Stock w/ Warrants                   $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557         $26.83                         $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2          Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $393,763
1/9/2009     LCNB Corp., Lebanon, OH                              Preferred Stock w/ Warrants                   $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557         $13.33                           $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                 Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                          $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53              Preferred Stock                                $5,498,000                                                                                                                                     $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50          Preferred Stock w/ Exercised Warrants         $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                        $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50        Preferred Stock w/ Exercised Warrants         $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                        $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10         Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                                     $838,516
             Liberty Financial Services, Inc., New Orleans,
2/6/2009                                                          Preferred Stock                                $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                         $461,009
             LA3,30
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                Preferred Stock w/ Exercised Warrants         $17,280,000                                                                                                                                   $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA             Preferred Stock w/ Warrants                 $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $213,671,319          $21.87                        $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH 88                      Preferred Stock w/ Warrants                   $25,223,000   6/13/2012         $21,863,750              $—                                                      $6.58       561,343          $4,438,492
2/6/2009     Lone Star Bank, Houston, TX2                         Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                           $—
12/12/2008   LSB Corporation, North Andover, MA                   Preferred Stock w/ Warrants                   $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                                          $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30               Preferred Stock                               $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                         $674,763
             M&T Bank Corporation (Provident Bancshares
12/23/2008                                                        Preferred Stock w/ Warrants                 $600,000,000    5/18/2011        $370,000,000     $230,000,000                                                   $82.57        407,542          $9,489,792
             Corp.), Baltimore, MD
11/14/2008   M&T Bank Corporation, Buffalo, NY                    Preferred Stock w/ Warrants                 $151,500,000                                                                                                                 1,218,522       $100,531,250
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                        Preferred Stock w/ Warrants                 $330,000,000    5/13/2011        $330,000,000              $—                                                                   95,383         $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI       Preferred Stock w/ Warrants                   $11,000,000                                                                                                      $5.99       379,310          $1,682,083
3/13/2009    Madison Financial Corporation, Richmond, KY2         Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                                     $169,422
                                                                                                                              11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                          Preferred Stock w/ Exercised Warrants         $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                        $1,661,468
                                                                                                                              8/18/2011           $6,885,000             $—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2, 73           Preferred Stock w/ Exercised Warrants          $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000         $69.50                           $538,188
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN78   Preferred Stock w/ Warrants                   $57,000,000   3/28/2012         $52,277,171              $—                                                    $11.83        571,906          $9,159,773
12/5/2008    Manhattan Bancorp, El Segundo, CA                    Preferred Stock w/ Warrants                    $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364           $3.85                           $66,347
                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                    Subordinated Debentures
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                            $2,639,000                                                                                                                                     $643,345
                                                                    w/ Exercised Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                                     $138,778
                                                                    Subordinated Debentures
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                      $20,300,000                                                                                                                                   $5,109,510
                                                                    w/ Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2           Preferred Stock w/ Exercised Warrants         $35,500,000                                                                                                   $107.00                         $6,588,899
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                     $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                                     $197,653
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                 $196,000,000    3/14/2012        $196,000,000              $—     5/2/2012        R           $1,518,072         $21.54                        $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants          $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                          $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants         $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000
                                                                                                                                                                                                                                                                $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants          $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
                                                                                                                                4/4/2012          $10,500,000      $10,500,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                   $21,000,000                                                                                                    $18.45        616,438          $3,166,021
                                                                                                                                6/6/2012          $10,500,000              $—
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants          $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                          $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants          $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                          $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc., Toone,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants          $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                          $256,560
             TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants          $6,200,000
                                                                                                                                                                                                                                                                $1,869,051
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                $6,335,000
                                              2
1/30/2009    Metro City Bank, Doraville, GA                         Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                                                   $1,381,348
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX95              Preferred Stock w/ Warrants                   $45,000,000   6/27/2012         $43,490,360              $—                                                    $10.67        771,429          $7,528,750
             Metropolitan Bank Group, Inc.
6/26/2009                                                           Preferred Stock w/ Exercised Warrants         $74,706,000                                                                                                                                     $332,256
             (NC Bancorp, Inc.), Chicago, IL2,41
                                                          2,41
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL             Preferred Stock w/ Exercised Warrants          $7,186,000                                                                                                                                   $3,454,185
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants          $2,040,000
                                                                                                                                                                                                                                                                  $636,219
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                   $10,000,000                                                                                                    $10.95         73,099          $1,702,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                   $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                          $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants         $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                          $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                   $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                        $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants          $5,222,000                                                                                                                                     $275,105
                                                                    Mandatorily Convertible Preferred
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                   $89,388,000                                                                                                                4,282,020            $824,289
                                                                    Stock w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                           $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                   $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000         $21.50                         $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $6.00                        $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2,84              Preferred Stock w/ Exercised Warrants          $7,260,000                                                                                                                                     $343,053
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3        Preferred Stock                                $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A          $3.01                          $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30             Preferred Stock                                $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                         $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants          $1,834,000                                                                                                      $4.95                          $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                    $6,785,000                                                                                                      $1.21       260,962            $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                   $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000           $9.85                          $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                        $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                          $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000          $14.59                      $318,055,555
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants         $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                        $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants          $6,216,000   4/25/2012           $1,100,000      $5,116,000                                                                                  $1,118,716
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2       Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                     $474,604
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               249
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)                                                                                                                                                                         250
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                        $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50              Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194         $10.50                         $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                      Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2             Preferred Stock w/ Exercised Warrants         $24,664,000                                                                                                                                   $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000           $9.55                       $16,958,333
                                                                    Subordinated Debentures
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                          $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                          $176,190
                                                                    w/ Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $1.96                        $1,311,028
                                                                    Subordinated Debentures
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                                     $568,199
                                                                    w/ Exercised Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100         $12.75                         $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                   $48,797,641
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                   $52,372,000                                                                                                      $4.38     2,567,255          $8,968,705
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                        $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000         $30.55                         $1,494,583
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                                      $8.48        67,958            $723,874
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                                  $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                   $17,211,000                                                                                                      $0.82       584,084            $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000         $46.02                        $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000         $11.35                         $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                     $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                     $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                                      $4.54       163,830          $1,267,292
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000           $6.96                        $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797         $14.36                         $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                      $5.25                          $316,463
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000         $10.27                           $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000         $12.01                         $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                   $73,000,000                                                                                                      $1.30       815,339          $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                      $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                           $—
                                                                    Subordinated Debentures
6/5/2009     OneFinancial Corporation , Little Rock, AR8,10                                                       $17,300,000                                                                                                                                   $3,782,991
                                                                    w/ Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                               $12,063,000                                                                                                                                      $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                      $8.00                          $536,095
                                                                    Subordinated Debentures w/ Exercised
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                        $1,257,315
                                                                    Warrants
                                                           29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA             Common Stock w/ Warrants                    $195,045,000                                                                                                     $45.73         15,120          $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                     $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                        $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A                                          $18,088
             San Clemente, CA2,19
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                      $3.49                          $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                                      $1.99                          $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants         $23,200,000                                                                                                                                   $4,035,543
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000    4/25/2012        $100,000,000              $—     5/2/2012        R           $2,842,400         $69.75                        $16,694,444
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                   $16,288,000                                                                                                      $5.21       399,006          $2,680,733
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                          Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                          $553,313
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                 Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                      $0.62                          $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633           $9.00                          $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                          Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                      $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                   $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants           $3,690,000   3/7/2012             $250,000       $3,440,000                                                                                    $635,844
                                                                                                                               1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000         $15.51                         $3,280,740
             Gladstone, NJ
                                                                                                                               1/11/2012         $14,341,000              $—
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                     $6,000,000                                                                                                                   81,670          $1,008,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                        $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                        $2,425,250
                                                                                                                               2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724         $21.98                         $4,725,833
                                                                                                                               12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                        Preferred Stock w/ Warrants                    $25,054,000   6/27/2012         $23,033,635              $—                                                      $7.95       357,234          $4,252,221
             Newton, NC93
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2,83         Preferred Stock w/ Exercised Warrants          $12,660,000   4/24/2012         $12,660,000              $—     4/24/2012       R             $633,000                                        $2,069,910
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2     Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                                     $670,123
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                   $2,143,811
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                          $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                         $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                     $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                  267,455            $284,999
             Orange City, FL2
                                                                                                                               12/28/2011        $23,750,000      $71,250,000
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                    $95,000,000                                                                                                    $19.51                        $16,163,194
                                                                                                                               6/20/2012         $71,250,000              $—
12/19/2008   Plains Capital Corporation, Dallas, TX2,49           Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                       $13,239,940
                                                                  Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                              $2,500,000                                                                                                                                     $534,286
                                                                  Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                           Preferred Stock w/ Warrants                    $11,949,000                                                                                                      $3.12       237,712            $622,344
12/5/2008    Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                     $16.61      2,093,284       $148,171,528
11/21/2008   Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                      $1.51       330,561          $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                     $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                         $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2       Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                     $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV      Preferred Stock w/ Warrants                    $22,252,000                                                                                                      $7.35       628,588          $2,924,868
                                                                  Subordinated Debentures
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                     $522,263
                                                                  w/ Exercised Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                      $1.45                           $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                     Preferred Stock w/ Warrants                    $41,400,000                                                                                                      $1.37       109,039          $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                 Preferred Stock w/ Exercised Warrants          $10,800,000                                                                                                      $7.75                        $1,415,219
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL      Preferred Stock w/ Warrants                    $25,083,000                                                                                                      $0.20       155,025          $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                 $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                    Preferred Stock w/ Warrants                  $243,815,000                                                                                                     $14.76        645,013         $40,127,885
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                          $421,312
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




             Provident Community Bancshares, Inc.,
3/13/2009                                                         Preferred Stock w/ Warrants                     $9,266,000                                                                                                      $0.16       178,880            $543,091
             Rock Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30              Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                          $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                   Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000           $9.75                          $630,157
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              251
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)                                                                                                                                                                         252
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO96              Preferred Stock w/ Warrants                   $32,538,000   6/27/2012         $28,460,338              $—                                                      $7.41       778,421          $5,418,481
2/13/2009    QCR Holdings, Inc., Moline, IL49                       Preferred Stock w/ Warrants                   $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000         $13.10                         $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2           Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                     $608,163
6/19/2009    RCB Financial Corporation, Rome, GA2,10                Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                     $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000           $7.00                          $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49          Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000         $11.60                           $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                       Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                     $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49             Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                          $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69         Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                        $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2             Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                     $266,142
11/14/2008   Regions Financial Corporation, Birmingham, AL          Preferred Stock w/ Warrants                $3,500,000,000   4/4/2012        $3,500,000,000             $—     5/2/2012        R          $45,000,000           $6.75                     $593,055,555
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2              Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                      $0.70                        $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2   Preferred Stock w/ Exercised Warrants         $10,900,000                                                                                                                                     $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                    Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                     $195,637
                                                                    Subordinated Debentures
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                       $15,000,000   6/6/2012          $10,500,000       $4,500,000                                                   $15.64                         $3,728,275
                                                                    w/ Exercised Warrants
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                    Subordinated Debentures
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                          $1,100,000                                                                                                                                     $276,870
                                                                    w/ Exercised Warrants
                                                         2
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR               Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                     $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                           Preferred Stock w/ Warrants                   $30,407,000                                                                                                      $1.81     1,104,370            $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                               Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                    $18.47        517,012         $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                 Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                      $0.66                                $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49               Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000         $24.65                         $1,079,960
                                                                                                                                7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                  Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000         $18.00                         $7,593,868
                                                                                                                                12/15/2010        $41,547,000              $—
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA2        Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                      $5.26                          $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                  Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A          $0.34                          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                    Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                          $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC               Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000         $35.25                         $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                          Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—     5/30/2012       R              $55,000           $1.49                        $8,585,770
             Stuart, FL77
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49            Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000           $4.25                          $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                           Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                                     $381,942
             Waynesville, MO2
                                                             2,49
1/9/2009     Security Business Bancorp, San Diego, CA               Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                          $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49         Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000           $9.65                          $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30    Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                        $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30              Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                      $8.50       137,966          $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49    Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                        $1,763,680
             Security State Bank Holding-Company,                   Subordinated Debentures
5/1/2009                                                                                                          $10,750,000                                                                                                                                   $1,414,005
             Jamestown, ND8                                         w/ Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                    Preferred Stock w/ Warrants                   $23,393,000                                                                                                      $3.12       556,976          $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                     Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000           $5.98       172,970            $333,333

                                                     8              Subordinated Debentures
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                          $209,588
                                                                    w/ Exercised Warrants
12/12/2008   Signature Bank, New York, NY                           Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,150,940         $60.97                         $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ              Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000           $8.50                          $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                  Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                     $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2              Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                      $4.30                          $560,656
12/5/2008    South Financial Group, Inc., Greenville, SC26          Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                       $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2    Preferred Stock w/ Exercised Warrants         $12,900,000                                                                                                      $4.00                          $933,494
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                         (Continued)
                                                                                                                                     Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                Preferred Stock                                $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                         $855,556
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                    $42,750,000                                                                                                      $3.16     1,623,418          $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC98          Preferred Stock w/ Warrants                    $17,299,000   6/27/2012         $15,403,722              $—                                                      $8.50       399,970          $2,782,256
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                          $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                          $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49        Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                    $21.50        114,326          $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                      $1.75                          $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                    $70,000,000                                                                                                      $9.41       703,753          $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                        $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                   $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                     $518,658
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                   $6,730,750
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                        $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $—
                                                           2,30
2/13/2009    State Capital Corporation, Greenwood, MS                   Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                        $1,330,709
10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000         $44.64                        $63,611,111
                                                                        Subordinated Debentures
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                        $5,350,442
                                                                        w/ Exercised Warrants

                                                              8,10,50   Subordinated Debentures
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                        $1,728,673
                                                                        w/ Exercised Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                    $12.48        302,623          $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775           $9.98                        $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009          125,198,000              $—     6/9/2010        A           $2,857,915                                        $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24              Common Stock w/ Warrants                     $303,000,000                                                                                                     $18.89         97,541          $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398           $4.60                        $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                        $1,755,554
                                                                                                                                     3/16/2011         $11,568,000              $—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                     $634,609
                                                                        Subordinated Debentures
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                            $15,000,000                                                                                                                                   $2,083,520
                                                                        w/ Exercised Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000           $5.75                        $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000           $2.68                        $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                      $24.23                      $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $15,996,899
12/5/2008    Superior Bancorp Inc., Birmingham, AL17,54                 Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                1,923,792          $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000           $9.00                          $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179         $10.28                        $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $—
4/10/2009    SV Financial, Inc., Sterling, IL2                          Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                          $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000         $58.72                        $12,109,028
                                                                        Subordinated Debentures
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                        $2,693,234
                                                                        w/ Exercised Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                       $1.98    15,510,737       $164,806,753
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                      $0.04                          $253,122
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




11/21/2008   Taylor Capital Group, Rosemont, IL86                       Preferred Stock w/ Warrants                  $104,823,000    6/13/2012         $92,254,460              $—                                                    $16.39      1,462,647         $18,751,438
                                                                        Subordinated Debentures
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                        $1,599,381
                                                                        w/ Exercised Warrants
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    253
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)                                                                                                                                                                         254
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                          Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                                     $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                Preferred Stock w/ Warrants                 $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,449,981         $11.48                         $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                     Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                          $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70      Preferred Stock w/ Warrants                   $30,000,000                                                                                                                  461,538          $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX            Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,559,066         $40.39                         $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2      Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                          $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                  Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                        $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                     Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985           $9.43                        $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                 Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                         $169,834

             The Bank of Kentucky Financial Corporation,                                                                       12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                          Preferred Stock w/ Warrants                   $34,000,000                                                                                                    $26.64        274,784          $3,940,694
             Crestview Hills, KY                                                                                               11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                         Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000          $21.95                        $95,416,667
             New York, NY
                                                          2
1/16/2009    The Baraboo Bancorporation, Baraboo, WI               Preferred Stock w/ Exercised Warrants         $20,749,000                                                                                                      $4.00                        $3,766,127
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




             The Connecticut Bank and Trust Company,
12/19/2008                                                         Preferred Stock w/ Warrants                    $5,448,000   4/19/2012           $5,448,000             $—     4/19/2012       R             $792,783           $8.40                          $662,083
             Hartford, CT81
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49            Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                    $19.28        116,538          $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME             Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                   $17.00        225,904          $3,734,375
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30         Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                   54,705            $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                  Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                       $53,710
10/28/2008   The Goldman Sachs Group, Inc., New York, NY           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000          $95.86                      $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                 Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                        $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2           Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $1,387,480
             The PNC Financial Services Group Inc.,
12/31/2008                                                         Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $320,277,984          $61.11                      $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49   Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                          $751,752
1/9/2009     The Queensborough Company, Louisville, GA2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                     $882,900
                                                                   Subordinated Debentures
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                        $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                          $282,299
                                                                   w/ Exercised Warrants
             The Victory Bancorp, Inc. (The Victory Bank),
12/11/2009                                                         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000
             Limerick, PA2,10a,49                                                                                                                                                                                                                                $215,183
2/27/2009    The Victory Bancorp, Inc., Limerick, PA2,13,49        Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                          Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                   $1,024,491
             National Bank & Trust), Orlando, FL2,13
                                            32
12/5/2008    TIB Financial Corp, Naples, FL                        Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000         $10.83                         $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC         Preferred Stock w/ Warrants                   $14,448,000                                                                                                                  571,821          $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                     $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                 Preferred Stock w/ Warrants                   $16,641,000                                                                                                      $5.05                        $1,952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                 Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $—     4/4/2012        R             $106,000                                          $346,491
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2              Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $713,950
12/12/2008   TowneBank, Portsmouth, VA50                           Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                    $14.00        554,330         $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36              Warrants                                       $3,268,000   2/15/2011            $500,000              $—                                                      $0.25     3,098,341            $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                          $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49     Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                        $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2         Preferred Stock w/ Exercised Warrants         $35,539,000                                                                                                                                   $6,107,966
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30          Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                         $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2      Preferred Stock w/ Exercised Warrants         $23,000,000                                                                                                                                   $4,036,268
4/3/2009     TriSummit Bank, Kingsport, TN2                        Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                                 $977,440
12/22/2009   TriSummit Bank, Kingsport, TN2,10a                    Preferred Stock                                $4,237,000
                                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)
                                                                                                                                 Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000         $24.48                        $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000         $15.10                         $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000          $32.16                      $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                     $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                        $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                Preferred Stock w/ Warrants                 $298,737,000                                                                                                                 7,847,732          $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                     Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000         $13.16                        $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50              Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011       R             $160,000
                                                                                                                                                                                                                                                                   $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49          Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                              2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM            Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                                     $272,969
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                       $5,239,859
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                  $14.45
             Union First Market Bankshares Corporation (Union
12/19/2008                                                           Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                        $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                    Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                           $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI91                    Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $—                                                      $9.01       311,492          $3,527,704
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                           Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                  108,264            $872,639
             Atmore, AL30

                                                         8           Subordinated Debentures
5/22/2009    United Bank Corporation, Barnesville, GA                                                              $14,400,000                                                                                                                                   $3,600,991
                                                                     w/ Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA           Preferred Stock w/ Warrants                 $180,000,000                                                                                                       $8.57       219,908         $31,018,750

             United Financial Banking Companies, Inc.,                                                                           12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000         $16.94                           $708,964
             Vienna, VA2,49                                                                                                      9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                   $20,649,000                                                                                                      $6.00                        $3,556,217
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                   $1,608,159
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                       $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                      $4.50                          $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $3.95                        $1,849,972
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000         $11.00                         $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                      $1.70                          $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                   $16,019,000                                                                                                                  344,742          $2,781,430
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                                          $124,775
             Saginaw, MI2,49
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68         Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                   $5,572,353
                                                                                                                                 6/3/2009          $75,000,000     $225,000,000
                                                                                                                                                                                   5/18/2010       A           $5,421,615         $10.60        488,847
11/14/2008   Valley National Bancorp, Wayne, NJ                      Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000                                                                                 $12,979,167
                                                                                                                                 12/23/2009       $100,000,000              $—
             Veritex Holdings, Inc.
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                          $353,796
             (Fidelity Resources Company), Dallas, TX2,40
             Village Bank and Trust Financial Corp,
5/1/2009                                                             Preferred Stock w/ Warrants                   $14,738,000                                                                                                      $1.25       499,029          $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                   $71,000,000                                                                                                      $8.43     2,696,203         $12,158,750
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                     $725,020
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                     $250,019
12/19/2008   VIST Financial Corp., Wyomissing, PA                    Preferred Stock w/ Warrants                   $25,000,000                                                                                                    $11.62                         $4,256,944
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                       $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants         $12,000,000   4/4/2012            $3,000,000      $9,000,000                                                                                  $1,544,026
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                        $1,023,611
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000         $13.90                         $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,388,874         $16.89                         $5,361,111
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                255
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (Continued)                                                                                                                                                                                                        256
                                                                                                                                         Capital                                                      Final                                                     Stock           Current             Dividends/
Purchase                                                                                                                                 Repayment         Capital Repayment           Remaining      Disposition                   Final Disposition      Price as of      Outstanding        Interest Paid to
Date            Institution                                             Investment Description                   Investment Amount       Date                 Amount (Loss)6       Capital Amount     Date              Note15             Proceeds       6/29/2012           Warrants                Treasury
                WashingtonFirst Bankshares, Inc. (WashingtonFirst
10/30/2009                                                              Preferred Stock                                   $6,842,000     8/4/2011                  $6,842,000                   $—    N/A                                         N/A
                Bank), Reston, VA2,10a,49                                                                                                                                                                                                                                                          $1,510,318
1/30/2009       WashingtonFirst Bankshares, Inc., Reston, VA2,13,49     Preferred Stock w/ Exercised Warrants             $6,633,000     8/4/2011                  $6,633,000                   $—    8/4/2011             R                $332,000
6/26/2009       Waukesha Bankshares, Inc., Waukesha, WI2,10             Preferred Stock w/ Exercised Warrants             $5,625,000                                                                                                                                                                 $855,616
                                                                                                                                         3/3/2010                $100,000,000        $300,000,000
11/21/2008      Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                    $400,000,000      10/13/2010              $100,000,000        $200,000,000     6/2/2011             A            $20,388,842            $21.66                             $36,944,444
                                                                                                                                         12/29/2010              $200,000,000                   $—
10/28/2008      Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants                 $25,000,000,000      12/23/2009          $25,000,000,000                    $—    5/20/2010            A           $840,374,892            $33.44                          $1,440,972,222
12/5/2008       WesBanco, Inc., Wheeling, WV                            Preferred Stock w/ Warrants                      $75,000,000     9/9/2009                 $75,000,000                   $—    12/23/2009           R                $950,000           $21.26                              $2,854,167
12/31/2008      West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                      $36,000,000     6/29/2011                $36,000,000                   $—    8/31/2011            R                $700,000             $9.51                             $4,495,000
                                                                                                                                         9/2/2009                 $41,863,000         $41,863,000
2/13/2009       Westamerica Bancorporation, San Rafael, CA              Preferred Stock w/ Warrants                      $83,726,000                                                                  11/18/2011           P                $878,256           $47.19           246,698            $2,755,981
                                                                                                                                         11/18/2009                41,863,000                   $—
                                                                   49
11/21/2008      Western Alliance Bancorporation, Las Vegas, NV          Preferred Stock w/ Warrants                    $140,000,000      9/27/2011                140,000,000                   $—    11/18/2011           P                $415,000             $9.36                            $19,950,000
                Western Community Bancshares, Inc.,
12/23/2008                                                              Preferred Stock w/ Exercised Warrants             $7,290,000                                                                                                                                                                 $554,083
                Palm Desert, CA2
12/23/2008      Western Illinois Bancshares Inc., Monmouth, IL2         Preferred Stock w/ Exercised Warrants             $6,855,000
                                                                                                                                                                                                                                                                                                   $1,811,199
                                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




12/29/2009      Western Illinois Bancshares Inc., Monmouth, IL2,10a     Preferred Stock                                   $4,567,000
5/15/2009       Western Reserve Bancorp, Inc, Medina, OH2               Preferred Stock w/ Exercised Warrants             $4,700,000                                                                                                                           $27.00                                $768,450
2/20/2009       White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants            $16,800,000                                                                                                                                                               $1,589,583
12/19/2008      Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                    $300,000,000      6/3/2011                $300,000,000                   $—    6/3/2011             R              $6,900,000                                              $36,833,333
12/12/2008      Wilshire Bancorp, Inc., Los Angeles, CA76               Preferred Stock w/ Warrants                      $62,158,000     3/28/2012                $57,766,994                   $—    6/20/2012            R                $760,000             $5.47                            $10,282,176
12/19/2008      Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                    $250,000,000      12/22/2010              $250,000,000                   $—    2/8/2011             A            $25,600,564            $35.50                             $25,104,167
5/15/2009       Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants             $2,720,000                                                                                                                                                                 $370,600
1/23/2009       WSFS Financial Corporation79                            Preferred Stock w/ Warrants                      $52,625,000     3/28/2012                $47,435,299                   $—                                                             $40.41           175,105            $8,405,558
1/16/2009       Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                      $36,000,000                                                                                                                                            273,534
                                                                                                                                                                                                                                                                 $2.65                             $4,782,227
7/24/2009       Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                      $13,312,000                                                                                                                                            385,990
4/24/2009       York Traditions Bank , York, PA2,50                     Preferred Stock w/ Exercised Warrants             $4,871,000     7/14/2011                 $4,871,000                   $—    7/14/2011            R                $244,000                                                 $590,022
11/14/2008      Zions Bancorporation, Salt Lake City, UT                Preferred Stock w/ Warrants                  $1,400,000,000      3/28/2012               $700,000,000        $700,000,000                                                              $19.42         5,789,909          $240,625,000
                                                                                                                                               Total
                                                                                                                                             Capital
                                                                                                                                          Repayment
                                                                                    Total Purchase Amount *      $204,943,827,320         Amount **       $191,259,517,808
                                                                                                                                    Total Losses***         ($2,794,703,500)
                                                                                                                     Total Treasury CPP Investment
                                                                                                                                                            $10,889,606,012                     Total Warrant Proceeds****          $7,677,500,194
                                                                                                                                       Outstanding
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numeric notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 6/30/2012.

* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup
    Common Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32, 33, 34, 38, 39, 42, 46, 47, 59, 64,
     74, 75, 76, 77, 78, 79), but excludes investment amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14, 25, 51, 52, 53, 54, 55, 56, 57, 61, 63, 70, and 71).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

                                                                                                                                                                                                                                                                                        Continued on next page
1a 
   	 This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
     $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3	
     To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a	
     Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	 Redemption pursuant to a qualified equity offering.
6
 	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.
10a
    	This institution received an additional investment through the expansion of CPP for small banks.
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
     Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
     purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
     public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
     common shares to holders of CVRs were not met.
17
   	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
     dividend rate equivalent to those of Treasury’s original investment.
19
   	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid
     dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
     and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
     note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
     the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
     on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
     time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
     public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during
     those periods.
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
   	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
     Treasury and TD entered into on 5/18/2010.
27
   	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
     the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
   	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
    	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
     between Treasury and NAFH entered into on 9/24/2010.
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
   	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
     Currituck entered into on 11/5/2010.
35
   	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
   	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
   	 On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
   	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
     Treasury and FBHC entered into on 3/9/2011.
39
    	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
     debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
     agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
     into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
   	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
     Bear State entered into on 5/3/2011.
43
   	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent warrant
                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




     issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44
   	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
     held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
45
   	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
     thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.

                                                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                                                 257
                                                                                                                                                                                                                                                                                                                            258
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
    4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
    agreement executed on 3/29/2012.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
    on 6/28/2011.
49
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 — part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
53
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
    entered into on 8/12/2011.
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
63
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
64
  	 On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on 10/20/2011.
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury
    for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
    and the acquiror entered into on 1/1/2012.
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 25, 2012




69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
    exercise of warrants) that had been issued to Treasury by Regents.
70
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
    capital plan.
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
    agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74
  	 On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
75
  	 On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
76
  	 On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
77
  	 On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
78
  	 On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
79
  	 On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
    and First Volunteer entered into on 4/13/2012.
81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
    $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.
82
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
    Treasury, Peoples, and SCBT entered into on 4/24/2012.
84
  	On 4/20/2012, Treasury entered into an agreement with CIC Bancshares, Inc. (CIC) pursuant to which Treasury agreed to sell to CIC all Preferred Stock issued by Millennium Bancorp, Inc. (Millennium) to Treasury for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on
    the Preferred Stock as of the closing date. Closing of the sale is subject to certain conditions including completion of the acquisition and merger of Millennium by CIC.
85
  	 On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
86
  	 On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
87
  	 On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	 On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
89
  	 On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
90
  	 On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
91
  	 On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
92
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.
93
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.
94
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.
95
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.
96
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.
97
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.
98
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.

Sources: Treasury, Transactions Report, 6/27/2012; Dividends and Interest Report, 7/11/2012; Treasury, response SIGTARP data call, 7/9/2012; Bloomberg, LP, accessed 7/2/2012.‑
Table D.2
CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 6/30/2012
Note      Date                                              Pricing Mechanism6                     Number of Shares                            Proceeds7
1         4/26/2010 - 5/26/2010                                             $4.12                      1,500,000,000                     $6,182,493,158
2         5/26/2010 - 6/30/2010                                             $3.90                      1,108,971,857                     $4,322,726,825
3         7/23/2010 - 9/30/2010                                             $3.91                      1,500,000,000                     $5,863,489,587
4         10/19/2010 - 12/6/2010                                            $4.26                      1,165,928,228                     $4,967,921,811
5         12/6/2010                                                         $4.35                      2,417,407,607                    $10,515,723,090
                                                                                                      Total Proceeds:                 $31,852,354,471
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes taken verbatim from 6/27/2012 Transactions Report.
1	
   On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 5/26/2010.
2	
   On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 6/30/2010.
3 
 	 On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occured on 9/30/2010.
4	
   On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
   which plan was terminated on 12/6/2010.
5	
   On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
   fulfillment of certain closing conditions.
6	
   The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the
   corresponding period.
7	
   Amount represents the gross proceeds to Treasury.

Source: Treasury, Transactions Report, 6/27/2012.
                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                             259
Table D.3                                                                                                                                                                                                                                               260
 CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                                                        Seller                                                                    Purchase Details                                                            Disposition Details

                                                                                                                                                                                     Pricing                        Remaining       Dividend/Interest
Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP   Additional Investment   Investment Amount   Mechanism         Date    Investment Amount        Paid to Treasury
       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures               $­—                    $­—           $2,234,000          Par                                              $73,349.67
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures               $­—                    $­—           $5,457,000          Par                                            $281,005.18
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures               $­—                    $­—           $2,500,000          Par                                              $82,083.33
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                       $­—                    $­—           $3,372,000          Par                                            $110,714.00
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures               $­—                    $­—           $3,297,000          Par                                            $166,370.28
1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock               $50,400,000           $30,514,000           $80,914,000          Par                                           $2,634,200.22
       9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                       $­—                    $­—           $5,250,000          Par                                            $170,916.67
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures               $­—                    $­—            $502,000           Par                                              $16,342.89
       9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures               $­—                    $­—           $3,260,000          Par                                            $106,131.11
       9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures               $­—                    $­—           $1,096,000          Par                                              $35,985.33
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $9,750.00
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures               $­—                    $­—            $145,000           Par                                               $4,760.83
       9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                              $32,833.33
       9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures               $­—                    $­—           $6,300,000          Par                                            $205,100.00
                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 25, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock                  $18,980,000                    $­—          $18,980,000          Par                                            $446,507.39
       9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                       $­—                    $­—           $5,781,000          Par                                            $192,057.67
1      8/13/2010                                                                          Preferred Stock                $7,462,000                    $­—                  $­—          Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                     $407,479.22
2a     9/17/2010                                                                          Preferred Stock                       $­—             $4,379,000          $11,841,000          Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                    $­—          $54,600,000          Par                                           $1,777,533.33
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000             $2,313,000           $4,060,000          Par                                            $111,875.56
       9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures               $­—                    $­—           $2,650,000          Par                                              $87,008.33
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures               $­—                    $­—            $450,000           Par                                              $14,650.00
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures               $­—                    $­—           $2,799,000          Par                                              $91,900.50
       9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures               $­—                    $­—           $1,522,000          Par                                              $49,549.56
       9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures               $­—                    $­—              $7,000           Par                                                 $227.89
       9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures               $­—                    $­—            $100,000           Par                                               $3,255.56
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures               $­—                    $­—           $8,044,000          Par                                            $264,111.33
       9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures               $­—                    $­—             $30,000           Par                                                 $976.67
       9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures               $­—                    $­—             $14,000           Par                                                 $455.78
1      8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                    $­—          $17,000,000          Par                                            $171,888.89
1      9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                    $­—           $5,146,000          Par                                            $168,960.33
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                    $­—           $7,875,000          Par                                            $405,518.75
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                              $32,555.56
1      9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                    $­—          $30,000,000          Par                                            $976,666.67
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                    $­—           $6,245,000          Par                                              $15,959.44
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures               $­—                    $­—           $9,278,000          Par                                            $302,050.44
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures               $­—                    $­—           $1,657,000          Par                                              $54,404.83
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $9,966.67
5      9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures               $­—                    $­—            $350,000           Par   4/10/20125                  $­—            $10,714.44
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                    $­—          $14,000,000          Par                                            $777,583.33
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures               $­—                    $­—            $100,000           Par                                               $3,255.56
       9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures               $­—                    $­—           $4,520,000          Par                                            $150,164.44
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000             $3,881,000           $8,086,000          Par                                            $421,258.14
1      9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                    $­—           $6,000,000          Par                                            $204,000.00
       9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures               $­—                    $­—            $698,000           Par                                              $22,723.78
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures               $­—                    $­—           $3,154,000          Par                                            $166,215.80
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                    $­—           $4,551,000          Par                                            $148,160.33
                                                                                                                                                                                                                              Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012                                                                   (CONTINUED)
                                                             Seller                                                                                Purchase Details                                                                                                Disposition Details
                                                                                                                                                                                                              Pricing                              Remaining        Dividend/Interest
Note       Purchase Date      Name of Institution                                                Investment Description          Amount from CPP       Additional Investment       Investment Amount       Mechanism               Date    Investment Amount         Paid to Treasury
           9/24/2010          Liberty County Teachers Federal Credit Union, Liberty, TX          Subordinated Debentures                        $­—                       $­—                $435,000               Par                                                   $14,282.50
1, 2       9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                  Preferred Stock                        $5,645,000                $5,689,000              $11,334,000               Par                                                  $372,133.00
           9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY        Subordinated Debentures                        $­—                       $­—                $898,000               Par                                                   $29,484.33
1          8/20/2010          M&F Bancorp, Inc., Durham, NC                                      Preferred Stock                      $11,735,000                         $­—             $11,735,000               Par                                                  $407,465.28
1          8/20/2010                                                                             Preferred Stock                        $5,500,000                        $­—                       $­—             Par
                              Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                     $349,754.22
2a         9/24/2010                                                                             Preferred Stock                                $­—               $4,836,000              $10,336,000               Par
           9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY              Subordinated Debentures                        $­—                       $­—                $283,000               Par                                                     $9,291.83
           9/29/2010          North Side Community Federal Credit Union, Chicago, IL             Subordinated Debentures                        $­—                       $­—                $325,000               Par                                                   $10,580.56
           9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA        Subordinated Debentures                        $­—                       $­—                $350,000               Par                                                   $11,491.67
           9/29/2010          Opportunities Credit Union, Burlington, VT                         Subordinated Debentures                        $­—                       $­—              $1,091,000               Par                                                   $35,518.11
1          8/13/2010          PGB Holdings, Inc., Chicago, IL                                    Preferred Stock                        $3,000,000                        $­—              $3,000,000               Par                                                   $30,333.33
           9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                 Subordinated Debentures                        $­—                       $­—                $153,000               Par                                                     $5,023.50
1, 4       8/13/2010          Premier Bancorp, Inc., Wilmette, IL                                Subordinated Debentures                $6,784,000                        $­—              $6,784,000               Par                                                             $—
           9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                    Subordinated Debentures                        $­—                       $­—                $273,000               Par                                                     $8,963.50
1          9/29/2010          PSB Financial Corporation, Many, LA                                Preferred Stock                        $9,734,000                        $­—              $9,734,000               Par                                                  $316,895.78
           9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                           Subordinated Debentures                        $­—                       $­—              $2,500,000               Par                                                   $82,083.33
           9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ       Subordinated Debentures                        $­—                       $­—                  $31,000              Par                                                     $1,009.22
           9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                  Subordinated Debentures                        $­—                       $­—              $2,828,000               Par                                                   $92,852.67
1          9/29/2010          Security Capital Corporation, Batesville, MS                       Preferred Stock                      $17,910,000                         $­—             $17,910,000               Par                                                  $583,070.00
1, 2       9/29/2010          Security Federal Corporation, Aiken, SC                            Preferred Stock                      $18,000,000                 $4,000,000              $22,000,000               Par                                                  $716,222.22
           9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                    Subordinated Debentures                        $­—                       $­—              $2,646,000               Par                                                   $86,142.00
1, 2       8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                            Preferred Stock                      $11,000,000                $22,800,000              $33,800,000               Par                                                $1,199,900.00
           9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY             Subordinated Debentures                        $­—                       $­—              $1,709,000               Par                                                   $55,636.64
           9/29/2010          Southside Credit Union, San Antonio, TX                            Subordinated Debentures                        $­—                       $­—              $1,100,000               Par                                                   $35,811.11
1          9/29/2010          State Capital Corporation, Greenwood, MS                           Preferred Stock                      $15,750,000                         $­—             $15,750,000               Par                                                  $512,750.00
1, 2       9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                        Preferred Stock                        $5,000,000               $12,123,000              $17,123,000               Par                                                  $557,448.78
           9/29/2010          The Magnolia State Corporation, Bay Springs, MS                    Subordinated Debentures                        $­—                       $­—              $7,922,000               Par                                                  $399,752.92
                              Thurston Union of Low-Income People (TULIP) Cooperative Credit
           9/24/2010                                                                             Subordinated Debentures                        $­—                       $­—                  $75,000              Par                                                     $2,462.50
                              Union, Olympia, WA
           9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                        Subordinated Debentures                        $­—                       $­—              $1,600,000               Par                                                   $52,533.33
1          8/13/2010          Tri-State Bank of Memphis, Memphis, TN                             Preferred Stock                        $2,795,000                        $­—              $2,795,000               Par                                                   $98,135.56
           9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA                Subordinated Debentures                        $­—                       $­—                $424,000               Par                                                   $13,921.33
           9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN          Subordinated Debentures                        $­—                       $­—                  $10,000              Par                                                       $328.33
           9/29/2010          Union Settlement Federal Credit Union, New York, NY                Subordinated Debentures                        $­—                       $­—                $295,000               Par                                                     $9,603.89
1          9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                 Preferred Stock                      $10,300,000                         $­—             $10,300,000               Par                                                  $350,200.00
                              UNITEHERE Federal Credit Union, (Workers United Federal Credit
           9/29/2010                                                                             Subordinated Debentures                        $­—                       $­—                  $57,000              Par                                                     $1,855.67
                              Union), New York, NY
1, 2       7/30/2010          University Financial Corp, Inc., St. Paul, MN                      Subordinated Debentures              $11,926,000                $10,189,000              $22,115,000               Par                                                $1,228,303.96
           9/24/2010          UNO Federal Credit Union, New Orleans, LA                          Subordinated Debentures                        $­—                       $­—                $743,000               Par                                                   $24,395.17
           9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                  Subordinated Debentures                        $­—                       $­—              $1,229,000               Par                                                   $40,010.78
           9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA               Subordinated Debentures                        $­—                       $­—              $1,915,000               Par                                                   $62,875.83
                                                                                                                                                              Total Purchase                                  Total Capital Repayment
                                                                                                                                                                                        $570,073,000                                                 $350,000
                                                                                                                                                                     Amount                                                    Amount
                                                                                                                                          TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                              $569,723,000
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 25, 2012




2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
    On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and
    previously unpaid dividends were paid on the date of the exchange.
4	
    On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation — Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
5	
    Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.
                                                                                                                                                                                                                                                                                         261
Table D.4                                                                                                                                                                                                                                                                                                       262
 AIFP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                       Treasury Investment After
                                              Initial Investment                              Exchange/Transfer/Other Details                                          Exchange/Transfer/Other                                                               Payment or Disposition1
                                                                                                                                                                                                                                                                               Remaining
                           Trans-                                                                                                                                                                                                                           Remaining         Investment           Dividend/
                           action                                                                                                                                                                  Amount/                                     Amount/     Investment           Amount/      Interest Paid to
               Date        Type      Seller         Description               Amount Note Date             Type                           Amount Note Obligor           Note Description           Equity % Date                 Type          Proceeds    Description          Equity %            Treasury
                                                    Preferred Stock                                      Exchange for
               12/29/2008 Purchase GMAC             w/ Exercised       $5,000,000,000         12/30/2009 convertible preferred     $5,000,000,000                             Convertible
                                                                                                                                                                        21,
                                                    Warrants                                             stock                                           GMAC (Ally)          Preferred     $5,937,500,000
                                                                                                                                                                        22
                                                                                                                                                                              Stock
                                                    Convertible
                                                                                                         Partial conversion of
                                                    Preferred Stock
               5/21/2009   Purchase GMAC                               $7,500,000,000   22    12/30/2009 preferred stock for       $3,000,000,000
                                                    w/ Exercised
                                                                                                         common stock
                                                    Warrants
GMAC (Ally),                                                                                                                                                             3,
                                                                                                                                                                              Common                                                                                                         $2,870,909,382
Detroit, MI                                         Convertible                                                                                          GMAC (Ally)    26,                          73.8%
                                                                                                         Partial conversion of                                                Stock
                                                    Preferred Stock                     22,                                                                             32
               12/30/2009 Purchase GMAC                                $1,250,000,000         12/30/2010 preferred stock for       $5,500,000,000   26
                                                    w/ Exercised                        26
                                                                                                         common stock
                                                    Warrants
                                                    Trust Preferred                                        Exchange for
                                                                                                                                                                              Trust
                                                    Securities                                             amended and
               12/30/2009 Purchase GMAC                                $2,540,000,000         3/1/2011                             $2,670,000,000   27   GMAC (Ally)     27   Preferred     $2,670,000,000 3/2/2011       Disposition28   $2,667,000,000           N/A                 $—
                                                    w/ Exercised                                           restated Trust
                                                                                                                                                                              Securities
                                                    Warrants                                               Preferred Securities
                                   General
                                                                                                           Exchange for equity
               12/29/2008 Purchase Motors      Debt Obligation          $884,024,131    2     5/29/2009                             $884,024,131    3
                                                                                                           interest in GMAC
                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                   Corporation
                                                                                                           Exchange for
                                   General     Debt Obligation
                                                                                                           preferred and
               12/31/2008 Purchase Motors      w/ Additional          $13,400,000,000         7/10/2009                           $13,400,000,000   7
                                                                                                           common stock in
                                   Corporation Note
                                                                                                           New GM
                                                                                                           Exchange for
                                    General     Debt Obligation                                                                                          General        10,
                                                                                                           preferred and                                                      Preferred
               4/22/2009   Purchase Motors      w/ Additional          $2,000,000,000   4     7/10/2009                            $2,000,000,000   7    Motors         11,                 $2,100,000,000 12/15/2010      Repayment      $2,139,406,778           N/A                 $—
                                                                                                           common stock in                                                    Stock
                                    Corporation Note                                                                                                     Company        24
                                                                                                           New GM

                                                                                                           Exchange for                                                                                                         Partial                       Common
                                    General     Debt Obligation                                                                                          General        10,                                  11/18/2010                 $11,743,303,903                           36.9%
                                                                                                           preferred and                                                      Common                                      Disposition25                         Stock
               5/20/2009   Purchase Motors      w/ Additional          $4,000,000,000   5     7/10/2009                            $4,000,000,000   7    Motors         11,                          60.8%
                                                                                                           common stock in                                                    Stock                                             Partial                       Common
                                    Corporation Note                                                                                                     Company        25                                   11/26/2010                   $1,761,495,577                         32.04%
                                                                                                           New GM                                                                                                         Disposition25                         Stock
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             7/10/2009                     $360,624,198                   $6,711,864,407
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/18/2009                   $1,000,000,000                  $5,711,864,407
                                                                                                           Exchange for                                  General                                                           Repayment                         Obligation
                                    General     Debt Obligation                                                                                                                                                                                                                               $756,714,508
                                                                                                           preferred and                                 Motors         11,   Debt
               5/27/2009   Purchase Motors      w/ Additional           $360,624,198    6     7/10/2009                             $360,624,198    7                                       $7,072,488,605                     Partial                            Debt
                                                                                                           common stock in                               Holdings       12    Obligation                     1/21/2010                      $35,084,421                   $5,676,779,986
                                    Corporation Note                                                                                                                                                                       Repayment                         Obligation
                                                                                                           New GM                                        LLC
General
Motors,b,c                                                                                                                                                                                                                     Partial                            Debt
                                                                                                                                                                                                             3/31/2010                    $1,000,000,000                  $4,676,779,986
Detroit, MI                                                                                                                                                                                                                Repayment                         Obligation
                                                                                                                                                                                                             4/20/2010     Repayment      $4,676,779,986           N/A                 $—
                                                                                                           Exchange for
                                    General     Debt Obligation
                                                                                                           preferred and
               6/3/2009    Purchase Motors      w/ Additional         $30,100,000,000   8     7/10/2009                           $22,041,706,310   9
                                                                                                           common stock in
                                    Corporation Note
                                                                                                           New GM
                                                                                                           Transfer of debt to
                                                                                              7/10/2009                            $7,072,488,605   9
                                                                                                           New GM
                                                                                                                                                         Motors
                                                                                                                                                                              Debt                                             Partial                            Debt
                                                                                              7/10/2009    Debt left at Old GM      $985,805,085    9    Liquidation     29                  $985,805,085 3/31/2011                         $50,000,000                    $935,805,085
                                                                                                                                                                              Obligation                                   Repayment                         Obligation
                                                                                                                                                         Company
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             4/5/2011                       $45,000,000                    $890,805,085
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             5/3/2011                       $15,887,795                    $874,917,290
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/16/2011                        $144,444                    $874,772,846
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/23/2011                     $18,890,294                    $855,882,552
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             1/11/2012                       $6,713,489                    $849,169,063
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                                                                                       Continued on next page
AIFP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)
                                                                                                                                                               Treasury Investment After Exchange/
                                             Initial Investment                              Exchange/Transfer/Other Details                                              Transfer/Other                                                                         Payment or Disposition1
                                                                                                                                                                                                                                                                                     Remaining
                         Trans-                                                                                                                                                                                                                                Remaining            Investment         Dividend/
                         action                                                                                                                                                                    Amount/                                        Amount/     Investment              Amount/    Interest Paid to
             Date        Type       Seller         Description                Amount Note Date           Type                             Amount Note Obligor           Note Description           Equity % Date                    Type          Proceeds    Description             Equity %          Treasury
                                                                                                                                                                                                                                                                      Debt
                                                   Debt Obligation
                                    Chrysler                                                                                                                                                                                     Partial                         Obligation
             1/16/2009   Purchase                  w/ Additional       $1,500,000,000   13                                                                                                                  3/17/2009                           $3,499,055                      $1,496,500,945
                                    FinCo                                                                                                                                                                                    Repayment                        w/ Additional
                                                   Note
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                                            4/17/2009                          $31,810,122                      $1,464,690,823
                                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                                      Note
Chrysler                                                                                                                                                                                                                                                              Debt
FinCo,                                                                                                                                                                                                                           Partial                         Obligation
                                                                                                                                                                                                            5/18/2009                          $51,136,084                      $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                                                   Repayment                        w/ Additional
Hills, MI                                                                                                                                                                                                                                                             Note
                                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                                            6/17/2009                          $44,357,710                      $1,369,197,029
                                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                                                 Additional
                                                                                                                                                                                                            7/14/2009        Repayment       $1,369,197,029                                $­—
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                            7/14/2009     Repayment*           $15,000,000             N/A                 $­—
                                                                                                                                                                              Debt
                                                   Debt Obligation
                                    Chrysler                                                             Transfer of debt to                              Chrysler            obligation
             1/2/2009    Purchase                  w/ Additional       $4,000,000,000        6/10/2009                              $500,000,000     19                  20                   $3,500,000,000 5/14/2010       Termination     $1,900,000,000            N/A                 $­—
                                    Holding                                                              New Chrysler                                     Holding             w/ additional
                                                   Note                                                                                                                                                                              and
                                                                                                                                                                              note
                                                                                                                                                                                                                              settlement
                                                   Debt Obligation                                                                                                                                                            payment20
                                    Chrysler
             4/29/2009   Purchase                  w/ Additional                 $­—    14
                                    Holding
                                                   Note
                                                   Debt Obligation
                                    Chrysler
             4/29/2009   Purchase                  w/ Additional        $280,130,642    15                                                                                                                  7/10/2009        Repayment        $280,130,642             N/A                 $­—
                                    Holding
                                                   Note
                                               Debt Obligation                                                                                            Old Carco           Right to                                          Proceeds                          Right to
             5/1/2009    Purchase Old Chrysler w/ Additional           $1,888,153,580   16   4/30/2010   Completion               ($1,888,153,580)   23   Liquidation    23   recover                   N/A 5/10/2010        from sale of      $30,544,528         recover                 N/A
                                               Note                                                      of bankruptcy                                    Trust               proceeds                                          collateral                       proceeds
                                                                                                         proceeding; transfer
                                               Debt Obligation                                           of collateral security                                                                                                 Proceeds                          Right to
             5/20/2009   Purchase Old Chrysler w/ Additional                     $­—    17               to liquidation trust                                                                               9/9/2010         from sale of       $9,666,784         recover                 N/A
                                               Note                                                                                                                                                                             collateral                       proceeds
                                                                                                                                                                                                                                Proceeds                          Right to
                                                                                                                                                                                                            12/29/2010       from sale of       $7,844,409         recover                 N/A
Chrysler,                                                                                                                                                                                                                       collateral                       proceeds
Auburn                                                                                                                                                                                                                          Proceeds                          Right to                       $1,171,263,942
Hills, MI                                                                                                                                                                                                   4/30/2012        from sale of       $9,302,185         recover                 N/A
                                                                                                                                                                                                                                collateral                       proceeds
                                                                                                                                                                              Debt
                                                   Debt Obligation
                                                                                                                                                                              obligation
                                                   w/ Additional
                                  New                                                                    Issuance of equity in                            Chrysler      19,   w/ additional                               Repayment -
             5/27/2009   Purchase                  Note, Zero          $6,642,000,000   18   6/10/2009                                        $­—                                             $7,142,000,000 5/24/2011                       $5,076,460,000
                                  Chrysler                                                               New Chrysler                                     Group LLC     31    note & zero                                    Principal
                                                   Coupon Note,
                                                                                                                                                                              coupon
                                                   Equity
                                                                                                                                                                              note
                                                                                                                                                                                                                             Termination
                                                                                                                                                                                                            5/24/2011        of undrawn      $2,065,540,000            N/A                 $­—
                                                                                                                                                                                                                                facility31
                                                                                                                                                                                                                          Repayment*
                                                                                                                                                                                                            5/24/2011      - Additional       $288,000,000
                                                                                                                                                                                                                                  Note
                                                                                                                                                                                                                         Repayment* -
                                                                                                                                                                                                            5/24/2011     Zero Coupon         $100,000,000
                                                                                                                                                                                                                                 Note
                                                                                                                                                          Chrysler            Common
                                                                                                                                                                         30                            6.6% 7/21/2011         Disposition     $560,000,000             N/A                 $­—
                                                                                                                                                          Group LLC           equity
                                                                                                                                                                                                            Additional Proceeds*                                                $403,000,000
                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




                         Total Initial Investment Amount             $81,344,932,551                                                                                                                        Total Payments                                                    $34,894,279,433
                                                                                                                                                                                                            Total Treasury Investment Amount                                  $40,896,959,538
                                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                                    263
                                                                                                                                                                                                                                                                                                                                264
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transaction Report. 											
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.										
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.																	
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC.”														
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).																
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.										
	
1
  	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.					
2
  	Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.				
3
  	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
     marked by orange line in the table above and footnote 22.)															
4
  	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.									
5
  	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.												
6
  	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
     by the new GM, as explained in footnote 10.																
7
  	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)					
8
  	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been
     disbursed by Treasury.
9
  	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
     separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.									
10
   	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)			
11
   	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
     on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.		
12
   	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.									
13
   	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.		
14
   	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.					
15
   	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.												
16
   	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
     6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.								
17
   	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
                                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




     terminated.	
18
   	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
     The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
     Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.													
19
   	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler. 										
20
   	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
     of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.						
21
   	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.											
22
   	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.				
23
   	On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
     liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.										
24
   	On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The
     repurchase was completed on 12/15/2010.																	
25
   	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
     the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
     $13,504,799,480.
26
   	On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.	
27
   	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
     received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.														
28
   	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
     accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.							
29
   	On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were transferred to
     liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.				
30
   	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
     from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On 7/21/2011, Fiat,
     through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.					
31
   	On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.											
32
   	On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.			

a
 	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.												
b
 	According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”														
c
 	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 6/27/2012; For Treasury’s web version of its Transactions Report, please refer to the following web address: www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.aspx; Treasury, Dividends and Interest Report, 7/11/2012.
Table D.5
ASSP TRANSACTION DETAIL, AS OF 6/30/2012
                       Seller                                                                                                                                                      Adjustment Details    Repayment4
                                                                                                                                                                                            Adjusted                                                     Remaining
                                                             Transaction      Investment                     Investment         Pricing        Adjustment            Adjustment           Investment                                                    Investment                                Dividend/Interest
Note      Date         Institution Name                      Type             Description                       Amount       Mechanism               Date               Amount               Amount      Date                      Type                 Description               Amount           Paid to Treasury
                                                                                                                                                                                                                                  Partial          Debt Obligation w/
                                                                                                                                                                                                         11/20/2009                                                        $140,000,000
                                                                                                                                                                                                                              repayment               Additional Note

                       GM Supplier Receivables LLC                            Debt Obligation w/                                                7/8/20093       ($1,000,000,000)      $2,500,000,000                              Partial          Debt Obligation w/
1         4/9/2009                                           Purchase                                   $3,500,000,000                N/A                                                                2/11/2010                                                         $100,000,000                 $9,087,808
                       Wilmington, DE                                         Additional Note                                                                                                                                 repayment               Additional Note
                                                                                                                                                                                                         3/4/2010         Repayment5                  Additional Note         $50,000,000
                                                                                                                                                                                       $290,000,000      4/5/2010              Payment6                        None           $56,541,893

                       Chrysler Receivables SPV LLC                           Debt Obligation w/        $1,500,000,000                N/A       7/8/20093        ($500,000,000)       $1,000,000,000     3/9/2010         Repayment5                  Additional Note      $123,076,735
2         4/9/2009                                           Purchase                                                                                                                                                                                                                                   $5,787,176
                       Wilmington, DE                                         Additional Note                                                                                          $123,076,735      4/7/2010              Payment7                        None           $44,533,054
Initial Total          $5,000,000,000                                                                                                       Adjusted Total       $413,076,735                                                                  Total Repayments           $413,076,735
                                                                                                                  Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	All outstanding principal drawn under the credit agreement was repaid.
6
 	Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.
7
 	Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.




Table D.6
TIP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                                Treasury Investment
                                                                                                                                                                                Remaining After Capital
                        Seller                                                                                                              Capital Repayment Details           Repayment                                        Final Disposition                              Market and Warrant Data
                                                                                                                                                     Capital         Capital     Remaining      Remaining             Final               Final                 Final                                    Dividends/
                        Institution        Transaction                                                     Investment         Pricing             Repayment       Repayment        Capital         Capital      Disposition         Disposition           Disposition   Stock       Outstanding     Interest Paid to
Note Date               Name               Type            Investment Description                             Amount       Mechanism                 Amount            Date2       Amount       Description          Date3          Description            Proceeds     Price    Warrant Shares            Treasury
                                                           Trust Preferred Securities w/
    1   12/31/2008      Citigroup Inc.     Purchase                                                  $20,000,000,000                 Par    $20,000,000,000      12/23/2009              $—        Warrants     1/25/2011 A             Warrants       $190,386,428 $27.41                          $1,568,888,889
                                                           Warrants
                        Bank of America
        1/16/2009                          Purchase        Preferred Stock w/ Warrants               $20,000,000,000                 Par    $20,000,000,000       12/9/2009              $—        Warrants      3/3/2010 A             Warrants     $1,236,804,513     $8.18                       $1,435,555,556
                        Corporation
                                                                                                                            Total Capital
                                                           Total Investment                          $40,000,000,000                        $40,000,000,000
                                                                                                                             Repayment
                                                                                              Total Treasury TIP Investment Amount                        $­—                                                                                        Total Warrant Proceeds     $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.
                                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                       265
Table D.7                                                                                                                                                                                                                                                                                                                                266
AGP TRANSACTION DETAIL, AS OF 6/30/2012
                         Initial Investment                                                                     Premium                                        Exchange/Transfer/Other Details                                                 Payment or Disposition                          Market and Warrant Data
                                                                                                                                                                                                                                                       Remaining                 Remaining Outstanding                      Dividends/
                         Institution       Transaction                                                                                                                                                                   Payment               Payment Premium                    Premium Warrant               Stock    Interest Paid
Note     Date            Name              Type        Description       Guarantee Limit     Description              Amount            Date               Type     Description             Amount             Date         Type                Amount Description                 Amount Shares                Price      to Treasury
                                                                                                                                                      Exchange                                                               Partial
                                                                                                                                                                             Trust                                                                         Trust
                                                                                                                                                       preferred                                                       cancellation
                                                                                                                                                                       Preferred                                                                           Preferred
                                                                                                                                   6/9/2009       stock for trust                    $4,034,000,000    12/23/2009          for early   ($1,800,000,000)                    $2,234,000,000
                                                                                                                                                                    Securities w/                                                                          Securities w/
                                                                                                                                                       preferred                                                        termination
                                                                                             Preferred                                                                 Warrants                                                                            Warrants
1,2,3,                   Citigroup Inc.,                 Master                                                                                       securities                                                      of guarantee
         1/16/2009                         Guarantee                      $5,000,000,000     Stock w/        $4,034,000,000                                                                                                                                                                                   $27.41 $442,964,764
4,5                      New York, NY                    Agreement                                                                                    Exchange                                          9/30/2010       Disposition     $2,246,000,000 Warrants                          $—
                                                                                             Warrants                                                                        Trust
                                                                                                                                                 trust preferred
                                                                                                                                                                       Preferred
                                                                                                                                 9/29/2010         securities for                    $2,246,000,000                        Warrant
                                                                                                                                                                    Securities w/                       1/25/2011                          $67,197,045 None                              $—
                                                                                                                                                 trust preferred                                                           Auction
                                                                                                                                                                       Warrants
                                                                                                                                                      securities
                                                         Termination
3        12/23/2009      Citigroup Inc.    Termination                  ($5,000,000,000)
                                                         Agreement
                                                         Total           $­—                                                                                                                                      Total Proceeds       $2,313,197,045
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
   Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
                                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I July 25, 2012




   Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
   paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.




Table D.8
TALF TRANSACTION DETAIL, AS OF 6/30/2012
                         Seller
                                                         Transaction                                                                            Pricing                 Adjusted                            Adjusted
Note       Date          Institution                     Type              Investment Description                      Investment Amount        Mechanism               Investment Date           Investment Amount
1,2        3/3/2009      TALF LLC, Wilmington, DE        Purchase          Debt Obligation w/ Additional Note             $20,000,000,000       N/A                     7/19/2010                     $4,300,000,000
                                                                           Total                                          $4,300,000,000
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan
   will be incrementally funded.
2
 	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
   $4,300,000,000.

Sources: Treasury, Transactions Report, 6/27/2012.
Table D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                     Seller                Purchase Details                                                    Exchange/Transfer Details


                     Name of               Transaction    Investment              Investment   Pricing                                                                                                                        Pricing                           Outstanding    Dividends/Interest Paid
Note    Date         Institution           Type           Description                Amount    Mechanism       Date                            Transaction Type    Investment Description                       Amount     Mechanism       Stock Price       Warrant Shares                to Treasury
                                                          Preferred Stock
                                                                                                                                                                   Preferred Stock w/
1       11/25/2008   AIG, New York, NY     Purchase       w/ Warrants        $40,000,000,000   Par             4/17/2009                       Exchange                                       1         $40,000,000,000            Par         $32.09             2,686,938                        $—
                                                                                                                                                                   Warrants (Series E)
                                                          (Series D)
                                                                                                               See table below for
                                                          Preferred Stock                                      exchange/transfer details
2, 3    4/17/2009    AIG, New York, NY     Purchase       w/ Warrants        $29,835,000,000   Par             in connection with the                                                                                                          $32.09                   150             $641,275,676
                                                          (Series F)                                           recapitalization conducted on
                                                                                                               1/14/2011.
                                                          Initial Total     $69,835,000,000
                                                                                                                                               Final Disposition
                                                                                                                                                                                         Transaction                          Pricing
                                                                                                                                               Date                Investment                                 Proceeds
                                                                                                                                                                                         Type                              Mechanism

                                                                                                                                                                   Warrants
                                                                                                                                                                   (Series E)

                                                                                                                                                                   Warrants
                                                                                                                                                                   (Series F)


                                       Recapitalization                                                    Treasury Holdings Post-Recapitalization                                                             Final Disposition
                                                                                                                                                                                                                                                           Remaining Recap
                     Investment            Transaction             Pricing                                                                                                               Transaction                                          Pricing    Investment Amount,
                                                                                                                                                                                                                                       8
Note    Date         Description           Type                    Mechanism                   Investment Description                          Amount / Shares     Date                  Type                               Proceeds       Mechanism     Shares, or Equity %
                                           Exchange                Par                         Preferred Stock (Series G)                      $2,000,000,000      5/27/2011             Cancellation                              $—             N/A                  $—10
                                                                                                                                                                   2/14/2011             Payment                          $185,726,192             Par
                                                                                                                                                                   3/8/2011              Payment                      $5,511,067,614               Par
                                                                                                                                                                   3/15/2011             Payment                           $55,833,333             Par
                                                                                                                                                                   8/17/2011             Payment                           $97,008,351             Par
                                                                                                                                                                   8/18/2011             Payment                      $2,153,520,000               Par
                                                                                               AIA Preferred Units                             $16,916,603,568                                                                                                          $—
                                                                                                                                                                   9/2/2011              Payment                           $55,885,302             Par
                     Preferred Stock
4,7,8   1/14/2011                          Exchange                N/A                                                                                             11/1/2011             Payment                          $971,506,765             Par
                     (Series F)
                                                                                                                                                                   3/8/2012              Payment                      $5,576,121,382               Par
                                                                                                                                                                   3/15/2012             Payment                      $1,521,632,096               Par
                                                                                                                                                                   3/22/2012             Payment                      $1,493,250,339               Par
                                                                                                                                                                   2/14/2011             Payment                      $2,009,932,072               Par
                                                                                               ALICO Junior Preferred Interests                $3,375,328,432      3/8/2011              Payment                      $1,383,888,037               Par                  $—
                                                                                                                                                                   3/15/2012             Payment                           $44,941,843             Par
                                           Exchange
                                                                                                                                                                                         Partial                                                            1,455,037,962 9
                     Preferred Stock                                                                                                           $167,623,733        5/24/2011                                          $5,800,000,000              N/A
5       1/14/2011                          Exchange                N/A                                                                                                                   Disposition
                     (Series E)                                                                                                                                                                                                                                         77%


                                                                                                                                                                                         Partial                                                             1,248,141,41011
                                                                                                                                                                   3/8/2012                                           $6,000,000,008              N/A
                                                                                                                                                                                         Disposition
                                                                                               Common Stock                                    $924,546,133                                                                                                             70%

                     Common Stock                                                                                                                                                        Partial                                                             1,084,206,98412
6       1/14/2011                          Transfer                                                                                                                5/6/2012                                           $4,999,999,993              N/A
                     (non-TARP)                                                                                                                                                          Disposition                                                                    63%
                                                                                                                                                                                                                                                             1,059,616,82112
                                                                                                                                                                                         Partial
                                                                                                                                               $562,868,096        5/7/2012                                               $749,999,972            N/A
                                                                                                                                                                                         Disposition                                                                    61%

                                                                                                                                                                   Total                                           $38,610,313,300
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                          267
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from the Treasury’s 6/27/2012 Transactions Report, and Treasury’s 7/10/2012 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to Treasury of
                                                                                                                                                                                                                                                                                                                                      268
   $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and
   (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
   transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for an aggregate amount equal to $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.




Table D.10
UCSB TRANSACTION DETAIL, AS OF 6/30/2012
                                                           Purchase Details1                                                                                                 Settlement Details                                                                      Final Disposition
                                                                                                                                                                                                               Senior                          Life-to-date
                                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I July 25, 2012




Purchase                                                                                              Purchase Face             Pricing     TBA or     Settlement              Investment      TBA or         Security                            Principal     Current Face          Disposition
Date          Investment Description                          Institution Name      CUSIP                  Amount3           Mechanism       PMF3      Date                     Amount2, 3      PMF3        Proceeds4     Trade Date           Received1, 8       Amount6, 8           Amount5, 6     Interest Paid to Treasury
3/19/2010     Floating Rate SBA 7a security due 2025          Coastal Securities    83164KYN7             $4,070,000              107.75       —       3/24/2010              $4,377,249          —             $2,184    6/21/2011              $902,633         $3,151,186          $3,457,746                       $169,441
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities    83165ADC5             $7,617,617                 109       —       3/24/2010              $8,279,156          —             $4,130    10/19/2011           $1,685,710         $5,891,602          $6,462,972                       $449,518
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities    83165ADE1             $8,030,000             108.875       —       3/24/2010              $8,716,265          —             $4,348    6/21/2011            $2,022,652         $5,964,013          $6,555,383                       $371,355
4/8/2010      Floating Rate SBA 7a security due 2034          Coastal Securities    83165AD84            $23,500,000             110.502       —       5/28/2010             $26,041,643          —           $12,983     6/7/2011             $1,149,633        $22,350,367         $25,039,989                     $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016          Coastal Securities    83164KZH9             $8,900,014               107.5       —       4/30/2010              $9,598,523          —             $4,783    6/7/2011             $2,357,796         $6,542,218          $7,045,774                       $414,561
5/11/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AEE0            $10,751,382             106.806       —       6/30/2010             $11,511,052          —             $5,741    6/7/2011               $932,112         $9,819,270         $10,550,917                       $348,599
5/11/2010     Floating Rate SBA 7a security due 2035          Coastal Securities    83164K2Q5            $12,898,996              109.42       —       6/30/2010             $14,151,229          —             $7,057    6/7/2011               $328,604        $12,570,392         $13,886,504                       $479,508
5/11/2010     Floating Rate SBA 7a security due 2033          Coastal Securities    83165AED2             $8,744,333             110.798       —       6/30/2010              $9,717,173          —             $4,844    6/7/2011               $261,145         $8,483,188          $9,482,247                       $368,608
5/25/2010     Floating Rate SBA 7a security due 2029          Coastal Securities    83164K3B7             $8,417,817             110.125       —       7/30/2010              $9,294,363          —             $4,635    6/7/2011               $246,658         $8,171,159          $8,985,818                       $287,624
5/25/2010     Floating Rate SBA 7a security due 2033          Coastal Securities    83165AEK6            $17,119,972             109.553       —       7/30/2010             $18,801,712          —             $9,377    9/20/2011            $2,089,260        $15,030,712         $16,658,561                       $657,863
6/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AEQ3            $34,441,059             110.785       —       8/30/2010             $38,273,995          —           $19,077     6/21/2011            $1,784,934        $32,656,125         $36,072,056                     $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034          Coastal Securities    83165AEP5            $28,209,085             112.028       —       8/30/2010             $31,693,810          —           $15,801     9/20/2011            $2,278,652        $25,930,433         $29,142,474                     $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83164K3Y7             $6,004,156             106.625       —       9/30/2010              $6,416,804          —             $3,200    6/21/2011              $348,107         $5,656,049          $6,051,772                       $146,030
7/14/2010     Floating Rate SBA 7a security due 2025          Shay Financial        83164K4J9             $6,860,835             108.505       —       9/30/2010              $7,462,726          —             $3,722    10/19/2011             $339,960         $6,520,875          $7,105,304                       $255,370
7/14/2010     Floating Rate SBA 7a security due 2034          Shay Financial        83165AE42            $13,183,361              111.86       —       9/30/2010             $14,789,302          —             $7,373    6/21/2011              $478,520        $12,704,841         $14,182,379                       $423,725
7/29/2010     Floating Rate SBA 7a security due 2017          Coastal Securities    83164K4E0             $2,598,386             108.438       —       9/30/2010              $2,826,678          —             $1,408    1/24/2012              $694,797         $1,903,407          $2,052,702                       $140,130
7/29/2010     Floating Rate SBA 7a security due 2034          Shay Financial        83164K4M2             $9,719,455              106.75       —       10/29/2010            $10,394,984          —             $5,187    6/21/2011              $188,009         $9,531,446         $10,223,264                       $181,124
8/17/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AEZ3             $8,279,048             110.198       —       9/30/2010              $9,150,989          —             $4,561    9/20/2011            $1,853,831         $6,425,217          $7,078,089                       $335,082
8/17/2010     Floating Rate SBA 7a security due 2019          Coastal Securities    83165AFB5             $5,000,000             110.088       —       10/29/2010             $5,520,652          —             $2,752    10/19/2011             $419,457         $4,580,543          $5,029,356                       $213,319
8/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AE91            $10,000,000             110.821       —       10/29/2010            $11,115,031          —             $5,541    10/19/2011             $969,461         $9,030,539          $9,994,806                       $433,852
8/31/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AEW0             $9,272,482             110.515       —       9/29/2010             $10,277,319          —             $5,123    9/20/2011              $868,636         $8,403,846          $9,230,008                       $386,326
8/31/2010     Floating Rate SBA 7a security due 2024          Shay Financial        83165AFA7            $10,350,000             112.476       —       10/29/2010            $11,672,766          —             $5,820    10/19/2011             $250,445        $10,099,555         $11,314,651                       $425,545
8/31/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83164K5H2             $6,900,000             105.875       —       11/30/2010             $7,319,688          —             $3,652    1/24/2012              $663,200         $6,236,800          $6,556,341                       $209,956
9/14/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AFC3             $8,902,230             111.584       —       10/29/2010             $9,962,039          —             $4,966    1/24/2012            $1,398,549         $7,503,681          $8,269,277                       $447,356
9/14/2010     Floating Rate SBA 7a security due 2021          Shay Financial        83165AFK5             $8,050,000             110.759       —       11/30/2010             $8,940,780          —             $4,458    1/24/2012              $996,133         $7,053,867          $7,703,610                       $354,302
9/14/2010     Floating Rate SBA 7a security due 2029          Coastal Securities    83164K5F6             $5,750,000               106.5       —       11/30/2010             $6,134,172          —             $3,061    1/24/2012              $276,276         $5,473,724          $5,764,858                       $156,481
9/14/2010     Floating Rate SBA 7a security due 2026          Coastal Securities    83164K5L3             $5,741,753               110.5       —       11/30/2010             $6,361,173          —             $3,172    1/24/2012            $1,433,872         $4,307,881          $4,693,918                       $239,527
9/28/2010     Floating Rate SBA 7a security due 2035          Coastal Securities    83164K5M1             $3,450,000             110.875       —       11/30/2010             $3,834,428          —             $1,912    10/19/2011               $82,832        $3,367,168          $3,698,411                       $111,165
9/28/2010     Floating Rate SBA 7a security due 2034          Coastal Securities    83165AFT6            $11,482,421             113.838       —       12/30/2010            $13,109,070          —             $6,535    1/24/2012              $889,646        $10,592,775         $11,818,944                       $512,131
                                                                                                                                                                                                                                                                                                          Continued on next page
       UCSB TRANSACTION DETAIL, AS OF 6/30/2012                                                            (Continued)
                                                                   Purchase Details1                                                                                                  Settlement Details                                                                        Final Disposition
                                                                                                                                                                                                                         Senior                          Life-to-date
       Purchase                                                                                                Purchase Face             Pricing      TBA or    Settlement              Investment       TBA or         Security                            Principal      Current Face            Disposition
       Date          Investment Description                            Institution Name      CUSIP                  Amount3           Mechanism        PMF3     Date                     Amount2, 3       PMF3        Proceeds4     Trade Date           Received1, 8        Amount6, 8             Amount5, 6     Interest Paid to Treasury
       9/28/2010     Floating Rate SBA 7a security due 2034            Shay Financial        83165AFM1           $13,402,491                113.9       —       11/30/2010             $15,308,612          —             $7,632    10/19/2011              $438,754        $12,963,737          $14,433,039                       $516,624
       9/28/2010     Floating Rate SBA 7a security due 2035            Shay Financial        83165AFQ2           $14,950,000             114.006        —       12/30/2010             $17,092,069          —             $8,521    1/24/2012               $387,839        $14,562,161          $16,383,544                       $681,819
                                                                                                                                                                                                            Total
                                                                                                                                                                                                           Senior
                                                                       Total Purchase Face Amount              $332,596,893                         Total Investment Amount*        $368,145,452                      $183,555                              Total Disposition Proceeds         $334,924,711                   $13,347,352
                                                                                                                                                                                                         Security
                                                                                                                                                                                                        Proceeds
       Notes: Numbers affected by rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
       *Subject to adjustment
       1
        	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
       2
        	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
       3
        	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed
          as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s
          factor (on or about the 11th business day of each month).
       4
        	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
          product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master
          Purchase Agreement.
       5
        	 Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
       6
        	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
          business day of each month).
       7
        	Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
       8
        	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

       Sources: Treasury, Transactions Report, 6/27/2012, Treasury, Dividends and Interest Report, 7/11/2012.




Table D.11
 PPIP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                                                      Final
                                                                                                                                                                                                Investment
                                                        Seller                                                               Adjusted Investment3           Final Commitment Amount7               Amount9        Capital Repayment Details      Investment After Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                                                                         Distributions
                                                           Transaction Investment             Investment   Pricing                                                                                         Repayment               Repayment                                                                                                   Paid to
Note   Date          Institution        City         State Type        Description               Amount Mechanism Date                          Amount      Date                 Amount             Amount      Date                  Amount              Amount               DescriptionDate            Description      Proceeds          Treasury
                                                                           Debt
                     UST/TCW
                                                                           Obligation
                     Senior Mortgage                                                                                                                                                                                                                                    Debt Obligation w/
2,4,5 9/30/2009                       Wilmington DE         Purchase       w/             $2,222,222,222             Par 1/4/2010        $200,000,000 1/4/2010            $200,000,000       $200,000,000       1/11/2010        $34,000,000       $166,000,000
                     Securities Fund,                                                                                                                                                                                                                                 Contingent Proceeds
                                                                           Contingent
                     L.P.
                                                                           Proceeds
                                                                                                                                                                                                                                                                                              1/29/2010 Distribution       $502,302
                                                                                                                                                                                                                1/12/2010      $166,000,000                     —     Contingent Proceeds                 Final
                                                                                                                                                                                                                                                                                              2/24/2010                       $1,223          $342,176
                                                                                                                                                                                                                                                                                                          Distribution
                     UST/TCW
                     Senior Mortgage                                       Membership
1,4,5 9/30/2009                       Wilmington DE         Purchase                  $1,111,111,111                 Par 1/4/2010        $156,250,000 1/4/2010            $156,250,000       $156,250,000                                                                                     1/29/2010 Distribution     $20,091,872
                     Securities Fund,                                      Interest
                     L.P.                                                                                                                                                                                       1/15/2010      $156,250,000                     —       Membership Interest

                                                                                                                                                                                                                                                                                                          Final
                                                                                                                                                                                                                                                                                              2/24/2010                     $48,922
                                                                                                                                                                                                                                                                                                          Distribution
                                                                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                                                         269
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)

                                                                                                                                                                                                                                                                                                         270
                                                                                                                                                                      Final
                                                                                                                                                                Investment
                                                    Seller                                                Adjusted Investment3     Final Commitment Amount7        Amount9     Capital Repayment Details   Investment After Capital Repayment         Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                    Transaction Investment         Investment   Pricing                                                                   Repayment           Repayment                                                                                        Paid to
Note   Date        Institution      City      State Type        Description           Amount Mechanism Date               Amount   Date             Amount         Amount      Date              Amount          Amount             DescriptionDate         Description      Proceeds        Treasury
                   Invesco Legacy
                   Securities                                     Membership
1,6    9/30/2009                    Wilmington DE      Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010     $856,000,000   $580,960,000     2/18/2010      $2,444,347    $578,515,653   Membership Interest10
                   Master Fund,                                   Interest
                   L.P.
                                                                                                                                                                               4/15/2010      $3,533,199    $574,982,454   Membership Interest10
                                                                                                                                                                               9/15/2010     $30,011,187    $544,971,267   Membership Interest10
                                                                                                                                                                              11/15/2010     $66,463,982    $478,507,285   Membership Interest10
                                                                                                                                                                              12/14/2010     $15,844,536    $462,662,749   Membership Interest10
                                                                                                                                                                               1/14/2011     $13,677,726    $448,985,023   Membership Interest10
                                                                                                                                                                               2/14/2011     $48,523,845    $400,461,178   Membership Interest10
                                                                                                                                                                               3/14/2011     $68,765,544    $331,695,634   Membership Interest10
                                                                                                                                                                               4/14/2011     $77,704,254    $253,991,380   Membership Interest10
                                                                                                                                                                               5/20/2011     $28,883,733    $225,107,647   Membership Interest10
                                                                                                                                                                               6/14/2011      $9,129,709    $215,977,938   Membership Interest10
                                                                                                                                                                               7/15/2011     $31,061,747    $184,916,192   Membership Interest10
                                                                                                                                                                               8/12/2011     $10,381,214    $174,534,977   Membership Interest10
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                              10/17/2011      $6,230,731    $168,304,246   Membership Interest10
                                                                                                                                                                              12/14/2011      $1,183,959    $167,120,288   Membership Interest10
                                                                                                                                                                               1/17/2012      $1,096,185    $166,024,103   Membership Interest10
                                                                                                                                                                               2/14/2012      $1,601,688    $164,422,415   Membership Interest10
                                                                                                                                                                               3/14/2012      $3,035,546    $161,386,870   Membership Interest10
                                                                                                                                                                               3/29/2012    $161,386,870              —    Membership Interest103/29/2012 Distribution 5   $56,390,209
                                                                  Debt
                   Invesco Legacy
                                                                  Obligation
                   Securities                                                                                                                                                                                                 Debt Obligation w/
2,6,8 9/30/2009                     Wilmington DE      Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000       2/18/2010      $4,888,718 $1,157,031,282
                   Master Fund,                                                                                                                                                                                             Contingent Proceeds
                                                                  Contingent
                   L.P.
                                                                  Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848
                                                                                                                                                                                                                            Contingent Proceeds                                          $99,336,742
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              11/15/2010    $132,928,628    $957,013,546
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              12/14/2010     $31,689,230    $925,324,316
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               1/14/2010     $27,355,590    $897,968,726
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               2/14/2011     $92,300,138    $805,668,588
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               3/14/2011    $128,027,536    $677,641,052
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               4/14/2011    $155,409,286    $522,231,766
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               5/20/2011     $75,085,485    $447,146,281
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               6/14/2011     $18,259,513    $428,886,768
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               7/15/2011     $62,979,809    $365,906,960
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               8/12/2011     $20,762,532    $345,144,428
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              10/17/2011     $37,384,574    $307,759,854
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              12/14/2011      $7,103,787    $300,656,067
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               1/17/2012      $6,577,144    $294,078,924
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               2/14/2012      $9,610,173    $284,468,750
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                               3/14/2012    $284,468,750              —     Contingent Proceeds3/29/2012 Distribution 5     $3,434,460
                                                                                                                                                                                                                                                                                Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                                             (CONTINUED)
                                                                                                                                                                                    Final
                                                                                                                                                                              Investment
                                                                  Seller                                                  Adjusted Investment3     Final Commitment Amount7      Amount9    Capital Repayment Details   Investment After Capital Repayment        Distribution or Disposition
                                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                                     Distributions
                                                                    Transaction Investment         Investment   Pricing                                                                 Repayment          Repayment                                                                                       Paid to
Note   Date              Institution           City           State Type        Description           Amount Mechanism Date               Amount   Date             Amount       Amount      Date             Amount          Amount            DescriptionDate        Description       Proceeds        Treasury
                         Wellington                                               Debt
                         Management                                               Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/1/2009         Legacy          Wilmington DE                 Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,524,075,000 7/16/2010 $2,298,974,000                   6/26/2012    $125,000,000 $2,173,974,000
                                                                                                                                                                                                                                         Contingent Proceeds
                         Securities PPIF                                          Contingent
                         Master Fund, LP                                          Proceeds
                                                                                                                                                                                                                                                                                                    $158,206,437
                         Wellington
                         Management
                                                                                  Membership
1,6    10/1/2009         Legacy          Wilmington DE                 Purchase              $1,111,111,111         Par 3/22/2010 $1,262,037,500 7/16/2010 $1,149,487,000
                                                                                  Interest
                         Securities PPIF
                         Master Fund, LP
                         AllianceBernstein                                        Debt
                         Legacy                                                   Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/2/2009         Securities        Wilmington DE               Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010 $2,300,847,000                   5/16/2011     $30,244,575 $2,270,602,425
                                                                                                                                                                                                                                         Contingent Proceeds
                         Master Fund,                                             Contingent
                         L.P.                                                     Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/14/2011         $88,087 $2,270,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                             5/3/2012     $80,000,000 $2,190,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            5/14/2012     $30,000,000 $2,160,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            5/23/2012    $500,000,000 $1,660,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/14/2012     $44,200,000 $1,616,314,339                                                                $230,852,891
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/25/2012    $120,000,000 $1,496,314,339
                                                                                                                                                                                                                                         Contingent Proceeds
                         AllianceBernstein
                         Legacy
                                                                                  Membership
1,6    10/2/2009         Securities        Wilmington DE               Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010 $1,150,423,500                   1/15/2010         $44,043 $1,150,379,457    Membership Interest10
                                                                                  Interest
                         Master Fund,
                         L.P.
                                                                                                                                                                                            2/14/2011        $712,284 $1,149,667,172    Membership Interest10
                                                                                                                                                                                            3/14/2011      $6,716,327 $1,142,950,845    Membership Interest10
                                                                                                                                                                                            4/14/2011      $7,118,388 $1,135,832,457    Membership Interest10
                                                                                                                                                                                            5/14/2012     $39,999,800 $1,095,832,657    Membership Interest10
                                                                                                                                                                                            6/14/2012    $287,098,565    $808,734,092   Membership Interest10
                                                                                  Debt
                                                                                  Obligation
                         Blackrock PPIF,
2,6    10/2/2009                               Wilmington DE           Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010 $1,389,960,000
                         L.P.
                                                                                  Contingent                                                                                                                                                                                                         $33,658,950
                                                                                  Proceeds
                         Blackrock PPIF,                                          Membership
1,6    10/2/2009                               Wilmington DE           Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010     $694,980,000
                         L.P.                                                     Interest
                                                                                  Debt
                  AG GECC PPIF                                                    Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/30/2009 Master Fund,                 Wilmington DE           Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,542,675,000 7/16/2010 $2,486,550,000                   2/14/2012    $174,200,000 $2,312,350,000
                                                                                                                                                                                                                                         Contingent Proceeds
                  L.P.                                                            Contingent
                                                                                  Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            3/14/2012    $198,925,000 $2,113,425,000
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/                                       $215,789,752
                                                                                                                                                                                            5/14/2012    $150,000,000 $1,963,425,000
                                                                                                                                                                                                                                         Contingent Proceeds
                  AG GECC PPIF
                                                                                  Membership
1,6    10/30/2009 Master Fund,             Wilmington DE               Purchase              $1,111,111,111         Par 3/22/2010 $1,271,337,500 7/16/2010 $1,243,275,000                   2/14/2012     $87,099,565 $1,156,175,436    Membership Interest10
                                                                                  Interest
                  L.P.                                              
                                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                            3/14/2012     $99,462,003 $1,056,713,433    Membership Interest10
                                                                                                                                                                                            5/14/2012     $74,999,625    $981,713,808   Membership Interest10
                                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                                     271
                                                                                                                                                                                                                                                                                                                                                           272
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                                         (CONTINUED)
                                                                                                                                                                                                       Final
                                                                                                                                                                                                 Investment
                                                          Seller                                                              Adjusted Investment3          Final Commitment Amount7                Amount9     Capital Repayment Details          Investment After Capital Repayment              Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                                                                           Distributions
                                                             Transaction Investment            Investment   Pricing                                                                                         Repayment              Repayment                                                                                                     Paid to
Note   Date           Institution        City          State Type        Description              Amount Mechanism Date                           Amount     Date                  Amount            Amount      Date                 Amount               Amount               DescriptionDate           Description       Proceeds           Treasury
                                                                            Debt
                      RLJ Western
                                                                            Obligation
                      Asset Public/                                                                                                                                                                                                                                       Debt Obligation w/
2,6    11/4/2009                         Wilmington DE       Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010 $1,241,156,516                                     5/13/2011         $13,531,530 $1,227,624,986
                      Private Master                                                                                                                                                                                                                                    Contingent Proceeds
                                                                            Contingent
                      Fund, L.P.
                                                                            Proceeds
                                                                                                                                                                                                                                                                                                                                         $143,961,297
                      RLJ Western
                      Asset Public/                                         Membership
1,6    11/4/2009                         Wilmington DE       Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010                $620,578,258                        3/14/2011           $1,202,957      $619,375,301       Membership Interest10
                      Private Master                                        Interest
                      Fund, L.P.
                                                                                                                                                                                                                4/14/2011           $3,521,835      $615,853,465       Membership Interest10
                  Marathon Legacy                                           Debt
                  Securities                                                Obligation
2,6    11/25/2009 Public-Private    Wilmington DE            Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010                $949,100,000
                  Investment                                                Contingent
                  Partnership, L.P.                                         Proceeds
                                                                                                                                                                                                                                                                                                                                           $66,007,835
                  Marathon Legacy
                  Securities
                                                                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I July 25, 2012




                                                                            Membership
1,6    11/25/2009 Public-Private    Wilmington DE            Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010                $474,550,000
                                                                            Interest
                  Investment
                  Partnership, L.P.
                                                                            Debt
                                                                            Obligation
                      Oaktree PPIP                                                                                                                                                                                                                                        Debt Obligation w/
2,6    12/18/2009                        Wilmington DE       Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010 $2,321,568,200                                     7/15/2011         $79,000,000 $2,242,568,200
                      Fund, L.P.                                                                                                                                                                                                                                        Contingent Proceeds
                                                                            Contingent
                                                                            Proceeds
                                                                                                                                                                                                                                                                          Debt Obligation w/                                               $22,479,266
                                                                                                                                                                                                                3/14/2012         $78,775,901 $2,163,792,299
                                                                                                                                                                                                                                                                        Contingent Proceeds
                      Oaktree PPIP                                          Membership
1,6    12/18/2009                        Wilmington DE       Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010 $1,160,784,100                                     7/15/2011         $39,499,803 $1,121,284,298           Membership Interest10
                      Fund, L.P.                                            Interest
                                                                                                                                                                                                                3/14/2012         $39,387,753 $1,081,896,544           Membership Interest10
                                                                                                                                                                                                                    Total
                                                                                                                                                                                                                  Capital
                                                Initial Investment Amount                $30,000,000,000                                Final Investment Amount        $21,856,403,574                         Repayment $4,409,958,040                                                                Total Proceeds $80,468,989
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on
   the Dividends and Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
   $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	The amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.
Table D.12
HAMP TRANSACTION DETAIL, AS OF 6/30/2012
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                         TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                     6/12/2009    $284,590,000       $660,590,000   Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $121,910,000       $782,500,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $131,340,000       $913,840,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010   ($355,530,000)      $558,310,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010    $128,690,000       $687,000,000   Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                     9/30/2010       $4,000,000      $691,000,000
                                                                                                                                                                    cap
                                                                                                                     9/30/2010      $59,807,784      $750,807,784   Updated portfolio data from servicer
                                                                                                                    11/16/2010       ($700,000)      $750,107,784   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010      $64,400,000      $814,507,784   Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($639)     $814,507,145   Updated portfolio data from servicer
                                                                                                                     1/13/2011      ($2,300,000)     $812,207,145   Transfer of cap due to servicing transfer
                                                                                                                     2/16/2011        $100,000       $812,307,145   Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011       $3,600,000      $815,907,145   Transfer of cap due to servicing transfer
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                                                                              Updated due to quarterly assessment and
4/13/2009                                 Purchase                              $376,000,000     N/A                 3/30/2011            ($735)     $815,906,410                                               $34,417,040   $74,497,723      $59,049,968       $167,964,731
            Salt Lake City, UT                          Home Loan                                                                                                   reallocation
                                                        Modifications                                                4/13/2011       ($100,000)      $815,806,410   Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011        $400,000       $816,206,410   Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011       ($100,000)      $816,106,410   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($6,805)     $816,099,605
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011       ($100,000)      $815,999,605   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011       ($200,000)      $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011       ($100,000)      $815,699,605   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($100,000)      $815,599,605   Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012        $200,000       $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012      $24,800,000      $840,599,605   Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012       $1,900,000      $842,499,605   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012          $80,000      $842,579,605   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       $8,710,000      $851,289,605   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012          ($5,176)     $851,284,429
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                   273
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                     274
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                             TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                             Incentives      Incentives       Incentives           Payments
                                                                                                                 6/12/2009   ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009   $1,010,180,000    $2,089,600,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($105,410,000)    $1,984,190,000
                                                                                                                                                                HAFA initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 3/26/2010   ($199,300,000)    $1,784,890,000
                                                                                                                                                                2MP initial cap
                                                                                                                                                                Transfer of cap to Service One, Inc. due to
                                                                                                                 4/19/2010       ($230,000)    $1,784,660,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap to Specialized Loan
                                                                                                                 5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                                Servicing, LLC due to servicing transfer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                                servicing transfer
                                                                                                                 7/14/2010   ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 8/13/2010      ($6,300,000)     $998,290,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 9/15/2010      ($8,300,000)     $989,990,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010      $32,400,000    $1,022,390,000
                                                                                                                                                                cap
                                                                                                                 9/30/2010    $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                                10/15/2010      ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                                11/16/2010      ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                    Financial                                                     1/6/2011            ($981)   $1,119,076,503   Updated portfolio data from servicer
            CitiMortgage, Inc.,                     Instrument for
4/13/2009                             Purchase                            $2,071,000,000     N/A                 1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer      $35,034,563   $116,114,690      $70,121,075       $221,270,328
            O’Fallon, MO                            Home Loan
                                                    Modifications                                                2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011       ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($9,131)   $1,065,966,341
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011     ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011      ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011      ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012      ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012      ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012       ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012       ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012      ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($5,498)   $1,050,340,843
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                           Incentives      Incentives       Incentives           Payments
                                                                                                                 6/17/2009    ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $65,070,000    $2,475,080,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 2/17/2010    $2,050,236,344    $5,738,626,344
                                                                                                                                                                 merger
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 3/12/2010           $54,767    $5,738,681,110
                                                                                                                                                                 merger
                                                                                                                 3/19/2010     $668,108,890     $6,406,790,000   Initial 2MP cap
                                                                                                                 3/26/2010     $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010    ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $344,000,000     $5,108,351,172
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 12/3/2010        $8,413,225    $5,116,764,397
                                                                                                                                                                 merger
                                                                                                                12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                 1/13/2011        ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer

                                                    Financial                                                    3/16/2011        ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                   Instrument for                                                                                               Updated due to quarterly assessment and
4/13/2009                             Purchase                            $2,873,000,000     N/A                 3/30/2011           ($7,171)   $5,138,750,914                                                $93,044,464   $227,817,344    $166,763,508        $487,625,315
            Des Moines, IA                          Home Loan                                                                                                    reallocation
                                                    Modifications
                                                                                                                 4/13/2011       ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011        ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($63,856)   $5,128,387,058
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011       ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011       ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($39,923)   $5,121,197,135
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                  275
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                   276
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                           Incentives     Incentives       Incentives           Payments
                                                                                                                 6/12/2009     $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    $3,554,890,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    $2,067,430,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     $1,301,400,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                                                                                12/15/2010        ($500,000)    $1,517,898,139   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 3/16/2011        ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                    Financial                                                    3/30/2011           ($2,024)   $1,517,794,381
                                                                                                                                                                 reallocation
            GMAC Mortgage, Inc.,                    Instrument for
4/13/2009                             Purchase                              $633,000,000     N/A                                                                                                              $28,423,250   $80,202,635      $55,138,210       $163,764,096
            Ft. Washington, PA                      Home Loan                                                    4/13/2011        ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 5/13/2011     ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   $1,499,075,924
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011        ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($12,463)   $1,500,173,461
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives     Incentives       Incentives           Payments
                                                                                                                  6/17/2009     $225,040,000       $632,040,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009     $254,380,000       $886,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  3/26/2010     ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to Ocwen Financial
                                                                                                                  6/16/2010    ($156,050,000)    $1,028,360,000
                                                                                                                                                                  Corporation, Inc. due to servicing transfer
                                                                                                                  7/14/2010    ($513,660,000)      $514,700,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap due to multiple servicing
                                                                                                                  7/16/2010     ($22,980,000)      $491,720,000
                                                                                                                                                                  transfers
                                                                                                                  9/15/2010        $1,800,000      $493,520,000   Transfer of cap due to servicing transfer
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                  9/30/2010        $9,800,000      $503,320,000
                                                                                                                                                                  cap
                                                                                                                  9/30/2010     $116,222,668       $619,542,668   Updated portfolio data from servicer
                                                                                                                 10/15/2010          $100,000      $619,642,668   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010        $8,900,000      $628,542,668   Updated portfolio data from servicer
                                                     Financial                                                     1/6/2011             ($556)     $628,542,112   Updated portfolio data from servicer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                              $407,000,000     N/A                 1/13/2011        $2,300,000      $630,842,112   Transfer of cap due to servicing transfer     $19,771,279   $42,179,792      $39,799,597       $101,750,667
            Inc., Irving, TX                         Home Loan
                                                     Modifications                                                3/16/2011          $700,000      $631,542,112   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($654)     $631,541,458
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011        $2,100,000      $633,641,458   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($6,144)     $633,635,314
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011          $200,000      $633,835,314   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        ($100,000)      $633,735,314   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        ($700,000)      $633,035,314   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011       $17,500,000      $650,535,314   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        ($100,000)      $650,435,314   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012          $100,000      $650,535,314   Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012     ($17,500,000)      $633,035,314   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012        ($760,000)      $632,275,314   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012    ($354,290,000)      $277,985,314   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012           ($1,831)     $277,983,483
                                                                                                                                                                  reallocation
                                                     Financial
            Chase Home Finance, LLC,                 Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A         2       7/31/2009   ($3,552,000,000)               $0   Termination of SPA                                   $—             $—                $—                  $—
            Iselin, NJ                               Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                   277
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                   278
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                      Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors        Servicers            Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives      Incentives       Incentives           Payments
                                                                                                                  6/12/2009   ($105,620,000)      $553,380,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $102,580,000       $655,960,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $277,640,000       $933,600,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $46,860,000      $980,460,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage
                                                                                                                  6/16/2010    $156,050,000     $1,136,510,000
                                                                                                                                                                 Services, Inc. due to servicing transfer
                                                                                                                  7/14/2010   ($191,610,000)      $944,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage
                                                                                                                  7/16/2010      $23,710,000      $968,610,000
                                                                                                                                                                 Services, Inc. due to servicing transfer
                                                                                                                  9/15/2010        $100,000       $968,710,000   Initial FHA-HAMP cap
                                                                                                                  9/30/2010       $3,742,740      $972,452,740   Updated portfolio data from servicer
                                                     Financial                                                   10/15/2010    $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
             Ocwen Financial
                                                     Instrument for
4/16/2009    Corporation, Inc.,        Purchase                              $659,000,000     N/A                                                                                                             $38,992,881   $108,999,326      $81,497,510       $229,489,717
                                                     Home Loan                                                     1/6/2011          ($1,020)   $1,143,251,720   Updated portfolio data from servicer
             West Palm Beach, FL
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                     Modifications
                                                                                                                  2/16/2011        $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,114)   $1,144,150,606
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($10,044)    $1,144,140,562
                                                                                                                                                                 reallocation
                                                                                                                 10/14/2011       ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012    $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012        $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012    $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012    $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($6,308)   $1,817,154,254
                                                                                                                                                                 reallocation
                                                                                                                  6/12/2009       $5,540,000      $804,440,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $162,680,000       $967,120,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $665,510,000     $1,632,630,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  1/26/2010    $800,390,000     $2,433,020,000   Initial 2MP cap
                                                                                                                  3/26/2010   ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010      $95,300,000    $1,332,200,000
                                                                                                                                                                 and initial RD-HAMP
4/17/2009                                            Financial
as amended   Bank of America, N.A.,                  Instrument for                                               9/30/2010    $222,941,084     $1,555,141,084   Updated portfolio data from servicer
                                       Purchase                              $798,900,000     N/A                                                                                                              $4,267,062    $17,852,012       $9,159,439         $31,278,513
on           Simi Valley, CA                         Home Loan                                                     1/6/2011          ($2,199)   $1,555,138,885   Updated portfolio data from servicer
1/26/2010                                            Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($2,548)   $1,555,136,337
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($23,337)    $1,555,113,000
                                                                                                                                                                 reallocation
                                                                                                                  8/16/2011       ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011   ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012       ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012        ($17,893)    $1,432,995,107
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives      Incentives       Incentives           Payments
                                                                                                                  6/12/2009    $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    $4,465,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     $7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    $8,121,590,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     $8,408,100,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     $6,726,300,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer
                                                                                                                   1/6/2011           ($8,012)   $6,347,764,626   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011          $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($9,190)   $6,349,655,436
                                                                                                                                                                  reallocation
4/17/2009    Countrywide Home Loans                  Financial
as amended   Servicing LP (BAC Home                  Instrument for                                               4/13/2011          $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                       Purchase                            $1,864,000,000     N/A                                                                                                              $116,254,108   $278,785,183    $198,293,222        $593,332,513
on           Loans Servicing, LP),                   Home Loan
1/26/2010    Simi Valley, CA                         Modifications                                                5/13/2011          $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   $6,349,073,089
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                  Transfer of cap from Home Loan Services,
                                                                                                                                                                  Inc. and Wilshire Credit Corporation due
                                                                                                                 10/19/2011     $317,956,289     $6,782,629,378
                                                                                                                                                                  to merger.


                                                                                                                 11/16/2011          $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012     ($23,900,000)    $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012     ($63,800,000)    $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012           $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($58,550)   $6,667,130,828
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                    279
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                280
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                      6/12/2009    $128,300,000       $447,300,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009      $46,730,000      $494,030,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $145,820,000       $639,850,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010     ($17,440,000)     $622,410,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($73,010,000)     $549,400,000   Updated portfolio data from servicer
                                                                                                                      9/30/2010       $6,700,000      $556,100,000   Initial FHA-2LP cap

                                                         Financial                                                    9/30/2010     ($77,126,410)     $478,973,590   Updated portfolio data from servicer
            Home Loan Services, Inc.,                    Instrument for
4/20/2009                                  Purchase                              $319,000,000     N/A         13     12/15/2010   ($314,900,000)      $164,073,590   Updated portfolio data from servicer         $169,858    $2,440,768        $3,698,607          $6,309,233
            Pittsburgh, PA                               Home Loan
                                                         Modifications                                                 1/6/2011            ($233)     $164,073,357   Updated portfolio data from servicer
                                                                                                                      2/16/2011      ($1,900,000)     $162,173,357   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011       ($400,000)      $161,773,357   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($278)     $161,773,079
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                      5/13/2011       ($400,000)      $161,373,079   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($2,625)     $161,370,454
                                                                                                                                                                     reallocation
                                                                                                                     10/19/2011   ($155,061,221)        $6,309,233   Termination of SPA
                                                                                                                      6/12/2009      $87,130,000      $453,130,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009   ($249,670,000)      $203,460,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $119,700,000       $323,160,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010      $52,270,000      $375,430,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Countrywide Home
                                                                                                                      4/19/2010     ($10,280,000)     $365,150,000
                                                                                                                                                                     Loans due to servicing transfer
                                                                                                                                                                     Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                      5/14/2010      ($1,880,000)     $363,270,000
                                                                                                                                                                     due to servicing transfer

                                                         Financial                                                                                                   Transfer of cap to Countrywide Home
                                                                                                                      6/16/2010   ($286,510,000)       $76,760,000
            Wilshire Credit Corporation,                 Instrument for                                                                                              Loans due to servicing transfer
4/20/2009                                  Purchase                              $366,000,000     N/A         13                                                                                                       $—       $490,394        $1,167,000          $1,657,394
            Beaverton, OR                                Home Loan
                                                                                                                      7/14/2010      $19,540,000       $96,300,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Transfer of cap to Green Tree Servicing
                                                                                                                      7/16/2010       ($210,000)       $96,090,000
                                                                                                                                                                     LLC due to servicing transfer
                                                                                                                      8/13/2010       ($100,000)       $95,990,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      $68,565,782      $164,555,782   Updated portfolio data from servicer
                                                                                                                       1/6/2011            ($247)     $164,555,535   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($294)     $164,555,241
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($2,779)     $164,552,462
                                                                                                                                                                     reallocation
                                                                                                                     10/19/2011   ($162,895,068)        $1,657,394   Termination of SPA
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   6/17/2009     ($64,990,000)      $91,010,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $130,780,000       $221,790,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009   ($116,750,000)      $105,040,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010      $13,080,000      $118,120,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($24,220,000)      $93,900,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                   7/16/2010         $210,000       $94,110,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                   8/13/2010       $2,200,000       $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                   9/10/2010      $34,600,000      $130,910,000   Initial 2MP cap
                                                                                                                   9/30/2010       $5,600,000      $136,510,000   Initial FHA-2LP cap and FHA-HAMP
                                                                                                                   9/30/2010      $10,185,090      $146,695,090   Updated portfolio data from servicer
                                                                                                                  10/15/2010         $400,000      $147,095,090   Transfer of cap due to servicing transfer

                                                      Financial                                                     1/6/2011            ($213)     $147,094,877   Updated portfolio data from servicer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                                                                Updated due to quarterly assessment and      $902,609    $2,815,171        $2,456,938          $6,174,718
            Saint Paul, MN                            Home Loan                                                    3/30/2011            ($250)     $147,094,627
                                                                                                                                                                  reallocation
                                                      Modifications
                                                                                                                   5/13/2011       $1,200,000      $148,294,627   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011         $100,000      $148,394,627   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($2,302)     $148,392,325
                                                                                                                                                                  reallocation
                                                                                                                   7/14/2011       $1,900,000      $150,292,325   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $200,000      $150,492,325   Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $200,000      $150,692,325   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $400,000      $151,092,325   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012         $900,000      $151,992,325   Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012         $100,000      $152,092,325   Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012       $3,260,000      $155,352,325   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $920,000      $156,272,325   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($1,622)     $156,270,703
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                281
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                 282
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                         TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                    6/17/2009     ($63,980,000)     $131,020,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009      $90,990,000      $222,010,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $57,980,000      $279,990,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010      $74,520,000      $354,510,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($75,610,000)     $278,900,000   Updated portfolio data from servicer
                                                                                                                    8/13/2010       $1,100,000      $280,000,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010       $3,763,685      $283,763,685   Updated portfolio data from servicer
                                                                                                                   12/15/2010         $300,000      $284,063,685   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($325)     $284,063,360   Updated portfolio data from servicer
                                                       Financial                                                    1/13/2011       $2,400,000      $286,463,360   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                       Instrument for
4/27/2009   Services, LLC,               Purchase                              $195,000,000     N/A                                                                Updated due to quarterly assessment and      $4,594,845   $14,313,396      $10,053,971         $28,962,212
                                                       Home Loan                                                    3/30/2011            ($384)     $286,462,976
            Santa Ana, CA                                                                                                                                          reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                    6/29/2011          ($3,592)     $286,459,384
                                                                                                                                                                   reallocation
                                                                                                                    8/16/2011       $1,800,000      $288,259,384   Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011         $100,000      $288,359,384   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       $1,000,000      $289,359,384   Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012       $1,100,000      $290,459,384   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012         $100,000      $290,559,384   Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012         $850,000      $291,409,384   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012       $2,240,000      $293,649,384   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012          ($2,520)     $293,646,864
                                                                                                                                                                   reallocation
                                                                                                                    6/17/2009   ($338,450,000)      $459,550,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($11,860,000)     $447,690,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $21,330,000      $469,020,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       $9,150,000      $478,170,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($76,870,000)     $401,300,000   Updated portfolio data from servicer
                                                                                                                     9/1/2010         $400,000      $401,700,000   Initial FHA-HAMP cap
                                                                                                                    9/30/2010      ($8,454,269)     $393,245,731   Updated portfolio data from servicer
                                                       Financial
            Aurora Loan Services, LLC,                 Instrument for                                                1/6/2011            ($342)     $393,245,389   Updated portfolio data from servicer
5/1/2009                                 Purchase                              $798,000,000     N/A                                                                                                            $15,384,192   $39,290,553      $27,897,267         $82,572,012
            Littleton, CO                              Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($374)     $393,245,015
                                                                                                                                                                   reallocation
                                                                                                                    5/13/2011      $18,000,000      $411,245,015   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($3,273)     $411,241,742
                                                                                                                                                                   reallocation
                                                                                                                   10/14/2011       ($200,000)      $411,041,742   Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012         $100,000      $411,141,742   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012       ($500,000)      $410,641,742   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012          ($1,768)     $410,639,974
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                     Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives     Incentives       Incentives           Payments
                                                                                                                  6/12/2009      $16,140,000      $117,140,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $134,560,000       $251,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $80,250,000      $331,950,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $67,250,000      $399,200,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($85,900,000)     $313,300,000   Updated portfolio data from servicer
                                                                                                                  8/13/2010         $100,000      $313,400,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010       $2,900,000      $316,300,000
                                                                                                                                                                 initial RD-HAMP, and initial 2MP cap
                                                                                                                  9/30/2010      $33,801,486      $350,101,486   Updated portfolio data from servicer
                                                                                                                 11/16/2010         $700,000      $350,801,486   Transfer of cap due to servicing transfer

                                                     Financial                                                   12/15/2010       $1,700,000      $352,501,486   Updated portfolio data from servicer
            Nationstar Mortgage LLC,                 Instrument for
5/28/2009                              Purchase                              $101,000,000     N/A                  1/6/2011            ($363)     $352,501,123   Updated portfolio data from servicer         $10,184,365   $24,123,922      $19,043,370         $53,351,657
            Lewisville, TX                           Home Loan
                                                     Modifications                                                2/16/2011         $900,000      $353,401,123   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011      $29,800,000      $383,201,123   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($428)     $383,200,695
                                                                                                                                                                 reallocation
                                                                                                                  5/26/2011      $20,077,503      $403,278,198   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($4,248)     $403,273,950
                                                                                                                                                                 reallocation
                                                                                                                 11/16/2011         $100,000      $403,373,950   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012       ($100,000)      $403,273,950   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012          $90,000      $403,363,950   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012      ($2,380,000)     $400,983,950   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($2,957)     $400,980,993
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      ($1,860,000)      $17,540,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $27,920,000       $45,460,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      ($1,390,000)      $44,070,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($13,870,000)      $30,200,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010         $400,000       $30,600,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                  9/30/2010         $586,954       $31,186,954   Updated portfolio data from servicer

                                                     Financial                                                     1/6/2011             ($34)      $31,186,920   Updated portfolio data from servicer
            Residential Credit                       Instrument for
6/12/2009                              Purchase                               $19,400,000     N/A                                                                Updated due to quarterly assessment and        $579,534     $1,717,443       $1,312,289          $3,609,266
            Solutions, Fort Worth,TX                 Home Loan                                                    3/30/2011             ($37)      $31,186,883
                                                                                                                                                                 reallocation
                                                     Modifications
                                                                                                                  4/13/2011         $100,000       $31,286,883   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($329)      $31,286,554
                                                                                                                                                                 reallocation
                                                                                                                  9/15/2011      ($1,900,000)      $29,386,554   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       $2,800,000       $32,186,554   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012         $420,000       $32,606,554   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       $8,060,000       $40,666,554   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($313)      $40,666,241
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 283
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                284
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $13,070,000       $29,590,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $145,510,000       $175,100,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010   ($116,950,000)       $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($23,350,000)      $34,800,000   Updated portfolio data from servicer
                                                     Financial
            CCO Mortgage,                            Instrument for                                               9/30/2010       $7,846,346       $42,646,346   Updated portfolio data from servicer
6/17/2009                              Purchase                               $16,520,000     N/A                                                                                                            $1,068,026   $2,828,713        $2,122,605          $6,019,345
            Glen Allen, VA                           Home Loan
                                                     Modifications                                                 1/6/2011             ($46)      $42,646,300   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($55)      $42,646,245
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($452)      $42,645,793
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($309)      $42,645,484
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($11,300,000)      $45,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009     ($42,210,000)       $3,490,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $65,640,000       $69,130,000   Updated portfolio data from servicer
                                                                                                                   4/9/2010     ($14,470,000)      $54,660,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($8,860,000)      $45,800,000   Updated portfolio data from servicer
                                                     Financial
            RG Mortgage Corporation,                 Instrument for                                               9/30/2010      ($4,459,154)      $41,340,846   Updated portfolio data from servicer
6/17/2009                              Purchase                               $57,000,000     N/A                                                                                                             $164,853      $227,582         $401,334             $793,769
            San Juan, PR                             Home Loan
                                                     Modifications                                               12/15/2010      ($4,300,000)      $37,040,846   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($51)      $37,040,795   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($65)      $37,040,730
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($616)      $37,040,114
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($462)      $37,039,652
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                     Financial                                                   12/30/2009       $2,020,000        $2,790,000
            First Federal Savings                                                                                                                                HAFA initial cap
                                                     Instrument for
6/19/2009   and Loan,                  Purchase                                  $770,000     N/A                                                                                                                  $—            $—                 $—                  $—
                                                     Home Loan                                                    3/26/2010      $11,370,000       $14,160,000   Updated portfolio data from servicer
            Port Angeles, WA
                                                     Modifications
                                                                                                                  5/26/2010     ($14,160,000)               $0   Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $330,000          $870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $16,490,000       $17,360,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010     ($14,260,000)       $3,100,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($1,800,000)       $1,300,000   Updated portfolio data from servicer
                                                     Financial                                                    7/30/2010       $1,500,000        $2,800,000   Updated portfolio data from servicer
            Wescom Central Credit                    Instrument for
6/19/2009                              Purchase                                  $540,000     N/A         9,12                                                                                                 $93,546      $374,719         $210,613             $678,877
            Union, Anaheim, CA                       Home Loan                                                    9/30/2010       $1,551,668        $4,351,668   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                   1/6/2011              ($2)       $4,351,666   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)       $4,351,664
                                                                                                                                                                 reallocation
                                                                                                                  5/13/2011      ($1,800,000)       $2,551,664   Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011      ($1,872,787)         $678,877   Termination of SPA
                                                                                                                  6/14/2012         $990,000        $1,668,877   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($10,000)          $20,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $590,000          $610,000
                                                     Financial                                                                                                   HAFA initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010       ($580,000)           $30,000   Updated portfolio data from servicer               $—            $—                 $—                  $—
                                                     Home Loan
            The Villages, FL
                                                     Modifications                                                7/14/2010          $70,000          $100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  2/17/2011       ($145,056)                $0   Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $2,180,000        $2,250,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       ($720,000)        $1,530,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($430,000)        $1,100,000   Updated portfolio data from servicer

                                                     Financial                                                    9/30/2010          $60,445        $1,160,445   Updated portfolio data from servicer
            Technology Credit Union,                 Instrument for                                                1/6/2011                         $1,160,444   Updated portfolio data from servicer
6/26/2009                              Purchase                                    $70,000    N/A                                                                                                               $24,250       $96,423          $42,417             $163,089
            San Jose, CA                             Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  3/30/2011                         $1,160,443
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($12)       $1,160,431
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($9)       $1,160,422
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $315,170,000       $610,150,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $90,280,000      $700,430,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010     ($18,690,000)     $681,740,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($272,640,000)      $409,100,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                  9/30/2010      $80,600,000      $489,700,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                  9/30/2010      $71,230,004      $560,930,004   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($828)     $560,929,176   Updated portfolio data from servicer
                                                                                                                  2/16/2011         $200,000      $561,129,176   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011       ($100,000)      $561,029,176   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($981)     $561,028,195
                                                     Financial                                                                                                   reallocation
            National City Bank,                      Instrument for
6/26/2009                              Purchase                              $294,980,000     N/A                 4/13/2011      ($2,300,000)     $558,728,195   Transfer of cap due to servicing transfer    $1,171,443   $4,218,459        $2,706,837          $8,096,738
            Miamisburg, OH                           Home Loan
                                                     Modifications                                                5/13/2011       ($200,000)      $558,528,195   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($200,000)      $558,328,195   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($9,197)     $558,318,998
                                                                                                                                                                 reallocation
                                                                                                                  8/16/2011               $0      $558,318,998   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011         $300,000      $558,618,998   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($300,000)      $558,318,998   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012         $200,000      $558,518,998   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($100,000)      $558,418,998   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012         $200,000      $558,618,998   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012         ($10,000)     $558,608,998   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($6,771)     $558,602,227
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                285
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                 286
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     $723,880,000     $1,357,890,000
                                                                                                                                                                 HPDP initial cap

                                                    Financial                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage, FSB,                 Instrument for                                                                                               HAFA initial cap
7/1/2009                              Purchase                              $634,010,000     N/A         3                                                                                                         $—        $76,890         $162,000             $238,890
            Des Moines, IA                          Home Loan                                                                                                    Transfer of cap (to Wells Fargo Bank) due
                                                    Modifications                                                2/17/2010   ($2,050,236,344)         $293,656
                                                                                                                                                                 to merger
                                                                                                                                                                 Transfer of cap (to Wells Fargo Bank) due
                                                                                                                 3/12/2010          ($54,767)         $238,890
                                                                                                                                                                 to merger
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $23,850,000       $68,110,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009       $43,590,000      $111,700,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010       $34,540,000      $146,240,000   Updated portfolio data from servicer
                                                                                                                  5/7/2010        $1,010,000      $147,250,000   Initial 2MP cap
                                                                                                                 7/14/2010     ($34,250,000)      $113,000,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010          $600,000      $113,600,000   Initial FHA-2LP cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 9/30/2010     ($15,252,303)       $98,347,697   Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($70)      $98,347,627   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($86)      $98,347,541
                                                                                                                                                                 reallocation
                                                    Financial                                                    4/13/2011          $400,000       $98,747,541   Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                               $44,260,000     N/A                                                                                                             $3,948,767   $8,113,932        $6,726,046         $18,788,745
            LLC, Coral Gables, FL                   Home Loan                                                    5/13/2011          $100,000       $98,847,541   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011             ($771)      $98,846,770
                                                                                                                                                                 reallocation
                                                                                                                 9/15/2011          $600,000       $99,446,770   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011     ($18,900,000)       $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012          $900,000       $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        $2,400,000       $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($100,000)       $83,746,770   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012          $200,000       $83,946,770   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012           $30,000       $83,976,770   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        $1,810,000       $85,786,770   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012             ($508)      $85,786,262
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009          $150,000          $250,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009          $130,000          $380,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010           $50,000          $430,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010          ($30,000)         $400,000   Updated portfolio data from servicer
                                                    Financial
            Lake National Bank,                     Instrument for                                               9/30/2010           $35,167          $435,167   Updated portfolio data from servicer
7/10/2009                             Purchase                                  $100,000     N/A                                                                                                                $3,000        $3,651            $4,000             $10,651
            Mentor, OH                              Home Loan
                                                    Modifications                                                 1/6/2011                            $435,166   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011                            $435,165
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011               ($6)         $435,159
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012               ($4)         $435,155
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($10,000)         $860,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $250,000        $1,110,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010         ($10,000)       $1,100,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($400,000)          $700,000   Updated portfolio data from servicer
                                                     Financial
            IBM Southeast Employees’
                                                     Instrument for                                               9/30/2010         $170,334          $870,334   Updated portfolio data from servicer
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A                                                                                                                $9,000       $23,394          $16,000              $48,394
                                                     Home Loan
            Delray Beach,FL                                                                                        1/6/2011                           $870,333   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $870,332
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($12)         $870,320
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($9)         $870,311
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $18,530,000       $42,010,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $24,510,000       $66,520,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $18,360,000       $84,880,000   Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010     ($22,580,000)      $62,300,000   Updated portfolio data from servicer
            MorEquity, Inc.,                         Instrument for
7/17/2009                              Purchase                               $23,480,000     N/A         11      9/30/2010      ($8,194,261)      $54,105,739   Updated portfolio data from servicer          $345,841    $2,305,003        $1,977,321          $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                                 1/6/2011             ($37)      $54,105,702   Updated portfolio data from servicer
                                                                                                                  3/16/2011     ($29,400,000)      $24,705,702   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($34)      $24,705,668
                                                                                                                                                                 reallocation
                                                                                                                                                                 Termination of SPA
                                                                                                                  5/26/2011     ($20,077,503)       $4,628,165
                                                                                                                                                                 (remaining cap equals distribution amount)
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($36,240,000)      $18,230,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $19,280,000       $37,510,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,470,000       $39,980,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($17,180,000)      $22,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010      $35,500,000       $58,300,000   Initial FHA-2LP cap and initial 2MP cap
                                                     Financial                                                    9/30/2010      $23,076,191       $81,376,191   Updated portfolio data from servicer
            PNC Bank, National
                                                     Instrument for
7/17/2009   Association,               Purchase                               $54,470,000     N/A                  1/6/2011            ($123)      $81,376,068   Updated portfolio data from servicer           $26,583      $245,244         $221,250             $493,077
                                                     Home Loan
            Pittsburgh, PA
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($147)      $81,375,921
                                                                                                                                                                 reallocation
                                                                                                                  5/13/2011       ($100,000)       $81,275,921   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($1,382)      $81,274,539
                                                                                                                                                                 reallocation
                                                                                                                 10/14/2011       ($300,000)       $80,974,539   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($1,003)      $80,973,536
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($90,000)          $80,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009          $50,000          $130,000
                                                     Financial                                                                                                   HAFA initial cap
            Farmers State Bank,                      Instrument for
7/17/2009                              Purchase                                  $170,000     N/A                 3/26/2010         $100,000          $230,000   Updated portfolio data from servicer               $—            $—                 $—                  $—
            West Salem, OH                           Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




                                                                                                                  7/14/2010       ($130,000)          $100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  5/20/2011       ($145,056)                $0   Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                287
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                 288
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $890,000        $2,300,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $1,260,000        $3,560,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010         ($20,000)       $3,540,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($240,000)        $3,300,000   Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010         $471,446        $3,771,446   Updated portfolio data from servicer
            ShoreBank,                               Instrument for
7/17/2009                              Purchase                                 $1,410,000    N/A                  1/6/2011              ($3)       $3,771,443   Updated portfolio data from servicer           $49,915      $153,906         $143,165             $346,986
            Chicago, IL                              Home Loan
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($4)       $3,771,439
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011      ($1,100,000)       $2,671,439   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($38)       $2,671,401
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($29)       $2,671,372
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $250,450,000     $1,469,270,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010    $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                 10/15/2010         $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2010       ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011          ($1,173)   $1,305,989,335   Updated portfolio data from servicer
            American Home Mortgage                   Financial
            Servicing, Inc (Homeward                 Instrument for                                               2/16/2011       ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
7/22/2009                              Purchase                            $1,272,490,000     N/A                                                                                                            $31,654,995   $99,560,346      $69,454,750       $200,670,091
            Residential),                            Home Loan
            Coppell, TX                              Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011         ($12,883)   $1,308,575,052
                                                                                                                                                                 reallocation
                                                                                                                  9/15/2011      ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011       ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011      ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012         ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($8,378)   $1,306,356,674
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009       $1,780,000        $5,990,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $2,840,000        $8,830,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,800,000       $11,630,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($5,730,000)       $5,900,000   Updated portfolio data from servicer
                                                     Financial
            Mortgage Center, LLC,                    Instrument for                                               9/30/2010       $2,658,280        $8,558,280   Updated portfolio data from servicer
7/22/2009                              Purchase                                 $4,210,000    N/A                                                                                                               $73,939      $143,149         $166,278             $383,365
            Southfield, MI                           Home Loan
                                                     Modifications                                                 1/6/2011             ($12)       $8,558,268   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($14)       $8,558,254
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($129)       $8,558,125
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($94)       $8,558,031
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009       ($490,000)          $370,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $6,750,000        $7,120,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      ($6,340,000)         $780,000   Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010       ($180,000)          $600,000   Updated portfolio data from servicer
            Mission Federal Credit                   Instrument for
7/22/2009                              Purchase                                  $860,000     N/A                 9/30/2010         $125,278          $725,278   Updated portfolio data from servicer        $31,588       $87,921          $66,472             $185,981
            Union, San Diego, CA                     Home Loan
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $725,277
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($4)         $725,273
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012                           $725,272
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      ($1,530,000)       $4,930,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $680,000        $5,610,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,460,000        $8,070,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($2,470,000)       $5,600,000   Updated portfolio data from servicer
                                                     Financial
            First Bank,                              Instrument for                                               9/30/2010       $2,523,114        $8,123,114   Updated portfolio data from servicer
7/29/2009                              Purchase                                 $6,460,000    N/A                                                                                                           $497,642    $1,146,897         $966,528           $2,611,067
            St. Louis, MO                            Home Loan
                                                     Modifications                                                 1/6/2011              ($2)       $8,123,112   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)       $8,123,110
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($15)       $8,123,095
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($3)       $8,123,092
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($60,000)       $1,030,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $1,260,000        $2,290,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,070,000        $4,360,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($3,960,000)         $400,000   Updated portfolio data from servicer
                                                     Financial
            Purdue Employees Federal
                                                     Instrument for                                               9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
7/29/2009   Credit Union,              Purchase                                 $1,090,000    N/A                                                                                                             $1,000          $795            $2,000              $3,795
                                                     Home Loan
            West Lafayette, IN                                                                                     1/6/2011                           $580,221   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($8)         $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($6)         $580,206
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($37,700,000)      $47,320,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $26,160,000       $73,480,000
                                                     Financial                                                                                                   HAFA initial cap
            Wachovia Bank, N.A.,                     Instrument for
7/29/2009                              Purchase                               $85,020,000     N/A                 3/26/2010       $9,820,000       $83,300,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Charlotte, NC                            Home Loan
                                                     Modifications                                                7/14/2010     ($46,200,000)      $37,100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010     ($28,686,775)       $8,413,225   Updated portfolio data from servicer
                                                                                                                  12/3/2010      ($8,413,225)               $0   Termination of SPA
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                             289
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                     290
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives      Incentives       Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($14,850,000)    $2,684,870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 3/26/2010    $1,006,580,000    $4,869,630,000
                                                                                                                                                                 2MP initial cap
                                                                                                                 7/14/2010   ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                 9/30/2010       $72,400,000    $3,007,800,000
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                 9/30/2010     $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                                                                                 3/16/2011        ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($3,999)   $3,223,317,901
                                                                                                                                                                 reallocation

                                                    Financial                                                    4/13/2011        ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
            J.P. Morgan Chase Bank,                 Instrument for
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




7/31/2009                             Purchase                            $2,699,720,000     N/A                 5/13/2011     $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer    $138,127,005   $257,612,401    $216,452,100        $612,191,506
            NA, Lewisville, TX                      Home Loan
                                                    Modifications                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($34,606)   $3,345,783,295
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011          $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                10/19/2011     $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011       ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012    ($126,080,000)    $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($16,192)   $3,734,578,412
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($10,000)     $707,370,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $502,430,000     $1,209,800,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    3/26/2010   ($134,560,000)    $1,075,240,000
                                                                                                                                                                   2MP initial cap
                                                                                                                    7/14/2010   ($392,140,000)      $683,100,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Saxon Mortgage
                                                                                                                    7/16/2010       ($630,000)      $682,470,000
                                                                                                                                                                   Services, Inc.
                                                                                                                                                                   Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010      $13,100,000      $695,570,000
                                                                                                                                                                   cap

                                                       Financial                                                    9/30/2010      ($8,006,457)     $687,563,543   Updated portfolio data from servicer
            EMC Mortgage Corporation,                  Instrument for                                              10/15/2010       ($100,000)      $687,463,543   Transfer of cap due to servicing transfer
7/31/2009                                Purchase                              $707,380,000     N/A         14                                                                                                 $7,569,459   $11,592,937      $16,279,383         $35,441,779
            Lewisville, TX                             Home Loan
                                                       Modifications                                               12/15/2010      ($4,400,000)     $683,063,543   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($802)     $683,062,741   Updated portfolio data from servicer
                                                                                                                    2/16/2011       ($900,000)      $682,162,741   Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011      ($4,000,000)     $678,162,741   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($925)     $678,161,816
                                                                                                                                                                   reallocation
                                                                                                                    5/13/2011   ($122,900,000)      $555,261,816   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($8,728)     $555,253,088
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011       ($600,000)      $554,653,088   Transfer of cap due to servicing transfer
                                                                                                                   10/19/2011   ($519,211,309)       $35,441,779   Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009        $180,000           $600,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       ($350,000)          $250,000
                                                                                                                                                                   HAFA initial cap

                                                       Financial                                                    3/26/2010          $20,000          $270,000   Updated portfolio data from servicer
                                                       Instrument for
8/5/2009    Lake City Bank, Warsaw, IN   Purchase                                  $420,000     N/A                 7/14/2010         ($70,000)         $200,000   Updated portfolio data from servicer           $3,926         $3,552         $11,273              $18,751
                                                       Home Loan
                                                       Modifications                                                9/30/2010          $90,111          $290,111   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($3)         $290,108
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($2)         $290,106
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009        $290,000           $430,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009        $210,000           $640,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010        $170,000           $810,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010         ($10,000)         $800,000   Updated portfolio data from servicer
                                                       Financial
            Oakland Municipal Credit                   Instrument for                                               9/30/2010         ($74,722)         $725,278   Updated portfolio data from servicer
8/5/2009                                 Purchase                                  $140,000     N/A         12                                                                                                       $—          $3,568           $6,500             $10,068
            Union, Oakland, CA                         Home Loan                                                     1/6/2011                           $725,277   Updated portfolio data from servicer
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011                           $725,276
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011       ($200,000)          $525,276   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($7)         $525,269
                                                                                                                                                                   reallocation
                                                                                                                    7/22/2011       ($515,201)           $10,068   Termination of SPA
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 291
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)                                                                                                                                                                                    292
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                            TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                             Incentives     Incentives       Incentives           Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009   ($121,190,000)      $552,810,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009     ($36,290,000)     $516,520,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010    $199,320,000       $715,840,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($189,040,000)      $526,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010      $38,626,728      $565,426,728   Updated portfolio data from servicer
                                                      Financial                                                   10/15/2010   ($170,800,000)      $394,626,728   Transfer of cap due to servicing transfer
                                                      Instrument for
8/5/2009    HomEq Servicing             Purchase                              $674,000,000     N/A                12/15/2010     ($22,200,000)     $372,426,728   Updated portfolio data from servicer                  $—      $3,036,319       $5,272,500          $8,308,819
                                                      Home Loan
                                                      Modifications
                                                                                                                    1/6/2011            ($549)     $372,426,179   Updated portfolio data from servicer
                                                                                                                   2/16/2011       ($900,000)      $371,526,179   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($653)     $371,525,526
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($6,168)     $371,519,358
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($4,634)     $371,514,724
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $313,050,000     $1,087,950,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009    $275,370,000     $1,363,320,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010    $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                   8/13/2010       ($700,000)    $1,166,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/15/2010      ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/30/2010   ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                  10/15/2010       ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010         $800,000    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                    1/6/2011          ($1,286)   $1,050,781,478   Updated portfolio data from servicer
                                                                                                                   3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
            Litton Loan Servicing LP,                 Instrument for                                               3/30/2011          ($1,470)   $1,059,580,008
8/12/2009                               Purchase                              $774,900,000     N/A                                                                reallocation                                   $13,441,220   $35,353,126      $27,530,414         $76,324,760
            Houston, TX                               Home Loan
                                                      Modifications                                                4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011       ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011       ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011         ($13,097)   $1,055,266,911
                                                                                                                                                                  reallocation
                                                                                                                   7/14/2011       ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011      ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011       ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011       ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011      ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012   ($194,800,000)      $853,966,911   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012       ($400,000)      $853,566,911   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($9,728)     $853,557,183
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009      ($1,200,000)       $5,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009      $30,800,000       $35,810,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010      $23,200,000       $59,010,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 6/16/2010       $2,710,000       $61,720,000
                                                                                                                                                                to servicing transfer
                                                                                                                 7/14/2010     ($18,020,000)      $43,700,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 7/16/2010       $6,680,000       $50,380,000
                                                                                                                                                                to servicing transfer
                                                                                                                 8/13/2010       $2,600,000       $52,980,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010       ($100,000)       $52,880,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010         $200,000       $53,080,000   Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                 9/30/2010      ($1,423,197)      $51,656,803   Updated portfolio data from servicer
                                                                                                                11/16/2010       $1,400,000       $53,056,803   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010       ($100,000)       $52,956,803   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($72)      $52,956,731   Updated portfolio data from servicer
                                                                                                                 1/13/2011       $4,100,000       $57,056,731   Transfer of cap due to servicing transfer
                                                    Financial                                                    2/16/2011       ($100,000)       $56,956,731   Transfer of cap due to servicing transfer
            PennyMac Loan Services,                 Instrument for
8/12/2009                             Purchase                                 $6,210,000    N/A                                                                                                               $2,797,551   $4,023,481        $3,576,201         $10,397,232
            LLC, Calasbasa, CA                      Home Loan                                                    3/16/2011       $4,000,000       $60,956,731   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($94)      $60,956,637
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011       ($100,000)       $60,856,637   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $5,800,000       $66,656,637   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $600,000       $67,256,637   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($812)      $67,255,825
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011       $2,500,000       $69,755,825   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       $2,800,000       $72,555,825   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $300,000       $72,855,825   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $900,000       $73,755,825   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $800,000       $74,555,825   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $200,000       $74,755,825   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,900,000       $76,655,825   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $200,000       $76,855,825   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,340,000       $78,195,825   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($340)      $78,195,485
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                 293
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                   294
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($25,510,000)       $4,220,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009         $520,000        $4,740,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010       $4,330,000        $9,070,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 4/19/2010         $230,000        $9,300,000
                                                                                                                                                                to servicing transfer
                                                                                                                 5/19/2010         $850,000       $10,150,000   Initial 2MP cap
                                                                                                                 7/14/2010       ($850,000)        $9,300,000   Updated portfolio data from servicer
                                                                                                                 9/15/2010         $100,000        $9,400,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010         $100,000        $9,500,000   Initial FHA-HAMP cap
                                                                                                                 9/30/2010      $16,755,064       $26,255,064   Updated portfolio data from servicer
                                                                                                                10/15/2010         $100,000       $26,355,064   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010         $100,000       $26,455,064   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($40)      $26,455,024   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 1/13/2011         $300,000       $26,755,024   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011         $100,000       $26,855,024   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011       $2,200,000       $29,055,024   Transfer of cap due to servicing transfer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                                                                              Updated due to quarterly assessment and
8/12/2009                             Purchase                               $29,730,000     N/A                 3/30/2011             ($52)      $29,054,972                                                   $137,593      $323,870         $220,309             $681,772
            Titusville, PA                          Home Loan                                                                                                   reallocation
                                                    Modifications                                                4/13/2011       $1,500,000       $30,554,972   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $1,000,000       $31,554,972   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000       $31,654,972   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($534)      $31,654,438
                                                                                                                                                                reallocation
                                                                                                                 8/16/2011         $700,000       $32,354,438   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       ($600,000)       $31,754,438   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       $4,000,000       $35,754,438   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $600,000       $36,354,438   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $200,000       $36,554,438   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $100,000       $36,654,438   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       $1,300,000       $37,954,438   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,100,000       $39,054,438   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $800,000       $39,854,438   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012      ($1,080,000)      $38,774,438   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,560,000       $40,334,438   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($465)      $40,333,973
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                 10/2/2009    $145,800,000       $814,240,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   $1,355,930,000    $2,170,170,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010    $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer

                                                    Financial                                                    9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
            OneWest Bank,                           Instrument for                                               9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                            $25,975,117   $87,841,858      $47,391,810       $161,208,785
            Pasadena, CA                            Home Loan
                                                    Modifications                                                 1/6/2011          ($2,282)   $1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011         ($24,616)   $1,836,229,265
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012         ($15,481)   $1,836,213,784
                                                                                                                                                                reallocation
                                                                                                                 10/2/2009          $70,000          $370,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,680,000        $3,050,000
                                                                                                                                                                HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                               3/26/2010         $350,000        $3,400,000   Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                   $—             $—                $—                  $—
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                                7/14/2010      ($1,900,000)       $1,500,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010      ($1,209,889)         $290,111   Updated portfolio data from servicer
                                                                                                                 3/23/2010       ($290,111)                $0   Termination of SPA
                                                                                                                 10/2/2009         $130,000          $700,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       ($310,000)          $390,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010       $2,110,000        $2,500,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       $8,300,000       $10,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010       $5,301,172       $16,101,172   Updated portfolio data from servicer
                                                    Financial
            RoundPoint Mortgage                                                                                   1/6/2011             ($22)      $16,101,150   Updated portfolio data from servicer
                                                    Instrument for
8/28/2009   Servicing Corporation,    Purchase                                  $570,000     N/A                                                                                                               $79,380      $231,382         $184,337             $495,099
                                                    Home Loan                                                    3/16/2011       ($400,000)       $15,701,150   Transfer of cap due to servicing transfer
            Charlotte, NC
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($25)      $15,701,125
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011               $0       $15,701,125   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($232)      $15,700,893
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($174)      $15,700,719
                                                                                                                                                                reallocation
                                                                                                                 10/2/2009         $130,000          $690,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       $1,040,000        $1,730,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010      ($1,680,000)          $50,000   Updated portfolio data from servicer
                                                                                                                 5/12/2010       $1,260,000        $1,310,000   Updated portfolio data from servicer
                                                    Financial
            Horicon Bank,                           Instrument for                                               7/14/2010      ($1,110,000)         $200,000   Updated portfolio data from servicer
9/2/2009                              Purchase                                  $560,000     N/A                                                                                                                $3,348       $10,261            $6,570             $20,179
            Horicon, WI                             Home Loan
                                                    Modifications                                                9/30/2010         $100,000          $300,000   Initial RD-HAMP
                                                                                                                 9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($3)         $290,108
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($2)         $290,106
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               295
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)                                                                                                                                                                                296
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                     10/2/2009       $1,310,000        $7,310,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009      ($3,390,000)       $3,920,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010         $410,000        $4,330,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($730,000)        $3,600,000   Updated portfolio data from servicer
                                                                                                                     9/15/2010       $4,700,000        $8,300,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010         $117,764        $8,417,764   Updated portfolio data from servicer
                                                                                                                    11/16/2010         $800,000        $9,217,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $2,700,000       $11,917,764   Updated portfolio data from servicer

                                                        Financial                                                     1/6/2011             ($17)      $11,917,747   Updated portfolio data from servicer
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                               1/13/2011         $700,000       $12,617,747   Transfer of cap due to servicing transfer
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                  $186,337      $373,215         $316,156             $875,708
                                                        Home Loan
8/27/2010     Plano, TX
                                                        Modifications                                                2/16/2011       $1,800,000       $14,417,747   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($19)      $14,417,728
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     4/13/2011         $300,000       $14,717,728   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($189)      $14,717,539
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011         $300,000       $15,017,539   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $100,000       $15,117,539   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011         $100,000       $15,217,539   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($147)      $15,217,392
                                                                                                                                                                    reallocation
                                                                                                                     10/2/2009         $280,000        $1,530,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009       ($750,000)          $780,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010         $120,000          $900,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($300,000)          $600,000   Updated portfolio data from servicer
                                                        Financial
              Central Florida Educators                                                                              9/30/2010         $270,334          $870,334   Updated portfolio data from servicer
                                                        Instrument for
9/9/2009      Federal Credit Union,       Purchase                                 $1,250,000    N/A                                                                                                              $47,434       $78,776         $106,317             $232,528
                                                        Home Loan                                                     1/6/2011                           $870,333   Updated portfolio data from servicer
              Lake May, FL
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011                           $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($5)         $870,327
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012          $21,717          $892,044
                                                                                                                                                                    reallocation
                                                                                                                     10/2/2009      $24,920,000      $139,140,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $49,410,000      $188,550,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010      $41,830,000      $230,380,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($85,780,000)     $144,600,000   Updated portfolio data from servicer
                                                        Financial
              U.S. Bank National                                                                                     9/30/2010      $36,574,444      $181,174,444   Updated portfolio data from servicer
                                                        Instrument for
9/9/2009      Association,                Purchase                              $114,220,000     N/A                                                                                                            $5,867,358   $16,302,536      $13,130,906         $35,300,799
                                                        Home Loan                                                     1/6/2011            ($160)     $181,174,284   Updated portfolio data from servicer
              Owensboro, KY
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($172)     $181,174,112
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($1,431)     $181,172,681
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($746)     $181,171,935
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                      TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                      10/2/2009         $950,000        $5,300,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009       $5,700,000       $11,000,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010         $740,000       $11,740,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010      ($1,440,000)      $10,300,000   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      9/30/2010      ($6,673,610)       $3,626,390   Updated portfolio data from servicer
            CUC Mortgage                                 Instrument for
9/9/2009                                   Purchase                                 $4,350,000    N/A                                                                                                            $29,713       $78,063          $67,322             $175,097
            Corporation, Albany, NY                      Home Loan                                                     1/6/2011              ($5)       $3,626,385   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($6)       $3,626,379
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($52)       $3,626,327
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($38)       $3,626,289
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009         $460,000        $2,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009       $2,730,000        $5,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010      $13,280,000       $18,540,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($13,540,000)       $5,000,000   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      9/30/2010       $1,817,613        $6,817,613   Updated portfolio data from servicer
            ORNL Federal Credit Union,                   Instrument for
9/11/2009                                  Purchase                                 $2,070,000    N/A                                                                                                             $4,035        $6,623          $12,251              $22,909
            Oak Ridge, TN                                Home Loan                                                     1/6/2011             ($10)       $6,817,603   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($12)       $6,817,591
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($115)       $6,817,476
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($86)       $6,817,390
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009          $60,000          $310,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009         ($80,000)         $230,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010         $280,000          $510,000   Updated portfolio data from servicer
                                                         Financial
            Allstate Mortgage Loans &                    Instrument for                                               7/14/2010       ($410,000)          $100,000   Updated portfolio data from servicer
9/11/2009                                  Purchase                                  $250,000     N/A                                                                                                             $3,329        $7,341            $6,329             $17,000
            Investments, Inc., Ocala, FL                 Home Loan
                                                         Modifications                                                9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011                           $145,055
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012                           $145,054
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009          $70,000          $350,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009         $620,000          $970,000
                                                                                                                                                                     HAFA initial cap
                                                         Financial                                                    3/26/2010         $100,000        $1,070,000   Updated portfolio data from servicer
            Metropolitan National Bank,                  Instrument for
9/11/2009                                  Purchase                                  $280,000     N/A                                                                                                                $—            $—                 $—                  $—
            Little Rock, AR                              Home Loan                                                    7/14/2010       ($670,000)          $400,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      9/30/2010          $35,167          $435,167   Updated portfolio data from servicer
                                                                                                                       1/6/2011                           $435,166   Updated portfolio data from servicer
                                                                                                                      1/26/2011       ($435,166)                $0   Termination of SPA
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                 297
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)                                                                                                                                                                                298
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   10/2/2009       $6,010,000       $33,520,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009     ($19,750,000)      $13,770,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010      ($4,780,000)       $8,990,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($2,390,000)       $6,600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010       $2,973,670        $9,573,670   Updated portfolio data from servicer
                                                      Financial
            Franklin Credit                                                                                         1/6/2011              ($3)       $9,573,667   Updated portfolio data from servicer
                                                      Instrument for
9/11/2009   Management Corporation,     Purchase                               $27,510,000     N/A                                                                                                             $250,441      $493,734         $618,514           $1,362,689
                                                      Home Loan                                                    2/16/2011      ($1,800,000)       $7,773,667   Transfer of cap due to servicing transfer
            Jersey City, NJ
                                                      Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($6)       $7,773,661
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($61)       $7,773,600
                                                                                                                                                                  reallocation
                                                                                                                  10/14/2011       ($100,000)        $7,673,600   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($58)       $7,673,542
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                   10/2/2009          $90,000          $500,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,460,000        $1,960,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010         $160,000        $2,120,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($120,000)        $2,000,000   Updated portfolio data from servicer
                                                      Financial
            Bay Federal Credit Union,                 Instrument for                                               9/30/2010      ($1,419,778)         $580,222   Updated portfolio data from servicer
9/16/2009                               Purchase                                  $410,000     N/A                                                                                                                  $—            $—                 $—                  $—
            Capitola, CA                              Home Loan
                                                      Modifications                                                 1/6/2011                           $580,221   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011                           $580,220
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)         $580,212
                                                                                                                                                                  reallocation
                                                                                                                   1/25/2012       ($580,212)                $0   Termination of SPA
                                                                                                                   10/2/2009         $960,000        $5,350,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009      ($3,090,000)       $2,260,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010         $230,000        $2,490,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       $5,310,000        $7,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010         $323,114        $8,123,114   Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($12)       $8,123,102   Updated portfolio data from servicer
                                                                                                                   3/16/2011         $600,000        $8,723,102   Transfer of cap due to servicing transfer

                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($16)       $8,723,086
            AMS Servicing, LLC,                       Instrument for                                                                                              reallocation
9/23/2009                               Purchase                                 $4,390,000    N/A                                                                                                                  $—         $1,470                $—              $1,470
            Buffalo, NY                               Home Loan                                                    4/13/2011         $200,000        $8,923,086   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                   5/13/2011         $100,000        $9,023,086   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($153)       $9,022,933
                                                                                                                                                                  reallocation
                                                                                                                   9/15/2011         $100,000        $9,122,933   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $100,000        $9,222,933   Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012       $1,100,000       $10,322,933   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $650,000       $10,972,933   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012            ($136)      $10,972,797
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   10/2/2009          $90,000          $480,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $940,000         $1,420,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010       ($980,000)          $440,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($140,000)          $300,000   Updated portfolio data from servicer
                                                      Financial
                                                                                                                   9/30/2010       $1,150,556        $1,450,556   Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                            $10,750       $36,508          $23,500              $70,758
            Union, Sacramento, CA                     Home Loan                                                     1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,450,552
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($22)       $1,450,530
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($16)       $1,450,514
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009          $60,000          $290,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009         ($10,000)         $280,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010        $130,000           $410,000   Updated portfolio data from servicer
                                                      Financial
            Glass City Federal Credit                 Instrument for                                               7/14/2010       ($110,000)          $300,000   Updated portfolio data from servicer
9/23/2009                               Purchase                                  $230,000     N/A                                                                                                             $3,000        $2,223            $5,000             $10,223
            Union, Maumee, OH                         Home Loan
                                                      Modifications                                                9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($3)         $290,108
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($2)         $290,106
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009          $10,000           $40,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $120,000           $160,000
                                                                                                                                                                  HAFA initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                               3/26/2010          $10,000          $170,000   Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                                     30,000    N/A                                                                                                                $—            $—                 $—                  $—
                                                      Home Loan
            Woodbridge, NJ                                                                                         7/14/2010         ($70,000)         $100,000   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  10/29/2010       ($145,056)                $0   Termination of SPA
                                                                                                                   10/2/2009          $60,000          $300,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $350,000           $650,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010       $1,360,000        $2,010,000   Updated portfolio data from servicer
                                                      Financial                                                    7/14/2010      ($1,810,000)         $200,000   Updated portfolio data from servicer
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                                  $240,000     N/A                 9/30/2010        $235,167           $435,167   Updated portfolio data from servicer        $10,634       $14,270          $29,484              $54,388
            Elkin, NC                                 Home Loan
                                                      Modifications
                                                                                                                    1/6/2011                           $435,166   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($4)         $435,162
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($3)         $435,159
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009        $100,000           $540,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $20,000          $560,000
                                                                                                                                                                  HAFA initial cap

                                                      Financial                                                    3/26/2010       ($290,000)          $270,000   Updated portfolio data from servicer
                                                      Instrument for
9/25/2009   SEFCU, Albany, NY           Purchase                                  $440,000     N/A                 7/14/2010         ($70,000)         $200,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                      Home Loan
                                                      Modifications                                                9/30/2010         ($54,944)         $145,056   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011                           $145,055
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                  reallocation
                                                                                                                   4/11/2012       ($145,055)                $0   Termination of SPA
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              299
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                300
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,030,000        $1,600,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       ($880,000)          $720,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($320,000)          $400,000   Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
             Great Lakes Credit Union,                 Instrument for                                                1/6/2011                           $580,221   Updated portfolio data from servicer
10/14/2009                               Purchase                                  $570,000     N/A                                                                                                               $5,917         $8,006           $7,500             $21,423
             North Chicago, IL                         Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011                           $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($6)         $580,206
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      ($2,900,000)       $1,960,000
                                                                                                                                                                   HAFA initial cap
                                                       Financial                                                    3/26/2010      ($1,600,000)         $360,000   Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A                                                                                                                  $—             $—                $—                  $—
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




             Corporation, Tulsa, OK                    Home Loan                                                    7/14/2010       ($260,000)          $100,000   Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                     3/9/2011       ($145,056)                $0   Termination of SPA
                                                                                                                    1/22/2010          $20,000          $430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $400,000          $830,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($430,000)          $400,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                    1/6/2011                           $580,221   Updated portfolio data from servicer
                                                       Instrument for
10/21/2009   Corporation,                Purchase                                  $410,000     N/A                                                                                                              $23,901       $46,028          $45,446             $115,376
                                                       Home Loan
             Grand Rapids, MI                                                                                                                                      Updated due to quarterly assessment and
                                                       Modifications                                                3/30/2011                           $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($5)         $580,215
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($4)         $580,211
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010       $4,370,000       $98,030,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      $23,880,000      $121,910,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($16,610,000)     $105,300,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       $1,751,033      $107,051,033   Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($77)     $107,050,956   Updated portfolio data from servicer
                                                       Financial
             Bank United,                              Instrument for                                               3/16/2011      ($9,900,000)      $97,150,956   Transfer of cap due to servicing transfer
10/23/2009                               Purchase                               $93,660,000     N/A                                                                                                            $3,944,973   $10,742,313       $7,301,320         $21,988,606
             Miami Lakes, FL                           Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                                3/30/2011             ($88)      $97,150,868
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($773)      $97,150,095
                                                                                                                                                                   reallocation
                                                                                                                    3/15/2012      ($1,400,000)      $95,750,095   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012            ($277)      $95,749,818
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010           $40,000          $800,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($760,000)           $40,000   Updated portfolio data from servicer
                                                                                                                   5/12/2010        $2,630,000        $2,670,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($770,000)        $1,900,000   Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010         $565,945         $2,465,945   Updated portfolio data from servicer
             IC Federal Credit Union,                  Instrument for
10/23/2009                               Purchase                                  $760,000     N/A                 1/6/2011               ($4)       $2,465,941   Updated portfolio data from servicer        $10,000       $19,757          $21,000              $50,757
             Fitchburg, MA                             Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($4)       $2,465,937
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($40)       $2,465,897
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($29)       $2,465,868
                                                                                                                                                                   reallocation
                                                       Financial
             Harleysville National
                                                       Instrument for
10/28/2009   Bank & Trust Company,       Purchase                                 $1,070,000    N/A                4/21/2010       ($1,070,000)               $0   Termination of SPA                              $—            $—                 $—                  $—
                                                       Home Loan
             Harleysville, PA
                                                       Modifications
                                                       Financial
             Members Mortgage                          Instrument for
10/28/2009                               Purchase                                  $510,000     N/A                4/21/2010        ($510,000)                $0   Termination of SPA                              $—            $—                 $—                  $—
             Company, Inc, Woburn, MA                  Home Loan
                                                       Modifications
                                                                                                                   1/22/2010           $10,000           $80,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $10,000           $90,000   Updated portfolio data from servicer
                                                       Financial
             DuPage Credit Union,                      Instrument for                                              7/14/2010           $10,000          $100,000   Updated portfolio data from servicer
10/30/2009                               Purchase                                    $70,000    N/A                                                                                                             $2,514       $16,802            $6,214             $25,531
             Naperville, IL                            Home Loan
                                                       Modifications                                               9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011                            $145,055
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010           $40,000          $740,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $50,000          $790,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        $1,310,000        $2,100,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $75,834        $2,175,834   Updated portfolio data from servicer
                                                       Financial
             Los Alamos National Bank,                 Instrument for                                               1/6/2011               ($3)       $2,175,831   Updated portfolio data from servicer
11/6/2009                                Purchase                                  $700,000     N/A                                                                                                             $7,538       $13,790          $20,993              $42,321
             Los Alamos, NM                            Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011               ($4)       $2,175,827
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($35)       $2,175,792
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($26)       $2,175,766
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                               301
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                302
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010         $890,000        $19,850,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $3,840,000       $23,690,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($2,890,000)      $20,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $9,661,676       $30,461,676   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($46)      $30,461,630   Updated portfolio data from servicer
                                                                                                                   1/13/2011        $1,600,000       $32,061,630   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011        $1,400,000       $33,461,630   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($58)      $33,461,572
                                                                                                                                                                   reallocation
                                                       Financial                                                   4/13/2011         $100,000        $33,561,572   Transfer of cap due to servicing transfer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                               $18,960,000     N/A                5/13/2011         $100,000        $33,661,572   Transfer of cap due to servicing transfer    $125,560      $288,189         $172,984             $586,733
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications
                                                                                                                   6/16/2011         $800,000        $34,461,572   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($559)      $34,461,013
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                   7/14/2011         $300,000        $34,761,013   Transfer of cap due to servicing transfer
                                                                                                                   8/16/2011         $200,000        $34,961,013   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $100,000        $35,061,013   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $100,000        $35,161,013   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $330,000        $35,491,013   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($428)      $35,490,585
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010           $80,000        $1,750,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $330,000         $2,080,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,080,000)       $1,000,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010         $160,445         $1,160,445   Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                 Instrument for                                               1/6/2011                          $1,160,444   Updated portfolio data from servicer
11/18/2009                               Purchase                                 $1,670,000    N/A                                                                                                              $14,943       $21,839          $36,529              $73,311
             Bank, Hillsdale, MI                       Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011               ($2)       $1,160,442
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($16)       $1,160,426
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($12)       $1,160,414
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010                $0           $20,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          ($10,000)          $10,000 Updated portfolio data from servicer

                                                       Financial                                                   7/14/2010           $90,000          $100,000   Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for                                              9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
11/18/2009                               Purchase                                    $20,000    N/A                                                                                                                  $—            $—                 $—                  $—
             Coral Gables, FL                          Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   6/29/2011                            $145,055
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012                            $145,054
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                  1/22/2010          $950,000       $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010      ($17,880,000)       $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due
                                                                                                                  6/16/2010        $1,030,000        $4,460,000
                                                                                                                                                                   to servicing transfer
                                                                                                                  7/14/2010       ($1,160,000)       $3,300,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010          $800,000        $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010          $200,000        $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                  9/30/2010        $1,357,168        $5,657,168    Updated portfolio data from servicer
                                                                                                                   1/6/2011                          $5,657,167    Updated portfolio data from servicer
                                                                                                                  3/16/2011        $5,700,000       $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($6)      $11,357,161
                                                      Financial                                                                                                    reallocation
              Marix Servicing, LLC,                   Instrument for
11/25/2009                              Purchase                               $20,360,000     N/A                4/13/2011        $7,300,000       $18,657,161    Transfer of cap due to servicing transfer      $352,196      $970,197         $839,633           $2,162,025
              Phoenix, AZ                             Home Loan
                                                      Modifications                                               5/13/2011          $300,000       $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011          $900,000       $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($154)      $19,857,007
                                                                                                                                                                   reallocation
                                                                                                                  7/14/2011          $100,000       $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011          $300,000       $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012       ($1,500,000)      $18,757,007    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)      $16,657,007    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012       ($1,300,000)      $15,357,007    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($8,350,000)       $7,007,007    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($38)       $7,006,969
                                                                                                                                                                   reallocation
                                                      Financial
              Home Financing Center,                  Instrument for
11/25/2009                              Purchase                                  $230,000     N/A                4/21/2010        ($230,000)                $0    Termination of SPA                                  $—            $—                 $—                  $—
              Inc, Coral Gables FL                    Home Loan
                                                      Modifications
                                                                                                                  1/22/2010           $50,000        $1,710,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        $1,020,000        $2,730,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($950,000)        $1,780,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $50,556        $1,830,556    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)       $1,830,554    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($2)       $1,830,552
                                                                                                                                                                   reallocation
                                                                                                                  6/16/2011        ($100,000)        $1,730,552    Transfer of cap due to servicing transfer
                                                      Financial
              First Keystone Bank,                                                                                                                                 Updated due to quarterly assessment and
11/25/2009,                                           Instrument for                                              6/29/2011              ($21)       $1,730,531
              Media, PA,                Purchase                                 $1,660,000    N/A         12                                                      reallocation                                     $2,776        $3,423            $8,718             $14,917
12/4/2009                                             Home Loan
              Clark Summit, PA
                                                      Modifications                                               7/22/2011       ($1,335,614)         $394,917    Termination of SPA
                                                                                                                  1/22/2010           $10,000           $10,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010          $520,000          $530,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($810,000)         ($280,000)   Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056         ($234,944)   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/29/2011                           ($234,945)
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/28/2012                           ($234,946)
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   303
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)                                                                                                                                                                              304
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                      TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                    1/22/2010          $440,000        $9,870,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010       $14,480,000       $24,350,000   Updated portfolio data from servicer
                                                                                                                    5/26/2010      ($24,200,000)         $150,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    7/14/2010          $150,000          $300,000   Updated portfolio data from servicer
            Idaho Housing and Finance                   Instrument for
12/4/2009                                 Purchase                                 $9,430,000    N/A                                                                                                            $12,169       $12,550          $19,253              $43,972
            Association, Boise, ID                      Home Loan                                                   9/30/2010           ($9,889)         $290,111   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($3)         $290,108
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012               ($2)         $290,106
                                                                                                                                                                    reallocation
                                                                                                                    1/22/2010           $10,000          $370,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $850,000        $1,220,000   Updated portfolio data from servicer

                                                        Financial                                                   7/14/2010        ($120,000)        $1,100,000   Updated portfolio data from servicer
            Spirit of Alaska Federal                    Instrument for
12/9/2009                                 Purchase                                  $360,000     N/A                9/30/2010          $100,000        $1,200,000   Initial FHA-HAMP cap                            $—            $—                 $—                  $—
            Credit Union, Fairbanks, AK                 Home Loan
                                                        Modifications                                               9/30/2010          $105,500        $1,305,500   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     1/6/2011               ($2)       $1,305,498   Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($1,305,498)               $0   Termination of SPA
                                                                                                                    1/22/2010           $70,000        $1,660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        ($290,000)        $1,370,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($570,000)          $800,000   Updated portfolio data from servicer

                                                        Financial                                                   9/30/2010           $70,334          $870,334   Updated portfolio data from servicer
            American Eagle Federal
                                                        Instrument for                                               1/6/2011                            $870,333   Updated portfolio data from servicer
12/9/2009   Credit Union, East            Purchase                                 $1,590,000    N/A                                                                                                                $—            $—                 $—                  $—
                                                        Home Loan
            Hartford, CT
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011                            $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($13)         $870,319
                                                                                                                                                                    reallocation
                                                                                                                    1/25/2012        ($870,319)                $0   Termination of SPA
                                                                                                                    1/22/2010           $90,000        $1,970,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,110,000        $3,080,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,180,000)       $1,900,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010          $275,834        $2,175,834   Updated portfolio data from servicer
                                                        Financial
            Silver State Schools Credit                 Instrument for                                               1/6/2011               ($2)       $2,175,832   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $1,880,000    N/A                                                                                                            $30,356      $134,364          $59,189             $223,909
            Union, Las Vegas, NV                        Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011               ($3)       $2,175,829
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($26)       $2,175,803
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($21)       $2,175,782
                                                                                                                                                                    reallocation
                                                                                                                    1/22/2010          $140,000        $3,080,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $6,300,000        $9,380,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,980,000)       $7,400,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       ($6,384,611)       $1,015,389   Updated portfolio data from servicer
                                                        Financial
            Fidelity Homestead Savings                  Instrument for                                               1/6/2011                          $1,015,388   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $2,940,000    N/A                                                                                                                $—            $—                 $—                  $—
            Bank, New Orleans, LA                       Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011               ($2)       $1,015,386
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)       $1,015,370
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($12)       $1,015,358
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                      TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                     1/22/2010          $10,000          $240,000   Updated HPDP cap & HAFA initial cap

                                                        Financial                                                    3/26/2010        $440,000           $680,000   Updated portfolio data from servicer
             Bay Gulf Credit Union,                     Instrument for
12/9/2009                                 Purchase                                  $230,000     N/A                 7/14/2010         ($80,000)         $600,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
             Tampa, FL                                  Home Loan
                                                        Modifications                                                9/30/2010         ($19,778)         $580,222   Updated portfolio data from servicer
                                                                                                                    10/15/2010       ($580,222)                $0   Termination of SPA
                                                                                                                     1/22/2010        $290,000         $6,450,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010          $40,000        $6,490,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($2,890,000)       $3,600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010        $606,612         $4,206,612   Updated portfolio data from servicer
                                                        Financial
             The Golden 1 Credit Union,                 Instrument for                                                1/6/2011              ($4)       $4,206,608   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $6,160,000    N/A                                                                                                           $122,042      $453,485         $296,559             $872,087
             Sacramento, CA                             Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011              ($4)       $4,206,604
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($35)       $4,206,569
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($9)       $4,206,560
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010        $100,000         $2,350,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       ($740,000)        $1,610,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($710,000)          $900,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                     9/30/2010        $550,556         $1,450,556   Updated portfolio data from servicer
             Sterling Savings Bank,                     Instrument for
12/9/2009                                 Purchase                                 $2,250,000    N/A                                                                                                            $58,545      $145,764         $135,710             $340,020
             Spokane, WA                                Home Loan                                                     1/6/2011                         $1,450,555   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011                         $1,450,554
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($11)       $1,450,543
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010          $20,000          $330,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $820,000         $1,150,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($350,000)          $800,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010          $70,334          $870,334   Updated portfolio data from servicer
                                                        Financial
             HomeStar Bank & Financial                  Instrument for                                                1/6/2011                           $870,333   Updated portfolio data from servicer
12/11/2009                                Purchase                                  $310,000     N/A                                                                                                             $1,917        $5,573            $5,833             $13,323
             Services, Manteno, IL                      Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011                           $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($13)         $870,319
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($10)         $870,309
                                                                                                                                                                    reallocation

             Glenview State Bank,                       Financial                                                    1/22/2010          $20,000          $390,000   Updated HPDP cap & HAFA initial cap
             Glenview, IL                               Instrument for
12/11/2009                                Purchase                                  $370,000     N/A                 3/26/2010       $1,250,000        $1,640,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
             1000558                                    Home Loan
             1000558                                    Modifications                                                5/26/2010      ($1,640,000)               $0   Termination of SPA
                                                                                                                     1/22/2010          $30,000          $630,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $400,000         $1,030,000   Updated portfolio data from servicer
                                                        Financial
             Verity Credit Union,                       Instrument for                                               7/14/2010       ($330,000)          $700,000   Updated portfolio data from servicer
12/11/2009                                Purchase                                  $600,000     N/A                                                                                                                $—            $—                 $—                  $—
             Seatle, WA                                 Home Loan                                                    9/30/2010          $25,278          $725,278   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                      1/6/2011                           $725,277   Updated portfolio data from servicer
                                                                                                                     2/17/2011       ($725,277)                $0   Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                305
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                306
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     1/22/2010           $30,000          $660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010         $800,000         $1,460,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($360,000)        $1,100,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $60,445        $1,160,445   Updated portfolio data from servicer
                                                         Financial
             Hartford Savings Bank,                      Instrument for                                               1/6/2011               ($2)       $1,160,443   Updated portfolio data from servicer
12/11/2009                                 Purchase                                  $630,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Hartford, WI                                Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)       $1,160,441
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($18)       $1,160,423
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($14)       $1,160,409
                                                                                                                                                                     reallocation
                                                         Financial                                                   4/21/2010        ($150,000)                $0   Termination of SPA
             The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                 Purchase                                  $150,000     N/A         9                                                                                                     $4,718        $7,510            $4,718             $16,946
             Bryn Mawr, PA                               Home Loan                                                   6/16/2011         $100,000           $100,000   Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                     1/22/2010           $30,000          $650,000   Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     3/26/2010        ($580,000)           $70,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        $1,430,000        $1,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $95,612        $1,595,612   Updated portfolio data from servicer
                                                         Financial
             Citizens 1st National Bank,                 Instrument for                                               1/6/2011               ($2)       $1,595,610   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $620,000     N/A                                                                                                               $8,667       $26,372          $23,517              $58,555
             Spring Valley, IL                           Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($3)       $1,595,607
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($24)       $1,595,583
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($16)       $1,595,567
                                                                                                                                                                     reallocation
                                                                                                                     1/22/2010           $10,000          $180,000   Updated HPDP cap & HAFA initial cap

                                                         Financial                                                   3/26/2010           $30,000          $210,000   Updated portfolio data from servicer
             Golden Plains Credit Union,                 Instrument for
12/16/2009                                 Purchase                                  $170,000     N/A                7/14/2010          ($10,000)         $200,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Garden City, KS                             Home Loan
                                                         Modifications                                               9/30/2010           $90,111          $290,111   Updated portfolio data from servicer
                                                                                                                     2/17/2011        ($290,111)                $0   Termination of SPA
                                                         Financial                                                   1/22/2010         $160,000         $3,620,000   Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                         Instrument for
12/16/2009   and Loan Association of       Purchase                                 $3,460,000    N/A                                                                                                                  $—            $—                 $—                  $—
                                                         Home Loan                                                   4/21/2010       ($3,620,000)               $0   Termination of SPA
             Lakewood, Lakewood, OH
                                                         Modifications
                                                                                                                     1/22/2010           $20,000          $460,000   Updated HPDP cap & HAFA initial cap
                                                         Financial
             Sound Community Bank,                       Instrument for                                              3/26/2010        $1,430,000        $1,890,000   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $440,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Seatle, WA                                  Home Loan                                                   7/14/2010        ($390,000)        $1,500,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      9/8/2010       ($1,500,000)               $0   Termination of SPA
                                                                                                                     1/22/2010           $30,000          $730,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $1,740,000        $2,470,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($1,870,000)         $600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $850,556         $1,450,556   Updated portfolio data from servicer
                                                         Financial
             Horizon Bank, NA,                           Instrument for                                               1/6/2011               ($2)       $1,450,554   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $700,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Michigan City, IN                           Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)       $1,450,552
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($23)       $1,450,529
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($17)       $1,450,512
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010           $40,000          $800,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $140,000           $940,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)          $800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $70,334          $870,334   Updated portfolio data from servicer
                                                       Financial
             Park View Federal Savings                 Instrument for                                               1/6/2011                            $870,333   Updated portfolio data from servicer
12/16/2009                               Purchase                                  $760,000     N/A                                                                                                              $11,000       $23,937          $19,000              $53,937
             Bank, Solon, OH                           Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011                            $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($12)         $870,320
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($10)         $870,310
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010         $200,000         $4,430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       ($1,470,000)       $2,960,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)       $1,400,000   Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010        $5,852,780        $7,252,780   Updated portfolio data from servicer
                                                       Instrument for
12/23/2009   Iberiabank, Sarasota, FL    Purchase                                 $4,230,000    N/A         12      1/6/2011              ($11)       $7,252,769   Updated portfolio data from servicer              $—        $10,502          $15,000              $25,502
                                                       Home Loan
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($13)       $7,252,756
                                                                                                                                                                   reallocation
                                                                                                                   4/13/2011        ($300,000)        $6,952,756   Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)          $25,502 Termination of SPA
                                                                                                                   1/22/2010           $20,000          $360,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($320,000)           $40,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010         $760,000           $800,000   Updated portfolio data from servicer

                                                       Financial                                                   9/30/2010          ($74,722)         $725,278   Updated portfolio data from servicer
             Grafton Suburban Credit                   Instrument for                                               1/6/2011                            $725,277   Updated portfolio data from servicer
12/23/2009                               Purchase                                  $340,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Union, North Grafton, MA                  Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   3/30/2011                            $725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($11)         $725,265
                                                                                                                                                                   reallocation
                                                                                                                   1/25/2012        ($725,265)                $0   Termination of SPA
                                                                                                                   1/22/2010                $0           $60,000   Updated HPDP cap & HAFA initial cap

                                                       Financial                                                   3/26/2010           $90,000          $150,000   Updated portfolio data from servicer
             Eaton National Bank &                     Instrument for
12/23/2009                               Purchase                                    $60,000    N/A                7/14/2010           $50,000          $200,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Trust Company, Easton, OH                 Home Loan
                                                       Modifications                                               9/30/2010          ($54,944)         $145,056   Updated portfolio data from servicer
                                                                                                                   5/20/2011        ($145,056)                $0   Termination of SPA
                                                                                                                   1/22/2010                $0          $110,000   Updated HPDP cap & HAFA initial cap

                                                       Financial                                                   3/26/2010          ($20,000)          $90,000   Updated portfolio data from servicer
             Tempe Schools Credit                      Instrument for
12/23/2009                               Purchase                                  $110,000     N/A                7/14/2010           $10,000          $100,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Union, Tempe, AZ                          Home Loan
                                                       Modifications                                               9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                   12/8/2010        ($145,056)                $0   Termination of SPA
                                                                                                                   3/26/2010         $480,000           $740,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)          $600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010          ($19,778)         $580,222   Updated portfolio data from servicer
                                                       Financial                                                    1/6/2011                            $580,221   Updated portfolio data from servicer
             Fresno County Federal                     Instrument for
1/13/2010                                Purchase                                  $260,000     N/A                                                                Updated due to quarterly assessment and        $3,833       $13,204            $7,917             $24,954
             Credit Union, Fresno, CA                  Home Loan                                                   3/30/2011                            $580,220
                                                       Modifications                                                                                               reallocation
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($6)         $580,206
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 307
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                  308
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                          TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                    Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives    Incentives        Incentives           Payments
                                                                                                                      3/26/2010         $610,000          $850,000   Updated portfolio data from servicer

                                                         Financial                                                    7/14/2010          $50,000          $900,000   Updated portfolio data from servicer
            Roebling Bank,                               Instrument for
1/13/2010                                  Purchase                                  $240,000     N/A                 9/30/2010         ($29,666)         $870,334   Updated portfolio data from servicer                $—            $—                 $—                  $—
            Roebling, NJ                                 Home Loan
                                                         Modifications                                                 1/6/2011                           $870,333   Updated portfolio data from servicer
                                                                                                                      3/23/2011       ($870,333)                $0   Termination of SPA
                                                                                                                      3/26/2010         $150,000          $290,000   Updated portfolio data from servicer
                                                         Financial
            First National Bank of Grant                 Instrument for                                               7/14/2010          $10,000          $300,000   Updated portfolio data from servicer
1/13/2010                                  Purchase                                  $140,000     N/A                                                                                                                    $—            $—                 $—                  $—
            Park, Grant Park, IL                         Home Loan                                                    9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      1/26/2011       ($290,111)                $0   Termination of SPA
                                                                                                                      3/26/2010     ($51,240,000)      $12,910,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      5/14/2010       $3,000,000       $15,910,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      6/16/2010       $4,860,000       $20,770,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I July 25, 2012




                                                                                                                      7/14/2010       $3,630,000       $24,400,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      7/16/2010         $330,000       $24,730,000
                                                                                                                                                                     to servicing transfer
                                                                                                                      8/13/2010         $700,000       $25,430,000   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010         $200,000       $25,630,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($1,695,826)      $23,934,174   Updated portfolio data from servicer
                                                                                                                     11/16/2010         $200,000       $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011             ($32)      $24,134,142   Updated portfolio data from servicer
                                                                                                                      1/13/2011       $1,500,000       $25,634,142   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011       $7,100,000       $32,734,142   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($36)      $32,734,106
                                                         Financial                                                                                                   reallocation
            Specialized Loan Servicing,                  Instrument for
1/13/2010                                  Purchase                               $64,150,000     N/A                 4/13/2011       $1,000,000       $33,734,106   Transfer of cap due to servicing transfer     $1,328,139   $3,178,518        $2,881,598          $7,388,255
            LLC, Highland Ranch, CO                      Home Loan
                                                         Modifications                                                5/13/2011         $100,000       $33,834,106   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011         $300,000       $34,134,106   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($332)      $34,133,774
                                                                                                                                                                     reallocation
                                                                                                                      8/16/2011         $100,000       $34,233,774   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $300,000       $34,533,774   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011         $300,000       $34,833,774   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($1,700,000)      $33,133,774   Transfer of cap due to servicing transfer
                                                                                                                      1/13/2012       $1,600,000       $34,733,774   Transfer of cap due to servicing transfer
                                                                                                                      2/16/2012         $100,000       $34,833,774   Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012         $100,000       $34,933,774   Transfer of cap due to servicing transfer
                                                                                                                      4/16/2012      $77,600,000      $112,533,774   Transfer of cap due to servicing transfer
                                                                                                                      5/16/2012          $40,000      $112,573,774   Transfer of cap due to servicing transfer
                                                                                                                      6/14/2012       ($350,000)      $112,223,774   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012          ($1,058)     $112,222,716
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     3/26/2010       $8,680,000        $9,450,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($8,750,000)         $700,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $170,334          $870,334   Updated portfolio data from servicer
                                                        Financial                                                     1/6/2011                           $870,333   Updated portfolio data from servicer
            Greater Nevada Mortgage                     Instrument for
1/13/2010                                 Purchase                                  $770,000     N/A                                                                Updated due to quarterly assessment and       $33,161       $81,717          $62,945             $177,823
            Services, Carson City, NV                   Home Loan                                                    3/30/2011                           $870,332
                                                        Modifications                                                                                               reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($8)         $870,324
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($4)         $870,320
                                                                                                                                                                    reallocation
                                                        Financial                                                    3/26/2010      $12,190,000       $15,240,000   Updated portfolio data from servicer
            Digital Federal Credit                      Instrument for
1/15/2010                                 Purchase                                 $3,050,000    N/A                                                                                                                  $—            $—                 $—                  $—
            Union, Marlborough, MA                      Home Loan                                                    5/14/2010     ($15,240,000)               $0   Termination of SPA
                                                        Modifications
                                                                                                                     3/26/2010       ($730,000)          $230,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010         $370,000          $600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $200,000          $800,000   Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                     9/30/2010       ($364,833)          $435,167   Updated portfolio data from servicer
                                                        Financial                                                   11/16/2010         $100,000          $535,167   Transfer of cap due to servicing transfer
            iServe Residential Lending,                 Instrument for
1/29/2010                                 Purchase                                  $960,000     N/A                  1/6/2011                           $535,166   Updated portfolio data from servicer              $—            $—                 $—                  $—
            LLC , San Diego, CA                         Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     3/30/2011                           $535,165
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($7)         $535,158
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($6)         $535,152
                                                                                                                                                                    reallocation
                                                                                                                     3/26/2010         $160,000          $700,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010          $25,278          $725,278   Updated portfolio data from servicer
                                                                                                                      1/6/2011                           $725,277   Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                                                                              Updated due to quarterly assessment and
1/29/2010   United Bank, Griffin, GA      Purchase                                  $540,000     N/A                 3/30/2011                           $725,276                                                  $1,000        $1,032            $3,000              $5,032
                                                        Home Loan                                                                                                   reallocation
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($11)         $725,265
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($8)         $725,257
                                                                                                                                                                    reallocation
                                                        Financial                                                    7/14/2010       $4,440,000        $5,500,000   Updated portfolio data from servicer
            Urban Trust Bank,                           Instrument for
3/3/2010                                  Purchase                                 $1,060,000    N/A                                                                                                                  $—            $—                 $—                  $—
            Lake May, FL                                Home Loan                                                    9/24/2010      ($5,500,000)               $0   Termination of SPA
                                                        Modifications
                                                                                                                     5/26/2010         $120,000       $28,160,000   Initial 2MP cap
                                                                                                                     7/14/2010     ($12,660,000)      $15,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $100,000       $15,600,000   Initial FHA-HAMP cap
                                                                                                                     9/30/2010      ($3,125,218)      $12,474,782   Updated portfolio data from servicer
                                                        Financial                                                   11/16/2010         $800,000       $13,274,782   Transfer of cap due to servicing transfer
            iServe Servicing, Inc.,                     Instrument for
3/5/2010                                  Purchase                               $28,040,000     N/A                  1/6/2011             ($20)      $13,274,762   Updated portfolio data from servicer              $—            $—                 $—                  $—
            Irving, TX                                  Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($24)      $13,274,738
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($221)      $13,274,517
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($169)      $13,274,348
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  309
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                310
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   7/14/2010      ($44,880,000)      $15,900,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $1,071,505       $16,971,505   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($23)      $16,971,482   Updated portfolio data from servicer
                                                       Financial
            Navy Federal Credit Union,                 Instrument for                                                                                              Updated due to quarterly assessment and
3/10/2010                                Purchase                               $60,780,000     N/A                3/30/2011              ($26)      $16,971,456                                                $123,165      $464,920         $342,715             $930,801
            Vienna, VA                                 Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($238)      $16,971,218
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($145)      $16,971,073
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2010          $400,000          $700,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $25,278          $725,278   Updated portfolio data from servicer
                                                                                                                    1/6/2011                            $725,277   Updated portfolio data from servicer
                                                       Financial
            Vist Financial Corp,                       Instrument for                                                                                              Updated due to quarterly assessment and
3/10/2010                                Purchase                                  $300,000     N/A                3/30/2011                            $725,276                                                     $—            $—                 $—                  $—
            Wyomissing, PA                             Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($11)         $725,265
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($8)         $725,257
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2010          $300,000          $600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010          ($19,778)         $580,222   Updated portfolio data from servicer

                                                       Financial                                                    1/6/2011                            $580,221   Updated portfolio data from servicer
            Midwest Bank and Trust                     Instrument for                                                                                              Updated due to quarterly assessment and
4/14/2010                                Purchase                                  $300,000     N/A                3/30/2011                            $580,220                                                     $—            $—                 $—                  $—
            Co., Elmwood Park, IL                      Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2011        ($580,212)                $0   Termination of SPA
                                                                                                                   7/14/2010        ($150,000)        $6,400,000   Updated portfolio data from servicer
                                                                                                                   9/15/2010        $1,600,000        $8,000,000   Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010       ($4,352,173)       $3,647,827   Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($5)       $3,647,822   Updated portfolio data from servicer
                                                       Financial
            Wealthbridge Mortgage                      Instrument for                                                                                              Updated due to quarterly assessment and
4/14/2010                                Purchase                                 $6,550,000    N/A                3/30/2011               ($6)       $3,647,816                                                     $—            $—                 $—                  $—
            Corp, Beaverton, OR                        Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                   4/13/2011       ($3,000,000)         $647,816   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($9)         $647,807
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($7)         $647,800
                                                                                                                                                                   reallocation
                                                                                                                   5/26/2010           $30,000           $40,000   Updated FHA-HAMP cap

                                                       Financial                                                   9/30/2010          $250,111          $290,111   Updated portfolio data from servicer
            Aurora Financial Group,                    Instrument for                                                                                              Updated due to quarterly assessment and
5/21/2010                                Purchase                                    $10,000    N/A         4, 8   6/29/2011           $59,889          $350,000                                                 $20,251           $—           $23,239              $43,490
            Inc., Marlton, NJ                          Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($2)         $349,998
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                    Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives    Incentives        Incentives           Payments
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due
                                                                                                                     6/16/2010       $3,680,000        $3,680,000
                                                                                                                                                                    to servicing transfer
                                                                                                                     8/13/2010       $3,300,000        $6,980,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010       $3,043,831       $10,023,831   Updated portfolio data from servicer
                                                                                                                    10/15/2010       $1,400,000       $11,423,831   Transfer of cap due to servicing transfer
                                                                                                                      1/6/2011             ($17)      $11,423,814   Updated portfolio data from servicer
                                                                                                                     3/16/2011       $2,100,000       $13,523,814   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($24)      $13,523,790
                                                                                                                                                                    reallocation
                                                        Financial
            Selene Finance LP,                          Instrument for                                               4/13/2011       $2,900,000       $16,423,790   Transfer of cap due to servicing transfer
6/16/2010                                 Purchase                                        $—     N/A         9                                                                                                      $13,083       $36,712          $21,500              $71,295
            Houston TX                                  Home Loan                                                    6/16/2011       ($200,000)       $16,223,790   Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($273)      $16,223,517
                                                                                                                                                                    reallocation
                                                                                                                    10/14/2011        $100,000        $16,323,517   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $1,100,000       $17,423,517   Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012        $200,000        $17,623,517   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012          $10,000       $17,633,517   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       ($300,000)       $17,333,517   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($218)      $17,333,299
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $1,585,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
            Suburban Mortgage                                                                                        3/30/2011              ($4)       $2,465,937
                                                        Instrument for                                                                                              reallocation
8/4/2010    Company of New Mexico,        Purchase                                  $880,000     N/A                                                                                                                    $—            $—                 $—                  $—
                                                        Home Loan
            Albuquerque, MN                                                                                                                                         Updated due to quarterly assessment and
                                                        Modifications                                                6/29/2011             ($40)       $2,465,897
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($30)       $2,465,867
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $1,040,667        $1,740,667   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($2)       $1,740,665   Updated portfolio data from servicer
                                                        Financial
                                                                                                                                                                    Updated due to quarterly assessment and
            Bramble Savings Bank,                       Instrument for                                               3/30/2011              ($3)       $1,740,662
8/20/2010                                 Purchase                                  $700,000     N/A                                                                reallocation                                        $—            $—                 $—                  $—
            Cincinati, OH                               Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($28)       $1,740,634
                                                                                                                                                                    reallocation
                                                                                                                     8/10/2011      ($1,740,634)               $0   Termination of SPA
                                                                                                                     9/30/2010       $2,181,334        $3,481,334   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($5)       $3,481,329   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($6)       $3,481,323
            Pathfinder Bank,                            Instrument for                                                                                              reallocation
8/25/2010                                 Purchase                                 $1,300,000    N/A                                                                                                                 $1,917        $2,453            $4,517              $8,886
            Oswego, NY                                  Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($58)       $3,481,265
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($43)       $3,481,222
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $7,014,337       $11,314,337   Updated portfolio data from servicer
                                                                                                                      1/6/2011             ($17)      $11,314,320   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($20)      $11,314,300
            First Financial Bank, N.A.,                 Instrument for                                                                                              reallocation
8/27/2010                                 Purchase                                 $4,300,000    N/A                                                                                                                    $—            $—                 $—                  $—
            Terre Haute, ID                             Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($192)      $11,314,108
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($144)      $11,313,964
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    311
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                               312
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                 Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                    9/30/2010         $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                     1/6/2011         $34,944          $180,000   Updated portfolio data from servicer

                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011         $40,000          $220,000
            RBC Bank (USA),                            Instrument for                                                                                             reallocation
9/1/2010                                 Purchase                                  $100,000     N/A         4, 8                                                                                                    $—            $—                 $—                  $—
            Raleigh, NC                                Home Loan                                                                                                  Updated due to quarterly assessment and
                                                       Modifications                                                6/29/2011         $50,000          $270,000
                                                                                                                                                                  reallocation
                                                                                                                    3/15/2012       ($200,000)          $70,000   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012        ($10,000)          $60,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010       $5,168,169       $8,268,169   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($12)       $8,268,157   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($15)       $8,268,142
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011        $400,000        $8,668,142   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011           ($143)       $8,667,999
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                       Financial                                                    9/15/2011        $700,000        $9,367,999   Transfer of cap due to servicing transfer
            Fay Servicing, LLC,                        Instrument for
9/3/2010                                 Purchase                                 $3,100,000    N/A                                                                                                            $190,805      $381,596         $196,972             $769,373
            Chicago, IL                                Home Loan                                                   10/14/2011        $100,000        $9,467,999   Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                   11/16/2011        $200,000        $9,667,999   Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $1,700,000      $11,367,999   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012       $1,600,000      $12,967,999   Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012         $40,000       $13,007,999   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012       ($210,000)      $12,797,999   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012           ($105)      $12,797,894
                                                                                                                                                                  reallocation
                                                                                                                    9/15/2010       $1,000,000       $1,000,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($2)       $1,450,554   Updated portfolio data from servicer
                                                                                                                    2/16/2011       $3,000,000       $4,450,554   Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011      $10,200,000      $14,650,554   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                       Financial                                                    3/30/2011            ($24)      $14,650,530
                                                                                                                                                                  reallocation
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                        $—     N/A         9                                                     Updated due to quarterly assessment and      $221,360      $736,559         $829,551           $1,787,470
            Oklahoma City, OK                          Home Loan                                                    6/29/2011           ($227)      $14,650,303
                                                       Modifications                                                                                              reallocation
                                                                                                                    7/14/2011      $12,000,000      $26,650,303   Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $4,100,000      $30,750,303   Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        $900,000       $31,650,303   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012        $300,000       $31,950,303   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012           ($266)      $31,950,037
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010        $180,222          $580,222   Updated portfolio data from servicer
                                                                                                                     1/6/2011                          $580,221   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011                          $580,220
            Midwest Community Bank,                    Instrument for                                                                                             reallocation
9/15/2010                                Purchase                                  $400,000     N/A                                                                                                              $1,000        $1,181            $2,000              $4,181
            Freeport, IL                               Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($8)         $580,212
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012             ($6)         $580,206
                                                                                                                                                                  reallocation
                                                       Financial                                                    9/30/2010         $45,056          $145,056   Updated portfolio data from servicer
            American Finance House                     Instrument for
9/24/2010                                Purchase                                  $100,000     N/A                                                                                                                 $—            $—                 $—                  $—
            LARIBA, Pasadena, CA                       Home Loan                                                     2/2/2011       ($145,056)               $0   Termination of SPA
                                                       Modifications
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments

                                                      Financial                                                   9/30/2010         $856,056         $2,756,056   Updated portfolio data from servicer
                                                      Instrument for
9/24/2010   Centrue Bank, Ottawa, CA    Purchase                                 $1,900,000    N/A                 1/6/2011               ($4)       $2,756,052   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                      Home Loan
                                                      Modifications                                                3/9/2011       ($2,756,052)               $0   Termination of SPA
                                                      Financial                                                   9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A                                                                                                                $—            $—                 $—                  $—
            Columbia, SC                              Home Loan                                                   3/23/2011        ($145,056)                $0   Termination of SPA
                                                      Modifications
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Amarillo National Bank,                   Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Amarillo, TX                              Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
            American Financial                                                                                                                                    Updated due to quarterly assessment and
                                                      Instrument for                                              6/29/2011                            $145,055
9/30/2010   Resources Inc.,             Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
                                                      Home Loan
            Parsippany, NJ
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010         $765,945         $2,465,945   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)       $2,465,942   Updated portfolio data from servicer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)       $2,465,938
            Banco Popular de Puerto                   Instrument for                                       4,                                                     reallocation
9/30/2010                               Purchase                                 $1,700,000    N/A                                                                                                                $—            $—                 $—                  $—
            Rico, San Juan, PR                        Home Loan                                            5, 8
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($36)       $2,465,902
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($30)       $2,465,872
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
            Capital International                                                                                                                                 Updated due to quarterly assessment and
                                                      Instrument for                                              6/29/2011                            $145,055
9/30/2010   Financial, Inc.,            Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
                                                      Home Loan
            Coral Gables, FL
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation

                                                      Financial                                                   9/30/2010         $360,445         $1,160,445   Updated portfolio data from servicer
            Citizens Community Bank,                  Instrument for
9/24/2010                               Purchase                                  $800,000     N/A                 1/6/2011               ($2)       $1,160,443   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Freeburg, IL                              Home Loan
                                                      Modifications                                               3/23/2011       ($1,160,443)               $0   Termination of SPA
                                                                                                                  9/30/2010         $901,112         $2,901,112   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)       $2,901,108   Updated portfolio data from servicer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($5)       $2,901,103
            Community Credit Union of                 Instrument for                                                                                              reallocation
9/30/2010                               Purchase                                 $2,000,000    N/A         6                                                                                                      $—            $—                 $—                  $—
            Florida, Rockledge, FL                    Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($48)       $2,901,055
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($36)       $2,901,019
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            CU Mortgage Services,                     Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Inc., New Brighton, MN                    Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            First Federal Bank of                     Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Florida, Lake City FL                     Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              313
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                             314
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                               Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
            First Mortgage                                                                                                                                        Updated due to quarterly assessment and
                                                       Instrument for                                              6/29/2011                           $145,055
9/30/2010   Corporation, Diamond,        Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                 $1,000           $—             $1,000              $2,000
                                                       Home Loan
            Bar, CA
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation

                                                       Financial                                                   9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
            First Safety Bank,                         Instrument for
9/30/2010                                Purchase                                  $400,000     N/A                 1/6/2011                           $580,221   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Cincinati, OH                              Home Loan
                                                       Modifications                                               3/23/2011        ($580,221)               $0   Termination of SPA
                                                                                                                   9/30/2010         $360,445        $1,160,445   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($2)       $1,160,443   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,160,441
            Flagstar Capital Markets                   Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                  $800,000     N/A         7, 8                                                                                                  $—            $—                 $—                  $—
            Corporation, Troy, MI                      Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($18)       $1,160,423
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($14)       $1,160,409
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $765,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($4)       $2,465,937
            Franklin Savings,                          Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                 $1,700,000    N/A         4                                                                                                    $750        $2,331            $3,000              $6,081
            Cincinati, OH                              Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($40)       $2,465,897
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($30)       $2,465,867
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Gateway Mortgage Group,                    Instrument for                                              6/29/2011                           $145,055
9/30/2010                                Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                    $—            $—                 $—                  $—
            LLC, Tulsa, OK                             Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation
                                                       Financial                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                                  $100,000     N/A                                                                                                               $—            $—                 $—                  $—
            Gardner, MA                                Home Loan                                                   3/23/2011        ($145,056)               $0   Termination of SPA
                                                       Modifications
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Guaranty Bank,                             Instrument for                                              6/29/2011                           $145,055
9/30/2010                                Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                   $917           $—             $1,000              $1,917
            Saint Paul, MN                             Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $135,167          $435,167   Updated portfolio data from servicer
                                                                                                                    1/6/2011                           $435,166   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011                           $435,165
            James B. Nutter &                          Instrument for                                                                                             reallocation
9/24/2010                                Purchase                                  $300,000     N/A         4, 8                                                                                                 $750           $—             $1,000              $1,750
            Company, Kansas City, MO                   Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($6)         $435,159
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($4)         $435,155
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,450,552
            Liberty Bank and Trust Co,                 Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                 $1,000,000    N/A                                                                                                               $—            $—                 $—                  $—
            New Orleans, LA                            Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($23)       $1,450,529
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($17)       $1,450,512
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                 9/30/2010         $315,389         $1,015,389   Updated portfolio data from servicer
                                                                                                                  1/6/2011                          $1,015,388   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                 3/30/2011                          $1,015,387
                                                     Instrument for                                                                                              reallocation
9/30/2010   M&T Bank, Buffalo, NY      Purchase                                  $700,000     N/A         4, 8                                                                                               $27,357           $—           $29,587              $56,944
                                                     Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($11)       $1,015,376
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($11)       $1,015,365
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010         $630,778         $2,030,778   Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($3)       $2,030,775   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                 3/30/2011               ($3)       $2,030,772
            Magna Bank,                              Instrument for                                                                                              reallocation
9/30/2010                              Purchase                                 $1,400,000    N/A         5                                                                                                      $—            $—                 $—                  $—
            Germanton, TN                            Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($33)       $2,030,739
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($25)       $2,030,714
                                                                                                                                                                 reallocation

                                                     Financial                                                   9/30/2010         $225,278           $725,278   Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                 1/6/2011                            $725,277   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Lexena, KS                               Home Loan
                                                     Modifications                                                3/9/2011        ($725,277)                $0   Termination of SPA
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Marsh Associates, Inc.,                  Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                 $3,710           $—             $4,057              $7,767
            Charlotte, NC                            Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010       $49,915,806       $93,415,806   Updated portfolio data from servicer
                                                                                                                  1/6/2011            ($125)       $93,415,681   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
            Midland Mortgage                                                                                     3/30/2011            ($139)       $93,415,542
                                                     Instrument for                                                                                              reallocation
9/30/2010   Company, Oklahoma          Purchase                               $43,500,000     N/A         4, 5                                                                                             $1,512,973     $202,355        $1,940,729          $3,656,057
                                                     Home Loan
            City, OK                                                                                                                                             Updated due to quarterly assessment and
                                                     Modifications                                               6/29/2011           ($1,223)      $93,414,319
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($797)       $93,413,522
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Schmidt Mortgage                         Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Company, Rocky River, OH                 Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Stockman Bank of                         Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Montana, Miles City, MT                  Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation

                                                     Financial                                                   9/30/2010         $270,334           $870,334   Updated portfolio data from servicer
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                                  $600,000     N/A                 1/6/2011                            $870,333   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications                                               2/17/2011        ($870,333)                $0   Termination of SPA
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Weststar Mortgage, Inc.,                 Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Woodbridge, VA                           Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             315
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                316
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     12/15/2010       $5,000,000        $5,000,000   Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($7)       $4,999,993   Updated portfolio data from servicer
                                                                                                                      2/16/2011        $500,000         $5,499,993   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011        $100,000         $5,599,993   Transfer of cap due to servicing transfer
                                                         Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($9)       $5,599,984
             Statebridge Company, LLC,                   Instrument for                                                                                              reallocation
12/15/2010                                 Purchase                                        $—     N/A         9                                                                                                        $—            $—                 $—                  $—
             Denver, CO                                  Home Loan
                                                         Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($85)       $5,599,899
                                                                                                                                                                     reallocation
                                                                                                                     11/16/2011      ($2,500,000)       $3,099,899   Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012        $200,000         $3,299,899   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($40)       $3,299,859
                                                                                                                                                                     reallocation
                                                                                                                     12/15/2010       $4,300,000        $4,300,000   Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($4)       $4,299,996   Updated portfolio data from servicer
             Scotiabank de Puerto Rico,                  Instrument for                                                                                              Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




12/15/2010                                 Purchase                                        $—     N/A         9       6/29/2011              ($5)       $4,299,991                                                $211,257      $359,748         $245,752             $816,757
             San Juan, PR                                Home Loan                                                                                                   reallocation
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($23)       $4,299,968
                                                                                                                                                                     reallocation
                                                                                                                      4/13/2011        $200,000           $200,000   Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011        $100,000           $300,000   Transfer of cap due to servicing transfer

                                                         Financial                                                    6/16/2011        $300,000           $600,000   Transfer of cap due to servicing transfer
             AmTrust Bank, A Division of
                                                         Instrument for                                                                                              Updated due to quarterly assessment and
4/13/2011    New York Community Bank,      Purchase                                        $—     N/A         9       6/29/2011              ($9)         $599,991                                                  $6,000       $26,773          $14,200              $46,973
                                                         Home Loan                                                                                                   reallocation
             Cleveland, OH
                                                         Modifications
                                                                                                                      8/16/2011        $200,000           $799,991   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012              ($7)         $799,984
                                                                                                                                                                     reallocation
                                                         Financial
             SunTrust Mortgage, Inc.,                    Instrument for
4/13/2011                                  Purchase                                        $—     N/A         9       4/13/2011        $100,000           $100,000   Transfer of cap due to servicing transfer         $—            $—                 $—                  $—
             Richmond, VA                                Home Loan
                                                         Modifications
                                                                                                                      4/13/2011       $1,000,000        $1,000,000   Transfer of cap due to servicing transfer

                                                         Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011        $233,268         $1,233,268
             Urban Partnership Bank,                     Instrument for                                                                                              reallocation
4/13/2011                                  Purchase                                        $—     N/A         9                                                                                                    $75,461      $170,651          $80,406             $326,518
             Chicago, IL                                 Home Loan                                                   11/16/2011        $100,000         $1,333,268   Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012              ($3)       $1,333,265
                                                                                                                                                                     reallocation
                                                         Financial                                                    4/13/2011        $200,000           $200,000   Transfer of cap due to servicing transfer
             Western Federal Credit                      Instrument for
4/13/2011                                  Purchase                                        $—     N/A         9                                                      Updated due to quarterly assessment and        $7,417       $24,661          $10,917              $42,995
             Union, Hawthorne, CA                        Home Loan                                                    6/29/2011          $17,687          $217,687
                                                         Modifications                                                                                               reallocation

                                                                                                                      5/13/2011        $500,000           $500,000   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011        $100,000           $600,000   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)         $599,991
                                                                                                                                                                     reallocation

                                                         Financial                                                    7/14/2011        $200,000           $799,991   Transfer of cap due to servicing transfer
             FCI Lender Services, Inc.,                  Instrument for
5/13/2011                                  Purchase                                        $—     N/A         9       9/15/2011        $100,000           $899,991   Transfer of cap due to servicing transfer     $13,957       $26,218          $15,416              $55,591
             Anaheim Hills, CA                           Home Loan
                                                         Modifications                                               11/16/2011       $2,500,000        $3,399,991   Transfer of cap due to servicing transfer
                                                                                                                      5/16/2012       $1,510,000        $4,909,991   Transfer of cap due to servicing transfer
                                                                                                                      6/14/2012        $450,000         $5,359,991   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($66)       $5,359,925
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (CONTINUED)
                  Servicer Modifying Borrowers’ Loans                                                                                                                    Adjustment Details                                                                            TARP Incentive Payments
                                                                                      Cap of Incentive
                                                                                  Payments on Behalf
                                                                                  of Borrowers and to                                                                                                                                                                     Lenders/                                 Total TARP
                                              Transaction     Investment         Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                               Borrower’s              Investors            Servicers             Incentive
Date            Name of Institution           Type            Description             Investors (Cap)1     Mechanism      Note            Date              Amount          Adjusted Cap Reason for Adjustment                                    Incentives             Incentives           Incentives            Payments
                                                                                                                                     7/14/2011              $200,000            $200,000    Transfer of cap due to servicing transfer
                                                              Financial                                                             11/16/2011              $900,000          $1,100,000    Transfer of cap due to servicing transfer
                Gregory Funding, LLC,                         Instrument for
7/14/2011                                     Purchase                                              $—     N/A            9          1/13/2012              $100,000          $1,200,000    Transfer of cap due to servicing transfer                $34,410               $73,993              $36,391              $144,794
                Beaverton, OR                                 Home Loan
                                                              Modifications
                                                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                                                     6/28/2012                    ($9)        $1,199,991
                                                                                                                                                                                            reallocation
                                                              Financial
                Bangor Savings Bank,                          Instrument for
9/15/2011                                     Purchase                                              $—     N/A            9          9/15/2011              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Bangor, ME                                    Home Loan
                                                              Modifications
                                                              Financial                                                              9/15/2011            $1,300,000          $1,300,000    Transfer of cap due to servicing transfer
                PHH Mortgage                                  Instrument for
9/15/2011                                     Purchase                                              $—     N/A            9                                                                 Updated due to quarterly assessment and                       $—                    $—                   $—                       $—
                Corporation, Mt. Laurel, NJ                   Home Loan                                                              6/28/2012                   ($15)        $1,299,985
                                                              Modifications                                                                                                                 reallocation

                                                                                                                                    12/15/2011              $200,000            $200,000    Transfer of cap due to servicing transfer
                                                              Financial
                Rushmore Loan
                                                              Instrument for                                                         4/16/2012              $600,000            $800,000    Transfer of cap due to servicing transfer
12/15/2011      Management Services LLC,      Purchase                                              $—     N/A            9                                                                                                                           $9,583               $61,440              $20,250               $91,274
                                                              Home Loan
                Irvine, CA                                                                                                                                                                  Updated due to quarterly assessment and
                                                              Modifications                                                          6/28/2012                    ($3)          $799,997
                                                                                                                                                                                            reallocation
                                                              Financial
                Sun West Mortgage                             Instrument for
1/13/2012                                     Purchase                                              $—     N/A            9          1/13/2012              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Company, Inc, Cerritos, CA                    Home Loan
                                                              Modifications
                                                              Financial
                PrimeWest Mortgage                            Instrument for
3/15/2012                                     Purchase                                              $—     N/A            9          3/15/2012              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Corporation, Lubbock, TX                      Home Loan
                                                              Modifications
                                                              Financial                                                              6/14/2012              $940,000            $940,000    Transfer of cap due to servicing transfer
                Resurgent Capital
                                                              Instrument for
6/14/2012       Solutions, LP,                Purchase                                              $—     N/A            9                                                                 Updated due to quarterly assessment and                       $—                    $—               $1,000                $1,000
                                                              Home Loan                                                              6/28/2012              $205,242          $1,145,242
                Greenville, SC                                                                                                                                                              reallocation
                                                              Modifications
                                                            Total Initial Cap        $23,831,570,000                    Total Cap Adjustments       $6,049,733,607                                                               Totals       $644,315,055       $1,587,471,355       $1,177,908,534         $3,409,694,944
                                                                                                                      Total Cap                    $29,881,303,607
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
   individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with JPMorgan Chase Bank, NA, and EMC Mortgage Corporation.
3
 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/1/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JPMorgan Chase & Co, transferred the servicing of all loans to JPMorgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.
                                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                                   317
                                                                                                                                                                                                                              318
Table D.13
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                   Seller
       Trade                                                                                  Transaction                                          Initial Investment           Additional       Investment   Pricing
Note   Date        Name of Institution                                                        Type          Investment Description                            Amount    Investment Amount           Amount1   Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program      $102,800,000                     —                      N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                  —           $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $57,169,659                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $699,600,000                     —                      N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                  —          $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $799,477,026                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $418,000,000                     —                      N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                  —          $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $400,974,381                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $125,100,000                     —                      N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                        $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $142,666,006                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $154,500,000                     —                      N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                  —          $128,461,559     $498,605,738    N/A
                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $215,644,179                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $159,000,000                     —                      N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                  —          $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $202,907,565                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $172,000,000                     —                      N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                  —          $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $249,666,235                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $88,000,000                     —                      N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                  —           $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $82,748,571                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $43,000,000                     —                      N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                  —           $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $22,780,803                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $138,000,000                     —                      N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                  —           $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $98,659,200                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $60,672,471                     —                      N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                        $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $101,848,874                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $55,588,050                     —                      N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                        $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $93,313,825                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $38,036,950                     —                      N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                        $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $63,851,373                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $126,650,987                     —                      N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                        $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $212,604,832                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $82,762,859                     —                      N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                        $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $138,931,280                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $166,352,726                     —                      N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                        $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $279,250,831                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $112,200,637                     —                      N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                        $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $188,347,507                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program         $7,726,678                    —                      N/A
                   District of Columbia Housing Finance Agency, Washington, DC                Purchase                                                                                         $20,697,198
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $12,970,520                     N/A
                                                                                                                                                                                                     Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012                                                                                                 (CONTINUED)
                       Seller
        Trade                                                                                            Transaction                                                    Initial Investment             Additional               Investment     Pricing
Note    Date           Name of Institution                                                               Type              Investment Description                                  Amount      Investment Amount                   Amount1     Mechanism
        9/23/2010                                                                                                          Financial Instrument for HHF Program              $81,128,260                           —                           N/A
                       Tennessee Housing Development Agency, Nashville, TN                               Purchase                                                                                                            $217,315,593
3       9/29/2010                                                                                                          Financial Instrument for HHF Program                         —             $136,187,333                             N/A
                                                                                                                                                                       Total Investment Amount                            $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	 The purchase will be incrementally funded up to the investment amount.
2
 	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.




Table D.14
FHA SHORT REFINANCE PROGRAM, AS OF 6/30/2012
Note        Trade Date            Seller Name                      Transaction Type       Investment Description                                                                                                                     Investment Amount        Pricing Mechanism
1           9/3/2010              Citigroup, Inc., New York, NY    Purchase               Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                       $8,117,000,000      N/A
                                                                                                                                                                                               Total Investment Amount                  $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
   “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
   then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                     319
320              Appendix E I Cross-Reference of Report to the Inspector General Act of 1978 | July 25, 2012




      Cross-Reference of Report to the Inspector General
      Act of 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix G: “Key Oversight Reports and
      5(a)(5)      where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
                   provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   Section 1: “The Office of the SIGTARP”
      Section
                   reports and the total dollar value of questioned        value of questioned costs from SIGTARP
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   costs...”                                               audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                      public announcements of audits I Appendix F I July 25, 2012   321




Public Announcements of Audits
This appendix provides an announcement of new and                GAO3
ongoing public audits by the agencies listed below. See          Ongoing Audits
Appendix G: “Key Oversight Reports and Testimony” for a          •	 A look at MHA and especially the Hardest Hit program
listing of published reports. Italic style indicates narrative      which will come in July.
taken verbatim from the agencies’ responses to SIGTARP’s         •	 Management and oversight of conflicts of interest in
data call.                                                          contracts for September.
•	 U.S. Department of Treasury Office of Inspector General       •	 Financial Audit will come in November.
    (“Treasury OIG”)                                             •	 Overview report is scheduled for January.
•	 Federal Reserve Board Office of Inspector General
    (“Federal Reserve OIG”)                                      FDIC OIG4
•	 Government Accountability Office (“GAO”)                      Ongoing Audits
•	 Federal Deposit Insurance Corporation Office of Inspector     FDIC OIG’s ongoing material loss review of Tennessee
    General (“FDIC OIG”)                                         Commerce Bank (TCB) will include reference to TARP funds.
                                                                 In October 2008, TNCC (the holding company) submitted
Treasury OIG1                                                    an application for the TARP Capital Purchase Program
Ongoing Audits                                                   and, upon FDIC review and approval, issued $30 million
•	 None                                                          in preferred shares to the U.S. Treasury under the Capital
                                                                 Purchase Program on December 19, 2008. Of this amount,
Federal Reserve OIG2                                             approximately $24 million was down-streamed to TCB. This
Ongoing Audits                                                   work is not yet complete.
•	 None
                                                                 Endnotes
                                                                 1
                                                                  	 Treasury OIG, response to SIGTARP data call, 7/3/2012.
                                                                 2
                                                                  	 Federal Reserve OIG, response to SIGTARP data call, 7/3/2012.
                                                                 3
                                                                  	 GAO, response to SIGTARP data call, 7/3/2012.
                                                                 4
                                                                  	 FDIC OIG, response to SIGTARP data call, 7/2/2012.
322            Appendix g I key oversight reports and testimonY I July 25, 2012




      Key Oversight Reports and Testimony
      This list reflects TARP-related reports and testimony published in the quarter ended June 30, 2012.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
      promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
      advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
      institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 4/2/2012 – 6/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      Pages/default.aspx, accessed 7/5/2012. (released weekly)

      Treasury, Daily TARP Update, 4/2/2012 – 7/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-
      report/Pages/default.aspx, accessed 7/5/2012.

      Treasury, TARP Monthly 105(a) Report, 4/10/2012 – 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
      default.aspx, accessed 7/10/2012.

      Treasury, Dividends and Interest Report, 4/10/2012 – 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-
      interest/Pages/default.aspx, accessed 7/10/2012. (released monthly)

      Treasury, Making Home Affordable Program Report, 4/6/2012 – 7/6/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Pages/default.aspx, accessed 7/11/2012. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 4/6/2012 – 7/6/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-
      Reports/Pages/default.aspx, accessed 7/11/2012. (released monthly)



      U.S. DEPARTMENT OF THE TREASURY OFFICE OF THE INSPECTOR GENERAL (TREASURY OIG)
      ROLES AND MISSION

      The Office of Inspector General promotes the economy, efficiency, and effectiveness of Treasury programs and operations, and protects against fraud,
      waste, and abuse, to assist and augment the Treasury’s contribution to stability and public confidence in the nation’s financial system.

      OVERSIGHT REPORTS

      Treasury OIG, Safety and Soundness: Material Loss Review of Integra Bank, National Association, OIG-12-050 (4/12/2012), www.treasury.gov/about/
      organizational-structure/ig/Audit%20Reports%20and%20Testimonies/OIG12050.pdf, accessed 7/5/2012.
                                                                                                   key oversight reports and testimonY I Appendix g I July 25, 2012                  323




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Foreclosure Mitigation: Agencies Could Improve Effectiveness of Federal Efforts with Additional Data Collection and Analysis,” GAO-12-296,
June 28, 2012, www.gao.gov/assets/600/592028.pdf, accessed 7/5/2012.

GAO, “Troubled Asset Relief Program: Government’s Exposure to AIG Lessens as Equity Investments Are Sold,” GAO-12-574, May 7, 2012, www.gao.gov/
assets/600/590677.pdf, accessed 7/5/2012.



SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf,
accessed 7/19/2012.

SIGTARP, “Quarterly Report to Congress,” 4/25/2012, www.sigtarp.gov/Quarterly%20Reports/April_25_2012_Report_to_Congress.pdf, accessed
7/6/2012.

SIGTARP, “The NPV Test’s Impact on HAMP,” 6/18/2012, www.sigtarp.gov/Audit%20Reports/NPV_Report.pdf, accessed 7/11/2012.

RECORDED TESTIMONY

SIGTARP, Written Testimony of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Before
the U.S. Senate Committee on Homeland Security and Governmental Affairs Subcommittee on Oversight of Government Management, the Federal
Workforce, and the District of Columbia, 4/26/2012, www.sigtarp.gov/Testimony/SIGTARP_Testimony_Financial_Literacy_Hearing_4-26-12.pdf,
accessed 7/6/2012.

SIGTARP, Written Testimony of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Before the U.S.
House Committee on Oversight and Reform Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs, 7/10/2012, www.
sigtarp.gov/Testimony/SIGTARP_Testimony_Delphi_Hearing.pdf, accessed 7/19/2012.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 7/5/2012; Treasury OIG, www.treasury.gov, accessed 7/5/2012; GAO, www.gao.gov, accessed 7/5/2012; SIGTARP, www.sigtarp.gov, accessed
7/5/2012; GAO, response to SIGTARP data call, 7/3/2012; Treasury, response to SIGTARP data call, 7/5/2012; Treasury OIG, response to SIGTARP data call, 7/3/2012.
324           Appendix h I correspondence I July 25, 2012                                                                                   324




      Correspondence
      This appendix provides a copy of the following correspondence:

      Correspondence
      Date            From                  To              Regarding
      5/1/2012        Treasury              SIGTARP         Response to SIGTARP’s Recommendation on Hardest Hit Fund Information Security
      7/10/2012       Treasury              SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
                      Treasury, Office of
      7/10/2012                             SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
                      the Special Master
      7/19/2012       Treasury              SIGTARP         Treasury Response to SIGTARP HAMP Tier 2 Recommendations
correspondence I Appendix h I July 25, 2012   325
326   Appendix h I correspondence I July 25, 2012
correspondence I Appendix h I July 25, 2012   327
328   Appendix h I correspondence I July 25, 2012
correspondence I Appendix h I July 25, 2012   329
330   Appendix h I correspondence I July 25, 2012
correspondence I Appendix h I July 25, 2012   331
332   Appendix h I correspondence I July 25, 2012
Organizational Chart
                                                                                   Special Inspector General
                                                                                       Christy Romero

                                                                                                                                                                              EEO Program
                                                                                                                                                                                Manager
                                                                                                                                                                              Raymond Campbell
                                                                                          Deputy Special
                                                                                        Inspector General
                                                                                           Peggy Ellen
                                          Chief of Staff                                                       Senior Policy Advisor                      General Counsel
                                           Mia Levine                                                                Brian Sano                       Roderick Fillinger



                                                                                                                                          Director of                    Director of
                                                                                                                                        Communications                Legislative Affairs
                                                                                                                                           Troy Gravitt               Joseph Cwiklinski




                         Deputy SIG –                                                     Deputy SIG –                                                                                  Deputy SIG –
                        Investigations                                                     Audit and                                                                                     Operations
                         Scott Rebein                                                     Evaluations
                                                                                                                                                                                          Cathy Alix
                                                                                           Kurt Hyde


 Chief Investigative         ADSIG                                                         Assistant                                 Director of Policy        ADSIG − Special           ADSIG − HR            ADSIG − CIO        ADSIG − CFO
      Counsel             Thomas Kelly                                                    Deputy SIG –                              and Administration            Programs
                                                                                                                                                                                            Sally Ruble           Vacant          Deborah Mathis
   Michael Rivera                                                                          Audit and                                    Judith Grady            Lynn Perkoski
                                                                                          Evaluations
                          Investigative                                                 Kimberley Caprio
Investigative Counsel      Operations



                                                HQ Operations



                                                   Hotline

                                                                       Director              Director              Director              Director                  Director                  Director            Director
                                             Computer Forensics
                                                                   Leslyee Burgess        Brenda James           Craig Meklir           Eric Mader              Clayton Boyce            Joan Becker         Danial Olberding



                                                                  Auditors & Analysts   Auditors & Analysts   Auditors & Analysts   Auditors & Analysts       Auditors & Analysts     Auditors & Analysts   Auditors & Analysts




    Note: SIGTARP organizational chart as of 7/2/2012.
                                                                                                                                                                                                                                                   organizational chart I Appendix I I July 25, 2012
                                                                                                                                                                                                                                                   333
MISSION
SIGTARP’s Mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                        SIGTARP: Quarterly Report to Congress | July 25, 2012
                                                                                                        C
                                                                                                   INSPE TOR GEN
                                                                                              AL                E
                                                                                           CI




                                                                                                                           RA
                                                                                       E
                                                                                     SP




                                                                                                                               L
                                                                                                                               M
                                                                                    TRO




                                                                                                                           RA
                                                                                          LE




                                                                                     UB




                                                                                                                      OG
                                                                                               DA                          R
                                                                                                    S S E T R E LI E F P




SIGTARP
SIG-QR-12-03
                         Q3
                        2012
                                                                                SIGTARP                                            Office of the Special Inspector General
                                                                                                                                   for the Troubled Asset Relief Program
                                                                                Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                               Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                               July 25, 2012
www.SIGTARP.gov
